MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”), as amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
                                                                                                                              C
                                                                                                                         INSPE TOR GEN
                                                                                                                    AL                E
                                                                                                               CI




                                                                                                                                                RA
                                                                                                           E
                                                                                                         SP




                                                                                                                                                    L
Message from the Special Inspector General




                                                                                                                                                    M
                                                                                                        TRO




                                                                                                                                                RA
                                                                                                              LE




                                                                                                         UB




                                                                                                                                           OG
                                                                                                                   DA                           R
                                                                                                                         S S E T R E LI E F P

I am pleased to present the April 2013 Quarterly Report to Congress of the Office of the Special
Inspector General for the Troubled Asset Relief Program (“SIGTARP”). SIGTARP is a criminal law
enforcement agency and the watchdog over the Troubled Asset Relief Program (“TARP”). Our mission
is to advance economic stability through transparency, coordinated oversight, and robust enforcement.
SIGTARP continues to root out and stop crime related to TARP, hold fraudsters accountable, and
bring justice to American taxpayers who funded TARP. SIGTARP is proud to co-chair the Rescue
Fraud Working Group of the President’s Financial Fraud Enforcement Task Force, and we are
delivering results through SIGTARP investigations with our partners: 136 individuals criminally
charged; of which 91 have been convicted (others awaiting trial); of which 43 have been sentenced to
prison (others awaiting sentencing); and civil cases against 58 individuals and 47 entities. For example,
last quarter, a SIGTARP investigation resulted in a guilty plea by a fugitive on the run for 12 years who
ran a foreclosure rescue scam that victimized TARP banks and included identity theft. In a SIGTARP
investigation in connection with the President’s RMBS Working Group, in January 2013, SIGTARP
special agents arrested a former broker charged with defrauding six funds that traded RMBS in TARP’s
Public-Private Investment Program (PPIP).

   In 2013 alone, eight defendants were sentenced to Federal prison resulting from SIGTARP’s
investigations with its partners, for a total of 43 defendants sentenced to prison since our inception
in December 2008. Courts handed down prison sentences in 2013 ranging from 18 months to 10
years. These included prison sentences against three officers of TARP-applicant banks for fraud, a
bank fraud co-conspirator, an investment manager who sold fake TARP-backed securities, a California
couple who defrauded TARP banks out of millions, and the chairman of a collection agency who
defrauded a TARP bank out of millions. SIGTARP’s investigations with its partners resulted in court
orders in 2013 of $66.1 million to be paid to the Government or victims, bringing total court orders
resulting from SIGTARP investigations to $4.26 billion since our inception.

    In this report, we discuss “too big to fail” and HAMP. Too big to fail caused the TARP bailout
and continues to be a threat because of the interconnections of the largest firms. To prevent a
future crisis and bailout, regulators should use a tool in Dodd-Frank called “living wills” to roadmap
interconnections that pose a grave threat to our financial system and break them off now, rather
than waiting until a company’s deathbed. Additionally, SIGTARP is concerned that homeowners are
redefaulting on HAMP permanent mortgage modifications at an alarming rate: 46.1% and 39.1% of
HAMP modifications from Q3 and Q4 2009 redefaulted, 28.9% to 37.6% from 2010 redefaulted.
SIGTARP recommended that Treasury research and analyze the causes of redefaults, develop an early
warning system to try and prevent redefaults, and better help homeowners who have redefaulted.

    SIGTARP’s most recent audit found that banks that exited TARP through the Small Business
Lending Fund have not effectively increased small business lending because they used 80% of SBLF
funds to exit TARP: 24 TARP banks decreased their lending in SBLF by $741 million. TARP banks
that only received enough SBLF funds to repay TARP only increased lending by 25 cents per SBLF
dollar. SIGTARP recommended that Treasury and regulators improve coordination, and help increase
lending by those banks. I hope you find this report useful and am happy to speak to you further about
SIGTARP’s important work.

                                                 Respectfully yours,




                                                 CHRISTY L. ROMERO
                                                 Special Inspector General
CONTENTS

Executive Summary	3
  Oversight Activities of TARP	                                            13
  Report Organization	                                                     19


Section 1
THE OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR THE
TROUBLED ASSET RELIEF PROGRAM	                                            21
  SIGTARP Creation and Statutory Authority	                               23
  SIGTARP Oversight Activities Since the January 2013 Quarterly Report	   23
  The SIGTARP Organization	                                               40


Section 2
TARP OVERVIEW	                                                             41
  TARP Funds Update	                                                       43
  Financial Overview of TARP	                                              47
  Housing Support Programs	                                                57
  Financial Institution Support Programs	                                  86
  Asset Support Programs	                                                 135
  Automotive Industry Support Programs	                                   151


Section 3
TARP OPERATIONS AND ADMINISTRATION	                                       161
  TARP Administrative and Program
  Operating Expenditures	                                                 163
  Financial Agents	                                                       164


Section 4
SIGTARP RECOMMENDATIONS	                                                  177
  Recommendations Regarding Redefaults of Mortgages
  Modified Under HAMP	                                                    179
  Recommendations Regarding Banks That Used the
  Small Business Lending Fund to Exit TARP	                               182

  Endnotes	208
APPENDICES
A.	 Glossary	229
B.	 Acronyms and Abbreviations	                        233
C.	 Reporting Requirements	                            236
D.	 Transaction Detail	                                240
E.	 Debt Agreements, Equity Agreements, and
    Dividend/Interest Payments	                        337
F.	 HAMP Modification Statistics	                      342
G.	 Cross-Reference of Report to the Inspector General
    Act of 1978	                                       343
H.	 Public Announcements of Audits	                    344
I.	 Key Oversight Reports and Testimony	               345
J.	 Correspondence	347
K.	 Peer Review Results	                               350
L.	 Organizational Chart 	                             351
EXECUTIVE SUMMARY
4   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   5




When the American public bailed out a financial system teetering on collapse
through the Troubled Asset Relief Program (“TARP”), America’s commitment came
with an overriding condition: the American public was investing in the promise of
lasting financial stability and sustainable long-term solutions to the causes of the
crisis. They were investing to end the threat that a single too big to fail firm could
sink the whole economy because of its poor decisions and risky choices. They
were investing so loans to small businesses and mortgage relief to homeowners
could ignite millions of personal financial recoveries and restore prosperity to our
communities and our economy. Our financial system is more stable than it was
during the crisis. However, too big to fail is still a threat to our nation’s financial
system. Ending too big to fail is critical to the safety of our financial system not
only to avoid future bailouts, but to prevent a future crisis, or at least lessen the
impact on American household wealth in the event of a future crisis. Americans
who invested in the financial system through TARP deserve to know that their
investment of hard-earned dollars will bring a return to common sense – that their
jobs, hard-earned savings, and retirements will no longer remain at risk because of
the recklessness and greed of Wall Street.
    This executive summary addresses how too big to fail continues to be a threat,
particularly because of the interconnections of the largest financial institutions –
interconnections led to the crisis and TARP bailout. In order to prevent a future
crisis and bailout, regulators should use a tool in Dodd-Frank called “living wills”
to roadmap dangerous interconnections that pose a grave threat to our financial
system and break them off now, rather than waiting until a company’s deathbed.
While great effort must be made to prevent a future crisis and bailout, we cannot
lose sight of the current TARP bailout. TARP is only winding down for the largest
institutions, while homeowners, small businesses, and small banks still need
TARP’s help. The Office of the Special Inspector General for the Troubled Asset
Relief Program (“SIGTARP”) is concerned that the number of homeowners
redefaulting on HAMP permanent mortgage modifications is increasing at an
alarming rate. SIGTARP recommended that Treasury research and analyze the
causes of these redefaults, and take preventative action to reduce them so that
HAMP modifications are sustainable. This summary also addresses an audit report
SIGTARP issued showing that banks that exited TARP through the Small Business
Lending Fund have not effectively increased lending to small businesses, and are
significantly underperforming compared to non-TARP banks in SBLF.

Too Big To Fail
Too big to fail is not just about size – it is about the interconnections the largest
financial firms have to each other and to American households. In 2008, Treasury
and Federal banking regulators came to a surprising realization that the largest
financial institutions were tied as counterparties to each other so that if one went
down, it pulled the others down with it. Some companies did not understand
their true exposures to their counterparties or other large financial institutions
which were hidden in complicated derivatives like securities backed by subprime
mortgages sold by companies like Bear Stearns and Lehman Brothers, and
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           hedging products like credit default swaps sold by AIG. With exposures to these
                                           financial institutions hidden, regulators were caught unaware. According to former
                                           Treasury Secretary Timothy Geithner’s June 18, 2009 testimony to Congress,
                                           the rise of new financial instruments “that were almost entirely outside of the
                                           Government’s supervisory framework left regulators largely blind to emerging
                                           dangers.” Companies also did not understand their exposures to short-term funding
                                           counterparties. Secretary Geithner testified on September 23, 2009, that firms
                                           were “reliant on very short-term funding that can flee in a heartbeat. And that is
                                           what brought the system crashing down.” The interconnections and exposures of
                                           these new instruments and short-term funding grew more intricate, complex and
                                           dangerous as banks grew to become megabanks.
                                               Even more surprising was the realization that the finances of hardworking
                                           Americans were dependent on these players and the market they created – and
                                           that was why Treasury and regulators created the TARP bailout. When Federal
                                           Reserve Chairman Ben Bernanke asked Congress to authorize TARP on September
                                           23, 2008, he testified, “the taxpayer is on the hook” if the system does not work
                                           the way it needs to work. The following day, he testified before Congress, “People
                                           are saying, ‘Wall Street, what does it have to do with me?’ That is the way they are
                                           thinking about it. Unfortunately, it has a lot to do with them. It will affect their
                                           company, it will affect their job, it will affect their economy. That affects their own
                                           lives, affects their ability to borrow and to save and to save for retirement.”
                                               With the effects of the financial crisis still a persistent reality for so many
                                           Americans, our nation’s top financial regulators must take the necessary steps
                                           to end too big to fail by breaking off dangerous interconnections that led to the
                                           crisis and the TARP bailout, and could sow the seeds for a future crisis. It is the
                                           threat of these interconnections to the greater financial system that if not resolved,
                                           will determine whether there are future crises, and future bailouts. The Nobel
                                           Prize-winning economist Professor Robert M. Solow recently said that a densely
                                           interconnected, highly leveraged financial system is intrinsically vulnerable to a
                                           collapse. To let one of the largest financial firms fail requires regulators to have
                                           confidence that they can close down the firm without damaging the economy,
                                           and as a nation we are not there yet. Ending too big to fail can be done; it must
                                           be done. It will not be easy. Ending too big to fail will require hard choices by
                                           companies to break up certain products or business lines and break off dangerous
                                           interconnections. Ending too big to fail requires banking regulators to shift their
                                           primary approach from the safety and soundness of each individual institution,
                                           to the safety and soundness of the financial system by focusing on the complex
                                           interconnected web these companies have formed. However, if done right, our
                                           nation will take a major step toward preventing another crisis, or at least limiting its
                                           impact to those who made risky choices.
                                               Dodd-Frank reforms seek to end future taxpayer bailouts using a dual approach:
                                           front line measures aimed at keeping the largest financial institutions safe and
                                           sound, and a last line defense aimed at letting a company fail without damaging the
                                           economy. Some of the strongest front line measures have not yet been determined,
                                           such as a capital surcharge that the megabanks will be required to keep to absorb
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   7




losses. Moreover, it is not yet clear which mega non-banks will be subject to
these measures. (SIGTARP recommended that AIG be put in this category.) It
is important that these measures be put in place to help counter the funding
advantage of cheaper credit that too big to fail institutions enjoy over their smaller
peers because creditors feel their money is safe. Without these front line measures
fully in place, there does not appear to be enough of an incentive for institutions to
break up or break off dangerous interconnections.

Dodd-Frank’s Last Line of Defense
Federal Reserve Chairman Bernanke testified before Congress in July 2012
that the blueprint for attacking too big to fail lies in Dodd-Frank’s fail-safes that
a company will be allowed to fail in bankruptcy or a new FDIC process called
orderly liquidation authority. Dodd-Frank envisions using living wills as a last
line of defense to identify and remove obstacles to an individual firm’s orderly
bankruptcy. However, the usefulness of living wills for bankruptcy planning is
in question. If there is a future crisis, there may be no time for bankruptcy. In
2008, with investor confidence plummeting, threats of runs on banks, and a
freeze in short-term lending leaving not enough cash for some companies to last
even a weekend, regulators and Treasury believed there was not enough time for
a traditional bankruptcy. Furthermore, bankruptcy may not be a viable option
for certain players who dominate the market in providing a critical service to
the economy. (Companies are supposed to identify in living wills those critical
services.) Moreover, the largest companies operate in multiple countries each
with distinct bankruptcy laws, which could make it difficult to use bankruptcy. In
addition, because the nation’s largest financial firms remain highly interconnected
as counterparties to each other, if one fails, impairments will spread to others,
decreasing the number of healthy firms available to buy assets from the failing ones
as envisioned in the living wills. Senator Ted Kauffman, former chairman of the
Congressional Oversight Panel, cautions that the odds of a bank being able to sell
to another large company “in an actual crisis are slim; given how interconnected
they are, if one megabank is in trouble, the probability is they will all be in the same
boat. ‘Orderly’ is not what happens in a meltdown.”
    Regulators appear to be putting all of their faith in ending too big to fail in
Dodd-Frank’s orderly liquidation authority rather than bankruptcy. Under orderly
liquidation authority, the FDIC puts the parent company in receivership, fires the
management, and allows the operating subsidiaries to keep functioning and paying
counterparties. Losses are supposed to be borne by shareholders and the debt
holders, rather than taxpayers. Federal Reserve Governor Daniel Tarullo testified
before Congress that the key to the FDIC being able to execute this appropriately
is for there to be a sufficient amount of debt to absorb the losses. If there is not
enough debt and market funding is not available (as in the last crisis), the FDIC
can borrow funds from Treasury. These Treasury funds are supposed to be repaid
from liquidation of the company’s assets or an assessment against the largest, most
complex companies. Orderly liquidation authority also has cross-border issues.
Moreover, the FDIC could pay creditors outside of the normal bankruptcy priority,
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           which could lead to criticism and the perception that the Government is picking
                                           winners and losers. In an April 11, 2013 op-ed, former FDIC Chairman Sheila Bair
                                           addressed orderly liquidation authority saying, “short-term this strategy can work,
                                           but it will be costly and difficult.”
                                               The existence of bankruptcy planned by living wills and the FDIC’s orderly
                                           liquidation authority, however, have not convinced the market to change its
                                           perception that select financial firms will get another bailout, and have not
                                           convinced megafirms to simplify their organizations or disentangle dangerous
                                           interconnections. President of the Federal Reserve Bank of New York William
                                           Dudley stated shortly after the first round of living wills were submitted, “In my
                                           view, this initial exercise has confirmed that we are a long way from the desired
                                           situation in which large complex firms could be allowed to go bankrupt without
                                           major disruptions to the financial system and large costs to society. Significant
                                           changes in structure and organization will ultimately be required for this to
                                           be achieved.” However, regulators have not signaled how they will achieve the
                                           significant changes in structure and organization. Under Dodd-Frank, if after two
                                           years, regulators find that a company’s living will does not lead to a wind down
                                           without impacting the financial system, the regulators can direct that firm to shed
                                           certain assets or operations. President of the Federal Reserve Bank of Richmond
                                           Jeffrey Lacker stated in an April 9, 2013 speech, “It makes perfect sense to
                                           constrain the scope and scale of financial firms in a way that ensures that they can
                                           be resolved in an orderly manner without Government protection from creditors.”

                                           Living Wills as a First Line of Offense
                                           In addition to serving as a last line of defense, living wills could be a powerful
                                           first line of offense for companies and regulators as a tool to understand
                                           interconnections that pose a grave threat to the safety and soundness of the
                                           financial system, and attack the problem at its core, now, not two years from
                                           now or at the company’s last breath. The process of developing living wills
                                           allows a company to better understand the complexity and exposure in their
                                           interconnections, and either break off dangerous interconnections or be forced
                                           to do so.
                                               Regulators should use the information collected from the living wills not only
                                           as a tool to identify and remove obstacles to an individual firm’s orderly resolution,
                                           but also to inform their broader responsibility to the financial system. The living
                                           wills give regulators a clearer vantage point into megabanks’ inner workings than
                                           they had in the crisis. In the living wills, the company is required to describe
                                           the interconnections and interdependent relationships with counterparties and
                                           analyze the impact of the failure of those counterparties. The company is required
                                           to disclose off-balance sheet exposures, identify to whom it pledged collateral,
                                           identify material hedges and its hedging strategies. In other words, so much of the
                                           information that caught regulators unaware in the last crisis should be contained in
                                           the living wills.
                                               Regulators have an opportunity to use information in living wills to build
                                           a comprehensive roadmap of interconnections between the megabanks and
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   9




non-banks across the financial system, assessing threats institutions may pose to
financial stability. Regulators should use living wills for more than assessing the
risks a core business line or critical operation has on the company’s liquidation, but
also on how it impacts the safety and soundness of other megafirms and American
households. Regulators should evaluate the living wills in aggregate across
institutions to capture the common risks, linkages, and interdependencies that
large, interconnected firms share, and the services they provide that were so critical
to American households in 2008 that they asked for a bailout. Regulators can use
living wills to enhance the more stringent supervision that is designed for too big to
fail companies.
     If regulators expand their use of living wills from a deathbed document to a
roadmap of interconnections in our financial system, they can take preemptory,
supervisory action to force firms to break off dangerous interconnections that pose
a threat to our system. Dodd-Frank provides regulators with significant authority
over megafirms that pose a grave threat to financial stability, including requiring
the company to terminate certain activities, stop offering certain products, or sell
certain assets. Chairman Bernanke testified before Congress in July 2012 that
living wills “provide a blueprint if you wanted to break up banks or hive off parts of
banks. The living wills provide some information about how you could do that in a
sensible way.” Although companies should do that on their own, which might even
unlock additional shareholder value, they have yet to do so, and in fact have gotten
bigger with complicated operations. The recent op-ed by former FDIC Chairman
Bair stated, “Longer term, regulators must require the megabanks to simplify…
The speed with which the FDIC can restructure them as good banks and return
them to private-sector ownership will be greatly enhanced if their business lines
and foreign operations have already been organized into a rational number of legal
units that can be easily detached.” Regulators must protect taxpayers by ensuring
that megafirms break off interconnections that pose a grave threat to our financial
system. Preparing for the next potential crisis is not enough. The American public
needs regulators to use every tool they have to prevent the next crisis, and protect
the American public from absorbing Wall Street’s losses.

Homeowners and Small Businesses
Of course, while great effort must be made to prevent a future crisis and bailout,
we cannot lose sight of the current TARP bailout. Wall Street may have recovered,
but Main Street has not. TARP was never intended to be just a bailout of the
largest financial firms. TARP was always intended to be a bailout of the financial
system to protect American families. When former Treasury Secretary Henry
Paulson asked Congress for TARP authority on September 23, 2008, he testified,
“What this plan will do is make financing available. And I do not think there is
anything more important. Lenders have got to keep lending. If they are not lending
and there is not capital available, homeowners are not going to be able to stay in
the home.” Congress rejected TARP the first time, and some members of Congress
only voted for TARP if Treasury agreed to provide assistance for homeowners.
TARP is only winding down for the largest institutions, while small banks, small
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            businesses, and homeowners are still feeling the effect of the crisis and still need
                                            help from TARP. Treasury’s responsibilities to those Americans did not end when
                                            the largest financial firms repaid TARP. In its March 2013 TARP report, Treasury
                                            writes, “Thanks to TARP…struggling homeowners have seen relief, and credit is
                                            more available to consumers and small businesses.” Lost in this statement is the
                                            unfortunate reality that this improvement is only a fraction of what TARP could
                                            and should have done, and in many ways still can do.

                                            A Rising Number of Redefaulted HAMP Mortgage Modifications
                                            As of March 31, 2013, Treasury had spent less than 2% (approximately $7.3
                                            billion) of TARP funds on TARP homeowner relief programs, including HAMP
                                            and the Hardest Hit Fund, compared with the 75% of TARP funds Treasury spent
                                            to rescue financial institutions. For example, The PNC Financial Services Group,
                                            a large regional east coast bank, alone received $7.6 billion, nearly the same
                                            amount of TARP funds used to help struggling homeowners throughout the nation.
                                            SunTrust Banks, Inc., a large southeastern regional bank, alone received $4.85
                                            billion, just slightly less than the $5 billion spent on TARP’s signature housing
                                            program HAMP. The six largest banks each received much more. Treasury pulled
                                            out all the stops for the largest financial institutions, and it must do the same for
                                            homeowners.
                                                 Treasury also has a responsibility to ensure that help to homeowners through
                                            TARP is sustainable. When Treasury launched HAMP, in early 2009, Treasury
                                            said it would provide affordable and sustainable relief for as many as 3 to 4 million
                                            at-risk homeowners to help them avoid foreclosure. The only way a homeowner
                                            avoids a foreclosure through HAMP is to remain active in a permanent mortgage
                                            modification. Only 862,279 homeowners are in an active permanent HAMP
                                            modification, about half of which were funded through TARP. Trends indicate
                                            this number of homeowners is likely to fall even further, as many homeowners
                                            are redefaulting on their HAMP permanent modifications. As of March 31, 2013,
                                            more than 312,000 homeowners have redefaulted on their HAMP permanent
                                            modification. For these homeowners, the HAMP permanent mortgage modification
                                            they received was not sustainable.
                                                 SIGTARP is concerned that the number of homeowners who have redefaulted
                                            on a HAMP permanent mortgage modification is increasing at an alarming rate.
                                            Treasury’s data shows that the longer a homeowner remains in HAMP, the more
                                            likely he or she is to redefault out of the program. As of March 31, 2013, the oldest
                                            HAMP permanent modifications, from the third and fourth quarter of 2009, are
                                            redefaulting at a rate of 46.1% and 39.1%. HAMP permanent modifications from
                                            2010 also had high redefault rates, ranging from 28.9% to 37.6%.
                                                 Treasury should work to curb HAMP redefaults to keep homeowners safe
                                            from losing their homes. Redefaulted HAMP modifications often inflict great
                                            harm on already struggling homeowners when any amounts previously modified
                                            suddenly come due. When the homeowner cannot pay it, they lose their home to
                                            foreclosure, which has a devastating impact on families, neighborhoods, and the
                                            economy.
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   11




    Treasury must address why homeowners are falling out of the HAMP program.
Exactly why these HAMP permanent modifications failed is not well understood
by Treasury. SIGTARP understands from meetings with Treasury officials that
Treasury does not require servicers to report on the reasons for redefault. Because
redefaults are so harmful to all, Treasury should develop a better understanding of
why homeowners redefault, and the characteristics of loans that are more likely to
redefault. Better knowledge of the characteristics of the loan, the homeowners,
the servicer, or the modification, more prone to redefault will increase Treasury’s
understanding of the underlying problems that cause redefaults and provide
Treasury an opportunity to address these issues proactively.
    This month, SIGTARP recommended that Treasury conduct research and
analysis to understand better and attack the underlying root causes of homeowner
redefaults on HAMP modified mortgages. Already, Treasury has gathered a
significant amount of data from servicers on the loans modified in HAMP that
have redefaulted that it should analyze, including the characteristics of HAMP
modifications that are more likely to redefault. To reduce redefaults and better
assist struggling homeowners, Treasury should work with those servicers, who
already have reporting requirements to Treasury, to learn additional information
about the causes or characteristics of redefaulted HAMP modifications.
    SIGTARP recommended that Treasury work with servicers to develop an
early warning system to identify risks of future redefaults before they happen and
intervene. Understanding the causes and characteristics of HAMP redefaults
allows Treasury and HAMP servicers to predict which homeowners are most at
risk of redefaulting. Armed with a better understanding about the causes and
characteristics of HAMP redefaults, Treasury and servicers can develop an early
warning system to reach out to homeowners participating in HAMP who may
share the characteristics that lead to redefault, prior to the homeowner missing
a payment, and provide or recommend counseling and other TARP program
assistance that could help the borrowers avoid redefault and the unfortunate
consequences that would ensue.

Missed Opportunity by TARP Banks in SBLF to Increase Lending to
Small Businesses
Similarly, TARP was meant to increase lending, including lending to small
businesses. However, that did not happen and small businesses were left struggling.
In September 2010, Congress authorized a separate program called the Small
Business Lending Fund (“SBLF”). Viewed by members of Congress as a fix for
TARP’s failure to require or incentivize banks to lend money, SBLF provided funds
to small banks and gave the banks incentives to increase small business lending.
Although Congress allowed TARP banks to participate, it gave Treasury authority
to choose which TARP banks should be allowed to participate in SBLF. Congress
intended that all banks in SBLF would increase their loans to small businesses,
and, as a safeguard, required that applicant banks submit to their Federal banking
regulator a “small business lending plan” detailing how the bank would increase
lending, a requirement not present in TARP. Although $30 billion was available for
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            SBLF, Treasury invested only $4 billion, two-thirds of which ($2.7 billion) went to
                                            137 TARP banks that used SBLF as a vehicle to exit TARP, its negative stigma, and
                                            its less-favorable terms, including those limiting executive compensation and luxury
                                            expenditures, and higher payments to taxpayers (called dividend payments).
                                                 As SIGTARP reported in an audit issued this month, former TARP banks
                                            in SBLF have not effectively increased lending to small businesses and are
                                            significantly underperforming compared to non-TARP banks in the program.
                                            SIGTARP found in its audit that the former TARP banks in SBLF have not
                                            effectively increased small business lending because they used approximately 80%
                                            of SBLF funds ($2.1 billion of the $2.7 billion) they received to fund their early exit
                                            from TARP. Twenty-four former TARP banks have not increased their lending at
                                            all while in SBLF, despite those banks collectively receiving $501 million in SBLF
                                            funds. In fact, these 24 banks actually decreased their small business lending while
                                            in SBLF by a total of more than $741 million, which was more than what they
                                            received in SBLF. Furthermore, 14 of these 24 former TARP banks paid dividends
                                            to shareholders while in SBLF, despite failing to increase their small business
                                            lending.
                                                 The remaining TARP banks in SBLF increased lending, but they significantly
                                            underperformed compared with non-TARP banks. Treasury determined that as a
                                            matter of policy, both TARP and non-TARP banks applying to SBLF would have to
                                            project lending growth at least equal to the amount of SBLF funds they received.
                                            However, that was the minimum, and Treasury expected banks that received SBLF
                                            funds to increase lending in multiples of every SBLF dollar. In a press release,
                                            Treasury announced that it was investing more than $4 billion to “help propel
                                            lending by Main Street banks in many multiples of that amount.” Former Treasury
                                            Secretary Geithner testified before Congress on October 18, 2011, that SBLF (and
                                            TARP) investments in banks “are by any measure one of the most efficient uses of
                                            taxpayers’ money we have because every dollar of capital you make available to a
                                            bank who can’t get capital from other sources is worth somewhere between $8 and
                                            $10 of lending capacity.” SIGTARP conducted an analysis to determine whether
                                            TARP banks increased small business lending in multiples of every SBLF dollar, in
                                            line with Treasury’s statements and policy. This simple method shows the value the
                                            SBLF banks are providing to taxpayers, something not provided by just looking at
                                            percentage of loan growth. While any increase in lending is helpful, not all lending
                                            increases deliver the same degree of value to taxpayers, particularly in light of the
                                            fact that small business lending at TARP banks had declined so much during the
                                            crisis.

                                            •	 SIGTARP found that the 42 former TARP banks that received only enough
                                               SBLF funds to repay TARP have increased lending by just 25 cents for each
                                               SBLF dollar received (not even a multiple of one for every SBLF dollar).
                                            •	 As a group, the former TARP banks that moved into SBLF only increased
                                               lending by $1.13 for each dollar received (a multiple of one for every SBLF
                                               dollar).
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   13




•	 By comparison, SBLF banks that never participated in TARP boosted lending by
   $3.45 for each SBLF dollar received (a multiple of three for every SBLF dollar).

    Therefore, TARP banks in SBLF have not propelled lending in many multiples
of the amount of SBLF funds they received, as Treasury promised, while non-TARP
banks have.
    Congress’s safeguard of requiring that banks submit a small business lending
plan did not have the intended effect because Treasury and the Federal banking
regulators did not adequately assess whether the banks’ plans to increase small
business lending were achievable. SIGTARP found that Treasury and the Federal
banking regulators did not effectively communicate with each other, each claiming
that the other had responsibility to assess the banks’ plans to increase lending.
Congress intended that SBLF fix the significant lost opportunity in TARP that
banks were not required or given incentives to lend. The lending plans were the
safeguard to provide that fix, but without consistent, meaningful review of those
plans by Treasury and the Federal banking regulators, there was no substantive
difference between TARP’s application review process and SBLF’s application
review process for TARP banks, as it related to lending.
    Treasury and the regulators should have assessed the credibility of the
information provided by each applicant TARP bank in its lending plan to ensure
that those banks exiting TARP were well positioned and well prepared to meet
SBLF’s sole purpose to increase lending to small businesses. If these TARP banks
had been unable to demonstrate a credible source of capital to lend beyond SBLF
money that would be used to repay TARP, regulators and Treasury may have
identified some of the applicants as unsuited to exit TARP through SBLF. SBLF
served as a vehicle for a significant number of TARP banks to exit TARP using
Government funds with more favorable terms than TARP with little resulting
benefit for small businesses.
    American taxpayers are looking for a return on their investment in the form of
a sustainable path to financial stability and economic recovery. Regulators must
finally end too big to fail, and Treasury must ensure that homeowners and small
businesses still feeling the effects of the crisis get the help Congress intended in
TARP.




OVERSIGHT ACTIVITIES OF TARP
Through TARP, the American taxpayers became investors in hundreds of financial
institutions, the auto industry, and certain markets for asset-backed securities.
SIGTARP is the only agency charged solely with a mission to advance economic
stability through transparency, coordinated oversight, and robust enforcement.

Transparency and Oversight: Recommendations
To implement its mission, SIGTARP conducts audits, evaluations, and makes
recommendations to Treasury and Federal banking regulators to prevent fraud,
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            waste, and abuse, and promote economy and efficiency related to TARP.
                                            SIGTARP’s recent recommendations from this quarter are discussed in more detail
                                            in Section 4.
                                                This quarter, SIGTARP published an audit on community banks that exited
                                            TARP through the Small Business Lending Fund. Based on the findings in
                                            our SBLF audit, SIGTARP made recommendations to Treasury, the Federal
                                            Reserve Board, the Federal Deposit Insurance Corporation, and the Office of the
                                            Comptroller of the Currency to improve coordination among Treasury and Federal
                                            banking regulators in the future, to increase small business lending by the former
                                            TARP banks still participating in SBLF, and to preserve the capital those banks still
                                            have available to lend by preventing banks that do not increase lending from paying
                                            dividends.
                                                In addition, based on the rising number of homeowners redefaulting on a
                                            HAMP permanent mortgage modification, SIGTARP made recommendations that
                                            Treasury research and analyze the causes of HAMP redefaults, develop an early
                                            warning system to try to prevent the redefaults from happening, and better help
                                            homeowners who have redefaulted on a HAMP modification.

                                            Robust Enforcement: Investigations
                                            SIGTARP is a criminal law enforcement agency that investigates crime related to
                                            TARP. SIGTARP actively supports the prosecution of individuals it investigates.
                                            SIGTARP’s investigations are staffed with Federal agents, attorneys, investigators,
                                            and analysts, and are conducted in partnership with other agencies to leverage
                                            resources. SIGTARP co-chairs President Obama’s Financial Fraud Enforcement
                                            Task Force Rescue Fraud Working Group. In addition, SIGTARP works with
                                            partners, including U.S. Attorney’s Offices; the Federal Bureau of Investigation;
                                            the U.S. Secret Service; the Internal Revenue Service – Criminal Investigation;
                                            the Connecticut Securities, Commodities, and Investor Fraud Task Force; the U.S.
                                            Postal Inspection Service; and the Securities and Exchange Commission, among
                                            others, to aggressively pursue violations related to TARP.
                                               As of April 8, 2013, SIGTARP had more than 150 ongoing criminal and civil
                                            investigations. SIGTARP’s investigations with its partners have delivered substantial
                                            results to date, including:

                                            •	 criminal chargesi against 136 individuals;
                                            •	 criminal convictions of 91 defendants;
                                            •	 prison sentences for 43 defendants (others are awaiting sentencing);
                                            •	 civil cases against 58 individuals and 47 entities (in some instances an individual
                                               will face both criminal and civil charges); and
                                            •	 orders of restitution and forfeiture and civil judgments entered for $4.26 billion.

                                               Last quarter, SIGTARP and its law enforcement partners continued to
                                            hold accountable individuals committing crime related to TARP. Last quarter,
                                            SIGTARP’s investigations resulted in arrests, indictments, and guilty pleas, for
                                            i Criminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   15




crimes related to securities fraud, bank fraud, money laundering, and bankruptcy
fraud. SIGTARP continues to root out and stop crime related to TARP, hold
fraudsters accountable, and bring justice to American taxpayers who funded TARP.
    Although much of SIGTARP’s investigative activity remains confidential, over
the past quarter there have been significant public developments in several of
SIGTARP’s investigations, set forth in more detail in Section 1, including:

Sentencings
In 2013 alone, eight defendants were sentenced to Federal prison resulting from
SIGTARP’s investigations with its partners, for a total of 43 defendants sentenced
to prison since our inception in December 2008. Courts handed down prison
sentences in 2013 of 18 months, 21 months, 24 months, 36 months, 39 months,
60 months, 70 months, and 120 months.

•	 On April 5, 2013, Adam Teague, a former senior vice president of failed TARP-
   applicant Appalachian Community Bank of Ellijay, Georgia, was sentenced
   to serve 70 months in a Federal prison followed by five years of supervised
   release for his role in a conspiracy to defraud the bank. Teague contributed to
   the failure of TARP-applicant Appalachian Community Bank by fraudulently
   masking the bank’s true financial condition while enriching himself. Driven by
   greed and risky behavior, Teague engaged in an extend-and-pretend scheme
   using the proceeds of new bank loans to hide past-due loans. He also hid
   the bank’s growing inventory of foreclosed property by directing the bank to
   finance sales of the properties to buyers including two Teague-controlled shell
   companies, GPH (“God Please Help”) Investments and PHL (“Please Help
   Lord”) Investments.
•	 On March 1, 2013, Robert E. Maloney, Jr., the former in-house counsel for
   failed TARP-applicant bank FirstCity Bank, was sentenced to 39 months in
   Federal prison followed by three years of supervised release for his role in a
   scheme to defraud the bank. Maloney agreed to be banned for life from working
   in the banking industry. As previously reported, on August 9, 2012, Mark A.
   Conner, the former president of FirstCity Bank, was sentenced to 12 years in
   Federal prison, banned for life from the banking industry, and ordered to pay
   more than $19.5 million in restitution and agreed to forfeit $7 million. As an
   attorney, Maloney was in a unique position to put the brakes on Conner’s multi-
   million dollar fraud against FirstCity Bank. Instead, Maloney joined in as a key
   co-conspirator, disguising the transactions and funneling bank funds to Conner
   or to keep other bank loans current. Maloney had previously pled guilty to bank
   fraud, admitting that, in July 2007, while he served as in-house counsel to
   FirstCity Bank, he received approximately $483,000 from a real estate loan and,
   through his attorney escrow account maintained at FirstCity Bank, used the
   funds from that loan to make payments and transfers for Conner’s benefit.
•	 On April 4, 2013, Reginald A. Harper, the former president and chief executive
   officer of TARP-applicant First Community Bank of Hammond, Louisiana,
16   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 (First Community Bank was approved to receive TARP assistance, but later
                                                 withdrew its application) was sentenced to 24 months in Federal prison,
                                                 followed by three years supervised release and a $25,000 fine for his role in a
                                                 bank fraud conspiracy. Harper and his co-conspirator Troy A. Fouquet turned
                                                 to bank fraud to hide past due loans from the bank, its regulators, and the
                                                 Treasury Department in the bank’s TARP application. The $3 million dollar
                                                 fraud scheme, which involved making sham loans to Fouquet through straw
                                                 borrowers and a cover-up that lasted for years, caused significant losses to First
                                                 Community Bank and jeopardized the bank’s financial stability and ability to
                                                 serve its community.
                                            •	   On April 5, 2013, Troy A. Fouquet, a local real estate developer, was sentenced
                                                 to 18 months in prison followed by three years of supervised release for his role
                                                 in the bank fraud conspiracy involving First Community Bank.
                                            •	   On March 19, 2013, John Farahi, a former investment fund manager who
                                                 hosted a financial radio show, admitted bilking investors out of millions of
                                                 dollars by falsely promising to purchase TARP-backed securities and defrauding
                                                 TARP banks, was sentenced to 120 months in Federal prison followed by
                                                 three years of supervised release. Co-conspirator David Tamman, an attorney
                                                 who conspired with Farahi, was found guilty last year of 10 counts, including
                                                 obstruction of justice, altering records in a Federal investigation, and being
                                                 an accessory after the fact to Farahi’s crimes. Tamman was suspended from
                                                 practicing law by the California State Bar and is scheduled to be sentenced
                                                 on May 20, 2013. John Farahi is the second securities industry professional
                                                 sentenced to prison for selling investments in fake TARP-backed securities.
                                                 Farahi exploited the TARP bailout for personal gain, preying on vulnerable
                                                 victims during the financial crisis who lost their homes, retirement savings, and
                                                 funds for medical needs.
                                            •	   On January 30, 2013, Richard Pinto was sentenced to 60 months in Federal
                                                 prison followed by five years of supervised release for his role in a multi-million
                                                 dollar fraud scheme at Oxford Collection Agency (“Oxford”), where Pinto
                                                 served as Chairman of the Board. Oxford obtained a line of credit from Webster
                                                 Bank, a TARP recipient, without informing Webster Bank of its significant
                                                 client backlogs or outstanding payroll taxes. Pinto and others sent falsified
                                                 financial statements to Webster Bank, eventually increasing the credit line to
                                                 $6 million, and laundered money from the credit line to promote the ongoing
                                                 fraud scheme. During that same period, Pinto and others also solicited millions
                                                 of dollars in investments from various investors, without ever disclosing to
                                                 their investors the existence of their backlogs. Some of the investor funds were
                                                 deposited into Pinto’s personal bank account without investor knowledge.
                                            •	   On February 25, 2013, Cheri Fu (also known as Cheri L. Shyu) was sentenced
                                                 to 36 months in Federal prison followed by five years of supervised release for
                                                 her role in bilking nearly $5 million from a group of banks, including TARP
                                                 recipient banks, with her husband co-conspirator Thomas Fu. At a time when
                                                 taxpayers were bailing out Bank of America and United Commercial Bank with
                                                 TARP funds, Thomas and Cheri Fu defrauded those banks and others out of
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   17




   nearly $5 million. The Fus fraudulently obtained funds from the TARP banks
   and other banks using a second set of books that overstated accounts receivable.
   They lived comfortably off the money, buying property and putting their
   daughter through college, when many taxpayers who funded the bailout were
   tightening their belts.
•	 On March 12, 2013, Thomas Fu was sentenced to 21 months in Federal prison
   followed by five years of supervised release for his role in the fraud scheme.

Restitution, Forfeiture, and Civil Judgments
In addition to the eight prison sentences handed down by courts, SIGTARP’s
investigations with its partners resulted in court orders in 2013 of $66.1 million
to be paid to the Government or victims, bringing total court orders resulting from
SIGTARP investigations to $4.26 billion since our inception in December 2008.

•	 Robert E. Maloney, Jr., in connection with a scheme to defraud TARP-applicant
   FirstCity Bank, was ordered to pay $10.5 million in restitution.
•	 Cheri and Thomas Fu were ordered to jointly pay $4.7 million in restitution in
   connection with their scheme defrauding TARP banks.
•	 John Farahi was ordered to pay more than $24 million in restitution in
   connection with a fraud scheme involving fake TARP-backed securities.
•	 Richard Pinto was ordered to pay restitution of approximately $12.3 million in
   connection with his role in a fraud scheme involving TARP recipient Webster
   Bank.
•	 Adam Teague was ordered to pay restitution of approximately $5.8 million, and
   was ordered to forfeit $7 million and certain real property in connection with
   his conviction for conspiracy to commit bank fraud involving TARP-applicant
   Appalachian Community Bank.
•	 Reginald R. Harper and Troy A. Fouquet were ordered to pay restitution to
   TARP-applicant First Community Bank in the amount of $570,955 plus
   interest. Harper was also ordered to pay a $25,000 fine.

Indictments/Arrests and Guilty Pleas

RMBS Trader Charged with Criminal Securities Fraud, Defrauding TARP Program
On January 28, 2013, SIGTARP special agents arrested Jesse Litvak, a licensed
securities broker, charged with 11 counts of securities fraud, one count of TARP
fraud, and four counts of making false statements to the Federal government.
    This was the first criminal case brought under President Barack Obama’s
Residential Mortgage-Backed Securities Working Group.
    The indictment alleges that Litvak, while a registered broker-dealer and manag-
ing director at Jefferies & Co., Inc., engaged in a scheme to defraud customers on
residential mortgage-backed securities (RMBS) trades. Litvak’s victims are alleged
to have included numerous investment funds, including six funds partnered with
Treasury in TARP’s Public-Private Investment Program (PPIP), created by the
18   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Department of Treasury in 2009 to buy toxic mortgage-backed securities from
                                            struggling banks in response to the financial crisis. As alleged, Litvak defrauded six
                                            PPIFs and multiple private investment funds of a total of more than $2 million.

                                            Former 12-Year Federal Fugitive Pleads Guilty to Fraud and Identity Theft in
                                            Massive, Nationwide Foreclosure Scam
                                            On April 8, 2013, Glen Alan Ward pled guilty to a 15-year fraudulent scheme in
                                            California. Ward solicited and recruited homeowners whose properties were in
                                            danger of imminent foreclosure, including foreclosures by TARP banks, promising
                                            to delay the foreclosures for a $700 fee.
                                                Ward’s actions victimized hundreds of struggling homeowners, stole the
                                            identities of unsuspecting victims involved in bankruptcy proceedings, and
                                            exploited bankruptcy laws to defraud lenders, which included numerous TARP
                                            banks.
                                                After being on the run for 12 years, a SIGTARP investigation led to Ward’s
                                            arrest on April 5, 2012.
                                                In order to impede these foreclosure sales, including foreclosures by TARP
                                            banks, Ward stole identities of unsuspecting debtors who recently filed bankruptcy.
                                            He then directed his paying clients to grant an interest in their distressed home to
                                            one of those debtors, and subsequently directed the homeowner’s lender to stop the
                                            impending foreclosure sale due to the bankruptcy.
                                                As part of the scheme, Ward admitted collecting more than $1.2 million from
                                            his clients who paid for his illegal foreclosure-delay service, all of which he agreed
                                            to forfeit.

                                            Former U.S. Bank Manager Charged with Taking Bribes from Collections Agency
                                            that Defrauded TARP Banks
                                            On February 27, 2013, Wilbur Tate III was arrested on charges of conspiracy to
                                            commit bank bribery while he was an assistant vice president of U.S. Bank in Ohio,
                                            a TARP recipient.
                                                Tate, formerly in charge of debt collection at U.S. Bank, was charged with
                                            accepting bribes from executives of Oxford Collection Agency (“Oxford”) in
                                            exchange for U.S. Bank’s business.
                                                As part of the scheme, the charges allege that Oxford executives initially
                                            provided Tate with boxes of expensive cigars and subsequently sent Tate monthly
                                            cash payments of $2,500 to $5,000, hidden in cigar boxes.
                                                On May 11, 2012, Richard Pinto and Peter Pinto each pled guilty to one count
                                            of conspiracy to commit wire fraud, bank fraud, and money laundering and to
                                            one count of wire fraud stemming from a $10 million fraud scheme they executed
                                            while executives at Oxford. Additionally, on December 19, 2012, three additional
                                            executives of Oxford pled guilty to charges stemming from the same $10 million
                                            fraud scheme. Richard Pinto was sentenced on January 30, 2013, to 60 months in
                                            Federal prison.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   19




Delaware Developer Charged with Defrauding a TARP Bank and
Money Laundering
On January 23, 2013, Michael A. Zimmerman was charged with bank fraud related
offenses against a TARP bank, including one count of money laundering, one
count of conspiracy to commit bank fraud, and seven counts of making a false
statement to a financial institution.
    The indictment alleges that in 2007 and 2008, in connection with certain
projects, Zimmerman and uncharged co-conspirators submitted false draw requests
for payment from the Wilmington Trust Company, a TARP recipient, and requested
and received advanced funds in violation of the terms of the loan agreements with
Wilmington Trust.

California Man Charged with Bankruptcy Fraud Related to Foreclosure-Rescue
Scam
On February 22, 2013, Walter Bruce Harrell was charged with eight counts
of bankruptcy fraud and two counts of making false statements in bankruptcy
proceedings.
    The indictment alleges that Harrell devised and executed a scheme to defraud
creditors who were attempting to lawfully foreclose on numerous properties and
that he did so by delaying and obstructing foreclosure sales by creditors, including
TARP banks, through improper use of the Federal bankruptcy process.

Former Connecticut Bishop Pleads Guilty to Wire Fraud and to Laundering
Proceeds Through a TARP Bank
On February 20, 2013, Julius C. Blackwelder, a former bishop of his church,
pled guilty in New Haven, Connecticut, to wire fraud and money laundering for a
$400,000 investor fraud scheme that included defrauding his congregation. As part
of his scheme, Blackwelder used investor money to pay his own expenses, including
to repay earlier investors in the scheme, build a waterfront home, and repay
personal bank loans, including a line of credit from a TARP recipient bank.




REPORT ORGANIZATION
The report is organized as follows:

•	 Section 1 discusses SIGTARP’s actions to fulfill its mission of advancing
   economic stability through transparency, coordinated oversight, and robust
   enforcement.
•	 Section 2 details how Treasury has spent TARP funds and contains an
   explanation or update of each program.
•	 Section 3 describes the operations and administration of the Office of Financial
   Stability, the office within Treasury that manages TARP.
•	 Section 4 discusses SIGTARP’s recommendations.
20   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                The report also includes numerous appendices containing, among other things,
                                            figures and tables detailing all TARP investments through March 31, 2013, except
                                            where otherwise noted.
              THE OFFICE OF THE SPECIAL
SECT IO N 1   INSPECTOR GENERAL FOR THE
              TROUBLED ASSET RELIEF PROGRAM
22   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   23




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief
Program (“SIGTARP”) was created by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) as amended by the Special Inspector General
for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”). Under EESA
and the SIGTARP Act, SIGTARP has the responsibility, among other things, to
conduct, supervise, and coordinate audits and investigations of the purchase,
management, and sale of assets under the Troubled Asset Relief Program (“TARP”)
or as deemed appropriate by the Special Inspector General. SIGTARP is required
to report quarterly to Congress to describe SIGTARP’s activities and to provide
certain information about TARP over that preceding quarter. EESA gives SIGTARP
the authorities listed in Section 6 of the Inspector General Act of 1978, including
the power to obtain documents and other information from Federal agencies and
to subpoena reports, documents, and other information from persons or entities
outside the Government.
    Under the authorizing provisions of EESA, SIGTARP is to carry out its duties
until the Government has sold or transferred all assets and terminated all insurance
contracts acquired under TARP. In other words, SIGTARP will remain “on watch”
as long as TARP assets remain outstanding.




SIGTARP OVERSIGHT ACTIVITIES SINCE THE
JANUARY 2013 QUARTERLY REPORT
SIGTARP continues to fulfill its oversight role on multiple parallel tracks:
investigating allegations of fraud, waste, and abuse related to TARP; conducting
oversight over various aspects of TARP and TARP-related programs and activities
through 21 published audits and evaluations, and 121 recommendations as of April
9, 2013, and promoting transparency in TARP and the Government’s response to
the financial crisis as it relates to TARP.

SIGTARP Investigations Activity
SIGTARP is a white-collar law enforcement agency. As of April 8, 2013, SIGTARP
had more than 150 ongoing criminal and civil investigations, many in partnership
with other agencies in order to leverage resources. SIGTARP takes its law
enforcement mandate seriously, working hard to deliver the accountability the
American people demand and deserve. SIGTARP’s investigations have delivered
substantial results, including:

•	 criminal chargesi against 136 individuals, including 87 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations

i Criminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.
24   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            •	 criminal convictions of 91 defendants
                                            •	 prison sentences for 43 defendants (others are awaiting sentencing)
                                            •	 civil cases against 58 individuals (including 44 senior officers) and 47 entities
                                               (in some instances an individual will face both criminal and civil charges)
                                            •	 orders temporarily suspending or permanently banning 33 individuals from
                                               working in the banking or financial industry, working as a contractor with the
                                               Federal Government, or working as a licensed attorney
                                            •	 orders of restitution and forfeiture and civil judgments entered for $4.26
                                               billion. This includes restitution orders entered for $3.8 billion, forfeiture orders
                                               entered for $184.3 million, and civil judgments and other orders entered for
                                               $281.9 million. Although the ultimate recovery of these amounts is not known,
                                               SIGTARP has already assisted in the recovery of $161.8 million. These orders
                                               only happen after conviction and sentencing or civil resolution and many
                                               SIGTARP cases have not yet reached that stage; accordingly, any recoveries that
                                               may come in these cases would serve to increase the $4.26 billion
                                            •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
                                               the now-failed Colonial Bank

                                                SIGTARP investigates white-collar fraud related to TARP. These investigations
                                            include, for example, accounting fraud, securities fraud, insider trading, bank
                                            fraud, mortgage fraud, mortgage modification fraud, false statements, obstruction
                                            of justice, money laundering, and tax crimes. Although the majority of SIGTARP’s
                                            investigative activity remains confidential, over the past quarter there have been
                                            significant public developments in several SIGTARP investigations.

                                            Broker Charged with Securities and TARP Fraud – Jesse C. Litvak
                                            On January 28, 2013, SIGTARP agents arrested Jesse C. Litvak, a licensed
                                            securities broker, after a 16-count indictment was returned by a Federal grand jury
                                            in Connecticut charging Litvak with TARP fraud, securities fraud, and making
                                            false statements to the Federal Government. This is the first case brought for fraud
                                            relating to trading activity in TARP’s Public-Private Investment Program (“PPIP”)
                                            and the first criminal case brought by President Barack Obama’s Residential
                                            Mortgage-Backed Securities Working Group.
                                                The charges allege that Litvak, while a registered broker-dealer and managing
                                            director at Jefferies & Co., Inc., engaged in a scheme to defraud customers on
                                            residential mortgage-backed securities trades. Litvak’s victims are alleged to have
                                            included numerous investment funds, including six funds that the Department
                                            of Treasury established in 2009 as part of TARP’s PPIP, which was part of the
                                            Government’s response to the financial crisis.
                                                The purpose of PPIP was to purchase certain troubled real estate-related
                                            securities, including types of residential mortgage-backed securities, from financial
                                            institutions to allow those financial institutions to free up capital and extend new
                                            credit. Beginning in late 2009, the Government used more than $20 billion in
                                            TARP money to fund the Public-Private Investment Funds (“PPIFs”) that would
                                            purchase the troubled securities.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   25




    The indictment alleges that Litvak’s scheme was based on two types of
misrepresentations. In certain transactions, Litvak misrepresented the securities
seller’s asking price to the buyer or misrepresented the buyer’s price to the seller,
keeping the difference between the price paid by the buyer and the price paid to
the seller for Jefferies. In other transactions, Litvak misrepresented to the buyer
that bonds held in Jefferies’ inventory were being offered for sale by a fictitious
third-party seller invented by Litvak, which allowed Litvak to charge the buyer an
extra commission. The charges allege that Litvak defrauded six PPIFs and multiple
private investment funds out of more than $2 million.
    Litvak is scheduled for trial in February 2014. If convicted of all 16 counts, he
faces a maximum of 250 years in Federal prison, a fine, and restitution.
    Through the Residential Mortgage-Backed Securities Working Group, this case
is being investigated by SIGTARP and the U.S. Attorney’s Office for the District of
Connecticut.

California Fund Manager Sentenced to Federal Prison for $24 Million
Fraud Scheme Involving Fake TARP-Backed Securities – New Point
Financial Services, Inc.
On March 18, 2013, John Farahi was sentenced to 120 months in Federal prison
followed by three years of supervised release for his role in a fraudulent $20 million
Ponzi scheme perpetrated through his investment firm New Point Financial
Services, Inc. (“New Point”). Farahi was also ordered to pay more than $24 million
in restitution to victims.
    Farahi previously pled guilty on June 4, 2012, to running a Ponzi scheme
through New Point from 2005 through 2009. Farahi admitted to convincing
potential investors to invest in the corporate bonds of companies backed by TARP
and other Federal Government programs, indicating that the investors risked losing
their money only if the U.S. Government failed. Many of the defrauded investors
were members of the Iranian-Jewish community who listened to Farahi’s daily
Farsi-language investment radio show. Farahi admitted that he used investor money
to support his lavish lifestyle, to make payments to previous New Point investors in
order to perpetuate the Ponzi scheme, and to finance and cover trading losses on
speculative options trades. Facing massive trading losses at the end of 2008, Farahi
borrowed millions of dollars from TARP recipients Bank of America and U.S. Bank
(and other banks) by providing false financial information to these banks.
    Additionally, as previously reported, on November 13, 2012, after a two-week
criminal trial in Federal court, attorney David Tamman was convicted of 10
counts relating to his role in the Ponzi scheme perpetrated by Farahi. Tamman
was convicted of conspiring with Farahi to obstruct the Securities and Exchange
Commission’s (“SEC”) investigation into Farahi’s illegal Ponzi scheme by (i) alter-
ing, creating, and backdating documents to make it falsely appear to the SEC that
Farahi and New Point had made all the necessary disclosures to investors and that
Farahi had properly transferred investor funds to his personal accounts and (ii)
aiding and abetting Farahi in providing misleading and evasive testimony under
26   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            oath to the SEC. Tamman also was convicted of being an accessory after the fact to
                                            Farahi’s mail and securities fraud crimes. At sentencing on May 20, 2013, Tamman
                                            faces a maximum penalty of 190 years in prison.
                                               This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Central District of California, and the Federal Bureau of Investigation (“FBI”).

                                            Bank Attorney Sentenced to Federal Prison for Role in Fraud Scheme
                                            of Failed TARP-Applicant Bank – FirstCity Bank
                                            On March 1, 2013, Robert E. Maloney, Jr., the former in-house counsel for
                                            FirstCity Bank (“FirstCity”), was sentenced to 39 months in Federal prison
                                            followed by three years of supervised release and ordered to pay $10.5 million in
                                            restitution. Maloney also agreed to a lifetime ban from working in the banking
                                            industry. In February 2009, FirstCity unsuccessfully sought $6.1 million in Federal
                                            Government assistance through TARP. FirstCity failed and was seized by Federal
                                            and state authorities on March 20, 2009.
                                                Maloney had previously pled guilty to bank fraud, admitting that while he
                                            served as in-house counsel to FirstCity, he disguised the personal financial
                                            interest of Mark A. Conner, FirstCity’s former president, chief executive officer
                                            and chairman, in a July 2007 real estate loan. Maloney admitted to receiving
                                            approximately $483,000 of those loan proceeds into his attorney escrow account
                                            that was maintained at FirstCity and using those funds to make payments and
                                            transfers to and for Conner’s benefit. As previously reported, on August 9, 2012,
                                            Conner was sentenced to 12 years in Federal prison, banned for life from the
                                            banking industry, agreed to forfeit $7 million, and ordered to pay more than $19.5
                                            million in restitution after pleading guilty to conspiracy to commit bank fraud and
                                            perjury for his role in the scheme.
                                                Conner admitted to defrauding FirstCity’s loan committee and board of
                                            directors into approving multiple multi-million-dollar commercial loans to
                                            borrowers who were actually purchasing property owned by Conner or his
                                            co-conspirators. Also, as previously reported, in June 2012, Clayton A. Coe,
                                            the former vice president and senior commercial loan officer at FirstCity, pled
                                            guilty to bank fraud and to making a false statement on his tax return. Coe is
                                            scheduled to be sentenced on May 8, 2013. Coe admitted to defrauding FirstCity
                                            by causing FirstCity’s loan committee to approve an $800,000 loan to a borrower
                                            in connection with a real estate development transaction that provided a personal
                                            financial benefit to Coe.
                                                The case is being investigated by SIGTARP, the U.S. Attorney’s Office for
                                            the Northern District of Georgia, the FBI, Internal Revenue Service Criminal
                                            Investigation Division (“IRS-CI”), and the Federal Deposit Insurance Corporation
                                            Office of Inspector General (“FDIC OIG”).
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   27




Bank Officer of Failed TARP-Applicant Bank Sentenced to Federal
Prison and Second Bank Officer Charged with Bank Fraud –
Appalachian Community Bank
On April 5, 2013, Adam Teague, former senior vice president and senior loan
officer of Appalachian Community Bank (“Appalachian”) was sentenced to 70
months in Federal prison followed by five years of supervised release, ordered to pay
$5.8 million in restitution to the Federal Deposit Insurance Corporation (“FDIC”),
and ordered to forfeit $7 million and certain real property in connection with his
conviction for conspiracy to commit bank fraud for his participation in a scheme to
defraud Appalachian of millions of dollars and hide certain past-due Appalachian
loans from FDIC. In February 2012, FDIC issued a lifetime ban against Teague
from working in the banking industry.
    Also, on February 26, 2013, William R. Beamon, Jr., a former vice president
of Appalachian, was charged in Federal court with six counts of bank fraud. If
convicted, Beamon faces a maximum of 30 years in prison and a fine of up to
$1 million.
    As vice president at Appalachian, Beamon was in charge of the bank’s
foreclosure liquidation department. Beamon was also the sole owner of a shell
company, Newmon Properties, LLC (“Newmon Properties”). According to the
charges filed in court, Beamon and his co-conspirators allegedly devised and
executed a fraudulent scheme in which they diverted funds from the bank. In
October 2009, Beamon allegedly lied to a real estate agent by stating that Beamon
owned a property that was actually owned by Appalachian as a foreclosed property.
Beamon had the real estate agent market and lease that property as if Beamon
owned it. From April 2009 through December 2009, Beamon collected and
deposited more than $20,000 in illegal rent payments and security deposits into
his personal bank account. Further, Beamon allegedly caused Appalachian to make
loans to his wife and to Newmon Properties. The loans provided by Appalachian
allowed Beamon to purchase properties in the bank’s foreclosure inventory at prices
below the fair market value.
    In October 2008, Appalachian applied for, but did not receive, $27 million
in TARP funding. On March 19, 2010, Appalachian was closed by the Georgia
Department of Banking and Finance, which appointed FDIC as receiver. FDIC
estimates that Appalachian’s failure will cost the deposit insurance fund more than
$419 million.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
Northern District of Georgia, the FBI, and the Federal Housing Finance Agency
Office of Inspector General.

Former Bank President and Co-Conspirator Sentenced to Federal
Prison for Bank Fraud Conspiracy – First Community Bank
On April 4, 2013, Reginald R. Harper, former chief executive officer, president and
loan officer, of First Community Bank of Hammond, Louisiana (“First Community
Bank”), was sentenced to serve 24 months in Federal prison followed by three
years of supervised release and ordered to pay a fine of $25,000 for his role in a
28   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            fraudulent scheme to conceal delinquent, non-performing loans by creating new
                                            sham loans at the bank. Additionally, FDIC issued a ban against Harper from
                                            working in the banking industry. On the same day, Troy A. Fouquet, a Louisiana
                                            real estate developer was sentenced to serve 18 months in Federal prison followed
                                            by three years of supervised release. Both Harper and Fouquet were ordered to pay
                                            $570,955, jointly and severally, in restitution to victims.
                                                Previously, Harper and Fouquet each pled guilty to conspiracy to commit bank
                                            fraud in Federal court in New Orleans. As part of their fraudulent scheme, Harper
                                            arranged for First Community Bank to provide more than $2 million in loans to
                                            Fouquet in 2004 to purchase land and build houses on the land. However, they
                                            were unable to identify a sufficient number of qualified buyers for the houses.
                                            In response, Harper and Fouquet devised various cover-up schemes to avoid
                                            reporting the delinquent loans made by Harper to Fouquet. For example, they
                                            used “nominee” loans and “straw” borrowers to apply for new loans from First
                                            Community Bank, which Harper authorized, and then used the proceeds to pay
                                            off the original loans made to Fouquet. Harper and Fouquet’s misconduct caused
                                            First Community Bank to suffer large financial losses. As a result of their fraud,
                                            First Community Bank submitted a false “call report” (a report meant to disclose
                                            the bank’s true financial condition) to its regulator, which later affected the bank’s
                                            application for TARP funds. First Community Bank ultimately withdrew its TARP
                                            application, despite being approved to receive $3.3 million in TARP funds.
                                                The case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Eastern District of Louisiana, and the FBI.

                                            Asset Management Company Suspended from Doing Business with
                                            U.S. Government – Avondale Investments, LLC
                                            On December 11, 2012, at SIGTARP’s request, Treasury issued a one-year
                                            suspension against Avondale Investments, LLC (“Avondale”) and its president
                                            and sole owner, Donald Dillingham, from participating in Federal Government
                                            programs and activities.
                                                In November 2008, Avondale submitted to Treasury an application to perform
                                            asset management services to Treasury, including the ongoing valuation of
                                            securities issued to Treasury by certain banks participating in the Capital Purchase
                                            Program. Treasury limited these asset manager assignments to companies that
                                            manage at least $100 million in assets. In its application to Treasury, Avondale
                                            claimed to have $101 million in assets under management. After reviewing
                                            Avondale’s application, Treasury selected Avondale as an asset manager and
                                            Avondale began providing advisory services to Treasury in December 2009.
                                            Treasury later discovered that Avondale had falsely inflated the amount of its assets
                                            under management in its application to Treasury and had only about $47 million
                                            in assets under management at the time that the application was filed. Treasury
                                            terminated Avondale as an asset manager in May 2011. Specifically, the suspension
                                            precludes Avondale and Dillingham from participating in transactions with the U.S.
                                            Government, including grants, loans, and loan guarantees, and from acting as a
                                            principal of an organization participating in such transactions.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   29




Chairman of Debt Collection Agency Sentenced to Federal Prison for
Role in Fraud Scheme/Bank Executive Charged with Taking Bribes
from Debt Collection Agency – Oxford Collection Agency
On January 30, 2013, Richard Pinto, the former chairman of Oxford Collection
Agency, Inc. (“Oxford”), was sentenced to 60 months in Federal prison followed by
five years of supervised release and was ordered to pay $12.3 million in restitution
to victims for his role in a scheme to defraud business clients of Oxford and
Webster Bank, a TARP recipient. On February 27, 2013, Wilbur Tate III was
arrested by SIGTARP agents and its law enforcement partners and charged with
taking bribes from Oxford executives while he was an assistant vice president at
TARP recipient U.S. Bank.
    As previously reported, Richard Pinto and his son, Peter Pinto, each have pled
guilty to using Oxford to perpetrate a multi-million dollar fraud scheme. Peter Pinto
served as Oxford’s chief executive officer. In addition, three other former Oxford
senior executives pled guilty in December 2012 for their roles in the scheme:
Randall Silver, chief financial officer, Charles Harris, executive vice president, and
Carlos Novelli, chief operations officer.
    From January 2007 through March 2011, Oxford had agreements with business
clients to collect debts from debtors, to report such collections to the clients, and
to remit the collected payments back to the clients. The clients would pay Oxford a
portion of the monies collected by Oxford as a fee. Silver, Harris, and Novelli
conspired with Richard Pinto and Peter Pinto to execute a fraud scheme in
which they (i) collected funds from debtors on behalf of clients but did not
remit those funds to the clients and (ii) created false documents and used other
deceptive means to cover up their failure to remit collected funds to clients and
their improper use of the funds. Richard Pinto and Peter Pinto also admitted
to causing Oxford to secure a line of credit from TARP recipient Webster Bank
without disclosing to the bank that Oxford was defrauding its clients and had
significant outstanding payroll taxes. Silver also helped Richard Pinto and Peter
Pinto defraud Webster Bank by inducing the bank to increase the line of credit to
$6 million by withholding Oxford’s true financial condition and submitting falsified
financial records to the bank. Richard Pinto, Peter Pinto, and Silver also admitted
to laundering funds from the line of credit by providing those funds to clients
to maintain the clients’ business, which continued the scheme. The fraudulent
scheme led victims to lose more than $12 million.
    As assistant vice president at TARP recipient U.S. Bank, Tate was responsible
for outsourcing debt collection accounts to collection agencies, including Oxford.
From August 2008 through October 2010, Oxford executives allegedly provided
Tate with boxes of expensive cigars and monthly cash payments in order to
continue receiving debt collection business from U.S. Bank. Another Oxford vice
president, Patrick Pinto, was also charged in December 2012 in connection with
the scheme. Patrick Pinto is Richard Pinto’s son and Peter Pinto’s brother.
    Patrick Pinto has been charged with allegedly paying such bribes to officials at
two banks, including Tate. Patrick Pinto’s charges are currently pending.
30   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Peter Pinto, scheduled for sentencing in June 2013, faces a maximum of 35
                                            years in prison and a fine of up to $20 million. At sentencing, Silver faces up to 25
                                            years in prison and a $500,000 fine; Harris and Novelli each face up to five years in
                                            prison and a $250,000 fine.
                                                The case is being investigated by SIGTARP, the U.S. Attorney’s Office for
                                            the District of Connecticut, the U.S. Attorney’s Office for the Northern District
                                            of Georgia, IRS-CI, the FBI, and the Connecticut Securities, Commodities and
                                            Investor Fraud Task Force.

                                            California Couple Sentenced to Federal Prison for Defrauding TARP
                                            Banks – Galleria USA, Inc.
                                            On February 25, 2013, and March 12, 2013, wife and husband Cheri Fu (also
                                            known as Cheri L. Shyu) and Thomas Chia Fu were sentenced to 36 months
                                            and 21 months, respectively, in Federal prison followed by five years of supervised
                                            release each for their roles in bilking nearly $5 million from a group of banks,
                                            including TARP recipient banks. The Fus were also ordered to jointly pay
                                            $4.7 million in restitution.
                                                As previously reported, on January 26, 2012, the Fus, owners of Galleria USA,
                                            Inc. (“Galleria”), pled guilty to bank fraud in Federal court in Santa Ana, California.
                                            Galleria imported home decor items manufactured in China for sale in the United
                                            States. The Fus obtained a $130 million revolving line of credit for Galleria from
                                            seven banks, some of which were TARP recipients, including Bank of America
                                            and United Commercial Bank. The Fus admitted to significantly overstating to the
                                            banks the amount of Galleria’s accounts receivable in order to be able to continue
                                            borrowing funds under the line of credit. The Fus admitted to providing false
                                            financial reports to the banks and falsifying Galleria’s computer system to support
                                            the exaggerated accounts receivable figures they provided to the banks. The banks
                                            suffered an estimated loss of $4.7 million.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Central District of California, the FBI, and the U.S. Secret Service.

                                            Delaware Developer Indicted for Defrauding TARP Bank – Michael A.
                                            Zimmerman
                                            On January 24, 2013, Michael A. Zimmerman, a Delaware real estate developer,
                                            was arrested by SIGTARP agents and its law enforcement partners in connection
                                            with his alleged role in defrauding Wilmington Trust Co. (“Wilmington Trust”), a
                                            TARP-recipient bank. Zimmerman was charged in Federal court with one count
                                            of conspiracy to commit bank fraud, seven counts of making a false statement to a
                                            financial institution, and one count of money laundering.
                                                According to the indictment, Zimmerman allegedly defrauded Wilmington
                                            Trust by using real estate development loan proceeds for improper purposes,
                                            ultimately causing substantial losses to Wilmington Trust. The indictment alleges
                                            that from 2007 through 2009, Zimmerman obtained over $37 million in financing
                                            from Wilmington Trust for three real estate development projects. Subsequently,
                                            Zimmerman and his co-conspirators allegedly submitted to Wilmington Trust
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   31




numerous fraudulent construction draw requests and requests for the advancement
of funds. After the requested funds were disbursed, Zimmerman and his
co-conspirators used the funds for purposes other than requested, including for
their own personal use. For example, Zimmerman allegedly used loan proceeds to
send money to himself and his partners and to personally invest in a development
in the Bahamas. Wilmington Trust incurred a loss on the three projects in excess of
$26 million.
    If convicted of all nine counts, Zimmerman faces a maximum term of 250 years
in prison, a fine, and restitution.
    The case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Delaware, the FBI, IRS-CI, and the Office of the Inspector General-
Board of Governors of the Federal Reserve System.

Borrowers Plead Guilty to Defrauding Failed TARP Bank – William B.
Cody, Michael B. Bowen, and Mark W. Shoemaker
In February and March 2013, three former GulfSouth Private Bank (“GulfSouth”)
borrowers pled guilty in Federal court in Pensacola, Florida, for their roles in a loan
scheme that defrauded GulfSouth.
    On February 26, 2013, and March 21, 2013, William B. Cody and Michael
B. Bowen each pled guilty to conspiracy to commit bank fraud and to bank fraud.
Each faces a maximum of 30 years in Federal prison and a maximum fine of $2
million at sentencing, scheduled for May 14, 2013, and June 7, 2013, respectively.
On March 22, 2013, Mark W. Shoemaker pled guilty to bank fraud, conspiracy to
commit bank fraud, and making a false statement to a federally insured institution.
At sentencing on June 6, 2013, Shoemaker faces a maximum term of 30 years in
Federal prison and a maximum fine of $3 million.
    GulfSouth, a Florida bank whose deposits were insured by FDIC, applied for
and received $7.5 million in TARP funds in September 2009. The bank failed on
October 19, 2012, and FDIC was named receiver. On the date that GulfSouth was
closed, GulfSouth had failed to repay the Treasury the $7.5 million in outstanding
TARP funds. The FDIC estimates that the cost to the deposit insurance fund will
be $36.1 million.
    According to court documents, two former senior GulfSouth bank officers
used straw borrowers to purchase condominium properties from GulfSouth bor-
rowers that were already in default. Approximately $3 million in mortgage loans
were originated in this scheme, which was orchestrated in order to keep the bank
from having to write off the original loans. All three defendants admitted that they
were approached by GulfSouth bank officers to purchase the properties. Bank
officers also allegedly authorized GulfSouth loans to the defendants for more than
the outstanding loans on the properties. The defendants obtained the loans from
GulfSouth in their own names, falsified closing documents, and then either the
borrowers defaulted on their loans or the loans were falsely acknowledged by the
bank officers as being paid in full.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Northern District of Florida, and FDIC OIG.
32   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Virginia Man Charged and Arrested in Connection with Foreclosure
                                            Rescue Scheme – Mark S. Farhood
                                            On February 25, 2013, SIGTARP agents and its law enforcement partners arrested
                                            Mark S. Farhood and, on March 5, 2013, Farhood was indicted in Alexandria,
                                            Virginia, with conspiracy to commit mail fraud, wire fraud, and bank fraud for his
                                            role in a fraudulent home rescue operation through his company Home Advocate
                                            Trustees (“HAT”).
                                                According to the indictment, Farhood, the co-owner and operator of HAT, and
                                            his co-conspirators used their website, www.walkawaytoday.org, to fraudulently
                                            represent to hundreds of distressed homeowners that they could walk away
                                            from their homes and their mortgages without negative effect to their credit, by
                                            selling their homes to HAT for a nominal fee. In order to obtain possession of
                                            the distressed homes, it is alleged that Farhood and his co-conspirators executed
                                            quitclaim deeds in favor of HAT and sent the distressed homeowners false closing
                                            documents. The homeowners then stopped paying their mortgages and left their
                                            homes in the mistaken belief that they had sold their homes to HAT. Once HAT
                                            took possession of the homes, it is alleged that Farhood and his co-conspirators
                                            leased the properties and collected all rent and security deposit payments for their
                                            own personal use. When lenders began foreclosure proceedings on the distressed
                                            properties, Farhood and his co-conspirators allegedly delayed the foreclosure
                                            process by submitting to the lenders fraudulent Home Affordable Modification
                                            Program applications. Through these misrepresentations, it is alleged that HAT
                                            fraudulently obtained more than $3 million.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Eastern District of Virginia, and the FBI.

                                            New Jersey Mortgage Fraud Sweep
                                            As part of an ongoing wide-scale mortgage fraud investigation in New Jersey,
                                            described below, 11 individuals have been arrested, including two individuals who
                                            have since pled guilty, by SIGTARP agents and its law enforcement partners and
                                            charged with conspiracy to commit bank fraud relating to their roles in fraudulent
                                            mortgage schemes. Those arrested were: Christopher Woods, Matthew Amento,
                                            Carmine Fusco, Kenneth Sweetman, Joseph Divalli, Paul Chemidlin, Jr., Delio
                                            Countinho, Christopher Ju, Jose Luis Salguero Bedoya, Yazmin Soto-Cruz, and
                                            Jose Martins.

                                            Two Individuals Plead Guilty to Wire Fraud in $5 Million Scheme
                                            Previously, in 2012, Matthew Amento and Christopher Woods pled guilty in
                                            Federal court to wire fraud charges in connection with their roles in a fraud
                                            scheme running from March 2008 through February 2010 that resulted in
                                            significant loses by mortgage lenders, including TARP-recipient banks Bank of
                                            America and Wells Fargo.
                                                Amento and Woods admitted to recruiting straw borrowers to buy residential
                                            properties located in New Jersey and submitting fraudulent loan applications
                                            to lenders along with false supporting financial information, including financial
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   33




documents that were altered to reflect inflated income and asset amounts for the
applicants. In addition, Amento and Woods caused others to create and submit to
lenders inaccurate loan settlement statements that showed fake liens on the subject
property purportedly owned by entities controlled by Amento and Woods. After
the lenders approved these loans, Amento and Woods caused loan proceeds to be
transferred to bank accounts they controlled, to pay off liens purportedly owned by
entities they controlled. According to documents filed in court, this scheme caused
lenders, including the TARP-recipient banks, to suffer losses totaling approximately
$5 million.
    Amento and Woods are scheduled to be sentenced on April 29, 2013, and on
May 13, 2013, respectively. At sentencing, each faces a maximum of 40 years in
Federal prison.

Nine Individuals Arrested and Charged in $10 Million Mortgage Fraud Scheme
On January 23, 2013, Carmine Fusco, Kenneth Sweetman, Joseph Divalli, Paul
Chemidlin, Jr., Delio Countinho, Christopher Ju, Jose Luis Salguero Bedoya,
Yazmin Soto-Cruz, and Jose Martins were charged with conspiracy to commit
bank fraud in connection with an alleged long-running, large-scale mortgage fraud
scheme that caused losses of approximately $10 million.
   According to the charges, from March 2008 to July 2012, the defendants
engaged in multiple mortgage fraud conspiracies targeting at least 15 properties in
New Jersey. The defendants’ alleged mortgage frauds took several forms, including
obtaining control of properties through fraudulent “short sale” transactions,
short sale flips, and identity theft. They submitted materially false mortgage
loan documents to lenders, including TARP recipient banks, in order to obtain
loan proceeds, which the defendants then used for their own financial gain. The
defendants also obtained money through various sales to straw buyers.
   These ongoing cases are being investigated by SIGTARP, the U.S. Attorney’s
Office for the District of New Jersey, the FBI, the United States Postal Investigation
Services (“USPIS”), and the Department of Housing and Urban Development
Office of Inspector General as part of the New Jersey Mortgage Fraud Task Force.

Former Federal Fugitive Pleads Guilty to Fraud and Identity Theft
in Nationwide Foreclosure Scam – Glen Alan Ward (aka Brandon
Michaels)
On April 8, 2013, Glen Alan Ward (aka Brandon Michaels) pled guilty in Federal
court in California to bankruptcy fraud and aggravated identity theft. At sentencing
on July 29, 2013, Ward faces a maximum of 12 years in Federal prison and a fine of
up to $750,000.
    As previously reported, in August 2012, Ward was charged with bankruptcy
fraud, mail fraud, and aggravated identity theft associated with his operation of
a foreclosure-rescue scam that illegally postponed foreclosure sales. Ward, who
had been a fugitive sought by U.S. Federal authorities since 2000, was arrested in
Canada on April 5, 2012, and was returned to the United States on December 21,
2012.
34   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                As part of his guilty plea, Ward admitted that from 1995 through April 2012
                                            he and his co-conspirators solicited homeowners whose properties were facing
                                            foreclosure and promised to postpone the foreclosure for six to 36 months in
                                            exchange for a monthly fee of approximately $700. After collecting fees from a
                                            homeowner, Ward admitted that he would have the homeowner execute and record
                                            a deed granting a small interest in the property to a random debtor in bankruptcy
                                            whose name Ward found in bankruptcy records. Ward also would retrieve a copy of
                                            the debtor’s bankruptcy petition unbeknownst to the debtor. Ward further admitted
                                            that he or a co-conspirator then defrauded the bank seeking to foreclose on the
                                            homeowner’s property by providing the bank copies of the debtor’s bankruptcy
                                            petition and documents showing that the debtor owned an interest in the subject
                                            property. Because a bankruptcy filing triggers an automatic stay that protects a
                                            debtor’s property, the receipt of the bankruptcy petition and deed in the debtor’s
                                            name forced the lender to cancel the foreclosure sale. When a lender would
                                            succeed in having a court lift the stay, Ward would arrange another automatic
                                            stay by having the homeowner sign another deed transferring a small interest in
                                            the property to a different debtor in bankruptcy. Ward would repeat this course of
                                            action, continuously delaying sale of the property for as long as the homeowner
                                            paid the monthly fee. The fraudulent scheme perpetrated by Ward and his
                                            co-conspirators delayed the foreclosure sales of hundreds of distressed properties
                                            by using bankruptcies filed in 26 judicial districts. Ward and his co-conspirators
                                            collected more than $1 million in fees for illegal foreclosure-delay services. As a
                                            result, multiple lenders, including TARP-recipient banks Bank of America and U.S.
                                            Bank and other TARP-recipient banks, incurred costs and delays while attempting
                                            to collect money that was owed to them.
                                                Ward also admitted that he worked with Frederic Alan Gladle to perpetrate
                                            the foreclosure-rescue fraud. As previously reported, Gladle was charged with
                                            and pled guilty to the foreclosure-rescue fraud scheme. On May 3, 2012, Gladle
                                            was sentenced to 61 months in Federal prison and ordered to pay $214,259 in
                                            restitution and to forfeit $87,901.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Central District of California, the FBI, and the U.S. Trustee’s Office.

                                            California Man Charged with Bankruptcy Fraud Related to Foreclosure
                                            Rescue Scam – Walter Bruce Harrell
                                            On February 20, 2013, Walter Bruce Harrell was arrested by SIGTARP agents
                                            and its law enforcement partners in connection with Harrell’s alleged role in
                                            a foreclosure rescue scam. Harrell was charged by a Federal grand jury with
                                            eight counts of bankruptcy fraud and two counts of making false statements in
                                            bankruptcy proceedings.
                                                According to the indictment, from March 2011 through January 2013, Harrell
                                            perpetrated a scheme to prevent lenders, including TARP-recipient banks, from
                                            lawfully foreclosing on properties. Harrell solicited homeowners whose properties
                                            were facing foreclosure and promised to postpone the foreclosure in exchange
                                            for a monthly fee. After the fees were paid, Harrell allegedly directly or indirectly
                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   35




had the property owners transfer a fractional interest in their distressed property
to individuals paid by Harrell to voluntarily file for bankruptcy. As required by
law, these bankruptcy filings automatically halted the foreclosure sales until the
lenders sought relief from the stay or until the bankruptcy case was dismissed.
In circumstances where the bankruptcy court allowed a foreclosure to proceed,
Harrell allegedly often had the property owner transfer another fractional share
in the distressed property to a different debtor in bankruptcy, which renewed the
foreclosure delay process.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Northern District of California, and the FBI.

Former Bishop Pleads Guilty to Wire Fraud and to Laundering
Proceeds Through TARP Bank – Julius C. Blackwelder
On February 20, 2013, Julius C. Blackwelder pled guilty in Federal court to wire
fraud and money laundering charges for his role in a Ponzi scheme that defrauded
investors. At sentencing on May 15, 2013, Blackwelder faces a maximum of 30
years in Federal prison, a fine of $500,000, and restitution.
    As previously reported, Blackwelder was charged in March 2012 with
conducting a Ponzi scheme that began in 2005 while he was the Bishop of
the Church of Jesus Christ of Latter-Day Saints congregation in Trumbull,
Connecticut. Blackwelder admitted to soliciting victim-investors, including
members of his congregation, to invest money with him by misrepresenting himself
as an experienced and successful investor and falsely assuring them that their
funds would be invested in safe investments. In many instances, Blackwelder
also guaranteed the victim-investors their principal and a specific return on their
investment. Blackwelder used investor money to pay earlier investors in the
scheme, to build a waterfront home for himself, and to repay personal bank loans,
including a line of credit from a TARP-recipient bank. Blackwelder admitted that
he failed to invest victim funds as represented and lied to reassure a victim about
the safety of his investment and to delay repaying the victim.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Connecticut, USPIS, IRS-CI, and the State of Connecticut Department
of Banking.

SIGTARP Audit Activity
SIGTARP has initiated 29 audits and four evaluations since its inception. As of
April 9, 2013, SIGTARP has issued 21 reports on audits and evaluations. Among
the ongoing audits and evaluations in process are reviews of: (i) Treasury’s role in
General Motors’ decision to top up the pension plan for hourly workers of Delphi
Corporation; (ii) Treasury’s decision to waive Internal Revenue Code Section 382
for Treasury’s sales of securities in TARP institutions; and (iii) Treasury’s oversight
efforts to identify, mitigate, and resolve potential conflicts of interest for Public-
Private Investment Program’s trading activity.
36   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Recent Audits/Evaluations Released

                                            Banks that Used the Small Business Lending Fund to Exit TARP
                                            On April 9, 2013, SIGTARP released an audit report, “Banks that Used the
                                            Small Business Lending Fund to Exit TARP,” which reviewed how, in 2011, 137
                                            of the small banks bailed out by TARP used more than $2 billion from another
                                            Government program, the Small Business Lending Fund (“SBLF”), to repay and
                                            exit TARP.
                                                Viewed by members of Congress as a fix for TARP’s failure to require or
                                            incentivize banks to lend the money, SBLF provided participating banks with
                                            incentives to increase small-business lending. However, the scope and scale of
                                            SBLF were not as expected, with Treasury investing only $4 billion of the available
                                            $30 billion, two-thirds of which went to TARP banks that used SBLF to repay
                                            TARP in 2011. Although Congress allowed TARP banks to participate, Congress
                                            intended that the banks would increase their loans to small businesses, and as a
                                            safeguard, required that applicant banks submit to their Federal banking regulator
                                            a “small business lending plan” detailing how the bank would increase lending.
                                                However, former TARP banks in SBLF have not effectively increased small-
                                            business lending and are significantly underperforming compared to non-TARP
                                            banks. Twenty-four former TARP banks have not increased their lending while in
                                            SBLF, despite those banks collectively receiving $501 million in SBLF funds. The
                                            remaining former TARP banks have increased lending by $1.13 for each SBLF
                                            dollar they received. By comparison, banks that did not participate in TARP but
                                            received SBLF funding have increased small-business lending by more than three
                                            times that amount – $3.45 for each $1 in SBLF funds.
                                                The 132 of 137 former TARP banks remaining in SBLF have not effectively
                                            increased small-business lending because they used approximately 80% of SBLF
                                            funds ($2.1 billion of the $2.7 billion) to repay TARP. Although as a group, the
                                            former TARP banks remaining in SBLF increased lending by $1.13 for each dollar
                                            in SBLF funds received, there was a significant difference in lending depending
                                            on whether the bank received only enough SBLF funds to repay TARP or received
                                            additional funds. TARP banks that received only enough SBLF funds to repay
                                            TARP have lent out significantly less than they received in SBLF funds – increasing
                                            lending by only 25 cents for each dollar in SBLF funds. TARP banks that received
                                            additional SBLF money beyond the outstanding TARP balance have increased
                                            lending by $1.67 for every dollar in SBLF funds, a fraction of lending increases by
                                            non-TARP banks in SBLF.
                                                TARP banks had much to gain and little to lose from refinancing into SBLF
                                            irrespective of their small-business lending capability or willingness to lend. If the
                                            former TARP banks fail to increase lending, there is no meaningful penalty. The
                                            “fees” and “penalties” resulting from a TARP bank’s failure to increase lending in
                                            SBLF bring the cost of capital in line with the cost under TARP.
                                                Congress’s safeguard of requiring that banks submit a small-business lending
                                            plan, a requirement not present in TARP, did not have the intended effect because
                                            Treasury and the Federal banking regulators did not adequately assess whether the
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   37




banks’ plans to increase small-business lending were achievable. SIGTARP found
that Treasury and the Federal banking regulators did not effectively communicate
with each other, each claiming that the other had responsibility to assess the banks’
lending plans.
    Treasury’s SBLF program director told SIGTARP that Treasury did not perform
an independent analysis of the projections in the lending plans, and that analysis
of the lending plans was the regulators’ responsibility because the law required
that the lending plans be submitted to regulators. Regulators did not agree with
Treasury’s view, and Office of the Comptroller of the Currency (“OCC”) and
FDIC officials told SIGTARP in interviews that they were conduits, passing the
lending plans to Treasury. When SIGTARP asked the Federal Reserve Board’s
(“Federal Reserve”) Manager of Community Banking Organizations whether the
Federal Reserve had considered whether the lending goals in applicants’ plans
were attainable, when some banks used all the SBLF capital to repay TARP,
he responded that it was Treasury’s responsibility, not the responsibility of the
regulators. The result of this lack of effective communication was an overall lack
of scrutiny by Treasury and regulators to determine whether the banks’ plans were
credible. Notably, Treasury and regulators did not deny SBLF funding to any TARP
bank based on its lending plan.
    In reviewing bank applications for SBLF, Treasury and the banking regulators
did not focus on whether the TARP banks were prepared to lend SBLF capital.
Instead regulators generally focused on the banks’ viability, in a process described
by one regulator as “left over” from TARP. Given their institutional expertise as
bank supervisors, regulators were well suited to weigh in on the credibility of the
applicant banks’ plans to increase small-business lending. Despite the fact that the
law that created SBLF required that applicants submit a small-business lending
plan to their Federal banking regulator, regulators did not consistently take action
to preserve the intent of Congress by meaningfully reviewing the banks’ proposals
to increase lending. Even where the regulator provided input to Treasury on the
lending plans, the regulator did not recommend that Treasury deny funding to the
TARP bank based on the lending plan. Despite regulators giving some input to
Treasury on some banks’ lending plans, former TARP banks have not effectively
increased small-business lending.
    Even with limited input from the regulators on banks’ proposed lending plans,
the plans could have been adequately assessed had Treasury’s own review been
substantive. Instead, Treasury’s application review process was almost entirely
focused on the banks’ ability to repay the funds to Treasury, overshadowing any
consideration of the applicant’s preparedness to lend SBLF money. Treasury’s
review of the lending plans submitted by SBLF applicant banks was superficial,
with Treasury merely filling in a “check-the-box” review form that did not require
applicants to provide specific details to support their ability to increase lending as
proposed. Treasury gave little to no consideration to key risk factors, such as the
source of funds to support new lending, despite obvious questions about TARP
banks’ ability to meet the SBLF program’s lending goals for those banks that would
use SBLF funds to repay TARP.
38   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Treasury rejected a SIGTARP recommendation that Treasury should not count
                                            the TARP capital when evaluating the health and viability of TARP banks, despite
                                            SIGTARP’s warning that it made little sense to convert a TARP bank to SBLF if the
                                            institution did not have the necessary capital to support increased lending. Treasury
                                            claimed that the action SIGTARP recommended could unfairly disadvantage the
                                            applicant bank. SIGTARP designed the recommendation to ensure that banks did
                                            not use SBLF to escape TARP and its restrictions without effectively increasing
                                            small-business lending, which unfortunately has come to fruition.
                                                Congress intended that SBLF fix the significant lost opportunity in TARP that
                                            banks were not required or given incentives to lend. The lending plans were the
                                            safeguard to provide that fix, but without consistent, meaningful review of those
                                            plans by Treasury and the Federal banking regulators, there was no substantive
                                            difference between TARP’s application review process and SBLF’s application
                                            review process for TARP banks, as it related to lending. Many of the TARP banks
                                            that refinanced into SBLF are demonstrating an inability or unwillingness to fulfill
                                            the sole purpose of the program – increase lending to small businesses. Many
                                            TARP banks may not have had the wherewithal to increase lending because they
                                            used their SBLF funds to repay TARP. Other TARP banks may not have received
                                            enough additional funds to achieve the increases in lending they proposed.
                                            Treasury and regulators would have detected this with proper and consistent
                                            scrutiny of applicants’ lending plans and if they required the banks to demonstrate
                                            a source of funds to lend. If the banks could not credibly demonstrate a source of
                                            funds to lend beyond the SBLF funds they used to repay TARP, Treasury should
                                            have found the banks unsuited to participate in the program and kept them in
                                            TARP.
                                                Unlike TARP’s first bank program, which was created during an emergency,
                                            SBLF was not designed in the same crisis mode that existed in 2008. Treasury
                                            and regulators had a year to develop and implement meaningful SBLF application
                                            review procedures that would achieve the intended purpose of promoting lending.
                                            By not doing so, Treasury and the regulators lost sight of Congress’s primary goal of
                                            the program – to increase lending to small businesses. Treasury and the regulators
                                            should have assessed the credibility of the information provided by each applicant
                                            TARP bank in its lending plan to ensure that those banks exiting TARP through
                                            SBLF were well positioned and well prepared to meet SBLF’s sole purpose, to
                                            increase lending to small businesses. At a minimum, Treasury and the regulators
                                            should have required TARP bank applicants to identify another source of capital
                                            to increase lending when the institutions sought to use all of the SBLF capital
                                            they received to repay TARP. If these TARP banks had been unable to demonstrate
                                            a credible source of capital to lend, regulators and Treasury may have identified
                                            some of the applicants as unsuited to exit TARP using SBLF funds. Had these
                                            banks remained in TARP, they would have been subject to TARP’s limitations on
                                            executive compensation, luxury expenditures, and cumulative dividends at a higher
                                            payment to taxpayers. Instead, SBLF served as a vehicle for a significant number of
                                            TARP banks to exit TARP using Government funds with more favorable terms than
                                            TARP with little resulting benefit for small businesses.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   39




SIGTARP Hotline
One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
Hotline and provide a simple, accessible way for the American public to report
concerns, allegations, information, and evidence of violations of criminal and
civil laws in connection with TARP. The SIGTARP Hotline has received and
analyzed more than 32,299 Hotline contacts. These contacts run the gamut
from expressions of concern over the economy to serious allegations of fraud
involving TARP, and a number of SIGTARP’s investigations were generated in
connection with Hotline tips. The SIGTARP Hotline can receive information
anonymously. SIGTARP honors all applicable whistleblower protections and will
provide confidentiality to the fullest extent possible. SIGTARP urges anyone aware
of fraud, waste, or abuse involving TARP programs or funds, whether it involves
the Federal Government, state and local entities, private firms, or individuals, to
contact its representatives at 877-SIG-2009 or www.sigtarp.gov.

Communications with Congress
One of the primary functions of SIGTARP is to ensure that members of Congress
remain adequately and promptly informed of developments in TARP initiatives and
of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector General
and her staff meet regularly with and brief members and Congressional staff.

•	 On February 26, 2013, the Special Inspector General, Christy Romero, testified
   on SIGTARP’s January 2013 audit entitled “Treasury Continues Approving
   Excessive Pay for Top Executives at Bailed-Out Companies” before the U.S.
   House Oversight and Government Reform Committee’s Subcommittee on
   Economic Growth, Job Creation, and Regulatory Affairs.
•	 On February 14, 2013, the Special Inspector General, Christy Romero,
   submitted written testimony on financial stability and Wall Street reform before
   the U.S. Senate Banking and Urban Affairs Committee.
•	 On January 29, 2013, SIGTARP’s Deputy Special Inspector General, Peggy
   Ellen, and Deputy Special Inspector General for Reporting, Mia Levine,
   presented briefings open to all Senate and House staff on SIGTARP’s January
   2013 Quarterly Report. Additionally, Bruce Gimbel, SIGTARP’s Acting Assistant
   Deputy Special Inspector General for Audit and Evaluation, presented briefings
   on SIGTARP’s January 2013 Audit entitled “Treasury Continues Approving
   Excessive Pay for Top Executives at Bailed-Out Companies.”

    Copies of written Congressional testimony are posted at www.sigtarp.gov/pages/
testimony.aspx.
40                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




 FIGURE 1.1
                                                          THE SIGTARP ORGANIZATION
 SIGTARP FY 2013 OPERATING                                SIGTARP leverages the resources of other agencies, and, where appropriate and
 PLAN                                                     cost-effective, obtains services through SIGTARP’s authority to contract.
 ($ MILLIONS, PERCENTAGE OF $43.4 MILLION)


                   Other Services
                                                          Staffing and Infrastructure
                         $2.4, 6%                         SIGTARP’s headquarters are in Washington, DC, with regional offices in New York
      Advisory Services
                                                          City, Los Angeles, San Francisco, and Atlanta. As of March 31, 2013, SIGTARP
                  $3.7                                    had 170 employees, plus two detailees from FHFA OIG and one from the FBI.
                            8%                            The SIGTARP organization chart as of April 24, 2013, can be found in Appendix
 Interagency                                              L, “Organizational Chart.” SIGTARP posts all of its reports, testimony, audits, and
 Agreements           19%                  Salaries       contracts on its website, www.sigtarp.gov.
        $8.3                        64%    and
                                                              From its inception through September 30, 2012, SIGTARP’s website has had
                                           $27.8          more than 61.1 million web “hits,” and there have been more than 5.4 million
             Travel                                       downloads of SIGTARP’s quarterly reports. The site was redesigned in May
          $1.2, 3%
                                                          2012. From May 10, 2012, through March 31, 2013, there have been 110,134
                                                          page views.ii From July 1, 2012, through March 31, 2013, there have been 6,797
                                                          downloads of SIGTARP’s quarterly reports.iii
 FIGURE 1.2

 SIGTARP FY 2014                                          Budget
 PROPOSED BUDGET                                          Figure 1.1 provides a detailed breakdown of SIGTARP’s fiscal year 2013 budget,
 ($ MILLIONS, PERCENTAGE OF $45.3 MILLION)
                                                          which reflects a total operating plan of $43.4 million. The Consolidated and
                   Other Services                         Further Continuing Appropriations Act, 2013 (P.L. 113-6) provides $41.7 million
                         $2.4, 5%                         in annual appropriations. The operating plan includes $41.7 million in annual
      Advisory Services                                   appropriations and portions of SIGTARP’s initial funding.
                  $3.0
                                                              Figure 1.2 provides a detailed breakdown of SIGTARP’s fiscal year 2014
                            7%                            budget, which reflects a total operating plan of $45.3 million. This would include
     Interagency
     Agreements                                           $34.9 million in requested annual appropriations and portions of SIGTARP’s initial
           $8.2       18%                  Salaries
                                     68%   and            funding.
                                           $30.6
             Travel
          $1.1, 2%




                                                          ii In October 2009, Treasury started to encounter challenges with its web analytics tracking system and as a result, migrated to a new
                                                           system in January 2010. SIGTARP has calculated the total number of website “hits” reported herein based on three sets of numbers:

                                                          • Numbers reported to SIGTARP as of September 30, 2009
                                                          • Archived numbers provided by Treasury for the period of October through December 2009
                                                          • Numbers generated from Treasury’s new system for the period of January 2010 through September 2012

                                                          Starting April 1, 2012, another tracking system has been introduced that tracks a different metric, “page views,” which are different
                                                          than “hits” from the previous system. Moving forward, page views will be the primary metric to gauge use of the website.

                                                          iii Measurement of quarterly report downloads from SIGTARP’s redesigned website did not begin until July 1, 2012.
SECT IO N 2   TARP OVERVIEW
42   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013           43




This section summarizes how the U.S. Department of the Treasury (“Treasury”) has
managed the Troubled Asset Relief Program (“TARP”). This section also reviews
TARP’s overall finances and provides updates on established TARP component
programs.




TARP FUNDS UPDATE
Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.1 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”2 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.3 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.4
     The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.5 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion.
     Treasury’s investment authority under TARP expired on October 3, 2010. This
means that Treasury could not make new obligations after that date. However,                Obligations: Definite commitments
dollars that have already been obligated to existing programs may still be expended.        that create a legal liability for the
As of October 3, 2010, Treasury had obligated $474.8 billion to 13 announced                Government to pay funds.
programs. Subsequent to the expiration of Treasury’s investment authority, Treasury
has deobligated funds, reducing obligations to $456.6 billion as of March 31,               Deobligations: An agency’s cancellation
2013.6 Of that amount, $419 billion had been spent.7 Taxpayers are owed $61.9               or downward adjustment of previously
billion as of March 31, 2013. According to Treasury, as of March 31, 2013, it               incurred obligations.
had realized or written off losses of $28 billion that taxpayers will never get back
(although taxpayers may profit on other TARP investments), leaving $33.9 billion
in TARP funds outstanding.8 These amounts do not include $7.3 billion in TARP
funds spent on housing support programs, which are designed as a Government
subsidy, with no repayments to taxpayers expected.9 In the quarter ended March
31, 2013, funds that were obligated but unspent remained available to be spent on
only TARP’s housing support programs. During the quarter, Treasury de-obligated
$7.1 billion of the funds previously allocated to housing, reducing obligations for
those programs from $45.6 billion to $38.5 billion.10 According to Treasury, in the
quarter ended March 31, 2013, $0.9 billion of TARP funds were spent on housing
programs, leaving $31.2 billion obligated and available to be spent.11
     Table 2.1 provides a breakdown of program obligations, changes in obligations,
expenditures, principal repaid, amounts still owed to taxpayers, and obligations
available to be spent as of March 31, 2013. Table 2.1 lists 10 TARP sub-programs,
instead of all 13, because it excludes the Capital Assistance Program (“CAP”),
44   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                              which was never funded, and summarizes three programs under “Automotive
                                                              Industry Support Programs.” Table 2.2 details write-offs and realized losses in
                                                              TARP as of March 31, 2013.
       TABLE 2.1
        OBLIGATIONS, EXPENDITURES, PRINCIPAL REPAID, AMOUNTS STILL OWED TO TAXPAYERS, AND OBLIGATIONS
        AVAILABLE TO BE SPENT ($ BILLIONS)
                                                    Obligation
                                                   After Dodd-                    Current                                                 Principal            Still Owed to                  Available
                                                         Frank                  Obligation              Expenditure                         Repaid               Taxpayers                 to Be Spent
        Program                                (As of 10/3/2010)          (As of 3/31/2013)          (As of 3/31/2013)           (As of 3/31/2013)          (As of 3/31/2013)     a
                                                                                                                                                                                        (As of 3/31/2013)

        Housing Support
                                                           $45.6                      $38.5c                        $7.3                         NA                         NA                      $31.2
        Programsb
        Capital Purchase
                                                           204.9                      204.9                       204.9                      195.4d                         9.6                         0.0
        Program
        Community
        Development Capital                                    0.6                        0.6                         0.2                       0.0*                        0.5                         0.0
        Initiativee
        Systemically Significant
                                                             69.8                       67.8f                       67.8                       54.4                       13.5                          0.0
        Failing Institutions
        Targeted Investment
                                                             40.0                       40.0                        40.0                       40.0                         0.0                         0.0
        Program
        Asset Guarantee
                                                               5.0                        5.0                         0.0                       0.0                         0.0                         0.0
        Program
        Term Asset-Backed
                                                               4.3                        0.1g                        0.1                       0.1                         0.0                         0.0
        Securities Loan Facility
        Public-Private
                                                             22.4                       19.6                        18.6                       18.0h                        0.7                         0.0i
        Investment Program
        Unlocking Credit for
                                                               0.4                        0.4                         0.4                       0.4                         0.0                         0.0
        Small Businesses
        Automotive Industry
                                                             81.8j                      79.7k                       79.7                       41.9                       37.7                          0.0
        Support Programs
        Total                                            $474.8                     $456.6                     $419.0l                    $349.8                        $61.9                       $31.2
        Notes: Numbers may not total due to rounding. NA=Not applicable.
        a
               Amount taxpayers still owed includes amounts disbursed and still outstanding, plus write-offs and realized losses totaling $28 billion. It does not include $7.3 billion in TARP dollars spent
               on housing programs. These programs are designed as Government subsidies, with no repayments to taxpayers expected.
        b
                  Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
        c
                On March 29, 2013, Treasury deobligated $7.1 billion of the $8.1 billion that was originally allocated to the FHA Short Refinance Program.
        d
                 Includes $363.3 million in non-cash conversions from CPP to CDCI, which is not included in the $349.8 billion TARP repayments because it is still owed to TARP from CDCI. Includes
                 $2.2 billion for CPP banks that exited TARP through SBLF.
        e
                CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no
                 additional CDCI cash was expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI
                 expenditures for previous CPP participants. Of the total obligation, only $106 million went to non-CPP institutions.
        f
            Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
        g
                  On June 28, 2012, Treasury deobligated $2.9 billion in TALF funding, reducing the total obligation to $1.4 billion. On January 23, 2013, Treasury deobligated $1.3 billion, reducing the
                  total obligation to $100 million.
        h
              On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity
              distributions. That $958 million is included in this repayment total.
        i
          PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and
            expenditure of $18.6 billion for PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were
            invested in its PPIF. Current obligation of $19.6 billion results because Oaktree, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and
            debt. The undrawn debt was deobligated, but the undrawn equity was not as of March 31, 2013, except for Invesco.
        j
           Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
        k
             Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
        l
            The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

        * Amount less than $50 million.

        Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Daily TARP Update, 4/1/2013; Treasury, response to SIGTARP data call, 4/4/2013.
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013                         45




TABLE 2.2
 TREASURY’S STATEMENT OF REALIZED LOSSES AND WRITE-OFFS IN TARP, AS OF 3/31/2013                                                                                    ($ MILLIONS)

 TARP                                                                   TARP          Realized Loss
 Program         Institution                                      Investment           or Write-Offe                       Date Description
 Realized Losses
                                                                                                                                     Sold 98,461 shares and equity stake in the UAW
 Autos           Chrysler                                               $1,888                  $1,328            4/30/2010
                                                                                                                                     Retiree trust for $560,000,000
                                                                                                  3,771         11/18/2010 Sold 358,546,795 common shares at a loss
                                                                                                     566        11/26/2010 Sold 53,782,019 common shares at a loss
 Autos           GMa                                                    49,500                    3,203         12/19/2012 Sold 200,000,000 common shares at a loss
                                                                                                                 1/1/2013 –
                                                                                                     697                    Sold common shares at a loss
                                                                                                                 3/31/2013
 CDCI            Premier Bancorp, Inc.b                                       6.8                     6.7         1/29/2013 Liquidation of failed bank
 CPP             136 CPP Banks                                            2,807                      792                             Sales, exchanges, and failed banks
                                                                                                  1,918           5/24/2011
                                                                                                  1,984           3/13/2012
                                                                                                  1,621           5/10/2012
 SSFI            AIGc                                                   67,835                                                       Sale of common stock at a loss
                                                                                                  1,621             8/8/2012
                                                                                                  4,636           9/14/2012
                                                                                                  1,705         12/14/2012
 Total Realized Losses                                                                        $23,849
 Write-Offs
                                                                                                                                     Accepted $1.9 billion as full repayment for the
 Autos           Chrysler                                               $3,500                  $1,600            7/23/2009
                                                                                                                                     debt of $3.5 billion
 CPP             CIT Group Inc.                                           2,330                   2,330         12/10/2009 Bankruptcy
 CPP             Pacific Coast National Bancorp                                 4                        4        2/11/2010 Bankruptcy
 CPP             South Financial Group, Inc.          d
                                                                             347                     217          9/30/2010 Sale of preferred stock at a loss
 CPP             TIB Financial Corpd                                          37                       25         9/30/2010 Sale of preferred stock at a loss
 Total Write-Offs                                                                               $4,176
 Total of Realized Losses and Write-offs                                                      $28,025
 Notes: Numbers may not total due to rounding.
 a
   Since the company remains in TARP, a final determination of realized loss incurred on Treasury’s investment cannot be calculated until the investments have been fully divested.
 b
   On January 29, 2013, Treasury received $79,900 representing the total amount of distribution paid to creditors as a result of the liquidation of Premier Bancorp, Inc.
 c
    Treasury has sold a total of 1.66 billion AIG common shares at a weighted average price of $31.18 per share, consisting of 1,092,169,866 TARP shares and 562,868,096 non-TARP shares
    based upon the Treasury’s pro-rata holding of those shares. The non-TARP shares are those received from the trust created by the Federal Reserve Bank of New York for the benefit of the
    Treasury. Receipts for non-TARP common stock totaled $17.55 billion and are not included in TARP collections. The realized loss reflects the price at which Treasury sold common shares in
    AIG and TARP’s cost basis of $43.53 per common share.
 d
      According to Treasury, in the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as realized
       losses.
 e
     Treasury changed its reporting methodology in calculating realized losses, effective June 30, 2012. Disposition expenses are no longer included in calculating realized losses.

 Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Section 105(a) Report, 4/10/2013; Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in Chrysler
 Group LLC,” 6/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx, accessed 4/2/2013; Treasury, response to SIGTARP data call, 4/4/2013.
46   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Cost Estimates
                                            Several Government agencies are responsible under EESA for generating cost
                                            estimates for TARP, including the Office of Management and Budget (“OMB”),
                                            the Congressional Budget Office (“CBO”), and Treasury, whose estimated costs
                                            are audited each year by the Government Accountability Office (“GAO”). Cost
                                            estimates have decreased from CBO’s March 2009 cost estimate of a $356 billion
                                            loss and OMB’s August 2009 cost estimate of a $341 billion loss.12
                                                 On April 10, 2013, OMB issued the Administration’s fiscal year 2014 budget,
                                            which included a TARP lifetime cost estimate of $47.5 billion, based largely on
                                            figures from December 31, 2012.13 This was a decrease from its estimate of $63.5
                                            billion based on May 31, 2012, data.14 According to OMB, this decrease “was due
                                            in large part [to] improved market conditions and significant progress winding
                                            down TARP investments over the past year, most notably the higher valuations of
                                            AIG common stock and realized sale proceeds, and higher valuation of GM com-
                                            mon stock.”15 Additionally, this estimate assumes $37.6 billion of funds obligated to
                                            housing support programs will be spent, versus earlier estimates that $45.6 billion
                                            would be spent. The estimate also assumes that PPIP will make a profit of $1.8
                                            billion and that CPP will make a profit of $7.7 billion, including principal repay-
                                            ments and revenue from dividends, warrants, interest, and fees.
                                                 On October 11, 2012, CBO issued a TARP cost estimate based on its evalua-
                                            tion of data as of September 17, 2012. CBO estimated the ultimate cost of TARP
                                            would be $24 billion, down $8 billion from its estimate of $32 billion in March
                                            2012.16 According to CBO, the decrease stems primarily from higher market prices
                                            for the Government’s AIG stock holdings and Treasury’s sale of part of its AIG
                                            investment at a price higher than the market price at the time of CBO’s previous
                                            report. Additionally, CBO’s estimate of the cost of TARP’s automotive programs
                                            went up $1 billion because of the market price of GM stock, and its estimates of
                                            the gains from both CPP and PPIP each increased $1 billion. CBO estimated that
                                            only $16 billion of obligated funds for housing will be spent.
                                                 On November 9, 2012, Treasury issued its September 30, 2012, fiscal year
                                            audited agency financial statements for TARP, which contained a cost estimate of
                                            $59.7 billion.17 This estimate is a decrease from Treasury’s estimate of a $70.2 bil-
                                            lion loss as of September 30, 2011. According to Treasury, “These costs fluctuate
                                            in large part due to changes in the market prices of common stock for AIG and
                                            General Motors and the estimated value of the Ally Financial stock.”18 According
                                            to Treasury, the largest losses from TARP are expected to come from housing pro-
                                            grams and from assistance to AIG and the automotive industry.19
                                                 The most recent TARP program cost estimates from each agency are listed in
                                            Table 2.3.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013             47




TABLE 2.3
 COST (GAIN) OF TARP PROGRAMS                               ($ BILLIONS)

                                                                                                            Treasury Estimate,
                                                                                                                 TARP Audited
                                                                                                              Agency Financial
 Program Name                                     OMB Estimate                     CBO Estimate                     Statement
     Report issued:                                  4/10/2013                      10/10/2012                      11/10/2012
     Data as of:                                    12/31/2012                       9/17/2012                       9/30/2012
 Housing Support Programs                                      $37.6                              $16                          $45.6
 CPP                                                             (7.7)                            (18)                         (14.9)
 SSFI                                                            18.1                               14                           15.3
 TIP and AGP                                                     (7.4)                              (8)                          (7.9)
 TALF                                                            (0.5)                                0                          (0.5)
 PPIP                                                            (1.8)                              (1)                          (2.4)
 Automotive Industry Support
                                                                   23                               20                           24.3
 Programsa
 Otherb                                                              *                                *                               *
 Total                                                        $61.5                             $24   c
                                                                                                                              $59.7d
 Interest on Reestimatese                                      (13.9)
 Adjusted Total                                              $47.5d
 Notes: Numbers may not total due to rounding.
 a
   Includes AIFP, ASSP, and AWCP.
 b
    Consists of CDCI and UCSB, both of which are estimated between a cost of $500 million and a gain of $500 million.
 c
   The estimate is before administrative costs and interest effects.
 d
    The estimate includes interest on reestimates but excludes administrative costs.
 e
   Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
   estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.

 Sources: OMB Estimate — OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013,
 www.whitehouse.gov/sites/default/files/omb/budget/fy2014/assets/econ_analyses.pdf, accessed 4/10/2013; CBO Estimate
 — CBO, “Report on the Troubled Asset Relief Program — March 2012,” 3/28/2012, www.cbo.gov/sites/default/files/cbofiles/
                                                                                                                                              Common Stock: Equity ownership
 attachments/03-28-2012TARP.pdf, accessed 4/1/2013; Treasury Estimate — Treasury, “Office of Financial Stability–Troubled Asset               entitling an individual to share in
 Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-
 room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 4/1/2013.                                                          corporate earnings and voting rights.

                                                                                                                                              Preferred Stock: Equity ownership that
                                                                                                                                              usually pays a fixed dividend before
FINANCIAL OVERVIEW OF TARP                                                                                                                    distributions for common stock owners
                                                                                                                                              but only after payments due to debt
As of March 31, 2013, 314 institutions remain in TARP: 173 banks in CPP; 64
                                                                                                                                              holders. It typically confers no voting
former CPP banks for which Treasury now holds only warrants to purchase stock;
                                                                                                                                              rights. Preferred stock also has priority
75 banks and credit unions in CDCI; and GM and Ally Financial. Treasury does
                                                                                                                                              over common stock in the distribution
not consider the 64 former CPP institutions in which it holds only warrants to be
                                                                                                                                              of assets when a bankrupt company is
in TARP. Treasury (and therefore the taxpayer) remains a shareholder in companies
                                                                                                                                              liquidated.
that have not repaid the Government. Treasury’s equity ownership is largely in two
forms — common and preferred stock — although it also has received debt in the
                                                                                                                                              Senior Subordinated Debentures:
form of senior subordinated debentures.
                                                                                                                                              Debt instrument ranking below senior
    According to Treasury, as of March 31, 2013, 359 TARP recipients (including
                                                                                                                                              debt but above equity with regard to
348 banks and credit unions, two auto companies, eight former PPIP manag-
                                                                                                                                              investors’ claims on company assets
ers, and AIG) had paid back all of their principal or repurchased shares, although
                                                                                                                                              or earnings.
Chrysler and AIG did so at a loss to Treasury. Some of these institutions repaid
48                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 2.1                                                      TARP by refinancing into other Government programs such as the Small Business
     CURRENT TARP EXPENDITURES,                                      Lending Fund (“SBLF”). In addition, 20 TARP recipients (including 17 banks and
     REPAYMENTS, AND AMOUNT                                          credit unions, one PPIP manager, GM, and Ally Financial) had partially repaid
     OWED ($ BILLIONS)                                               their principal or repurchased their shares but remained in TARP.20 According to
     $500                                                            Treasury, as of March 31, 2013, 164 banks and credit unions have exited CPP or
                                                                     CDCI with less than a full repayment, including institutions whose shares have
      400
               $419.0                                                been sold for less than par value, institutions whose shares have been sold at auc-
      300                        $349.8                              tion, and institutions that are in various stages of bankruptcy or receivership.21
                                                                     According to Treasury, repayments have totaled $349.8 billion.22 Taxpayers are still
      200                                                            owed $61.9 billion as of March 31, 2013. According to Treasury, it has incurred
      100
                                                                     write-offs of $4.2 billion and realized losses of $23.8 billion as of March 31, 2013,
                                                                     which taxpayers will never get back, leaving $33.9 billion in TARP funds outstand-
                                                    $61.9
         0                                                           ing (not including $7.3 billion in TARP funds spent as a subsidy for TARP hous-
             TARP              TARP              Amount
             Expenditures      Repayments a      Owed b              ing programs).23 Figure 2.1 provides a snapshot of the cumulative expenditures,
                                                                     repayments, and amount owed as of March 31, 2013. Taxpayers also are entitled to
                                                                     dividend payments, interest, and warrants for taking on the risk of TARP invest-
      Notes: As of 3/31/2013. Numbers may not total due
      to rounding.                                                   ments. According to Treasury, as of March 31, 2013, Treasury had collected $45.6
      a
        Repayments include $195.4 billion for CPP, $40 billion
        for TIP, $41.9 billion for Auto Programs, $18 billion for    billion in interest, dividends, and other income, including $9.3 billion in proceeds
        PPIP, $54.4 billion for SSFI, and $.4 billion for UCSB.
        The $195.4 billion for CPP repayments includes $2.2
                                                                     from the sale of warrants and stock received as a result of exercised warrants.24
        billion for banks that refinanced from TARP into SBLF             As of March 31, 2013, obligated funds totaling $31.2 billion were still available
        as well as $363.3 million in non-cash conversion from
        CPP to CDCI, which is not included in the $349.8 billion     to be drawn down under TARP’s housing support programs.25
        TARP repayments because it is still owed to TARP from
        CDCI.                                                             Some TARP programs are scheduled to last as late as 2020. Table 2.4 provides
      b
        Amount includes $28 billion that Treasury has written
        off or realized losses, but does not includes $7.3 billion   details of those exit dates.
        spent for housing programs, which were designed as a
        Government subsidy, with no repayment to taxpayers
        expected.
                                                                     TABLE 2.4

      Sources: Treasury, Transactions Report, 3/28/2013;              TARP PROGRAM SCHEDULE
      Treasury, Daily TARP Update, 4/1/2013.
                                                                      TARP Program                                 Scheduled Program Dates
                                                                      Term Asset-Backed Securities Loan Facility   2015 maturity of last loan
                                                                                                                   2017 for fund manager to sell securities (with
                                                                      Public-Private Investment Program
                                                                                                                   possibility to extend to 2019)
                                                                      Home Affordable Modification Program         2019 to pay incentives on modifications
                                                                      Hardest Hit Fund                             2017 for states to draw on TARP funds
                                                                      FHA Short Refinance Program                  2020 for TARP-funded letter of credit

                                                                          Other TARP programs have no scheduled ending date; TARP money will
                                                                     remain invested until recipients pay Treasury back or until Treasury is able to sell
                                                                     its investments in the companies. Table 2.5 provides details on the status of the
                                                                     remaining Treasury investments under those programs.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   49




TABLE 2.5
 TARP INVESTMENTS IN FINANCIAL INSTITUTIONS
 TARP Program                                                    Remaining Treasury Investment
 Capital Purchase Program                                        Preferred stock in 173 banks; warrants for stock
                                                                 in an additional 64 former CPP banks
 Community Development Capital Initiative                        Preferred stock in 75 banks/credit unions
 Automotive Industry Financing Program                           18% stake in GM
                                                                 74% stake in Ally
 Notes: Treasury held an 18% stake in GM as of April 11, 2013.

 Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Transactions Report, 4/12/2013; Treasury, response to SIGTARP
 data call, 4/19/2013.



Housing Support Programs
The stated purpose of TARP’s housing support programs is to help homeowners
and financial institutions that hold troubled housing-related assets. Although
Treasury originally committed to use $50 billion in TARP funds for these programs,
it subsequently obligated only $45.6 billion, and as of March 31, 2013, had
reduced its obligation to $38.5 billion.26 As of March 31, 2013, $7.3 billion (19%
of obligated funds) has been expended.27 However, some of these expended funds
remain as cash on hand or for administrative expenses with the state Housing
Finance Agencies participating in the Hardest Hit Fund program.

•	 Making Home Affordable (“MHA”) Program — According to Treasury, this
   umbrella program for Treasury’s foreclosure mitigation efforts is intended to
   “help bring relief to responsible homeowners struggling to make their mortgage
   payments, while preventing neighborhoods and communities from suffering
   the negative spillover effects of foreclosure, such as lower housing prices,
   increased crime, and higher taxes.”28 MHA, for which Treasury has obligated
   $29.9 billion of TARP funds, consists of the Home Affordable Modification
   Program (“HAMP”), which includes HAMP Tier 1 and HAMP Tier 2, which
   both modify first-lien mortgages to reduce payments; the Federal Housing
   Administration (“FHA”) HAMP loan modification option for FHA-insured
   mortgages (“Treasury/FHA-HAMP”); the U.S. Department of Agriculture Office
   of Rural Development (“RD”) HAMP (“RD-HAMP”); the Home Affordable
   Foreclosure Alternatives (“HAFA”) program; and the Second Lien Modification
   Program (“2MP”).29 HAMP in turn encompasses various initiatives in addition
   to the modification of first-lien mortgages, including Home Price Decline
   Protection (“HPDP”), the Principal Reduction Alternative (“PRA”), and the
   Home Affordable Unemployment Program (“UP”).30 Additionally, the overall
   MHA obligation of $29.9 billion includes $2.7 billion to support the Treasury/
   FHA Second-Lien Program (“FHA2LP”), which complements the FHA
   Short Refinance program (discussed later) and is intended to support the
   extinguishment of second-lien loans.31
       As of March 31, 2013, MHA had expended $5.2 billion of TARP money
    (17% of $29.9 billion).32 Of that amount, $4.3 billion was expended on HAMP,
50             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         $498.3 million on HAFA, and $372 million on 2MP.33 As of March 31, 2013,
                                                         there were 432,234 active permanent first-lien modifications under the TARP-
                                                         funded portion of HAMP (Tier 1 and Tier 2), an increase of 13,687 active per-
                                                         manent modifications over the past quarter.34 As March 31, 2013, there were
                                                         428,435 Tier 1 active permanent modifications, an increase of 11,016 over the
                                                         previous quarter.35 There were 3,799 Tier 2 active permanent modifications, an
                                                         increase of 2,671 over the previous quarter.36 For more detailed information,
                                                         including participation numbers for each of the MHA programs and subpro-
                                                         grams, see the “Housing Support Programs” discussion in this section.
                                                      •	 Housing Finance Agency (“HFA”) Hardest Hit Fund (“HHF”) — The stated
                                                         purpose of this program is to provide TARP funding for “innovative measures
                                                         to help families in the states that have been hit the hardest by the aftermath of
                                                         the housing bubble.”37 Treasury obligated $7.6 billion for this program.38 As of
                                                         March 31, 2013, $2.1 billion had been drawn down by the states from HHF.39
                                                         However, as of December 31, 2012, the latest data available, only $1.02 billion
                                                         had been spent assisting 94,056 homeowners, with the remaining funds used
                                                         for administrative expenses and cash-on-hand.40 For more detailed information,
                                                         see the “Housing Support Programs” discussion in this section.
                                                      •	 FHA Short Refinance Program — Treasury had allocated $8.1 billion of
                                                         TARP funding to this program to purchase a letter of credit to provide loss
                                                         protection on refinanced first liens. However, in the quarter ended March 31,
                                                         2013, Treasury reduced that amount by $7.1 billion, leaving $1 billion in TARP
                                                         funds allocated to this program. As of March 31, 2013, there have been 2,690
                                                         refinancings under the FHA Short Refinance program, an increase of 537
                                                         refinancings during the past quarter.41 For more detailed information, see the
                                                         “Housing Support Programs” discussion in this section.

                                                      Financial Institution Support Programs
                                                      Treasury primarily invested capital directly into financial institutions including
                                                      banks, bank holding companies, and, if deemed by Treasury critical to the financial
     Systemically Significant Institutions:           system, some systemically significant institutions.42
     Term referring to any financial
     institution whose failure would impose           •	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly
     significant losses on creditors and                 purchased preferred stock or subordinated debentures in qualifying financial
     counterparties, call into question the              institutions.43 CPP was intended to provide funds to “stabilize and strengthen
     financial strength of similar institutions,         the U.S. financial system by increasing the capital base of an array of healthy,
     disrupt financial markets, raise                    viable institutions, enabling them [to] lend to consumers and business[es].”44
     borrowing costs for households and                  Treasury invested $204.9 billion in 707 institutions through CPP, which closed
     businesses, and reduce household                    to new funding on December 29, 2009.45 As of March 31, 2013, 237 of those
     wealth.                                             institutions remained in TARP; in 64 of them, Treasury holds only warrants
                                                         to purchase stock. Treasury does not consider these 64 institutions to be in
                                                         TARP. As of March 31, 2013, 173 of the 237 institutions remained in the CPP
                                                         program.46 Of the 707 banks that received CPP investments, 534 banks have
                                                         exited CPP. Nearly a quarter of the 707 banks, or 165, did so through and into
                                                         other Government programs — 28 of them into TARP’s CDCI and 137 into
                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013              51




   SBLF, a non-TARP program.47 Only 203 of the banks that exited, or 29% of
   the original 707, fully repaid CPP otherwise.48 Of the other banks that have
   exited CPP, three CPP banks merged with other CPP banks, Treasury sold its
   investments in 140 institutions at a loss, and 23 institutions or their subsidiary
   banks failed, meaning Treasury lost its entire investment in those banks.49
   As of March 31, 2013, taxpayers were still owed $9.6 billion related to CPP.
   According to Treasury, it had write-offs and realized losses of $3.4 billion in
   the program, leaving $6.2 billion in TARP funds outstanding.50 According to
   Treasury, $195.4 billion of the CPP principal (or 95.3%) had been repaid as of
   March 31, 2013. The repayment amount includes $363.3 million in preferred
   stock that was converted from CPP investments into CDCI and therefore still
   represents outstanding obligations to TARP, and $2.2 billion that was refinanced
   in 2011 into SBLF, a non-TARP Government program.51 Additionally, 21 CPP
   banks, or their subsidiary banks, with total CPP investments of $747.4 million,
   are currently in the process of bankruptcy, and while Treasury has not yet
   realized the loss, it expects that all of its investments in the banks will be lost.52
   Treasury continues to manage its portfolio of CPP investments, including, for
   certain struggling institutions, converting its preferred equity ownership into a
   more junior form of equity ownership, often at a discount to par value (which
   may result in a loss) in an attempt to preserve some value that might be lost if
   these institutions were to fail. As of March 31, 2013, Treasury has held 15 sets
   of auctions to sell its preferred stock investments in 120 banks, as well as some
   of its preferred stock in an additional bank, selling all but two investments at a
   discounted price resulting in a loss to Treasury.53 For more detailed information,
   see the “Capital Purchase Program” discussion in this section.
•	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
   Treasury used TARP money to buy preferred stock in or subordinated debt from
   Community Development Financial Institutions (“CDFIs”). Treasury intended                     Community Development Financial
   for CDCI to “improve access to credit for small businesses in the country’s                   Institutions (“CDFIs”): Financial
   hardest-hit communities.”54 Under CDCI, TARP made capital investments                         institutions eligible for Treasury funding
   in the preferred stock or subordinated debt of eligible banks, bank holding                   to serve urban and rural low-income
   companies, thrifts, and credit unions.55 Eighty-four institutions received $570.1             communities through the CDFI Fund.
   million in funding under CDCI.56 However, 28 of these institutions converted                  CDFIs were created in 1994 by the
   their existing CPP investment into CDCI ($363.3 million of the $570.1 million)                Riegle Community Development and
   and 10 of those that converted received combined additional funding of $100.7                 Regulatory Improvement Act. These
   million under CDCI.57 Only $106 million of CDCI money went to institutions                    entities must be certified by Treasury;
   that were not already TARP recipients. As of March 31, 2013, 75 institutions                  certification confirms that they target
   remain in CDCI.                                                                               at least 60% of their lending and other
•	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI                         economic development activities
   enabled Treasury to invest in systemically significant institutions to prevent                to areas underserved by traditional
   them from failing.58 Only one firm received SSFI assistance: American                         financial institutions.
   International Group, Inc. (“AIG”). The Government’s rescue of AIG involved
   several different funding facilities provided by the Federal Reserve Bank of New
   York (“FRBNY”) and Treasury, with various changes to the transactions over
52            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        time. Combined, Treasury and FRBNY committed $182 billion to bail out AIG,
                                                        of which $161 billion was disbursed.59
                                                              There were two TARP investments in AIG. On November 25, 2008,
                                                         Treasury bought $40 billion of AIG’s preferred stock, the proceeds of which
                                                         were used to repay a portion of AIG’s debt to FRBNY. Then, on April 17, 2009,
                                                         Treasury obligated approximately $29.8 billion to an equity capital facility that
                                                         AIG was allowed to draw on as needed.60
                                                              On January 14, 2011, AIG executed a Recapitalization Plan under which
                                                         AIG fully repaid FRBNY’s revolving credit facility, AIG purchased the remainder
                                                         of FRBNY’s preferred equity interests in two AIG subsidiaries (which it then
                                                         transferred to Treasury), AIG drew down $20.3 billion in TARP funds, and
                                                         Treasury converted its preferred stock holdings (along with the preferred stock
                                                         holdings held by the AIG Trust) into an approximately 92.1% common equity
                                                         ownership stake in AIG.61
                                                              Through two payments in February 2011 and March 2011, AIG fully repaid
     Special Purpose Vehicle (“SPV”):                    the Government’s preferred interests in the American Life Insurance Company
     A legal entity, often off-balance-                  (“ALICO”) special purpose vehicle (“SPV”). Through a series of repayments
     sheet, that holds transferred assets                between February 2011 and March 2012, AIG fully repaid the Government’s
     presumptively beyond the reach of the               preferred interests in the American International Assurance Co., Ltd. (“AIA”)
     entities providing the assets, and that             SPV. From May 2011 through December 2012, Treasury sold all 1.66 bil-
     is legally isolated from its sponsor or             lion shares of AIG’s common stock that it controlled, which at one point was
     parent company.                                     92% of AIG’s common stock. Treasury’s investment in AIG ended on March 1,
                                                         2013, when Treasury sold its remaining investment, 2.7 million warrants for
                                                         the right to purchase AIG common shares.62 AIG bought the warrants from the
                                                         Government for $25.2 million, or about $9.35 per share.63
                                                              As of March 31, 2013, as reflected on Treasury’s books and records, taxpay-
                                                         ers have recouped $54.4 billion of the $67.8 billion in TARP funds and have
                                                         realized losses from an accounting standpoint of $13.5 billion on Treasury’s
                                                         sale of AIG stock.64 Due to the January 2011 restructuring of the FRBNY and
                                                         Treasury investments, Treasury held common stock from the TARP and FRBNY
                                                         assistance, and, according to Treasury, the Government overall has made a $4.1
                                                         billion gain on the stock sales, and $956 million has been paid in dividends and
                                                         other income.65 These amounts do not include any payments made to FRBNY
                                                         prior to the restructuring measures completed in January 2011.
                                                              For more detailed information on the Recapitalization Plan, the sale of AIG
                                                         common stock, and other AIG transactions, see the “Systemically Significant
                                                         Failing Institutions Program” discussion in this section.
                                                     •	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
                                                        financial institutions it deemed critical to the financial system.66 There were two
     Senior Preferred Stock: Shares that                expenditures under this program, totaling $40 billion — the purchases of $20
     give the stockholder priority dividend             billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and Bank
     and liquidation claims over junior                 of America Corp. (“Bank of America”).67 Treasury also accepted common stock
     preferred and common stockholders.                 warrants from each, as required by EESA. Both banks fully repaid Treasury
                                                        for its TIP investments.68 Treasury auctioned its Bank of America warrants on
                                                        March 3, 2010, and auctioned its Citigroup warrants on January 25, 2011.69
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013               53




   For more information on these two transactions, see the “Targeted Investment
   Program and Asset Guarantee Program” discussion in this section.
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide
   insurance-like protection for a select pool of mortgage-related or similar assets
   held by participants whose portfolios of distressed or illiquid assets threatened        Illiquid Assets: Assets that cannot be
   market confidence.70 Treasury, the Federal Deposit Insurance Corporation                 quickly converted to cash.
   (“FDIC”), and the Federal Reserve offered certain loss protections in connection
   with $301 billion in troubled Citigroup assets.71 In exchange for providing              Trust Preferred Securities (“TRUPS”):
   the loss protection, Treasury received $4 billion of preferred stock that was            Securities that have both equity and
   later converted to trust preferred securities (“TRUPS”), and FDIC received               debt characteristics, created by
   $3 billion.72 On December 23, 2009, in connection with Citigroup’s TIP                   establishing a trust and issuing debt
   repayment, Citigroup and the Government terminated the AGP agreement and                 to it.
   the Government suffered no loss. On December 28, 2012, FDIC transferred
   $800 million of Citigroup TRUPS to Treasury, as a result of Citigroup’s
   participation in FDIC’s Temporary Liquidity Guarantee Program having closed
   without a loss.73 Treasury converted the TRUPS it received from FDIC into
   Citigroup subordinated notes and subsequently sold them for $894 million.74
   For more information on this program, including more detailed information
   on the agreements between Treasury, Citigroup, and FDIC regarding these
   TRUPS, see the “Targeted Investment Program and Asset Guarantee Program”
   discussion in this section.

Asset Support Programs
The stated purpose of these programs was to support the liquidity and market value
of assets owned by financial institutions. These assets included various classes of
asset-backed securities (“ABS”) and several types of loans. Treasury’s asset support        Asset-Backed Securities (“ABS”): Bonds
programs sought to bolster the balance sheets of financial firms and help free              backed by a portfolio of consumer
capital so that these firms could extend more credit to support the economy.                or corporate loans (e.g., credit card,
                                                                                            auto, or small-business loans). Financial
•	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was                           companies typically issue ABS backed
   originally designed to increase credit availability for consumers and small              by existing loans in order to fund new
   businesses through a $200 billion Federal Reserve loan program. TALF provided            loans for their customers.
   investors with non-recourse loans secured by certain types of ABS, including
   credit card receivables, auto loans, equipment loans, student loans, floor               Commercial Mortgage-Backed
   plan loans, insurance-premium finance loans, loans guaranteed by the Small               Securities (“CMBS”): Bonds backed by
   Business Administration (“SBA”), residential mortgage servicing advances, and            one or more mortgages on commercial
   commercial mortgage-backed securities (“CMBS”).75 TALF closed to new loans               real estate (e.g., office buildings, rental
   in June 2010.76 TALF ultimately provided $71.1 billion in Federal Reserve                apartments, hotels).
   financing. Of that amount, $381.9 million remained outstanding as of March
   31, 2013.77 FRBNY made 13 rounds of TALF loans with non-mortgage-related
   ABS as collateral, totaling approximately $59 billion, with $256.8 million of
   TALF borrowings outstanding as of March 31, 2013.78 FRBNY also made 13
   rounds of TALF loans with CMBS as collateral, totaling $12.1 billion, with
   $125 million in loans outstanding as of March 31, 2013.79 Treasury originally
   obligated $20 billion of TARP funds to support this program by providing
54             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         loss protection to the loans extended by FRBNY in the event that a borrower
                                                         surrendered the ABS collateral and walked away from the loan.80 On January
                                                         15, 2013, Treasury announced that the TARP-funded credit protection was no
                                                         longer needed because the TALF program had collected fees totaling more than
                                                         the amount of loans still outstanding.81 As of March 31, 2013, there had been
                                                         no surrender of collateral.82 For more information on these activities, see the
                                                         “TALF” discussion in this section.
                                                      •	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
                                                         credit markets by using a combination of private equity, matching Government
     Legacy Securities: Real estate-related              equity, and Government debt to purchase legacy securities, i.e., CMBS and
     securities originally issued before                 non-agency residential mortgage-backed securities (“non-agency RMBS”).83
     2009 that remained on the balance                   Under the program, nine Public-Private Investment Funds (“PPIFs”) managed
     sheets of financial institutions because            by private asset managers invested in non-agency RMBS and CMBS. Treasury
     of pricing difficulties that resulted from          originally obligated $22.4 billion in TARP funds to the program. As of March
     market disruption.                                  31, 2013, Treasury has obligated $19.6 billion in TARP funds to the program.
                                                         All PPIF investment periods ended in late 2012 and as of March 31, 2013, only
     Non-Agency Residential Mortgage-                    three funds continued to hold legacy securities to manage.84 As of March 31,
     Backed Securities (“non-agency                      2013, the PPIFs had drawn down $18.6 billion in debt and equity financing
     RMBS”): Financial instrument backed                 from Treasury funding out of the total obligation, and had repaid $18 billion.85
     by a group of residential real estate               The remaining fund managers have five years from the end of the investment
     mortgages (i.e., home mortgages for                 period to manage and sell their investments and return proceeds to private
     residences with up to four dwelling                 investors and taxpayers. This period may be extended up to a maximum of two
     units) not guaranteed or owned by                   years. For details about the program structure and fund-manager terms, see the
     a Government-sponsored enterprise                   “Public-Private Investment Program” discussion in this section.
     (“GSE”) or a Government agency.                  •	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
                                                         Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury
                                                         officials announced that Treasury would buy up to $15 billion in securities
                                                         backed by SBA loans under UCSB.86 Treasury obligated a total of $400 million
                                                         for UCSB and made purchases of $368.1 million in 31 securities under the
                                                         program. Treasury sold the last of its UCSB securities on January 24, 2012,
                                                         ending the program with a net investment gain of about $9 million.87 For more
                                                         information on the program, see the discussion of “Unlocking Credit for Small
                                                         Businesses/Small Business Administration Loan Support” in this section.

                                                      Automotive Industry Financing Program (“AIFP”)
                                                      TARP’s automotive industry support through AIFP aimed to “prevent a significant
                                                      disruption of the American automotive industry, which would pose a systemic
                                                      risk to financial market stability and have a negative effect on the economy of the
                                                      United States.”88 As of March 31, 2013, General Motors Company (“GM”) and Ally
                                                      Financial Inc. (“Ally Financial”), formerly GMAC Inc., remain in TARP. Taxpayers
                                                      are still owed $37.7 billion. This includes about $20.2 billion for the TARP
                                                      investment in GM and $14.6 billion for the TARP investment in Ally Financial, for
                                                      which Treasury holds common stock in GM and common stock and mandatorily
                                                      convertible preferred shares (“MCP”) in Ally Financial. This amount also includes
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   55




a $2.9 billion loss taxpayers suffered on the principal TARP investment in Chrysler.
Chrysler Financial fully repaid its TARP investment.89
     Through AIFP, Treasury made emergency loans to Chrysler Holding LLC
(“Chrysler”), Chrysler Financial Services Americas LLC (“Chrysler Financial”),
and GM. Additionally, Treasury bought senior preferred stock from Ally Financial
and assisted Chrysler and GM during their bankruptcy restructurings. As of March
31, 2013, $79.7 billion had been disbursed through AIFP and its subprograms,
and Treasury had received $41.9 billion in principal repayments, preferred stock
redemption proceeds, and stock sale proceeds. As of March 31, 2013, Treasury
had received approximately $29.9 billion related to its GM investment, $2.5 billion
related to its Ally Financial/GMAC investment, $8 billion related to its Chrysler
investment, and $1.5 billion related to its Chrysler Financial investment.90 As of
March 31, 2013, Treasury had also received approximately $5.2 billion in dividends
and interest under AIFP and its two subprograms, ASSP and AWCP.91
     In return for a total of $49.5 billion in loans to GM, Treasury received $6.7
billion in debt in GM (which was subsequently repaid), in addition to $2.1 billion
in preferred stock and a 60.8% common equity stake.92 On December 2, 2010,
GM closed an initial public offering (“IPO”) in which Treasury sold a portion of
its ownership stake for $18.1 billion in gross proceeds, reducing its ownership
percentage to 33.3%.93 On December 15, 2010, GM repurchased the $2.1 billion
in preferred stock from Treasury. On January 31, 2011, Treasury’s ownership in
GM was diluted from 33.3% to 32% as a result of GM contributing 61 million of
its common shares to fund GM’s hourly and salaried pension plans.94 Treasury sold
200 million shares of GM common stock to GM in December 2012.95 In a series
of smaller sales from January 18, 2013, through April 11, 2013, Treasury sold 58.4
million shares, bringing its holding to 18% of common stock outstanding in GM.96
     Treasury invested a total of $17.2 billion in Ally Financial, and $14.6 billion
of that is still outstanding. On December 30, 2010, Treasury’s investment was
restructured to provide for a 73.8% common equity stake, $2.7 billion in TRUPS
(including amounts received in warrants that were immediately converted into
additional securities), and $5.9 billion in mandatorily convertible preferred
shares.97 Treasury sold the $2.7 billion in TRUPS on March 2, 2011.98 On March
31, 2011, Ally Financial announced that it had filed a registration statement with
the Securities and Exchange Commission (“SEC”) for a proposed IPO of common
stock owned by Treasury, but that offering has been sidelined. On May 14, 2012,
Ally Financial announced that its mortgage subsidiary, Residential Capital, LLC,
and certain of its subsidiary, filed for bankruptcy court relief under Chapter 11 of
the U.S. Bankruptcy Code.99
     Treasury provided approximately $12.5 billion in loan commitments to Chrysler,
of which $2.1 billion was never drawn down.100 On July 21, 2011, Treasury sold to
Fiat for $500 million Treasury’s remaining equity ownership interest in Chrysler.101
Treasury also sold to Fiat for $60 million Treasury’s rights to receive proceeds under
an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the
trust’s shares in Chrysler on a fully diluted basis.102 Treasury’s books reflect a $2.9
billion loss to taxpayers on their principal investment in Chrysler.103
56   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               Treasury provided a $1.5 billion loan to Chrysler Financial, which was fully
                                            repaid with interest in July 2009.104
                                               For details on assistance to these companies, see the “Automotive Industry
                                            Support Programs” discussion in this section.
                                               AIFP also included two subprograms:

                                            •	 Auto Supplier Support Program (“ASSP”) — According to Treasury, this
                                               program was intended to provide auto suppliers “with the confidence they need
                                               to continue shipping their parts and the support they need to help access loans
                                               to pay their employees and continue their operations.”105 Under the program,
                                               which ended in April 2010, Treasury made loans for GM ($290 million) and
                                               Chrysler ($123.1 million) that were fully repaid with $115.9 million in interest,
                                               fees and other income.106 For more information, see the “Auto Supplier Support
                                               Program” discussion in this section.
                                            •	 Auto Warranty Commitment Program (“AWCP”) — This program was
                                               designed to bolster consumer confidence by guaranteeing Chrysler and GM
                                               vehicle warranties during the companies’ restructuring through bankruptcy. It
                                               ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 million
                                               with interest and GM repaid just the principal — $360.6 million — of its
                                               loan.107 For more information, see the “Auto Warranty Commitment Program”
                                               discussion in this section.
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013             57




HOUSING SUPPORT PROGRAMS
On February 18, 2009, the Administration announced a foreclosure prevention
plan that became the Making Home Affordable (“MHA”) program, an umbrella                    Government-Sponsored Enterprises
program for the Administration’s homeowner assistance and foreclosure prevention            (“GSEs”): Private corporations created
efforts.108 MHA initially consisted of the Home Affordable Modification Program             and chartered by the Government to
(“HAMP”), a Treasury program that uses TARP funds to provide incentives for                 reduce borrowing costs and provide
mortgage servicers to modify eligible first-lien mortgages, and two initiatives at          liquidity in the market, the liabilities
the Government-sponsored enterprises (“GSEs”) that use non-TARP funds.109                   of which are not officially considered
HAMP was originally intended “to help as many as three to four million financially          direct taxpayer obligations. On
struggling homeowners avoid foreclosure by modifying loans to a level that is               September 7, 2008, the two largest
affordable for borrowers now and sustainable over the long term.”110 On June 1,             GSEs, the Federal National Mortgage
2012, HAMP expanded the pool of homeowners potentially eligible to be assisted              Association (“Fannie Mae”) and
through the launch of HAMP Tier 2; however, Treasury has not estimated the                  the Federal Home Loan Mortgage
number of homeowners that HAMP Tier 2 is intended to assist.111                             Corporation (“Freddie Mac”), were
    Treasury over time expanded MHA to include sub-programs. Treasury also allo-            placed into Federal conservatorship.
cated TARP funds to support two additional housing support efforts: TARP funding            They are currently being financially
for 19 state housing finance agencies, called the Housing Finance Agency Hardest            supported by the Government.
Hit Fund (“Hardest Hit Fund” or “HHF”) and a Federal Housing Administration
(“FHA”) refinancing program.                                                                Loan Servicers: Companies that
    Not all housing support programs are funded, or completely funded, by TARP.             perform administrative tasks on
Of the originally anticipated $75 billion cost for MHA, $50 billion was to be               monthly mortgage payments until the
funded by TARP, with the remainder funded by the GSEs.112 Although Treasury                 loan is repaid. These tasks include
originally committed to use $50 billion in TARP funds for these programs, it sub-           billing, tracking, and collecting monthly
sequently obligated only $45.6 billion, and in the quarter ended March 31, 2013,            payments; maintaining records of
reduced its obligation to $38.5 billion, which includes $29.9 billion for MHA               payments and balances; allocating
incentive payments, $7.6 billion for the Hardest Hit Fund, and $1 billion for FHA           and distributing payment collections
Short Refinance.113                                                                         to investors in accordance with
    Under EESA and the SIGTARP Act, SIGTARP is required to report quarterly to              each mortgage loan’s governing
Congress to provide certain information about TARP over that preceding quarter.             documentation; following up
This quarter, for the third quarter in a row, Treasury failed to provide certain            on delinquencies; and initiating
end-of-quarter data on two MHA programs, Principal Reduction Alternative and                foreclosures.
Home Affordable Foreclosure Alternatives. This quarter, Treasury also failed to
provide certain end-of-quarter data on three other MHA programs, the Second-                Investors: Owners of mortgage loans
Lien Modification Program, FHA-HAMP, and RD-HAMP. Accordingly, SIGTARP                      or bonds backed by mortgage loans
is unable to provide or analyze end-of-quarter data as noted below and thus is not          who receive interest and principal
able to fully report on the status of these programs. Instead, this report contains         payments from monthly mortgage
the most recent data provided by Treasury, and it is noted as such in the relevant          payments. Servicers manage the
sections.                                                                                   cash flow from borrowers’ monthly
    Housing support programs include the following initiatives:                             payments and distribute them to
                                                                                            investors according to Pooling and
•	 Home Affordable Modification Program (“HAMP”) — HAMP is intended                         Servicing Agreements (“PSAs”).
   to use incentive payments to encourage loan servicers (“servicers”) and
   investors to modify eligible first-lien mortgages so that the monthly payments
   of homeowners who are currently in default or generally at imminent risk
58            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        of default will be reduced to affordable and sustainable levels.114 Incentive
                                                        payments for modifications to loans owned or guaranteed by the GSEs are paid
                                                        by the GSEs, not TARP.115 As of March 31, 2013, there were 862,279 active
                                                        permanent HAMP Tier 1 modifications, 428,435 of which were under TARP,
                                                        with the remainder under the GSE portion of the program.116 While HAMP
                                                        generally refers to the first-lien mortgage modification program, it also includes
                                                        the following subprograms:
                                                        çç Home Price Decline Protection (“HPDP”) — HPDP is intended to
                                                            encourage additional investor participation and HAMP modifications in
                                                            areas with recent price declines by providing TARP-funded incentives to
                                                            offset potential losses in home values.117 As of March 31, 2013, there were
                                                            178,580 (Tier 1 and Tier 2) loan modifications under HPDP.118
                                                        çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage
                                                            the use of principal reduction in modifications for eligible borrowers whose
                                                            homes are worth significantly less than the remaining outstanding balances
                                                            of their first-lien mortgage loans. It provides TARP-funded incentives
                                                            to offset a portion of the principal reduction provided by the investor.119
                                                            Treasury failed to provide end-of-quarter data on several aspects of PRA
                                                            to SIGTARP before publication. As of February 28, 2013, the latest
                                                            data provided by Treasury, there were 82,813 (Tier 1 and Tier 2) active
                                                            permanent modifications through PRA.120
                                                        çç Home Affordable Unemployment Program (“UP”) — UP is intended to
                                                            offer assistance to unemployed homeowners through temporary forbearance
                                                            of all or a portion of their payments.121 As of February 28, 2013, which
                                                            according to Treasury is the most recent data available, 7,417 borrowers
                                                            were actively participating in UP.122
                                                     •	 Home Affordable Modification Program Tier 2 (“HAMP Tier 2”) — HAMP
                                                        Tier 2 is an expansion of HAMP to permit HAMP modifications on non-owner-
                                                        occupied “rental” properties, and to allow borrowers with a wider range of debt-
     Short Sale: Sale of a home for less                to-income ratios to receive modifications.123 As of March 31, 2013, there were
     than the unpaid mortgage balance.                  3,799 active permanent modifications under HAMP Tier 2.124
     A borrower sells the home and the               •	 Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
     investor accepts the proceeds as full              to provide incentives to servicers, investors, and borrowers to pursue short sales
     or partial satisfaction of the unpaid              and deeds-in-lieu of foreclosure for borrowers in cases in which the borrower
     mortgage balance, thus avoiding the                is unable or unwilling to enter or sustain a modification. Under this program,
     foreclosure process.                               the servicer releases the lien against the property and the investor waives all
                                                        rights to seek a deficiency judgment against a borrower who uses a short sale
     Deed-in-Lieu of Foreclosure: Instead               or deed-in-lieu when the property is worth less than the outstanding amount of
     of going through foreclosure, the                  the mortgage.125 Treasury failed to provide end-of-quarter data on the number
     borrower voluntarily surrenders the                of short sales and deeds-in-lieu under HAFA to SIGTARP before publication. As
     deed to the home to the investor, as               of February 28, 2013, the latest data provided by Treasury, there were 100,008
     satisfaction of the unpaid mortgage                short sales or deeds-in-lieu under HAFA.126
     balance.                                        •	 Second-Lien Modification Program (“2MP”) — 2MP is intended to modify
                                                        second-lien mortgages when a corresponding first lien is modified under
                                                        HAMP by a participating servicer.127 As of March 31, 2013, 16 servicers are
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013          59




     participating in 2MP.128 These servicers represent approximately 55–60% of
     the second-lien servicing market.129 As of February 28, 2013, the latest data
     provided by Treasury, there were 70,604 active permanently modified second
     liens in 2MP.130
•	   Agency-Insured Programs — These programs are similar in structure to
     HAMP, but apply to eligible first-lien mortgages insured by FHA or guaranteed
     by the Department of Agriculture’s Office of Rural Development (“RD”) and
     the Department of Veterans Affairs (“VA”).131 Treasury provides TARP-funded
     incentives to encourage modifications under the FHA and RD modification
     programs. As of February 28, 2013, the latest data provided by Treasury, there
     were 24 RD-HAMP active permanent modifications and 9,263 FHA-HAMP
     active permanent modifications.132
•	   Treasury/FHA Second-Lien Program (“FHA2LP”) — In FHA2LP, Treasury
     uses TARP funds to provide incentives to servicers and investors who agree to
     principal reduction or extinguishment of second liens associated with an FHA
     refinance.133 As of March 31, 2013, no second liens had been partially written
     down or extinguished under the program.134
•	   Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
     program, HHF is intended to fund foreclosure prevention programs run by state
     housing finance agencies in states hit hardest by the decrease in home prices
     and in states with high unemployment rates. Eighteen states and Washington,
     DC, received approval for aid through the program.135 As of December 31,
     2012, the latest data available, 94,056 borrowers had received assistance under
     HHF.136
•	   FHA Short Refinance Program — This program, which is partially supported
     by TARP funds, is intended to provide borrowers who are current on their
     mortgage an opportunity to refinance existing underwater mortgage loans that            Underwater Mortgage: Mortgage loan
     are not currently insured by FHA into FHA-insured mortgages with lower                  on which a homeowner owes more
     principal balances. Treasury has provided a TARP-funded letter of credit                than the home is worth, typically as
     for up to $1 billion in loss coverage on these newly originated FHA loans.137           a result of a decline in the home’s
     As of March 31, 2013, 2,690 loans had been refinanced under FHA Short                   value. Underwater mortgages also are
     Refinance.138                                                                           referred to as having negative equity.

Status of TARP Funds Obligated to Housing Support
Programs
Treasury initially obligated $45.6 billion to housing support programs, which was
reduced to $38.5 billion, of which $7.3 billion, or 19%, has been expended as
of March 31, 2013.139 Of that, $0.9 billion was expended in the quarter ended
March 31, 2013. However, some of the expended funds remain as cash on hand
or paid for administrative expenses at state housing finance agencies (“HFAs”)
participating in the Hardest Hit Fund program. Treasury has capped the aggregate
amount available to pay servicer, borrower, and investor incentives under MHA
programs at $29.9 billion, of which $5.2 billion, or 17%, has been spent as of
March 31, 2013.140 Treasury allocated $7.6 billion to the Hardest Hit Fund. As
of December 31, 2012, the latest data available, only 13% of those funds have
60   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            gone to help 94,056 homeowners.141 HFAs have drawn down approximately $2.1
                                            billion, as of March 31, 2013, but not all of that has gone to assist homeowners.142
                                            Treasury originally allocated $8.1 billion for FHA Short Refinance, but de-obligated
                                            $7.1 billion in the quarter ended March 31, 2013.143 Of the $1 billion currently
                                            allocated for FHA Short Refinance, $8.3 million has been spent on administrative
                                            expenses.144
                                                 Table 2.6 shows the breakdown in expenditures and estimated funding alloca-
                                            tions for these housing support programs. Figure 2.2 also shows these expendi-
                                            tures, as a percentage of allocations.

                                            TABLE 2.6
                                             TARP ALLOCATIONS AND EXPENDITURES BY HOUSING SUPPORT PROGRAMS,
                                             AS OF 3/31/2013 ($ BILLIONS)
                                                                                                                        ALLOCATIONS                             EXPENDITURES
                                                                                           MHA
                                                 HAMPa
                                                      First Lien Modification                                            $19.1                                    $3.8
                                                      PRA Modification                                                       2.0                                    0.2
                                                      HPDP                                                                   1.6                                    0.3
                                                      UP                                                                      —    b
                                                                                                                                                                      —
                                                                                 HAMP Total                             $22.7                                     $4.3
                                                      HAFA                                                                      4.2                                    0.5
                                                      2MP                                                                       0.1                                    0.4
                                                      Treasury FHA-HAMP                                                         0.2                                       —c
                                                      RD-HAMP                                                                      —d                                     —
                                                      FHA2LP                                                                    2.7                                       —
                                                                                   MHA Total                                           $29.9                                    $5.2
                                                         HHF (Drawdown by States)                 f
                                                                                                                                        $7.6                                    $2.1
                                                                  FHA Short Refinance                                                   $1.0e
                                                                                                                                                                                $0.1
                                                                                           Total                                       $38.5                                    $7.3
                                             Notes: Numbers may not total due to rounding. According to Treasury, these numbers are “approximate.”
                                             a
                                                Includes HAMP Tier 1 and HAMP Tier 2.
                                             b
                                                Treasury does not allocate TARP funds to UP.
                                             c
                                                Treasury has expended $0.02 billion for the Treasury FHA-HAMP program.
                                             d
                                                Treasury has allocated $0.02 billion to the RD-HAMP program. As of March 31, 2013, $33,507 has been expended for RD-HAMP.
                                             e
                                                This amount includes up to $25 million in fees Treasury will incur for the availability and usage of the $1 billion letter of credit.
                                             f
                                               Not all of the funds drawn down by HFAs have been used to assist homeowners. As of December 31, 2012, the latest data
                                                available, only $1.02 billion was spent to assist homeowners.

                                             Sources: Treasury, responses to SIGTARP data call, 4/4/2013 and 4/10/2013; Treasury, Transactions Report-Housing Programs,
                                             3/27/2013.
                                                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   61




FIGURE 2.2
                        TARP HOUSING SUPPORT FUNDS ALLOCATED AND SPENT,
                        AS OF 3/31/2013 ($ BILLIONS)

              HAMP                                                                                               19% spent
        $22.7 billion                                                                                            ($4.3 billion)

   Hardest Hit Fund                                        27% spent
        $7.6 billion                                       ($2.1 billion)

              HAFA                            12% spent
         $4.2 billion                         ($0.5 billion)                                         Funds Allocated
                                                                                                     Funds Spent
            FHA2LP
                                      None spent
         $2.7 billion

FHA Short Refinance            10% spent
          $1 billion           ($0.1 billion)

Treasury FHA–HAMP           10% spent
         $0.2 billion       ($0.02 billion)

                        0                  $5                    $10            $15                   $20               $25
                                          billion               billion        billion               billion           billion
                        Notes: Numbers may not total due to rounding.

                        Sources: Treasury, responses to SIGTARP data call, 4/4/2013 and 4/10/2013.


    As of March 31, 2013, Treasury had active agreements with 96 servicers. That
compares with 145 servicers that had agreed to participate in MHA as of October
3, 2010.145 According to Treasury, of the $29.9 billion obligated to participating
servicers under their Servicer Participation Agreements (“SPAs”), as of March 31,
2013, only $5.2 billion (17%) has been spent, broken down as follows: $4.3 billion
had been spent on completing permanent modifications of first liens, including
PRA and HPDP, (428,435 of which remain active); $372 million under 2MP; and
$498.3 million on incentives for short sales or deeds-in-lieu of foreclosure under
HAFA.146 Of the combined amount of incentive payments, according to Treasury,
approximately $1.6 billion went to pay servicer incentives, $2.5 billion went to
pay investor or lender incentives, and $1.1 billion went to pay borrower incen-
tives.147 According to Treasury, Wells Fargo Bank, N.A. (“Wells Fargo”) repurchased
mortgages with HAMP modifications from the GSEs that are now considered
non-GSE HAMP modifications, and until these modifications can be accurately
reported in the HAMP reporting system, Treasury has withheld from Wells Fargo
$787,000 of incentive payments for those modifications.148 As of March 31, 2013,
Treasury had disbursed approximately $2.1 billion of the $7.6 billion allocated to
HFAs participating in HHF.149 According to the most recent data, as of December
31, 2012, more than half of HHF funding disbursed to HFAs is held as cash on
hand with HFAs or is used for administrative expenses.150 The remaining $1 billion
has been obligated under FHA Short Refinance to purchase a letter of credit to
provide up to $1 billion in first loss coverage and to pay $25 million in fees for the
letter of credit.151 According to Treasury, it has not paid any claims for defaults on
the 2,690 loans refinanced under the program. However, Treasury has pre-funded
a reserve account with $50 million to pay future claims and spent $8.3 million on
62   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            administrative expenses.152 The breakdown of TARP-funded expenditures related to
                                            housing support programs (not including the GSE-funded portion of HAMP) are
                                            shown in Table 2.7.

                                            TABLE 2.7
                                             BREAKDOWN OF TARP EXPENDITURES, AS OF 3/31/2013                                                ($ MILLIONS)
                                             MHA                                                                             TARP Expenditures
                                                 HAMP
                                                      HAMP First Lien Modification Incentives
                                                         Servicer Incentive Payment                                            $585.3
                                                         Servicer Current Borrower Incentive Payment                             $16.4
                                                         Annual Servicer Incentive Payment                                     $814.8
                                                         Investor Current Borrower Incentive Payment                             $59.8
                                                         Investor Monthly Reduction Cost Share                               $1,573.8
                                                         Annual Borrower Incentive Payment                                     $744.4
                                                         Tier 2 Incentive Payments                                                 $3.3
                                                      HAMP First Lien Modification Incentives Total                                    $3,797.9
                                                      PRA                                                                                 $191.4
                                                      HPDP                                                                                $293.9
                                                      UP                                                                                          $—a
                                                      HAMP Program Incentives Total                                                                  $4,283.2
                                                 HAFA Incentives
                                                    Servicer Incentive Payment                                                                   $149.5
                                                    Investor Reimbursement                                                                         $62.5
                                                    Borrower Relocation                                                                          $286.4
                                                HAFA Incentives Total                                                                                  $498.3
                                                Second-Lien Modification Program Incentives
                                                    2MP Servicer Incentive Payment                                                                 $52.6
                                                    2MP Annual Servicer Incentive Payment                                                          $17.1
                                                    2MP Annual Borrower Incentive Payment                                                          $15.7
                                                    2MP Investor Cost Share                                                                        $97.7
                                                    2MP Investor Incentive                                                                       $188.8
                                                Second-Lien Modification Program Incentives Total                                                      $372
                                                Treasury/FHA-HAMP Incentives
                                                    Annual Servicer Incentive Payment                                                              $10.7
                                                    Annual Borrower Incentive Payment                                                               $9.6
                                                Treasury/FHA-HAMP Incentives Total                                                                       $20.3
                                                RD-HAMP                                                                                                        $—b
                                                FHA2LP                                                                                                         $—
                                             MHA Incentives Total                                                                                             $5,173.8
                                             HHF Disbursements (Drawdowns by State HFAs)                                                                      $2,078.6
                                             FHA Short Refinance (Loss-Coverage)                                                                                  $58.3
                                             Total Expenditures                                                                                               $7,310.8
                                             Notes: Numbers may not total due to rounding.
                                             a
                                               TARP funds are not used to support the UP program, which provides forbearance of a portion of the homeowner’s mortgage
                                                payment.
                                             b
                                                RD-HAMP expenditures equal $33,507 as of March 31, 2013.

                                             Sources: Treasury, responses to SIGTARP data call, 4/10/2013, 4/15/2013, and 4/19/2013.
                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013         63




HAMP
According to Treasury, HAMP was intended “to help as many as three to four
million financially struggling homeowners avoid foreclosure by modifying loans to
a level that is affordable for borrowers now and sustainable over the long term.”153
Although HAMP contains several subprograms, the term “HAMP” is most often
used to refer to the HAMP First-Lien Modification Program, described below.

HAMP First-Lien Modification Program
The HAMP First-Lien Modification Program, which went into effect on April
6, 2009, modifies the terms of first-lien mortgages to provide borrowers with
lower monthly payments. A HAMP modification consists of two phases: a trial                                                            Trial Modification: Under HAMP, a
modification that was originally designed to last three months, followed by a                                                          period of at least three months in
permanent modification. Treasury continues to pay incentives for five years.154 In                                                     which a borrower is given a chance
designing HAMP, the Administration envisioned a “shared partnership” between                                                           to establish that he or she can make
the Government and investors to bring distressed borrowers’ first lien monthly                                                         lower monthly mortgage payments and
payments down to an “affordable and sustainable” level.155 The program description                                                     qualify for a permanent modification.
immediately below refers only to the original HAMP program, which after the
launch of HAMP Tier 2 has been renamed “HAMP Tier 1.”

HAMP Tier 1 Modification Statistics
As of March 31, 2013, a total of 862,279 mortgages were in active permanent
modifications under both TARP (non-GSE) and GSE HAMP, or 43% of total
trial modifications started since the program began. Some 55,876 were in active
trial modifications, or 3% of modifications started. Treasury failed to provide
end-of-quarter data on the percentages of permanent modifications that received
interest rate reduction, term extension, or principal forbearance to SIGTARP
before publication. As of February 28, 2013, the latest data provided by Treasury,
for borrowers receiving permanent modifications, 97% received an interest rate
reduction, 62% received a term extension, 33% received principal forbearance, and
13% received principal forgiveness.156 HAMP modification activity, broken out by
TARP and GSE loans, is shown in Table 2.8.

TABLE 2.8
 CUMULATIVE HAMP TIER 1 MODIFICATION ACTIVITY BY TARP/GSE, AS OF 3/31/2013
                                                                          Trials
                  Trials           Trials              Trials      Converted to          Permanents          Permanents             Total       Total
                Started        Cancelled              Active        Permanent              Cancelled             Active         Cancelled      Active
 TARP          974,673            350,502            32,636               591,535             163,100                 428,435     513,602    461,071
 GSE        1,030,621             424,117            23,240               583,264             149,420                 433,844     573,537    457,084
 Total     2,005,294             774,619             55,876           1,174,799              312,520              862,279       1,087,139   918,155
 Sources: Treasury, response to SIGTARP data call, 4/19/2013; Fannie Mae, response to SIGTARP data call, 4/19/2013.
64   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                HAMP has continued to fall well short of its stated goal of helping as many
                                            as three to four million homeowners.157 As of March 31, 2013, of the 2,005,294
                                            HAMP modifications that had been started, more than half, 1,087,139, or 54%,
                                            were cancelled and removed from the program, as shown in Figure 2.3, which
                                            includes 774,619 cancelled trial modifications and 312,520 cancelled permanent
                                            modifications.158 Historically, since late 2010, the proportion of active and
                                            cancelled HAMP modifications has remained unchanged at around 46% active
                                            modifications and 54% cancelled modifications.159
                                                During each year of the program, there was a decline in the number of trial
                                            modifications that homeowners were accepted into and from 2010 on there also
                                            was a decline in the number of homeowners who had their trial modifications
                                            cancelled, but there was an increase in the number of homeowners who had their
                                            permanent modifications cancelled.160 Around 1,466,448, or 73%, of HAMP
                                            modifications were started before 2011.161 The other 538,846, or 27%, of HAMP
                                            modifications had been started in 2011, 2012, or during the first few months of
                                            2013.162 From 2010 to 2011, the number of modifications started fell 45%, from
                                            563,828 to 308,147; from 2011 to 2012, the number of modifications started fell
                                            36% to 195,705.163 From 2010 on the percentage of trial modifications that had
                                            been cancelled also declined each year.164 In 2010, 734,509, or 50% of trials started
                                            over the life of the program had been cancelled, but by 2012, 772,837, or 39% of
                                            trials started over the life of the program had been cancelled.165 Beginning in June
                                            2010, HAMP required that borrower income be verified before the start of a trial
                                            modification; afterward, according to Treasury, fewer trial modifications are being
                                            cancelled.166
                                                However, at the same time, the number of permanent modifications that had
                                            been cancelled increased each year.167 In 2010, only 4% of homeowners who had
                                            begun trial modifications had their permanent modifications eventually cancelled,
                                            but by the end of 2012, 14% of homeowners who had begun trial modifications at
                                            any point in the program had their permanent modification eventually cancelled.168
                                                Should these trends continue, HAMP will fail to help an increasing number of
                                            homeowners who received modifications meant to help them avoid foreclosure and
                                            keep their homes. Figure 2.3 shows active and cancelled HAMP modifications as
                                            reported by Treasury as of December 31, 2009, through March 31, 2013. For more
                                            detail on active and cancelled modifications over the life of HAMP, see Appendix F.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   65




FIGURE 2.3
ACTIVE AND CANCELLED HAMP MODIFICATIONS,
12/31/2009 TO 3/31/2013
 2,500,000




 2,000,000



                                                                                           As of 3/31/2013:
 1,500,000                                                                                 54% of 2,005,294
                                                                                           modifications started
                                                                                           have been cancelled

 1,000,000




    500,000




             0
                 Q409 Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113

                      Trial Modifications Active
                      Permanent Modifications Active
                      All Cancellations

Notes: Cancellations include borrowers that: fail to finish a three-month trial, redefault after successfully completing the
trial process or after receiving a permanent modification, are disqualified from the program or paid off their mortgage.

Sources: Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, and 4/19/2013;
Fannie Mae, repsonse to SIGTARP data call, 4/19/2013; SIGTARP Quarterly Report to Congress, 1/30/2013; SIGTARP
Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly
Report to Congress, 1/30/2010.




Starting a HAMP Tier 1 Modification
Borrowers may request participation in HAMP.169 Borrowers who have missed two
or more payments must be solicited for participation by their servicers.170 Before
offering the borrower a trial modification, also known as a trial period plan (“TPP”),
the servicer must verify the accuracy of the borrower’s income and other eligibility
criteria. In order to verify the borrower’s eligibility for a modification under the
program, borrowers must submit the following documents as part of an “initial
package.”171

•	 an MHA “request for mortgage assistance” (“RMA”) form, which provides the
   servicer with the borrower’s financial information, including the cause of the
   borrower’s hardship;
•	 signed and completed requests for Federal tax return transcripts or the most
   recent Federal income tax return, including all schedules and forms;
•	 income verification documentation, such as recent pay stubs or evidence of
   other sources of income; and
66            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     •	 Dodd-Frank certification (either as part of the RMA form or as a standalone
     For more information on the RMA
                                                        document) that the borrower has not been convicted in the past 10 years of any
     form and what constitutes hardship,
                                                        of the following in connection with a mortgage or real estate transaction: felony
     see SIGTARP’s April 2011 Quarterly
     Report, page 62.                                   larceny, theft, fraud, or forgery; money laundering, or tax evasion.

     For more information on the Verification            In order for a loan to be eligible for a HAMP modification, the borrower’s initial
     Policy, see SIGTARP’s April 2011                package, consisting of the four documents described above, must be submitted by
     Quarterly Report, page 63.                      the borrower on or before December 31, 2013. Additionally, in order to be eligible
                                                     for incentive payments, the permanent modification must be effective on or before
     For more about the HAMP NPV test,               December 31, 2014.172
     see the June 18, 2012, SIGTARP audit                Participating servicers verify monthly gross income for the borrower and the
     report “The NPV Test’s Impact on                borrower’s household, as well as other eligibility criteria.173 Then, in the case of
     HAMP.”
                                                     HAMP Tier 1, the servicer follows the “waterfall” of modification steps prescribed
                                                     by HAMP guidelines to calculate the reduction in the borrower’s monthly mortgage
                                                     payment needed to achieve a 31% debt-to-income (“DTI”) ratio, that is, a payment
                                                     equal to 31% of his or her monthly gross income.174
                                                         In the first step, the servicer capitalizes any unpaid interest and fees (i.e., adds
                                                     them to the outstanding principal balance). Second, the servicer reduces the inter-
                                                     est rate in incremental steps to as low as 2%. If the 31% DTI ratio threshold still
                                                     has not been reached, in the third step the servicer extends the term of the mort-
                                                     gage to a maximum of 40 years from the modification date. If these steps are still
                                                     insufficient to reach the 31% threshold, the servicer may forbear principal (defer its
                                                     due date), subject to certain limits.175 The forbearance amount is not interest bear-
                                                     ing and results in a lump-sum payment due upon the earliest of the sale date of the
                                                     property, the payoff date of the interest-bearing mortgage balance, or the maturity
                                                     date of the mortgage.176
                                                         Servicers are not required to forgive principal under HAMP. However, servicers
     Net Present Value (“NPV”) Test:                 may forgive principal in order to lower the borrower’s monthly payment to achieve
     Compares the money generated by                 the HAMP Tier 1 DTI ratio goal of 31% on a stand-alone basis, at any point in the
     modifying the terms of the mortgage             HAMP waterfall described above, or as part of PRA.177
     with the amount an investor can                     After completing these modification calculations, all loans that meet HAMP
     reasonably expect to recover in a               eligibility criteria and are either deemed generally to be in imminent default or
     foreclosure sale.                               delinquent by two or more payments must be evaluated using a standardized net
                                                     present value (“NPV”) test that compares the NPV result for a modification to
     Loan-to-Value (“LTV”) Ratio: Lending            the NPV result for no modification.178 The NPV test compares the expected cash
     risk assessment ratio that mortgage             flow from a modified loan with the expected cash flow from the same loan with
     lenders examine before approving a              no modifications to determine which option will be more valuable to the mortgage
     mortgage; calculated by dividing the            investor. A positive NPV test result indicates that a modified loan is more valuable
     outstanding amount of the loan by               to the investor than the existing loan. In that case, under HAMP rules, the servicer
     the value of the collateral backing the         must offer the borrower a mortgage modification. If the test generates a negative
     loan. Loans with high LTV ratios are            result, modification is optional.179 Servicers cannot refuse to evaluate a borrower
     generally seen as higher risk because           for a modification simply because the outstanding loan currently has a low loan-to-
     the borrower has less of an equity              value (“LTV”) ratio, meaning the borrower owes less than the value of the home.
     stake in the property.                          The lower the LTV ratio is, the higher the probability that a foreclosure will be
                                                     more profitable to an investor than a modification.
                                                                                    QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   67




    Since September 1, 2011, most of the largest mortgage servicers participat-
ing in MHA have been required to assign a single point of contact to borrowers
potentially eligible for evaluation under HAMP, HAFA, or UP.180 The single point of
contact has the primary responsibility for communicating with the borrower about
options to avoid foreclosure, his/her status in the process, coordination of receipt of
documents, and coordination with other servicer personnel to promote compliance
with MHA timelines and requirements throughout the entire delinquency, immi-
nent default resolution process, or foreclosure.181

How HAMP Tier 1 First-Lien Modifications Work
Treasury originally intended that HAMP trial modifications would last three
months. Historically, many trial modifications have lasted longer. According to
Treasury, as of March 31, 2013, of a combined total of 55,876 active trials under
both GSE and TARP (non-GSE) HAMP, 13,421, or 24%, had lasted more than six
months.182
     Borrowers in trial modifications may qualify for conversion to a permanent
modification as long as they make the required modified payments on time and
provide proper documentation, including a signed modification agreement.183 The
terms of permanent modifications under HAMP Tier 1 remain fixed for at least five
years.184 After five years, the loan’s interest rate can increase if the modified interest
rate had been reduced below the 30-year conforming fixed interest rate on the date
of the initial modification. The interest rate can rise incrementally by up to 1%
per year until it reaches that rate.185 Otherwise, the modified interest rate remains
permanent.
     If the borrower misses a payment during the trial or is denied a permanent
modification for any other reason, the borrower is, in effect, left with the original
terms of the mortgage. The borrower is responsible for the difference between
the original mortgage payment amount and the reduced trial payments that were
made during the trial. In addition, the borrower may be liable for late fees that were
generated during the trial. In other words, a borrower can be assessed late fees for
failing to make the original pre-modification scheduled payments during the trial
period, even though under the trial modification the borrower is not required to
make these payments. Late fees are waived only for borrowers who receive a per-
manent modification.186

What Happens When a HAMP Modification Is Denied: Servicer Obligations and
Borrower Rights
Treasury has issued guidance governing both the obligations of servicers and the
rights of borrowers in connection with the denial of loan modification requests.
Borrowers must receive a Non-Approval Notice if they are rejected for a HAMP
modification. A borrower who is not approved for HAMP Tier 1 is automatically
considered for HAMP Tier 2. If the servicer offers the borrower a HAMP Tier 2
trial, no Non-Approval Notice would be issued on the HAMP Tier 1. The Non-
Approval Notice is sent only if the HAMP Tier 2 is not offered. Borrowers can
request reconsideration or re-evaluation if they believe one or more NPV analysis
68            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     inputs is incorrect or if they experience a change in circumstance. Servicers are
                                                     obligated to have written procedures and personnel in place to respond to borrower
                                                     inquiries and disputes that constitute “escalated cases” in a timely manner.187
                                                         Treasury’s web-based NPV calculator at www.CheckMyNPV.com can be
                                                     used by borrowers prior to applying for a HAMP modification or after a denial
     For more information on HAMP                    of a HAMP modification. Borrowers can enter the NPV input values listed in
     servicer obligations and borrower rights,       the HAMP Non-Approval Notice received from their servicer, or substitute with
     see SIGTARP’s April 2011 Quarterly              estimated NPV input values, to compare the estimated outcome provided by
     Report, pages 67-76.                            CheckMyNPV.com against that on the Non-Approval Notice.

                                                     Modification Incentives
                                                     For new HAMP trials on or after October 1, 2011, Treasury changed the one-
                                                     time flat $1,000 incentive payment to a sliding scale based on the length of time
                                                     the loan was delinquent as of the effective date of the TPP. For loans less than or
                                                     equal to 120 days delinquent, servicers receive $1,600.188 For loans 121-210 days
                                                     delinquent, servicers receive $1,200. For loans more than 210 days delinquent,
                                                     servicers receive only $400. For borrowers whose monthly mortgage payment was
                                                     reduced through HAMP by 6% or more, servicers also receive incentive payments
                                                     of up to $1,000 annually for three years if the borrower remains in good standing
                                                     (defined as less than three full monthly payments delinquent).189
                                                         For HAMP Tier 1, borrowers whose monthly mortgage payment is reduced
                                                     through HAMP by 6% or more and who make monthly payments on time earn
                                                     an annual principal reduction of up to $1,000.190 The principal reduction accrues
                                                     monthly and is payable for each of the first five years as long as the borrower re-
                                                     mains in good standing.191 Under both HAMP Tier 1 and HAMP Tier 2, the inves-
                                                     tor is entitled to five years of incentives that make up part of the difference between
                                                     the borrower’s new monthly payment and the old one.
                                                         As of March 31, 2013, of the $29.9 billion in TARP funds allocated to the 96
                                                     servicers participating in MHA, approximately 89% was allocated to the 10 largest
                                                     servicers.192 Table 2.9 shows incentive payments made to these servicers.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013    69




TABLE 2.9
 TARP INCENTIVE PAYMENTS BY 10 LARGEST SERVICERS, AS OF 3/31/2013
                                                                                     Incentive                     Incentive             Incentive
                                                                                    Payments                      Payments              Payments         Total Incentive
                                                  SPA Cap Limit                  to Borrowers                   to Investors          to Servicers            Payments
 Bank of America, N.A.a                         $7,790,510,497                  $226,730,567                 $463,080,130            $302,567,117        $992,377,814
 Wells Fargo Bank, N.A.b                          5,111,046,813                   153,142,593                  361,941,302            239,837,171          754,921,066
 JPMorgan Chase Bank, NA           c
                                                  3,761,894,005                   222,768,094                  472,698,500            325,948,471        1,021,415,065
 Ocwen Loan Servicing, LLCd                       2,796,259,957                    89,543,540                  243,704,631            163,901,556          497,149,727
 OneWest Bank                                     1,836,141,679                    45,875,613                  140,764,072             69,044,817          255,684,502
 GMAC Mortgage, LLC                               1,498,914,981                    45,973,243                  112,356,452             76,644,383          234,974,078
 Homeward Residential, Inc.                       1,221,207,683                    51,738,130                  133,594,150             94,813,422          280,145,701
 Select Portfolio Servicing                       1,036,837,689                    53,469,413                  105,219,506             81,013,208          239,702,127
 CitiMortgage Inc                                    993,119,599                   54,230,973                  175,963,500             94,190,297          324,384,769
 Nationstar Mortgage LLC                             696,726,717                   26,435,322                   49,858,780             37,428,873          113,722,975
 Total                                      $26,742,659,620                   $969,907,488               $2,259,181,022           $1,485,389,314      $4,714,477,823
 Notes: Includes HAMP Tier 1 and Tier 2.
 a
   Bank of America, N.A. includes the former Countrywide Home Loans Servicing, Wilshire Credit Corp. and Home Loan Services.
 b
   Wells Fargo Bank, N.A. includes Wachovia Mortgage, FSB.
 c
   JPMorgan Chase Bank, NA includes EMC Mortgage.
 d
   Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LP.

 Source: Treasury, Transactions Report-Housing Programs, 3/27/2013.
70   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                As of March 31, 2013, of 944,619 permanent modifications started by the 10
                                            largest servicers, 250,090, or 26%, were subsequently cancelled, and three servicers
                                            account for nearly 55% of these permanent HAMP modifications cancelled:
                                            JPMorgan Chase Bank, N.A., with 49,059 permanent modifications cancelled;
                                            Bank of America, N.A., with 45,708 permanent modifications cancelled; and
                                            Ocwen Loan Servicing, LLC, with 42,848 permanent modifications cancelled.193
                                            Of the 10 largest servicers participating in HAMP, the three servicers with
                                            the highest percentage of permanent HAMP modifications made that were
                                            subsequently cancelled were Homeward Residential, Inc., with 35% of permanent
                                            modifications cancelled; Select Portfolio Servicing, with 34% of permanent
                                            modifications cancelled; and GMAC Mortgage, LLC, with 32% of permanent
                                            modifications cancelled, as compared with the average for the 10 of 28%.194 Table
                                            2.10 provides data on the status of permanent modifications by the 10 largest
                                            servicers participating in HAMP.

                                            TABLE 2.10
                                             PERMANENT HAMP TIER 1 MODIFICATIONS BY 10 LARGEST SERVICERS,
                                             AS OF 3/31/2013
                                                                                                                                                          Percentage
                                                                                                                                                         of Servicer’s
                                                                                    Trial Modifications                    Permanent                      Permanent
                                                                                          Converted to                    Modifications                 Modifications
                                                                                           Permanent                        Cancelled                       Cancelled
                                             JPMorgan Chase Bank,
                                                                                                   195,913                         49,059                         25%
                                             N.A.
                                             Bank of America, N.A.                                 165,914                         45,708                         28%
                                             Ocwen Loan Servicing, LLC                             141,009                         42,848                         30%
                                             Wells Fargo Bank, N.A.                                160,784                         37,322                         23%
                                             Nationstar Mortgage LLC                                75,633                         19,403                         26%
                                             CitiMortgage, Inc.                                     68,431                         15,760                         23%
                                             GMAC Mortgage, LLC                                     44,683                         14,359                         32%
                                             Select Portfolio Servicing                             38,407                         12,995                         34%
                                             OneWest Bank                                           44,769                          9,492                         21%
                                             Homeward Residential, Inc.                               9,076                         3,144                         35%
                                             Sources: Treasury, response to SIGTARP data call, 4/19/2013; Fannie Mae, response to SIGTARP data call, 4/19/2013.
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   71




MHA Outreach and Borrower Intake Project
On February 14, 2013, Treasury entered into an agreement with the
Neighborhood Reinvestment Corporation, also called NeighborWorks America
(“NeighborWorks”), to launch a nationwide MHA initiative with housing
counselors “in an effort to increase the number of homeowners that successfully
request assistance under MHA.”195 NeighborWorks is a Congressionally chartered
corporation that through a national network of non-profit organizations administers
housing programs, including housing counseling.196 The initiative, called the MHA
Outreach and Borrower Intake Project, will pay housing counseling agencies
to work with borrowers to submit complete applications for HAMP to servicers
before the program’s December 31, 2013, application deadline.197 Participating
counseling agencies will conduct borrower outreach, assess borrowers for HAMP
eligibility, help homeowners prepare complete MHA application initial packages,
described in detail above, and electronically deliver those packages to MHA
servicers.198 Treasury has allocated funding sufficient for 20,000 applications.199
Treasury allocated $18.3 million in TARP funds for the project.200 NeighborWorks
and eligible counseling agencies may use TARP funds for borrower outreach
and project oversight, which includes training.201 Agencies are eligible to receive
$450 per completed borrower initial application package that is submitted to an
MHA servicer and accepted by that MHA servicer, whether or not the borrower
eventually receives a mortgage modification.202 Treasury may withhold, from
NeighborWorks and participating agencies, funds for adverse behavior, such
as “sustained poor performance,” and recapture funds, such as those that are
unspent.203

HAMP Tier 2
Effective June 1, 2012, HAMP Tier 2 expanded HAMP.204 As in HAMP Tier 1,
HAMP Tier 2 permits HAMP modifications on mortgages of owner-occupied
properties, but unlike HAMP Tier 1, HAMP Tier 2 also permits HAMP
modifications on mortgages of non-owner-occupied “rental” properties that are
tenant-occupied or vacant.205 Under the original HAMP (now HAMP Tier 1),
mortgage modifications for “rental” properties had been expressly excluded; HAMP
Tier 2 also allows borrowers with a wider range of debt-to-income situations to
receive modifications.206 Treasury’s stated policy objectives for HAMP Tier 2
are that it “will provide critical relief to both renters and those who rent their
homes, while further stabilizing communities from the blight of vacant and
foreclosed properties.”207 A borrower may have up to five loans with HAMP Tier 2
modifications, as well as a single HAMP Tier 1 modification on the mortgage for
his or her primary residence.208
    According to Treasury, as of March 31, 2013, a total of 62 of the 96 servicers
with active MHA servicer agreements had fully implemented HAMP Tier 2.209 The
remaining 34 of those servicers will not implement HAMP Tier 2 because they
are in the process of terminating their servicer participation agreement, they have
gone out of business, their servicer participation agreement was signed to partici-
pate only in FHA-HAMP, RD-HAMP, or FHA-2LP, or they are winding down their
72           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     For SIGTARP’s recommendations for                            non-GSE servicing operations.210 All 10 of the largest servicers have reported that
     the improvement of HAMP Tier 2,                              they had implemented HAMP Tier 2.211 According to Treasury, as of March 31,
     see SIGTARP’s April 2012 Quarterly                           2013, it had paid $3.3 million in incentives in connection with 3,799 active HAMP
     Report, pages 185-189.                                       Tier 2 permanent modifications.212
                                                                      According to Treasury, as of March 31, 2013, of the 11,332 HAMP Tier 2
                                                                  trial mortgage modifications started, 10,278, or 91%, were for owner-occupied
                                                                  properties; 848, or 7%, were for tenant-occupied properties, and 206, or 2%, were
                                                                  for vacant properties.213 Of owner-occupied properties that received a HAMP Tier
                                                                  2 trial modification, 6,660 trial modifications, or 65%, were active, and 3,477,
                                                                  or 34%, were converted to permanent modifications, of which 3,438, or 99%,
                                                                  were active.214 Of owner-occupied properties that received a HAMP Tier 2 trial
                                                                  modification, 141, or 1%, were cancelled, and of those that received a permanent
                                                                  modification, 39, or 1%, were cancelled.215 Nearly all tenant-occupied properties
                                                                  that received either a trial or permanent HAMP Tier 2 mortgage modification
                                                                  have remained active, as of March 31, 2013.216 Of vacant properties that received
                                                                  a HAMP Tier 2 trial modification, 127, or 62%, were in active trial modifications,
                                                                  76, or 37% were in active permanent modifications, and three, or 1%, had their
                                                                  trial modifications cancelled.217 HAMP Tier 2 mortgage modification activity and
                                                                  property occupancy status is shown in Table 2.11.218
                    TABLE 2.11
                     HAMP TIER 2 FIRST LIEN MODIFICATION ACTIVITY AND OCCUPANCY STATUS, AS OF 3/31/2013
                                                                                                    Trials
                                                      Trials           Trials       Trials   Converted to    Permanent    Permanent        Total     Total
                     Property Type                  Started        Cancelled       Active     Permanent       Cancelled       Active   Cancelled    Active
                     Owner Occupied                  10,278                 141    6,660            3,477           39        3,438         180    10,098
                     Tenant Occupied                      848                 5      556              287            2          285           7       841
                     Vacant                               206                 3      127               76            0           76           3       203
                     Total                          11,332                  149    7,343           3,840            41        3,799         190    11,142
                     Notes: Occupancy status is as of time of application

                     Source: Treasury, response to SIGTARP data call, 4/19/2013.
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   73




HAMP Tier 2 Eligibility
HAMP Tier 2 expands the eligibility criteria related to a borrower’s debt-to-income
ratio and also allows modifications on loans secured by “rental” properties. Owner-
occupied loans that are ineligible for a HAMP Tier 1 modification due to excessive
forbearance or negative NPV are also eligible for Tier 2. Vacant rental properties
are permitted in the program, as are those occupied by legal dependents, parents,
or grandparents, even if no rent is charged. The program is not, however, according
to Treasury, intended for vacation homes, second homes, or properties that are
rented only seasonally. Additionally, loans on rental properties must be at least two
payments delinquent – those in imminent default are not eligible.219
    However, Treasury does not require that the property be rented. Treasury
requires only that a borrower certify intent to rent the property to a tenant on a
year-round basis for at least five years, or make “reasonable efforts” to do so; and
does not intend to use the property as a second residence for at least five years.220
According to Treasury, servicers are not typically required to obtain third-party veri-
fications of the borrower’s rental property certification when evaluating a borrower
for HAMP.221
    To be considered for HAMP Tier 2, borrowers must satisfy several basic HAMP
requirements: the loan origination date must be on or before January 1, 2009;
the borrower must have a documented hardship; the property must conform to
the MHA definition of a “single-family residence” (1-4 dwelling units, including
condominiums, co-ops, and manufactured housing); the property must not be
condemned; and the loan must fall within HAMP’s unpaid principal balance limita-
tions.222 If a borrower satisfies these requirements, and in addition, the loan has
never been previously modified under HAMP, the servicer is required to solicit the
borrower for HAMP Tier 2. In certain other cases, the borrower may still be eligible
for HAMP Tier 2, but the servicer is not required to solicit the borrower.223

How HAMP Tier 2 Modifications Work
As with HAMP Tier 1, HAMP Tier 2 evaluates borrowers using an NPV test that
considers the value of the loan to the investor before and after a modification.
Owner-occupant borrowers are evaluated for both HAMP Tier 1 and Tier 2 in a
single process. If a borrower is eligible for both modifications, he or she will receive
a HAMP Tier 1 modification.224
    As discussed above, HAMP Tier 1 modifications are structured using a waterfall
of incremental steps that may stop as soon as the 31% post-modification DTI ratio
target is reached. In HAMP Tier 2, the proposed permanent modification must
meet two affordability requirements: (1) a post-modification DTI ratio of not less
than 25% or greater than 42% and (2) a reduction of the monthly principal and
interest payment by at least 10%. The post-modification DTI ratio range increased
in February 2013 to not less than 10% or greater than 55%. If the borrower was
previously in a HAMP Tier 1 modification (either trial or permanent), then the new
payment must be at least 10% below the previously modified payment. Because
HAMP Tier 2 does not target a specific DTI ratio, the HAMP Tier 2 waterfall is not
a series of incremental steps, but a consistent set of actions that are applied to the
74   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            loan. After these actions are applied, if the result of the NPV test is positive and the
                                            modification also achieves the DTI and payment reduction goals, the servicer must
                                            offer the borrower a HAMP Tier 2 modification. If the result of the HAMP Tier 2
                                            NPV test is negative, modification is optional.225
                                                 As in the HAMP Tier 1 waterfall, the first step in structuring a HAMP Tier 2
                                            modification is to capitalize any unpaid interest and fees. The second step changes
                                            the interest rate to the “Tier 2 rate,” which is the current Freddie Mac Primary
                                            Mortgage Market Survey rate plus a 0.5% risk adjustment. The third step extends
                                            the term of the loan by up to 40 years from the modification effective date. Finally,
                                            if the loan’s pre-modification mark-to-market LTV ratio is greater than 115%, the
                                            servicer forbears principal in an amount equal to the lesser of (1) an amount that
                                            would create a post-modification LTV ratio of 115%, or (2) an amount equal to
                                            30% of the post-modification principal balance. Unlike HAMP Tier 1, there is no
                                            excessive forbearance limit in HAMP Tier 2. The HAMP Tier 2 guidelines also in-
                                            clude several exceptions to this waterfall to allow for investor restrictions on certain
                                            types of modifications.226
                                                 The HAMP Tier 2 NPV model also evaluates the loan using an “alternative
                                            modification waterfall” in addition to the one described here. This waterfall uses
                                            principal reduction instead of forbearance. However, as in HAMP Tier 1, principal
                                            reduction is optional. Servicers may also reduce principal on HAMP Tier 2 modifi-
                                            cations using PRA.227
                                                 HAMP Tier 2 incentives are the same as those for HAMP Tier 1, with some
                                            exceptions, notably that HAMP Tier 2 modifications do not pay annual borrower or
                                            servicer incentives.228

                                            Home Price Decline Protection (“HPDP”)
                                            HPDP provides investors with incentives for modifications of loans on properties
                                            located in areas where home prices have recently declined and where investors are
                                            concerned that price declines may persist. HPDP incentive payments are linked
                                            to the rate of recent home price decline in a local housing market, as well as the
                                            unpaid principal balance and mark-to-market LTV ratio of the mortgage loan.229
                                                 HPDP is intended to address the fears of investors who may withhold their
                                            consent to loan modifications because of potential future declines in the value of
                                            the homes that secure the mortgages, should the modification fail and the loan go
                                            into foreclosure.230
                                                 Under HPDP, Treasury has published a standard formula, based on the
                                            principal balance of the mortgage, the recent decline in area home prices during
                                            the six months before the start of the HAMP modification, and the LTV ratio, that
                                            will determine the size of the incentive payment.231 The HPDP incentive payments
                                            accrue monthly over a 24-month period and are paid annually on the first and
                                            second anniversaries of the initial HAMP trial period. Accruals are discontinued
                                            if the borrower loses good standing under HAMP because he or she is delinquent
                                            by three mortgage payments. As of March 31, 2013, according to Treasury,
                                            approximately $293.9 million in TARP funds had been paid for incentives on
                                            178,580 (Tier 1 and Tier 2) loan modifications under HPDP.232
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   75




Principal Reduction Alternative (“PRA”)
PRA is intended to encourage principal reduction in HAMP loan modifications for
underwater borrowers by providing mortgage investors with incentive payments
in exchange for lowering the borrower’s principal balance. PRA is an alternative
method to the standard HAMP modification waterfall for structuring a HAMP
modification. Although servicers are required to evaluate every non-GSE HAMP-
eligible borrower with an LTV of 115% or greater for PRA, whether to actually offer
principal reduction or not is up to the servicer.233
    Because the GSEs, Fannie Mae and Freddie Mac, have refused to participate
in PRA, the program applies only to loans modified under TARP-funded HAMP.234
On January 27, 2012, Treasury offered to pay PRA incentives for the GSEs from
TARP by tripling the incentives it pays to investors, subsidizing up to 63% of princi-
pal reductions.235
    For the third quarter in a row, Treasury failed to provide end-of-quarter data
on the PRA program to SIGTARP before publication; therefore, SIGTARP is not
able to fully report on the status of the PRA program. Specifically, Treasury failed
to provide the number of active permanent modifications in PRA, the percentage
of borrowers who received PRA modifications that were seriously delinquent or in
imminent default on their mortgages at the start of the trial modification, pre-
modification and post-modification median LTV ratios, and the amount by which
principal balances under PRA were reduced.236
    As of February 28, 2013, the latest data provided by Treasury, there were
82,813 active permanent modifications in PRA.237 According to Treasury, 86%
of borrowers who received PRA modifications were seriously delinquent on their
mortgages at the start of the trial modification.238
    As of February 28, 2013, the latest data provided by Treasury, PRA borrowers
had a pre-modification median LTV ratio of 155%.239 After modification, however,
PRA borrowers lowered their LTVs to a median ratio of 115%. As of February 28,
2013, the latest data provided by Treasury, PRA modifications reduced principal
balances by a median amount of $73,344 or 32%, thereby lowering the LTV
ratio.240
    As of February 28, 2013, the latest data provided by Treasury, servicers had
started 119,444 PRA trial modifications, of which 13,556 were active, 96,094
had converted to permanent modifications, and 9,794 (or 8%) were subsequently
cancelled or disqualified from the program.241 Of the PRA trials that converted to
permanent modifications, 82,813 were still active as of February 28, 2013, the
latest data provided by Treasury, and 13,281 (14%) were cancelled.242

Who Is Eligible
Borrowers who meet all HAMP eligibility requirements and who owe more than
115% of their home’s market value (LTV >115%) are eligible for PRA.243 The
principal balance used in this LTV calculation includes any amounts that would
be capitalized under a HAMP modification.244 Eligible borrowers are evaluated by
running NPV tests. There are standard and alternative NPV tests for HAMP Tier
1 and HAMP Tier 2. If the standard waterfall produces a positive NPV result, the
76                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                      servicer must offer a HAMP modification (with or without principal reduction).
                                                                      If the PRA waterfall using principal reduction produces a positive NPV result,
                                                                      the servicer may, but is not required to, offer a modification using principal
                                                                      reduction.245

                                                                      How PRA Works
                                                                      For HAMP Tier 1, the PRA waterfall uses principal forbearance (which later
                                                                      becomes principal reduction) prior to interest rate reduction as the second step
                                                                      in structuring the modification. Under PRA, the servicer determines the modified
                                                                      mortgage payment by first capitalizing unpaid interest and fees as in a standard
                                                                      HAMP modification. After capitalization, the servicer reduces the loan balance
                                                                      through principal forbearance until either a DTI ratio of 31% or an LTV ratio of
                                                                      115% is achieved. No interest will be collected on the forborne amount. If an LTV
                                                                      ratio of 105% to 115% is achieved first, the servicer then applies the remaining
                                                                      HAMP waterfall steps (interest rate reduction, term extension, forbearance) until
                                                                      the 31% DTI ratio is reached. If the principal balance has been reduced by more
                                                                      than 5%, the servicer is allowed additional flexibility in implementing the remaining
                                                                      waterfall steps. Principal reduction is not immediate; it is earned over three years.
                                                                      On each of the first three anniversaries of the modification, one-third of the
TABLE 2.12
                                                                      PRA forborne principal is forgiven. Therefore, after three years the borrower’s
 PRA INCENTIVES TO INVESTORS PER
                                                                      principal balance is permanently reduced by the amount that was placed in PRA
 DOLLAR OF FIRST LIEN PRINCIPAL
 REDUCED                                                              forbearance.246
 Mark-to-Market
                             105%          115%                       Who Gets Paid
 Loan-to-Value
                             to            to           > 140%
 Ratio (“LTV”)                                                        For PRA trials effective on or after March 1, 2012, the mortgage investors earn
                             115%          140%
 Rangea
                                                                      an incentive of $0.18 to $0.63 per dollar of principal reduced, depending on
 Incentive
                                                                      delinquency status of the loan and the level to which the outstanding LTV ratio was
 Amounts                      $0.63        $0.45          $0.30
                                                                      reduced.247 For loans that are more than six months delinquent, investors receive
 Notes: This incentive structure applies to loans less than or
 equal to six months past due. For loans that were more than          only $0.18 per dollar of principal reduction, regardless of LTV.248 The incentive
 six months delinquent within the previous year, investors
 receive $0.18 per dollar of principal reduced in compensation,       schedule in Table 2.12 applies only to loans that have been six months delinquent
 regardless of the LTV ratio. These incentives are effective for
 trials beginning on or after 3/1/2012.                               or less within the previous year.
 a
   The mark-to-market LTV is based on the pre-modified principal
   balance of the first-lien mortgage plus capitalized interest and
                                                                          Under certain conditions an investor may enter into an agreement with the
   fees divided by the market value of the property.                  borrower to share any future increase in the value of the property.249
 Source: Treasury, “Supplemental Directive 12-01: Making                  According to Treasury, as of March 31, 2013, Treasury had paid a total of
 Home Affordable Program – Principal Reduction Alternative and
 Second Lien Modification Program Investor Incentives Update,”        $191.4 million in PRA incentives.250
 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/
 hampupdate021612.pdf, accessed 4/3/2013.
                                                                      Home Affordable Unemployment Program (“UP”)
                                                                      UP, which was announced on March 26, 2010, provides temporary assistance to
                                                                      unemployed borrowers.251 Under the program, unemployed borrowers who meet
                                                                      certain qualifications can receive forbearance for a portion of their mortgage
                                                                      payments. Originally, the forbearance period was a minimum of three months,
                                                                      unless the borrower found work during this time. However, on July 7, 2011, after a
                                                                      SIGTARP recommendation to extend the term, Treasury announced that it would
                                                                      increase the minimum UP forbearance period from three months to 12 months.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013             77




As of February 28, 2013, which according to Treasury is the latest data available,
7,417 borrowers were actively participating in UP.252

Who Is Eligible
Borrowers who are approved to receive unemployment benefits and who also
request assistance under HAMP must be evaluated by servicers for an UP
forbearance plan and, if eligible, offered one. As of June 1, 2012, a servicer may
consider a borrower for UP whose loan is secured by a vacant or tenant-occupied
property and still must consider owner-occupied properties. The servicer must
consider a borrower for UP regardless of the borrower’s monthly mortgage payment
ratio and regardless of whether the borrower had a payment default on a HAMP
trial plan or lost good standing under a permanent HAMP modification. Servicers
are not required to offer an UP forbearance plan to borrowers who are more than
12 months delinquent at the time of the UP request.253 Alternatively, the servicers
may evaluate unemployed borrowers for HAMP and offer a HAMP trial period plan
instead of an UP forbearance plan if, in the servicer’s business judgment, HAMP is
the better loss mitigation option. If an unemployed borrower is offered a trial period
plan but requests UP forbearance instead, the servicer may then offer UP, but is
not required to do so.254
    Eligible borrowers may request a HAMP trial period plan after the UP forbear-
ance plan is completed. If an unemployed borrower in bankruptcy proceedings
requests consideration for HAMP, the servicer must first evaluate the borrower
for UP, subject to any required bankruptcy court approvals.255 A borrower who has
been determined to be ineligible for HAMP may request assessment for an UP
forbearance plan if he or she meets all the eligibility criteria.256 If a borrower who
is eligible for UP declines an offer for an UP forbearance plan, the servicer is not           For more information on additional UP
required to offer the borrower a modification under HAMP or 2MP while the bor-                 eligibility criteria, see SIGTARP’s April
rower remains eligible for an UP forbearance plan.257                                          2011 Quarterly Report, pages 80-81.


How UP Works
For qualifying homeowners, the mortgage payments during the forbearance
period are lowered to no more than 31% of monthly gross income, which includes
unemployment benefits.258 If the borrower regains employment, but because of
reduced income still has a hardship, the borrower must be considered for HAMP.
If the borrower is eligible, any payments missed prior to and during the period of
the UP forbearance plan are capitalized as part of the normal HAMP modification
process.259 If the UP forbearance period expires and the borrower is ineligible for
HAMP, the borrower may be eligible for MHA foreclosure alternatives, such
as HAFA.260

Home Affordable Foreclosure Alternatives (“HAFA”)
HAFA provides $4.2 billion in incentives to servicers, borrowers, and subordinate
lien holders to encourage a short sale or deed-in-lieu of foreclosure as an
alternative to foreclosure.261 Under HAFA, the servicer forfeits the ability to pursue
78            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     a deficiency judgment against a borrower when the proceeds from the short sale
     Deficiency Judgment: Court order                or deed-in-lieu are less than the outstanding amount on the mortgage.262 HAFA
     authorizing a lender to collect all or          incentives include a $3,000 relocation incentive payment to borrowers or tenants,
     part of an unpaid and outstanding debt          a $1,500 incentive payment to servicers, and incentive payments to subordinate
     resulting from the borrower’s default           mortgage lien holders of up to $2,000 in exchange for a release of the lien and the
     on the mortgage note securing a debt.           borrower’s liability.263 The program was announced on November 30, 2009.264
     A deficiency judgment is rendered                   Treasury allows each servicer participating in HAFA to determine its own poli-
     after the foreclosed or repossessed             cies for borrower eligibility and many other aspects of how it operates the program,
     property is sold when the proceeds are          but requires the servicers to post criteria and program rules on their websites.
     insufficient to repay the full mortgage         According to Treasury, as of March 31, 2013, all but five have complied with
     debt.                                           this requirement.265 Servicers must notify eligible borrowers in writing about the
                                                     availability of the HAFA program and allow the borrower a minimum of 14 calen-
                                                     dar days to apply.266 Servicers are not required by Treasury to verify a borrower’s
                                                     financial information or determine whether the borrower’s total monthly payment
                                                     exceeds 31% of his or her monthly gross income.267
                                                         Effective March 9, 2012, Treasury no longer required properties in HAFA to
                                                     be occupied, allowing vacant properties to enter the program. However, relocation
                                                     incentives will be paid only on occupied properties.268
                                                         As of March 31, 2013, approximately $498.3 million from TARP had been paid
                                                     to investors, borrowers, and servicers under HAFA.269 For the third quarter in a
                                                     row, Treasury failed to provide end-of-quarter data on the number of short sales or
                                                     deeds-in-lieu completed under HAFA to SIGTARP before publication; therefore,
                                                     SIGTARP is not able to fully report on the status of HAFA. As of February 28,
                                                     2013, the latest data provided by Treasury, 100,008 short sales or deeds-in-lieu of
                                                     foreclosure transfers were completed under HAFA.270 As of February 28, 2013, the
                                                     latest data provided by Treasury, Treasury reported that the nine largest servicers
                                                     alone had completed 282,892 short sales and deeds-in-lieu outside HAMP for bor-
     For more information about relocation
                                                     rowers whose HAMP trial modifications had failed, borrowers who had chosen not
     incentives and borrower requirements            to participate, or were ineligible for the program.271 The greater volume of activity
     related to primary residences in HAFA,          outside HAFA may be explained, in part, by the fees and deficiency judgments that
     see SIGTARP’s January 2012 Quarterly            servicers are able to collect from the borrower in non-HAFA transactions, which
     Report, pages 70-71.                            are not available within HAFA.

                                                     Second-Lien Modification Program (“2MP”)
                                                     According to Treasury, 2MP, which was announced on August 13, 2009, is
                                                     designed to provide modifications to the loans of borrowers with second mortgages
                                                     of at least $5,000 with monthly payments of at least $100 that are serviced by
                                                     a participating 2MP servicer, or full extinguishment of second mortgages below
                                                     those thresholds. When a borrower’s first lien is modified under HAMP and the
                                                     servicer of the second lien is a 2MP participant, that servicer must offer to modify
                                                     or may extinguish the borrower’s second lien. Treasury pays the servicer a lump
                                                     sum for full extinguishment of the second-lien principal or in exchange for a partial
                                                     extinguishment (principal reduction) and modification of the remainder of the
                                                     second lien.272 Second-lien servicers are not required to verify any of the borrower’s
                                                     financial information and do not perform a separate NPV analysis.273
                                                                                    QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013                              79




    There is no minimum principal balance for a full extinguishment of a second
lien under 2MP. For a second-lien modification under 2MP, the servicer first capi-                Servicing Advances: If borrowers’
talizes any accrued interest and servicing advances, then reduces the interest rate               payments are not made promptly
to 1% to 2% for the first five years. After the five-year period, the rate increases to           and in full, servicers are contractually
match the rate on the HAMP-modified first lien. When modifying the second lien,                   obligated to advance the required
the servicer must, at a minimum, extend the term to match the term of the first                   monthly payment amount in full to the
lien, but can also extend the term up to a maximum of 40 years. To the extent that                investor. Once a borrower becomes
there is forbearance or principal reduction for the modified first lien, the second-              current or the property is sold or
lien holder must forbear or forgive at least the same percentage on the second                    acquired through foreclosure, the
lien.274                                                                                          servicer is repaid all advanced funds.
    According to Treasury, as of March 31, 2013, 135,172 HAMP modifications
had second liens that were eligible for 2MP.275 As of February 28, 2013, the latest
data provided by Treasury, there were 70,604 active permanent modifications of
                                                                                                TABLE 2.13
second liens.276 New 2MP modifications sharply peaked in March 2011 and have
been generally declining since then. Most of the activity under the program has                  2MP COMPENSATION PER DOLLAR OF
                                                                                                 SECOND-LIEN PRINCIPAL REDUCED
been modifications to the terms of the second liens. As of February 28, 2013, the
                                                                                                 (FOR 2MP MODIFICATIONS WITH
latest data provided by Treasury, median principal reduction was $9,609 for partial              AN EFFECTIVE DATE ON OR AFTER
extinguishments of second liens and $61,346 for full extinguishments of second                   6/1/2012)
liens.277 According to Treasury, as of March 31, 2013, approximately $356.3                      Combined Loan-                           115%
million in TARP funds had been paid to servicers and investors under 2MP.278 As                  to-Value (“CLTV”)          < 115%        to           > 140%
                                                                                                 Ratio Rangea                             140%
of February 28, 2013, the latest data provided by Treasury, there were 142,197
second-lien full and partial extinguishments and modifications under 2MP.279                     Incentive
                                                                                                 Amounts                      $0.42       $0.30         $0.20
    The servicer receives a $500 incentive payment upon modification of a second
                                                                                                 Notes: This incentive structure applies to loans less than or
lien and is eligible for further incentives if certain conditions are met. The borrower          equal to six months past due. For loans that were more than
                                                                                                 six months delinquent within the previous year, investors
is eligible for an annual principal reduction payment of up to $250 per year for                 receive $0.12 per dollar of principal reduced in compensation,
                                                                                                 regardless of the CLTV ratio.
up to five years.280 Investors receive modification incentive payments equal to an               a
                                                                                                   Combined Loan-to-Value is the ratio of the sum of the
                                                                                                    outstanding principal balance of the HAMP-modified first
annualized amount of 1.6% of the unmodified principal balance, paid on a monthly                    lien and the outstanding principal balance of the unmodified
basis for up to five years.281 In addition, investors also receive incentives for fully or          second lien divided by the property value determined in
                                                                                                    connection with the permanent HAMP modification.
partially extinguishing the second lien on 2MP modifications. The current incen-
                                                                                                 Source: Treasury, “Supplemental Directive 12-03: Making Home
tive schedule for loans six months delinquent or less is shown in Table 2.13. For                Affordable Program – Handbook Mapping for MHA Extension
                                                                                                 and Expansion and Administrative Clarifications on Tier 2,”
loans that have been more than six months delinquent within the previous 12                      4/17/2012, www.hmpadmin.com//portal/programs/docs/
                                                                                                 hamp_servicer/sd1203.pdf, accessed 4/3/2013.
months, investors are paid $0.12 for each dollar of principal reduced.282

Agency-Insured Loan Programs (FHA-HAMP, RD-HAMP, and
VA-HAMP)
Some mortgage loans insured or guaranteed by the Federal Housing Administration
(“FHA”), Department of Veterans Affairs (“VA”), or the U.S. Department of
Agriculture Rural Development (“RD”) are eligible for modification under programs
similar to HAMP Tier 1 that reduce borrowers’ monthly mortgage payments to 31%
of their monthly gross income. Borrowers are eligible to receive a maximum $1,000
annual incentive for five years and servicers are eligible to receive a maximum
$1,000 annual incentive from Treasury for three years on mortgages in which the
monthly payment was reduced by at least 6%.283 As of March 31, 2013, according
to Treasury, approximately $20.3 million in TARP funds had been paid to servicers
and borrowers in connection with FHA-HAMP modifications.284 According to
80            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Treasury, only $33,507 of TARP funds has been spent on the modifications under
                                                     RD-HAMP.285 As of February 28, 2013, the latest data provided by Treasury, there
                                                     were 9,263 active permanent Treasury/FHA-HAMP modifications and 24 active
                                                     permanent modifications under RD-HAMP.286 Treasury does not provide incentive
                                                     compensation related to VA-HAMP.287

                                                     Treasury/FHA Second-Lien Program (“FHA2LP”)
                                                     FHA2LP, which was launched on September 27, 2010, provides incentives for
                                                     partial or full extinguishment of non-GSE second liens of at least $2,500 originated
                                                     on or before January 1, 2009, associated with an FHA refinance.288 Borrowers
                                                     must also meet the eligibility requirements of FHA Short Refinance. According
                                                     to Treasury, as of March 31, 2013, it had not made any incentive payments under
                                                     FHA2LP, and no second liens had been partially written down or extinguished.289
                                                     TARP has allocated $2.7 billion for incentive payments to (1) investors ranging
                                                     from $0.10 to $0.21 based on the LTV of pre-existing second-lien balances that are
     For more information concerning                 partially or fully extinguished under FHA2LP, or they may negotiate with the first-
     FHA2LP eligibility, see SIGTARP’s April         lien holder for a portion of the new loan, and (2) servicers, in the amount of $500
     2011 Quarterly Report, pages 85-87.             for each second-lien mortgage in the program.290

                                                     Housing Finance Agency Hardest Hit Fund (“HHF”)
                                                     On February 19, 2010, the Administration announced a housing support program
                                                     known as the Hardest Hit Fund. Under HHF, TARP dollars would fund “innovative
                                                     measures” developed by 19 state housing finance agencies (“HFAs”) and approved
                                                     by Treasury to help families in the states that have been hit the hardest by the
                                                     housing crisis.291 The first round of HHF allocated $1.5 billion of the amount
                                                     initially allocated for MHA initiatives. According to Treasury, these funds were
                                                     designated for five states where the average home price had decreased more than
                                                     20% from its peak. The five states were Arizona, California, Florida, Michigan,
                                                     and Nevada.292 Plans to use these funds were approved by Treasury on June 23,
                                                     2010.293
                                                          On March 29, 2010, Treasury expanded HHF to include five additional states
                                                     and increased the program’s potential funding by $600 million, bringing total
                                                     funding to $2.1 billion. The additional $600 million was designated for North
                                                     Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that
                                                     these states were selected because of their high concentrations of people living in
                                                     economically distressed areas, defined as counties in which the unemployment rate
                                                     exceeded 12%, on average, in 2009.294 Plans to use these funds were approved by
                                                     Treasury on August 3, 2010.295
                                                          On August 11, 2010, Treasury pledged a third round of HHF funding of $2
                                                     billion to states with unemployment rates at or above the national average.296
                                                     The states designated to receive funding were Alabama, California, Florida,
                                                     Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
                                                     North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and
                                                     Washington, DC.297 Treasury approved third round proposals on September 23,
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   81




2010.298 On September 29, 2010, a fourth round of HHF funding of an additional
$3.5 billion was made available to existing HHF participants.299
    Treasury approved state programs and allocated the $7.6 billion in TARP funds
in five categories of assistance:300

•	   $4.4 billion for unemployment assistance
•	   $1.4 billion for principal reduction
•	   $817 million for reinstatement of past-due amounts
•	   $83 million for second-lien reduction
•	   $45 million for transition assistance, including short sales and deed-in-lieu of
     foreclosure

    Each state’s HFA reports program results (i.e., number of applications approved
or denied and assistance provided) on a quarterly basis on its own state website.
Treasury indicated that states can reallocate funds between programs and modify
existing programs as needed, with Treasury approval, until funds are expended
or returned to Treasury after December 31, 2017. According to Treasury, since
December 31, 2012, five states have reallocated funds, modified or eliminated
existing programs, or established new HHF programs with Treasury approval,
bringing the total number of HHF programs in 18 states and Washington, DC, as
of March 31, 2013, to 62.301
    Table 2.14 shows the obligation of funds and funds drawn for states participat-
ing in the four rounds of HHF as of March 31, 2013. As of that date, according to
Treasury, the states had drawn down $2.1 billion under the program.302 According
to Treasury, the states had spent only a limited portion of the amount drawn on
assisting borrowers; see Table 2.15. According to the most recent data available,
as of December 31, 2012, more than half of the amount drawn is held as unspent
cash-on-hand with HFAs or is used for administrative expenses.303
82            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     TABLE 2.14
                                                      HHF FUNDING OBLIGATED AND DRAWDOWNS BY STATE, AS OF 3/31/2013
                                                      Recipient                                                                  Amount Obligated               Amount Drawn*
                                                      Alabama                                                                          $162,521,345                  $28,000,000
                                                      Arizona                                                                            267,766,006                   47,755,000
                                                      California                                                                      1,975,334,096                  467,490,000
                                                      Florida                                                                         1,057,839,136                  166,250,000
                                                      Georgia                                                                            339,255,819                   77,508,000
                                                      Illinois                                                                           445,603,557                 160,000,000
                                                      Indiana                                                                            221,694,139                   66,338,828
                                                      Kentucky                                                                           148,901,875                   64,000,000
                                                      Michigan                                                                           498,605,738                   93,953,058
                                                      Mississippi                                                                        101,888,323                   28,338,832
                                                      Nevada                                                                             194,026,240                   74,042,000
                                                      New Jersey                                                                         300,548,144                   77,513,704
                                                      North Carolina                                                                     482,781,786                 222,400,000
                                                      Ohio                                                                               570,395,099                 169,100,000
                                                      Oregon                                                                             220,042,786                 128,000,000
                                                      Rhode Island                                                                         79,351,573                  54,500,000
                                                      South Carolina                                                                     295,431,547                   80,000,000
                                                      Tennessee                                                                          217,315,593                   59,315,593
                                                      Washington, DC                                                                       20,697,198                  14,134,860
                                                      Total                                                                        $7,600,000,000              $2,078,639,875
                                                      Notes: Numbers may not total due to rounding.

                                                      *Amount drawn includes funds for program expenses (direct assistance to borrowers), administrative expenses, and cash-on-hand.

                                                      Sources: Treasury, Transactions Report-Housing Programs, 3/27/2013; Treasury, response to SIGTARP data call, 4/4/2013.



                                                          As of December 31, 2012, the latest data available, HHF had provided $1.02
                                                     billion in assistance to 94,056 homeowners.304 This is an increase of $274.3 million
                                                     in assistance to an additional 16,892 homeowners as reported by Treasury since
                                                     September 30, 2012. Each state estimates the number of borrowers to be helped
     For more information on HHF, see                in its programs. Treasury allows the HFAs to change this estimate. The aggregate
     SIGTARP’s April 12, 2012, audit report,         of these estimated ranges has decreased in the last year. This is true even from last
     “Factors Affecting Implementation of the        quarter. In SIGTARP’s January 2013 Quarterly Report, SIGTARP reported that
     Hardest Hit Fund Program.”                      as of September 30, 2012, the 19 HFAs collectively estimated helping between
                                                     404,519 and 417,249 homeowners over the life of the program. By December 31,
                                                     2012, the collective estimate had decreased by approximately 35,000 homeowners,
                                                     or 9%, to between 372,319 and 378,899 the estimated number of homeowners to
                                                     be helped over the life of the program.305 Table 2.15 provides this estimate as well
                                                     as the actual number of borrowers helped by states using data as of December 31,
                                                     2012.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   83




TABLE 2.15
 HHF ESTIMATED AND ACTUAL NUMBER OF BORROWERS ASSISTED AND
 ASSISTANCE PROVIDED, BY STATE, AS OF 12/31/2012
                                 Estimated Number
                                    of Participating
                                      Households to                 Actual Borrowers
                                     be Assisted by             Receiving Assistance                Assistance Provided
 Recipient                           12/31/2017*                as of 12/31/2012**                 as of 12/31/2012**
 Alabama                                           8,500                               2,289                    $16,718,567
 Arizona                                           6,770                               1,219                      10,027,827
 California                                       77,670                             20,375                     244,609,632
 Florida                                          90,000                               7,314                      78,966,074
 Georgia                                          18,300                               2,267                      21,621,310
 Illinois                          13,500 to 14,500                                    5,913                      73,338,774
 Indiana                                          10,632                               1,303                      11,702,897
 Kentucky                                          5,960                               2,955                      28,619,041
 Michigan                                         15,063                               9,154                      48,441,009
 Mississippi                                       3,800                                 945                        9,558,607
 Nevada                                            7,866                               2,757                      28,436,842
 New Jersey                                        6,900                               1,922                      26,747,681
 North Carolina                                   22,290                               9,880                    117,563,904
 Ohio                                             39,087                               8,845                    105,017,335
 Oregon                                           13,630                               6,974                      80,146,560
 Rhode Island                                      3,331                               2,388                      29,942,817
 South Carolina                    17,200 to 22,400                                    4,456                      48,097,933
 Tennessee                                        11,300                               2,656                      29,806,181
 Washington, DC                             520 to 900                                   444                        7,475,446
 Total                        372,319 to 378,899                                    94,056                $1,016,838,437
 *Source: Estimates are from the latest HFA Participation Agreements as of 12/31/2012. Later amendments are not included for
 consistency with Quarterly Performance reporting.

 States report the Estimated Number of Participating Households individually for each HHF program they operate. This column shows
 the totals of the individual program estimates for each state. Therefore, according to Treasury, these totals do not necessarily
 translate into the number of unique households that the states expect to assist because some households may participate in more
 than one HHF program.

 **Sources: Fourth quarter 2012 HFA Performance Data quarterly reports and Fourth Quarter 2012 HFA Aggregate Quarterly Report.
 Both sources are as of 12/31/2012.



    As of December 31, 2012, 91.6% of the HHF assistance received by homeown-
ers was for unemployment assistance, which includes reinstatement of past due
amounts. The remaining assistance can be broken down to 7.8% for modification,
including principal reduction, 0.5% for second-lien reduction, and 0.1% for transi-
tion assistance.306
84            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     FHA Short Refinance Program
                                                     On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
                                                     program, which gives borrowers the option of refinancing an underwater, non-
                                                     FHA-insured mortgage into an FHA-insured mortgage at 97.75% of the home’s
                                                     value. Treasury had allocated TARP funds of (1) up to $8 billion to provide loss
                                                     protection to FHA through a letter of credit; and (2) up to $117 million in fees
                                                     for the letter of credit.307 Because of what it characterized as low participation
                                                     rates, Treasury effective March 4, 2013, reduced TARP funds allocated for the
                                                     FHA Short Refinance program to (1) $1 billion to provide loss protection to FHA
                                                     through a letter of credit, down from $8 billion; and (2) up to $25 million in fees
                                                     for the letter of credit, down from $117 million.308 Treasury also extended the
                                                     program’s expiration from December 31, 2012 to December 31, 2014.309 FHA
                                                     Short Refinance is voluntary for servicers. Therefore, not all underwater borrowers
                                                     who qualify may be able to participate in the program.310 As of March 31, 2013,
                                                     according to Treasury, 2,690 loans had been refinanced under the program.311 As of
                                                     March 31, 2013, Treasury has not paid any claims for defaults under the program.
                                                     According to Treasury, no FHA Short Refinance Loans have defaulted; however,
                                                     it is possible that one or more loans have defaulted but FHA has not yet evaluated
                                                     the claims.312 Treasury has deposited $50 million into a reserve account for future
                                                     claims.313 It has also spent approximately $8.3 million on administrative expenses
                                                     associated with the letter of credit.314

                                                     Who Is Eligible
                                                     To be eligible for FHA Short Refinance, a homeowner must be current on the
     For more information concerning                 existing first-lien mortgage or have made three successful trial period payments; be
     FHA Short Refinance eligibility, see            in a negative equity position; occupy the home as a primary residence; qualify for
     SIGTARP’s April 2011 Quarterly                  the new loan under standard FHA underwriting and credit score requirements; and
     Report, pages 85-87.                            have an existing loan that is not insured by FHA.315 According to the Department
                                                     of Housing and Urban Development (“HUD”), it evaluates the credit risk of the
                                                     loans.316

                                                     How FHA Short Refinance Works
                                                     Servicers must first determine the current value of the home using a third-party
                                                     appraisal by a HUD-approved appraiser. The borrower is then reviewed for credit
                                                     risk and, if necessary, referred for a review to confirm that the borrower’s total
                                                     monthly mortgage payments on all liens after the refinance is not greater than
                                                     31% of the borrower’s monthly gross income and the borrower’s total household
                                                     debt is not greater than 50%.317 Next, the lien holders must forgive principal that is
                                                     more than 115% of the value of the home. In addition, the original first-lien lender
                                                     must forgive at least 10% of the unpaid principal balance of the first-lien loan,
                                                     in exchange for a cash payment for 97.75% of the current home value from the
                                                     proceeds of the refinance. The lender may maintain a subordinate second lien for
                                                     up to 17.25% of that value (for a total balance of 115% of the home’s value).318
                                                         If a borrower defaults, the letter of credit purchased by Treasury compen-
                                                     sates the investor for a first percentage of losses, up to specified amounts.319 For
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   85




mortgages originated between October 1, 2012, and March 31, 2013, the letter of
credit would cover approximately 9.8% of the unpaid principal balance at default.320
FHA is responsible for the remaining losses on each mortgage. Funds may be paid
from the FHA Short Refinance letter of credit until the earlier of either (1) the time
that the $1 billion letter of credit is exhausted, or (2) 10 years from the issuance of
the letter of credit (October 2020), at which point FHA will bear all of the remain-
ing losses.321
86            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     FINANCIAL INSTITUTION SUPPORT PROGRAMS
                                                     Treasury created six TARP programs through which it made capital investments
                                                     or asset guarantees in exchange for equity in participating financial institutions.
                                                     Three of the programs, the Capital Purchase Program (“CPP”), the Community
                                                     Development Capital Initiative (“CDCI”), and the Capital Assistance Program
                                                     (“CAP”), were open to all qualifying financial institutions. The other three, the
     Mandatorily Convertible Preferred               Systemically Significant Failing Institutions (“SSFI”) program, the Targeted
     Stock (“MCP”): A type of preferred              Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”), were
     share (ownership in a company that              available on a case-by-case basis to institutions that needed assistance beyond that
     generally entitles the owner of the             available through CPP. With the expiration of TARP funding authorization, no new
     shares to collect dividend payments)            investments can be made through these six programs.
     that can be converted to common                     To help improve the capital structure of some struggling TARP recipients,
     stock under certain parameters at the           Treasury has agreed to modify its investment in certain cases by converting the
     discretion of the company - and must            preferred stock it originally received into other forms of equity, such as common
     be converted to common stock by a               stock or mandatorily convertible preferred stock (“MCP”).322
     certain time.
                                                     Capital Purchase Program
     Subordinated Debentures: Form of                Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a
     debt security that ranks below other            way to promote financial stability, maintain confidence in the financial system, and
     loans or securities with regard to              enable lenders to meet the nation’s credit needs.323 CPP was a voluntary program
     claims on assets or earnings.                   open by application to qualifying financial institutions, including U.S.-controlled
                                                     banks, savings associations, and certain bank and savings and loan holding
                                                     companies.324
                                                         Under CPP, Treasury used TARP funds predominantly to purchase preferred
                                                     equity interests in the financial institutions. The institutions issued Treasury senior
                                                     preferred shares that pay a 5% annual dividend for the first five years and a 9%
                                                     annual dividend thereafter. In addition to the senior preferred shares, publicly
                                                     traded institutions issued Treasury warrants to purchase common stock with an
     For discussion of SIGTARP’s                     aggregate market price equal to 15% of the senior preferred share investment.325
     recommendations on TARP exit paths              Privately held institutions issued Treasury warrants to purchase additional senior
     for community banks, see SIGTARP’s
                                                     preferred stock worth 5% of Treasury’s initial preferred stock investment.326 In total,
     October 2011 Quarterly Report, pages
                                                     Treasury invested $204.9 billion of TARP funds in 707 institutions through CPP.327
     167-169.
                                                     According to Treasury, through CPP, in total Treasury purchased $204.9 billion in
     For discussion of SIGTARP’s                     preferred stock and subordinated debentures from 707 institutions in 48 states, the
     recommendations issued on October 9,            District of Columbia, and Puerto Rico.
     2012, regarding CPP preferred stock
     auctions, see SIGTARP’s October 2012            Status of Funds
     Quarterly Report, pages 180-183.                As of March 31, 2013, 237 of those 707 institutions remained in TARP; in 64
                                                     of them, Treasury holds only warrants to purchase stock. Treasury does not
                                                     consider these 64 institutions to be in TARP. As of March 31, 2013, 173 of these
                                                     institutions remained in the CPP program and taxpayers were still owed $9.6
                                                     billion related to CPP.328 According to Treasury, it had write-offs and realized losses
                                                     of $3.4 billion in the program, leaving $6.2 billion in TARP funds outstanding.
                                                     Additionally, 21 CPP banks, or their subsidiary banks, with total CPP investments
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013                87




of $747.4 million, are currently in the process of bankruptcy, and while Treasury
has not yet realized the losses, it expects that all of its investments in the banks will
be lost.329 According to Treasury, $195.4 billion of the CPP principal (or 95.3%)
had been repaid as of March 31, 2013. The repayment tally includes $363.3
million in preferred stock that was converted from CPP investments into CDCI
and therefore still represents outstanding obligations to TARP, and $2.2 billion that
was refinanced in 2011 into SBLF, a non-TARP Government program.330 As of
                                                                                                                                                FIGURE 2.4
March 31, 2013, Treasury had received approximately $11.9 billion in interest and
dividends from CPP recipients. Treasury also had received $7.8 billion through the                                                              STATUS OF CPP RECIPIENTS,
sale of CPP warrants that were obtained from TARP recipients.331 For a complete                                                                 AS OF 3/31/2013
list of CPP share repurchases, see Appendix D: “Transaction Detail.”                                                                                    23, 3%         3, 0%
     Of the 707 banks that received CPP investments, 534 banks have exited CPP.                                                                    28, 4%

Nearly a quarter of the 707 banks, or 165, exited by refinancing into other govern-
ment programs — 28 of them into TARP’s CDCI and 137 into the Small Business                                                                      140      20%           29%          203

Lending Fund (“SBLF”), a non-TARP program.332 Only 203 of the 707 banks, or
29%, fully repaid CPP otherwise.333 Of the other banks that have exited CPP, three                                                                          19%        24%
                                                                                                                                                   137
CPP banks merged with other CPP banks; Treasury sold its investments in 140                                                                                                        173
institutions at a loss; and 23 institutions or their subsidiary banks failed, meaning
Treasury has lost or expects to lose its entire investment in those banks.334 Figure                                                                Fully repaid principal (203)
2.4 shows the status of the 707 CPP recipients as of March 31, 2013.                                                                                Remain in CPP (173)
     Although the 10 largest investments accounted for $142.6 billion of the pro-                                                                   Refinanced into SBLF (137)
                                                                                                                                                    Sold at a loss (140)
gram, CPP made many smaller investments: 311 of the 707 recipients received less
                                                                                                                                                    Switched to CDCI (28)
than $10 million.335 None of the banks that received investments greater than $1                                                                    Failed/subsidiary failed (23)
billion remain in CPP. All but eight of the remaining recipients have outstanding                                                                   Merged (3)
investments of less than $100 million, with more than half of the remaining banks,
or 56.1%, having outstanding investments of less than $10 million.336 Table 2.16                                                                Note: 64 banks exited CPP but remain in TARP
                                                                                                                                                with Treasury holding only warrants.
shows the distribution of investments by amount.

TABLE 2.16
 CPP INVESTMENT SIZE BY INSTITUTION, AS OF 3/31/2013
                                                                                             Originala                Outstandingb
 $10 billion or more                                                                                    6                              0
 $1 billion to $10 billion                                                                            19                               0
 $100 million to $1 billion                                                                           57                               8
 $10 million to $100 million                                                                        314                              68
 Less than $10 million                                                                              311                              97
 Total                                                                                              707                            173
 Notes: Data based on the institutions’ total CPP investments. There are more than 30 institutions that have received multiple
 transactions through CPP.
 a
   These numbers are based on total Treasury CPP investment since 10/28/2008.
 b
   Amount does not include those investments that have already been repaid, sold to a third party at a discount, merged out of the
    CPP portfolio, exchanged their CPP investments for an investment under CDCI, or are related to institutions that filed for bankruptcy
    protection or had a subsidiary bank fail. Figures are based on total investments outstanding. Included in those figures are the six
    banks that were converted to common shares at a discount. The outstanding amount represented is the original par value of the
    investment. Treasury does not include in the number of banks with outstanding CPP investments those institutions that have repaid
    their CPP principal but still have warrants outstanding.

 Source: Treasury, response to SIGTARP data call, 4/4/2013.
88   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                As of March 31, 2013, of the 173 banks remaining in CPP, 44 were in the
                                            Midwest region, 43 were in the Southeast region, 28 were in the Mid-Atlantic/
                                            Northeast region, 22 were in the Southwest/South Central region, 19 were in
                                            the West region, and 17 were in the Mountain West/Plains region. In addition
                                            to having the largest number of remaining banks, the Southeast region and the
                                            Midwest region also had the largest total remaining CPP investments; $2.8 billion
                                            and $1.2 billion, respectively. These regions were followed in remaining CPP
                                            investments by the MidAtlantic/Northeast region ($672.9 million), the West region
                                            ($302.2 million), the Southwest/South Central region ($225.5 million), and the
                                            Mountain West/Plains region ($163 million). Table 2.17 and Figure 2.5 show the
                                            geographical distribution of the banks that remain in CPP as of March 31, 2013,
                                            by region. Tables 2.18–2.23 show the distribution by state.

                                            TABLE 2.17
                                             BANKS REMAINING IN CPP, BY REGION, AS OF 3/31/2013
                                                                                                                                                  Number
                                                                                          Banks                                                  of Banks
                                                                                      Remaining                    Investment                 with Missed           Value of Missed
                                                                                         in CPP                     Remaining                  Payments                   Payments
                                             West                                                19          $302,162,000                                    15           $22,575,956
                                             Mountain West/Plains                                17           163,005,000                                    10            12,888,780
                                             Southwest/South Central                             22           225,497,500                                    14            22,306,502
                                             Midwest                                             44          1,242,299,788                                   28           190,388,981
                                             Mid-Atlantic/Northeast                              28           672,903,000                                    18            32,007,677
                                             Southeast                                           43          2,811,191,320                                   28            40,235,118
                                             Total                                              173        $5,417,058,608                                   113      $320,403,009
                                             Note: Numbers may be affected by rounding.


                                            FIGURE 2.5 AMOUNT OF CPP INVESTMENT REMAINING, BY REGION, AS OF 3/31/2013

                                                AK
                                                                                 MOUNTAIN WEST/
                                                                                     PLAINS
                                                                                  $163 MILLION                                 MIDWEST                            MID-ATLANTIC/
                                                                      WA                                                      $1.2 BILLION                         NORTHEAST
                                                                                                                                                       VT    ME
                                                                                      MT         ND                                                               $673 MILLION
                                                                 OR                                          MN                                                  NH
                                                                                                                        WI                           NY
                                               WEST                         ID                   SD                                                               MA
                                                                                                                                MI
                                            $302 MILLION
                                                                                       WY
                                                                                                              IA                                                CT RI
                                                                                                                                     OH         PA             NJ
                                                                                                 NE
                                                                       NV                                                IL    IN                            DE
                                                                CA               UT                                                           WV VA
                                                                                           CO                 MO                                            MD
                                                                                                      KS                            KY
                                                                                                                                               NC
                                                                                                                                TN
                                                      HI                     AZ                        OK         AR                           SC
                                                                                           NM
                                                                                                                             MS AL       GA           SOUTHEAST
                                                                                                  TX               LA                                 $2.8 BILLION

                                                                                                                                               FL                    PR
                                                                             SOUTHWEST/
                                                                            SOUTH CENTRAL
                                                                             $225 MILLION

                                                           WEST                                                         MIDWEST
                                                           MOUNTAIN WEST/PLAINS                                         MID-ATLANTIC/NORTHEAST
                                                           SOUTHWEST/SOUTH CENTRAL                                      SOUTHEAST
                                                                                                     QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   89




West
TABLE 2.18
 BANKS REMAINING IN CPP, BY STATE, AS OF 3/31/2013
                                                                        Banks                              Number of Banks
                                                                    Remaining                 Investment       with Missed   Value of Missed
                                       WA                              in CPP                  Remaining        Payments           Payments
                                                       AK                        0                   $0                  0                 $0
         AK
                                  OR                   CA                      17           257,546,000                 14        15,330,956
                                                       HI                        0                    0                  0                  0
                                                       OR                        2           44,616,000                  1         7,245,000
                                                       WA                        0                    0                  0                  0
                                  CA                   Total                   19        $302,162,000                   15      $22,575,956
                                                       Note: Numbers may be affected by rounding.

                   HI

       WEST                       >$100 million
       Investment remaining       $21-$100 million
       in CPP banks               $1-$20 million
                                  $0




Mountain West/Plains
TABLE 2.19
 BANKS REMAINING IN CPP, BY STATE, AS OF 3/31/2013
                                                                       Banks                               Number of Banks
                                                                   Remaining                 Investment        with Missed   Value of Missed
                                                                      in CPP                  Remaining         Payments           Payments
                        MT             ND
                                                       CO                       5          $40,971,000                   3       $2,113,170

             ID                        SD              ID                       3            41,900,000                  2         2,936,188
                         WY                            KS                       4            39,792,000                  2         4,807,800
                                       NE              MT                       0                     0                  0                  0
     NV
                  UT                                   ND                       2            30,843,000                  1         2,029,487
                             CO
                                            KS
                                                       NE                       1             3,727,000                  1           710,815
                                                       NV                       1             2,672,000                  1           291,320
 MOUNTAIN WEST/                     >$100 million
                                                       SD                       0                     0                  0                  0
                                    $21-$100 million
 PLAINS                             $1-$20 million
 Investment remaining in                               UT                       0                     0                  0                  0
                                    $0
 CPP banks
                                                       WY                       1             3,100,000                  0                  0
                                                       Total                  17        $163,005,000                    10     $12,888,780
                                                       Note: Numbers may be affected by rounding.
90   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




        Southwest/South Central
        TABLE 2.20
         BANKS REMAINING IN CPP, BY STATE, AS OF 3/31/2013
                                                                                      Banks                              Number of Banks
                                                                                  Remaining                Investment        with Missed   Value of Missed
                                                                                     in CPP                 Remaining         Payments           Payments
              AZ                                 OK
                          NM                              AR         AR                       6          $92,742,000                  5        $8,694,660
                                                                     AZ                       3              8,047,000                2           673,770
                                                          LA
                                            TX                       LA                       3              9,282,000                1           163,500
                                                                     NM                       1              1,579,000                0                 0
                                                                     OK                       1            30,000,000                 1         4,087,500
                                                                     TX                       8            83,847,500                 5         8,687,072
           SOUTHWEST/                             >$100 million
                                                                     Total                   22       $225,497,500                   14      $22,306,502
                                                  $21-$100 million
           SOUTH CENTRAL                          $1-$20 million     Note: Numbers may be affected by rounding.
           Investment remaining in                $0
           CPP banks




        Midwest
        TABLE 2.21
         BANKS REMAINING IN CPP, BY STATE, AS OF 3/31/2013
                                                                                      Banks                              Number of Banks
                                                                                  Remaining                 Investment       with Missed   Value of Missed
                                                                                     in CPP                  Remaining        Payments           Payments
                   MN                                                IA                        2           $7,149,000                  1       $1,464,702
                             WI
                                        MI                           IL                        8          170,143,000                  5       20,482,835
                     IA                                              IN                        3           17,869,000                  2        1,249,522
                                  IL   IN    OH
                                                                     KY                        6           71,935,788                  4        6,877,855
                        MO                                           MI                        3          381,211,000                  3       60,385,909
                                            KY
                                                                     MN                        7           48,232,000                  5        4,075,491
             MIDWEST                         >$100 million           MO                      10           413,760,000                  4       71,416,758
             Investment remaining            $21-$100 million
             in CPP banks                    $1-$20 million          OH                        0                     0                 0                 0
                                             $0
                                                                     WI                        5          132,000,000                  4       24,435,909
                                                                     Total                   44     $1,242,299,788                   28     $190,388,981
                                                                     Note: Numbers may be affected by rounding.
                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   91




Mid-Atlantic/Northeast
TABLE 2.22
 BANKS REMAINING IN CPP, BY STATE, AS OF 3/31/2013
                                                                            Banks                               Number of Banks
                                                                        Remaining                 Investment        with Missed   Value of Missed
                            VT   ME                                        in CPP                  Remaining         Payments           Payments
                                                            CT                       0                    $0                  0                $0
                                      NH
                       NY              MA                   DE                       0                     0                  0                  0
                                            RI
                                    CT                      MA                       2            17,063,000                  1         2,412,600
                  PA               NJ
                                  DE                        MD                       8            94,637,000                  8       10,868,110
        WV VA
        WV                       MD                         ME                       1            10,000,000                  0                  0
                                                            NH                       0                     0                  0                  0
                                                            NJ                       3            36,064,000                  2         1,691,293
   MID-ATLANTIC/                         >$100 million
                                                            NY                       3          299,774,000                   2         5,186,563
                                         $21-$100 million
   NORTHEAST                             $1-$20 million
   Investment remaining in                                  PA                       2            42,942,000                  1         5,701,313
                                         $0
   CPP banks
                                                            RI                       1             1,065,000                  0                  0
                                                            VA                       8          171,358,000                   4         6,147,798
                                                            VT                       0                     0                  0                  0
                                                            WV                       0                     0                  0                  0
                                                            Total                  28        $672,903,000                    18     $32,007,677
                                                            Note: Numbers may be affected by rounding.




Southeast
TABLE 2.23
 BANKS REMAINING IN CPP, BY STATE, AS OF 3/31/2013
                                                                             Banks                              Number of Banks
                                                                         Remaining                 Investment       with Missed   Value of Missed
                                 NC                                         in CPP                  Remaining        Payments           Payments
             TN
                             SC                             AL                        4          $10,436,000                  3          $559,225
      MS     AL        GA                                   FL                        7          101,292,000                  7        15,379,238
                                                            GA                        9       1,028,195,000                   6         5,895,580

                                 FL              PR         MS                        3           10,124,320                  0                  0
                                                            NC                        9          195,998,000                  4         4,592,535
                                                            PR                        2       1,359,174,000                   0                  0
     SOUTHEAST                        >$100 million
     Investment remaining             $21-$100 million      SC                        5           48,602,000                  5         5,973,865
     in CPP banks                     $1-20 million
                                      $0                    TN                        4           57,370,000                  3         7,834,675
                                                            Total                   43     $2,811,191,320                    28      $40,235,118
                                                            Note: Numbers may be affected by rounding.
92                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.24                                                         Program Administration
      MISSED DIVIDEND/INTEREST                                          Although Treasury’s investment authority for CPP has ended, Treasury still has
      PAYMENTS BY INSTITUTIONS,                                         significant responsibilities for managing the existing CPP portfolio, including the
      9/30/2009 TO 3/31/2013                                            following:
      ($ MILLIONS)

                                                    Value of
      Quarter               Number of                Unpaid             •	 collecting dividends and interest payments on outstanding investments
      End                   Institutions          Amountsa,b,c          •	 monitoring the performance of outstanding investments
      9/30/2009                           38                $75.7       •	 disposing of warrants as investments are repaid
      12/31/2009                          43                137.4       •	 selling or restructuring Treasury’s investments in some troubled financial
      3/31/2010                           67                182.0          institutions
      6/30/2010       d
                                        109                 209.7       •	 selecting observers for recipients that have missed five quarterly dividend
      9/30/2010                         137                 211.3
                                                                           payments
                                                                        •	 potentially selecting directors for recipients that have missed six or more
      12/31/2010                        155                 276.4
                                                                           quarterly dividend payments
      3/31/2011                         173                 277.3
      6/30/2011                         188                 320.8
                                                                        Dividends and Interest
      9/30/2011                         193                 356.9       As of March 31, 2013, Treasury had received $11.9 billion in dividends on its CPP
      12/31/2011                        197                 377.0       investments.337 However, as of that date, missed payments by 192 institutions,
      3/31/2012                         200                 416.0       including banks with missed payments that exited CPP, totaled approximately $529
      6/30/2012                         203                 455.0       million, an increase from last quarter’s $506.2 million in missed payments from
      9/30/2012                         199                 480.1       195 institutions. Approximately $26.8 million of the unpaid amounts are non-
      12/31/2012                        195                 506.2       cumulative, meaning that the institution has no legal obligation to pay Treasury
      3/31/2013                         192                 529.0
                                                                        unless the institution declares a dividend.338
      Notes:
                                                                            More than half, or 113 of the 173 banks that remained in CPP as of March
      a
        Includes unpaid cumulative dividends, non-cumulative           31, 2013, were not current on their dividend and interest payments to Treasury.339
        dividends, and Subchapter S interest payments but
        does not include interest accrued on unpaid cumulative          The 113 banks were behind by as many as 17 payments and in total were overdue
        dividends.
      b
           Excludes institutions that missed payments but (i) had      in payments to Treasury of $320.4 million.340 As of March 31, 2013, 107 of the
            fully caught up on missed payments at the end of the
            quarter reported in column 1 or (ii) had repaid their       remaining banks were overdue by at least three payments, including 97 banks that
            investment amounts and exited CPP.
      c
         Includes institutions that missed payments and (i)
                                                                        were overdue by at least six payments.341 Of the remaining CPP banks with missed
         entered into a recapitalization or restructuring with
         Treasury, (ii) for which Treasury sold the CPP investment
                                                                        payments, 91 have unpaid dividends and interest payments that are cumulative,
         to a third party or otherwise disposed of the investment       and 22 have unpaid dividends payments that are non-cumulative.
         to facilitate the sale of the institution to a third party
         without receiving full repayment of unpaid dividends,              Table 2.24 shows the number of institutions and total unpaid amount of divi-
         (iii) filed for bankruptcy relief, or (iv) had a subsidiary
         bank fail.                                                     dend and interest payments by quarter from September 30, 2009, to March 31,
      d
          Includes four institutions and their missed payments
           not reported in Treasury’s Capital Purchase Program
                                                                        2013. Tables 2.18–2.23 show the distribution of missed payments and value of
           Missed Dividends and Interest Payments Report as of
           6/30/2010 but reported in Treasury’s Dividends and
                                                                        those payments by state.
           Interest Report as of the same date. The four institutions
           are CIT, Pacific Coast National Bancorp, UCBH Holdings,
           Inc., and Midwest Banc Holdings, Inc.                        Treasury’s Policy on Missed Dividend and Interest Payments
      Sources: Treasury, Dividends and Interest Report,                 According to Treasury, it “evaluates its CPP investments on an ongoing basis with
      4/10/2013; Treasury, responses to SIGTARP data calls,
      10/7/2009, 1/12/2010, 4/8/2010, 6/30/2010,
                                                                        the help of outside advisors, including external asset managers. The external asset
      10/11/2011,1/5/2012, 4/5/2012, 7/10/2012,
      10/10/2012, 1/10/2013, 4/4/2013; SIGTARP
                                                                        managers provide a valuation for each CPP investment” that results in Treasury
      Quarterly Report to Congress, 1/30/2010, 4/20/2010,               assigning the institution a credit score.342 For those that have unfavorable credit
      7/21/2010, and 10/26/2010.
                                                                        scores, including any institution that has missed more than three dividend (or
                                                                        interest) payments, Treasury has stated that the “asset manager dedicates more
                                                                        resources to monitoring the institution and may talk to the institution on a more
                                                                        frequent basis.”343
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   93




     Under the terms of the preferred shares or subordinated debentures held by
Treasury as a result of its CPP investments, in certain circumstances, such as when
a participant misses six dividend (or interest) payments, Treasury has the right to
appoint up to two additional members to the institution’s board of directors.344 As
of March 31, 2013, of the remaining 173 CPP banks, 97 had missed at least six
payments.345 Treasury has stated that it will prioritize the institutions for which it
appoints directors based on “the size of its investment, Treasury’s assessment of
the extent to which new directors may make a contribution and Treasury’s abil-
ity to find appropriate directors for a given institution.”346 These directors will not
represent Treasury, but rather will have the same fiduciary duties to shareholders as
all other directors. They will be compensated by the institution in a manner similar
to other directors.347 Treasury has engaged an executive search firm to identify suit-
able candidates for board of directors’ positions and has begun interviewing such
candidates.348
     According to Treasury, it continues to prioritize institutions for nominating
directors in part based on whether its investment exceeds $25 million.349 When
Treasury’s right to nominate a new board member becomes effective, it evaluates
the institution’s condition and health and the functioning of its board to determine
whether additional directors are necessary.350 As of March 31, 2013, Treasury had
made director appointments to the boards of directors of 15 CPP banks, as noted
in Table 2.26.351 Treasury made no director appointments in the quarter ending
March 31, 2013.352
     For institutions that miss five or more dividend (or interest) payments, Treasury
has stated that it would seek consent from such institutions to send observers
to the institutions’ board meetings.353 As of March 31, 2013, of the remaining
173 CPP banks, 102 had missed at least five payments.354 According to Treasury,
the observers would be selected from the Office of Financial Stability (“OFS”)
and assigned to “gain a better understanding of the institution’s condition
and challenges and to observe how the board is addressing the situation.”355
Their participation would be “limited to inquiring about distributed materials,
presentations, and actions proposed or taken during the meetings, as well as
addressing any questions concerning” their role.356 The findings of the observers
are taken into account when Treasury evaluates whether to appoint individuals to
an institution’s board of directors.357 As of March 31, 2013, Treasury had assigned
observers to 37 current CPP recipients, as noted in Table 2.26.358
     Twelve banks have rejected Treasury’s requests to send an observer to the
institutions’ board meetings.359 The banks had initial CPP investments of as much
as $27 million, have missed as many as 17 quarterly dividend payments to Treasury,
and have been overdue in dividend payments by as much as $4.1 million.360 Five
of these banks have subsequently repaid their missed dividends.361 Treasury is
currently owed $7.2 million in missed payments from the other seven banks that
have missed from five to 17 payments.362 Table 2.25 lists the banks that rejected
Treasury observers.
94                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.25
      CPP BANKS THAT REJECTED TREASURY OBSERVERS
                                                                        CPP Principal                 Number of                 Value of Missed            Date of Treasury                           Date
      Institution                                                         Investment            Missed Payments                       Payments                      Request                    of Rejection
      Intermountain Community Bancorp                                     $27,000,000                                —a                           $—                3/11/2011                    4/12/2011
      Community Bankers Trust Corporation                                   17,680,000                               —b                             —             10/18/2011                    11/23/2011
      White River Bancshares Company                                        16,800,000                                  9               2,060,100                   3/28/2012                    4/27/2012
      Timberland Bancorp, Inc.c                                             16,641,000                               —d                             —               6/27/2011                    8/18/2011
      Alliance Financial Services Inc.                                      12,000,000                               —   e
                                                                                                                                                    —               3/10/2011                      5/6/2011
      Central Virginia Bankshares, Inc.f                                    11,385,000                                13                1,850,063                     3/9/2011                   5/18/2012
      Commonwealth Business Bank                                              7,701,000                               10                1,049,250                   8/13/2010                    9/20/2010
      Pacific International Bancorp                                           6,500,000                              —   g
                                                                                                                                                    —               9/23/2010                   11/17/2010
      Rising Sun Bancorp                                                      5,983,000                               14                1,141,210                   12/3/2010                    2/28/2011
      Omega Capital Corp.                                                     2,816,000                               14                   537,215                  12/3/2010                    1/13/2011
      Citizens Bank & Trust Company                                           2,400,000                                 5                  163,500                  9/23/2010                   11/17/2010
      Saigon National Bank                                                    1,549,000                               17                   349,708                  8/13/2010                    9/20/2010
      Notes: Numbers may not total due to rounding.
      a
        Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Intermountain Community Bancorp had 12 missed payments totaling
        $4.1 million.
      b
          Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Community Bankers had seven missed payments totaling $1.5 million.
      c
         Bank has exited the Capital Purchase Program.
      d
          Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Timberland had eight missed payments totaling $1.7 million.
      e
         Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Alliance Financial Services Inc. had 12 missed payments totaling $3
         million.
      f
        Banks accepted and then declined Treasury’s request to have a Treasury observer attend board of directors meetings.
      g
          Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Pacific International Bancorp had 10 missed payments totaling $.8
          million.

      Source: Treasury, Dividends and Interest Report, 4/10/2013.




                                                                              SIGTARP and Treasury do not use the same methodology to report unpaid
                                                                          dividend and interest payments. For example, Treasury generally excludes
                                                                          institutions from its “non-current” reporting: (i) that have completed a
                                                                          recapitalization, restructuring, or exchange with Treasury (though Treasury does
                                                                          report such institutions as non-current during the pendency of negotiations); (ii)
                                                                          for which Treasury sold the CPP investment to a third party, or otherwise disposed
                                                                          of the investment to facilitate the sale of the institution to a third party; (iii) that
                                                                          filed for bankruptcy relief; or (iv) that had a subsidiary bank fail.363 SIGTARP
                                                                          generally includes such activity in Table 2.26 under “Value of Unpaid Amounts”
                                                                          with the value set as of the date of the bankruptcy, restructuring, or other event
                                                                          that relieves the institution of the legal obligation to continue to make dividend
                                                                          and interest payments. If a completed transaction resulted in payment to Treasury
                                                                          for all unpaid dividends and interest, SIGTARP does not include the institution’s
                                                                          obligations under unpaid amounts. As of March 31, 2013, for all CPP banks,
                                                                          including those that were missing payments when they exited, 82 banks had
                                                                          missed at least 10 dividend (or interest) payments and 145 banks had missed five
                                                                          dividend (or interest) payments totaling $438.6 million.364 Table 2.26 lists CPP
                                                                          recipients that had unpaid dividend (or interest) payments as of March 31, 2013.
                                                                          For a complete list of CPP recipients and institutions making dividend or interest
                                                                          payments, see Appendix D: “Transaction Detail.”
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013             95



TABLE 2.26
 CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2013
                                                                        Observers
                                                            Number       Assigned
                                          Dividend or      of Missed   to Board of         Value of Missed          Value of Unpaid
 Company                                  Payment type     Payments     Directors1              Payments2               Amounts2,3,4
 Saigon National Bank                     Non-Cumulative         17                               $349,708                $349,708
 Anchor BanCorp Wisconsin, Inc.           Cumulative             16        n                    22,229,167               22,229,167
 Blue Valley Ban Corp                     Cumulative             16        n                     4,350,000                4,350,000
 Lone Star Bank                           Non-Cumulative         16        ü                       674,027                     674,027
 OneUnited Bank                           Non-Cumulative         16        ü                     2,412,600                2,412,600
 United American Bank                     Non-Cumulative         16                              1,890,015                1,890,015
 Centrue Financial Corporation            Cumulative             15        n                     6,125,250                6,125,250
 First Banks, Inc.                        Cumulative             15        n                    60,372,375               60,372,375
 Grand Mountain Bancshares, Inc.          Cumulative             15        ü                       622,205                     622,205
 Idaho Bancorp                            Cumulative             15        ü                     1,410,188                1,410,188
 Pacific City Financial Corporation       Cumulative             15                              3,310,875                3,310,875
 Royal Bancshares of Pennsylvania, Inc.   Cumulative             15        n                     5,701,313                5,701,313
 Georgia Primary Bank                     Non-Cumulative         15        ü                       929,225                     929,225
 Premier Service Bank                     Non-Cumulative         15        ü                       814,472                     814,472
 Citizens Commerce Bancshares, Inc.       Cumulative             14                              1,201,725                1,201,725
 Northern States Financial Corporation    Cumulative             14        n                     3,011,925                3,011,925
 Omega Capital Corp.                      Cumulative             14                                537,215                     537,215
 Pathway Bancorp                          Cumulative             14                                710,815                     710,815
 Premierwest Bancorp                      Cumulative             14        n                     7,245,000                7,245,000
 Rising Sun Bancorp                       Cumulative             14                              1,141,210                1,141,210
 Rogers Bancshares, Inc.                  Cumulative             14        n                     4,768,750                4,768,750
 Syringa Bancorp                          Cumulative             14        ü                     1,526,000                1,526,000
 Cecil Bancorp, Inc.                      Cumulative             13        ü                     1,878,500                1,878,500
 Central Virginia Bankshares, Inc.        Cumulative             13                              1,850,063                1,850,063
 Citizens Republic Bancorp, Inc.          Cumulative             13        n                    48,750,000               48,750,000
 City National Bancshares Corporation     Cumulative             13                              1,533,838                1,533,838
 Fidelity Federal Bancorp                 Cumulative             13                              1,142,212                1,142,212
 First Security Group, Inc.               Cumulative             13        n                     5,362,500                5,362,500
 Intervest Bancshares Corporation         Cumulative             13        n                     4,062,500                4,062,500
 Monarch Community Bancorp, Inc.          Cumulative             13                              1,102,563                1,102,563
 Tennessee Valley Financial Holdings,
                                          Cumulative             13                                531,375                     531,375
 Inc.
 U.S. Century Bank                        Non-Cumulative         13        ü                     8,898,110                8,898,110
 Bridgeview Bancorp, Inc.                 Cumulative             12        n                     6,213,000                6,213,000
 Madison Financial Corporation            Cumulative             12                                551,130                     551,130
 Patapsco Bancorp, Inc.                   Cumulative             12                                981,000                     981,000
 Plumas Bancorp                           Cumulative             12        ü                     1,792,350                1,792,350
 Prairie Star Bancshares, Inc.            Cumulative             12                               $457,800                $457,800
 TCB Holding Company                      Cumulative             12        ü                     1,917,990                1,917,990
 Gold Canyon Bank                         Non-Cumulative         12                                254,010                     254,010
                                                                                                              Continued on next page
96            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2013                             (CONTINUED)

                                                                                       Observers
                                                                           Number       Assigned
                                             Dividend or                  of Missed   to Board of          Value of Missed         Value of Unpaid
     Company                                 Payment type                 Payments     Directors1               Payments2              Amounts2,3,4
     Goldwater Bank, N.A.**                  Non-Cumulative                     12                                $489,720                $419,760
     Midtown Bank & Trust Company       **
                                             Non-Cumulative                     12                                 924,918                 853,770
     1st FS Corporation                      Cumulative                         11        ü                       2,250,738              2,250,738
     BNB Financial Services Corporation      Cumulative                         11                                1,124,063              1,124,063
     Broadway Financial Corporation          Cumulative                         11        ü                       2,062,500              2,062,500
     Capital Commerce Bancorp, Inc.          Cumulative                         11                                 764,363                 764,363
     Harbor Bankshares Corporation**         Cumulative                         11                                1,105,000                935,000
     Market Bancorporation, Inc.             Cumulative                         11                                 308,743                 308,743
     Pinnacle Bank Holding Company           Cumulative                         11                                 657,690                 657,690
     Provident Community Bancshares, Inc.    Cumulative                         11                                1,274,075              1,274,075
     Western Community Bancshares, Inc.      Cumulative                         11                                1,092,713              1,092,713
     Premier Financial Corp*                 Interest                           11                                1,464,702              1,464,702
     CalWest Bancorp                         Cumulative                         10                                 634,425                 634,425
     CSRA Bank Corp.                         Cumulative                         10                                 327,000                 327,000
     First Financial Service Corporation     Cumulative                         10        ü                       2,500,000              2,500,000
     First United Corporation                Cumulative                         10        ü                       3,750,000              3,750,000
     Florida Bank Group, Inc.                Cumulative                         10        ü                       2,789,275              2,789,275
     Liberty Shares, Inc.                    Cumulative                         10        ü                       2,354,400              2,354,400
     Private Bancorporation, Inc.            Cumulative                         10                                1,083,550              1,083,550
     Regent Bancorp, Inc    **
                                             Cumulative                         10                                1,496,028              1,360,025
     Spirit BankCorp, Inc.                   Cumulative                         10        ü                       4,087,500              4,087,500
     Tidelands Bancshares, Inc               Cumulative                         10                                1,806,000              1,806,000
     Commonwealth Business Bank              Non-Cumulative                     10                                1,049,250              1,049,250
     Marine Bank & Trust Company             Non-Cumulative                     10                                 408,750                 408,750
     Pacific Commerce Bank**                 Non-Cumulative                     10                                 585,136                 529,819
     Great River Holding Company    *
                                             Interest                           10                                1,761,900              1,761,900
     Bank of the Carolinas Corporation       Cumulative                          9        ü                       1,482,638              1,482,638
     Eastern Virginia Bankshares, Inc.       Cumulative                          9        ü                       2,700,000              2,700,000
     Greer Bancshares Incorporated           Cumulative                          9                                1,225,463              1,225,463
     HCSB Financial Corporation              Cumulative                          9        ü                       1,450,688              1,450,688
     Highlands Independent Bancshares,
                                             Cumulative                          9                                 821,588                 821,588
     Inc.
     Patriot Bancshares, Inc.                Cumulative                          9        ü                       3,192,930              3,192,930
     Reliance Bancshares, Inc.               Cumulative                          9        ü                       4,905,000              4,905,000
     White River Bancshares Company          Cumulative                          9                                2,060,100              2,060,100
     Security State Bank Holding-Company*    Interest                            9        ü                       2,705,982              2,029,487
     AB&T Financial Corporation              Cumulative                          8                                 350,000                 350,000
     Atlantic Bancshares, Inc.               Cumulative                          8                                 217,640                 217,640
     BCB Holding Company, Inc.               Cumulative                          8                                 185,900                 185,900
     Carrollton Bancorp                      Cumulative                          8                                 920,100                 920,100
                                                                                                                              Continued on next page
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013             97




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2013                     (CONTINUED)

                                                                          Observers
                                                              Number       Assigned
                                            Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
Company                                     Payment type     Payments     Directors1               Payments2               Amounts2,3,4
Central Bancorp, Inc.                       Cumulative              8        ü                       $2,452,500             $2,452,500
Community First, Inc.                       Cumulative              8        ü                        1,940,800              1,940,800
Mid-Wisconsin Financial Services, Inc.      Cumulative              8        ü                        1,090,000              1,090,000
Village Bank and Trust Financial Corp.      Cumulative              8        ü                        1,473,800              1,473,800
Bank of George                              Non-Cumulative          8                                  291,320                   291,320
Valley Community Bank                       Non-Cumulative          8                                  599,500                   599,500
Community Pride Bank Corporation*           Interest                8                                  714,032                   714,032
Suburban Illinois Bancorp, Inc. *
                                            Interest                8        ü                        2,517,000              2,517,000
Allied First Bancorp, Inc.                  Cumulative              7                                  348,373                   348,373
Coloeast Bankshares, Inc.                   Cumulative              7        ü                         953,750                   953,750
NCAL Bancorp                                Cumulative              7        ü                         953,750                   953,750
RCB Financial Corporation                   Cumulative              7                                  820,960                   820,960
First Intercontinental Bank                 Non-Cumulative          7                                  610,225                   610,225
Brogan Bankshares, Inc.*                    Interest                7                                  352,380                   352,380
Indiana Bank Corp.                          Cumulative              6                                  107,310                   107,310
Porter Bancorp, Inc.                        Cumulative              6        ü                        2,625,000              2,625,000
Randolph Bank & Trust Company               Non-Cumulative          6                                  509,160                   509,160
Alarion Financial Services, Inc.            Cumulative              5                                  443,800                   443,800
SouthFirst Bancshares, Inc.                 Cumulative              5                                  188,025                   188,025
Worthington Financial Holdings, Inc.        Cumulative              5                                  185,300                   185,300
Citizens Bank & Trust Company               Non-Cumulative          5                                  163,500                   163,500
US Metro Bank  **
                                            Non-Cumulative          5                                  276,758                   194,900
Severn Bancorp, Inc.                        Cumulative              4                                 1,169,650              1,169,650
Maryland Financial Bank                     Non-Cumulative          4                                   92,650                    92,650
OneFinancial Corporation *                  Interest                4                                 1,403,998              1,403,998
Plato Holdings Inc. *                       Interest                4                                  207,266                   207,266
Farmers & Merchants Bancshares,
                                            Cumulative              3                                  599,500                   449,625
Inc.**
IA Bancorp, Inc.**                          Cumulative              2                                  286,043                   157,455
Ojai Community Bank                         Non-Cumulative          2                                   56,680                    56,680
Virginia Company Bank                       Non-Cumulative          2                                  123,935                   123,935
Riverside Bancshares, Inc.*                 Interest                2                                   46,145                    46,145
Calvert Financial Corporation               Cumulative              1                                   14,133                    14,133
Chambers Bancshares, Inc.*                  Interest                1                                  415,667                   415,667
Exchanges, Sales,
Recapitalizations, and Failed                                                                                                          
Banks with Missing Payments
Dickinson Financial Corporation II*****     Cumulative             14                                27,859,720             27,859,720
Ridgestone Financial Services, Inc. *****
                                            Cumulative             14                                 2,079,175              2,079,175
First Southwest Bancorporation,
                                            Cumulative             13                                  974,188                   974,188
Inc.*****
                                                                                                                  Continued on next page
98             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2013                              (CONTINUED)

                                                                                        Observers
                                                                            Number       Assigned
                                                        Dividend or        of Missed   to Board of          Value of Missed          Value of Unpaid
     Company                                            Payment type       Payments     Directors1               Payments2               Amounts2,3,4
     FC Holdings, Inc.*****                             Cumulative               14                                $4,013,730             $4,013,730
     First Sound Bank  *****
                                                        Non-Cumulative           13                                 1,202,500              1,202,500
     Alliance Financial Services, Inc.*,*****           Interest                 12                                 3,020,400              3,020,400
     Citizens Bancshares Co.     *****
                                                        Cumulative               12                                 4,086,000              4,086,000
     Independent Bank Corporation***,9                  Cumulative               12        ü                       12,333,346             10,533,346
     First Trust Corporation*****                       Interest                 12                                 4,522,611              4,522,611
     Northwest Bancorporation, Inc.*****                Cumulative               12                                 1,716,750              1,716,750
     Santa Clara Valley Bank, N.A.        *****
                                                        Non-Cumulative           12                                  474,150                 474,150
     Stonebridge Financial Corp.                        Cumulative               12        ü                        1,794,180              1,794,180
     Boscobel Bancorp,Inc*,*****                        Interest                 11                                 1,288,716              1,288,716
     Investors Financial Corporation of
                                                        Interest                 11                                  922,900                 922,900
     Pettis County, Inc.*,****
     Premier Bank Holding Company****                   Cumulative               11                                 1,423,813              1,423,813
     The Queensborough Company*****                     Cumulative               11                                 1,798,500              1,798,500
     Old Second Bancorp, Inc.     *****
                                                        Cumulative               10        n                        9,125,000              9,125,000
     Citizens Bancorp****                               Cumulative                9                                 1,275,300              1,275,300
     Gregg Bancshares, Inc.     ****
                                                        Cumulative                9                                  101,115                 101,115
     National Bancshares, Inc*****                      Cumulative                9                                 3,024,383              3,024,383
     SouthCrest Financial Group, Inc.*****              Cumulative                9                                 1,581,863              1,581,863
     Central Federal Corporation       *****
                                                        Cumulative                8                                  722,500                 722,500
     CoastalSouth Bancshares, Inc.*****                 Cumulative                8                                 1,687,900              1,687,900
     HMN Financial, Inc.*****                           Cumulative                8                                 2,600,000              2,600,000
     Metropolitan Bank Group, Inc.***                   Cumulative                8        ü                       11,316,143              8,392,538
     One Georgia Bank   ****
                                                        Non-Cumulative            8                                  605,328                 605,328
     Cascade Financial Corporation*****                 Cumulative                7                                 3,409,875              3,409,875
     Integra Bank Corporation****                       Cumulative                7                                 7,313,775              7,313,775
     Princeton National Bancorp, Inc.****               Cumulative                7                                 2,194,763              2,194,763
     Central Pacific Financial Corp.      ***,9
                                                        Cumulative                6                                11,812,500                      —
     Coastal Banking Company, Inc.          **, *****
                                                        Cumulative                6                                  995,000                 746,250
     First Reliance Bancshares, Inc.*****               Cumulative                6                                 1,254,720              1,254,720
     FNB United Corp.***                                Cumulative                6                                 3,862,500                      —
     FPB Bancorp, Inc. (FL)****                         Cumulative                6                                  435,000                 435,000
     Naples Bancorp, Inc.*****                          Cumulative                6                                  327,000                 327,000
     Fort Lee Federal Savings Bank****                  Non-Cumulative            6                                  106,275                 106,275
     First Place Financial Corp.   ****
                                                        Cumulative                6                                 5,469,525              5,469,525
     Delmar Bancorp*****                                Cumulative                5                                  613,125                 613,125
     First Federal Bancshares of Arkansas,
                                                        Cumulative                5                                 1,031,250              1,031,250
     Inc.*****
     Flagstar Bancorp, Inc.*****                        Cumulative                5                                16,666,063             16,666,063
     Midwest Banc Holdings, Inc.5                       Cumulative                5                                 4,239,200              4,239,200
                                                                                                                                Continued on next page
                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013             99




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2013                                    (CONTINUED)

                                                                                         Observers
                                                                             Number       Assigned
                                                           Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
Company                                                    Payment type     Payments     Directors1               Payments2               Amounts2,3,4
Pacific Capital Bancorp9                                   Cumulative              5                            $13,547,550                         $—
First BanCorp (PR)                                         Cumulative              5        ü                       42,681,526                       —
GulfSouth Private Bank****                                 Non-Cumulative          5                                  494,063                   494,063
Northwest Commercial Bank*****                             Non-Cumulative          5                                  135,750                   135,750
CB Holding Corp.****                                       Cumulative              4                                  224,240                   224,240
Colony Bankorp, Inc.     *****
                                                           Cumulative              4                                 1,400,000              1,400,000
First Community Bank Corporation of
                                                           Cumulative              4                                  534,250                   534,250
America*****
Green Bankshares, Inc.*****                                Cumulative              4                                 3,613,900              3,613,900
Hampton Roads Bankshares, Inc.                 ***,9
                                                           Cumulative              4                                 4,017,350              4,017,350
Pierce County Bancorp       ****
                                                           Cumulative              4                                  370,600                   370,600
Santa Lucia Bancorp*****                                   Cumulative              4                                  200,000                   200,000
Sterling Financial Corporation (WA)                ***,9
                                                           Cumulative              4                                18,937,500             18,937,500
TIB Financial Corp*****,7                                  Cumulative              4                                 1,850,000              1,850,000
Community Bank of the Bay            6
                                                           Non-Cumulative          4                                   72,549                    72,549
The Bank of Currituck*****                                 Non-Cumulative          4                                  219,140                   219,140
The Connecticut Bank and Trust
                                                           Non-Cumulative          4                                  246,673                   246,673
Company*****
Community Financial Shares, Inc.***                        Cumulative              4                                  759,820                   759,820
Blue River Bancshares, Inc.****                            Cumulative              3                                  204,375                   204,375
Legacy Bancorp, Inc.      ****
                                                           Cumulative              3                                  206,175                   206,175
Sonoma Valley Bancorp****                                  Cumulative              3                                  353,715                   353,715
Superior Bancorp Inc.      ****
                                                           Cumulative              3                                 2,587,500              2,587,500
Tennessee Commerce Bancorp,
                                                           Cumulative              3                                 1,125,000              1,125,000
Inc.****
The South Financial Group, Inc.*****,7                     Cumulative              3                                13,012,500             13,012,500
Treaty Oak Bancorp, Inc.*****                              Cumulative              3                                  135,340                   135,340
Bank of Commerce        *****
                                                           Non-Cumulative          3                                  122,625                   122,625
Community West Bancshares*****                             Cumulative              3                                  585,000                   585,000
Carolina Trust Bank     *****
                                                           Non-Cumulative          3                                  150,000                   150,000
Commerce National Bank*****                                Non-Cumulative          3                                  150,000                   150,000
Cadence Financial Corporation              *****
                                                           Cumulative              2                                  550,000                   550,000
CIT Group Inc.****,8                                       Cumulative              2                                29,125,000             29,125,000
Pacific Coast National Bancorp****                         Cumulative              2                                  112,270                   112,270
FBHC Holding Company             *,*****
                                                           Interest                2                                  123,127                   123,127
Gateway Bancshares, Inc.****                               Cumulative              2                                  163,500                   163,500
First Alliance Bancshares, Inc.            *****
                                                           Cumulative              2                                   93,245                    93,245
Colonial American Bank*****                                Non-Cumulative          2                                   15,655                    15,655
The Baraboo Bancorporation, Inc.                   *****
                                                           Cumulative              2                                  565,390                   565,390
Fresno First Bank***                                       Non-Cumulative          2                                   33,357                    33,357
Exchange Bank   *****
                                                           Non-Cumulative          1                                  585,875                   585,875
                                                                                                                                 Continued on next page
100               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2013                                                                       (CONTINUED)

                                                                                                                             Observers
                                                                                                         Number               Assigned
                                                              Dividend or                               of Missed           to Board of                   Value of Missed                     Value of Unpaid
      Company                                                 Payment type                              Payments             Directors1                        Payments2                          Amounts2,3,4
      UCBH Holdings, Inc.****                                 Cumulative                                             1                                          $3,734,213                           $3,734,213
      Tifton Banking Company****                              Non-Cumulative                                         1                                                 51,775                              51,775
      Total                                                                                                                                                $607,387,709                        $528,972,034
      Notes: Numbers may not total due to rounding. Approximately $26.8 million of the $529 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no legal right to missed
      dividends that are non-cumulative.

      * Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
      ** Partial payments made after the due date.
      *** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For an exchange of
      mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
      **** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For bank failures,
      Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
      ***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the contrary.

      n Treasury has appointed one or more directors to the Board of Directors.
      1
        F or First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from the institution to assign
                 an observer to the board of directors.
      2
         Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
      3
          Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the Capital Purchase
                 Program.
      4
           Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party purchase its CPP
                 investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
      5
            For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing; missed payment
                 amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
      6
             Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed payments to zero.
      7
              For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
      8
               For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing; missed payment
                 amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
      9
                Completed exchanges:
                 - The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed payments and unpaid
                 amounts reflect the figures Treasury reported prior to the exchange.
                 - The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby eliminating any unpaid
                 amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

      Sources: Treasury, Dividends and Interest Report, 4/10/2013; Treasury, responses to SIGTARP data calls, 1/7/2011, 4/6/2011, 7/8/2011, 10/11/2011, 1/10/2012, 4/5/2012, 7/10/2012,
      10/4/2012, 1/10/2013, 4/4/2013; SIGTARP Quarterly Report to Congress, 1/30/2010, 4/20/2010, 4/28/2011, 7/28/2011, 10/27/2011, 1/25/2012, 4/25/2012, 7/25/2012, 10/25/2012,
      1/30/2013.




                                                                            CPP Recipients: Bankrupt or with Failed Subsidiary Banks
                                                                            Despite Treasury’s stated goal of limiting CPP investments to “healthy, viable
                                                                            institutions,” as of March 31, 2013, 23 CPP participants had gone bankrupt or had
                                                                            a subsidiary bank fail, as indicated in Table 2.27.365 As of March 31, 2013, 21 of
                                                                            those banks, with total CPP investments of $747.4 million, were in the process of
                                                                            bankruptcy, and while Treasury has not yet realized the loss, it expects that all of its
                                                                            investments in the banks will be lost.366
                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013                 101




TABLE 2.27
 CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 3/31/2013                               ($ MILLIONS)

                                          Initial
                                       Invested     Investment                                             Bankruptcy/
 Company                                Amount            Date                                Status       Failure Datea         Subsidiary Bank
                                                                  Bankruptcy proceedings completed
                                                                       with no recovery of Treasury’s                                    CIT Bank,
 CIT Group Inc., New York, NY          $2,330.0     12/31/2008                                               11/1/2009
                                                                 investment; subsidiary bank remains                             Salt Lake City, UT
                                                                                               active
 UCBH Holdings Inc.,                                                                                                            United Commercial
                                          298.7     11/14/2008   In bankruptcy; subsidiary bank failed       11/6/2009
 San Francisco, CA                                                                                                         Bank, San Francisco, CA
                                                                 Bankruptcy proceedings completed
 Pacific Coast National Bancorp,                                                                                             Pacific Coast National
                                             4.1     1/16/2009        with no recovery of Treasury’s        11/13/2009
 San Clemente, CA                                                                                                          Bank, San Clemente, CA
                                                                  investment; subsidiary bank failed
                                                                                                                           Midwest Bank and Trust
 Midwest Banc Holdings, Inc.,
                                          89.4b      12/5/2008   In bankruptcy; subsidiary bank failed       5/14/2010                 Company,
 Melrose Park, IL
                                                                                                                                Elmwood Park, IL
 Sonoma Valley Bancorp,                                                                                                       Sonoma Valley Bank,
                                             8.7     2/20/2009                 Subsidiary bank failed        8/20/2010
 Sonoma, CA                                                                                                                         Sonoma, CA
                                                                                                                                Pierce Commercial
 Pierce County Bancorp, Tacoma, WA           6.8     1/23/2009                 Subsidiary bank failed        11/5/2010
                                                                                                                                Bank, Tacoma, WA
 Tifton Banking Company, Tifton, GA          3.8     4/17/2009                                  Failed      11/12/2010                         N/A
                                                                                                                                     Legacy Bank,
 Legacy Bancorp, Inc., Milwaukee, WI         5.5     1/30/2009                 Subsidiary bank failed        3/11/2011
                                                                                                                                     Milwaukee, WI
 Superior Bancorp, Inc.,                                                                                                            Superior Bank,
                                           69.0      12/5/2008                 Subsidiary bank failed        4/15/2011
 Birmingham, AL                                                                                                                    Birmingham, AL
 Integra Bank Corporation,                                                                                                           Integra Bank,
                                           83.6      2/27/2009                 Subsidiary bank failed        7/29/2011
 Evansville, IN                                                                                                                      Evansville, IN
 One Georgia Bank, Atlanta, GA               5.5      5/8/2009                                  Failed       7/15/2011                         N/A
                                                                                                                               First Peoples Bank,
 FPB Bancorp, Port Saint Lucie, FL           5.8     12/5/2008                 Subsidiary bank failed        7/15/2011
                                                                                                                               Port Saint Lucie, FL
                                                                                                                                  Citizens Bank of
 Citizens Bancorp, Nevada City, CA         10.4     12/23/2008                 Subsidiary bank failed        9/23/2011         Northern California,
                                                                                                                                  Nevada City, CA
 CB Holding Corp., Aledo, IL                 4.1     5/29/2009                 Subsidiary bank failed       10/14/2011      Country Bank, Aledo, IL
 Tennessee Commerce Bancorp, Inc.,                                                                                           Tennessee Commerce
                                           30.0     12/19/2008                 Subsidiary bank failed        1/27/2012
 Franklin, TN                                                                                                                    Bank, Franklin, TN
 Blue River Bancshares, Inc.,                                                                                                          SCB Bank,
                                             5.0      3/6/2009                 Subsidiary bank failed        2/10/2012
 Shelbyville, IN                                                                                                                     Shelbyville, IN
 Fort Lee Federal Savings Bank               1.3     5/22/2009                                  Failed       4/20/2012                         N/A
                                                                                                                           Continued on next page
102              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 3/31/2013                                                                     ($ MILLIONS) (CONTINUED)

                                                               Initial
                                                            Invested          Investment                                                                 Bankruptcy/
      Company                                                Amount                 Date                                                 Status          Failure Datea                Subsidiary Bank
                                                                                                                                                                                 Glasgow Savings Bank,
      Gregg Bancshares, Inc.                                      $0.9        2/13/2009                              Subsidiary bank failed                7/13/2012
                                                                                                                                                                                          Glasgow, MO
      Premier Bank Holding Company                                  9.5       3/20/2009                                         In bankruptcy              8/14/2012                                    N/A
      GulfSouth Private Bank                                        7.5       9/25/2009                                                   Failed          10/19/2012                                    N/A
      Investors Financial Corporation of                                                                                                                                                      Excel Bank,
                                                                    4.0         5/8/2009                                                  Failed          10/19/2012
      Pettis County, Inc.                                                                                                                                                                     Sedalia, MO
                                                                                                                                                                                        First Place Bank,
      First Place Financial Corporation                           72.9        3/13/2009                                         In bankruptcy             10/29/2012
                                                                                                                                                                                              Warren, OH
                                                                                                                                                                                  Citizens First National
      Princeton National Bancorp                                  25.1        1/23/2009                              Subsidiary bank failed                11/2/2012
                                                                                                                                                                                     Bank, Princeton, IL
      Total                                                $3,081.6                                                                                                           
      Notes: Numbers may not total due to rounding.
      a
        Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
      b
        The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for
         $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.

      Sources: Treasury, Transactions Report, 3/28/2013; Treasury, response to SIGTARP data call, 4/4/2013; FDIC, “Failed Bank List,” no date, www.fdic.gov/bank/individual/failed/banklist.html, accessed
      4/1/2013; FDIC, “Institution Directory,” no date, www2.fdic.gov/idasp/main.asp, accessed 4/1/2013; CIT, “CIT Board of Directors Approves Proceeding with Prepackaged Plan of Reorganization with
      Overwhelming Support of Debt holders,” 11/1/2009, http://cit.newshq.businesswire.com/press-release/corporate-news/cit-board-directors-approves-proceeding-prepackaged-plan-reorganization,
      accessed 4/1/2013; Pacific Coast National Bancorp, 8-K, 12/17/2009, www.sec.gov/Archives/edgar/data/1302502/000092708909000240/pcnb-8k122209.htm, accessed 4/1/2013;
      Sonoma Valley Bancorp, 8-K, 8/20/2010, www.sec.gov/Archives/edgar/data/1120427/000112042710000040/form8k_receivership.htm, accessed 4/1/2013; Midwest Banc Holdings, Inc., 8-K,
      8/20/2010, www.sec.gov/Archives/edgar/data/1051379/000095012310081020/c60029e8vk.htm, accessed 4/1/2013; UCBH Holdings, Inc., 8-K, 11/6/2009, www.sec.gov/Archives/edgar/
      data/1061580/000095012309062531/f54084e8vk.htm, accessed 4/1/2013; FDIC Press Release, “Heritage Bank, Olympia, Washington, Assumes All of the Deposits of Pierce Commercial Bank,
      Tacoma, Washington,” 11/5/2010, www.fdic.gov/news/news/press/2010/pr10244.html, accessed 4/1/2013; FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All of the Deposits of Two
      Georgia Institutions,” 11/12/2010, www.fdic.gov/news/news/press/2010/pr10249.html, accessed 4/1/2013; Federal Reserve Board Press Release, 5/10/2010, www.federalreserve.gov/newsevents/
      press/enforcement/20100510b.htm, accessed 4/1/2013; Board of Governors of the Federal Reserve System, Written Agreement by and among Legacy Bancorp, Inc., Legacy Bank, Federal Reserve
      Bank of Chicago, and State of Wisconsin Department of Financial Institutions, Madison, Wisconsin, www.federalreserve.gov/newsevents/press/enforcement/enf20100505b1.pdf, accessed 4/1/2013;
      FDIC Press Release, “Seaway Bank and Trust Company, Chicago, Illinois Assumes All of the Deposits of Legacy Bank, Milwaukee, Wisconsin,” 3/11/2011, www.fdic.gov/news/news/press/2011/pr11055.
      html, accessed 4/1/2013; FDIC Press Release, “Superior Bank, N.A., Birmingham, Alabama, Assumes All of the Deposits of Superior Bank, Birmingham, Alabama,” 4/15/2011, www.fdic.gov/news/
      news/press/2011/pr11073.html, accessed 4/1/2013; FDIC Press Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits of Integra Bank, National Association, Evansville, Indiana,”
      7/29/2011, www.fdic.gov/news/news/press/2011/pr11128.html, accessed 4/1/2013; FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All the Deposits of Two Georgia Institutions,”
      7/15/2011, www.fdic.gov/news/news/press/2011/pr11120.html, accessed 4/1/2013; FDIC Press Release, “Premier American Bank, National Association, Miami, Florida, Assumes All of the Deposits
      of First Peoples Bank, Port Saint Lucie, Florida,” 7/15/2011, www.fdic.gov/news/news/press/2011/pr11121.html, accessed 4/1/2013; FDIC Press Release, “Tri Counties Bank, Chico, California,
      Assumes All of the Deposits of Citizens Bank of Northern California, Nevada City, California,” 9/23/2011, www.fdic.gov/news/news/press/2011/pr11154.html, accessed 4/1/2013; FDIC, In the Matter
      of First Peoples Bank, Docket No. FDIC-09-717b, Consent Order, 3/18/2010, www.fdic.gov/bank/individual/enforcement/2010-03-09.pdf, accessed 4/1/2013; FDIC, In the Matter of Citizens Bank of
      Northern California, Nevada City, California, Order No. FDIC-11-358PCAS, Supervisory Prompt Corrective Action Directive, 6/28/2011, www.fdic.gov/bank/individual/enforcement/2011-06-029.pdf,
      accessed 4/1/2013; “Blackhawk Bank & Trust, Milan, Illinois, Assumes All of the Deposits of Country Bank, Aledo, Illinois,” 10/14/2011, www.fdic.gov/news/news/press/2011/pr11167.html, accessed
      4/1/2013; FDIC Press Release, “Republic Bank & Trust Company, Assumes all of the Deposits of Tennessee Commerce Bank, Franklin, Tennessee,” 1/27/2012, www.fdic.gov/news/news/press/2012/
      pr12011.html, accessed 4/1/2013; FDIC Press Release, “First Merchants Bank, National Association, Muncie, Indiana, Assumes All of the Deposits of SCB Bank, Shelbyville, Indiana,” 2/10/2012, www.
      fdic.gov/news/news/press/2012/pr12018.html, accessed 4/1/2013; FDIC Press Release, “Alma Bank, Astoria, New York, Assumes All of the Deposits of Fort Lee Federal Savings Bank, FSB, Fort Lee,
      New Jersey,” www.fdic.gov/news/news/press/2012/pr12043.html, accessed 4/1/2013; FDIC Press Release, “Regional Missouri Bank, Marceline, Missouri, Assumes All of the Deposits of Glasgow
      Savings Bank, Glasgow, Missouri,” 7/13/2012, www.fdic.gov/news/news/press/2012/pr12081.html, accessed 4/1/2013; United States Bankruptcy Court, Northern District of Florida, “Premier
      Bank Holding Company: Voluntary Petition, Chapter 11,” filed 8/14/12, Case no. 12-40550-KKS, ecf.flnb.uscourts.gov/doc1/04814513098, accessed 4/12/2013; FDIC Press Release, “SmartBank,
      Pigeon Forge, Tennessee, Assumes All of the Deposits of GulfSouth Private Bank, Destin, Florida,” 10/19/2012, www.fdic.gov/news/news/press/2012/pr12118.html, accessed 4/1/2013; FDIC Press
      Release, “Simmons First National Bank, Pine Bluff, Arkansas, Assumes All of the Deposits of Excel Bank, Sedalia, Missouri,” 10/19/2012, www.fdic.gov/news/news/press/2012/pr12120.html, accessed
      4/1/2013; Bloomberg, “First Place Financial Corp. Files Bankruptcy in Delaware,” 10/29/2012, www.bloomberg.com/news/2012-10-29/first-place-financial-corp-files-bankruptcy-in-delaware.html,
      accessed 4/1/2013; FDIC Press Release, “Heartland Bank and Trust Company, Bloomington, Illinois, Assumes All of the Deposits of Citizens First National Bank, Princeton, Illinois,” 11/2/2012, www.fdic.
      gov/news/news/press/2012/pr12128.html, accessed 4/1/2013.
                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   103




Realized Losses and Write-offs of CPP Investments
When a CPP investment is sold at a loss, or an institution that Treasury invested
in finalizes bankruptcy, Treasury records the loss as a realized loss or a write-off.
For these recorded losses, Treasury has no expectation of regaining any portion of
the lost investment. According to Treasury, as of March 31, 2013, Treasury had
realized or written-off losses of $3.4 billion on its CPP investments, including $215
million this quarter. Table 2.28 shows all realized losses and write-offs recorded by
Treasury on CPP investments through March 31, 2013.

TABLE 2.28
 REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 3/31/2013                 ($ MILLIONS)

                                          TARP   Realized Loss
 Institution                        Investment     or Write-Off          Date Description
                                                                                Sale of subordinated
 FBHC Holding Company                      $3               $2      3/9/2010
                                                                                debentures at a loss
 First Federal Bancshares of
                                           17               11      5/3/2010 Sale of preferred stock at a loss
 Arkansas, Inc.
 The Bank of Currituck                      4                2     12/3/2010 Sale of preferred stock at a loss
 Treaty Oak Bancorp, Inc.                   3                3     2/15/2011 Sale of preferred stock at a loss
                                                                                Exchange of preferred stock at
 Central Pacific Financial Corp.          135               32     2/18/2011
                                                                                a loss
 Cadence Financial Corporation             44                6      3/4/2011 Sale of preferred stock at a loss
 First Community Bank Corporation
                                           11                3     5/31/2011 Sale of preferred stock at a loss
 of America
 Cascade Financial Corporation             39               23     6/30/2011 Sale of preferred stock at a loss
 Green Bankshares, Inc.                    72                4      9/7/2011 Sale of preferred stock at a loss
 Santa Lucia Bancorp                        4                1    10/21/2011 Sale of preferred stock at a loss
 Banner Corporation/Banner Bank           124               14      4/3/2012 Sale of preferred stock at a loss 
 First Financial Holdings Inc.             65                8      4/3/2012 Sale of preferred stock at a loss 
 MainSource Financial Group, Inc.          57                4      4/3/2012 Sale of preferred stock at a loss
 Seacoast Banking Corporation of
                                           50                9      4/3/2012 Sale of preferred stock at a loss
 Florida
 Wilshire Bancorp, Inc.                    62                4      4/3/2012 Sale of preferred stock at a loss
 WSFS Financial Corporation                53                4      4/3/2012 Sale of preferred stock at a loss
 Central Pacific Financial Corp.          135               30      4/4/2012 Sale of common stock at a loss
 Ameris Bancorp                            52                4     6/19/2012 Sale of preferred stock at a loss
 Farmers Capital Corporation               30                8     6/19/2012 Sale of preferred stock at a loss
 First Capital Bancorp, Inc.               11                1     6/19/2012 Sale of preferred stock at a loss
 First Defiance Financial Corp.            37                1     6/19/2012 Sale of preferred stock at a loss
 LNB Bancorp, Inc.                         25                3     6/19/2012 Sale of preferred stock at a loss
 Taylor Capital Group, Inc.               105               11     6/19/2012 Sale of preferred stock at a loss
 United Bancorp, Inc.                      21                4     6/19/2012 Sale of preferred stock at a loss
 Fidelity Southern Corporation             48                5      7/3/2012 Sale of preferred stock at a loss
                                                                                        Continued on next page
104   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                           REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 3/31/2013                     ($ MILLIONS) (CONTINUED)

                                                                        TARP   Realized Loss
                           Institution                            Investment     or Write-Off          Date Description
                           First Citizens Banc Corp                     $21               $2      7/3/2012 Sale of preferred stock at a loss
                           Firstbank Corporation                         33                2      7/3/2012 Sale of preferred stock at a loss
                           Metrocorp Bancshares, Inc.                    45                1      7/3/2012 Sale of preferred stock at a loss
                           Peoples Bancorp Of North
                                                                         25                2      7/3/2012 Sale of preferred stock at a loss
                           Carolina, Inc.
                           Pulaski Financial Corp.                       33                4      7/3/2012 Sale of preferred stock at a loss
                           Southern First Bancshares, Inc.               17                2      7/3/2012 Sale of preferred stock at a loss
                           Naples Bancorp, Inc.                           4                3     7/12/2012 Sale of preferred stock at a loss
                           Commonwealth Bancshares, Inc.                 20                5      8/9/2012 Sale of preferred stock at a loss
                           Diamond Bancorp, Inc.                         20                6      8/9/2012 Sale of preferred stock at a loss
                           Fidelity Financial Corporation                36                4      8/9/2012 Sale of preferred stock at a loss
                           First Western Financial, Inc. b
                                                                         12                2      8/9/2012 Sale of preferred stock at a loss
                           Market Street Bancshares, Inc.                20                2      8/9/2012 Sale of preferred stock at a loss
                           CBS Banc-Corp.                                24                2     8/10/2012 Sale of preferred stock at a loss
                           Marquette National Corporation                36               10     8/10/2012 Sale of preferred stock at a loss
                           Park Bancorporation, Inc.                     23                6     8/10/2012 Sale of preferred stock at a loss
                           Premier Financial Bancorp, Inc.                7                2     8/10/2012 Sale of preferred stock at a loss
                           Trinity Capital Corporation                   36                9     8/10/2012 Sale of preferred stock at a loss
                           Exchange Bank                                 43                5     8/13/2012 Sale of preferred stock at a loss
                           Millennium Bancorp, Inc.                       7                4     8/14/2012 Sale of preferred stock at a loss
                           Sterling Financial Corporation               303              188     8/20/2012 Sale of preferred stock at a loss
                           BNC Bancorp                                   31                2     8/29/2012 Sale of preferred stock at a loss
                           First Community Corporation                   11              0.2     8/29/2012 Sale of preferred stock at a loss
                           First National Corporation                    14                2     8/29/2012 Sale of preferred stock at a loss
                           Mackinac Financial Corporation                11              0.5     8/29/2012 Sale of preferred stock at a loss
                           Yadkin Valley Financial Corporation           13                5     9/18/2012 Sale of preferred stock at a loss
                           Alpine Banks Of Colorado                      70               13     9/20/2012 Sale of preferred stock at a loss
                           F & M Financial Corporation (NC)              17                1     9/20/2012 Sale of preferred stock at a loss
                           F&M Financial Corporation (TN)                17                4     9/21/2012 Sale of preferred stock at a loss
                           First Community Financial Partners,
                                                                         22                8     9/21/2012 Sale of preferred stock at a loss
                           Inc.
                           Central Federal Corporation                    7                4     9/26/2012 Sale of preferred stock at a loss
                           Congaree Bancshares, Inc.                      3              0.6    10/31/2012 Sale of preferred stock at a loss
                           Metro City Bank                                8              0.8    10/31/2012 Sale of preferred stock at a loss
                           Blue Ridge Bancshares, Inc.                   12                3    10/31/2012 Sale of preferred stock at a loss
                           Germantown Capital Corporation                 5              0.4    10/31/2012 Sale of preferred stock at a loss
                           First Gothenburg Bancshares, Inc.              8              0.7    10/31/2012 Sale of preferred stock at a loss
                                                                                                                      Continued on next page
                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   105




REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 3/31/2013                   ($ MILLIONS) (CONTINUED)

                                           TARP   Realized Loss
Institution                          Investment     or Write-Off          Date Description
Blackhawk Bancorp, Inc.                    $10             $0.9    10/31/2012 Sale of preferred stock at a loss
Centerbank                                   2              0.4    10/31/2012 Sale of preferred stock at a loss
The Little Bank, Incorporated                8              0.1    10/31/2012 Sale of preferred stock at a loss
Oak Ridge Financial Services, Inc.           8              0.6    10/31/2012 Sale of preferred stock at a loss
Peoples Bancshares Of TN, Inc.               4                1    10/31/2012 Sale of preferred stock at a loss
Hometown Bankshares Corporation             10              0.8    10/31/2012 Sale of preferred stock at a loss
Western Illinois Bancshares, Inc.           11              0.7     11/9/2012 Sale of preferred stock at a loss
Capital Pacific Bancorp                      4              0.2     11/9/2012 Sale of preferred stock at a loss
Three Shores Bancorporation, Inc.            6              0.6     11/9/2012 Sale of preferred stock at a loss
Regional Bankshares, Inc.                    2              0.1     11/9/2012 Sale of preferred stock at a loss
Timberland Bancorp, Inc.                    17                2     11/9/2012 Sale of preferred stock at a loss
                                                                                 Sale of subordinated
F&C Bancorp. Inc.                            3              0.1    11/13/2012
                                                                                 debentures at a loss
                                                                                 Sale of subordinated
Farmers Enterprises, Inc.                   12              0.4    11/13/2012
                                                                                 debentures at a loss
First Freedom Bancshares, Inc.               9              0.7     11/9/2012 Sale of preferred stock at a loss
Bankgreenville Financial
                                             1              0.1     11/9/2012 Sale of preferred stock at a loss
Corporation
Franklin Bancorp, Inc.                       5                2    11/13/2012 Sale of preferred stock at a loss
Sound Banking Company                        3              0.2    11/13/2012 Sale of preferred stock at a loss
Community Bancshares of
Mississippi, Inc. (Community                 1              0.1    11/30/2012 Sale of preferred stock at a loss
Holding Company of Florida, Inc.)
Parke Bancorp, Inc.                         16                5    11/29/2012 Sale of preferred stock at a loss
Country Bank Shares, Inc.                    8              0.6    11/29/2012 Sale of preferred stock at a loss
Clover Community Bankshares, Inc.            3              0.4    11/29/2012 Sale of preferred stock at a loss
CBB Bancorp                                  4              0.3    11/29/2012 Sale of preferred stock at a loss
Alaska Pacific Bancshares, Inc.              5              0.5    11/29/2012 Sale of preferred stock at a loss
FFW Corporation                              7              0.7    11/30/2012 Sale of preferred stock at a loss
Hometown Bancshares, Inc.                    2              0.1    11/30/2012 Sale of preferred stock at a loss
Trisummit Bank                               7                2    11/29/2012 Sale of preferred stock at a loss
Layton Park Financial Group, Inc.            3              0.6    11/29/2012 Sale of preferred stock at a loss
Bank Of Commerce                             3              0.5    11/30/2012 Sale of preferred stock at a loss
Corning Savings And Loan
                                            0.6             0.1    11/30/2012 Sale of preferred stock at a loss
Association
Carolina Trust Bank                          4              0.6    11/30/2012 Sale of preferred stock at a loss
Community Business Bank                      4              0.3    11/30/2012 Sale of preferred stock at a loss
KS Bancorp, Inc                              4              0.7    11/30/2012 Sale of preferred stock at a loss
Pacific Capital Bancorp                    195               27    11/30/2012 Sale of common stock at a loss
                                                                                         Continued on next page
106   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                           REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 3/31/2013                     ($ MILLIONS) (CONTINUED)

                                                                        TARP   Realized Loss
                           Institution                            Investment     or Write-Off          Date Description
                           Community West Bancshares                    $16               $4    12/11/2012 Sale of preferred stock at a loss
                           Presidio Bank                                 11                2    12/11/2012 Sale of preferred stock at a loss
                           The Baraboo Bancorporation, Inc.              21                7    12/11/2012 Sale of preferred stock at a loss
                           Security Bancshares Of Pulaski
                                                                          2              0.7    12/11/2012 Sale of preferred stock at a loss
                           County, Inc.
                           Central Community Corporation                 22                2    12/11/2012 Sale of preferred stock at a loss
                                                                                                              Sale of subordinated
                           Manhattan Bancshares, Inc.                     3              0.1    12/11/2012
                                                                                                              debentures at a loss
                           First Advantage Bancshares, Inc.               1              0.1    12/11/2012 Sale of preferred stock at a loss
                           Community Investors Bancorp, Inc.              3              0.1    12/20/2012 Sale of preferred stock at a loss
                           First Business Bank, National
                                                                          4              0.4    12/20/2012 Sale of preferred stock at a loss
                           Association
                           Bank Financial Services, Inc.                  1              0.1    12/20/2012 Sale of preferred stock at a loss
                           Century Financial Services                                                         Sale of subordinated
                                                                         10              0.2    12/20/2012
                           Corporation                                                                        debentures at a loss
                           Hyperion Bank                                  2              0.5    12/21/2012 Sale of preferred stock at a loss
                           First Independence Corporation                 3              0.9    12/21/2012 Sale of preferred stock at a loss
                           First Alliance Bancshares, Inc.                3                1    12/21/2012 Sale of preferred stock at a loss
                           Community Financial Shares, Inc.               7                4    12/21/2012 Sale of preferred stock at a loss
                           Alliance Financial Services, Inc.             12                3      2/7/2013 Sale of preferred stock at a loss
                                                                                                              Sale of subordinated
                           Biscayne Bancshares, Inc.                      6              0.2      2/8/2013
                                                                                                              debentures at a loss
                           Citizens Bancshares Co.                       25               12      2/8/2013 Sale of preferred stock at a loss
                           Colony Bankcorp, Inc.                         28                6      2/8/2013 Sale of preferred stock at a loss
                           Delmar Bancorp                                 9                3      2/8/2013 Sale of preferred stock at a loss
                           Dickinson Financial Corporation II           146               65      2/8/2013 Sale of preferred stock at a loss
                           F & M Bancshares, Inc.                         4              0.5      2/8/2013 Sale of preferred stock at a loss
                           First Priority Financial Corp.                 5                1      2/8/2013 Sale of preferred stock at a loss
                           HMN Financial, Inc.                           26                7      2/8/2013 Sale of preferred stock at a loss
                           Waukesha Bankshares, Inc.                      6              0.4      2/8/2013 Sale of preferred stock at a loss
                           FC Holdings, Inc.                             21                2     2/20/2013 Sale of preferred stock at a loss
                           First Sound Bank                               7                4     2/20/2013 Sale of preferred stock at a loss
                                                                                                              Sale of subordinated
                           First Trust Corporation                       18                4     2/20/2013
                                                                                                              debentures at a loss
                           National Bancshares, Inc.                     25                6     2/20/2013 Sale of preferred stock at a loss
                           Ridgestone Financial Services, Inc.           11                2     2/20/2013 Sale of preferred stock at a loss
                           Carolina Bank Holdings, Inc.                  16                1     2/21/2013 Sale of preferred stock at a loss
                           Santa Clara Valley Bank, N.A                   3              0.4      3/8/2013 Sale of preferred stock at a loss
                           Coastal Banking Company, Inc.                 10              0.4     3/11/2013 Sale of preferred stock at a loss
                                                                                                                      Continued on next page
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013                   107




 REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 3/31/2013                                                        ($ MILLIONS) (CONTINUED)

                                                               TARP        Realized Loss
 Institution                                             Investment          or Write-Off                       Date Description
 Coastalsouth Bancshares, Inc.                                    $16                       $3          3/11/2013 Sale of preferred stock at a loss
 First Reliance Bancshares, Inc.                                    15                        5         3/11/2013 Sale of preferred stock at a loss
 Southcrest Financial Group, Inc.                                   13                        1         3/11/2013 Sale of preferred stock at a loss
 The Queensborough Company                                          12                     0.3          3/11/2013 Sale of preferred stock at a loss
 Old Second Bancorp, Inc.                                           73                      47          3/27/2013 Sale of preferred stock at a loss
 Stonebridge Financial Corp.                                        11                        9         3/27/2013 Sale of preferred stock at a loss
 Alliance Bancshares, Inc.                                           3                     0.1          3/28/2013 Sale of preferred stock at a loss
                                                                                                                          Sale of subordinated
 Amfirst Financial Services, Inc                                     5                     0.2          3/28/2013
                                                                                                                          debentures at a loss
 First Southwest Bancorporation,
                                                                     6                     0.5          3/28/2013 Sale of preferred stock at a loss
 Inc.
 Flagstar Bancorp, Inc.                                           267                       24          3/28/2013 Sale of preferred stock at a loss
 United Community Banks, Inc.                                     180                         7         3/28/2013 Sale of preferred stock at a loss
 Total CPP Realized Losses                                                              $792                               
 Write-Offs                                                                                                                
 CIT Group Inc.                                              $2,330                   $2,330           12/10/2009 Bankruptcy
 Pacific Coast National Bancorp                                      4                        4         2/11/2010 Bankruptcy
 South Financial Group, Inc.         a
                                                                  347                     217           9/30/2010 Sale of preferred stock at a loss
 TIB Financial Corpa                                                37                      25          9/30/2010 Sale of preferred stock at a loss
 Total CPP Write-Offs                                                                $2,576                                
 Total of CPP Realized Losses
                                                                                     $3,368                                
 and Write-Offs
 Notes: Numbers may not total due to rounding.
 a
   In the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as
   realized losses.
 b
    Treasury still has an outstanding investment in this institution and it remains in TARP.

 Sources: Treasury, Transactions Report, 3/28/2013; Treasury, response to SIGTARP data call, 4/4/2013.




Restructurings, Recapitalizations, Exchanges, and Sales of CPP
Investments
Certain CPP institutions continue to experience high losses and financial
difficulties, resulting in inadequate capital or liquidity. To avoid insolvency or
improve the quality of their capital, these institutions may ask Treasury to convert
its CPP preferred shares into a more junior form of equity or to accept a lower
valuation, resulting in Treasury taking a discount or loss. If a CPP institution
is undercapitalized and/or in danger of becoming insolvent, it may propose to
                                                                                                                                                        Undercapitalized: Condition in which a
Treasury a restructuring (or recapitalization) plan to avoid failure (or to attract
                                                                                                                                                        financial institution does not meet its
private capital) and to “attempt to preserve value” for Treasury’s investment.367
                                                                                                                                                        regulator’s requirements for sufficient
Treasury may also sell its investment in a troubled institution to a third party at
                                                                                                                                                        capital to operate under a defined level
a discount in order to facilitate that party’s acquisition of a troubled institution.
                                                                                                                                                        of adverse conditions.
According to Treasury, although it may incur partial losses on its investment in the
108             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       course of these transactions, such an outcome may be deemed necessary to avoid
                                                       the total loss of Treasury’s investment that would occur if the institution failed.368
                                                           Under these circumstances, the CPP participant asks Treasury for a formal
                                                       review of its proposal. The proposal details the institution’s recapitalization plan
                                                       and may estimate how much capital the institution plans to raise from private
                                                       investors and whether Treasury and other preferred shareholders will convert
                                                       their preferred stock to common stock. The proposal may also involve a proposed
                                                       discount on the conversion to common stock, although Treasury would not realize
                                                       any loss until it disposes of the stock.369 In other words, Treasury would not know
                                                       whether a loss will occur, or the extent of such a loss, until it sells the common
                                                       stock it receives as part of such an exchange. According to Treasury, when it
                                                       receives such a request, it asks one of the external asset managers that it has
      Due Diligence: Appropriate level of              hired to analyze the proposal and perform due diligence on the institution.370 The
      attention or care a reasonable person            external asset manager interviews the institution’s managers, gathers non-public
      should take before entering into an              information, and conducts loan-loss estimates and capital structure analysis.
      agreement or a transaction with                  The manager submits its evaluation to Treasury, which then decides whether to
      another party. In finance, it often refers       restructure its CPP investment.371
      to the process of conducting an audit                Table 2.29 shows all restructurings, recapitalizations, exchanges, and sales of
      or review of the institution before              CPP investments through March 31, 2013.
      initiating a transaction.
                                                       Recent Exchanges and Sales
                                                       Community Financial Corporation
                                                       On December 19, 2008, Treasury invested $12.6 million in Community Financial
                                                       Corporation, Staunton, Virginia, (“Community Financial”) through CPP in return
                                                       for preferred stock and warrants.372 On January 9, 2013, City Holding Company,
                                                       Charleston, West Virginia, (“City Holding”) acquired Community Financial in a
                                                       merger.373 According to the terms of an agreement with Treasury, City Holding
                                                       repurchased all of Treasury’s preferred stock investment in Community Financial at
                                                       par and paid the bank’s accrued missed dividend payments.374 Treasury exchanged
                                                       its warrants in Community Financial for a like amount of warrants in City
                                                       Holding.375

                                                       Florida Bank Group, Inc.
                                                       On July 24, 2009, Treasury invested $20.5 million in Florida Bank Group, Inc.,
                                                       Tampa, Florida, (“Florida Bank”) through CPP in return for preferred stock and
                                                       warrants.376 On February 12, 2013, Treasury entered into an agreement with
                                                       Florida Bank to sell back its preferred stock investment to Florida Bank for $8
                                                       million subject to satisfaction of the terms of the agreement.377 If the sale is
                                                       completed at this discount, it will result in a loss to Treasury of $12.5 million.

                                                       Citizens Republic Bancorp, Inc.
                                                       On December 12, 2008, Treasury invested $300 million in Citizens Republic
                                                       Bancorp, Inc., Flint, Michigan, (“Citizens Republic”) through CPP in return for
                                                       preferred stock and warrants.378 On February 21, 2013, Treasury entered into
                                                       an agreement with Citizens Republic and FirstMerit Corporation, Akron, Ohio,
                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013              109




(“FirstMerit”) to sell its preferred stock investment to FirstMerit and exchange its
Citizens Republic warrants for a like amount of warrants in FirstMerit, subject to
satisfaction of the terms of the agreement.379

First Security Group, Inc.
On January 9, 2009, Treasury invested $33 million in First Security Group, Inc.,
Chattanooga, Tennessee, (“First Security”) through CPP in return for preferred
stock and warrants.380 On February 25, 2013, Treasury entered into an agreement
with First Security to exchange its preferred stock investment and warrants in First
Security for common stock.381 The completion of the exchange is subject to the
terms of the agreement, which include satisfactory completion of a capital plan by
First Security.382

TABLE 2.29
 TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2013
 ($ MILLIONS)

                                      Investment       Original     Combined
 Company                                    Date   Investments    Investments                                             Investment Status
 Citigroup Inc.                       10/28/2008      $2,500.0                               Exchanged for common stock/warrants and sold
 Provident Bankshares                 11/14/2008         151.5                        Provident preferred stock exchanged for new M&T Bank
                                                                    $1,081.5a    Corporation preferred stock; Wilmington Trust preferred stock
 M&T Bank Corporation                 12/23/2008         600.0                                      redeemed by M&T Bank Corporation; Sold
 Wilmington Trust Corporation         12/12/2008         330.0                                                                                
 Popular, Inc.                         12/5/2008         935.0                                        Exchanged for trust preferred securities
 First BanCorp                          1/6/2009         400.0                          Exchanged for mandatorily convertible preferred stock
 South Financial Group, Inc.           12/5/2008         347.0                                                                            Sold
 Sterling Financial Corporation        12/5/2008         303.0                                            Exchanged for common stock, Sold
 Whitney Holding Corporation            6/3/2011         300.0                                                                            Sold
 Flagstar Bancorp Inc.                 1/30/2009         267.0                                                          Sold at loss in auction
 Pacific Capital Bancorp              11/21/2008         195.0                                                  Exchanged for common stock
 United Community Banks, Inc.          12/5/2008         180.0                                                          Sold at loss in auction
 Wilmington Trust Corporation          5/13/2011         151.5                                                                            Sold
 Dickinson Financial Corporation II    1/16/2009         146.0                                                          Sold at loss in auction
 Central Pacific Financial Corp.        1/9/2009         135.0                                                  Exchanged for common stock
 Banner Corporation                   11/21/2008         124.0                                                          Sold at loss in auction
 BBCN Bancorp, Inc.                   11/21/2008          67.0                                    Exchanged for a like amount of securities of
                                                                       122.0d
 Center Financial Corporation         12/12/2008          55.0                                                           BBCN Bancorp, Inc.

 First Merchants                       2/20/2009         116.0                    Exchanged for trust preferred securities and preferred stock
 Taylor Capital Group                 11/21/2008         104.8                                                          Sold at loss in auction
 Metropolitan Bank Group Inc.          6/26/2009          71.5                                          Exchanged for new preferred stock in
                                                                        81.9b 
 NC Bancorp, Inc.                      6/26/2009           6.9                                                 Metropolitan Bank Group, Inc.

 Hampton Roads Bankshares             12/31/2008          80.3                                                  Exchanged for common stock
                                                                                                                      Continued on next page
110         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2013
      ($ MILLIONS) (CONTINUED)

                                            Investment       Original     Combined
      Company                                     Date   Investments    Investments                                     Investment Status
      Old Second Bancorp, Inc.              1/16/2009          $73.0                                                 Sold at loss in auction
      Green Bankshares                     12/23/2008            72.3                                                                  Sold
      Independent Bank Corporation         12/12/2008            72.0                 Exchanged for mandatorily convertible preferred stock
      Alpine Banks of Colorado              3/27/2009            70.0                                                Sold at loss in auction
      Superior Bancorp, Inc.c               12/5/2008            69.0                               Exchanged for trust preferred securities
      First Financial Holdings Inc.         12/5/2008            65.0                                                Sold at loss in auction
      Wilshire Bancorp, Inc.               12/12/2008            62.2                                                Sold at loss in auction
                                                                                      Exchanged for common stock and securities purchase
      Standard Bancshares Inc.              4/24/2009            60.0             
                                                                                                                             agreements
      MainSource Financial Group, Inc.      1/16/2009            57.0                                                Sold at loss in auction
      WSFS Financial Corporation            1/23/2009            52.6                                                Sold at loss in auction
      Ameris Bancorp                       11/21/2008            52.0                                                Sold at loss in auction
      Seacoast Banking Corporation of
                                           12/19/2008            50.0                                                Sold at loss in auction
      Florida
      Fidelity Southern Corporation        12/19/2008            48.2                                                Sold at loss in auction
      MetroCorp Bancshares, Inc.            1/16/2009            45.0                                                Sold at loss in auction
      Cadence Financial Corporation          1/9/2009            44.0                                                Sold at loss in auction
      Exchange Bank                        12/19/2008            43.0                                                Sold at loss in auction
      PremierWest Bancorp                   2/13/2009            41.4                                                                  Sold
      Capital Bank Corporation             12/12/2008            41.3                                                                  Sold
      Cascade Financial Corporation         6/30/2011            39.0                                                Sold at loss in auction
      TIB Financial Corp.                   12/5/2008            37.0                                                                  Sold
      First Defiance Financial Corp.        12/5/2008            37.0                                                Sold at loss in auction
      Fidelity Financial Corporation       12/19/2008            36.3                                                Sold at loss in auction
      Marquette National Corporation       12/19/2008            35.5                                                Sold at loss in auction
      Trinity Capital Corporation           3/27/2009            35.5                                                Sold at loss in auction
      Firstbank Corporation                 1/30/2009            33.0                                                Sold at loss in auction
      Pulaski Financial Corp                1/16/2009            32.5                                                Sold at loss in auction
      BNC Bancorp                           12/5/2008            31.3                                                Sold at loss in auction
      Farmers Capital Bank Corporation       1/9/2009            30.0                                                Sold at loss in auction
      Colony Bankcorp, Inc.                  1/9/2009            28.0                                                Sold at loss in auction
      HMN Financial, Inc                   12/23/2008            26.0                                                Sold at loss in auction
      LNB Bancorp Inc.                     12/12/2008            25.2                                                Sold at loss in auction
      Peoples Bancorp of North Carolina,
                                           12/23/2008            25.1                                                Sold at loss in auction
      Inc.
      Citizens Bancshares Co.               5/29/2009            25.0                                                Sold at loss in auction
      National Bancshares, Inc.             2/27/2009            24.7                                                Sold at loss in auction
      CBS Banc-Corp                         3/27/2009            24.3                                                Sold at loss in auction
      First Citizens Banc Corp              1/23/2009            23.2                                                Sold at loss in auction
      Park Bancorporation, Inc.              3/6/2009            23.2                                                Sold at loss in auction
      Premier Financial Bancorp, Inc.       10/2/2009            22.3                                                Sold at loss in auction
      Central Community Corporation         2/20/2009            22.0                                                Sold at loss in auction
                                                                                                                    Continued on next page
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013           111



TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2013
($ MILLIONS) (CONTINUED)

                                      Investment       Original     Combined
Company                                     Date   Investments    Investments                                   Investment Status
First Community Financial Partners,
                                      12/11/2009         $22.0                                                Sold at loss in auction
Inc.
FC Holdings, Inc.                      6/26/2009          21.0                                                Sold at loss in auction
The Baraboo Bancorporation, Inc.       1/16/2009          20.7                                                Sold at loss in auction
United Bancorp, Inc.                   1/16/2009          20.6                                                Sold at loss in auction
Diamond Bancorp, Inc.                  5/22/2009          20.4                                                Sold at loss in auction
Commonwealth Bancshares, Inc.          5/22/2009          20.4                                                Sold at loss in auction
Market Street Bancshares, Inc.         5/15/2009          20.3                                                Sold at loss in auction
First Trust Corporation                 6/5/2009          18.0                                                Sold at loss in auction
Southern First Bancshares, Inc.        2/27/2009          17.3                                                Sold at loss in auction
F&M Financial Corporation (TN)         2/13/2009          17.2                                                Sold at loss in auction
F&M Financial Corporation (NC)          2/6/2009          17.0                                                Sold at loss in auction
Timberland Bancorp Inc.               12/23/2008          16.6                                                Sold at loss in auction
First Federal Bankshares of
                                        5/3/2011          16.5                                                                  Sold
Arkansas, Inc.
Parke Bancorp Inc.                     1/30/2009          16.3                                                Sold at loss in auction
Carolina Bank Holdings, Inc.            1/9/2009          16.0                                                Sold at loss in auction
CoastalSouth Bancshares, Inc.          8/28/2009          16.0                                                Sold at loss in auction
Community West Bancshares             12/19/2008          15.6                                                Sold at loss in auction
First Reliance Bancshares, Inc          3/6/2009          15.3                                                Sold at loss in auction
Broadway Financial Corporation        11/14/2008          15.0                                         Exchanged for common stock
First Community Bancshares, Inc        5/15/2009          14.8                                                                  Sold
First National Corporation             3/13/2009          13.9                                                Sold at loss in auction
Yadkin Valley Financial Corporation    7/24/2009          13.3                                                Sold at loss in auction
SouthCrest Financial Group, Inc.       7/17/2009          12.9
Alliance Financial Services Inc.       6/26/2009          12.0                                                Sold at loss in auction
Farmers Enterprises, Inc.              6/19/2009          12.0                                                Sold at loss in auction
The Queensborough Company               1/9/2009          12.0                                                Sold at loss in auction
First Community Corporation           11/21/2008          11.4                                                Sold at loss in auction
Western Illinois Bancshares, Inc.     12/23/2008          11.4                                                Sold at loss in auction
First Capital Bancorp, Inc.             4/3/2009          11.0                                                Sold at loss in auction
Mackinac Financial Corporation         4/24/2009          11.0                                                Sold at loss in auction
Ridgestone Financial Services, Inc.    2/27/2009          11.0                                                Sold at loss in auction
First Community Bank Corporation
                                      12/23/2008          11.0                                                                  Sold
of America
Stonebridge Financial Corp.            1/23/2009          11.0                                                Sold at loss in auction
Presidio Bank                         11/20/2009          10.8                                                Sold at loss in auction
Northwest Bancorporation, Inc.         2/13/2009          10.5                                                Sold at loss in auction
Blackhawk Bancorp, Inc.                3/13/2009          10.0                                                Sold at loss in auction
Century Financial Services
                                       6/19/2009          10.0                                                Sold at loss in auction
Corporation
HomeTown Bankshares Corporation        9/18/2009          10.0                                                Sold at loss in auction
                                                                                                             Continued on next page
112         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2013
      ($ MILLIONS) (CONTINUED)

                                             Investment       Original     Combined
      Company                                      Date   Investments    Investments       Investment Status
      Coastal Banking Company, Inc.           12/5/2008         $10.0                    Sold at loss in auction
      Delmar Bancorp                          12/4/2009           9.0                    Sold at loss in auction
      First Freedom Bancshares, Inc.         12/22/2009           8.7                    Sold at loss in auction
      First Western Financial, Inc.            2/6/2009           8.6                    Sold at loss in auction
      Metro City Bank                         1/30/2009           7.7                    Sold at loss in auction
      Oak Ridge Financial Services, Inc.      1/30/2009           7.7                    Sold at loss in auction
      First Gothenburg Bancshares, Inc.       2/27/2009           7.6                    Sold at loss in auction
      Country Bank Shares, Inc.               1/30/2009           7.5                    Sold at loss in auction
      The Little Bank, Incorporated          12/23/2009           7.5                    Sold at loss in auction
      First Sound Bank                       12/23/2008           7.4                                      Sold
      FFW Corporation                        12/19/2008           7.3                    Sold at loss in auction
      Millennium Bancorp, Inc                  4/3/2009           7.3                                      Sold
      Central Federal Corporation             12/5/2008           7.2                                      Sold
      Community Financial Shares, Inc.        5/15/2009           7.0                                      Sold
      TriSummit Bank                           4/3/2009           7.0                    Sold at loss in auction
      Biscayne Bancshares, Inc.               6/19/2009           6.4                    Sold at loss in auction
      Three Shores Bancorporation, Inc        1/23/2009           5.7                    Sold at loss in auction
      Boscobel Bancorp Inc.                   5/15/2009           5.6                    Sold at loss in auction
      Waukesha Bankshares, Inc.               6/26/2009           5.6                    Sold at loss in auction
      First Southwest Bancorporation, Inc.     3/6/2009           5.5                    Sold at loss in auction
      Franklin Bancorp, Inc.                  5/22/2009           5.1                    Sold at loss in auction
      AmFirst Financial Services, Inc         8/21/2009           5.0                    Sold at loss in auction
      Germantown Capital Corporation           3/6/2009           5.0                    Sold at loss in auction
      Alaska Pacific Bancshares Inc.           2/6/2009           4.8                    Sold at loss in auction
      First Priority Financial Corp.         12/18/2009           4.6                    Sold at loss in auction
      CBB Bancorp                            12/20/2009           4.4                    Sold at loss in auction
      Pinnacle Bank Holding Company, Inc.      3/6/2009           4.4                    Sold at loss in auction
      Bank of Southern California, N.A.       4/10/2009           4.2                    Sold at loss in auction
      Bank of Currituck                        2/6/2009           4.0                                      Sold
      Carolina Trust Bank                      2/6/2009           4.0                    Sold at loss in auction
      Santa Lucia Bancorp                    12/19/2008           4.0                                      Sold
      Capital Pacific Bancorp                12/23/2008           4.0                    Sold at loss in auction
      Community Business Bank                 2/27/2009           4.0                    Sold at loss in auction
      KS Bancorp Inc.                         8/21/2009           4.0                    Sold at loss in auction
      Naples Bancorp, Inc.                    3/27/2009           4.0                                      Sold
      Peoples of Bancshares of TN, Inc.       3/20/2009           3.9                    Sold at loss in auction
      F & M Bancshares, Inc.                  11/6/2009           3.5                    Sold at loss in auction
      First Alliance Bancshares, Inc.         6/26/2009           3.4                    Sold at loss in auction
      Congaree Bancshares, Inc.                1/9/2009           3.3                    Sold at loss in auction
      Treaty Oak Bancorp, Inc.                1/16/2009           3.3                                      Sold
      First Independence Corporation          8/28/2009           3.2                    Sold at loss in auction
                                                                                        Continued on next page
                                                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013                                113



TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2013
($ MILLIONS) (CONTINUED)

                                                       Investment             Original            Combined
Company                                                      Date         Investments           Investments                                                                    Investment Status
Sound Banking Co.                                        1/9/2009                     $3.1                                                                                  Sold at loss in auction
Alliance Bancshares, Inc.                              6/26/2009                       3.0                                                                                  Sold at loss in auction
Bank of Commerce                                       1/16/2009                       3.0                                                                                  Sold at loss in auction
Clover Community Bankshares, Inc.                      3/27/2009                       3.0                                                                                  Sold at loss in auction
F & C Bancorp. Inc.                                    5/22/2009                       3.0                                                                                  Sold at loss in auction
FBHC Holding Company                                 12/29/2009                        3.0                                                                                                          Sold
Fidelity Resources Company                             6/26/2009                       3.0                                               Exchanged for preferred stock in Veritex Holding
Layton Park Financial Group, Inc.                    12/18/2009                        3.0                                                                                  Sold at loss in auction
Berkshire Bancorp                                      6/12/2009                       2.9                                        Exchanged for preferred stock in Customers Bancorp
Santa Clara Valley Bank, N.A.                          2/13/2009                       2.9                                                                                  Sold at loss in auction
Community Investors Bancorp, Inc.                    12/23/2008                        2.6                                                                                  Sold at loss in auction
Manhattan Bancshares, Inc.                             6/19/2009                       2.6                                                                                  Sold at loss in auction
CenterBank                                               5/1/2009                      2.3                                                                                  Sold at loss in auction
Security Bancshares of Pulaski
                                                       2/13/2009                       2.2                                                                                  Sold at loss in auction
County, Inc.
Hometown Bancshares, Inc.                              2/13/2009                       1.9                                                                                  Sold at loss in auction
Hyperion Bank                                            2/6/2009                      1.6                                                                                  Sold at loss in auction
Regional Bankshares Inc.                               2/13/2009                       1.5                                                                                  Sold at loss in auction
First Advantage Bancshares, Inc.                       5/22/2009                       1.2                                                                                  Sold at loss in auction
Community Bancshares of MS                               2/6/2009                      1.1                                                                                  Sold at loss in auction
BankGreenville Financial Corp.                         2/13/2009                       1.0                                                                                  Sold at loss in auction
Bank Financial Services, Inc.                          8/14/2009                       1.0                                                                                  Sold at loss in auction
Corning Savings and Loan
                                                       2/13/2009                       0.6                                                                                  Sold at loss in auction
Association
Notes: Numbers may be affected due to rounding.
a
  M&T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid $370 million of
  Treasury’s original $600 million investment. On August 21, 2012, Treasury sold all of its remaining investment in M&T at par.
b
     The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. or $71.5 million plus the original investment amount in NC Bank Group, Inc. or
      $6.9 million plus unpaid dividends of $3.5 million.
c
   The subsidiary bank of Superior Bancorp, Inc. failed on April 15, 2011. All of Treasury’s TARP investment in Superior Bancorp is expected to be lost.
d
    The new investment amount of $122 million includes the original investment amount in BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.) of $67 million and the original investment of Center Financial
    Corporation of $55 million.

Sources: Treasury, Transactions Report, 3/28/2013; Treasury responses to SIGTARP data calls, 10/11/2011, 4/5/2012, 7/5/2012, 10/4/2012, 1/9/2013, and 4/4/2013; SIGTARP, October
Quarterly Report, 10/26/2010; Treasury, Section 105(a) Report, 9/30/2010; Treasury Press Release, “Taxpayers Receive $10.5 Billion in Proceeds Today from Final Sale of Treasury Department
Citigroup Common Stock,” 12/10/2010; Treasury Press Release, “Treasury Announces Pricing of Citigroup Common Stock Offering,” 12/7/2010; Treasury, Section 105(a) Report, 4/10/2013;
Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 1/14/2011; Broadway Financial Corporation, 8-K, 2/17/2011, www.sec.gov/Archives/
edgar/data/1001171/000119312511039152/d8k.htm, accessed 4/1/2013; FDIC and Texas Department of Banking, In the Matter of Treaty Oak Bank, Consent Order, 2/5/2010, www.
fdic.gov/bank/individual/enforcement/2010-02-34.pdf, accessed 4/1/2013; Austin Business Journal, “Sale of Treaty Oak Bank to Fort Worth Firm a go,” 2/4/2011, www.bizjournals.com/
austin/print-edition/2011/02/04/sale-of-treaty-oak-bank-to-fort-worth.html?page=all, accessed 4/1/2013; Central Pacific Financial Corp., 8-K, 11/4/2010, www.sec.gov/Archives/edgar/
data/701347/000070134710000055/form8-k.htm, accessed 4/1/2013; Central Pacific Financial Corp., 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/
a11-6350_18k.htm, accessed 4/1/2013; Central Pacific Financial Corp., 8-K, 2/22/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed
4/1/2013; Scottrade, Central Pacific Financial Corp., 2/18/2011, http://research.scottrade.com/qnr/Public/Stocks/Snapshot?symbol=cpf, accessed 4/1/2013; Cadence Financial Corporation,
8-K, 3/4/2011, www.sec.gov/Archives/edgar/data/742054/000089882211000148/kbody.htm, accessed 4/1/2013; M&T Bank Corporation, 10-K, 2/19/2010, www.sec.gov/Archives/edgar/
data/36270/000095012310014582/l38289e10vk.htm, accessed 4/1/2013; Green Bankshares Inc., 9/8/2011, www.sec.gov/Archives/edgar/data/764402/000089882211000784/grnb-
nafhmerger8k.htm, accessed 4/1/2013; Customers Bancorp, Inc., 8-K, 9/22/2011, www.sec.gov/Archives/edgar/data/1488813/000095015911000609/form8k.htm, accessed 4/1/2013; Santa
Lucia Bancorp, 8-K, 10/6/2011, www.sec.gov/Archives/edgar/data/1355607/000114420411057585/v237144_8k.htm, accessed 4/1/2013; BBCN Bancorp, Inc., 8-K, 11/30/2011, www.sec.
gov/Archives/edgar/data/1128361/000119312511330628/d265748d8k.htm, accessed 4/1/2013; Treasury Press Release, “Treasury Department Announces $248.5 Million in Proceeds from
Pricing of Auctions of Preferred Stock and Subordinated Debt Positions of Twelve Financial Institutions,” 7/27/2012, www.treasury.gov/press-center/press-releases/Pages/tg1656.aspx, accessed
4/1/2013.
114           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Treasury’s Sale of TARP Preferred Stock Investments at Auction
                                                     Overview of CPP Preferred Stock Auctions
                                                     From March 2012 through March 31, 2013, Treasury has held 15 sets of auctions
                                                     in which it has sold all of its preferred stock investments in 120 CPP banks and
                                                     some of its preferred stock in an additional bank.383 For publicly traded banks,
                                                     Treasury auctioned the shares through a placement agent and the shares were
                                                     available for purchase by the general public. For private banks, Treasury auctioned
                                                     the shares directly and the auctions were accessible only to qualified purchasers.
                                                     The preferred stock for all but two of the banks sold at a discounted price and
                                                     resulted in losses to Treasury.384 In the 15 auction sets, the range of discount on
                                                     the investments was 2% to 83%.385 Treasury lost a total of $480.1 million in the
                                                     auctions.386 More than a quarter of the banks, 33, bought back some of their shares
                                                     at the discounted price.387 In four sets of auctions this quarter, Treasury sold all of
                                                     its TARP preferred investment in 30 banks.388
                                                         When Treasury sells all of its preferred shares of a CPP bank, it forfeits the
                                                     right to collect missed dividends and interest payments from the bank. Of the 120
                                                     banks that exited CPP through this auction process, 26 were overdue on payments
      On October 9, 2012, SIGTARP made               to Treasury.389 The $89.3 million owed to Treasury for missed payments by these
      three recommendations regarding                26 banks will never be recovered.390 Additionally, banks with missed payments were
      CPP preferred stock auctions, which            more likely to be sold at a steeper discount. While banks with missed payments
      are discussed in detail in SIGTARP’s           made up only 22% of the banks that exited CPP through this auction process,
      October 2012 Quarterly Report, pages           banks with missed payments made up half of the top 10 banks where Treasury took
      180-183.                                       the largest percentage discount at auction.391
                                                         Table 2.30 shows details for the auctions of preferred stock in CPP banks
                                                     through March 31, 2013.
                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013             115




TABLE 2.30
 INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 3/31/2013
                                                                                                            Percentage
                                                                                                              of Shares
                                         Auction                       Net                     Discount    Repurchased           Missed
 Institution                               Date     Investment    Proceeds    Auction Loss   Percentage    by Institution     Dividends
 Stonebridge Financial Corp.           3/15/2013   $10,973,000   $1,879,145    $9,093,855           83%                      $1,794,180
 Old Second Bancorp, Inc.    a
                                        3/1/2013    73,000,000   25,547,320    47,452,680           65%                       9,125,000
 First Western Financial, Inc.b        7/27/2012    20,440,000    6,138,000    10,421,000           63%
 First Priority Financial Corp.        1/29/2013     9,175,000    4,012,094     5,162,906           56%
 Citizens Bancshares Co.               1/29/2013    24,990,000   12,679,301    12,310,699           49%                       4,086,000
 Dickinson Financial Corporation II    1/29/2013   146,053,000   79,903,245    66,149,755           45%                      27,859,720
 Delmar Bancorp                        1/29/2013     9,000,000    5,453,900     3,546,100           39%                            613,125
 Franklin Bancorp, Inc.                11/9/2012     5,097,000    3,191,614     1,905,386           37%
 Hyperion Bank                        12/20/2012     1,552,000     983,800        568,200           37%
 First Community Financial
                                       9/12/2012    22,000,000   14,211,450     7,788,550           35%
 Partners, Inc.c
 The Baraboo Bancorporation,
                                      12/11/2012    20,749,000   13,399,227     7,349,773           35%                            565,390
 Inc.
 First Reliance Bancshares, Inc.        3/1/2013    15,349,000   10,327,021     5,021,979           33%                       1,254,720
 Security Bancshares of Pulaski
                                      12/11/2012     2,152,000    1,475,592       676,408           31%
 County, Inc.
 First Alliance Bancshares, Inc.      12/20/2012     3,422,000    2,370,742     1,051,258           31%                             93,245
 Marquette National Corporation        7/27/2012    35,500,000   25,313,186    10,186,814           29%             31%
 Parke Bancorp, Inc.                  11/30/2012    16,288,000   11,595,735     4,692,265           29%
 First Independence Corporation       12/20/2012     3,223,000    2,286,675       936,325           29%
 HMN Financial, Inc.                   1/29/2013    26,000,000   18,571,410     7,428,590           29%                       2,600,000
 Farmers Capital Bank
                                       6/13/2012    30,000,000   21,594,229     8,405,771           28%
 Corporation
 Park Bancorporation, Inc.             7/27/2012    23,200,000   16,772,382     6,427,618           28%             30%
 Diamond Bancorp, Inc.                 7/27/2012    20,445,000   14,780,662     5,664,338           28%
 Community West Bancshares            12/11/2012    15,600,000   11,181,456     4,418,544           28%                            585,000
 Commonwealth Bancshares, Inc.         7/27/2012    20,400,000   15,147,000     5,253,000           26%             26%
 Trinity Capital Corporation           7/27/2012    35,539,000   26,396,503     9,142,497           26%
 TriSummit Bank                       11/30/2012     7,002,000    5,198,984     1,803,016           26%
 Alliance Financial Services, Inc.     1/29/2013    12,000,000    8,912,495     3,087,505           26%                       3,020,400
 National Bancshares, Inc.              2/7/2013    24,664,000   18,318,148     6,345,852           26%                       3,024,383
 Blue Ridge Bancshares, Inc.          10/31/2012    12,000,000    8,969,400     3,030,600           25%
 Peoples Bancshares of TN, Inc.       10/31/2012     3,900,000    2,919,500       980,500           25%
 First Trust Corporation                2/7/2013    17,969,000   13,612,558     4,356,442           24%
 Colony Bankcorp, Inc.                 1/29/2013    28,000,000   21,680,089     6,319,911           23%                       1,400,000
 F&M Financial Corporation (TN)        9/12/2012    17,243,000   13,443,074     3,799,926           22%
                                                                                                                  Continued on next page
116            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 3/31/2013                       (CONTINUED)

                                                                                                                     Percentage
                                                                                                                       of Shares
                                             Auction                            Net                    Discount     Repurchased           Missed
      Institution                              Date     Investment         Proceeds   Auction Loss   Percentage     by Institution     Dividends
      Layton Park Financial Group, Inc.   11/30/2012    $3,000,000    $2,345,930         $654,070             22%
      CoastalSouth Bancshares, Inc.         3/1/2013    16,015,000    12,606,191        3,408,809             21%                    $1,687,900
      Seacoast Banking Corporation
                                           3/28/2012    50,000,000    40,404,700        9,595,300             19%
      of Florida
      United Bancorp, Inc.                 6/13/2012    20,600,000    16,750,221        3,849,780             19%
      Alpine Banks of Colorado             9/12/2012    70,000,000    56,430,297       13,569,703             19%
      CenterBank                          10/31/2012     2,250,000     1,831,250          418,750             19%
      Ridgestone Financial Services,
                                            2/7/2013    10,900,000     8,876,677        2,023,323             19%                     2,079,175
      Inc.
      Congaree Bancshares Inc.            10/31/2012     3,285,000     2,685,979          599,021             18%            35%
      Corning Savings and Loan
                                          11/30/2012      638,000           523,680       114,320             18%
      Association
      KS Bancorp, Inc.                    11/30/2012     4,000,000     3,283,000          717,000             18%
      Bank of Commerce                    11/30/2012     3,000,000     2,477,000          523,000             17%                       122,625
      Carolina Trust Bank                 11/30/2012     4,000,000     3,362,000          638,000             16%                       150,000
      Presidio Bank                       12/11/2012    10,800,000     9,058,369        1,741,631             16%
      Santa Clara Valley Bank, N.A.         3/1/2013     2,900,000     2,440,379          459,621             16%                       474,150
      Timberland Bancorp, Inc.             11/9/2012    16,641,000    14,209,334        2,431,666             15%
      First Financial Holdings Inc.        3/28/2012    65,000,000    55,926,478        9,073,522             14%
      Clover Community Bankshares,
                                          11/30/2012     3,000,000     2,593,700          406,300             14%
      Inc.
      Banner Corporation                   3/28/2012   124,000,000   108,071,915       15,928,085             13%
      LNB Bancorp Inc.                     6/13/2012    25,223,000    21,863,750        3,359,251             13%
      Pulaski Financial Corp               6/27/2012    32,538,000    28,460,338        4,077,662             13%
      Exchange Bank                        7/27/2012    43,000,000    37,259,393        5,740,608             13%            47%
      First National Corporation           8/23/2012    13,900,000    12,082,749        1,817,251             13%
      Taylor Capital Group                 6/13/2012   104,823,000    92,254,460       12,568,540             12%
      Fidelity Financial Corporation       7/27/2012    36,282,000    32,013,328        4,268,672             12%            58%
      Yadkin Valley Financial
                                           9/12/2012    49,312,000    43,486,820        5,825,180             12%
      Corporationd
      Three Shores Bancorporation,
                                           11/9/2012     5,677,000     4,992,788          684,212             12%
      Inc.
      Alaska Pacific Bancshares, Inc.     11/30/2012     4,781,000     4,217,568          563,432             12%
      FC Holdings, Inc.                     2/7/2013    21,042,000    18,685,927        2,356,073             11%                     4,013,730
      Fidelity Southern Corporation        6/27/2012    48,200,000    42,757,786        5,442,214             11%
      Southern First Bancshares, Inc.      6/27/2012    17,299,000    15,403,722        1,895,278             11%              6%
      First Citizens Banc Corp             6/27/2012    23,184,000    20,689,633        2,494,367             11%
                                                                                                                           Continued on next page
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013            117




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 3/31/2013                    (CONTINUED)

                                                                                                            Percentage
                                                                                                              of Shares
                                       Auction                        Net                     Discount     Repurchased           Missed
Institution                              Date     Investment     Proceeds    Auction Loss   Percentage     by Institution     Dividends
Market Street Bancshares, Inc.       7/27/2012   $20,300,000   $18,069,213    $2,230,787             11%            89%
Premier Financial Bancorp, Inc.      7/27/2012    22,252,000    19,849,222     2,402,778             11%            46%
Metro City Bank                     10/31/2012     7,700,000     6,861,462       838,538             11%            15%
BankGreenville Financial
                                     11/9/2012     1,000,000      891,000        109,000             11%
Corporation
FFW Corporation                     11/30/2012     7,289,000     6,515,426       773,574             11%
First Advantage Bancshares, Inc.    12/11/2012     1,177,000     1,046,621       130,379             11%
First Southwest Bancorporation,
                                     3/15/2013     5,500,000     4,900,609       599,391             11%                      $974,188
Inc.
SouthCrest Financial Group, Inc.      3/1/2013    12,900,000    11,587,256     1,312,744             10%                     1,581,863
WSFS Financial Corporation           3/28/2012    52,625,000    47,435,299     5,189,701             10%
CBS Banc-Corp.                       7/27/2012    24,300,000    21,776,396     2,523,604             10%            95%
First Gothenburg Banschares,
                                    10/31/2012     7,570,000     6,822,136       747,864             10%
Inc.
Blackhawk Bancorp Inc.              10/31/2012    10,000,000     9,009,000       991,000             10%
Bank Financial Services, Inc.       12/20/2012     1,004,000      907,937         96,063             10%
Flagstar Bancorp, Inc.               3/15/2013   266,657,000   240,627,277    26,029,723             10%                    16,666,063
First Capital Bancorp, Inc.          6/13/2012    10,958,000     9,931,327     1,026,673             9%             50%
BNC Bancorp                          8/23/2012    31,260,000    28,365,685     2,894,315             9%
Germantown Capital Corporation,
                                    10/31/2012     4,967,000     4,495,616       471,384             9%             25%
Inc.
Oak Ridge Financial Services,
                                    10/31/2012     7,700,000     7,024,595       675,405             9%
Inc.
HomeTown Bankshares
                                    10/31/2012    10,000,000     9,093,150       906,850             9%
Corporation
First Freedom Bancshares, Inc.       11/9/2012     8,700,000     7,945,492       754,508             9%             69%
Sound Banking Company                11/9/2012     3,070,000     2,804,089       265,911             9%
Country Bank Shares, Inc.           11/30/2012     7,525,000     6,838,126       686,874             9%
Bank of Southern California, N.A.   12/20/2012     4,243,000     3,850,150       392,850             9%             30%
Waukesha Bankshares, Inc.            1/29/2013     5,625,000     5,161,674       463,326             8%
MainSource Financial Group, Inc.     3/28/2012    57,000,000    52,277,171     4,722,829             8%             37%
Ameris Bancorp                       6/13/2012    52,000,000    47,665,332     4,334,668             8%
Peoples Bancorp of North
                                     6/27/2012    25,054,000    23,033,635     2,020,365             8%             50%
Carolina, Inc.
Regional Bankshares, Inc.            11/9/2012     1,500,000     1,373,625       126,375             8%             47%
CBB Bancorp                         11/30/2012     4,397,000     4,066,752       330,248             8%             35%
Central Community Corporation       12/11/2012    22,000,000    20,172,636     1,827,364             8%
Carolina Bank Holdings, Inc.          2/7/2013    16,000,000    14,811,984     1,188,016             7%
                                                                                                                  Continued on next page
118               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 3/31/2013                                                                        (CONTINUED)

                                                                                                                                                                               Percentage
                                                                                                                                                                                 of Shares
                                                              Auction                                         Net                                         Discount            Repurchased                     Missed
      Institution                                               Date           Investment                Proceeds               Auction Loss            Percentage            by Institution               Dividends
      Wilshire Bancorp, Inc.                             3/28/2012           $62,158,000            $57,766,994                   $4,391,006                          7%                    97%
      Firstbank Corporation                              6/27/2012             33,000,000             30,587,530                    2,412,470                         7%                    48%
      Capital Pacific Bancorp                            11/9/2012               4,000,000              3,715,906                      284,094                        7%
      Western Illinois Bancshares, Inc.                  11/9/2012             11,422,000             10,616,305                       805,695                        7%                    89%
      Community Bancshares of
                                                       11/30/2012                1,050,000                 977,750                       72,250                       7%                    52%
      Mississippi, Inc.
      Community Business Bank                          11/30/2012                3,976,000              3,692,560                      283,440                        7%
      Hometown Bancshares, Inc.                        11/30/2012                1,900,000              1,766,510                      133,490                        7%                    39%
      F & M Bancshares, Inc.                             1/29/2013               8,144,000              7,598,963                      545,037                        7%
      Mackinac Financial Corporation                     8/23/2012             11,000,000             10,380,905                       619,095                        6%
      F & M Financial Corporation (NC)                   9/12/2012             17,000,000             15,988,500                    1,011,500                         6%                    84%
      Community Investors Bancorp,
                                                       12/20/2012                2,600,000              2,445,000                      155,000                        6%                    54%
      Inc.
      Coastal Banking Company, Inc.                        3/1/2013              9,950,000              9,408,213                      541,787                        5%                                    $746,250
      First Defiance Financial Corp.                     6/13/2012             37,000,000             35,084,144                    1,915,856                         5%                    45%
      F&C Bancorp, Inc.                                  11/9/2012               2,993,000              2,840,903                      152,097                        5%
      Farmers Enterprises, Inc.                          11/9/2012             12,000,000             11,439,252                       560,748                        5%                    99%
      Alliance Bancshares, Inc.                          3/15/2013               2,986,000              2,831,437                      154,563                        5%
      AmFirst Financial Services, Inc.                   3/15/2013               5,000,000              4,752,000                      248,000                        5%
      United Community Banks, Inc.                       3/15/2013           180,000,000            171,517,500                     8,482,500                         5%
      Biscayne Bancshares, Inc.                          1/29/2013               6,400,000              6,170,630                      229,370                        4%                    53%
      The Queensborough Company                            3/1/2013            12,000,000             11,605,572                       394,428                        3%                                   1,798,500
      MetroCorp Bancshares, Inc.                         6/27/2012             45,000,000             43,490,360                    1,509,640                         3%                    97%
      First Community Corporation                        8/23/2012             11,350,000             10,987,794                       362,206                        3%                    33%
      The Little Bank, Incorporated                    10/31/2012                7,500,000              7,285,410                      214,590                        3%                    63%
      Manhattan Bancshares, Inc.                       12/11/2012                2,639,000              2,560,541                        78,459                       3%                    96%
      Century Financial Services
                                                       12/20/2012              10,000,000               9,751,500                      248,500                        2%
      Corporation
      Northwest Bancorporation, Inc.                       3/1/2013            10,500,000             10,728,783                     (228,783)                      (2%)                                   1,716,750
      Boscobel Bancorp, Inc.                               3/1/2013              5,586,000              6,116,943                    (530,943)                    (10%)                                    1,288,716
      Total Auction Losses                                                                                                  $480,131,906
      Total Missed Dividends                                                                                                                                                                         $89,321,073
      Notes: Numbers may not total due to rounding.
      a
        Treasury sold 70,028 of its shares in Old Second in the 3/1/2013 auction and the remaining 2,972 shares in the 3/15/2013 auction.
      b
         Treasury did not sell all of its shares of First Western Financial, Inc. in this auction. The bank remains in TARP and Treasury records its remaining investment as $3,881,000.
      c
        Treasury additionally sold 1,100 shares of its Series C stock in First Community Financial Partners, Inc. in this auction, but its largest investment in the bank was sold in the auction that closed on
        9/12/2012, and the data for the disposition of its investment is listed under the 9/12/2012 auction in this table.
      d
         This institution was auctioned separately from the other set that closed on the same date because it is a publicly traded company.

      Sources: Treasury, Transactions Report, 3/28/2013; SNL Financial LLC data.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013              119




CPP Banks Exiting TARP by Refinancing into CDCI and SBLF                                       For information on SBLF and bank
On October 21, 2009, the Administration announced the Community                                exits from TARP, see SIGTARP’s April
Development Capital Initiative (“CDCI”) as another TARP-funded program.392                     9, 2013, audit report, “Banks that
                                                                                               Used the Small Business Lending
Under CDCI, TARP made $570.1 million in investments in 84 eligible banks and
                                                                                               Fund to Exit TARP,” also discussed in
credit unions.393 Qualifying CPP banks applied for the new TARP program, and 28
                                                                                               Section 1 of this report. For a discussion
banks were accepted. The 28 banks refinanced $355.7 million in CPP investments
                                                                                               of SIGTARP’s recommendations to
into CDCI.394 For more information on CDCI, see “Community Development                         Treasury contained in that audit report,
Capital Initiative” in this section.                                                           see Section 4 of this report.
     On September 27, 2010, the President signed into law the Small Business Jobs
Act of 2010 (“Jobs Act”), which created the non-TARP program SBLF for Treasury                 For SIGTARP’s recommendations to
to make up to $30 billion in capital investments in institutions with less than $10            Treasury about applying SBLF to TARP
billion in total assets.395 According to Treasury, it received a total of 935 SBLF             recipients, see SIGTARP’s January 2011
applications, of which 320 were TARP recipients under CPP (315) or CDCI (5).396                Quarterly Report, pages 185-192.
Treasury approved the exit of 137 CPP participants from TARP, which included
refinancing Treasury’s TARP preferred stock into $2.7 billion in SBLF preferred                For a detailed list of banks that exited
                                                                                               TARP by refinancing into SBLF, see
stock.397 None of the CDCI recipients were approved for participation.
                                                                                               SIGTARP’s October 2012 Quarterly
                                                                                               Report, pages 88-92.
Warrant Disposition
As required by EESA, Treasury received warrants when it invested in troubled                   For a discussion of the impact of TARP
assets from financial institutions, with an exception for certain small institutions.          and SBLF on community banks, see
With respect to financial institutions with publicly traded securities, these warrants         SIGTARP’s April 2012 Quarterly report,
gave Treasury the right, but not the obligation, to purchase a certain number of               pages 145-167.
shares of common stock at a predetermined price.398 Because the warrants rise in
value as a company’s share price rises, they permit Treasury (and the taxpayer) to             For more information on warrant
benefit from a firm’s potential recovery.399                                                   disposition, see SIGTARP’s audit report
    For publicly traded institutions, the warrants received by Treasury under                  of May 10, 2010, “Assessing Treasury’s
CPP allowed Treasury to purchase additional shares of common stock in a                        Process to Sell Warrants Received from
                                                                                               TARP Recipients.”
number equal to 15% of the value of the original CPP investment at a specified
exercise price.400 Treasury’s warrants constitute assets with a fair market value
that Treasury estimates using relevant market quotes, financial models, and/or
third-party valuations.401 As of March 31, 2013, Treasury had not exercised any                Exercise Price: Preset price at which
of these warrants.402 For privately held institutions, Treasury received warrants              a warrant holder may purchase each
to purchase additional preferred stock or debt in an amount equal to 5% of the                 share. For warrants in publicly traded
CPP investment. Treasury exercised these warrants immediately.403 Unsold and                   institutions issued through CPP, this
unexercised warrants expire 10 years from the date of the CPP investment.404                   was based on the average stock price
                                                                                               during the 20 days before the date
Repurchase of Warrants by Financial Institutions                                               that Treasury granted preliminary CPP
Upon repaying its CPP investment, a recipient may seek to negotiate with Treasury              participation approval.
to buy back its warrants. As of March 31, 2013, 134 publicly traded institutions
had bought back $3.8 billion worth of warrants, of which $1.7 million was
purchased this quarter. As of that same date, 211 privately held institutions, the
warrants of which had been immediately exercised, bought back the resulting
additional preferred shares for a total of $108.6 million, of which $18.2 million was
bought back this quarter.405 Table 2.31 lists publicly traded institutions that repaid
120   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       TARP and repurchased warrants in the quarter ended March 31, 2013. Table 2.32
                                                       lists privately held institutions that had done so in the same quarter.406

                TABLE 2.31
                 CPP WARRANT SALES AND REPURCHASES (PUBLIC) FOR THE QUARTER ENDING 3/31/2013
                                                                                                                                                 Number of                Amount of
                                                                                                                                                  Warrants              Repurchase
                 Repurchase Date            Company                                                                                            Repurchased            ($ Thousands)
                 1/9/2013                   Enterprise Financial Services Corp.                                                                       324,074                 $1,006.1
                 2/6/2013                   First Capital Bancorp, Inc.                                                                               417,648                      266.0
                 1/16/2013                  HopFed Bancorp                                                                                            253,666                      256.3
                 2/6/2013                   Oak Ridge Financial Services, Inc.                                                                        163,830                      122.9
                 1/23/2013                  Mid Penn Bancorp Inc.                                                                                       73,099                      58.5
                 2/15/2013                  BancTrust Financial                                                                                       730,994                       15.0
                 2/20/2013                  First Sound Bank                                                                                          114,080                         0.0
                 Total                                                                                                                            2,077,391                  $1,724.8
                 Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly traded TARP recipients. Treasury may hold one
                 warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.

                 Sources: Treasury, Transactions Report, 3/28/2013; Treasury, responses to SIGTARP data calls, 1/4/2011, 1/7/2011, 4/6/2011, 7/8/2011, 10/7/2011, 10/11/2011,
                 1/11/2012, 4/5/2012, 7/9/2012, 10/12/2012, 4/12/2013.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   121




TABLE 2.32
 CPP WARRANT SALES AND REPURCHASES (PRIVATE) FOR THE QUARTER ENDING
 3/31/2013
                                                                                               Number of                 Amount of
                                                                                                Warrants               Repurchase
 Repurchase Date                 Company                                                     Repurchased             ($ Thousands)
 1/16/09                         Dickinson Financial Corporation II                              7,303,000                   $7,303.0
 5/29/09                         Citizens Bancshares Co.                                         1,250,000                     1,250.0
 2/27/09                         National Bancshares, Inc.                                       1,233,000                     1,233.0
 6/26/09                         FC Holdings, Inc.                                               1,052,000                     1,052.0
 6/5/09                          First Trust Corporation                                            898,000                       898.0
 3/6/09                          First Reliance Bancshares, Inc.                                    767,000                       767.0
 7/17/09                         SouthCrest Financial Group, Inc.           a
                                                                                                    645,000                       645.0
 6/26/09                         Alliance Financial Services Inc.                                   600,000                       600.0
 1/9/09                          Queensborough Company, The                                         600,000                       600.0
 2/27/09                         Ridgestone Financial Services, Inc.a                               545,000                       545.0
 2/13/09                         Northwest Bancorporation, Inc.                                     525,000                       525.0
 8/28/09                         CoastalSouth Bancshares, Inc.                                      480,000                       480.0
 12/4/09                         Delmar Bancorp                                                     450,000                       450.0
 4/24/09                         Standard Bancshares, Inc.          a
                                                                                                    300,000                       300.0
 5/15/09                         Boscobel Bancorp, Inc                                              279,000                       279.0
 1/30/09                         F & M Bancshares, Inc.                                             230,000                       230.0
 2/20/09                         First Priority Financial Corp.                                     229,000                       229.0
 6/19/09                         Biscayne Bancshares, Inc.          a
                                                                                                    204,000                       204.0
 5/29/09                         Fidelity Bancorp, Inca                                             197,000                       197.0
 6/26/09                         Waukesha Bankshares, Inc.              a
                                                                                                    169,000                       169.0
 2/13/09                         Santa Clara Valley Bank                                            145,000                       145.0
 2/13/09                         Northwest Commercial Bank                                          100,000                       100.0
 Total                                                                                        18,201,000                  $18,201.0
 Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise of
 warrants issued by non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date. Treasury
 may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
 a
   S-Corporation Institution: issued subordinated debt instead of preferred stock.

 Sources: Treasury, Transactions Report, 3/28/2013; Treasury, response to SIGTARP data call, 4/12/2013.
122   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Treasury Warrant Auctions
                                             If Treasury and the repaying institution cannot agree upon the price for the
                                             institution to repurchase its warrants, Treasury may conduct a public or private
                                             offering to auction the warrants.407 As of March 31, 2013, the combined proceeds
                                             from Treasury’s public and private warrant auctions totaled $5.5 billion.408

                                             Public Warrant Auctions
                                             In November 2009, Treasury began selling warrants via public auctions.409
                                             Through March 31, 2013, Treasury had held 26 public auctions for warrants it
                                             received under CPP, TIP, and AGP, raising a total of approximately $5.4 billion.410
                                             Treasury did not conduct any public warrant auctions this quarter.411 Final closing
                                             information for all public warrant auctions is shown in Table 2.33.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013                        123



TABLE 2.33
 PUBLIC TREASURY WARRANT AUCTIONS, AS OF 3/31/2013
                                                                                                        Number of                Minimum            Selling      Proceeds to Treasury
 Auction Date                   Company                                                            Warrants Offered              Bid Price           Price                ($ Millions)
                                Bank of America A Auction (TIP)a                                          150,375,940                $7.00           $8.35                        $1,255.6
 3/3/2010
                                Bank of America B Auction (CPP)             a
                                                                                                          121,792,790                 1.50             2.55                           310.6
 12/10/2009                     JPMorgan Chase                                                             88,401,697                 8.00           10.75                            950.3
 5/20/2010                      Wells Fargo and Company                                                   110,261,688                 6.50             7.70                           849.0
 9/21/2010                      Hartford Financial Service Group, Inc.                                     52,093,973                10.50           13.70                            713.7
 4/29/2010                      PNC Financial Services Group, Inc.                                         16,885,192                15.00           19.20                            324.2
                                Citigroup A Auction (TIP & AGP)         a
                                                                                                          255,033,142                 0.60             1.01                           257.6
 1/25/2011
                                Citigroup B Auction (CPP)a                                                210,084,034                 0.15             0.26                             54.6
 9/16/2010                      Lincoln National Corporation                                               13,049,451                13.50           16.60                            216.6
 5/6/2010                       Comerica Inc.                                                              11,479,592                15.00           16.00                            183.7
 12/3/2009                      Capital One                                                                12,657,960                 7.50           11.75                            148.7
 11/29/2012                     M&T Bank Corporation                                                         1,218,522               23.50             1.35                             32.3
 2/8/2011                       Wintrust Financial Corporation                                               1,643,295               13.50           15.80                              26.0
 6/2/2011                       Webster Financial Corporation                                                3,282,276                5.50             6.30                             20.4
                                SunTrust A Auctionb                                                          6,008,902                2.00             2.70                             16.2
 9/22/2011
                                SunTrust B Auction      b
                                                                                                           11,891,280                 1.05             1.20                             14.2
 3/9/2010                       Washington Federal, Inc.                                                     1,707,456                5.00             5.00                             15.6
 3/10/2010                      Signature Bank                                                                  595,829              16.00           19.00                              11.3
 12/15/2009                     TCF Financial                                                                3,199,988                1.50             3.00                               9.6
 12/5/2012                      Zions Bancorporation                                                         5,789,909               23.50           26.50                                7.8
 3/11/2010                      Texas Capital Bancshares, Inc.                                                  758,086               6.50             6.50                               6.7
 2/1/2011                       Boston Private Financial Holdings, Inc.                                      2,887,500                1.40             2.20                               6.4
 5/18/2010                      Valley National Bancorp                                                      2,532,542                1.70             2.20                               5.6
 11/30/2011                     Associated Banc-Corpc                                                        3,983,308                0.50             0.90                               3.6
 6/2/2010                       First Financial Bancorp                                                         465,117               4.00             6.70                               3.1
 6/9/2010                       Sterling Bancshares Inc.                                                     2,615,557                0.85             1.15                               3.0
 Total                                                                                               1,090,695,026                                                               $5,446.4
 Notes: Numbers may not total due to rounding.
 a
   Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
 b
   Treasury held two auctions for SunTrust’s two CPP investments dated 11/14/2008 (B auction) and 12/31/2008 (A auction).
 c
   According to Treasury, the auction grossed $3.6 million and netted $3.4 million.

 Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed
 4/1/2013; Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 4/1/2013; Comerica
 Incorporated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 4/1/2013; Wells Fargo and Company, “Definitive
 Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 4/1/2013; First Financial Bancorp, “Prospectus Supplement,”
 6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 4/1/2013; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010,
 www.sec.gov/Archives/edgar/data/891098/000119312510136584/dfwp.htm, accessed 4/1/2013; Signature Bank, “Prospectus Supplement,” 3/10/2010, files.shareholder.com/downloads/
 SBNY/1456015611x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 4/1/2013; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
 3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 4/1/2013; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/
 data/70858/000119312510051260/d8k.htm, accessed 4/1/2013; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/
 d424b2.htm, accessed 4/1/2013; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed
 4/1/2013; TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 4/1/2013; JPMorgan Chase,
 “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 4/1/2013; Capital One Financial, “Prospectus Supplement,”
 12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 4/1/2013; Treasury, Transactions Report, 3/28/2013; Hartford Financial Services Group,
 Prospectus Supplement to Prospectus filed with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 4/1/2013; Treasury,
 “Treasury Announces Pricing of Public Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.
 aspx, accessed 4/1/2013; Lincoln National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/
 d424b5.htm, accessed 4/1/2013; Lincoln National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 4/1/2013; Treasury, Section
 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/
 Pages/tg1033.aspx, accessed 4/1/2013; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 4/1/2013;
 Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 4/1/2013; Boston Private Financial Holdings, Inc.,
 Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/data/821127/000119312511021392/d424b5.htm, accessed 4/1/2013; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.sec.
 gov/Archives/edgar/data/821127/000144530511000189/tarpwarrant020711.htm, accessed 4/1/2013; Wintrust Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/
 data/1015328/000095012311011007/c62806b5e424b5.htm, accessed 4/1/2013; Treasury, Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to
 Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 4/1/2013; Treasury, Citigroup Preliminary Prospectus – CPP
 Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.htm, accessed 4/1/2013; Citigroup, Preliminary Prospectus – TIP & AGP Warrants,
 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 4/1/2013; Treasury, responses to SIGTARP data call, 4/6/2011, 7/14/2011,
 10/5/2011, 10/11/2011, and 1/11/2012; Treasury Press Release, “Treasury Department Announces Public Offerings of Warrants to Purchase Common Stock of Suntrust Banks, Inc.,” 9/21/2011, www.
 treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 4/1/2013; “Treasury Department Announces Public Offering of Warrants to Purchase Common Stock of Associated Banc-Corp,”
 11/29/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 4/1/2013, Treasury, “Treasury Department Announces Public Offering of Warrant to Purchase Common Stock
 of M&T Bank Corporation,” 12/10/2012, www.treasury.gov/press-center/press-releases/Pages/tg1793.aspx, accessed 4/1/2013, Treasury, “Treasury Department Announces Public Offering of Warrants
 to Purchase Common Stock of Zions Bancorporation,” 11/28/2012, www.treasury.gov/press-center/press-releases/Pages/tg1782.aspx, accessed 4/1/2013.
124            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Private Warrant Auctions
      Qualified Institutional Buyers (“QIB”):         On November 17, 2011, Treasury conducted a private auction to sell warrants of
      Institutions that under U.S. securities         the 17 CPP institutions listed in Table 2.34 for $12.7 million.412 Treasury stated
      law are permitted to buy securities             that a private auction was necessary because the warrants did not meet the listing
      that are exempt from registration               requirements for the major exchanges, it would be more cost-effective for these
      under investor protection laws and              smaller institutions, and that grouping the warrants of the 17 institutions in a
      to resell those securities to other             single auction would raise investor interest in the warrants.413 The warrants were
      QIBs. Generally these institutions own          not registered under the Securities Act of 1933 (the “Act”). As a result, Treasury
      and invest at least $100 million in             stated that the warrants were offered only in private transactions to “(1) ‘qualified
      securities, or are registered broker-           institutional buyers’ as defined in Rule 144A under the Act, (2) the issuer, and (3)
      dealers that own or invest at least $10         a limited number of ‘accredited investors’ affiliated with the issuer.”414 Treasury has
      million in securities.                          not conducted any private warrant auctions since then.

                                                      TABLE 2.34
      Accredited Investors: Individuals or
      institutions that by law are considered          PRIVATE TREASURY WARRANT AUCTIONS ON 11/17/2011
      financially sophisticated enough so                                                                              Number of
                                                       Company                                                    Warrants Offered                      Proceeds to Treasury
      that they can invest in ventures that
                                                       Eagle Bancorp, Inc.                                                     385,434                                 $2,794,422
      are exempt from investor protection
      laws. Under U.S. securities laws, these          Horizon Bancorp                                                         212,188                                   1,750,551

      include many financial companies,                Bank of Marin Bancorp                                                   154,908                                   1,703,984
      pension plans, wealthy individuals,              First Bancorp (of North Carolina)                                       616,308                                     924,462
      and top executives or directors of the           Westamerica Bancorporation                                              246,698                                     878,256
      issuing companies.                               Lakeland Financial Corp                                                 198,269                                     877,557
                                                       F.N.B. Corporation                                                      651,042                                     690,100
                                                       Encore Bancshares                                                       364,026                                     637,071
                                                       LCNB Corporation                                                        217,063                                     602,557
                                                       Western Alliance Bancorporation                                         787,107                                     415,000
                                                       First Merchants Corporation                                             991,453                                     367,500
                                                       1st Constitution Bancorp                                                231,782                                     326,576
                                                       Middleburg Financial Corporation                                        104,101                                     301,001
                                                       MidSouth Bancorp, Inc.                                                  104,384                                     206,557
                                                       CoBiz Financial Inc.                                                    895,968                                     143,677
                                                       First Busey Corporation                                                 573,833                                       63,677
                                                       First Community Bancshares, Inc.                                          88,273                                      30,600
                                                       Total                                                               6,822,837                                $12,713,548
                                                       Source: “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/
                                                       press-releases/Pages/tg1365.aspx, accessed 4/1/2013.
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013              125




Community Development Capital Initiative
The Administration announced the Community Development Capital Initiative
(“CDCI”) on October 21, 2009. According to Treasury, it was intended to help
small businesses obtain credit.415 Under CDCI, TARP made $570.1 million in
investments in the preferred stock or subordinated debt of 84 eligible banks, bank
holding companies, thrifts, and credit unions certified as Community Development            Community Development Financial
Financial Institutions (“CDFIs”) by Treasury. According to Treasury, these                  Institutions (“CDFIs”): Financial
lower-cost capital investments were intended to strengthen the capital base                 institutions eligible for Treasury funding
of CDFIs and enable them to make more loans in low and moderate-income                      to serve urban and rural low-income
communities.416 CDCI was open to certified, qualifying CDFIs or financial                   communities through the CDFI Fund.
institutions that applied for CDFI status by April 30, 2010.417                             CDFIs were created in 1994 by the
    According to Treasury, CPP-participating CDFIs that were in good standing               Riegle Community Development and
could exchange their CPP investments for CDCI investments.418 CDCI closed to                Regulatory Improvement Act. These
new investments on September 30, 2010.419                                                   entities must be certified by Treasury;
    As of March 31, 2013, 75 institutions remain in CDCI. Eight institutions,               certification confirms that they target
including two this quarter, have fully repaid the Government and have exited                at least 60% of their lending and other
CDCI. One institution has partially repaid and remains in the program. One                  economic development activities
institution previously had its subsidiary bank fail; the Government this quarter            to areas underserved by traditional
recovered a small part of its investment in that institution and realized a loss on         financial institutions.
the rest.420

CDCI Investment Update
Treasury invested $570.1 million in 84 institutions under the program — 36 banks
or bank holding companies and 48 credit unions.421 Of the 36 investments in
banks and bank holding companies, 28 were conversions from CPP (representing
$363.3 million of the total $570.1 million); the remaining eight were not CPP
participants. Treasury provided an additional $100.7 million in CDCI funds to 10
of the banks converting CPP investments. Only $106 million of the total CDCI
funds went to institutions that were not in CPP.
     As of March 31, 2013, 75 institutions remained in CDCI and taxpayers were
still owed $526.7 million related to CDCI.422 According to Treasury, it had realized
losses of $6.7 million in the program that will never be recovered, leaving $520
million outstanding.423 According to Treasury, $43.4 million of the CDCI principal
(or 7.6%) had been repaid as of March 31, 2013.424 As of March 31, 2013, Treasury
had received approximately $27 million in dividends and interest from CDCI                  Risk-Weighted Assets: Risk-based
recipients.425 As of March 31, 2013, four institutions (Community Bank of the Bay,          measure of total assets held by
First American International Corporation, First Vernon Bancshares, Inc., and PGB            a financial institution. Assets are
Holdings, Inc.) had unpaid dividend or interest payments to Treasury totaling               assigned broad risk categories. The
$1.1 million.426 A list of all CDCI investments is included in Appendix D:                  amount in each risk category is then
“Transaction Detail.”                                                                       multiplied by a risk factor associated
                                                                                            with that category. The sum of the
Terms for Senior Securities and Dividends                                                   resulting weighted values from each of
An eligible bank, bank holding company, or thrift could apply to receive capital in         the risk categories is the bank’s total
an amount up to 5% of its risk-weighted assets. A credit union (which is a member-          risk-weighted assets.
owned, nonprofit financial institution with a capital and governance structure
126           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     different from that of for-profit banks) could apply for Government funding of
      Subchapter S Corporations (“S                  up to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted
      corporations”): Corporate form that            assets for banks.427 Participating credit unions and Subchapter S corporations
      passes corporate income, losses,               (“S corporations”) issued subordinated debt to Treasury in lieu of the preferred
      deductions, and credit through to              stock issued by other CDFI participants.428 Many CDFI investments have an
      shareholders for Federal tax purposes.         initial dividend rate of 2%, which increases to 9% after eight years. Participating
      Shareholders of S corporations report          S corporations pay an initial rate of 3.1%, which increases to 13.8% after eight
      the flow-through of income and losses          years.429 A CDFI participating in CPP had the opportunity to request to convert
      on their personal tax returns and are          those shares into CDCI shares, thereby reducing the annual dividend rate it pays
      taxed at their individual income tax           the Government from 5% to as low as 2%.430 According to Treasury, CDFIs were
      rates.                                         not required to issue warrants because of the de minimis exception in EESA, which
                                                     grants Treasury the authority to waive the warrant requirement for qualifying
                                                     institutions in which Treasury invested $100 million or less.
                                                         If during the application process a CDFI’s primary regulator deemed it to
                                                     be undercapitalized or to have “quality of capital issues,” the CDFI had the
                                                     opportunity to raise private capital to achieve adequate capital levels. Treasury
                                                     would match the private capital raised on a dollar-for-dollar basis, up to a total of
                                                     5% of the financial institution’s risk-weighted assets. In such cases, private investors
                                                     had to agree to assume any losses before Treasury.431
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013           127




Systemically Significant Failing Institutions Program
According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
program was established to “provide stability and prevent disruptions to financial
markets from the failure of a systemically significant institution.”432 Through
SSFI, between November 2008 and April 2009, Treasury invested $67.8 billion
in TARP funds in American International Group, Inc. (“AIG”), the program’s sole
participant.433 Treasury’s investment in AIG ended on March 1, 2013, with the sale
of its AIG stock warrants.434
    AIG also received bailout funding from the Federal Reserve Bank of New York
(“FRBNY”), which committed $35 billion in loans in a revolving credit facility;
another $52.5 billion in loans to create two special purpose vehicles (“SPV”),                Special Purpose Vehicle (“SPV”):
Maiden Lane II and Maiden Lane III, to take mortgage-backed securities and credit             A legal entity, often off-balance-
default swaps off AIG’s books; and a $25 billion investment for which FRBNY                   sheet, that holds transferred assets
acquired preferred interests in two other SPVs that housed certain AIG insurance              presumptively beyond the reach of the
businesses.435 Combined, Treasury and FRBNY committed $182 billion to bail out                entities providing the assets, and that
AIG, of which $161 billion was disbursed.436                                                  is legally isolated from its sponsor or
    In January 2011, FRBNY and Treasury restructured their agreements with AIG                parent company.
to use additional TARP funds and AIG funds to pay off amounts owed to FRBNY
and transfer FRBNY’s common stock and its interests in the insurance-related
SPVs to Treasury. AIG’s subsequent sales of assets, FRBNY’s sales of securities in            For more information on AIG and how
Maiden Lane II and Maiden Lane III, and Treasury’s sales of the AIG common                    the company changed while under
stock it held from TARP and FRBNY, have resulted in AIG repaying the amounts                  TARP, see SIGTARP’s July 2012
owed to Treasury and FRBNY.                                                                   Quarterly Report, pages 151-167.
    According to Treasury, in addition to recovering the full bailout amount,
taxpayers have received $22.7 billion in dividends, interest, gains, and other
income.437 This included payment to FRBNY of the full amount owed on the
revolving credit facility loan, plus interest and fees of $6.8 billion; full repayment
of the loans to Maiden Lane II and Maiden Lane III, plus $8.2 billion in gains
from securities cash flows and sales and $1.3 billion in interest; and full payment
of the $25 billion owed on the insurance-business SPVs, plus interest and fees
of $1.4 billion.438 Treasury’s books and records reflect only the shares of AIG that
Treasury received in TARP, reflecting that taxpayers have recouped $54.4 billion
of the $67.8 billion in TARP funds spent and realized losses on the sale of TARP
shares from an accounting standpoint of $13.5 billion.439 However, in the January
2011 restructuring of FRBNY and Treasury investments, TARP funds were used to
pay off AIG’s amounts owed to FRBNY and in return Treasury received FRBNY’s
stock in AIG. According to Treasury, when those shares are combined with TARP
shares in AIG, Treasury has made a $4.1 billion gain on the sale of the common
shares and AIG has paid $956 million in dividends, interest, and other income on
Treasury’s preferred shares.440
    The Government’s rescue of AIG involved several different funding facilities
provided by FRBNY and Treasury, with various changes to the transactions over
time. The rescue of AIG was initially led by FRBNY and the Board of Governors of
the Federal Reserve System (“Federal Reserve”). Prior to Treasury’s investment in
128            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      AIG, FRBNY extended an $85 billion revolving credit facility to AIG in September
      Revolving Credit Facility: Line of              2008. With the passage of EESA on October 3, 2008, Treasury, through SSFI,
      credit for which borrowers pay a                took on a greater role in AIG’s bailout as the Government expanded and later
      commitment fee, allowing them to                restructured its aid.
      repeatedly draw down funds up to a                  The amount and types of Treasury’s outstanding AIG investments changed
      guaranteed maximum amount. The                  over time as a result of the execution of AIG’s January 2011 Recapitalization Plan
      amount of available credit decreases            (which resulted in the termination of FRBNY’s revolving credit facility, the transfer
      and increases as funds are borrowed             of FRBNY’s preferred SPV interests to Treasury, and the conversion of preferred
      and then repaid.                                shares into common stock), preferred equity interest repayments, and Treasury’s
                                                      sale of common stock. These various investments, as well as their stages and
                                                      restructurings, are described below.

                                                      FRBNY Revolving Credit Facility
                                                      In September 2008, FRBNY extended an $85 billion revolving credit facility to
                                                      AIG, which was secured by AIG’s assets, in an effort to stabilize the company. In
                                                      return, AIG committed 79.8% of its voting equity to a trust for the sole benefit of
                                                      the United States Treasury (the “AIG Trust”).441 While the $85 billion revolving
                                                      credit facility addressed the company’s severe liquidity shortage resulting from
      Credit Default Swap (“CDS”): A contract         collateral calls related to the company’s credit default swap (“CDS”) business and
      where the seller receives payments              securities lending activities, because the entire facility was drawn upon, AIG’s
      from the buyer in return for agreeing to        leverage ratios increased significantly. The rapid deterioration in AIG’s CDS and
      pay the buyer when a particular credit          securities lending businesses, combined with this increased leverage, put downward
      event occurs, such as when the credit           pressure on its credit rating.442 Federal officials feared that future downgrades in
      rating on a bond is downgraded or a             AIG’s credit rating could have “catastrophic” effects on the company, forcing it
      loan goes into default. The buyer does          into bankruptcy.443 FRBNY and Treasury determined that this possibility posed a
      not need to own the asset covered by            threat to the nation’s financial system and decided that additional transactions were
      the contract, meaning the swap can              necessary to modify the revolving credit facility.444
      serve essentially as a bet against the
      underlying bond or loan.                        Restructurings of AIG Assistance
                                                      In November 2008 and March 2009, FRBNY and Treasury took several actions to
                                                      stabilize AIG’s operations.445

                                                      Initial TARP Investment
                                                      First, on November 25, 2008, Treasury purchased $40 billion in AIG preferred
                                                      shares under TARP, the proceeds of which went directly to FRBNY to pay down
                                                      a portion of the outstanding balance of the existing revolving credit facility. In
      Cumulative Preferred Stock: Stock               return, Treasury received AIG Series D cumulative preferred stock and warrants to
      requiring a defined dividend payment. If        purchase AIG common stock.446 After that payment, the total amount available to
      the company does not pay the dividend           AIG under FRBNY’s revolving credit facility was reduced from $85 billion to $60
      on schedule, it still owes the missed           billion.
      dividend to the stock’s owner.
                                                      Creation of Maiden Lane II & III
                                                      Second, also in November 2008, FRBNY created Maiden Lane II, an SPV, to
                                                      take significant mortgage-backed securities off AIG’s books. FRBNY lent $19.5
                                                      billion (out of $22.5 billion committed) to Maiden Lane II to fund the purchase of
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013           129




residential mortgage-backed securities (“RMBS”) associated with AIG’s securities
lending program. This RMBS was in the securities-lending portfolios of several of
AIG’s U.S.-regulated insurance subsidiaries.
    Finally, also in November 2008, FRBNY created Maiden Lane III, another
SPV, to which FRBNY lent $24.3 billion (out of $30 billion committed) to buy
from AIG’s counterparties some of the collateralized debt obligations (“CDOs”)                 Collateralized Debt Obligation (“CDO”):
underlying the CDS contracts written by AIG.                                                   A security that entitles the purchaser
                                                                                               to some part of the cash flows from a
Second TARP Investment                                                                         portfolio of assets such as mortgage-
On March 2, 2009, Treasury and FRBNY announced a restructuring of                              backed securities, bonds, loans, or
Government assistance to AIG that, according to Treasury, was designed to                      other CDOs.
strengthen the company’s capital position.447 These measures included the
conversion of Treasury’s first TARP investment and Treasury’s commitment to
fund a second TARP investment in AIG.
    On April 17, 2009, AIG and Treasury signed a securities exchange agreement
under which Treasury exchanged the Series D cumulative preferred stock, which
required AIG to make quarterly dividend and interest payments, for $41.6 billion               Non-Cumulative Preferred Stock:
(including $1.6 billion in missed dividend payments) of less valuable Series E                 Preferred stock with a defined
non-cumulative preferred stock, which required AIG to make dividend and interest               dividend, without the obligation to pay
payments only if AIG’s board of directors declared a dividend. Additionally, on                missed dividends.
April 17, 2009, Treasury committed to fund an equity capital facility under which
AIG could draw down up to $29.8 billion in exchange for Series F non-cumulative                Equity Capital Facility: Commitment
preferred stock (that had similar terms to the Series E) and additional warrants, of           to invest equity capital in a firm
which AIG drew down $27.8 billion.448                                                          under certain future conditions. An
                                                                                               equity facility when drawn down is
Creation of Additional Special Purpose Vehicles and Sale of Assets Under SPVs                  an investment that increases the
The March 2009 restructuring measures also included an authorization for FRBNY                 provider’s ownership stake in the
to acquire up to $26 billion of preferred equity interests in two SPVs, AIA Aurora             company. The investor may be able to
LLC (“AIA SPV”) and ALICO Holdings LLC (“ALICO SPV”). The creation of the                      recover the amount invested by selling
SPVs also facilitated the independence of these two subsidiaries in anticipation of a          its ownership stake to other investors
sale or initial public offering (“IPO”).449 Treasury received payments for its interest        at a later date.
in the SPVs and no longer holds an investment in the two SPVs.
    Under the transaction’s original terms, with limited exceptions, all proceeds
from the voluntary sale, public offering, or other liquidation of the assets or
businesses held by the SPVs had to be used first to fully redeem FRBNY’s interests
in the SPVs and second to reduce the outstanding principal balance of AIG’s
revolving credit facility. On December 1, 2009, FRBNY received $16 billion in
preferred equity interests in the AIA SPV and $9 billion in the ALICO SPV.450
AIG later completed an IPO of 8.1 billion shares of AIA Group Limited and a
sale of 1.72 billion shares of AIA and applied the $26.5 billion in total proceeds to
amounts owed to FRBNY and Treasury.451                                                         For a more detailed description of the
    On November 1, 2010, AIG sold ALICO to MetLife, Inc., for $16.2 billion,                   disposition of Treasury’s interest in
$7.2 billion of which was paid in cash and $9 billion in equity interests in MetLife.          the SPVs, see SIGTARP’s April 2012
These equity interests were initially held in the ALICO SPV and were sold on                   Quarterly Report, pages 112-113.
March 2, 2011, for $9.6 billion.452
130           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     AIG Recapitalization Plan
                                                     On January 14, 2011, AIG executed its Recapitalization Plan with the Government,
                                                     which resulted in extinguishing FRBNY’s revolving credit facility, retiring FRBNY’s
                                                     remaining interests in the SPVs and transferring those interests to Treasury, and
                                                     increasing Treasury’s TARP investment in AIG. AIG repaid $20.7 billion owed
                                                     to FRBNY’s revolving credit facility with proceeds from the AIA IPO and ALICO
                                                     sale. AIG drew down $20.3 billion in TARP funds under a Series F equity capital
                                                     facility to purchase certain of FRBNY’s interests in the ALICO SPV and AIA SPV
                                                     and transferred those interests to Treasury. AIG exchanged all prior outstanding
                                                     preferred shares held by the Government and issued new common stock to
                                                     Treasury representing a 92.1% interest in AIG. Treasury also created a new $2
      For a more detailed description of             billion Series G equity capital facility, which was never drawn down.453
      the AIG Recapitalization Plan, see                  For the period November 25, 2008, to January 14, 2011, AIG had failed to pay
      SIGTARP’s January 2011 Quarterly               a total of $7.9 billion in dividend payments.454 After the Recapitalization Plan was
      Report, pages 135-139.                         executed, AIG no longer had an obligation to pay dividends.

                                                     Treasury’s Equity Ownership Interest in AIG
                                                     As part of the Recapitalization Plan, AIG extinguished all prior outstanding
                                                     preferred shares held by the Government, comprising $41.6 billion of Series E
                                                     preferred shares and $7.5 billion drawn from the Series F equity capital facility.
                                                     In exchange, it issued 1.655 billion shares of common stock (which included 563
                                                     million Series C shares held by the AIG Trust for the benefit of the U.S. Treasury),
                                                     representing 92.1% of the common stock of AIG.455 The AIG Trust was then
                                                     terminated. AIG issued 10-year warrants to its existing non-Government common
                                                     shareholders to purchase up to a cumulative total of 75 million shares of common
                                                     stock at a strike price of $45 per share.456
                                                         In a series of six offerings from May 2011 through December 2012, Treasury
                                                     sold its 1.655 billion shares of AIG’s common stock at an average price of $31.18
                                                     per share.457 The last of those sales took place on December 11, 2012, when
                                                     Treasury sold its remaining 234 million shares for $32.50 per share.458 The total
                                                     proceeds to Treasury from the final sale were $7.6 billion. As reflected on Treasury’s
                                                     TARP books and records, taxpayers have recouped $54.4 billion of the $67.8 billion
                                                     in TARP funds invested in AIG and realized losses from an accounting standpoint
                                                     of $13.5 billion on Treasury’s sale of AIG stock.459 The shares sold included
                                                     AIG common stock that Treasury obtained from FRBNY after the January 2011
                                                     restructuring of the FRBNY and Treasury investments. According to Treasury, the
                                                     Government overall made a $4.1 billion gain on the common stock sales, and $956
                                                     million has been paid in dividends, interest, and other income.460 This does not
                                                     include payments made to FRBNY prior to the restructuring measures completed
                                                     in January 2011.
                                                         On March 1, 2013, Treasury sold its remaining investment in AIG, which
                                                     consisted of 2.7 million warrants that would have provided Treasury the right to
                                                     purchase AIG common stock at an exercise price of $50 per share.461 AIG bought
                                                     the warrants for $25.2 million, or about $9.35 per share. The same day the
                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   131




transaction was completed, AIG’s closing stock price was $37.85 per share on the
New York Stock Exchange.462
    Table 2.35 provides details of Treasury’s sales of AIG common stock and
AIG’s buybacks of its stock. AIG was required to pay Treasury’s expenses for the
registration of shares and underwriting fees, up to 1% of the amount offered by
Treasury.463

TABLE 2.35
                                                                                                                   AIG’S BUYBACKS OF
 TREASURY SALES OF AIG COMMON SHARES
                                                                                                                         SHARES
                      # Shares             Share         Proceeds                Remaining              UST          # Shares            Amount
 Date*                (Millions)           Price         (Millions)                 Shares         Equity %          (Millions)         (Millions)
 5/24/2011                 200.0         $29.00              $5,800         1,455,037,962                 77%                  —                 —
 3/8/2012                  206.9         $29.00              $6,000         1,248,141,410                 70%             103.4            $3,000
 5/6 and
                           188.5         $30.50              $5,750         1,059,616,821                 61%               65.6           $2,000
 5/7/2012
 8/3 and
                           188.5         $30.50              $5,750            871,092,231                53%               98.4           $3,000
 8/6/2012
 9/10 and
                           636.9         $32.50            $20,700             234,169,156                16%             153.8            $5,000
 9/11/2012
 12/14/2012                234.2         $32.50              $7,610                          0              0%                  0                $0
 Total                  1,655.0                           $51,610                                                        421.2          $13,000
 Notes: Numbers may be affected by rounding.

 *Sales with two dates means that an overallotment was also sold and is included in data.

 Sources: Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20
 Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013; AIG, Press Release, “AIG Announces the U.S.
 Department of Treasury Completes Offering of AIG Common Stock,” 5/10/2012, http://phx.corporate-ir.net/phoenix.zhtml?c=76115&p=irol-
 newsArticle&ID=1694756&highlight=, accessed 4/1/2013; AIG, Press Release, “AIG Announces Completion of the U.S. Department of the Treasury
 Offering of AIG Common Stock,” 8/8/2012, http://phx.corporate-ir.net/phoenix.zhtml?c=76115&p=irol-newsArticle&ID=1723891&highlight=, accessed
 4/1/2013; AIG, Press Release, “AIG Announces U.S. Department of the Treasury Pricing of Offering to Sell AIG Common Stock,” 9/10/2012, http://
 phx.corporate-ir.net/phoenix.zhtml?c=76115&p=irol-newsArticle&ID=1733749&highlight=, accessed 4/1/2013; AIG, Press Release, “AIG Announces
 Completion of the U.S. Treasury’s $7.6 Billion Offering of AIG Common Stock,” 12/14/2012, http://phx.corporate-ir.net/phoenix.zhtml?c=76115&p=irol-
 newsArticle&ID=1767431&highlight=, accessed 4/1/2013.
132            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      FRBNY’s Sales of Maiden Lane II Securities
      CUSIP number (“CUSIP”): Unique                  On February 28, 2012, FRBNY completed a series of 12 sales of securities in
      identifying number assigned to all              the Maiden Lane II portfolio.464 FRBNY sold a total of 773 CUSIP numbers
      registered securities in the United             (“CUSIPs”) from the Maiden Lane II portfolio, with a face amount totaling $29
      States and Canada; the name                     billion.465
      originated with the Committee on                     According to FRBNY, its management of the Maiden Lane II portfolio resulted
      Uniform Securities Identification               in full repayment of the $19.5 billion loan extended by FRBNY to Maiden Lane
      Procedures.                                     II and generated a net gain of approximately $2.3 billion, plus $580 million in
                                                      accrued interest on the loan.466 According to FRBNY, as of March 31, 2013, a
                                                      cash balance of about $64 million remained in Maiden Lane II to pay for final
      For a more detailed description of the          expenses of winding down the portfolio.467
      Maiden Lane II securities sales, see
      SIGTARP’s October 2012 Quarterly
                                                      FRBNY’s Sales of Maiden Lane III Securities
      Report, pages 128-129.
                                                      From April to August 2012, FRBNY sold a total of 371 CUSIPs from Maiden Lane
                                                      III, with a face amount of $45.6 billion, of which AIG received $5.6 billion.468
                                                          According to FRBNY, its management of the Maiden Lane III portfolio resulted
                                                      in full repayment of the $24.3 billion loan extended by FRBNY to Maiden Lane
                                                      III and generated a net gain of approximately $5.9 billion, plus $737 million in
                                                      accrued interest on the loan.469 According to FRBNY, as of March 31, 2013, a cash
                                                      balance of about $22 million remained in Maiden Lane III to pay for final expenses
                                                      of winding down the portfolio.470
                                                          According to auction details released by FRBNY on November 23, 2012, AIG
      For a more detailed description of the
                                                      received $5.6 billion as repayment of its equity contribution to Maiden Lane III,
      Maiden Lane III securities sales, see
      SIGTARP’s October 2012 Quarterly                including interest.471 After FRBNY’s loan to Maiden Lane III and AIG’s equity
      Report, pages 129-130.                          interest were repaid with interest, FRBNY and AIG split remaining auction
                                                      proceeds, with FRBNY receiving $5.9 billion and AIG receiving $2.9 billion.472
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013             133




Targeted Investment Program
Treasury invested a total of $40 billion in two financial institutions, Citigroup
Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
in return for preferred shares paying quarterly dividends at an annual rate of 8%
and warrants from each institution.473 According to Treasury, TIP’s goal was to
“strengthen the economy and protect American jobs, savings, and retirement
security [where] the loss of confidence in a financial institution could result in
significant market disruptions that threaten the financial strength of similarly
situated financial institutions.”474 Both banks repaid TIP in December 2009.475 On
March 3, 2010, Treasury auctioned the Bank of America warrants it received under
TIP for $1.24 billion.476 On January 25, 2011, Treasury auctioned the Citigroup
warrants it had received under TIP for $190.4 million.477

Asset Guarantee Program
Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
provide loss protection on a pool of Citigroup assets valued at approximately $301
billion. In return, as a premium, the Government received warrants to purchase
Citigroup common stock and $7 billion in preferred stock. The preferred stock was
subsequently exchanged for trust preferred securities (“TRUPS”).478                         Trust Preferred Securities (“TRUPS”):
     Treasury received $4 billion of the TRUPS and FDIC received $3 billion.479             Securities that have both equity
Although Treasury’s asset guarantee was not a direct cash investment, it exposed            and debt characteristics created by
taxpayers to a potential TARP loss of $5 billion. On December 23, 2009, in                  establishing a trust and issuing debt
connection with Citigroup’s TIP repayment, Citigroup and Treasury terminated                to it.
the AGP agreement. Although at the time of termination the asset pool suffered
a $10.2 billion loss, this number was below the agreed-upon deductible and the
Government suffered no loss.480
     At that time, Treasury agreed to cancel $1.8 billion of the TRUPS issued by            For a discussion of the basis of the
Citigroup, reducing the premium it received from $4 billion to $2.2 billion, in             decision to provide Federal assistance to
exchange for the early termination of the loss protection. FDIC retained all of its         Citigroup, see SIGTARP’s audit report,
$3 billion in securities.481 Pursuant to that termination agreement, on December            “Extraordinary Financial Assistance
28, 2012, FDIC transferred $800 million of those securities to Treasury because             Provided to Citigroup, Inc.,” dated
Citigroup’s participation in FDIC’s Temporary Liquidity Guarantee Program closed            January 13, 2011.
without a loss.482 On February 4, 2013, Treasury exchanged the $800 million of
securities it received from FDIC into Citigroup subordinated notes, which it then
sold for $894 million.483
     Separately, on September 29, 2010, Treasury entered into an agreement with
Citigroup to exchange the remaining $2.2 billion in Citigroup TRUPS that it then
held under AGP for new TRUPS. Because the interest rate necessary to receive
par value was below the interest rate paid by Citigroup to Treasury, Citigroup
increased the principal amount of the securities sold by Treasury by an additional
$12 million, thereby enabling Treasury to receive an additional $12 million in
134   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             proceeds from the $2.2 billion sale of the Citigroup TRUPS, which occurred on
                                             September 30, 2010.484 On January 25, 2011, Treasury auctioned the Citigroup
                                             warrants it had received under AGP for $67.2 million.485 In addition to recovering
                                             the full bailout amount, taxpayers have received $13.4 billion over the course of
                                             Citigroup’s participation in AGP, TIP, and CPP, including dividends, other income,
                                             and warrant sales.486
                                                 Bank of America announced a similar asset guarantee agreement with respect
                                             to approximately $118 billion in Bank of America assets, but the final agreement
                                             was never executed. Bank of America paid $425 million to the Government as a
                                             termination fee.487 Of this $425 million, $276 million was paid to Treasury,
                                             $92 million was paid to FDIC, and $57 million was paid to the Federal Reserve.488
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013             135




ASSET SUPPORT PROGRAMS
Three TARP programs have focused on supporting markets for specific asset
classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
Private Investment Program (“PPIP”), and the Unlocking Credit for Small
Businesses (“UCSB”) program.
    TALF was designed to support asset-backed securities (“ABS”) transactions
by providing eligible borrowers $71.1 billion in non-recourse loans through the             Non-Recourse Loan: Secured loan
Federal Reserve Bank of New York (“FRBNY”) to purchase non-mortgage-backed                  in which the borrower is relieved of
ABS and commercial mortgage-backed securities (“CMBS”). Treasury initially                  the obligation to repay the loan upon
obligated $4.3 billion in TARP funds to purchase and manage loan collateral from            surrendering the collateral.
any TALF loans that defaulted.489 On January 15, 2013, Treasury and FRBNY said
the TARP-funded credit protection was no longer needed because lending fees                 Collateral: Asset pledged by a
collected by TALF had exceeded the amount of loans still outstanding.490 All TARP           borrower to a lender until a loan is
funding for TALF has now been either deobligated or repaid.491 Of the $71.1 billion         repaid. Generally, if the borrower
in TALF loans, none have defaulted and $381.9 million remains outstanding as of             defaults on the loan, the lender gains
March 31, 2013.492                                                                          ownership of the pledged asset and
    PPIP uses a combination of private equity and Government equity and debt                may sell it to satisfy the debt. In TALF,
through TARP to facilitate purchases of legacy mortgage-backed securities (“MBS”)           the ABS or CMBS purchased with
held by financial institutions. In July 2009, Treasury announced the selection              the TALF loan is the collateral that is
of nine Public-Private Investment Fund (“PPIF”) managers. Treasury originally               posted with FRBNY.
obligated $22.4 billion in TARP funds to the program, then reduced the obligation
over time when several PPIFs did not use the full amounts available to them. As
of March 31, 2013, Treasury has obligated $19.6 billion in TARP funds to the
program. One PPIP manager, The TCW Group Inc. (“TCW”), withdrew soon
after the program began. Four PPIP managers liquidated their portfolios in 2012
and fully repaid Treasury’s debt and equity: Invesco Legacy Securities Master
Fund, L.P. (“Invesco”), AllianceBernstein Legacy Securities Master Fund, L.P.
(“AllianceBernstein”), RLJ Western Asset Public/Private Master Fund, L.P. (“RLJ
Western”), and BlackRock Public-Private Investment Fund (“BlackRock”).493 In
the quarter ended March 31, 2013, Wellington Management Legacy Securities
PPIF Master Fund, LP (“Wellington”) finished repaying Treasury and liquidated
its portfolio. The remaining three PPIP managers — AG GECC PPIF Master
Fund, L.P. (“AG GECC”), Marathon Legacy Securities Public-Private Investment
Partnership, L.P. (“Marathon”), and Oaktree PPIP Fund, L.P. (“Oaktree”) —
have up to five years from the end of their investment period in order to sell their
holdings and return the proceeds to Treasury and other investors.494
    Through the UCSB loan support initiative, Treasury purchased $368.1 million
in 31 SBA 7(a) securities, which are securitized small-business loans.495 According
to Treasury, on January 24, 2012, Treasury sold its remaining securities and ended
the program with a total investment gain of about $9 million for all the securities,
including sale proceeds and payments of principal, interest, and debt.496
136            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      TALF
                                                      TALF, which was announced in November 2008, issued loans collateralized by
                                                      eligible ABS.497 According to FRBNY, TALF was “designed to increase credit
                                                      availability and support economic activity by facilitating renewed issuance of
                                                      consumer and business ABS.”498 TALF is divided into two parts:499

                                                      •	 a lending program, TALF, in which FRBNY originated and managed non-
                                                         recourse loans to eligible borrowers using eligible ABS and CMBS as collateral.
                                                         TALF’s lending program closed in 2010
                                                      •	 an asset disposition facility, TALF LLC, that purchases the collateral from
                                                         FRBNY if borrowers choose to surrender it and walk away from their loans or if
                                                         the collateral is seized in the event of default

                                                          The asset disposition facility, TALF LLC, is managed by FRBNY and remains
                                                      in operation.500 TALF loans are non-recourse (unless the borrower has made
                                                      any misrepresentations or breaches warranties or covenants), which means that
                                                      FRBNY cannot hold the borrower liable for any losses beyond the surrender of
                                                      collateral for the TALF loan.501
                                                          TALF LLC’s funding first comes from a fee charged to FRBNY for the
                                                      commitment to purchase any collateral surrendered by the borrowers. This fee is
                                                      derived from the principal balance of each outstanding TALF program loan.502 As
                                                      of March 31, 2013, $381.9 million in TALF loans was outstanding.503 According to
                                                      FRBNY, no TALF borrowers have surrendered collateral in lieu of repayment and
                                                      consequently no collateral has been purchased by TALF LLC since its inception.504

                                                      Lending Program
      For a discussion of the credit rating           TALF’s lending program made secured loans to eligible borrowers.505 The loans
      agency industry and an analysis of the          were issued with terms of three or five years and were available for non-mortgage-
      impact of NRSROs on TARP and the                backed ABS, newly issued CMBS, and legacy CMBS.506 The final maturity date of
      overall financial market, see SIGTARP’s         loans in the TALF portfolio is March 30, 2015.507
      October 2009 Quarterly Report, pages                To qualify as TALF collateral, the non-mortgage-backed ABS had to have
      113–148.                                        underlying loans for automobile, student, credit card, or equipment debt; insurance
                                                      premium finance; SBA-guaranteed small business loans; or receivables for
                                                      residential mortgage servicing advances (“servicing advance receivables”). Collateral
      Nationally Recognized Statistical Rating        was also required to hold the highest investment grade credit ratings from at least
      Organization (“NRSRO”): Credit rating           two nationally recognized statistical rating organizations (“NRSROs”).508
      agency registered with the SEC. Credit              To qualify as TALF collateral, newly issued CMBS and legacy CMBS had to
      rating agencies provide their opinion           have been issued by an institution other than a Government-sponsored enterprise
      of the creditworthiness of companies            (“GSE”) or an agency or instrumentality of the U.S. Government, offer principal
      and the financial obligations issued            and interest payments, not be junior to other securities with claims on the same
      by companies. The ratings distinguish           pool of loans, and possess the highest long-term investment grade credit rating
      between investment grade and non–               from at least two rating agencies.509 Newly issued CMBS had to be issued on or
      investment grade equity and debt                after January 1, 2009, while legacy CMBS were issued before that date.510
      obligations.
                                                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013          137




Loan Terms
TALF participants were required to use a TALF agent to apply for a TALF loan.511                                                     TALF Agent: Financial institution that
After the collateral (the particular asset-backed security financed by the TALF loan)                                                is party to the TALF Master Loan
was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,                                                      and Security Agreement and that
which represents the amount of money put up by the borrower (the borrower’s                                                          occasionally acts as an agent for the
“skin in the game”), was required for each TALF loan.512 Haircuts for non-                                                           borrower. TALF agents include primary
mortgage-backed ABS varied based on the riskiness and maturity of the collateral,                                                    and nonprimary broker-dealers.
and generally ranged between 5% and 16% for non-mortgage-backed ABS with
average lives of five years or less.513 The haircut for legacy and newly issued CMBS                                                 Haircut: Difference between the value
was generally 15% but increased above that amount if the average life of the CMBS                                                    of the collateral and the value of the
was greater than five years.514                                                                                                      loan (the loan value is less than the
    FRBNY lent each borrower the amount of the market price of the pledged                                                           collateral value).
collateral minus the haircut, subject to certain limitations.515 The borrower
delivered the collateral to the custodian bank, which collects payments generated                                                    “Skin in the Game”: Equity stake in an
by the collateral and distributes them to FRBNY (representing the borrower’s                                                         investment; down payment; the amount
payment of interest on the TALF loan).516 Any excess payments from the collateral                                                    an investor can lose.
above the interest due and payable to FRBNY on the loan go to the TALF
borrower.517                                                                                                                         Custodian Bank: Bank holding the
                                                                                                                                     collateral and managing accounts for
TALF Loans                                                                                                                           FRBNY; for TALF the custodian is Bank
TALF provided $59 billion of loans to purchase non-mortgage-backed ABS during                                                        of New York Mellon.
the lending phase of the program, which ended on March 11, 2010. As of March
31, 2013, $256.8 million was outstanding, all in student loans.518 Table 2.36 lists
all TALF loans collateralized by non-mortgage-backed ABS, by ABS sector.

TABLE 2.36
 TALF LOANS BACKED BY ABS (NON-MORTGAGE-BACKED COLLATERAL)
 ($ BILLIONS)

 ABS Sector
 Auto Loans                                                                                                           $12.8
 Credit Card Receivables                                                                                               26.3
 Equipment Loans                                                                                                         1.6
 Floor Plan Loans                                                                                                        3.9
 Premium Finance                                                                                                         2.0
 Servicing Advance Receivables                                                                                           1.3
 Small-Business Loans                                                                                                    2.2
 Student Loans                                                                                                           8.9
 Total                                                                                                               $59.0
 Notes: Numbers may not total due to rounding. Data as of 3/31/2013.

 Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.
 html, accessed 4/3/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/
 TALF_recent_operations.html, accessed 4/3/2013.
138   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                TALF provided $12.1 billion of loans to purchase CMBS during the lending
                                             phase of the program, which ended on June 28, 2010. Approximately 99% of the
                                             loan amount was used to purchase legacy CMBS, with 1% newly issued CMBS.519
                                             As of March 31, 2013, $125 million was outstanding.520 Table 2.37 includes all
                                             TALF CMBS loans.

                                             TABLE 2.37
                                              TALF LOANS BACKED BY CMBS                         ($ BILLIONS)

                                              Type of Collateral
                                              Assets
                                              Newly Issued CMBS                                                                                                     $0.1
                                              Legacy CMBS                                                                                                           12.0
                                              Total                                                                                                               $12.1
                                              Notes: Numbers may not total due to rounding. Data as of 3/31/2013.

                                              Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.
                                              html, accessed 4/3/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/
                                              CMBS_recent_operations.html, accessed 4/3/2013.



                                                 TALF loans were issued with terms of three years or five years. The final
                                             maturity date of the last of the five-year loans is March 30, 2015.521 The
                                             outstanding TALF loans consist of $125 million in loans collateralized by CMBS
                                             and $256.8 million in loans collateralized by student loans. As of March 31, 2013,
                                             all of the TALF loans have more than a year remaining until maturity.522
                                                 The Federal Reserve posted on its website detailed information on the 177
                                             TALF borrowers, including the identities of the borrowers, the amounts and rates
                                             of the loans, and details about the collateral.523
                                                 As of March 31, 2013, $70.7 billion in TALF loans had been repaid. According
                                             to FRBNY, the outstanding collateral on the remaining $381.9 million in TALF
                                             loans was performing as expected.524

                                             Asset Disposition Facility
                                             When FRBNY created TALF LLC, TARP loaned the facility $100 million.525 As
                                             of March 31, 2013, the $100 million was repaid in full along with $13 million in
                                             interest, according to Treasury.526 During the remaining two years of the program,
                                             any interest, fees, and gains collected above the remaining principal on outstanding
                                             TALF loans will be shared by Treasury (90%) and FRBNY (10%).527 As of March
                                             31, 2013, Treasury had received $310 million in additional gains and FRBNY had
                                             received $34.5 million.528

                                             Current Status
                                             As of March 31, 2013, TALF LLC had assets of $399 million, which consisted of
                                             interest and other income and fees earned from permitted investments.529 From
                                             its February 4, 2009, formation through March 31, 2013, TALF LLC had spent
                                             approximately $2.8 million on administration.530
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013          139




    When TALF closed for new loans in June 2010, FRBNY’s responsibilities
under the program shifted primarily to portfolio management, which includes the              Excess Spread: Funds left over
following duties:531                                                                         after required payments and other
                                                                                             contractual obligations have been met.
•	 maintaining documentation                                                                 In TALF it is the difference between
•	 overseeing the custodian that is responsible for holding ABS collateral                   the periodic amount of interest paid
•	 calculating and collecting principal and interest on TALF loans                           out by the collateral and the amount
•	 disbursing excess spread to TALF borrowers in accordance with the governing               of interest charged by FRBNY on the
   documents                                                                                 nonrecourse loan provided to the
•	 monitoring the TALF portfolio                                                             borrower to purchase the collateral.
•	 collecting and managing collateral assets if a borrower defaults or surrenders the
   collateral in lieu of repayment
•	 paying TALF LLC interest that borrowers pay FRBNY on TALF loans, in excess
   of FRBNY’s cost of funding
140             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       Public-Private Investment Program
      Legacy Securities: Real estate-related           According to Treasury, the purpose of the Public-Private Investment Program
      securities originally issued before              (“PPIP”) is to purchase legacy securities from banks, insurance companies, mutual
      2009 that remained on the balance                funds, pension funds, and other eligible financial institutions as defined in EESA,
      sheets of financial institutions because         through Public-Private Investment Funds (“PPIFs”).532 PPIFs are partnerships,
      of pricing difficulties that resulted from       formed specifically for this program, that invest in mortgage-backed securities using
      market disruption.                               equity capital from private-sector investors combined with TARP equity and debt.
                                                       A private-sector fund management firm oversees each PPIF on behalf of these
      Equity: Investment that represents an            investors. According to Treasury, the aim of PPIP was to “restart the market for
      ownership interest in a business.                legacy securities, allowing banks and other financial institutions to free up capital
                                                       and stimulate the extension of new credit.”533 PPIP originally included a Legacy
                                                       Loans subprogram that would have involved purchases of troubled legacy loans
                                                       with private and Treasury equity capital, as well as an FDIC guarantee for debt
                                                       financing. TARP funds were never disbursed for this subprogram.
                                                           Treasury selected nine fund management firms to establish PPIFs. One
                                                       PPIP manager, TCW, subsequently withdrew. Five PPIP managers — Invesco,
                                                       AllianceBernstein, BlackRock, RLJ Western, and Wellington — have sold all
      For more information on the selection of         remaining securities, and fully repaid Treasury’s debt and equity investments.534
      PPIP managers, see SIGTARP’s October             The other three PPIP managers, AG GECC, Marathon, and Oaktree, ended their
      7, 2010, audit report entitled “Selecting        investment periods in the final quarter of 2012, and are managing the remaining
      Fund Managers for the Legacy                     assets in their funds’ portfolios. In the quarter ended March 31, 2013, AG GECC
      Securities Public-Private Investment             and Marathon finished repaying the Government’s debt and equity investments and
      Program.”                                        Oaktree continues to make payments. Private investors and Treasury co-invested
                                                       in the PPIFs to purchase legacy securities from financial institutions. The fund
      For more information on the withdrawal           managers raised private-sector capital. Treasury matched the private-sector equity
      of TCW as a PPIP manager, see                    dollar-for-dollar and provided debt financing in the amount of the total combined
      SIGTARP’s January 2010 Quarterly                 equity. Each PPIP manager was also required to invest at least $20 million of its
      Report, page 88.                                 own money in the PPIF.535 Each PPIF is approximately 75% TARP funded. PPIP
                                                       was designed as an eight-year program giving PPIP managers until 2017 to sell the
                                                       assets in their portfolio. Under certain circumstances, Treasury can terminate the
                                                       program early or extend it for up to two additional years.536
                                                           Treasury, the PPIP managers, and the private investors share PPIF profits and
                                                       losses on a pro rata basis based on their limited partnership interests. Treasury
                                                       also received warrants in each PPIF that give Treasury the right to receive an extra
                                                       portion of the fund’s final profits that would otherwise be distributed to the private
                                                       investors.537


      Debt: Investment in a business that is          Pro Rata: Refers to dividing something      Limited Partnership: Partnership in which
      required to be paid back to the investor,       among a group of participants according     there is at least one partner whose
      usually with interest.                          to the proportionate share that each        liability is limited to the amount invested
                                                      participant holds as a part of the whole.   (limited partner) and at least one partner
                                                                                                  whose liability extends beyond monetary
                                                                                                  investment (general partner).
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013         141




    The PPIP portfolio was valued at $1.6 billion as of March 31, 2013, according
to a process administered by Bank of New York Mellon, acting as valuation agent.538            Non-Agency Residential Mortgage-
That was $5.4 billion or 77% lower than the portfolio value at the end of the                  Backed Securities (“non-agency
previous quarter, reflecting fund managers’ sales of investments and the liquidation           RMBS”): Financial instrument backed
of PPIFs.539 The PPIP portfolio consists of eligible securities and cash assets. The           by a group of residential real estate
securities eligible for purchase by PPIFs (“eligible assets”) were non-agency                  mortgages (i.e., home mortgages for
residential mortgage-backed securities (“non-agency RMBS”) and commercial                      residences with up to four dwelling
mortgage-backed securities (“CMBS”) that meet the following criteria:540                       units) not guaranteed or owned by
                                                                                               a Government-sponsored enterprise
•	 issued before January 1, 2009 (legacy)                                                      (“GSE”), or a Government agency.
•	 rated when issued AAA or equivalent by two or more credit rating agencies
   designated as nationally recognized statistical rating organizations (“NRSROs”)
•	 secured directly by actual mortgages, leases, or other assets, not other securities
   (other than certain swap positions, as determined by Treasury)
•	 located primarily in the United States (the loans and other assets that secure the
   non-agency RMBS and CMBS)
•	 purchased from financial institutions that are eligible for TARP participation

PPIP Process
Funds chosen to participate in PPIP raised private capital, which was matched up
to a preset maximum by Treasury. Additionally, each PPIF could borrow from TARP
an amount up to 100% of the total private and Government equity investment.
Treasury, which provided about 75% of the program’s equity and debt financing,
also received warrants from each PPIF so that it could benefit further from funds
that turned a profit. The PPIP managers were required to provide monthly portfolio
reports to Treasury and other investors.541
    Obligated funds were not given immediately to PPIP managers during the
investment period. Instead, PPIP managers sent a notice to Treasury and the
private investors requesting a “draw down” of portions of obligated contributions in
order to purchase specific investments or to pay certain expenses and debts of the
partnerships.542

PPIF Purchasing Power
During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
of private-sector equity capital, which Treasury matched with a dollar-for-dollar
obligation, for a total of $14.7 billion in equity capital. Treasury also obligated
$14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing
power. The fund-raising stage for PPIFs was completed in December 2009. After
the capital-raising stage, Treasury obligated a total of $22.4 billion in a combination
of matching equity funds and debt financing for PPIP, which included funds for
TCW, which subsequently withdrew from the program. Table 2.39 shows equity
and debt committed by Treasury for the eight PPIFs that actively participated in
the program.
142   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 2.39
                                              PUBLIC-PRIVATE INVESTMENT PROGRAM COMMITTED PURCHASING POWER
                                              ($ BILLIONS)

                                                                                                     Private-                                                            Total
                                                                                                Sector Equity              Treasury              Treasury          Purchasing
                                              Manager                                                 Capital                Equity                  Debt              Powera
                                              Funds Still Managing
                                              Investments
                                                 AG GECC PPIF Master Fund, L.P.                               $1.2                $1.2                 $2.5                  $5.0
                                                 Marathon Legacy Securities
                                                 Public-Private Investment                                     0.5                 0.5                   0.9                   1.9
                                                 Partnership, L.P.
                                                 Oaktree PPIP Fund, L.P.                                       1.2                 1.2                   2.3                   4.6
                                              Subtotals                                                      $2.9                $2.9                  $5.8                $11.5
                                              Funds Winding Down or
                                              Dissolved
                                                 AllianceBernstein Legacy
                                                                                                              $1.2                $1.2                 $2.3                  $4.6
                                                 Securities Master Fund, L.P.
                                                 BlackRock PPIF, L.P.                                          0.7                 0.7                   1.4                   2.8
                                                 Invesco Legacy Securities
                                                                                                               0.9                 0.9                   1.7                   3.4
                                                 Master Fund, L.P.
                                                 RLJ Western Asset Public/
                                                                                                               0.6                 0.6                   1.2                   2.5
                                                 Private Master Fund, L.P.
                                                 Wellington Management Legacy
                                                                                                               1.1                 1.1                   2.3                   4.6
                                                 Securities PPIF Master Fund, LP
                                              Subtotals                                                      $4.5                $4.5                  $8.9                $17.9
                                              Totals for All Funds        b
                                                                                                             $7.4                $7.4                $14.7                 $29.4
                                              Notes: Numbers may not total due to rounding.
                                              a
                                                Table shows the total amount of purchasing power committed and available to each PPIF during its investment period.
                                              b
                                                TCW raised $156 million in private-sector equity capital, which was matched by Treasury. Treasury also provided $200 million of
                                                 debt. TCW repaid the total amount committed by Treasury in early 2010. This is not included in the total purchasing power.

                                              Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP
                                              data call, 4/4/2013.



                                                 The program gave each PPIP manager up to three years (the “PPIF investment
                                             period”) from closing its first private-sector equity contribution to draw upon the
                                             TARP funds obligated for the PPIF and buy legacy securities on behalf of private
                                             and Government investors.543 During that investment period, the program sought
                                             to maintain “predominantly a long-term buy and hold strategy.”544 The investment
                                             periods for all the PPIFs expired in 2012, and as a result, the PPIFs can no longer
                                             purchase legacy securities.545
                                                 At the end of the PPIF investment period, fund managers have five years ending
                                             in 2017 to manage and sell off the fund’s investment portfolio and return proceeds
                                             to taxpayers and investors. This period may be extended up to two years.546
                                                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013           143




Amounts Drawn Down
The eight PPIP managers drew down a total of approximately $24.4 billion to buy
legacy securities during their investment periods, spending $6.1 billion in private-
sector equity capital and $18.3 billion in TARP equity and debt funding.547 The last
fund’s investment period ended in December 2012 and no additional funding can
be drawn down.548 Treasury also disbursed $356.3 million to TCW, which TCW
fully repaid in early 2010 when it withdrew from the program.549
    As a group, the funds drew down and spent about 83% of the total money
available to them to invest in legacy real estate-backed securities.550 Oaktree, the
only fund limited solely to purchasing CMBS, drew down the smallest amount,
48%, of its available capital. On February 28, 2013, Treasury deobligated Oaktree’s
unused debt financing of $1.2 billion.551 Table 2.40 shows how much each PPIF
drew down from the private and Government money available to it during the
investment period.

TABLE 2.40
 PPIP CAPITAL DRAWN DOWN DURING INVESTMENT PERIOD                                                   ($ BILLIONS)

                                                         Total             Private-               Treasury               Treasury
                                                   Purchasing         Sector Equity           Equity Drawn             Debt Drawn            Total Drawn            Purchasing
 Manager                                               Powera          Drawn Down                     Down                   Down                   Down           Power Usedb
 Funds Still Managing
 Investments
    AG GECC PPIF Master Fund,
                                                             $5.0                   $1.1                  $1.1                   $2.2                   $4.5                    90%
    L.P.
    Marathon Legacy Securities
    Public-Private Investment                                 1.9                    0.5                    0.5                    0.9                    1.9                 100%
    Partnership, L.P.
    Oaktree PPIP Fund, L.P.                                   4.6                    0.6                    0.6                    1.1                    2.2                   48%
 Subtotals                                                $11.5                    $2.1                   $2.1                   $4.3                   $8.6                   75%
 Funds Winding Down or
 Dissolved
    AllianceBernstein Legacy
                                                             $4.6                   $1.1                  $1.1                   $2.1                   $4.3                    92%
    Securities Master Fund, L.P.
    BlackRock PPIF, L.P.                                      2.8                    0.5                    0.5                    1.1                    2.1                   76%
    Invesco Legacy Securities
                                                              3.4                    0.6                    0.6                    1.2                    2.3                   68%
    Master Fund, L.P.
    RLJ Western Asset Public/
                                                              2.5                    0.6                    0.6                    1.2                    2.5                 100%
    Private Master Fund, L.P.
    Wellington Management
    Legacy Securities PPIF Master                             4.6                    1.1                    1.1                    2.3                    4.6                 100%
    Fund, LP
 Subtotals                                                $17.9                    $3.9                   $3.9                   $7.9                 $15.8                    88%
 Totals for All Funds       c
                                                          $29.4                    $6.1                   $6.1                 $12.2                  $24.4                    83%
 Notes: Numbers may not total due to rounding.
 a
   Table shows the total amount of purchasing power committed and available to each PPIF during its investment period.
 b
    The percent of purchasing power used shows how much of the committed equity and debt was used by each fund.
 c
   TCW raised $156 million in private-sector equity capital, which was matched by Treasury. Treasury also provided $200 million of debt. TCW repaid the total amount committed by
   Treasury in early 2010. This is not included in the total purchasing power.

 Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 4/4/2013.
144   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Amounts Paid to Treasury
                                                     PPIP managers make TARP payments to Treasury for debt principal, debt interest,
                                                     equity capital, and equity distributions or profits. Eight PPIFs have fully repaid
                                                     their TARP debt and equity financing, including Marathon, Wellington, and AG
                                                     GECC, which finished repaying Treasury in the quarter ended March 31, 2013.552
                                                     Oaktree also made debt and equity payments to Treasury during the quarter, and
                                                     still owes $661 million.553 The nine PPIFs together had repaid $12 billion in TARP
                                                     debt and $6 billion in TARP equity, including payments by TCW, as of March 31,
                                                     2013.
                                                          In addition to repaying Treasury’s $18 billion capital investments, PPIP
                                                     managers paid a total of $2.9 billion in profits to the Government through March
                                                     31, 2013, including $36.3 million in warrant proceeds.554 Table 2.41 shows each
                                                     fund’s payments to Treasury through March 31, 2013.

                            TABLE 2.41
                             PPIP MANAGERS’ PAYMENTS TO TREASURY, AS OF 3/31/2013                                                           ($ MILLIONS)

                                                                                               Debt                 Debt               Equity                All Equity             Equity
                                                                                           Principal             Interest             Capital              Distribution            Warrant
                             Manager                                                      Payments             Payments            Paymentsa                Paymentsb            Paymentsc
                             Funds Still Managing Investments
                                AG GECC PPIF Master Fund, L.P.                                 $2,235                    $66             $1,117                   $1,696                    $—
                                Marathon Legacy Securities Public-
                                                                                                   949                    28                  475                     689                    —
                                Private Investment Partnership, L.P.
                                Oaktree PPIP Fund, L.P.                                            690                    16                  315                     352                    —
                             Subtotals                                                        $3,874                  $110              $1,907                   $2,737                    $—
                             Funds Winding Down or Dissolvedd
                                AllianceBernstein Legacy Securities
                                                                                               $2,128                    $58             $1,064                   $1,545                   $12
                                Master Fund, L.P.
                                BlackRock PPIF, L.P.                                             1,053                    34                  528                     921                    10

                                Invesco Legacy Securities Master
                                                                                                 1,162                    18                  581                     720                      3
                                Fund, L.P.

                                RLJ Western Asset Public/Private
                                                                                                 1,241                    37                  621                   1,041                    11
                                Master Fund, L.P.
                                UST/TCW Senior Mortgage
                                                                                                   200                   0.3                  156                     176                   0.5
                                Securities Fund, L.P.
                                Wellington Management Legacy
                                                                                                 2,299                    61               1,149                    1,797                    —
                                Securities PPIF Master Fund, LP
                             Subtotals                                                        $8,083                  $209              $4,100                   $6,202                    $36
                             Totals for All Funds                                           $11,957                   $319              $6,007                   $8,939                    $36
                             Notes: Numbers may not total due to rounding. Excludes management fees and expenses.
                             a
                               In April 2012, Treasury reclassified about $1 billion in combined payments from five PPIFs as equity capital payments instead of equity distributions.
                             b
                                 Treasury’s total equity distributions include equity capital repayments, gross income distributions, capital gains, and profits.
                             c
                               Treasury received equity warrants from the PPIFs, which give Treasury the right to receive a percentage of any profits that would otherwise be distributed to
                               the private partners in excess of their contributed capital.
                             d
                                AllianceBernstein, BlackRock, Invesco, RLJ Western, TCW, and Wellington have fully repaid all equity capital, debt, and debt interest, and have liquidated their
                                 investments. RLJ Western, Invesco, and TCW have additionally dissolved their PPIFs.

                             Sources: Treasury, Transactions Report, 3/28/2013; Treasury, response to SIGTARP data call, 4/4/2013; Treasury, Dividends and Interest Report,
                             4/10/2013.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   145




PPIP Manager Wellington Liquidates Holdings
During February 2013, Wellington indicated it liquidated its remaining PPIP
investments.555 According to Treasury, Wellington’s PPIF paid Treasury $479.5
million in profits as of March 31, 2013.556 By the time its investment period
terminated in October 2012, Wellington had drawn down 100% of the Treasury
funding available to it.557 As required by the program, Wellington fully repaid
Treasury’s equity investment of $1.1 billion and Treasury debt of $2.3 billion, with
interest. As of March 31, 2013, Wellington’s PPIF still had approximately $38.4
million in cash to pay for final audits and other wind-down expenses.558

PPIP Manager BlackRock Liquidates Holdings
On December 5, 2012, BlackRock announced it had liquidated its remaining
PPIP investments.559 According to Treasury, BlackRock’s PPIF paid Treasury $9.7
million in warrant proceeds and $354.9 million in profits as of March 31, 2013.560
By the time its investment period terminated in October 2012, BlackRock had
drawn down about 76% of the Treasury funding available to it, leaving $337 million
in unused debt financing.561 As required by the program, BlackRock fully repaid
Treasury’s equity investment of $528.2 million and Treasury debt of $1.1 billion,
with interest.562 As of March 31, 2013, BlackRock’s PPIF still had approximately
$3.3 million in cash to pay for final audits and other wind-down expenses.563

PPIP Manager AllianceBernstein Liquidates Holdings
On October 9, 2012, AllianceBernstein announced it had liquidated its remaining
PPIP investments.564 According to Treasury, AllianceBernstein paid Treasury $12
million in warrant proceeds and $287.2 million in profits as of March 31, 2013.565
The PPIF drew down 92% of the funds available to it, and fully repaid Treasury’s
equity investment of $1.1 billion and its Treasury debt of $2.1 billion, with interest,
leaving about $173 million in available debt financing that the AllianceBernstein
fund did not use.566 As of March 31, 2013, AllianceBernstein’s PPIF had no cash
remaining but had not yet been formally dissolved, according to Treasury.567

PPIP Manager RLJ Western Dissolves PPIF
On November 20, 2012, RLJ Western announced it had liquidated its remaining
PPIP investments.568 According to Treasury, RLJ Western paid Treasury $10.5
million in warrant proceeds and $296.8 million in profits as of March 31, 2013.569
When RLJ Western terminated its investment period in July 2012, it had drawn
down virtually 100% of the funds available to it. RLJ Western fully repaid Treasury’s
equity investment of $620.6 million and Treasury debt of $1.2 billion, with
interest.570 On December 31, 2012, RLJ Western filed a formal certificate with the
state of Delaware declaring that its PPIF had been dissolved.571

PPIP Manager Invesco Dissolves PPIF
Invesco was the first of the PPIP funds to sell its portfolio, announcing the
liquidation on April 3, 2012.572 According to Treasury, Invesco paid Treasury
$3.5 million in warrant proceeds and $57.5 million in profits.573 Invesco used 68%
146   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                of the funding available to it, and fully repaid Treasury’s equity investment of $581
                                                million and Treasury debt of $1.2 billion, with interest.574 On October 3, 2012,
                                                Invesco filed a formal certificate with the state of Delaware declaring that its PPIF
                                                had been dissolved.575 Treasury, which had deobligated Invesco’s unused debt
                                                financing in April 2012, deobligated Invesco’s unused equity financing following
                                                the fund’s dissolution on October 3, 2012.576

                                                Fund Performance
                                                Since inception, each fund has reported rates of return for its portfolio of
                                                investments based on a methodology requested by Treasury. Each PPIF’s
                                                performance — its gross and net returns since inception — as reported by PPIP
                                                managers is listed in Table 2.42.
                                                   The data in Table 2.42 constitutes a snapshot of the funds’ performance during
                                                the quarter ended March 31, 2013, and may not predict the funds’ performance
                                                over the long term.
                               TABLE 2.42

                                PPIF INVESTMENT STATUS FOR FUNDS STILL MANAGING INVESTMENTS, AS OF 3/31/2013
                                                                                                                        Cumulative     Internal Rate
                                                                                                 1-Month     3-Month         Since         of Return
                                                                                                  Return      Return     Inception   Since Inception
                                Manager                                                         (Percent)   (Percent)    (Percent)         (Percent)
                                                                                        Gross       5.01       13.29       155.65             24.97
                                  AG GECC PPIF Master Fund, L.P.
                                                                                        Net         5.14       13.44       151.05             24.52

                                  Marathon Legacy Securities Public-                    Gross       2.16       15.62       134.61             25.73
                                  Private Investment Partnership, L.P.                  Net         2.46       16.62       127.13             24.69
                                                                                        Gross       1.01        4.27         98.06            28.43
                                  Oaktree PPIP Fund, Inc.
                                                                                        Net         0.96        4.14         85.80            27.18
                                Source: PPIF Monthly Performance Reports, March 2013.
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013                          147




                                                                                            FIGURE 2.6
Securities Purchased by PPIFs                                                               AGGREGATE COMPOSITION OF PPIF
According to their agreements with Treasury, PPIP managers could trade in both              PURCHASES, AS OF 3/31/2013
                                                                                            Percentage of $1.6 Billion
RMBS and CMBS, except for Oaktree, which may purchase only CMBS.577 Figure
2.6 shows the collective value of securities held by all PPIFs as of March 31, 2013,
broken down by RMBS and CMBS.
                                                                                                   CMBS
    PPIF investments can be classified by underlying asset type. All non-agency
                                                                                                               69%              31%         RMBS
RMBS investments are considered residential. The underlying assets are mortgages
for residences with up to four dwelling units. For CMBS, the assets are commercial
real estate mortgages: office, retail, multi-family, hotel, industrial (such as
warehouses), mobile home parks, mixed-use (combination of commercial and/
or residential uses), and self-storage. Figure 2.7 breaks down CMBS investment
distribution by sector. As of March 31, 2013, the aggregate CMBS portfolio had              Notes: Numbers affected by rounding. Calculated based on
large concentrations in office (30%) and retail (31%) loans.                                monthly data supplied by the PPIF managers. Does not include
                                                                                            AllianceBernstein, BlackRock, Invesco, RLJ Western, TCW, and
    Non-agency RMBS and CMBS can be classified by the degree of estimated                   Wellington which have sold all investments.

default risk (sometimes referred to as “quality”). Investors are most concerned             Source: PPIF Monthly Performance Reports, March 2013.
about whether borrowers will default and the underlying collateral will be sold at a
loss. Estimated risk, or quality, attempts to measure the likelihood of that outcome.
                                                                                            FIGURE 2.7
There are no universal standards for ranking mortgage quality, and the designations
vary depending on context. In general, the highest-quality rankings are granted to          AGGREGATE CMBS PURCHASES BY
mortgages that have the strictest requirements regarding borrower credit, complete-         SECTOR, AS OF 3/31/2013
                                                                                            Percentage of $1.1 Billion
ness of documentation, and underwriting standards. Treasury characterizes these
investment-quality levels of risk for the types of mortgage loans that support non-                            Other

agency RMBS as follows:578                                                                    Lodging/              7%
                                                                                                 Hotel      10%
                                                                                                                               30%
•	 Prime — mortgage loan made to a borrower with good credit that generally                  Industrial 7%
   meets the lender’s strictest underwriting criteria. Non-agency prime loans
   generally exceed the dollar amount eligible for purchase by GSEs (jumbo loans)            Multi-family 15%

   but may include lower-balance loans as well.                                                                           31%
•	 Alt-A — mortgage loan made to a borrower with good credit but with limited                                                      Retail
   documentation or other characteristics that do not meet the standards for prime
   loans. An Alt-A loan may have a borrower with a lower credit rating, a higher            Notes: Numbers affected by rounding. Calculated based on
                                                                                            monthly data supplied by the PPIF managers. Does not include
   loan-to-value ratio, or limited or no documentation, compared with a prime               AllianceBernstein, BlackRock, Invesco, RLJ Western, TCW, and
                                                                                            Wellington which have sold all investments.
   loan.
                                                                                            Source: PPIF Monthly Performance Reports, March 2013.
•	 Subprime — mortgage loan made to a borrower with a poor credit rating.
•	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
   gives the borrower a set of choices about how much interest and principal to
   pay each month. This may result in negative amortization (an increasing loan
   principal balance over time).
•	 Other (RMBS) — RMBS that do not meet the definitions for prime, Alt-A,
   subprime, or option ARM but meet the definition of “eligible assets” above.
148   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Treasury characterizes CMBS according to the degree of “credit enhancement”
                                             supporting them:579

                                             •	 Super Senior — most senior originally rated AAA bonds in a CMBS
                                                securitization with the highest level of credit enhancement. Credit enhancement
                                                refers to the percentage of the underlying mortgage pool by balance that
                                                must be written down before the bond suffers any losses. Super senior bonds
                                                often compose approximately 70% of a securitization and, therefore, have
                                                approximately 30% credit enhancement at issuance.
                                             •	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
                                                receive interest and principal payments after super senior creditors but before
                                                junior creditors.580 AM bonds often compose approximately 10% of a CMBS
                                                securitization.
                                             •	 AJ (Junior) — the most junior bond in a CMBS securitization that attained a
                                                AAA rating at issuance.
                                             •	 Other (CMBS) — CMBS that do not meet the definitions for super senior,
                                                AM, or AJ but meet the definition of “eligible assets” above.

                                               Figure 2.8 and Figure 2.9 show the distribution of non-agency RMBS and
                                             CMBS investments held in PPIP by respective risk levels, as reported by PPIP
                                             managers.

                                             FIGURE 2.8	                                                    FIGURE 2.9
                                             AGGREGATE RMBS PURCHASES BY                                    AGGREGATE CMBS PURCHASES BY
                                             QUALITY, AS OF 3/31/2013                                       QUALITY, AS OF 3/31/2013
                                             Percentage of $0.5 Billion                                     Percentage of $1.1 Billion


                                                   Other - RMBS 4%
                                                                               Prime
                                                                                                                             AJ
                                                                          6%
                                                                                                                                  11%


                                              Subprime      54%                 36%        Alt-A



                                                                                                                                             89%       AM




                                             Notes: Numbers affected by rounding. Calculated based on       Notes: Numbers affected by rounding. Calculated based on
                                             monthly data supplied by the PPIF managers. Does not include   monthly data supplied by the PPIF managers. Does not include
                                             AllianceBernstein, BlackRock, Invesco, RLJ Western, TCW, and   AllianceBernstein, BlackRock, Invesco, RLJ Western, TCW, and
                                             Wellington which have sold all investments.                    Wellington which have sold all investments.

                                             Source: PPIF Monthly Performance Reports, March 2013.          Source: PPIF Monthly Performance Reports, March 2013.


                                                Non-agency RMBS and CMBS can be classified geographically, according to
                                             the states where the underlying mortgages are held. Figure 2.10 and Figure 2.11
                                             show the states with the greatest representation in the underlying non-agency
                                             RMBS and CMBS investments in PPIFs, as reported by PPIP managers.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   149




FIGURE 2.10	                                                       FIGURE 2.11
AGGREGATE GEOGRAPHICAL                                             AGGREGATE GEOGRAPHICAL
DISTRIBUTION — PERCENT OF                                          DISTRIBUTION — PERCENT OF
TOTAL RMBS, AS OF 3/31/2013                                        TOTAL CMBS, AS OF 3/31/2013

     40%                                                                15%
                                                                                 16%
                                                                                             14%
      30
              31%                                                       10

      20                                                                                                  8%

                                                                          5
      10                                                                                                              5%
                           11%
                                       8%          5%

       0                                                                  0
               CA          FL           NY          NJ                            NY          CA           TX           FL

Notes: Only states with largest representation shown. Calculated   Notes: Only states with largest representation shown. Calculated
based on monthly data supplied by the PPIF managers. Does not      based on monthly data supplied by the PPIF managers. Does not
include AllianceBernstein, BlackRock, Invesco, RLJ Western, TCW,   include AllianceBernstein, BlackRock, Invesco, RLJ Western, TCW,
and Wellington which have sold all investments.                    and Wellington which have sold all investments.

Source: PPIF Monthly Performance Reports, March 2013.              Source: PPIF Monthly Performance Reports, March 2013.


   Non-agency RMBS and CMBS can also be classified by the delinquency of
the underlying mortgages. Figure 2.12 and Figure 2.13 show the distribution of
non-agency RMBS and CMBS investments held in PPIP by delinquency levels, as
reported by PPIP managers.

FIGURE 2.12	                                                       FIGURE 2.13
AGGREGATE AVERAGE RMBS                                             AGGREGATE AVERAGE CMBS
DELINQUENCIES BY MARKET VALUE,                                     DELINQUENCIES BY MARKET VALUE,
AS OF 3/31/2013                                                    AS OF 3/31/2013
Percentage of $0.5 Billion                                         Percentage of $1.1 Billion


                                                                   0% 30−59 Days          60+ Days

                                                                                           15%

60+ Days 35%


                                       61% Current

                4%
       30−59                                                                                          85%
                                                                                                              Current
       Days


Notes: Numbers affected by rounding. Calculated based on           Notes: Numbers affected by rounding. Calculated based on
monthly data supplied by the PPIF managers. Does not include       monthly data supplied by the PPIF managers. Does not include
AllianceBernstein, BlackRock, Invesco, RLJ Western, TCW, and       AllianceBernstein, BlackRock, Invesco, RLJ Western, TCW, and
Wellington which have sold all investments.                        Wellington which have sold all investments.

Source: PPIF Monthly Performance Reports, March 2013.              Source: PPIF Monthly Performance Reports, March 2013.
150            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Unlocking Credit for Small Businesses (“UCSB”)/Small
      7(a) Loan Program: SBA loan program             Business Administration (“SBA”) Loan Support Initiative
      guaranteeing a percentage of loans for          On March 16, 2009, Treasury announced the Unlocking Credit for Small
      small businesses that cannot otherwise          Businesses (“UCSB”) program, which according to Treasury was designed to
      obtain conventional loans at reasonable         encourage banks to increase lending to small businesses. Through UCSB, Treasury
      terms.                                          purchased $368.1 million in securities backed by pools of loans from the Small
                                                      Business Administration’s (“SBA”) 7(a) Loan Program.581
      Pool Assemblers: Firms authorized                   Treasury signed contracts with two pool assemblers, Coastal Securities, Inc.
      to create and market pools of SBA-              (“Coastal Securities”), and Shay Financial Services, Inc. (“Shay Financial”),
      guaranteed loans.                               on March 2, 2010, and August 27, 2010, respectively.582 Under the governing
                                                      agreement, EARNEST Partners, on behalf of Treasury, purchased SBA pool
      SBA Pool Certificates: Ownership                certificates from Coastal Securities and Shay Financial without confirming to the
      interest in a bond backed by SBA-               counterparties that Treasury was the buyer.583 From March 19, 2010, to September
      guaranteed loans.                               28, 2010, Treasury purchased 31 floating-rate 7(a) securities from Coastal
                                                      Securities and Shay Financial for a total of approximately $368.1 million.584
                                                          In a series of sales from June 2011 through January 2012, Treasury sold all its
      For more information on SBA 7(a) Loan           SBA 7(a) securities, for total proceeds of $334.9 million, ending the program.585
      Program mechanics and TARP support              According to Treasury, over the life of the program Treasury also had received
      for the program, see SIGTARP’s April            $29 million and $13.3 million in amortizing principal and interest payments,
      2010 Quarterly Report, pages 105-106.           respectively.586

      For a full listing of the SBA 7(a)
      securities Treasury purchased through
      UCSB, including investment amounts,
      sales proceeds, and other proceeds
      received by Treasury, see SIGTARP’s
      April 2012 Quarterly Report, page 134.
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013         151




AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
During the financial crisis, Treasury, through TARP, launched three automotive
industry support programs: the Automotive Industry Financing Program (“AIFP”),
the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
                                                                                             For more information on GMAC/Ally
Program (“AWCP”). According to Treasury, these programs were established “to                 Financial, see “Taxpayers Continue to
prevent the collapse of the U.S. auto industry, which would have posed a significant         Own 74% of GMAC (Rebranded as
risk to financial market stability, threatened the overall economy, and resulted             Ally Financial Inc.) from the TARP
in the loss of one million U.S. jobs.”587 As of March 31, 2013, General Motors               Bailouts,” in SIGTARP’s January 2013
Company (“GM”) and GMAC Inc., now Ally Financial Inc. (“Ally Financial”),                    Quarterly Report, pages 147-164.
remain in TARP, owing $20.2 billion and $14.6 billion, respectively, to taxpayers.588
     AIFP, the largest of the three programs, has not expended any TARP funds for
the automotive industry since December 30, 2009.589 ASSP, designed to “ensure
that automotive suppliers receive compensation for their services and products,”
was terminated in April 2010 after all $413.1 million in loans made through it were
fully repaid.590 AWCP, a $640.8 million program, was designed to assure car buyers
that the warranties on any vehicles purchased during the bankruptcies of General
Motors Corp. and Chrysler LLC would be guaranteed by the Government. It was
terminated in July 2009 after all loans under the program were fully repaid upon
the companies’ emergence from bankruptcy.591
     Treasury initially obligated approximately $84.8 billion through these three
programs to GM, Ally Financial, Chrysler, and Chrysler Financial Services
Americas LLC (“Chrysler Financial”).592 Treasury originally obligated $5 billion
under ASSP but adjusted this amount to $413.1 million to reflect actual
borrowings, thereby reducing at that time the total obligation for all automotive
industry support programs to approximately $81.8 billion. Treasury ultimately
spent $79.7 billion in TARP funds on the auto bailout because $2.1 billion
in loan commitments to Chrysler were never drawn down.593 As of March 31,
2013, Treasury had received approximately $41.9 billion in principal repayments,
proceeds from preferred stock redemptions, and stock sale proceeds in addition
to $5.2 billion in dividends and interest.594 Taxpayers are owed $37.7 billion in
TARP auto funds, including the $2.9 billion loss on Chrysler. The amount and
types of Treasury’s outstanding AIFP investments have changed over time as a
result of principal repayments, preferred stock redemptions by the issuer, Treasury’s
sale of common stock, old loan conversions (into equity), and post-bankruptcy
restructurings.
     Treasury held 18% of the common stock outstanding in GM after selling 58.4
million shares between January 18, 2013, and April 11, 2013.595 In January 2013,
Treasury announced the initiation of a pre-arranged written trading plan to divest
its remaining shares following the buy back by GM of 200 million of its shares in
December 2012.596 Treasury also holds an administrative claim in the company’s
bankruptcy with an outstanding principal amount of approximately $848.7 million.
However, according to Treasury, it does not expect to recover any significant
additional proceeds from this claim.597 Additionally, Treasury holds approximately
74% of Ally Financial’s common stock and $5.9 billion in mandatorily convertible
152   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             preferred shares (“MCP”).598 On July 21, 2011, Treasury sold to Fiat North
                                             America LLC (“Fiat”) Treasury’s remaining equity ownership interest in Chrysler
                                             and Treasury’s rights to receive proceeds under an agreement with the United Auto
                                             Workers (“UAW”) retiree trust pertaining to the trust’s shares in Chrysler. Treasury
                                             retains the right to recover certain proceeds from Chrysler’s bankruptcy but,
                                             according to Treasury, it is unlikely to fully recover this claim.599
                                                 Treasury’s investments in these three programs and the companies’ principal
                                             repayments are summarized in Table 2.43.

                                             TABLE 2.43
                                              TARP AUTOMOTIVE PROGRAM INVESTMENTS AND PRINCIPAL REPAYMENTS,
                                              AS OF 3/31/2013 ($ BILLIONS)
                                                                                                                    Ally
                                                                                             General           Financial                              Chrysler
                                                                                             Motorsa               Inc.b          Chryslerc           Financial                 Total
                                              Automotive Industry
                                                                                                                                                                                       
                                              Financing Program
                                                 Treasury Investment                            $49.5               $17.2               $10.5                $1.5              $78.6
                                                 Principal Repaid                                 29.3                  2.5                7.6                 1.5               40.9
                                              Auto Supplier Support
                                                                                                                                                                                       
                                              Program
                                                 Treasury Investment                                0.3                                    0.1                                       0.4
                                                 Principal Repaid                                   0.3                                    0.1                                       0.4
                                              Auto Warranty
                                                                                                                                                                                       
                                              Commitment Program
                                                 Treasury Investment                                0.4                                    0.3                                       0.6
                                                 Principal Repaid                                   0.4                                    0.3                                       0.6
                                              Total Treasury Investment                        $50.2               $17.2               $10.9                 $1.5             $79.7
                                              Total Principal Repaid                           $29.9                 $2.5                $8.0                $1.5             $41.9
                                              Still Owed to Taxpayers                          $20.2               $14.6                 $2.9                $0.0             $37.7
                                              Realized Loss on
                                                                                                                                         $2.9                                          
                                              Investment
                                              Notes: Numbers may not total due to rounding.
                                              a
                                                Principal repaid includes a series of debt payments totaling $137.1 million recovered from GM bankruptcy.
                                              b
                                                Investment includes $884 million loan to GM, which it invested in GMAC in January 2009.
                                              c
                                                Principal repaid includes $560 million Fiat paid in July 2011 for Treasury’s remaining equity stake in Chrysler and for Treasury’s
                                                rights under an agreement with the UAW retirement trust related to Chrysler shares.

                                              Sources: Treasury, Transactions Report, 3/28/2013; Treasury, response to SIGTARP data call, 4/4/2013.



                                             Automotive Industry Financing Program
                                             According to Treasury, it originally provided $79.7 billion in TARP funds to
                                             support automakers and their financing arms and “avoid a disorderly bankruptcy”
                                             of any of the companies.600 Of AIFP-related loan principal repayments and share
                                             sale proceeds, as of March 31, 2013, Treasury has received approximately $29.3
                                             billion related to its GM investment, $2.5 billion related to its Ally Financial/
                                             GMAC investment, $7.6 billion related to its Chrysler investment, and $1.5 billion
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   153




related to its Chrysler Financial investment.601 As discussed below, additional
payments of $640.8 million and $413.1 million, respectively, were received under
the smaller AWCP and ASSP programs.602 As of March 31, 2013, Treasury had
received approximately $5.2 billion in dividends and interest from participating
companies.603
    Taxpayers are still owed $20.2 billion for the TARP investment in GM and
$14.6 billion for the TARP investment in Ally Financial.604 Taxpayers suffered a
$2.9 billion loss on the TARP investment in Chrysler. Chrysler Financial fully
repaid the TARP investment.

GM
GM is still in TARP and taxpayers are owed $20.2 billion for the investment in
GM. In return for its investment, Treasury held 18% of GM’s common stock as
of April 11, 2013. Treasury provided approximately $49.5 billion to GM through
AIFP, the largest of the automotive rescue programs. Of that amount, $19.4 billion
was provided before bankruptcy and $30.1 billion was provided as financing during
bankruptcy. During bankruptcy proceedings, Treasury’s loans were converted into
common or preferred stock in GM or debt assumed by GM. As a result of GM’s
bankruptcy, Treasury’s investment was converted to a 60.8% common equity stake
in GM, $2.1 billion in preferred stock in GM, and a $7.1 billion loan to GM ($6.7
billion through AIFP and $360.6 million through AWCP). As part of a credit
agreement with Treasury, $16.4 billion in TARP funds were placed in an escrow
account that GM could access only with Treasury’s permission.605 In addition,
Treasury has a claim in GM’s bankruptcy but does not expect to recover any
significant additional proceeds from this claim.606

Debt Repayments
As of March 31, 2013, GM had made approximately $756.7 million in dividend
and interest payments to Treasury under AIFP.607 GM repaid the $6.7 billion loan
provided through AIFP with interest, using a portion of the escrow account that
had been funded with TARP funds. What remained in escrow was released to GM
with the final debt payment by GM.608

Sale of GM Common Stock and GM’s Repurchase of Preferred Shares
From Treasury
In November and December 2010, GM successfully completed an initial public
offering (“IPO”) in which GM’s shareholders sold 549.7 million shares of common
stock and 100 million shares of Series B mandatorily convertible preferred shares
(“MCP”) for total gross proceeds of $23.1 billion.609 As part of the IPO priced at
$33 per share, Treasury sold 412.3 million common shares for $13.5 billion in net
proceeds (after taking into account underwriting fees associated with the IPO),
reducing its number of common shares to 500.1 million and its ownership in GM
from 60.8% to 33.3%.610 On December 15, 2010, GM repurchased Treasury’s
Series A preferred stock (83.9 million shares) for total proceeds of $2.1 billion and
154           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      For more on the results of GM’s                               a capital gain to Treasury of approximately $41.9 million.611 On January 13, 2011,
      November 2010 IPO, see SIGTARP’s                              Treasury’s ownership in GM was diluted from 33.3% to 32% as a result of GM
      January 2011 Quarterly Report, page                           contributing 61 million of its common shares to fund GM’s hourly and salaried
      163.                                                          pension plans.612
                                                                         On December 21, 2012, Treasury sold 200 million common shares to GM
                                                                    at $27.50 per share, for total proceeds of $5.5 billion.613 According to Treasury,
                                                                    the stock sale was the first step in a plan to fully exit its GM investment by early
                                                                    2014. As part of the transaction, Treasury agreed, among other things, to waive
                                                                    previously required reports from GM on its liquidity and budget and to drop a ban
                                                                    on GM owning private aircraft for its executives’ use.614 GM said it would take a
                                                                    charge of approximately $400 million for the share buyback.615 On January 18,
                                                                    2013, Treasury announced the initiation of a pre-arranged written trading plan in
                                                                    conjunction with the divestment of its remaining shares.616 Treasury sold 58.4 mil-
                                                                    lion shares as of April 11, 2013, under the trading plan which expired on April 17,
                                                                    2013.617 Taxpayers have realized losses from an accounting standpoint of $8.4
                                                                    billion on all GM common shares sold from November 2010 through April 11,
                                                                    2013, according to Treasury’s books and records.618 Table 2.44 summarizes
                                                                    Treasury’s sales of GM stock.
                    TABLE 2.44
                     TREASURY’S SALES OF GM COMMON SHARES
                                                                                Share                                                                             # Shares                 Remaining
                     Date                         # Shares Sold                 Price                 Net Proceeds                  Realized Loss                Remaining               Equity Owned
                                             In exchange for a TARP bailout, Treasury received a 61% stake in GM, which eventually included approximately 912
                     July 2009
                                             million common shares.
                     11/18/2010                     358,546,795               $32.75             $11,743,303,903                  $3,770,923,186              553,847,273                              37%
                     11/26/2010                       53,782,019              $32.75                 1,761,495,577                    565,638,475             500,065,254                              33%
                     12/19/2012                     200,000,000               $27.50                 5,500,000,000                  3,203,448,274             300,065,254                              22%
                     1/18/2013 –
                                                      58,392,078              $28.04a                1,637,839,844                    903,222,309             241,673,176                              18%
                     4/11/2013
                     Total                        670,720,892                                  $20,642,639,324                  $8,443,232,244
                     Notes:
                     a
                       Weighted average price of shares sold. Treasury’s January 18, 2013, trading plan gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC the discretion to sell up to
                       58,392,078 shares of common stock during a three-month period ending on April 17, 2013. Sales were completed on April 11, 2013.

                     Sources: Treasury, Transactions Report, 4/12/2013; Treasury, response to SIGTARP data call, 4/19/2013.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   155




    Based on its GM stock sales through April 11, 2013, in order to recoup its
total investment in GM, Treasury will need to recover an additional $19.9 billion
in proceeds from future stock sales. This translates to an average of $82.21 per
share on its remaining common shares in GM, not taking into account dividend
and interest payments received from GM.619 The break-even price — $82.21 per
share — is calculated by dividing the $19.9 billion (the amount that remained
outstanding to Treasury as of April 11, 2013) by the 241.7 million remaining
common shares owned by Treasury. If the $756.7 million in dividends and interest
received by Treasury as of March 31, 2013, is included in this computation, then
Treasury will need to recover $19.1 billion in proceeds, which translates into a
break-even price of $79.08 per share, not taking into account other fees or costs
associated with selling the shares.

Ally Financial, formerly known as GMAC
Ally Financial is still in TARP and taxpayers are owed $14.6 billion for the TARP
investment in it. In return for its investment, as of March 31, 2013, Treasury
holds approximately 74% of Ally Financial’s common stock and $5.9 billion worth
of mandatorily convertible preferred shares (“MCP”). As of March 31, 2013, Ally
Financial had made one principal payment of $2.5 billion and approximately $3.3
billion in dividend and interest payments to Treasury.620
     Ally Financial received $17.2 billion in three separate injections of TARP funds.
On December 29, 2008, Treasury purchased $5 billion in senior preferred equity
from GMAC and received an additional $250 million in preferred shares through
warrants that Treasury exercised immediately at a cost of $2,500.621 In January
2009, Treasury loaned GM $884 million to invest in GMAC.622 In May 2009,
Treasury exchanged this $884 million debt for a 35.4% common equity ownership
in GMAC.623 On May 21, 2009, Treasury made an additional investment in GMAC
when it purchased $7.5 billion of MCP and received warrants that Treasury
immediately exercised for an additional $375 million in MCP at an additional
cost of approximately $75,000.624 On December 30, 2009, Treasury invested
another $3.8 billion in GMAC, and Treasury received $2.5 billion in trust preferred
securities (“TRUPS”) and $1.3 billion in MCP. Treasury also received warrants,
which were immediately exercised, to purchase an additional $127 million in
TRUPS and $62.5 million in MCP at an additional cost of approximately $1,270
and $12,500, respectively.625 Additionally, Treasury converted $3 billion of its MCP
into GMAC common stock, increasing its common equity ownership from 35.4%
to 56.3%.626 On May 10, 2010, GMAC changed its name to Ally Financial Inc.627
     On December 30, 2010, Treasury announced the conversion of $5.5 billion
of its MCP in Ally Financial to common equity, increasing Treasury’s ownership
stake in Ally Financial’s common equity from 56.3% to 73.8%.628 On March 7,
2011, Treasury sold its $2.7 billion in TRUPS in Ally Financial in a public offering,
resulting in a $2.5 billion principal repayment to Treasury.629 As of March 31, 2013,
no other principal repayments have been made.
     As a result of its conversion of MCP to common stock in Ally Financial, and
for as long as Treasury maintains common equity ownership at or above 70.8%,
156               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




 Figure 2.14
 OWNERSHIP IN ALLY FINANCIAL/GMAC                                     Treasury can appoint six of the 11 directors on Ally Financial’s board.630 On August
                                                                      15, 2012, Treasury appointed Gerald Greenwald and Henry S. Miller as directors
                GM Trust
                                                                      of Ally Financial, bringing to six the number of directors it has appointed.631 The
  Third-Party                                                         conversion of $5.5 billion of Treasury’s MCP diluted the shares of other existing
  Investors               10%
                   8%                                                 shareholders in Ally Financial. Following the conversion, the private equity firm
                                                                      Cerberus Capital Management, L.P. (“Cerberus”) held 8.7%, third-party investors
  Cerberus 9%                                       United States
                                           74%      Department        collectively held 7.6%, an independently managed trust owned by GM held 5.9%,
                                                    of the            and GM directly held a 4% stake in Ally Financial’s common equity.632 GM’s inter-
                                                    Treasury
                                                                      ests have since been consolidated in the trust. Figure 2.14 shows the breakdown of
                                                                      common equity ownership in Ally Financial as of March 31, 2013.

 Notes: Numbers may be affected due to rounding.
                                                                      Proposed Ally Financial IPO
                                                                      On March 31, 2011, Ally Financial filed a Form S-1 Registration statement for
 Source: Ally Financial, Inc.: “Ownership Structure,” http://media.
 ally.com/index.php?s=51, accessed 4/5/2013.                          an IPO with the Securities and Exchange Commission (“SEC”).633 The document
                                                                      includes a prospectus relating to the issuance of Ally Financial common stock.634
                                                                      The prospectus also outlines certain aspects of Ally Financial’s business operations
                                                                      and risks facing the company.635
                                                                          Ally Financial stated that the proposed IPO would consist of “common stock
                                                                      to be sold by the U.S. Department of the Treasury.”636 Ally Financial has disclosed
                                                                      additional details about its proposed IPO in several amended Form S-1 Registration
                                                                      statements filed over time with the SEC, the most recent on October 5, 2012.637
                                                                      However, the offering has now been sidelined for 25 months.
                                                                          As of March 31, 2013, taxpayers are owed $14.6 billion for the TARP
                                                                      investment in Ally Financial. In return for the TARP investment, Treasury holds
                                                                      74% of Ally Financial’s common stock and $5.9 billion in MCP.638

                                                                      Ally Financial Subsidiary Files for Chapter 11 Bankruptcy Relief
                                                                      On May 14, 2012, Ally Financial announced that its mortgage subsidiary,
                                                                      Residential Capital, LLC, and certain of its subsidiaries (“ResCap”) filed for
                                                                      bankruptcy court relief under Chapter 11 of the U.S. Bankruptcy Code, and that
                                                                      it was exploring strategic alternatives for its international operations.639 As a result
                                                                      of the Chapter 11 filing, Ally Financial said that it deconsolidated ResCap from its
                                                                      financial statements and wrote down its equity interest in ResCap to zero.640 As of
                                                                      March 31, 2013, the outcome of the ResCap bankruptcy remained pending and
                                                                      unresolved.641

                                                                      Ally Financial Agrees to Sell International Assets for $9.2 Billion
                                                                      On November 21, 2012, Ally Financial announced it had reached agreements to
                                                                      sell its remaining international assets to several buyers for a total of approximately
                                                                      $9.2 billion in proceeds.642 Among the buyers was General Motors Financial
                                                                      Company, Inc. (“GM Financial”), which agreed to pay $4.2 billion to purchase
                                                                      Ally Financial’s auto finance operations in Europe and Latin America and its 40%
                                                                      stake in a joint venture in China. On April 2, 2013, Ally Financial said that it had
                                                                      completed the sale of most of its operations in Europe and Latin America to GM
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   157




Financial and received $2.6 billion in total proceeds, which included a $2.4 billion
payment at closing and $190 million in dividends paid prior to the closing.643 Ally
Financial said it expected the remaining sales of operations in France and Brazil,
and a joint venture stake in China, to close in stages during 2013.
    As part of the planned international sales to raise a total of $9.2 billion in
proceeds, Ally Financial also agreed to sell its Canadian auto finance operation
to Royal Bank of Canada for $4.1 billion and its Mexican insurance business to
ACE Group for $865 million.644 The Canadian operations sale was completed on
February 1, 2013, according to Ally Financial.645

Ally Bank Agrees to Sell Mortgage Servicing Rights for $865 Million
Ally Financial’s banking subsidiary, Ally Bank, announced in March 2013 that
it agreed to sell all its agency mortgage servicing rights to two buyers for a total
of approximately $865 million.646 On March 12, 2013, Ally Bank agreed to
sell a portfolio of agency mortgage servicing rights to Ocwen Financial Corp.
for approximately $585 million.647 The sale includes the transfer of Ally Bank’s
mortgage liabilities for most of the loans, which had an unpaid principal balance of
approximately $90 billion as of January 31, 2013. On March 21, 2013, Ally Bank
said it agreed to sell its remaining agency mortgage servicing rights to Quicken
Loans for approximately $280 million.648 The portfolio holds mortgages with an
unpaid principal balance of about $34 billion as of January 31, 2013. Ally Bank
said that when it completes both sales, it will have no mortgage servicing rights
assets.649
158            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                        ALLY FINANCIAL FAILS ANOTHER FEDERAL RESERVE STRESS TEST

                                                      On March 7, 2013, the Federal Reserve Board announced its annual stress test
                                                      results for the 18 largest bank holding companies, those with $50 billion or more
                                                      in total consolidated assets. Ally Financial was the only company of those 18 that
                                                      failed to meet a minimum capital standard during a hypothetical scenario of a
                                                      severe economic downturn over nine quarters.650 The Federal Reserve said that
                                                      the test scenario showed Ally Financial with a 1.5% Tier 1 common capital ratio,
                                                      which fell short of the minimum 5% ratio needed to be adequately capitalized.651
      For a discussion of the history and             The Tier 1 common capital ratio compares a company’s common equity to its risk-
      financial condition of Ally Financial,
      see SIGTARP’s January 2013 Quarterly
                                                      weighted assets to show how much of a capital cushion it has available to absorb
      Report, pages 147-164.                          potential losses. The Federal Reserve said its stress test findings were based “on an
                                                      assumption that Ally Financial remains subject to contingent liabilities associated with
                                                      Residential Capital, LLC.”652 The Federal Reserve also rejected Ally Financial’s capital
                                                      plan for 2013.653 In 2012, Ally Financial failed the Federal Reserve’s annual test with a
                                                      stressed ratio of 2.5%, the weakest of the banks tested.654

                                                                     ALLY FINANCIAL AND FEDERAL RESERVE STRESS TESTS, 2009-2013
                                                                                                                                          AGGREGATE RESULTS
                                                                            ALLY FINANCIAL RESULTS                                         OF BANKS TESTED
                                                                                                                              Of 19 banks tested, Ally and 9 others
                                                                  Fails; Treasury injects $11.3 billion in TARP
                                                       2009                                                                   ordered to raise $74.6 billion in Tier 1
                                                                  funds
                                                                                                                              common capital
                                                       2010                                Federal Reserve did not conduct formal stress tests
                                                                  Individual bank results not released, but
                                                                  Federal Reserve orders Ally to “make
                                                       2011                                                                   Aggregate results not released
                                                                  improvements” in stress testing, capital
                                                                  adequacy, problem assets
                                                                  Fails; Ally has 2.5% Tier 1 common capital                  The 19 banks tested have an aggregate
                                                       2012
                                                                  ratio, the lowest of banks testeda                          6.2% Tier 1 common capital ratioa
                                                                  Fails; Ally has 1.5% Tier 1 common capital                  The 18 banks tested have an aggregate
                                                       2013
                                                                  ratio, the lowest of banks testeda                          7.4% Tier 1 common capital ratioa
                                                       Notes: The Federal Reserve stress tested the 19 biggest bank holding companies in 2009, 2011, and 2012. It tested 18 in 2013
                                                       after MetLife deregistered as a bank holding company.
                                                       a
                                                         Stress-tested bank holding companies are required to maintain a Tier 1 common ratio above 5%.

                                                       Sources: The Supervisory Capital Assessment Program: Overview of Results, 5/7/2009; Comprehensive Capital Analysis and
                                                       Review: Objectives and Overview, 3/18/2011; Ally Financial 10-K, 2/25/2011; Comprehensive Capital Analysis and Review 2012:
                                                       Methodology and Results for Stress Scenario Projections, 3/13/2012; Dodd-Frank Act Stress Test 2013: Supervisory Stress Test
                                                       Methodology and Results, 3/7/2013.
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   159




Chrysler
Chrysler is no longer in TARP and taxpayers suffered a $2.9 billion loss on
the TARP investment in Chrysler. Through October 3, 2010, Treasury made
approximately $12.5 billion available to Chrysler directly through AIFP in three
stages: $4 billion before bankruptcy to CGI Holding LLC, which was the parent
of Chrysler and Chrysler Financial; $1.9 billion in financing to Chrysler during
bankruptcy; and $6.6 billion to Chrysler afterwards.655 In exchange, Treasury
received 9.9% of the common equity in Chrysler.
    On April 30, 2010, following the bankruptcy court’s approval of the plan
of liquidation for Chrysler, the $1.9 billion loan was extinguished without
repayment. In return, Treasury retained the right to recover proceeds from the
sale of assets that were collateral for the loan from the liquidation of Chrysler
assets.656 According to Treasury, it is unlikely to fully recover its initial investment
of approximately $1.9 billion related to the loan.657 As of March 31, 2013, Treasury
had recovered approximately $57.4 million from asset sales during bankruptcy.658
Of the $4 billion lent to Chrysler’s parent company, CGI Holding LLC, before
bankruptcy, $500 million of the debt was assumed by Chrysler while the remaining
$3.5 billion was held by CGI Holding LLC.659 Under the terms of this loan
agreement, as amended on July 23, 2009, Treasury was entitled to the greater of
approximately $1.4 billion or 40% of any proceeds that Chrysler Financial paid
to its parent company, CGI Holding LLC, after certain other distributions were
made.660 On May 14, 2010, Treasury accepted $1.9 billion in full satisfaction of its
$3.5 billion loan to CGI Holding LLC.661
    On May 24, 2011, Chrysler used the proceeds from a series of refinancing
transactions and an equity call option exercised by Fiat to repay the loans from
Treasury and the Canadian government.662 The repaid loans were made up of
$6.6 billion in post-bankruptcy financing (of which $2.1 billion was never drawn
down), and the $500 million in debt assumed by Chrysler.663 Treasury terminated
Chrysler’s ability to draw the remaining $2.1 billion TARP loan.664
    Over time, Fiat increased its ownership of Chrysler. On July 21, 2011, Treasury
sold to Fiat for $500 million Treasury’s remaining equity ownership interest in
Chrysler. Treasury also sold to Fiat for $60 million Treasury’s rights to receive
proceeds under an agreement with the United Auto Workers retiree trust pertaining
to the trust’s shares in Chrysler.665
    As of July 21, 2011, the Chrysler entities had made approximately $1.2 billion
in interest payments to Treasury under AIFP.666

Chrysler Financial
Chrysler Financial is no longer in TARP, having fully repaid the TARP investment.
In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
support Chrysler Financial’s retail lending. On July 14, 2009, Chrysler Financial
fully repaid the loan in addition to approximately $7.4 million in interest
payments.667 In connection with the $3.5 billion pre-bankruptcy loan remaining
with CGI Holding LLC, the parent company of Chrysler (the bankrupt entity) and
Chrysler Financial, Treasury was entitled to the greater of approximately
160   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             $1.4 billion or 40% of any proceeds that Chrysler Financial paid to its parent
                                             company, CGI Holding LLC, after certain other distributions were made.668 On
                                             May 14, 2010, Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion
                                             loan to CGI Holding LLC, thereby relinquishing any interest in or claim on
                                             Chrysler Financial.669 Seven months later, on December 21, 2010, TD Bank Group
                                             announced that it had agreed to purchase Chrysler Financial from Cerberus, the
                                             owner of CGI Holding LLC, for approximately $6.3 billion.670 TD Bank Group
                                             completed its acquisition of Chrysler Financial on April 1, 2011, and has rebranded
                                             Chrysler Financial under the TD Auto Finance brand.671

                                             Auto Supplier Support Program (“ASSP”)
                                             On March 19, 2009, Treasury announced a commitment of $5 billion to
                                             ASSP to “help stabilize the automotive supply base and restore credit flows in a
                                             critical sector of the American economy.”672 Because of concerns about the auto
                                             manufacturers’ ability to pay their invoices, suppliers had not been able to borrow
                                             from banks by using their receivables as collateral. ASSP enabled automotive parts
                                             suppliers to access Government-backed protection for money owed to them for the
                                             products they shipped to manufacturers. Under the program, Treasury made loans
                                             for GM ($290 million) and Chrysler ($123.1 million) that were fully repaid in April
                                             2010.673

                                             Auto Warranty Commitment Program (“AWCP”)
                                             AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
                                             and GM vehicle warranties during the companies’ restructuring in bankruptcy.674
                                             Treasury obligated $640.8 million to this program — $360.6 million for GM
                                             and $280.1 million for Chrysler.675 On July 10, 2009, the companies fully repaid
                                             Treasury upon their exit from bankruptcy.676
SECT IO N 3
              TARP OPERATIONS AND
              ADMINISTRATION
162   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   163




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.677 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.678 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.




TARP ADMINISTRATIVE AND PROGRAM
OPERATING EXPENDITURES
As of March 31, 2013, Treasury has obligated $367.3 million for TARP
administrative costs and $1 billion in programmatic operating expenditures for a
total of $1.4 billion since the beginning of TARP. Of that, $267 million has been
obligated in the year since March 31, 2012. According to Treasury, as of March
31, 2013, it had spent $310.9 million on TARP administrative costs and $852.2
million on programmatic operating expenditures, for a total of $1.2 billion since the
beginning of TARP.679 Of that, $270 million has been spent in the year since March
31, 2012.
    Much of the work on TARP is performed by private vendors rather than
Government employees. Treasury reported that as of March 31, 2013, it employs
58 career civil servants, 79 term appointees, and 23 reimbursable detailees, for a
total of 160 full-time employees.680 Between TARP’s inception in 2008 and March
31, 2013, Treasury had retained 147 private vendors — ­ 20 financial agents and
127 contractors, to help administer TARP.681 According to Treasury, as of March
31, 2013, 57 private vendors were active — 13 financial agents and 44 contractors,
some with multiple contracts.682 The number of private-sector staffers who provide
services under these agreements dwarfs the number of people working for OFS. As
of early 2013, Fannie Mae and Freddie Mac together identified about 765 people
dedicated currently to working on their TARP contracts.683 According to Treasury,
as of March 31, 2013, at least another 321 people were working on other active
OFS contracts, including financial agent and legal services contracts, for a total of
more than 1,085 private-sector employees working on TARP.684
    Table 3.1 provides a summary of the expenditures and obligations for TARP
administrative and programmatic operating costs through March 31, 2013. The
administrative costs are categorized as “personnel services” and “non-personnel
services.” Table 3.2 provides a summary of OFS service contracts, which include
costs to hire financial agents and contractors, and obligations through March 31,
2013, excluding costs and obligations related to personnel services, travel, and
transportation.
164   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 3.1
                                              TARP ADMINISTRATIVE AND PROGRAMMATIC OBLIGATIONS AND
                                              EXPENDITURES
                                                                                                               Obligations for Period Expenditures for Period
                                                                                                                 Ending 3/31/2013         Ending 3/31/2013

                                             Administrative

                                             Personnel Services

                                                 Personnel Compensation & Benefits                                         $111,667,236                           $111,602,411
                                             Total Personnel Services                                                     $111,667,236                          $111,602,411



                                             Non-Personnel Services
                                                 Travel & Transportation of Persons                                            $2,270,998                            $2,240,561
                                                 Transportation of Things                                                            11,960                                 11,960
                                                 Rents, Communications, Utilities & Misc.
                                                                                                                                    777,624                               693,277
                                                 Charges
                                                 Printing & Reproduction                                                                  402                                    402
                                                 Other Services                                                              250,675,920                            194,509,922
                                                 Supplies & Materials                                                            1,601,163                             1,591,578
                                                 Equipment                                                                          253,286                               243,907
                                                 Land & Structures                                                                          —                                         —
                                                 Insurance Claims & Indemnities                                                        3,500                                  3,500
                                                 Dividends and Interest                                                                   634                                    634
                                             Total Non-Personnel Services                                                 $255,595,486                          $199,295,740
                                             Total Administrative                                                         $367,262,722                          $310,898,740
                                             Programmatic                                                              $1,016,926,504                           $852,191,775
                                             Total Administrative and Programmatic                                     $1,384,189,226                        $1,163,090,515
                                             Notes: Numbers may not total due to rounding. The cost associated with “Other Services” under TARP Administrative Expenditures
                                             and Obligations are composed of administrative services including financial, administrative, IT, and legal (non-programmatic) support.
                                             Amounts are cumulative since the beginning of TARP.

                                             Source: Treasury, response to SIGTARP data call, 4/15/2013.




                                             FINANCIAL AGENTS
                                             EESA requires SIGTARP to provide biographical information for each person
                                             or entity hired to manage assets acquired through TARP.685 Treasury hired three
                                             financial agents under four separate agreements in the quarter ended March 31,
                                             2013.

                                             Lazard Frères & Co. LLC
                                             Effective January 1, 2013, Treasury hired Lazard Frères & Co. LLC (“Lazard”), via
                                             two separate Financial Agency Agreements, as a financial agent and capital markets
                                             disposition agent in connection with its investments under the Automotive Industry
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   165




Financing Program (“AIFP”).686 Under one of those agreements, Lazard will assist
Treasury in managing and disposing of its General Motors Company (“GM”) assets.
The agreement runs until July 1, 2013, with options to extend until July 1, 2014;
Lazard will be paid between $50,000 and $250,000 per month, depending on
the type of services provided, up to $1.5 million.687 Under the second agreement,
Lazard will assist Treasury in managing and disposing of its Ally Financial Inc.
(“Ally Financial”) assets. The agreement runs until December 31, 2013, with
options to extend until December 31, 2014; Lazard will be paid $375,000 per
month, up to $4.5 million.688 According to Treasury, “Lazard is a wholly owned
subsidiary of the global financial advisory and asset management firm, Lazard,
Ltd.”689
    Treasury stated that Lazard will perform a variety of services related to AIFP,
including:690

•	 “Analyze, review and document financial, corporate, and business information
   related to potential transactions under AIFP
•	 “Analyze potential recapitalization and restructuring strategies and represent
   and support the Treasury in discussions on such recapitalization and
   restructuring strategies with the issuers of such AIFP assets
•	 “Provide insight and analysis on the strategy and optimal timing to execute the
   disposition of AIFP assets, consistent with the duty to both the taxpayer and
   goal of market stability
•	 “Report on the potential performance of designated AIFP investments and their
   disposition given a range of market scenarios and transaction structures
•	 “Analyze and review disposition alternatives and structures, including the use of
   underwriters, brokers or other financial service providers for the best means and
   structure to dispose of assets; and
•	 “Maintain a compliance program designed to detect and prevent violations of
   Federal securities laws, and identifying, documenting, and enforcing controls to
   mitigate conflicts of interest.”

Citigroup Global Markets Inc.
Effective January 14, 2013, Treasury hired Citigroup Global Markets Inc.
(“CGMI”) to provide services related to the disposition of Treasury’s common stock
position in GM.691 The company will be compensated on a commission basis, with
payment of 1 cent per share for each share of GM stock that it sells on behalf of
Treasury, up to a maximum of approximately $3 million.692 The contract runs until
January 14, 2014, with options to extend until January 14, 2017.693 According to
Treasury, CGMI, a wholly-owned subsidiary of Citigroup, Inc., “is a global financial
services firm and licensed broker-dealer providing a wide range of securities
underwriting; mergers & acquisition advisory; and corporate and public financing
services.”694
166   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 Treasury stated that CGMI will perform a variety of services related to the GM
                                             stock, including:695

                                             •	 “Provide insight and analysis to Treasury regarding the optimal timing and
                                                strategy for the sale of its GM stock
                                             •	 “Act as broker or sales agent for all Disposition Services, regardless of whether
                                                executed pursuant to Rule 144 promulgated by the Securities and Exchange
                                                Commission under Securities Act of 1933, or registered under the Securities
                                                Act of 1933, as directed by Treasury
                                             •	 “Execute and confirm transfers, trades, and other transactions as instructed by
                                                the Treasury and maintain records of any trades or transfers executed
                                             •	 “Reconcile books and records with the Custodian’s and with the Treasury’s
                                                accounting systems
                                             •	 “Maintain a compliance program designed to detect and prevent violations of
                                                Federal securities laws, and identifying, documenting, and enforcing controls to
                                                mitigate conflicts of interest.”

                                             J.P. Morgan Securities LLC
                                             Effective January 14, 2013, Treasury hired J.P. Morgan Securities LLC (“JPM”) to
                                             provide services related to the disposition of Treasury’s common stock position in
                                             GM.696 The company will be compensated on a commission basis, with payment of
                                             1 cent per share for each share of GM stock that it sells on behalf of Treasury, up
                                             to a maximum of approximately $3 million.697 The contract runs until January 14,
                                             2014, with options to extend until January 14, 2017.698 According to Treasury, JPM,
                                             a wholly-owned subsidiary of JPMorgan Chase & Company, is “a global financial
                                             services firm and licensed broker-dealer providing a wide range of securities
                                             underwriting; mergers & acquisition advisory; and corporate and public financing
                                             services.”699
                                                 Treasury stated that JPM will perform a variety of services related to the GM
                                             stock, including:700

                                             •	 “Provide insight and analysis to Treasury regarding the optimal timing and
                                                strategy for the sale of its GM stock
                                             •	 “Act as broker or sales agent for all disposition services, regardless of whether
                                                executed pursuant to Rule 144 promulgated by the Securities and Exchange
                                                Commission under Securities Act of 1933, or registered under the Securities
                                                Act of 1933, as directed by Treasury
                                             •	 “Execute and confirm transfers, trades, and other transactions as instructed by
                                                the Treasury and maintain records of any trades or transfers executed
                                             •	 “Reconcile books and records with the Custodian’s and with the Treasury’s
                                                accounting systems
                                             •	 “Maintain a compliance program designed to detect and prevent violations of
                                                Federal securities laws, and identifying, documenting, and enforcing controls to
                                                mitigate conflicts of interest.”
                                                                                          quarterly report to congress I april 24, 2013             167




TABLE 3.2
 OFS SERVICE CONTRACTS
                                                                                    Type of
 Date         Vendor                           Purpose                              Transaction         Obligated Value        Expended Value
              Simpson Thacher & Bartlett MNP   Legal services for the
 10/10/2008                                                                         Contract                  $931,090                $931,090
              LLP                              implementation of TARP
 10/11/2008   Ennis Knupp & Associates Inc.1   Investment and Advisory Services     Contract                  2,635,827              2,635,827
              The Bank of New York Mellon                                           Financial
 10/14/2008                                    Custodian                                                     54,627,204             51,043,584
              Corporation                                                           Agent
 10/16/2008   PricewaterhouseCoopers           Internal control services            Contract                 34,980,857             33,505,992
                                               For process mapping consultant       Interagency
 10/17/2008   Turner Consulting Group, Inc.2                                                                      9,000                        —
                                               services                             Agreement
 10/18/2008   Ernst & Young LLP                Accounting Services                  Contract                 14,550,519             13,640,626
                                               Legal services for the Capital
 10/29/2008   Hughes Hubbard & Reed LLP                                             Contract                  3,060,921              2,835,357
                                               Purchase Program
                                               Legal services for the Capital
 10/29/2008   Squire, Sanders & Dempsey LLP                                         Contract                  2,687,999              2,687,999
                                               Purchase Program
 10/31/2008   Lindholm & Associates, Inc.      Human resources services             Contract                    614,963                   614,963
              Sonnenschein Nath & Rosenthal    Legal services related to auto
 11/7/2008                                                                          Contract                  2,702,441              2,702,441
              LLP4                             industry loans
                                                                                    Interagency
 11/9/2008    Internal Revenue Service         Detailees                                                         97,239                    97,239
                                                                                    Agreement
                                                                                    Interagency
 11/17/2008   Internal Revenue Service         CSC Systems & Solutions LLC2                                       8,095                     8,095
                                                                                    Agreement
              Department of the Treasury —                                          Interagency
 11/25/2008                                    Administrative Support                                        16,512,820             16,131,121
              Departmental Offices                                                  Agreement
              Alcohol and Tobacco Tax and      IAA — TTB Development, Mgmt &        Interagency
 12/3/2008                                                                                                       67,489                    67,489
              Trade Bureau                     Operation of SharePoint              Agreement
                                                                                    Interagency
 12/5/2008    Washington Post3                 Subscription                                                         395                        —
                                                                                    Agreement
              Sonnenschein Nath & Rosenthal    Legal services for the purchase of
 12/10/2008                                                                         Contract                    102,769                   102,769
              LLP4                             assets-backed securities
                                               Admin action to correct system
 12/10/2008   Thacher Proffitt & Wood4                                              Contract                          —                        —
                                               issue
                                                                                    Interagency
 12/15/2008   Office of Thrift Supervision     Detailees                                                        225,547                   164,823
                                                                                    Agreement
              Department of Housing and                                             Interagency
 12/16/2008                                    Detailees                                                              —                        —
              Urban Development                                                     Agreement
                                                                                    Interagency
 12/22/2008   Office of Thrift Supervision     Detailees                                                              —                        —
                                                                                    Agreement
              Cushman and Wakefield of VA
 12/24/2008                                    Painting Services for TARP Offices   Contract                      8,750                     8,750
              Inc.
              Securities and Exchange                                               Interagency
 1/6/2009                                      Detailees                                                         30,416                    30,416
              Commission                                                            Agreement
 1/7/2009     Colonial Parking Inc.            Lease of parking spaces              Contract                    347,634                   234,433
                                                                                                                          Continued on next page
168          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS           (Continued)

                                                                                           Type of
      Date         Vendor                             Purpose                              Transaction   Obligated Value        Expended Value
                   Cadwalader Wickersham & Taft
      1/27/2009                                       Bankruptcy Legal Services            Contract            $409,955                $409,955
                   LLP
                   Whitaker Brothers Bus Machines
      1/27/2009                                       Paper Shredder                       Contract               3,213                    3,213
                   Inc.
                                                                                           Interagency
      1/30/2009    Comptroller of the Currency        Detailees                                                 501,118                 501,118
                                                                                           Agreement
                                                      IAA — GAO required by P.L. 110-
                   US Government Accountability                                            Interagency
      2/2/2009                                        343 to conduct certain activities                       7,459,049               7,459,049
                   Office                                                                  Agreement
                                                      related to TARP IAA
                                                                                           Interagency
      2/3/2009     Internal Revenue Service           Detailees                                                 242,499                 242,499
                                                                                           Agreement
                                                      Temporary Services for Document
      2/9/2009     Pat Taylor & Associates, Inc.      Production, FOIA assistance, and     Contract             692,108                 692,108
                                                      Program Support
                                                      Initiate Interim Legal Services in
      2/12/2009    Locke Lord Bissell & Liddell LLP   support of Treasury Investments      Contract             272,243                 272,243
                                                      under EESA
                                                      Homeownership Preservation           Financial
      2/18/2009    Fannie Mae                                                                               405,730,176             353,689,988
                                                      Program                              Agent
                                                      Homeownership Preservation           Financial
      2/18/2009    Freddie Mac                                                                              293,158,529             235,232,538
                                                      Program                              Agent
                                                                                           Interagency
      2/20/2009    Financial Clerk U.S. Senate        Congressional Oversight Panel                           3,394,348               3,394,348
                                                                                           Agreement
                                                                                           Interagency
      2/20/2009    Office of Thrift Supervision       Detailees                                                 203,390                 189,533
                                                                                           Agreement
                   Simpson Thacher & Bartlett MNP
      2/20/2009                                       Capital Assistance Program (I)       Contract           1,530,023               1,530,023
                   LLP
                                                      Capital Assistance Program (II)
      2/20/2009    Venable LLP                                                             Contract           1,394,724               1,394,724
                                                      Legal Services
                   Securities and Exchange                                                 Interagency
      2/26/2009                                       Detailees                                                  18,531                  18,531
                   Commission                                                              Agreement
                   Pension Benefit Guaranty                                                Interagency
      2/27/2009                                       Rothschild, Inc.                                        7,750,000               7,750,000
                   Corporation                                                             Agreement
                                                      Management Consulting relating to
      3/6/2009     The Boston Consulting Group                                             Contract             991,169                 991,169
                                                      the Auto industry
                                                      Small Business Assistance            Financial
      3/16/2009    Earnest Partners                                                                           2,947,780               2,947,780
                                                      Program                              Agent
                                                      SBA Initiative Legal Services —
      3/30/2009    Bingham McCutchen LLP5             Contract Novated from TOFS-          Contract             273,006                 143,893
                                                      09-D-0005 with McKee Nelson
                   Cadwalader Wickersham & Taft
      3/30/2009                                       Auto Investment Legal Services       Contract          17,392,786              17,392,786
                   LLP
      3/30/2009    Haynes and Boone, LLP              Auto Investment Legal Services       Contract             345,746                 345,746
                                                      SBA Initiative Legal Services
                                                      — Contract Novated to TOFS-
      3/30/2009    McKee Nelson5                                                           Contract             149,349                 126,631
                                                      10-D-0001 with Bingham
                                                      McCutchen LLP
                   Sonnenschein Nath & Rosenthal
      3/30/2009                                       Auto Investment Legal Services       Contract           1,834,193               1,834,193
                   LLP4
                                                                                                                           Continued on next page
                                                                                          quarterly report to congress I april 24, 2013             169




OFS SERVICE CONTRACTS            (Continued)

                                                                                    Type of
Date        Vendor                             Purpose                              Transaction         Obligated Value        Expended Value
                                               Credit Reform Modeling and
3/31/2009   FI Consulting Inc.                                                      Contract                 $4,865,098             $3,583,193
                                               Analysis
                                                                                    Interagency
4/3/2009    American Furniture Rentals Inc.3   Furniture Rental 1801                                             35,187                    25,808
                                                                                    Agreement
                                               Management Consulting relating to
4/3/2009    The Boston Consulting Group                                             Contract                  4,100,195              4,099,923
                                               the Auto industry
                                                                                    Interagency
4/17/2009   Bureau of Engraving and Printing   Detailee for PTR Support                                          45,822                    45,822
                                                                                    Agreement
4/17/2009   Herman Miller, Inc.                Aeron Chairs                         Contract                     53,799                    53,799
                                                                                    Financial
4/21/2009   AllianceBernstein LP               Asset Management Services                                     46,747,854             44,518,183
                                                                                    Agent
                                                                                    Financial
4/21/2009   FSI Group, LLC                     Asset Management Services                                     25,439,722             25,246,460
                                                                                    Agent
            Piedmont Investment Advisors,                                           Financial
4/21/2009                                      Asset Management Services                                     12,199,613             12,036,992
            LLC                                                                     Agent
                                                                                    Interagency
4/30/2009   Department of State                Detailees                                                              —                        —
                                                                                    Agreement
                                                                                    Interagency
5/5/2009    Federal Reserve Board              Detailees                                                         48,422                    48,422
                                                                                    Agreement
            Department of the Treasury —       “Making Home Affordable” Logo        Interagency
5/13/2009                                                                                                           325                      325
            U.S. Mint                          search                               Agreement
                                               Executive Search and recruiting
5/14/2009   Knowledgebank Inc.2                Services — Chief Homeownership       Contract                    124,340                   124,340
                                               Officer
                                               Freedom of Information Act (FOIA)
                                               Analysts to support the Disclosure
5/15/2009   Phacil, Inc.                                                            Contract                     90,301                    90,301
                                               Services, Privacy and Treasury
                                               Records
            Securities and Exchange                                                 Interagency
5/20/2009                                      Detailees                                                        430,000                   430,000
            Commission                                                              Agreement
                                                                                    Interagency
5/22/2009   Department of Justice — ATF        Detailees                                                        243,778                   243,772
                                                                                    Agreement
                                               Legal services for work under
5/26/2009   Anderson, McCoy & Orta             Treasury’s Public Private            Contract                  2,286,996              2,286,996
                                               Investment Funds (PPIF) program
                                               Legal services for work under
            Simpson Thacher & Bartlett MNP
5/26/2009                                      Treasury’s Public Private            Contract                  7,849,026              3,526,454
            LLP
                                               Investment Funds (PPIF) program
                                                                                    Interagency
6/9/2009    Gartner, Inc.                      Financial Management Services                                     89,436                    89,436
                                                                                    Agreement
                                               Federal Consulting Group             Interagency
6/29/2009   Department of the Interior                                                                           49,000                    49,000
                                               (Foresee)                            Agreement
7/8/2009    Judicial Watch6                    Litigation Settlement                Other Listing                 1,500                     1,500
                                               Executive search services for
7/17/2009   Korn/Ferry International           the OFS Chief Investment Officer     Contract                     74,023                    74,023
                                               position
            Cadwalader Wickersham & Taft
7/30/2009                                      Restructuring Legal Services         Contract                  1,278,696              1,278,696
            LLP
7/30/2009   Debevoise & Plimpton LLP           Restructuring Legal Services         Contract                      1,650                     1,650
                                                                                                                          Continued on next page
170          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS           (Continued)

                                                                                         Type of
      Date         Vendor                            Purpose                             Transaction   Obligated Value        Expended Value
                   Fox, Hefter, Swibel, Levin &
      7/30/2009                                      Restructuring Legal Services        Contract             $26,493                 $26,493
                   Carol, LLP
                                                                                         Interagency
      8/10/2009    Department of Justice — ATF       Detailees                                                 63,109                  63,109
                                                                                         Agreement
                   National Aeronautics and Space                                        Interagency
      8/10/2009                                      Detailees                                                140,889                 140,889
                   Administration (NASA)                                                 Agreement
                                                     Executive Compensation Data
      8/18/2009    Mercer (US) Inc.                                                      Contract               3,000                    3,000
                                                     Subscription
                                                                                         Interagency
      8/25/2009    Department of Justice — ATF       Detailees                                                 63,248                  63,248
                                                                                         Agreement
      9/2/2009     Knowledge Mosaic Inc.             SEC filings subscription service    Contract               5,000                    5,000
                                                     Executive Compensation Data
      9/10/2009    Equilar, Inc.                                                         Contract              59,990                  59,990
                                                     Subscription
      9/11/2009    PricewaterhouseCoopers            PPIP compliance                     Contract           3,558,634               3,428,549
                                                                                         Interagency
      9/18/2009    Treasury Franchise Fund           BPD                                                      436,054                 436,054
                                                                                         Agreement
                                                                                         Interagency
      9/30/2009    Immixtechnology Inc.3             EnCase eDiscovery ProSuite                               210,184                       —
                                                                                         Agreement
                                                                                         Interagency
      9/30/2009    Immixtechnology Inc.3             Guidance Inc.                                            108,000                       —
                                                                                         Agreement
      9/30/2009    NNA INC.                          Newspaper delivery                  Contract               8,220                    8,220
                                                     SNL Unlimited, a web-based
      9/30/2009    SNL Financial LC                                                      Contract             460,000                 460,000
                                                     financial analytics service
                   Department of the Treasury —                                          Interagency
      11/9/2009                                      Administrative Support                                23,682,061              18,056,064
                   Departmental Offices                                                  Agreement
                                                                                         Interagency
      12/16/2009   Internal Revenue Service          Detailees                                                     —                        —
                                                                                         Agreement
                                                                                         Financial
      12/22/2009   Avondale Investments LLC          Asset Management Services                                772,657                 772,657
                                                                                         Agent
                                                                                         Financial
      12/22/2009   Bell Rock Capital, LLC            Asset Management Services                              2,360,185               2,309,135
                                                                                         Agent
                                                     Document Production services and
      12/22/2009   Hughes Hubbard & Reed LLP                                             Contract           1,456,803                 868,376
                                                     Litigation Support
                                                                                         Financial
      12/22/2009   KBW Asset Management, Inc.        Asset Management Services                              4,937,433               4,937,433
                                                                                         Agent
                                                                                         Financial
      12/22/2009   Lombardia Capital Partners, LLC   Asset Management Services                              3,309,267               3,245,566
                                                                                         Agent
                   Paradigm Asset Management                                             Financial
      12/22/2009                                     Asset Management Services                              3,677,389               3,637,396
                   Co., LLC                                                              Agent
                   Raymond James (f/k/a Howe                                             Financial
      12/22/2009                                     Asset Management Services                                319,556                 276,797
                   Barnes Hoefer & Arnett, Inc.)8                                        Agent
                   Howe Barnes Hoefer & Arnett,
      12/23/2009                                     Asset Management Services           FAA Listing        3,124,094               3,124,094
                   Inc.8
                                                     IAA — GAO required by P.L.110-
                   US Government Accountability                                          Interagency
      1/14/2010                                      343 to conduct certain activities                      7,304,722               7,304,722
                   Office                                                                Agreement
                                                     related to TARP
                                                                                                                         Continued on next page
                                                                                        quarterly report to congress I april 24, 2013             171




OFS SERVICE CONTRACTS           (Continued)

                                                                                  Type of
Date        Vendor                            Purpose                             Transaction         Obligated Value        Expended Value
            Association of Government
1/15/2010                                     CEAR Program Application            Contract                     $5,000                    $5,000
            Accountants
                                                                                  Interagency
2/16/2010   Internal Revenue Service          Detailees                                                        52,742                    52,742
                                                                                  Agreement
                                              FNMA IR2 assessment — OFS
2/16/2010   The MITRE Corporation             task order on Treasury MITRE        Contract                    730,192                   730,192
                                              Contract
                                                                                  Interagency
2/18/2010   Treasury Franchise Fund           BPD                                                           1,221,140              1,221,140
                                                                                  Agreement
3/8/2010    Qualx Corporation                 FOIA Support Services               Contract                    549,518                   549,518
            Department of the Treasury —                                          Interagency
3/12/2010                                     Administrative Support                                          671,731                   671,731
            Departmental Offices                                                  Agreement
                                                                                  Interagency
3/22/2010   Gartner, Inc.                     Financial Management Services                                    73,750                    73,750
                                                                                  Agreement
                                                                                  Interagency
3/26/2010   Federal Maritime Commission       Detailees                                                       158,600                   158,600
                                                                                  Agreement
                                                                                  Financial
3/29/2010   Morgan Stanley                    Disposition Agent Services                                   16,685,290             16,685,290
                                                                                  Agent
                                                                                  Interagency
4/2/2010    Financial Clerk U.S. Senate       Congressional Oversight Panel                                 4,797,556              4,797,556
                                                                                  Agreement
4/8/2010    Squire, Sanders & Dempsey LLP     Housing Legal Services              Contract                  1,229,350                   918,224
4/12/2010   Hewitt EnnisKnupp, Inc.  1
                                              Investment Consulting Services      Contract                  5,468,750              4,242,591
                                              Data and Document Management
4/22/2010   Digital Management Inc.                                               Contract                          —                        —
                                              Consulting Services
                                              Data and Document Management
4/22/2010   MicroLink, LLC                                                        Contract                 16,234,132             11,765,196
                                              Consulting Services
                                              Data and Document Management
4/23/2010   RDA Corporation                                                       Contract                  6,626,280              5,892,095
                                              Consulting Services
                                                                                  Interagency
5/4/2010    Internal Revenue Service          Training — Bulux CON 120                                          1,320                     1,320
                                                                                  Agreement
                                                                                  Financial
5/17/2010   Lazard Fréres & Co. LLC           Transaction Structuring Services                             14,222,312             14,222,312
                                                                                  Agent
            Reed Elsevier Inc (dba            Accurint subscription service for
6/24/2010                                                                         Contract                      8,208                     8,208
            LexisNexis)                       one year — 4 users
                                              Financial Institution Management
            The George Washington
6/30/2010                                     & Modeling — Training course        Contract                      5,000                     5,000
            University
                                              (J.Talley)
                                              Program Compliance Support
7/21/2010   Navigant Consulting                                                   Contract                  3,774,673                   555,785
                                              Services
                                              Program Compliance Support
7/21/2010   Regis and Associates PC                                               Contract                  1,933,726                   618,494
                                              Services
                                              Program Compliance Support
7/22/2010   Ernst & Young LLP                                                     Contract                  9,221,175              3,777,137
                                              Services
                                              Program Compliance Support
7/22/2010   PricewaterhouseCoopers                                                Contract                          —                        —
                                              Services
7/22/2010   Schiff Hardin LLP                 Housing Legal Services              Contract                     97,526                    97,526
7/27/2010   West Publishing Corporation       Subscription Service for 4 users    Contract                      6,664                     6,664
                                                                                                                        Continued on next page
172          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS            (Continued)

                                                                                          Type of
      Date         Vendor                            Purpose                              Transaction     Obligated Value        Expended Value
                                                     Omnibus procurement for legal
      8/6/2010     Alston & Bird LLP                                                      Contract            $1,357,061                $232,482
                                                     services
                   Cadwalader Wickersham & Taft      Omnibus procurement for legal
      8/6/2010                                                                            Contract             6,686,506               3,292,251
                   LLP                               services
                   Fox, Hefter, Swibel, Levin &      Omnibus procurement for legal
      8/6/2010                                                                            Contract               227,415                 150,412
                   Carol, LLP                        services
                                                     Omnibus procurement for legal
      8/6/2010     Haynes and Boone, LLP                                                  Contract                    —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Hughes Hubbard & Reed LLP                                              Contract             1,975,498               1,103,586
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Love & Long LLP                                                        Contract                    —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Orrick Herrington Sutcliffe LLP                                        Contract                    —                        —
                                                     services
                   Paul, Weiss, Rifkind, Wharton &   Omnibus procurement for legal
      8/6/2010                                                                            Contract             9,565,850               4,452,960
                   Garrison LLP                      services
                                                     Omnibus procurement for legal
      8/6/2010     Perkins Coie LLP                                                       Contract                    —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Seyfarth Shaw LLP                                                      Contract                    —                        —
                                                     services
                   Shulman, Rogers, Gandal, Pordy    Omnibus procurement for legal
      8/6/2010                                                                            Contract               367,641                 204,991
                   & Ecker, PA                       services
                   Sullivan Cove Reign Enterprises   Omnibus procurement for legal
      8/6/2010                                                                            Contract                    —                        —
                   JV                                services
                                                     Omnibus procurement for legal
      8/6/2010     Venable LLP                                                            Contract               498,100                      960
                                                     services
      8/12/2010    Knowledge Mosaic Inc.             SEC filings subscription service     Contract                 5,000                    5,000
                   Department of Housing and                                              Interagency
      8/30/2010                                      Detailees                                                    29,915                  29,915
                   Urban Development                                                      Agreement
                                                     One-year subscription (3 users) to
                                                     the CQ Today Breaking News &
      9/1/2010     CQ-Roll Call Inc.                 Schedules, CQ Congressional &        Contract                 7,500                    7,500
                                                     Financial Transcripts, CQ Custom
                                                     Email Alerts
                                                     SBA 7(a) Security Purchase
      9/17/2010    Bingham McCutchen LLP5                                                 Contract                11,177                  11,177
                                                     Program
                                                     Program Operations Support
                                                     Services to include project
      9/27/2010    Davis Audrey Robinette            management, scanning and             Contract             3,081,647               2,831,071
                                                     document management and
                                                     correspondence
      9/28/2010    Judicial Watch6                   Litigation Settlement                Other Listing            2,146                    2,146
                                                     GSA Task Order for procurement
                                                     books — FAR, T&M, Government
      9/30/2010    CCH Incorporated                                                       Contract                 2,430                    2,430
                                                     Contracts Reference, World Class
                                                     Contracting
                                                                                          Interagency
      10/1/2010    Financial Clerk U.S. Senate       Congressional Oversight Panel                             5,200,000               2,777,752
                                                                                          Agreement
      10/8/2010    Management Concepts Inc.          Training Course — CON 217            Contract                 1,025                    1,025
                                                                                                                            Continued on next page
                                                                                            quarterly report to congress I april 24, 2013             173




OFS SERVICE CONTRACTS            (Continued)

                                                                                      Type of
Date         Vendor                              Purpose                              Transaction         Obligated Value        Expended Value
10/8/2010    Management Concepts Inc.            Training Course — CON 216            Contract                     $1,025                    $1,025
10/8/2010    Management Concepts Inc.            Training Course — CON 218            Contract                      2,214                     2,214
10/8/2010    Management Concepts Inc.            Training Course — 11107705           Contract                        995                      995
10/8/2010    Management Concepts Inc.            Training Course — Analytic Boot      Contract                      1,500                     1,500
10/8/2010    Management Concepts Inc.            Training Course — CON 218            Contract                      2,214                     2,214
10/8/2010    Management Concepts Inc.            Training Course — CON 217            Contract                      1,025                     1,025
10/8/2010    Management Concepts Inc.            Training Course — CON 218            Contract                      2,214                     2,214
             Hispanic Association of Colleges
10/14/2010                                       Detailees                            Contract                     12,975                    12,975
             & Universities
                                                 IAA — GAO required by P.L. 110-
             US Government Accountability                                             Interagency
10/26/2010                                       343 to conduct certain activities                              5,600,000              3,738,195
             Office                                                                   Agreement
                                                 related to TARP
                                                 FNMA IR2 assessment — OFS
                                                 task order on Treasury MITRE
11/8/2010    The MITRE Corporation               Contract for cost and data           Contract                  2,288,166              1,850,677
                                                 validation services related to
                                                 HAMP FA
                                                 Structuring and Disposition          Financial
11/18/2010   Greenhill & Co., Inc.                                                                              6,139,167              6,139,167
                                                 Services                             Agent
                                                 Acquisition Support Services —
12/2/2010    Addx Corporation                    PSD TARP (action is an order         Contract                  1,311,314              1,299,002
                                                 against BPA)
             Reed Elsevier Inc. (dba             Accurint subscription services one
12/29/2010                                                                            Contract                        684                      684
             LexisNexis)                         user
                                                                                      Interagency
1/5/2011     Canon U.S.A. Inc.                   Administrative Support                                            12,937                    12,013
                                                                                      Agreement
                                                 Structuring and Disposition          Financial
1/18/2011    Perella Weinberg Partners & Co.                                                                    5,542,473              5,542,473
                                                 Services                             Agent
                                                                                      Interagency
1/24/2011    Treasury Franchise Fund             BPD                                                            1,090,860              1,090,860
                                                                                      Agreement
             Association of Government
1/26/2011                                        CEAR Program Application             Contract                      5,000                     5,000
             Accountants
                                                 Mentor Program Training (call
2/24/2011    ESI International Inc.                                                   Contract                     20,758                    20,758
                                                 against IRS BPA)
             Department of the Treasury —                                             Interagency
2/28/2011                                        Administrative Support                                        17,805,529             13,115,643
             Departmental Offices                                                     Agreement
                                                 Executive Compensation Data
3/3/2011     Equilar, Inc.                                                            Contract                     59,995                    59,995
                                                 Subscription
                                                 Executive Compensation Data
3/10/2011    Mercer (US) Inc.                                                         Contract                      7,425                     3,600
                                                 Subscription
3/22/2011    Harrison Scott Publications, Inc.   Subscription Service                 Contract                      5,894                     5,894
                                                                                      Interagency
3/28/2011    Fox News Network LLC7               Litigation Settlement                                            121,000                   121,000
                                                                                      Agreement
             Federal Reserve Bank of New                                              Interagency
4/20/2011                                        Oversight Services                                             1,300,000                   875,415
             York (FRBNY) HR                                                          Agreement
4/26/2011    PricewaterhouseCoopers LLP          Financial Services Omnibus           Contract                  5,102,092              3,010,193
4/27/2011    ASR Analytics, LLC                  Financial Services Omnibus           Contract                  2,645,423                   650,544
                                                                                                                            Continued on next page
174          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS              (Continued)

                                                                                           Type of
      Date         Vendor                              Purpose                             Transaction   Obligated Value        Expended Value
      4/27/2011    Ernst & Young, LLP                  Financial Services Omnibus          Contract          $1,584,282                $533,830
      4/27/2011    FI Consulting, Inc.                 Financial Services Omnibus          Contract           2,812,304               1,703,711
      4/27/2011    Lani Eko & Company CPAs LLC         Financial Services Omnibus          Contract              50,000                       —
      4/27/2011    MorganFranklin, Corporation         Financial Services Omnibus          Contract             619,375                  84,715
      4/27/2011    Oculus Group, Inc.                  Financial Services Omnibus          Contract           2,284,646               1,271,950
      4/28/2011    Booz Allen Hamilton, Inc.           Financial Services Omnibus          Contract              50,000                       —
      4/28/2011    KPMG, LLP                           Financial Services Omnibus          Contract              50,000                       —
                   Office of Personnel Management
                                                                                           Interagency
      4/28/2011    (OPM) — Western Management          Leadership Training                                       21,300                       —
                                                                                           Agreement
                   Development Center
                   Reed Elsevier Inc (dba              Accurint subscriptions by
      5/31/2011                                                                            Contract              10,260                  10,260
                   LexisNexis)                         LexisNexis for 5 users
                                                       Five (5) user subscriptions to
      5/31/2011    West Publishing Corporation         CLEAR by West Government            Contract               7,515                    7,515
                                                       Solutions
                                                       One year subscription to the
                                                       CQ Today Breaking News &
      6/9/2011     CQ-Roll Call Inc.                   Schedules, CQ Congressional &       Contract               7,750                    7,750
                                                       Financial Transcripts, CQ Custom
                                                       Email Alerts
                                                       Anti-Fraud Protection and
      6/17/2011    Winvale Group LLC                                                       Contract             504,232                 462,972
                                                       Monitoring Subscription Services
                   Department of the Treasury —                                            Interagency
      6/24/2011                                        Administrative Support                                   660,601                 660,601
                   Departmental Offices                                                    Agreement
                   Internal Revenue Service —                                              Interagency
      7/28/2011                                        Detailee                                                  84,234                  84,234
                   Procurement                                                             Agreement
                                                                                           Interagency
      9/9/2011     Financial Management Service        FMS – NAFEO                                               22,755                  22,755
                                                                                           Agreement
                                                       MHA Felony Certification
      9/12/2011    ADC LTD NM                                                              Contract             447,799                 339,489
                                                       Background Checks (BPA)
                   ABMI – All Business Machines,       4 Level 4 Security Shredders and
      9/15/2011                                                                            Contract               4,392                    4,392
                   Inc                                 Supplies
                                                       National Business Center, Federal   Interagency
      9/29/2011    Department of Interior                                                                        51,000                  25,000
                                                       Consulting Group                    Agreement
                                                       Renewing TD010-F-249 SEC filings
      9/29/2011    Knowledge Mosaic Inc.                                                   Contract               4,200                    4,200
                                                       Subscription Service
                                                                                           Interagency
      10/4/2011    Internal Revenue Service            Detailees                                                168,578                  84,289
                                                                                           Agreement
                   ABMI – All Business Machines,       4 Level 4 Security Shredders and
      10/20/2011                                                                           Contract               4,827                    4,827
                   Inc.                                Supplies
      11/18/2011   Qualx Corporation                   FOIA Support Services               Contract              68,006                  68,006
                                                                                           Financial
      11/29/2011   Houlihan Lokey, Inc.                Transaction Structuring Services                       7,250,000               6,425,000
                                                                                           Agent
                                                       Pre-Program and Discovery
      12/20/2011   Allison Group LLC                                                       Contract              19,065                  19,065
                                                       Process Team Building
                   Department of the Treasury —                                            Interagency
      12/30/2011                                       Administrative Support                                15,098,746              10,083,111
                   Departmental Offices                                                    Agreement
                                                                                                                           Continued on next page
                                                                                               quarterly report to congress I april 24, 2013             175




OFS SERVICE CONTRACTS            (Continued)

                                                                                         Type of
Date         Vendor                               Purpose                                Transaction         Obligated Value        Expended Value
                                                                                         Interagency
12/30/2011   Department of the Treasury           ARC                                                              $901,433                $899,268
                                                                                         Agreement
                                                  IAA — GAO required by P.L. 110-
             US Government Accountability                                                Interagency
1/4/2012                                          343 to conduct certain activities                                2,500,000              2,475,937
             Office                                                                      Agreement
                                                  related to TARP IAA
             Office of Personnel Management       Office of Personnel Management
                                                                                         Interagency
1/5/2012     (OPM) — Western Management           (OPM) — Western Management                                          31,088                        —
                                                                                         Agreement
             Development Center                   Development Center
                                                  ABS/MBS Data Subscription
2/2/2012     Moody’s Analytics Inc.                                                      Contract                  2,769,000              1,924,625
                                                  Services
                                                  Structuring and Disposition
2/7/2012     Greenhill & Co., LLC                                                        FAA Listing               1,680,000              1,680,000
                                                  Services
2/14/2012    Association of Govt Accountants      CEAR Program Application               Contract                      5,000                     5,000
2/27/2012    Diversified Search LLC               CPP Board Placement Services           Contract                    510,000                   201,779
3/6/2012     Integrated Federal Solutions, Inc.   TARP Acquisition Support (BPA)         Contract                  1,892,123                   719,161
                                                  National Business Center, Federal      Interagency
3/14/2012    Department of Interior                                                                                   26,000                    26,000
                                                  Consulting Group                       Agreement
             Department of the Treasury —                                                Interagency
3/30/2012                                         Administrative Support                                           1,137,451                   542,673
             Departmental Offices WCF                                                    Agreement
3/30/2012    E-Launch Multimedia, Inc.            Subscription Service                   Contract                          —                        —
                                                  Maintenance Agreement for Canon
5/2/2012     Cartridge Technology, Inc.                                                  Contract                     15,692                     6,538
                                                  ImageRunner
                                                  Executive Compensation Data
5/10/2012    Equilar Inc.                                                                Contract                     44,995                    44,995
                                                  Subscription
                                                                                         Interagency
6/12/2012    Department of Justice                Detailees                                                        1,737,884                        —
                                                                                         Agreement
6/15/2012    Qualx Corporation                    FOIA Support Services                  Contract                     69,408                    54,855
                                                  Subscription for Anti Fraud Unit to
6/30/2012    West Publishing Corporation                                                 Contract                      8,660                     8,660
                                                  Perform Background Research
7/26/2012    Knowledge Mosaic Inc.                SEC filings subscription service       Contract                      4,750                     4,750
                                                                                         Interagency
8/1/2012     Internal Revenue Service             Treasury Acquisition Institute (TAI)                                 4,303                     4,303
                                                                                         Agreement
                                                  Subscription to Commercial
8/3/2012     Harrison Scott Publications Inc.                                            Contract                      3,897                     3,897
                                                  Mortgage Alert Online Service
                                                  Administrative Resource Center         Interagency
9/19/2012    Treasury Franchise Fund — BPD                                                                           826,803                   413,402
                                                  (ARC)                                  Agreement
                                                  Data Subscription Services for
9/28/2012    SNL Financial LC                     Financial, Regulatory, and Market      Contract                    180,000                   180,000
                                                  Data and Services
                                                                                         Interagency
11/19/2012   Government Accountability Office     Oversight services                                               1,800,000              1,192,547
                                                                                         Agreement
             Association of Government
12/13/2012                                        CEAR Program Application               Contract                      5,000                     5,000
             Accountants
             Department of the Treasury —                                                Interagency
12/19/2012                                        Administrative Support                                          11,123,539              4,134,772
             Departmental Offices                                                        Agreement
1/1/2013     Lazard Fréres & Co. LLC              Asset Management Services              FAA Listing               1,500,000                   750,000
1/1/2013     Lazard Fréres & Co. LLC              Legal Advisory                         FAA Listing               4,500,000              1,125,000
                                                                                                                               Continued on next page
176               special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS                        (Continued)

                                                                                                                             Type of
      Date                 Vendor                                          Purpose                                           Transaction                  Obligated Value                   Expended Value
      2/13/2013            Mercer (US) Inc.                                Personnel detail                                  Contract                                   $4,050                                 $—
                           Department of the Treasury -                                                                      Interagency
      3/4/2013                                                             Administrative Support                                                                  1,350,662                                       —
                           Departmental Offices WCF                                                                          Agreement
                           Department of Housing and                                                                         Interagency
      3/7/2013                                                             Research and Analysis Services                                                             499,348                                      —
                           Urban Development                                                                                 Agreement
      3/26/2013            Bloomberg Finance L.P.                          Administrative Support                            Contract                                    5,400                                     —
                                                                                                                             Interagency
      3/28/2013            Treasury Acquisition Institute                  Legal Advisory                                                                               21,000                                     —
                                                                                                                             Agreement
      Total                                                                                                                                              $1,271,957,455                    $1,069,124,807
      Notes: Numbers may not total due to rounding. Table 3.2 includes all vendor contracts administered under Federal Acquisition Regulations, inter-agency agreements, and financial agency agreements
      entered into in support of OFS since the beginning of the program. The table does not include salary, benefits, travel, and other non-contract related expenses. For some contracts, $0 is obligated if no
      task orders have been awarded and so those contracts are not reflected in this table.
      1
        EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D-0004).
      2
        Awarded by other agencies on behalf of OFS and are not administered by PSD.
      3
        Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
      4
        Thacher Proffitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
      5
        McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
      6
        Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.
      7
        Fox News Network LLC is a payment in response to a litigation claim. No contract or agreement was issued to Fox News Network LLC.
      8
        Entries for Raymond James & Associates Inc. and Howe Barnes Hoefer & Arnett, Inc., relate to the same Financial Agency Agreement, but a new purchase order was created to reflect the change in
         counterparty to Raymond James & Associates Inc. following a merger of the companies.

      Source: Treasury, response to SIGTARP data call, 4/15/2013.
S ECT I O N 4   SIGTARP RECOMMENDATIONS
178   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   179




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
related to the Troubled Asset Relief Program (“TARP”) to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has
made 121 recommendations in its quarterly reports to Congress and its audit
reports. This section discusses developments with respect to SIGTARP’s prior
recommendations, including recommendations made since SIGTARP’s Quarterly
Report to Congress dated January 30, 2013 (the “January 2013 Quarterly
Report”), and, in the table at the end of this section, summarizes SIGTARP’s
recommendations from past quarters and notes the extent of implementation.




RECOMMENDATIONS REGARDING REDEFAULTS OF
MORTGAGES MODIFIED UNDER HAMP
The Home Affordable Modification Program (“HAMP”) was created to help
homeowners avoid preventable foreclosures by encouraging servicers to modify
mortgages to reduce monthly payments to sustainable levels. Congress specifically
directed the Secretary of the Treasury to “maximize assistance for homeowners.”
Moreover, Congress explicitly listed preserving homeownership as a goal of the
Emergency Economic Stabilization Act. In 2009, Treasury created HAMP to “help
as many as 3 to 4 million financially struggling homeowners avoid foreclosure by
modifying loans to a level that is affordable for borrowers now and sustainable
over the long term.” HAMP provides financial incentives to mortgage servicers to
encourage them to modify mortgages by reducing homeowners’ monthly payments
to sustainable levels. Accordingly, affordability and sustainability were the two key
principles on which Treasury formed HAMP.
    Since 2009, to improve servicer conduct and communication with
homeowners, to increase transparency for taxpayers, and to establish clear
program goals and benchmarks to measure success, SIGTARP has issued a series
of recommendations to Treasury aimed at the process by which a homeowner gets
into HAMP.
    SIGTARP is concerned that the number of homeowners who have redefaulted
on permanent mortgage modification under TARP’s signature housing support
program, HAMP, is increasing at an alarming rate. In fact, after four years, only
862,279 remain in a HAMP permanent modification. As of March 31, 2013,
more than 312,000 homeowners have redefaulted on their HAMP permanent
modification. For these homeowners, the HAMP permanent mortgage modification
they received was not sustainable. Although Treasury has not defined “sustainable,”
Treasury designed the program so that homeowners could keep their modifications
for up to five years. The Treasury press release accompanying the January 2013
Housing Scorecard stated that “after six months in the program, more than 94% of
homeowners remain in their permanent HAMP modification.” However, whether a
180   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             modification is sustainable cannot be determined after six months. Unfortunately,
                                             Treasury’s data show that the longer homeowners remain in HAMP, the more likely
                                             they are to redefault.
                                                 Redefaults on HAMP modifications have negative consequences for all
                                             involved: homeowners, taxpayers and the government, servicers and investors,
                                             neighborhoods, the housing market, and the greater economy. Homeowners who
                                             cannot sustain their new HAMP mortgage and thus fall out of the program are
                                             left with the original terms of the mortgage and are responsible for making up
                                             the difference between the original monthly mortgage payment and the HAMP
                                             modified payments. These back payments can be substantial. Servicers can also
                                             charge homeowners late fees on principal and interest that was not paid during the
                                             HAMP modification. In some cases, this may result in homeowners owing more
                                             on their house after redefaulting than they did before the modification. As a result,
                                             homeowners may lose their homes.
                                                 Additionally, taxpayers have a right to expect that TARP money is spent to help
                                             people keep their homes. As of March 31, 2013, Treasury had spent $7.3 billion
                                             in taxpayer funds on housing support programs including $4.3 billion on HAMP.
                                             But Treasury’s data indicate that the number of HAMP permanent modifications
                                             that redefault are rising. As of March 31, 2013, the oldest HAMP permanent
                                             modifications, from the third and fourth quarter of 2009, are redefaulting at a rate
                                             of 46.1% and 39.1%, respectively.i HAMP permanent modifications from 2010 also
                                             had high redefault rates, ranging from 28.9% to 37.6%.ii Treasury must ensure that
                                             the time and money taxpayers invested in TARP are not wasted and that as many
                                             homeowners as possible who receive a HAMP permanent modification sustain
                                             their HAMP mortgage and keep their homes.
                                                 Treasury should work to curb HAMP redefaults to keep homeowners safe from
                                             losing their homes. Even though Treasury will accept new HAMP applications only
                                             through December 31, 2013, it’s not too late for Treasury to improve the program.
                                                 Therefore, SIGTARP made four new recommendations related to HAMP
                                             redefaults:

                                             Treasury should conduct in-depth research and analysis to determine the
                                             causes of redefaults of HAMP permanent mortgage modifications and
                                             the characteristics of loans or the homeowner that may be more at risk
                                             for redefault. Treasury should require servicers to submit any additional
                                             information that Treasury needs to conduct this research and analysis.
                                             Treasury should make the results of this analysis public and issue findings
                                             based on this analysis, so that others can examine, build on, and learn from
                                             this research.

                                             As a result of the findings of Treasury’s research and analysis into the causes
                                             of HAMP redefaults, and characteristics of redefaults, Treasury should modify

                                             i These are mortgages 90 or more days past due.
                                             ii These are mortgages 90 or more days past due.
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   181




aspects of HAMP and the other TARP housing programs in ways to reduce
the number of redefaults.
    Exactly why these HAMP permanent modifications failed is not well
understood by Treasury. SIGTARP understands from meetings with Treasury
officials that Treasury does not require servicers to report on the reasons for
redefault. Because redefaults are so harmful to all, Treasury should develop a better
understanding of why homeowners redefault, and the characteristics of loans that
are more likely to redefault. Better knowledge of the characteristics of the loan,
the homeowners, or the terms of the modification more prone to redefault will
increase Treasury’s understanding of the underlying problems that cause redefaults
and provide Treasury an opportunity to address these issues proactively. Michael
Stegman, Counselor to the Treasury Secretary for Housing Finance, gave a speech
on June 1, 2012, saying, “HAMP data could help identify the determinants of
successful modifications for different types of borrowers.” The same could be said
for redefaults.
    Treasury has many resources that it could bring to bear to learn more about
the nature of HAMP redefaults and how to address them. First, Treasury has
gathered a significant amount of data from servicers on all loans modified in
HAMP, including information on loans that have redefaulted. Second, HAMP
servicers, who already have reporting requirements to Treasury, can learn additional
information about redefaults and the characteristics of a loan that make redefaults
more likely. Treasury can require servicers to submit more detailed information on
the causes or characteristics of redefaulted mortgages. Third, given that the TARP
programs exist for several more years (2017 for the Hardest Hit Fund, 2019 for
HAMP, and 2020 for FHA Short Refinance Program), Treasury has the opportunity
to make changes to these programs to address the causes or characteristics of
redefault and potentially reduce redefaults.

Treasury should require servicers to develop and use an “early warning
system” to identify and reach out to homeowners that may be at risk of
redefaulting on a HAMP mortgage modification, including providing or
recommending counseling and other assistance and directing them to other
TARP housing programs.
    Understanding the causes and characteristics of HAMP redefaults allows
Treasury and HAMP servicers to predict which homeowners are most at risk
of redefaulting. Armed with a better understanding about the causes and
characteristics of HAMP redefaults, Treasury and servicers can develop an early
warning system to reach out to homeowners participating in HAMP who may
share the characteristics that lead to redefault, prior to the homeowner missing a
payment. Servicers could provide or recommend counseling and other assistance
that could help the borrowers avoid redefault and the unfortunate consequences
that would ensue.
    Treasury and servicers can make the homeowner aware of additional TARP
housing programs that could reduce redefaults, or at least lessen the harm that
redefault causes. For example, if subsequent unemployment of a homeowner in
182   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             a HAMP modification is a large cause of redefaults, Treasury may be able to use
                                             HAMP’s Unemployment Program or the Hardest Hit Fund to try to keep the
                                             homeowner in the home. The same could be true for the presence of a second
                                             lien, a certain loan-to-value ratio, or any number of other characteristics. Similarly,
                                             research into HAMP redefaults may discover that certain types of borrowers with
                                             certain loan modification characteristics, for example specific geographic areas
                                             or loans modified by certain servicers, are particularly affected by redefaults. This
                                             knowledge would allow Treasury to use TARP housing programs such as the
                                             Hardest Hit Fund to focus its efforts on people and places that need help the most.

                                             In the letter Treasury already requires servicers to send to homeowners
                                             who have redefaulted on a HAMP modification about possible options to
                                             foreclosure, Treasury should require the servicers to include other available
                                             alternative assistance options under TARP such as the Hardest Hit Fund and
                                             HAMP Tier 2, so that homeowners can move forward with other alternatives,
                                             if appropriate, in a timely and fully informed manner. To the extent that
                                             a servicer does not follow Treasury’s rules in this area, Treasury should
                                             permanently withhold incentives from that servicer.
                                                 Although Treasury has an opportunity to reduce the rate of HAMP redefaults
                                             through data collection and conducting in-depth research and analysis of the
                                             causes of redefault and by implementing SIGTARP’s recommendations, some
                                             redefaults will inevitably happen. When a redefault happens, servicers are required
                                             to send a letter to the homeowner listing certain foreclosure alternative options that
                                             may be available. However, the array of possible options provided to the borrower
                                             falls short. For borrowers living in the 19 states funded by the Hardest Hit Fund
                                             Program, Treasury should require that servicers include the Hardest Hit Fund
                                             as a possible foreclosure prevention option. Additionally, Treasury should require
                                             servicers to communicate in this letter the possible option of HAMP Tier 2 as an
                                             alternative. These alternatives, along with options currently communicated such as
                                             a short sale or deed-in-lieu of foreclosure through the Home Affordable Foreclosure
                                             Alternatives program must all be communicated at the same time in writing to the
                                             borrower so that the borrower can make a fully informed decision about assistance
                                             options.




                                             RECOMMENDATIONS REGARDING BANKS THAT
                                             USED THE SMALL BUSINESS LENDING FUND TO
                                             EXIT TARP
                                             Taxpayers deserve transparency on Treasury’s decisions to allow banks to use
                                             the Small Business Lending Fund (“SBLF”) to pay back the TARP funds they
                                             borrowed from taxpayers. For this reason, in its April 2013 report, “Banks that
                                             Used the Small Business Lending Fund to Exit TARP,” SIGTARP reviewed the
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   183




extent to which Treasury and Federal regulators consistently evaluated applications
submitted by TARP banks to exit TARP by refinancing into SBLF.
    To fix the significant lost opportunity in TARP that banks were not required
or given incentives to lend, Congress created SBLF in 2010 explicitly to increase
“the availability of credit for small businesses” in the aftermath of the financial
crisis. To ensure SBLF’s money would be used for that purpose, and as a safeguard,
Congress required that applicant banks, including TARP banks applying to SBLF,
submit to their Federal banking regulator a “small business lending plan” detailing
how the bank would increase lending. SBLF also incentivized lending by rewarding
increases in lending with lower rates that a bank would pay the Government for the
use of the money.
    The scope and scale of SBLF, however, were not as expected, with most of the
money going to banks that had already received Federal funding through TARP,
with little resulting benefit for small businesses. Although $30 billion was available
for SBLF, Treasury invested only $4 billion, two-thirds of which ($2.7 billion) went
to 137 TARP banks that used SBLF as a vehicle to exit TARP, with its negative
stigma and less-favorable terms, including those limiting executive compensation
and luxury expenditures, and imposing cumulative dividends at a higher payment
to taxpayers. Nonetheless, when discussing in press releases and blog posts how
much Treasury has received in TARP repayments, Treasury includes the more than
$2 billion of SBLF funds that banks used to repay TARP.
    With respect to former TARP banks, the Small Business Lending Fund has
not lived up to its name. SIGTARP found that 132 of 137 former TARP banks
remaining in SBLF have not effectively increased small-business lending because
they used approximately 80% of SBLF funds ($2.1 billion of the $2.7 billion) they
received to fund their early exit from TARP. Additionally, 24 of those former TARP
banks have not increased their lending, despite receiving $501 million in SBLF
funds to do so. In fact, these 24 banks have actually decreased the amount of small
business lending provided since exiting TARP into SBLF by a total of more than
$741 million.
    Former TARP banks in SBLF are significantly underperforming compared
with non-TARP banks. As a group, the former TARP banks that moved into
SBLF increased lending by only $1.13 for each dollar they received from SBLF
(a multiple of one for every SBLF dollar). By comparison, SBLF banks that never
participated in TARP boosted lending by triple that amount, or by $3.45 for each
dollar in SBLF funds. Within the group of former TARP banks that expanded
credit to small businesses, lending increases varied widely according to whether
the bank received only enough SBLF funds to repay TARP, or received additional
funds. SIGTARP found that banks that received SBLF funds matching their TARP
balances have loaned just 25 cents for each SBLF dollar given to them. TARP
banks that received SBLF funds greater than what they needed to repay TARP have
increased lending by $1.67 for every dollar they received from SBLF – a lending
rate half that of non-TARP banks in SBLF.
    SIGTARP’s report included three new recommendations for Treasury and
Federal banking regulators:
184   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Treasury and the Federal banking regulators should improve coordination
                                             when collaborating on current and future initiatives by (1) defining the roles
                                             of all participants at the outset of collaborative efforts by creating precise
                                             and directed governing documents (i.e., charters) that clearly address the
                                             responsibilities of each entity; and (2) jointly documenting processes and
                                             procedures, including flowcharts, risk management tools, and reporting
                                             systems to ensure that objectives are met. Each participant should sign off to
                                             demonstrate their understanding of, and agreement with, these procedures.
                                                 SIGTARP found that Treasury and the Federal banking regulators did not
                                             effectively communicate with each other, each claiming that the other had
                                             responsibility to assess the banks’ plans to increase lending. For example, Treasury’s
                                             SBLF program director told SIGTARP that Treasury did not independently analyze
                                             lending plan projections, noting that was the responsibility of the regulators, rather
                                             than Treasury’s, because Congress required that the lending plans be submitted to
                                             regulators. Regulators, however, did not agree with Treasury’s view, and OCC and
                                             FDIC officials told SIGTARP that they perceived their role to be that of a conduit,
                                             passing along the lending plans to Treasury.
                                                 Despite holding several meetings to discuss the SBLF application review
                                             process, Treasury and regulators failed to establish their respective roles and
                                             responsibilities for review and scrutiny of the banks’ plans to increase small-
                                             business lending. SIGTARP found that, during the application review process,
                                             regulators did not consistently provide adequate input to Treasury on the SBLF
                                             lending plans and generally did not scrutinize the credibility of the information
                                             presented in the lending plans, focusing instead on the applicant banks’ viability,
                                             as they did with TARP.
                                                 Treasury’s review of the lending plans was superficial, focusing more on form
                                             than substance, with Treasury merely filling in a “check-the-box” review form
                                             that did not provide specific details to support the applicant’s ability to increase
                                             lending as proposed. Similarly, Treasury’s application review process was almost
                                             entirely focused on the banks’ ability to repay the funds to Treasury, overshadowing
                                             any consideration of the applicants’ preparedness to lend SBLF money. Treasury
                                             determined that as a matter of policy, both TARP and non-TARP applicants would
                                             have to project lending growth at least equal to the amount of SBLF funding they
                                             received. However, Treasury did not adequately evaluate the credibility of those
                                             projections, limiting the effectiveness of that policy.
                                                 The lending plans submitted by SBLF applicants did not receive appropriate
                                             and consistent Government scrutiny during the application review process in part
                                             because Treasury and Federal banking regulators did not collaborate effectively,
                                             each claiming that the other had responsibility to assess the lending plans. As a
                                             result, Treasury and the Federal regulators did not reject any TARP bank for SBLF
                                             because of the bank’s lending plan. Absent consistent and meaningful scrutiny by
                                             Treasury or regulators of banks’ lending plans, some institutions refinanced from
                                             TARP into SBLF seemingly unable to fulfill the sole purpose of the program – to
                                             increase lending to small businesses. Early coordination and communication of
                                             which entity was responsible for assessing the credibility of banks’ lending plans
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013   185




would likely have resulted in proper scrutiny of the lending plans and improved
their effectiveness – Congress’s critical safeguard to ensure that banks lend the
money.

To increase small-business lending by former TARP banks participating in
SBLF, Treasury should work with the banks to establish new, achievable plans
to increase lending going forward.
    Treasury and Federal banking regulators did not adequately assess whether
banks’ plans to increase small-business lending were actually achievable and
whether the TARP banks were actually prepared to lend SBLF capital. Many TARP
banks may not have had the wherewithal to increase qualified small-business
lending because they used SBLF funds entirely to repay TARP obligations. To
address concerns about the lending capabilities of the TARP banks applying to
SBLF, in September 2010, SIGTARP sent a letter to then-Treasury Secretary
Timothy Geithner recommending that Treasury not count TARP capital when
evaluating the health and viability of a bank applying for SBLF. “It makes little
sense to convert a bank into SBLF – a program intended to incentivize increased
lending – if the institution does not have the necessary capital to support such
increased lending,” SIGTARP said at that time. “An institution that would not have
an adequate capital base but for the Government’s investment likely will not have
the necessary capital to support increased lending.” If the banks could not credibly
demonstrate a source of funds to lend beyond the SBLF funds they sought to repay
TARP, Treasury should have found the banks to be unsuited to participate in the
program.
    Due to a lack of scrutiny, Treasury invested SBLF funds in some banks, even
though the banks submitted lending plans that were deficient on their face. Many
of the TARP banks that refinanced into SBLF have demonstrated an inability or
unwillingness to fulfill the sole purpose of the program: to increase lending to small
businesses. In fact, there is no meaningful penalty if the former TARP banks fail to
increase lending with their SBLF funds.
    Although Treasury and banking regulators failed to independently analyze the
credibility of TARP banks’ proposed lending plans during the SBLF application
process in 2011, it is not too late to address this misstep. Treasury continues to
oversee the SBLF program, and should immediately reach out to former TARP
banks to encourage them to prepare new, achievable plans to expand lending to
small businesses in their communities.
    But Treasury has rejected this recommendation, missing another opportunity
to protect the interests of taxpayers by ensuring former TARP banks that received
SBLF money carry out their promise to make more credit available to small
businesses.

To preserve the amount of capital former TARP banks participating in SBLF
have to lend, the primary Federal banking regulators (the Federal Reserve,
FDIC, or OCC) should not approve dividend distributions to common
186   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             shareholders of former TARP banks that have not effectively increased small
                                             business lending while in SBLF.
                                                  If former TARP banks in SBLF do not have sufficient capital to lend, as they
                                             promised in their SBLF applications, they do not have sufficient capital to pay
                                             dividends to shareholders. Yet, SIGTARP found that 14 former TARP banks in
                                             SBLF chose to reward common shareholders with dividend payments despite
                                             failing to boost their lending to small businesses. Treasury restricts SBLF banks
                                             from paying dividends to their shareholders if they miss dividend payments to
                                             Treasury or if their capital adequacy falls below a certain level. But Treasury did
                                             not place any restrictions on banks that failed to meet projections in their SBLF
                                             lending plans.
                                                  The FDIC, OCC, and Federal Reserve all rejected this recommendation rather
                                             than working with former TARP banks to preserve the amount of capital they have
                                             available to lend. FDIC said it lacks the authority to prohibit a former TARP bank
                                             from paying dividends to shareholders when it fails to live up to the lending plan
                                             it submitted to qualify for the SBLF program. OCC said the banks it supervises
                                             are not required to obtain regulatory approval before paying dividends, except in
                                             extraordinary circumstances. The Federal Reserve said it was not appropriate to
                                             use legal authority designed to ensure the safety and soundness of banks and their
                                             holding companies to direct them to engage in particular types of lending.
                                                  If banking regulators believe they need additional legislative authority to halt
                                             dividend payments by former TARP banks that are not living up to their SBLF
                                             lending plans, they should seek it. Historically, regulators focused only on safety
                                             and soundness, but their role since the financial crisis has been unprecedented.
                                             In TARP, Treasury was investing in financial institutions and turned to those
                                             institutions’ regulators for help in determining whether to make those investments.
                                             Those regulators have a responsibility to protect taxpayers’ investment, and
                                             taxpayers are not protected when banks that took SBLF money to exit TARP failed
                                             to boost lending but still paid dividends to shareholders.
SIGTARP RECOMMENDATIONS TABLE
                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
1    *    Treasury should include language in the automobile industry
          transaction term sheet acknowledging SIGTARP’s oversight
                                                                                X
          role and expressly giving SIGTARP access to relevant
          documents and personnel.
2    *    Treasury should include language in new TARP agreements                                                                            Although Treasury has made
          to facilitate compliance and oversight. Specifically, SIGTARP                                                                      substantial efforts to comply with
          recommends that each program participant should (1)                                                                                this recommendation in many of its
          acknowledge explicitly the jurisdiction and authority of                                                                           agreements, there have been exceptions,
          SIGTARP and other oversight bodies, as relevant, to oversee                                                                        including in its agreements with servicers
          compliance of the conditions contained in the agreement                                                                            in MHA.
          in question, (2) establish internal controls with respect to                            X
          that condition, (3) report periodically to the Compliance
          department of the Office of Financial Stability (“OFS-
          Compliance”) regarding the implementation of those controls
          and its compliance with the condition, and (4) provide a
          signed certification from an appropriate senior official to
          OFS-Compliance that such report is accurate.
3    *    All existing TARP agreements, as well as those governing
          new transactions, should be posted on the Treasury website            X
          as soon as possible.
4    *    Treasury should require all TARP recipients to report on the
                                                                                X
          actual use of TARP funds.
5    *    Treasury quickly determines its going-forward valuation
                                                                                X
          methodology.
6    *    Treasury begins to develop an overall investment strategy to
          address its portfolio of stocks and decide whether it intends         X
          to exercise warrants of common stock.
7    *    In formulating the structure of TALF, Treasury should                                                                              The Federal Reserve adopted
          consider requiring, before committing TARP funds to the                                                                            mechanisms that address this
          program, that certain minimum underwriting standards and/                                                                          recommendation.
                                                                                X
          or other fraud prevention mechanisms be put in place with
          respect to the ABS and/or the assets underlying the ABS
          used for collateral.
8    *    Agreements with TALF participants should include an
          acknowledgment that: (1) they are subject to the oversight
          of OFS-Compliance and SIGTARP, (2) with respect to any
          condition imposed as part of TALF, that the party on which
                                                                                                                           X
          the condition is imposed is required to establish internal
          controls with respect to each condition, report periodically
          on such compliance, and provide a certification with respect
          to such compliance.
9    *    Treasury should give careful consideration before agreeing                                                                         This recommendation was implemented
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013




          to the expansion of TALF to include MBS without a full review                                                                      with respect to CMBS, and the Federal
                                                                                X
          of risks that may be involved and without considering certain                                                                      Reserve did not expand TALF to RMBS.
          minimum fraud protections.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          187
                                                                                                                                                                                         188
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
10   *    Treasury should oppose any expansion of TALF to legacy                                                                             This recommendation was implemented
          MBS without significant modifications to the program to                                                                            with respect to CMBS, and the Federal
                                                                                X
          ensure a full assessment of risks associated with such an                                                                          Reserve did not expand TALF to RMBS.
          expansion.
11        Treasury should formalize its valuation strategy and begin                                                                         Treasury has formalized its valuation
          providing values of the TARP investments to the public.               X                                                            strategy and regularly publishes its
                                                                                                                                             estimates.
12   *    Treasury and the Federal Reserve should provide to                                                                                 On December 1, 2010, the Federal
          SIGTARP, for public disclosure, the identity of the borrowers                                                                      Reserve publicly disclosed the identities
          who surrender collateral in TALF.                                                                                                  of all TALF borrowers and that there had
                                                                                                                                      X
                                                                                                                                             been no surrender of collateral. SIGTARP
                                                                                                                                             will continue to monitor disclosures if a
                                                                                                                                             collateral surrender takes place.
13   *    In TALF, Treasury should dispense with rating agency                                                                               The Federal Reserve announced that
          determinations and require a security-by-security screening                                                                        RMBS were ineligible for TALF loans,
          for each legacy RMBS. Treasury should refuse to participate                                                                        rendering this recommendation moot.
          if the program is not designed so that RMBS, whether new
          or legacy, will be rejected as collateral if the loans backing                                                              X
          particular RMBS do not meet certain baseline underwriting
          criteria or are in categories that have been proven to be
                                                                                                                                                                                         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          riddled with fraud, including certain undocumented subprime
          residential mortgages.
14   *    In TALF, Treasury should require significantly higher haircuts                                                                     This recommendation was implemented
          for all MBS, with particularly high haircuts for legacy RMBS,         X                                                            with respect to CMBS, and the Federal
          or other equally effective mitigation efforts.                                                                                     Reserve did not expand TALF to RMBS.
15   *    Treasury should require additional anti-fraud and credit                                                                           The Federal Reserve adopted
          protection provisions, specific to all MBS, before                                                                                 mechanisms that address this
          participating in an expanded TALF, including minimum                  X                                                            recommendation with respect to CMBS,
          underwriting standards and other fraud prevention                                                                                  and did not expand TALF to RMBS.
          measures.
16   *    Treasury should design a robust compliance protocol with
          complete access rights to all TALF transaction participants                                                      X
          for itself, SIGTARP, and other relevant oversight bodies.
17   *    Treasury should not allow Legacy Securities PPIFs to invest
          in TALF unless significant mitigating measures are included           X
          to address these dangers.
18   *    All TALF modeling and decisions, whether on haircuts or any
          other credit or fraud loss mechanisms, should account for
          potential losses to Government interests broadly, including           X
          TARP funds, and not just potential losses to the Federal
          Reserve.
19   *    Treasury should address the confusion and uncertainty on
          executive compensation by immediately issuing the required            X
          regulations.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
20   *    Treasury should significantly increase the staffing levels of                                                                      According to Treasury, OFS-Compliance
          OFS-Compliance and ensure the timely development and                                                                               has increased its staffing level and has
          implementation of an integrated risk management and                                     X                                          contracted with four private firms to
          compliance program.                                                                                                                provide additional assistance to OFS-
                                                                                                                                             Compliance.
21   *    Treasury should require CAP participants to (1) establish an                                                                       Treasury closed the program with no
          internal control to monitor their actual use of TARP funds, (2)                                                                    investments having been made, rendering
          provide periodic reporting on their actual use of TARP funds,                                                                      this recommendation moot.
          (3) certify to OFS-Compliance, under the penalty of criminal
          sanction, that the report is accurate, that the same criteria
                                                                                                                                      X
          of internal controls and regular certified reports should be
          applied to all conditions imposed on CAP participants, and
          (4) acknowledge explicitly the jurisdiction and authority of
          SIGTARP and other oversight bodies, as appropriate, to
          oversee conditions contained in the agreement.
22   *    Treasury should impose strict conflict-of-interest rules upon                                                                      Treasury has adopted some significant
          PPIF managers across all programs that specifically address                                                                        conflict-of-interest rules related to this
          whether and to what extent the managers can (1) invest                                                                             recommendation, but has failed to
          PPIF funds in legacy assets that they hold or manage on                                 X                                          impose other significant safeguards.
          behalf of themselves or their clients or (2) conduct PPIF
          transactions with entities in which they have invested on
          behalf of themselves or others.
23   *    Treasury should require that all PPIF fund managers (1)                                                                            Treasury’s agreements with PPIF
          have stringent investor-screening procedures, including                                                                            managers include investor-screening
          comprehensive “Know Your Customer” requirements at least                                                                           procedures such as “Know Your
          as rigorous as that of a commercial bank or retail brokerage                                                                       Customer” requirements. Treasury
          operation to prevent money laundering and the participation                                                                        has agreed that it will have access to
          of actors prone to abusing the system, and (2) be required                              X                                          any information in a fund manager’s
          to provide Treasury with the identities of all the beneficial                                                                      possession relating to beneficial owners.
          owners of the private interests in the fund so that Treasury                                                                       However, Treasury did not impose an
          can do appropriate diligence to ensure that investors in the                                                                       affirmative requirement that managers
          funds are legitimate.                                                                                                              obtain and maintain beneficial owner
                                                                                                                                             information.
24   *    Treasury should require PPIP managers to provide most
          favored nation clauses to PPIF equity stakeholders, to
                                                                                 X
          acknowledge that they owe Treasury a fiduciary duty, and to
          adopt a robust ethics policy and compliance apparatus.
25        Treasury should require servicers in MHA to submit third-                                                                          Treasury has decided to adopt this
          party verified evidence that the applicant is residing in the                                                                      important SIGTARP recommendation.
                                                                                                             X
          subject property before funding a mortgage modification.                                                                           SIGTARP will monitor Treasury’s
                                                                                                                                             implementation of the recommendation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013
                                                                                                                                                                                          189
                                                                                                                                                                                           190
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
26   *    In MHA, Treasury should require a closing-like procedure                                                                           Treasury rejected SIGTARP’s
          be conducted that would include (1) a closing warning                                                                              recommendation for a closing-like
          sheet that would warn the applicant of the consequences                                                                            procedure. However, since this
          of fraud; (2) the notarized signature and thumbprint of each                                                                       recommendation was issued, Treasury
          participant; (3) mandatory collection, copying, and retention                                                                      has taken several actions to prevent
          of copies of identification documents of all participants in                                                                       fraud on the part of either MHA servicers
          the transaction; (4) verbal and written warnings regarding                              X                                          or applicants.
          hidden fees and payments so that applicants are made fully
          aware of them; (5) the benefits to which they are entitled
          under the program (to prevent a corrupt servicer from
          collecting payments from the Government and not passing
          the full amount of the subsidies to the homeowners); and (6)
          the fact that no fee should be charged for the modification.
27    *   Additional anti-fraud protections should be adopted in MHA                                                                         Treasury has taken steps to implement
          to verify the identity of the participants in the transaction                                                                      policies and conduct compliance reviews
          and to address the potential for servicers to steal from                                                                           to address this recommendation.
          individuals receiving Government subsidies without applying                             X                                          However, it remains unclear if Treasury
          them for the benefit of the homeowner.                                                                                             has an appropriate method to ensure the
                                                                                                                                             irregularities identified in the compliance
                                                                                                                                             reviews are resolved.
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




28   *    In MHA, Treasury should require the servicer to compare                                                                            Treasury has rejected SIGTARP’s
          the income reported on a mortgage modification application                                                                         recommendation and does not require
          with the income reported on the original loan applications.                                                      X                 income reported on the modification
                                                                                                                                             application to be compared to income
                                                                                                                                             reported on the original loan application.
29   *    In MHA, Treasury should require that verifiable, third-party
          information be obtained to confirm an applicant’s income              X
          before any modification payments are made.
30   *    In MHA, Treasury should defer payment of the $1,000                                                                                Rather than deferring payment of the
          incentive to the servicer until after the homeowner has                                                                            incentive until after the homeowner has
          verifiably made a minimum number of payments under the                                                                             verifiably made a minimum number of
          mortgage modification program.                                                                                                     payments on its permanent modification,
                                                                                                                           X
                                                                                                                                             Treasury will pay the incentive after the
                                                                                                                                             servicer represents that the homeowner
                                                                                                                                             has made three payments during the trial
                                                                                                                                             period.
31   *    In MHA, Treasury should proactively educate homeowners
          about the nature of the program, warn them about
                                                                                X
          modification rescue fraudsters, and publicize that no fee is
          necessary to participate in the program.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
32   *    In MHA, Treasury should require its agents to keep track of                                                                        While Treasury’s program administrator,
          the names and identifying information for each participant in                                                                      Fannie Mae, has developed a HAMP
          each mortgage modification transaction and to maintain a                                                                           system of record that maintains
          database of such information.                                                                                                      servicers’ names, investor group
                                                                                                                                             (private, portfolio, GSE), and
                                                                                                  X                                          participating borrowers’ personally
                                                                                                                                             identifiable information, such as names
                                                                                                                                             and addresses, the database is not
                                                                                                                                             constructed to maintain other information
                                                                                                                                             that may assist in detecting insiders who
                                                                                                                                             are committing large-scale fraud.
33   *    Treasury should require the imposition of strict information                                                                       Treasury has refused to adopt this
          barriers or “walls” between the PPIF managers making                                                                               significant anti-fraud measure designed
          investment decisions on behalf of the PPIF and those                                                             X                 to prevent conflicts of interest. This
          employees of the fund management company who manage                                                                                represents a material deficiency in the
          non-PPIF funds.                                                                                                                    program.
34   *    Treasury should periodically disclose PPIF trading activity                                                                        Treasury has committed to publish
          and require PPIF managers to disclose to SIGTARP, within                                                                           on a quarterly basis certain high-level
          seven days of the close of the quarter, all trading activity,                                                                      information about aggregated purchases
          holdings, and valuations so that SIGTARP may disclose                                                                              by the PPIFs, but not within seven days of
          such information, subject to reasonable protections, in its                                                      X                 the close of the quarter. Treasury has not
          quarterly reports.                                                                                                                 committed to providing full transparency
                                                                                                                                             to show where public dollars are invested
                                                                                                                                             by requiring periodic disclosure of every
                                                                                                                                             trade in the PPIFs.
35        Treasury should define appropriate metrics and an                                                                                  Treasury has stated that it has developed
          evaluation system should be put in place to monitor the                                                                            risk and performance metrics. However,
          effectiveness of the PPIF managers, both to ensure they                                                                            nearly four years into the program, it
          are fulfilling the terms of their agreements and to measure                             X                                          is still not clear how Treasury will use
          performance.                                                                                                                       these metrics to evaluate the PPIP
                                                                                                                                             managers and take appropriate action as
                                                                                                                                             recommended by SIGTARP.
36   *    The conditions that give Treasury “cause” to remove a                                                                              Treasury has refused to adopt this
          PPIF manager should be expanded to include a manager’s                                                                             recommendation, relying solely on
          performance below a certain standard benchmark, or if                                                                              Treasury’s right to end the investment
          Treasury concludes that the manager has materially violated                                                      X                 period after 12 months. That timeframe
          compliance or ethical rules.                                                                                                       has already expired. Treasury’s failure to
                                                                                                                                             adopt this recommendation potentially
                                                                                                                                             puts significant Government funds at risk.
37   *    Treasury should require PPIF managers to disclose to
          Treasury, as part of the Watch List process, not only
                                                                                 X
          information about holdings in eligible assets but also
          holdings in related assets or exposures to related liabilities.
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          191
                                                                                                                                                                                           192
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
38        Treasury should require PPIF managers to obtain and                                                                                Treasury has agreed that it can have
          maintain information about the beneficial ownership of all of                                                                      access to any information in a fund
          the private equity interests, and Treasury should have the                                                                         manager’s possession relating to
          unilateral ability to prohibit participation of private equity                                                                     beneficial owners. However, Treasury is
          investors.                                                                                                                         not making an affirmative requirement
                                                                                                                           X                 that managers obtain and maintain
                                                                                                                                             beneficial owner information. Treasury will
                                                                                                                                             not adopt the recommendation to give
                                                                                                                                             itself unilateral ability to deny access to
                                                                                                                                             or remove an investor, stating that such a
                                                                                                                                             right would deter participation.
39   *    Treasury and FRBNY should (1) examine Moody’s assertions                                                                           Treasury and the Federal Reserve have
          that some credit rating agencies are using lower standards                                                                         discussed concerns about potential
          to give a potential TALF security the necessary AAA rating                                                                         overrating or rating shopping with the
          and (2) develop mechanisms to ensure that acceptance of               X                                                            rating agencies, and have agreed to
          collateral in TALF is not unduly influenced by the improper                                                                        continue to develop and enhance risk
          incentives to overrate that exist among the credit agencies.                                                                       management tools and processes, where
                                                                                                                                             appropriate.
40   *    Treasury should more explicitly document the vote of each
          Investment Committee member for all decisions related to              X
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          the investment of TARP funds.
41   *    Treasury should improve existing control systems to
          document the occurrence and nature of external phone calls
          and in-person meetings about actual and potential recipients          X
          of funding under the CPP and other similar TARP-assistance
          programs to which they may be part of the decision making.
42   *    The Secretary of the Treasury should direct the Special
          Master to work with FRBNY officials in understanding AIG
          compensation programs and retention challenges before
                                                                                X
          developing future compensation decisions that may affect
          both institutions’ ability to get repaid by AIG for Federal
          assistance provided.
43   *    Treasury should establish policies to guide any similar                                                                            Treasury stated that it does not
          future decisions to take a substantial ownership position in                                                                       anticipate taking a substantial percentage
          financial institutions that would require an advance review                                                                 X      ownership position in any other financial
          so that Treasury can be reasonably aware of the obligations                                                                        institution pursuant to EESA.
          and challenges facing such institutions.
44   *    Treasury should establish policies to guide decision making                                                                        Treasury has agreed to work closely with
          in determining whether it is appropriate to defer to another                                                                       other Federal agencies that are involved
                                                                                                  X
          agency when making TARP programming decisions where                                                                                in TARP.
          more than one Federal agency is involved.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
45        Treasury should rectify the confusion that its own                                                                                 Despite SIGTARP’s repeated highlighting
          statements have caused for HAMP by prominently disclosing                                                                          of this essential transparency and
          its goals and estimates (updated over time, as necessary)                                                                          effectiveness measure, Treasury has
                                                                                                                           X
          of how many homeowners the program will help through                                                                               refused to disclose clear and relevant
          permanent modifications and report monthly on its progress                                                                         goals and estimates for the program.
          toward meeting that goal.
46        Treasury should develop other performance metrics                                                                                  Although Treasury has increased its
          and publicly report against them to measure over time                                                                              reporting of servicer performance, it has
          the implementation and success of HAMP. For example,                                                                               not identified goals for each metric and
          Treasury could set goals and publicly report against those                                                                         measured performance against those
          goals for servicer processing times, modifications as a                                 X                                          goals.
          proportion of a servicer’s loans in default, modifications
          as a proportion of foreclosures generally, rates of how
          many borrowers fall out of the program prior to permanent
          modification, and re-default rates.
47        Treasury should undertake a sustained public service
          campaign as soon as possible, both to reach additional
          borrowers who could benefit from the program and to arm
                                                                                X
          the public with complete, accurate information — this will
          help to avoid confusion and delay, and prevent fraud and
          abuse.
48        Treasury should reconsider its position that allows servicers
          to substitute alternative forms of income verification based                                                     X
          on subjective determinations by the servicer.
49        Treasury should re-examine HAMP’s structure to ensure that                                                                         Treasury has adopted some programs to
          it is adequately minimizing the risk of re-default stemming                                                                        assist underwater mortgages to address
          from non-mortgage debt, second liens, partial interest rate                             X                                          concerns of negative equity but has not
          resets after the five-year modifications end, and from many                                                                        addressed other factors contained in this
          borrowers being underwater.                                                                                                        recommendation.
50        Treasury should institute careful screening before putting
          additional capital through CDCI into an institution with
          insufficient capital to ensure that the TARP matching funds           X
          are not flowing into an institution that is on the verge of
          failure.
51        Treasury should develop a robust procedure to audit and
          verify the bona fides of any purported capital raise in CDCI
                                                                                X
          and to establish adequate controls to verify the source,
          amount and closing of all claimed private investments.
52        Treasury should revise CDCI terms to clarify that Treasury
          inspection and copy rights continue until the entire CDCI
          investment is terminated. Additionally, consistent with
          recommendations made in connection with other TARP                    X
          programs, the terms should be revised to provide expressly
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013




          that SIGTARP shall have access to the CDFI’s records equal
          to that of Treasury.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                         193
                                                                                                                                                                                            194
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
53        Treasury should consider more frequent surveys of a CDCI
          participant’s use of TARP funds than annually as currently
                                                                                                                           X
          contemplated. Quarterly surveys would more effectively
          emphasize the purpose of CDCI.
54        Treasury should ensure that more detail is captured by                                                                             Treasury has indicated that it has
          the Warrant Committee meeting minutes. At a minimum,                                                                               implemented this recommendation.
          the minutes should include the members’ qualitative                                                                                Although the detail of the minutes has
                                                                                 X
          considerations regarding the reasons bids were accepted or                                                                         improved, Treasury is still not identifying
          rejected within fair market value ranges.                                                                                          how each member of the committee
                                                                                                                                             casts his or her vote.
55        Treasury should document in detail the substance of                                                                                Treasury has agreed to document the
          all communications with recipients concerning warrant                                                                              dates, participants, and subject line of
                                                                                                                           X
          repurchases.                                                                                                                       calls. It has refused to document the
                                                                                                                                             substance of such conversations.
56   *    Treasury should develop and follow guidelines and internal                                                                         Treasury has adopted procedures
          controls concerning how warrant repurchase negotiations                                                                            designed to address this
          will be pursued, including the degree and nature of                                                                                recommendation, including a policy to
          information to be shared with repurchasing institutions                                                                            discuss only warrant valuation inputs and
          concerning Treasury’s valuation of the warrants.                                                                                   methodologies prior to receiving a bid,
                                                                                                                                             generally to limit discussion to valuation
                                                                                                                                                                                            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                  X                                          ranges after receiving approval from
                                                                                                                                             the Warrant Committee, and to note
                                                                                                                                             the provision of any added information
                                                                                                                                             in the Committee minutes. However,
                                                                                                                                             Treasury believes that its existing internal
                                                                                                                                             controls are sufficient to ensure adequate
                                                                                                                                             consistency in the negotiation process.
57   *    Treasury should promptly take steps to verify TARP                                                                                 Although Treasury largely continues
          participants’ conformance to their obligations, not only by                                                                        to rely on self-reporting, stating that
          ensuring that they have adequate compliance procedures                                                                             it only plans to conduct testing where
          but also by independently testing participants’ compliance.                                                                        they have particular concerns as to a
                                                                                                  X                                          TARP recipient’s compliance procedures
                                                                                                                                             or testing results, it has conducted
                                                                                                                                             independent testing of compliance
                                                                                                                                             obligations during some compliance
                                                                                                                                             reviews.
58   *    Treasury should develop guidelines that apply consistently                                                                         Treasury states that it has developed
          across TARP participants for when a violation is sufficiently                                                                      guidance and provided that guidance to
          material to merit reporting, or in the alternative require that                                                                    the exceptional assistance participants
          all violations be reported.                                                                                                        that were remaining in TARP as of
                                                                                                  X                                          June 30, 2011. Treasury has not
                                                                                                                                             addressed other factors contained in this
                                                                                                                                             recommendation, citing its belief that
                                                                                                                                             materiality should be subject to a fact
                                                                                                                                             and circumstances review.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
59        For each HAMP-related program and subprogram, Treasury                                                                             Treasury has provided anticipated costs,
          should publish the anticipated costs and expected                                                                                  but not expected participation.
          participation in each and that, after each program is                                   X
          launched, it report monthly as to the program’s performance
          against these expectations.
60   *    Treasury should re-evaluate the voluntary nature of its                                                                            Treasury plans to maintain the voluntary
          principal reduction program and, irrespective of whether it                                                                        nature of the program, providing an
          is discretionary or mandatory, consider changes to better                                                                          explanation that on its face seems
                                                                                                                                      X
          maximize its effectiveness, ensure to the greatest extent                                                                          unpersuasive to SIGTARP. SIGTARP will
          possible the consistent treatment of similarly situated                                                                            continue to monitor performance.
          borrowers, and address potential conflict of interest issues.
61        Treasury should adopt a uniform appraisal process across
          all HAMP and HAMP-related short-sale and principal                                                               X
          reduction programs consistent with FHA’s procedures.
62   *    Treasury should reconsider the length of the minimum term                                                                          For more than a year, Treasury refused to
          of HAMP’s unemployment forbearance program.                                                                                        adopt this recommendation, even though
                                                                                                                                             average U.S. terms of unemployment
                                                                                                                                             were lengthening. However, in July 2011,
                                                                                X                                                            the Administration announced a policy
                                                                                                                                             change, and Treasury has extended the
                                                                                                                                             minimum term of the unemployment
                                                                                                                                             program from three months to 12
                                                                                                                                             months, effective October 1, 2011.
63        Treasury should launch a broad-based information
          campaign, including public service announcements in target
          markets that focus on warnings about potential fraud, and             X
          include conspicuous fraud warnings whenever it makes
          broad public announcements about the HAMP program.
64        When Treasury considers whether to accept an existing CPP
          participant into SBLF, because conditions for many of the
          relevant institutions have changed dramatically since they
          were approved for CPP, Treasury and the bank regulators               X
          should conduct a new analysis of whether the applying
          institution is sufficiently healthy and viable to warrant
          participation in SBLF.
65        When Treasury conducts the new analysis of an institution’s                                                                        Treasury refused to adopt this
          health and viability, the existing CPP preferred shares should                                                                     recommendation, citing its belief that
          not be counted as part of the institution’s capital base.                                                                          current CPP participants may be unfairly
                                                                                                                                             disadvantaged in their SBLF applications
                                                                                                                                             if their existing CPP investments are
                                                                                                                           X
                                                                                                                                             not counted as part of their capital
                                                                                                                                             base, and that SBLF “already provides
                                                                                                                                             substantial hurdles that CPP recipients
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013




                                                                                                                                             must overcome” that don’t apply to other
                                                                                                                                             applicants.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                         195
                                                                                                                                                                                          196
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
66        Treasury should take steps to prevent institutions that are                                                                        Treasury refused to adopt this
          refinancing into the SBLF from CPP from securing windfall                                                                          recommendation, suggesting that
          dividend reductions without any relevant increase in lending.                                                                      its adoption would subvert the will
                                                                                                                                             of Congress and that SIGTARP’s
                                                                                                                           X
                                                                                                                                             recommendation “may not be helpful”
                                                                                                                                             because “it is unclear that using this
                                                                                                                                             statutorily mandated baseline will lead to
                                                                                                                                             anomalies.”
67   *    Treasury, as part of its due diligence concerning any
          proposed restructuring, recapitalization, or sale of its CPP
          investment to a third party, should provide to SIGTARP the
          identity of the CPP institution and the details of the proposed        X
          transaction.



68   *    When a CPP participant refinances into SBLF and seeks
          additional taxpayer funds, Treasury should provide to
                                                                                 X
          SIGTARP the identity of the institution and details of the
          proposed additional SBLF investment.
69   *    OFS should adopt the legal fee bill submission standards                                                                           Treasury told SIGTARP that OFS has
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          contained in the FDIC’s Outside Counsel Deskbook, or                                                                               created new guidance using the FDIC’s
          establish similarly detailed requirements for how law                                                                              Outside Counsel Deskbook and other
                                                                                 X
          firms should prepare legal fee bills and describe specific                                                                         resources.
          work performed in the bills, and which costs and fees are
          allowable and unallowable.
70   *    OFS should include in its open legal service contracts                                                                             Treasury told SIGTARP that OFS has
          detailed requirements for law firms on the preparation and                                                                         distributed its new guidance to all
          submission of legal fee bills, or separately provide the                                                                           law firms currently under contract to
          instructions to law firms and modify its open contracts,                                                                           OFS. Treasury further stated that OFS
                                                                                                             X
          making application of the instructions mandatory.                                                                                  will work with Treasury’s Procurement
                                                                                                                                             Services Division to begin modifying
                                                                                                                                             base contracts for OFS legal services to
                                                                                                                                             include those standards as well.
71   *    OFS should adopt the legal fee bill review standards                                                                               Treasury told SIGTARP that OFS has held
          and procedures contained in the FDIC’s Outside Counsel                                                                             training on its newly adopted guidance
          Deskbook, or establish similarly specific instructions and                                                                         prescribing how legal fee bills should
          guidance for OFS COTRs to use when reviewing legal fee                                                                             be prepared with OFS COTRs and other
          bills, and incorporate those instructions and guidance into                                                                        staff involved in the review of legal fee
          OFS written policies.                                                                                                              bills, and that the OFS COTRs will begin
                                                                                 X
                                                                                                                                             reviewing invoices in accordance with
                                                                                                                                             its new guidance for periods starting
                                                                                                                                             with March 2011. OFS also stated that
                                                                                                                                             it incorporated relevant portions of its
                                                                                                                                             training on the new legal fee bill review
                                                                                                                                             standards into written procedures.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
72   *    OFS should review previously paid legal fee bills to                                                                               In April 2011, Treasury agreed to
          identify unreasonable or unallowable charges, and seek                                                                             implement this recommendation. Then,
          reimbursement for those charges, as appropriate.                                                                                   more than one year later, in October
                                                                                                                                             2012, Treasury reversed itself and
                                                                                                                           X                 told SIGTARP that it does not have the
                                                                                                                                             authority to seek reimbursement for
                                                                                                                                             previously paid legal bills. Treasury
                                                                                                                                             did not provide any legal authority to
                                                                                                                                             SIGTARP to support its position.
73   *    Treasury should establish detailed guidance and internal                                                                           Treasury made important changes to
          controls governing how the MHA Servicer Compliance                                                                                 its servicer assessments by including
          Assessment will be conducted and how each compliance                                                                               metrics for the ratings, including several
          area will be weighted.                                                                                                             quantitative metrics. However, qualitative
                                                                                                  X                                          metrics to assess the servicer’s internal
                                                                                                                                             controls in the three ratings categories
                                                                                                                                             remain, and guidelines or criteria for
                                                                                                                                             rating the effectiveness of internal
                                                                                                                                             controls are still necessary.
74   *    Treasury should ensure that more detail is captured by                                                                             Minutes of recent MHA Compliance
          the MHA Compliance Committee meeting minutes. At a                                                                                 Committee meetings contain brief
          minimum, the minutes should include MHA-C’s proposed                                                                               explanations of servicer assessment
          rating for each servicer, the committee members’ qualitative                                                                       rating decisions. However, these
          and quantitative considerations regarding each servicer’s                                                                          minutes do not explain the Committee’s
          ratings, the votes of each committee member, the final                                  X                                          deliberations in detail, do not indicate
          rating for each servicer, justification for any difference in                                                                      how members voted beyond a tally of
          that rating with MHA-C’s proposed rating, and any follow-                                                                          the votes, and do not discuss follow-up
          up including escalation to Treasury’s Office of General                                                                            actions or escalation.
          Counsel or the Assistant Secretary and the outcomes of that
          escalation.
75   *    Treasury should require that MHA servicer communications                                                                           Treasury has refused to adopt this
          with homeowners relating to changes in the status or                                                                               recommendation, saying it already
          terms of a homeowner’s modification application, trial or                                                                          requires a loan servicer to communicate
          permanent modification, HAFA agreement, or any other                                                                               in writing with a borrower an average
          significant change affecting the homeowner’s participation in                                                                      of 10 times. However, most written
                                                                                                                           X
          the MHA program, be in writing.                                                                                                    requirements apply to a HAMP
                                                                                                                                             application and Treasury’s response fails
                                                                                                                                             to address homeowners who receive
                                                                                                                                             miscommunication from servicers on
                                                                                                                                             important milestones or changes.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013
                                                                                                                                                                                          197
                                                                                                                                                                                        198
SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
76   *    Treasury should establish benchmarks and goals for                                                                                 Treasury told SIGTARP that it already
          acceptable program performance for all MHA servicers,                                                                              established benchmarks in this area,
          including the length of time it takes for trial modifications to                                                                   including that trial periods should last
          be converted into permanent modifications, the conversion                                                                          three to four months, and escalated
          rate for trial modifications into permanent modifications,                                                                         cases should be resolved in 30 days. If
          the length of time it takes to resolve escalated homeowner                                                       X                 these are the benchmarks for acceptable
          complaints, and the percentage of required modification                                                                            performance, many servicers have
          status reports that are missing.                                                                                                   missed the mark. Also, Treasury has yet
                                                                                                                                             to establish a benchmark for conversion
                                                                                                                                             rates from trial modifications to
                                                                                                                                             permanent modifications.
77    *   Treasury should publicly assess the top 10 MHA servicers’                                                                          Treasury has rejected this
          program performance against acceptable performance                                                                                 recommendation, saying only that it
          benchmarks in the areas of: the length of time it takes                                                                            would “continue to develop and improve
          for trial modifications to be converted into permanent                                                                             the process where appropriate.”
          modifications, the conversion rate for trial modifications                                                       X
          into permanent modifications, the length of time it takes
          to resolve escalated homeowner complaints, and the
          percentage of required modification status reports that are
          missing.
                                                                                                                                                                                        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




78   *    Treasury must ensure that all servicers participating in MHA                                                                       Treasury has rejected this important
          comply with program requirements by vigorously enforcing                                                                           recommendation, stating that it believes
          the terms of the servicer participation agreements, including                                                                      that the remedies enacted have been
          using all financial remedies such as withholding, permanently                                                                      appropriate and that appropriate
                                                                                                                           X
          reducing, and clawing back incentives for servicers who                                                                            transparency exists.
          fail to perform at an acceptable level. Treasury should be
          transparent and make public all remedial actions taken
          against any servicer.
79        Treasury should specifically determine the allowability of                                                                         Treasury neither agreed nor disagreed
          $7,980,215 in questioned, unsupported legal fees and                                                                               with the recommendation.
          expenses paid to the following law firms: Simpson Thacher
          & Bartlett LLP ($5,791,724); Cadwalader Wickersham &                                                             X
          Taft LLP ($1,983,685); Locke Lord Bissell & Liddell LLP
          ($146,867); and Bingham McCutchen LLP (novated from
          McKee Nelson LLP, $57,939).
80        The Treasury contracting officer should disallow and seek                                                                          Treasury neither agreed nor disagreed
          recovery from Simpson Thacher & Bartlett LLP for $96,482                                                                           with the recommendation.
          in questioned, ineligible fees and expenses paid that were
          not allowed under the OFS contract. Specifically, those are
                                                                                                                           X
          $68,936 for labor hours billed at rates in excess of the
          allowable maximums set in contract TOFS-09-0001, task
          order 1, and $22,546 in other direct costs not allowed
          under contract TOFS-09-007, task order 1.
81        Treasury should promptly review all previously paid legal fee                                                                      Treasury neither agreed nor disagreed
          bills from all law firms with which it has a closed or open                                                                        with the recommendation.
                                                                                                                           X
          contract to identify unreasonable or unallowable charges
          and seek reimbursement for those charges, as appropriate.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
82        Treasury should require in any future solicitation for legal                                                                       Treasury neither agreed nor disagreed
          services multiple rate categories within the various partner,                                                                      with the recommendation.
          counsel, and associate labor categories. The additional                                                          X
          labor rate categories should be based on the number of
          years the attorneys have practiced law.
83        Treasury should pre-approve specified labor categories and                                                                         Treasury neither agreed nor disagreed
          rates of all contracted legal staff before they are allowed to                                                   X                 with the recommendation.
          work on and charge time to OFS projects.
84   *    Treasury, in consultation with Federal banking regulators,                                                                         Treasury responded that it continues
          should develop a clear TARP exit path to ensure that                                                                               its efforts to wind down CPP through
          as many community banks as possible repay the TARP                                                                                 repayments, restructuring, and sales.
          investment and prepare to deal with the banks that cannot.                                                                         Treasury has not addressed the criteria
                                                                                                             X
          Treasury should develop criteria pertaining to restructurings,                                                                     for these divestment strategies or
          exchanges, and sales of its TARP investments (including any                                                                        consulted with regulators.
          discount of the TARP investment, the treatment of unpaid
          TARP dividend and interest payments, and warrants).
85   *    Treasury should assess whether it should renegotiate the                                                                           Treasury rejected this recommendation
          terms of its Capital Purchase Program contracts for those                                                                          without ever addressing why.
          community banks that will not be able to exit TARP prior                                                         X
          to the dividend rate increase in order to help preserve the
          value of taxpayers’ investments.
86        Treasury should protect borrower personally identifiable                                                                           Treasury has said it will adopt this
          information (“PII”) and other sensitive borrower information                                                                       recommendation in part. Treasury did
          compiled for the Hardest Hit Fund (“HHF”) by: (1) requiring                                                                        not agree to review each HFA’s policies
          that within 90 days, all Housing Finance Agencies (and                                                                             and procedures to determine if they
          their contractors) (“HFAs”) participating in HHF develop                                                                           are effective. Also, Treasury did not
          and implement effective policies and procedures to ensure                                                                          require notification within 24 hours or
          protection against unauthorized access, use, and disposition                                                                       notification to SIGTARP. SIGTARP will
          of PII and other sensitive borrower information; (2) Treasury                                                                      monitor Treasury’s efforts to implement
          reviewing each HFA’s policies and procedures to determine                                                                          the recommendation.
          if they are effective, and taking such action as is required to                                    X
          ensure effectiveness; (3) requiring that all parties granted
          access to borrower information should be made aware
          of restrictions on copying and disclosing this information;
          (4) requiring annual certification by HFAs to Treasury that
          they are in compliance with all applicable laws, policies
          and procedures pertaining to borrower information; and (5)
          requiring that HFAs promptly notify Treasury and SIGTARP
          within 24 hours, when a breach of security has occurred
          involving borrower information.
87   *    To ensure that the Office of the Special Master consistently                                                                       OSM began memorializing in its records
          grants exceptions to the $500,000 cash salary cap, the                                                                             justifications for exceptions. However,
          Office of the Special Master should substantiate each                                                                              SIGTARP found in its review of the 2012
          exception requested and whether the requests demonstrate                                                                           determinations that those records do not
                                                                                                                                                                                        QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013




                                                                                                                           X
          or fail to demonstrate “good cause.”                                                                                               substantiate each exception requested
                                                                                                                                             and whether the request for an exception
                                                                                                                                             demonstrates or fails to demonstrate
                                                                                                                                             “good cause.”
                                                                                                                                                                                        199




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                            200
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
88   *    The Office of the Special Master should better document
          its use of market data in its calculations. At a minimum, the
          Office of the Special Master should prospectively document
          which companies and employees are used as comparisons
                                                                                 X
          in its analysis of the 50th percentile of the market, and
          it should also maintain records and data so that the
          relationship between its determinations and benchmarks are
          clearly understood.
89        The Office of the Special Master should develop more                                                                               Treasury has not agreed to implement
          robust policies, procedures, or guidelines to help ensure                                                                          this important recommendation.
          that its pay determination process and its decisions are
          evenhanded. These measures will improve transparency
                                                                                                                           X
          and help the Office of the Special Master consistently apply
          the Interim Final Rule principles of “appropriate allocation,”
          “performance-based compensation,” and “comparable
          structures and payments.”
90        In order to allow for effective compliance and enforcement                                                                         Treasury responded to this
          in HAMP Tier 2, Treasury should require that the borrower                                                                          recommendation by requiring that
          prove that the property has been rented and is occupied                                                                            borrowers certify that they intend to rent
          by a tenant at the time the borrower applies for a loan                                                                            the property for at least five years and
                                                                                                                                                                                            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          modification, as opposed to requiring only a certification                                                                         that they will make reasonable efforts
          that the borrower intends to rent the property. As part of                                                                         to rent. This does not go far enough.
          the Request for Mortgage Assistance (“RMA”) application                                                                            Requiring only a self-certification, under
          for HAMP Tier 2, the borrower should provide the servicer                                                                          penalty of perjury, without a strong
          with a signed lease and third-party verified evidence of                                                         X                 compliance and enforcement regime to
          occupancy in the form of documents showing that a renter                                                                           ensure that the intent is carried out and
          lives at the property address, such as a utility bill, driver’s                                                                    the property is actually rented, leaves the
          license, or proof of renter’s insurance. In the case of                                                                            program vulnerable to risks that TARP
          multiple-unit properties under one mortgage Treasury should                                                                        funds will pay investors for modifications
          require that the borrower provide the servicer with evidence                                                                       for mortgages on vacation homes
          that at least one unit is occupied by a tenant as part of the                                                                      that are not rented, and may delay, as
          RMA.                                                                                                                               opposed to prevent, foreclosures and
                                                                                                                                             increase HAMP redefault rates.
91        To continue to allow for effective compliance and                                                                                  Treasury rejected this recommendation,
          enforcement in HAMP Tier 2 after the trial modification has                                                                        stating that eligibility is not retested
          started, Treasury should require that, prior to conversion                                                                         prior to conversion. This does not go far
          of a trial modification to a permanent modification, the                                                                           enough. Requiring only a self-certification,
          borrower certify under penalty of perjury that none of the                                                                         without a strong compliance and
          occupancy circumstances stated in the RMA have changed.                                                                            enforcement regime to ensure that the
                                                                                                                                             intent is carried out and the property
                                                                                                                           X
                                                                                                                                             is actually rented, leaves the program
                                                                                                                                             vulnerable to risks that TARP funds
                                                                                                                                             will pay investors for modifications for
                                                                                                                                             mortgages on vacation homes that are
                                                                                                                                             not rented, and may delay, as opposed to
                                                                                                                                             prevent, foreclosures and increase HAMP
                                                                                                                                             redefault rates.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
92        To prevent a property that has received a HAMP Tier 2                                                                              Treasury told SIGTARP that implementing
          modification from remaining vacant for an extended period                                                                          this recommendation would create
          of time after a lease expires or a tenant vacates,                                                                                 significant additional procedures and
          (a) Treasury should require that borrowers immediately notify                                                                      documentation requirements. With no
          their servicer if the property has remained vacant for more                                                                        compliance regime to determine that a
          than three months.                                                                                                                 renter is in place, the program remains
                                                                                                                                             vulnerable to TARP funds being paid to
          (b) Treasury should require servicers to provide monthly                                                                           modify mortgages that do not fit within
          reports to Treasury of any properties that have remained                                                         X                 the intended expansion of the program.
          vacant for more than three months.
          (c) Treasury should bar payment of TARP-funded incentives
          to any participant for a loan modification on a property that
          has been reported vacant for more than three months, until
          such time as the property has been re-occupied by a tenant
          and the borrower has provided third-party verification of
          occupancy.
93        In order to protect against the possibility that the extension                                                                     Treasury has not implemented this
          and expansion of HAMP will lead to an increase in mortgage                                                                         recommendation. It is important that
          modification fraud,                                                                                                                Treasury educate as many homeowners
          (a) Treasury should require that servicers provide the                                                                             as possible with accurate information
          SIGTARP/CFPB/Treasury Joint Task Force Consumer Fraud                                                                              about HAMP in an effort to prevent
          Alert to all HAMP-eligible borrowers as part of their monthly                                                                      mortgage modification fraud.
          mortgage statement until the expiration of the application
                                                                                                                           X
          period for HAMP Tier 1 and 2.
          (b) Treasury should undertake a sustained public service
          campaign as soon as possible both to reach additional
          borrowers who could potentially be helped by HAMP Tier 2
          and to arm the public with complete, accurate information
          about the program to avoid confusion and delay, and to
          prevent fraud and abuse.
94        Given the expected increase in the volume of HAMP                                                                                  Treasury has not implemented this
          applications due to the implementation of HAMP Tier 2,                                                                             recommendation. Treasury has not held
          Treasury should convene a summit of key stakeholders to                                                                            a summit of all key stakeholders to
                                                                                                                           X
          discuss program implementation and servicer ramp-up and                                                                            make the program roll-out efficient and
          performance requirements so that the program roll-out is                                                                           effective.
          efficient and effective.
95        To ensure servicer compliance with HAMP Tier 2 guidelines                                                                          Treasury said that it will include metrics
          and assess servicer performance,                                                                                                   in the future. SIGTARP will continue to
                                                                                                                                             monitor Treasury’s implementation of this
          (a) Treasury should include additional criteria in its servicer
                                                                                                                                             recommendation.
          compliance assessments that measure compliance with the
          program guidelines and requirements of HAMP Tier 2.
                                                                                                              X                        
          (b) Treasury should develop and publish separate metrics
          related to HAMP Tier 2 in the compliance results and
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013




          program results sections of the quarterly Making Home
          Affordable (“MHA”) servicer assessments of the Top 10 MHA
          servicers.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          201
                                                                                                                                                                                           202
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                 Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
96        To allow for assessment of the progress and success                                                                                Treasury has rejected this
          of HAMP Tier 2, Treasury should set meaningful and                                                                                 recommendation. Treasury’s refusal to
          measurable goals, including at a minimum the number of                                                                             provide meaningful and measurable goals
          borrowers Treasury estimates will be helped by HAMP Tier                                                         X                 leaves it vulnerable to accusations that it
          2. Treasury should unambiguously and prominently disclose                                                                          is trying to avoid accountability.
          its goals and report monthly on its progress in meeting
          these goals.
97        Treasury should set meaningful and measurable                                                                                      Treasury has not implemented this
          performance goals for the Hardest Hit Fund program                                                                                 recommendation. It is important that
          including, at a minimum, the number of homeowners                                                                                  Treasury sets meaningful goals and
          Treasury estimates will be helped by the program, and                                                            X                 metrics to identify program successes
          measure the program’s progress against those goals.                                                                                and set-backs, in order to change the
                                                                                                                                             program as necessary, and to provide
                                                                                                                                             transparency and accountability.
98        Treasury should instruct state housing finance agencies                                                                            Treasury issued letters to five housing
          in the Hardest Hit Fund to set meaningful and measurable                                                                           finance agencies requiring those states
          overarching and interim performance goals with appropriate                                                                         to provide an action plan with measurable
          metrics to measure progress for their individual state                                                                             interim and overall goals, including
          programs.                                                                                                                          benchmarks, to improve the level of
                                                                                                                                             homeowner assistance under the HHF
                                                                                                  X
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                             program. Treasury should fully adopt
                                                                                                                                             SIGTARP’s recommendation with the
                                                                                                                                             remaining 14 housing finance agencies in
                                                                                                                                             the HHF program. SIGTARP will continue
                                                                                                                                             to monitor implementation of this
                                                                                                                                             recommendation.
99        Treasury should set milestones at which the state housing                                                                          Treasury issued letters to five housing
          finance agencies in the Hardest Hit Fund must review the                                                                           finance agencies requiring those states
          progress of individual state programs and make program                                                                             to provide an action plan with measurable
          adjustments from this review.                                                                                                      interim and overall goals, including
                                                                                                                                             benchmarks, to improve the level of
                                                                                                                                             homeowner assistance under the HHF
                                                                                                  X
                                                                                                                                             program. Treasury should fully adopt
                                                                                                                                             SIGTARP’s recommendation with the
                                                                                                                                             remaining 14 housing finance agencies in
                                                                                                                                             the HHF program. SIGTARP will continue
                                                                                                                                             to monitor implementation of this
                                                                                                                                             recommendation.
100       Treasury should instruct state housing finance agencies                                                                            Treasury has only partially implemented
          in the Hardest Hit Fund to set meaningful and measurable                                                                           this recommendation. Treasury recently
          overarching and interim performance goals with appropriate                                                                         started publishing some aggregated
          metrics to measure progress for their individual state                                                                             data on its website. However, Treasury
                                                                                                  X
          programs.                                                                                                                          does not publish all of the data SIGTARP
                                                                                                                                             recommended nor does Treasury publish
                                                                                                                                             any data at all concerning the Hardest Hit
                                                                                                                                             Fund in the Housing Scorecard.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                 Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
101       Treasury should develop an action plan for the Hardest                                                                             Treasury has rejected this
          Hit Fund that includes steps to increase the numbers of                                                                            recommendation. It is important that
          homeowners assisted and to gain industry support for                                                                               Treasury change the status quo and fulfill
          Treasury-approved HHF programs. Treasury should set                                                                                its role as steward over TARP programs,
          interim metrics for how many homeowners it intends to                                                                              make determinations of which programs
          assist in a Treasury-defined time period in each particular                                                                        are successful and which programs
          program (such as principal reduction, second lien reduction,                                                     X                 are not working, and ensure that HHF
          or reinstatement). If Treasury cannot achieve the desired                                                                          funds are reaching homeowners. This
          level of homeowners assisted in any one program area in                                                                            may include putting the funds toward
          the defined time period, Treasury should put the funds to                                                                          programs that are more successful at
          better use toward programs that are reaching homeowners.                                                                           reaching homeowners. It is unacceptable
                                                                                                                                             to delegate all of this responsibility to the
                                                                                                                                             states.
102       Treasury should stop allowing servicers to add a risk                                                                              Treasury has not implemented this
          premium to Freddie Mac’s discount rate in HAMP’s net                                                                               recommendation. The addition of a
          present value test.                                                                                                                risk premium reduces the number
                                                                                                                                             of otherwise qualified homeowners
                                                                                                                           X
                                                                                                                                             Treasury helps through HAMP. Treasury
                                                                                                                                             should implement this recommendation
                                                                                                                                             to increase assistance to struggling
                                                                                                                                             homeowners.
103       Treasury should ensure that servicers use accurate                                                                                 Treasury has not implemented this
          information when evaluating net present value test results                                                                         recommendation. Servicer errors using
          for homeowners applying to HAMP and should ensure that                                                                             NPV inputs and the lack of properly
          servicers maintain documentation of all net present value                                                                          maintained records on NPV inputs have
                                                                                                                           X
          test inputs. To the extent that a servicer does not follow                                                                         diminished compliance and placed the
          Treasury’s guidelines on input accuracy and documentation                                                                          protection of homeowner’s rights to
          maintenance, Treasury should permanently withhold                                                                                  challenge servicer error at risk.
          incentives from that servicer.
104       Treasury should require servicers to improve their                                                                                 Treasury has not implemented this
          communication with homeowners regarding denial of a                                                                                recommendation. Servicers’ failure to
          HAMP modification so that homeowners can move forward                                                                              communicate denial in a timely manner
          with other foreclosure alternatives in a timely and fully                                                                          can have serious consequences because
                                                                                                                           X
          informed manner. To the extent that a servicer does not                                                                            a delay may prevent homeowners from
          follow Treasury’s guidelines on these communications,                                                                              finding other foreclosure alternatives
          Treasury should permanently withhold incentives from that                                                                          sooner.
          servicer.
105       Treasury should ensure that more detail is captured by the                                                                         Treasury has not implemented this
          Making Home Affordable Compliance Committee meeting                                                                                recommendation. SIGTARP found a lack
          minutes regarding the substance of discussions related to                                                                          of detail in Treasury’s meeting minutes
          compliance efforts on servicers in HAMP. Treasury should                                                                           and because Treasury failed to document
                                                                                                                           X
          make sure that minutes clearly outline the specific problems                                                                       its oversight, SIGTARP was unable to
          encountered by servicers, remedial options discussed, and                                                                          verify Treasury’s role in the oversight of
          any requisite actions taken to remedy the situation.                                                                               servicers or its compliance agent Freddie
                                                                                                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013




                                                                                                                                             Mac.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                             203
                                                                                                                                                                                          204
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
106       In order to protect taxpayers who funded TARP against any                                                                          Neither Treasury nor the Federal
          future threat that might result from LIBOR manipulation,                                                                           Reserve has agreed to implement this
          Treasury and the Federal Reserve should immediately                                                                                recommendation despite Treasury telling
          change any ongoing TARP programs including, without                                                                                SIGTARP that it “share[s SIGTARP’s]
          limitation, PPIP and TALF, to cease reliance on LIBOR.                                                                             concerns about the integrity” of LIBOR,
                                                                                                                           X
                                                                                                                                             and the Federal Reserve telling SIGTARP
                                                                                                                                             that it agreed that “recent information
                                                                                                                                             regarding the way the LIBOR has been
                                                                                                                                             calculated has created some uncertainty
                                                                                                                                             about the reliability of the rate.”
107       In order to protect taxpayers who invested TARP funds                                                                              Neither Treasury nor the Federal
          into AIG to the fullest extent possible, Treasury and the                                                                          Reserve has agreed to implement this
          Federal Reserve should recommend to the Financial Stability                                                                        recommendation. Treasury told SIGTARP
          Oversight Council that AIG be designated as a systemically                                                                         that it will consider information provided
          important financial institution so that it receives the                                                                            by SIGTARP as it continues to evaluate
          strongest level of Federal regulation.                                                                                             nonbank financial companies for potential
                                                                                                                           X
                                                                                                                                             systemically important designation. The
                                                                                                                                             Federal Reserve told SIGTARP that it
                                                                                                                                             would forward the recommendation to
                                                                                                                                             the Financial Stability Oversight Council
                                                                                                                                             as it considers what action, if any, is
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                             appropriate.
108       In order to fulfill Treasury’s responsibility to wind down its                                                                     Treasury has not agreed to implement
          TARP Capital Purchase Program investments in a way that                                                                            this important recommendation.
          protects taxpayer interests, before allowing a TARP bank
          to purchase Treasury’s TARP shares at a discount to the
          TARP investment (for example as the successful bidder
          at auction), Treasury should undertake an analysis, in                                                           X
          consultation with Federal banking regulators, to determine
          that allowing the bank to redeem its TARP shares at a
          discount to the TARP investment outweighs the risk that the
          bank will not repay the full TARP investment. Treasury should
          document that analysis and consultation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
109       In order to fulfill Treasury’s responsibility to wind down its                                                                     Treasury has not agreed to implement
          TARP investments in a way that promotes financial stability                                                                        this important recommendation.
          and preserves the strength of our nation’s community
          banks, Treasury should undertake an analysis in consultation
          with Federal banking regulators that ensures that it is exiting
          its Capital Purchase Program investments in a way that
          satisfies the goals of CPP, which are to promote financial
          stability, maintain confidence in the financial system and                                                       X
          enable lending. This financial stability analysis of a bank’s
          exit from TARP should determine at a minimum: (1) that the
          bank will remain healthy and viable in the event of an auction
          of Treasury’s preferred shares; and (2) that the bank’s exit
          from TARP does not have a negative impact on the banking
          industry at a community, state, regional, and national level.
          Treasury should document that analysis and consultation.
110       Treasury should better document its decision whether or not                                                                        Treasury has not agreed to implement
          to auction its preferred shares in a TARP bank to adequately                                                                       this important recommendation.
                                                                                                                           X
          reflect the considerations made for each bank and detailed
          rationale.
111       Each year, Treasury should reevaluate total compensation                                                                           Treasury has not agreed to implement
          for those employees at TARP exceptional assistance                                                                                 this important recommendation.
                                                                                                                           X
          companies remaining in the Top 25 from the prior year,
          including determining whether to reduce total compensation.
112       To ensure that Treasury effectively applies guidelines aimed                                                                       Treasury has not agreed to implement
          at curbing excessive pay and reducing risk taking, Treasury                                                                        this important recommendation.
                                                                                                                           X
          should develop policies, procedures, and criteria for
          approving pay in excess of Treasury guidelines.
113       Treasury should independently analyze whether good cause                                                                           Treasury has not agreed to implement
          exists to award a Top 25 employee a pay raise or a cash                                                                            this important recommendation.
          salary over $500,000. To ensure that the Office of the
          Special Master has sufficient time to conduct this analysis,                                                     X
          Treasury should allow OSM to work on setting Top 25 pay
          prior to OSM’s receiving the company pay proposals, which
          starts the 60-day timeline.
114       To be consistent with Treasury’s Interim Final Rule that the                                                                       Treasury has not agreed to implement
          portion of performance-based compensation compared                                                                                 this important recommendation.
          to total compensation should be greater for positions that
                                                                                                                           X
          exercise higher levels of responsibility, Treasury should
          return to using long-term restricted stock for employees,
          particularly senior employees such as CEOs.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                        Continued on next page
                                                                                                                                                                                      QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013
                                                                                                                                                                                      205
                                                                                                                                                                                       206
SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
115       Treasury should conduct in-depth research and analysis to                                                                          See discussion in this section
          determine the causes of redefaults of HAMP permanent
          mortgage modifications and the characteristics of loans
          or the homeowner that may be more at risk for redefault.
          Treasury should require servicers to submit any additional
          information that Treasury needs to conduct this research
          and analysis. Treasury should make the results of this
          analysis public and issue findings based on this analysis,
          so that others can examine, build on, and learn from this
          research.
116       As a result of the findings of Treasury’s research and                                                                             See discussion in this section
          analysis into the causes of HAMP redefaults, and
          characteristics of redefaults, Treasury should modify
          aspects of HAMP and the other TARP housing programs in
          ways to reduce the number of redefaults.
117       Treasury should require servicers to develop and use                                                                               See discussion in this section
          an “early warning system” to identify and reach out to
          homeowners that may be at risk of redefaulting on a
          HAMP mortgage modification, including providing or
          recommending counseling and other assistance and
                                                                                                                                                                                       SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          directing them to other TARP housing programs.
118       In the letter Treasury already requires servicers to send to                                                                       See discussion in this section
          homeowners who have redefaulted on a HAMP modification
          about possible options to foreclosure, Treasury should
          require the servicers to include other available alternative
          assistance options under TARP such as the Hardest Hit
          Fund and HAMP Tier 2, so that homeowners can move
          forward with other alternatives, if appropriate, in a timely
          and fully informed manner. To the extent that a servicer
          does not follow Treasury’s rules in this area, Treasury should
          permanently withhold incentives from that servicer.
119       Treasury and the Federal banking regulators should                                                                                 See discussion in this section
          improve coordination when collaborating on current and
          future initiatives by (1) defining the roles of all participants
          at the outset of collaborative efforts by creating precise
          and directed governing documents (i.e., charters) that
          clearly address the responsibilities of each entity; and (2)
          jointly documenting processes and procedures, including
          flowcharts, risk management tools, and reporting systems
          to ensure that objectives are met. Each participant should
          sign off to demonstrate their understanding of, and
          agreement with, these procedures.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                 Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
120       To increase small-business lending by former TARP banks                                                                            See discussion in this section
          participating in SBLF, Treasury should work with the banks
          to establish new, achievable plans to increase lending going
          forward.
121       To preserve the amount of capital former TARP banks                                                                                See discussion in this section
          participating in SBLF have to lend, the primary Federal
          banking regulators (the Federal Reserve, FDIC, or OCC)
          should not approve dividend distributions to common
          shareholders of former TARP banks that have not effectively
          increased small-business lending while in SBLF.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	
                                                                                                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013
                                                                                                                                                                              207
                     ENDNOTES
208             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      1.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
      2.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2,16.
      3.	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
             Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 4/1/2013.
      4.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
      5.	    Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
      6.	    Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
             04%2001%202013.pdf, accessed 4/2/2013.
      7.	    Treasury, Section 105(a) Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
             Monthly%20Report%20to%20Congress.pdf, accessed 4/10/2013.
      8.	    Treasury, response to SIGTARP data call, 4/4/2013; Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/Daily%20TARP%20Update%20-%2004%2001%202013.pdf, accessed 4/2/2013.
      9.	    Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
             04%2001%202013.pdf, accessed 4/1/2013.
      10.	   Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
             04%2001%202013.pdf, accessed 4/1/2013.
      11.	   Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
             04%2001%202013.pdf, accessed 4/1/2013.
      12.	   CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, www.cbo.gov/publication/24884, accessed 4/1/2013; OMB, “Analytical
             Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/pdf/spec.pdf, accessed 4/1/2013.
      13.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013, www.whitehouse.gov/sites/default/files/
             omb/budget/fy2014/assets/econ_analyses.pdf, accessed 4/10/2013.
      14.	   OMB, “OMB Report Under the Emergency Economic Stabilization Act, Section 202,” 8/31/2012, www.whitehouse.gov/sites/default/files/omb/
             reports/tarp_report_august_2012.pdf, accessed 4/1/2013.
      15.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013, www.whitehouse.gov/sites/default/files/
             omb/budget/fy2014/assets/econ_analyses.pdf, accessed 4/10/2013.
      16.	   CBO, “Report on the Troubled Asset Relief Program—October 2012,” www.cbo.gov/sites/default/files/cbofiles/attachments/TARP10-2012_0.pdf,
             accessed 4/1/2013.
      17.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2012,”11/8/2012, www.treasury.gov/
             initiatives/financial-stability/reports/Documents/2012_OFS_AFR_Final_11-9-12.pdf, accessed 4/1/2013.
      18.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2012,”11/8/2012, www.treasury.gov/
             initiatives/financial-stability/reports/Documents/2012_OFS_AFR_Final_11-9-12.pdf, accessed 4/1/2013.
      19.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2012,”11/8/2012, www.treasury.gov/
             initiatives/financial-stability/reports/Documents/2012_OFS_AFR_Final_11-9-12.pdf, accessed 4/1/2013.
      20.	   Treasury, Section 105(a) Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
             Monthly%20Report%20to%20Congress.pdf, accessed 4/10/2013; Treasury, response to SIGTARP data call, 4/4/2013.
      21.	   Treasury, response to SIGTARP data call, 4/4/2013.
      22.	   Treasury, Section 105(a) Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
             Monthly%20Report%20to%20Congress.pdf, accessed 4/10/2013.
      23.	   Treasury, response to SIGTARP data call, 4/4/2013.
      24.	   Treasury, Section 105(a) Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
             Monthly%20Report%20to%20Congress.pdf, accessed 4/10/2013.
      25.	   Treasury, response to SIGTARP data call, 4/4/2013.
      26.	   Treasury, response to SIGTARP data call, 4/4/2013.
      27.	   Treasury, response to SIGTARP data call, 4/4/2013.
      28.	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
             press-center/press-releases/Pages/tg48.aspx, accessed 4/1/2013.
      29.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
             briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 4/1/2013.
      30.	   Treasury, “Home Affordable Modification Program — Programs,” no date, www.hmpadmin.com/portal/programs/index.jsp, accessed 4/1/2013.
      31.	   Treasury, response to SIGTARP data call, 4/4/2013.
      32.	   Treasury, response to SIGTARP data call, 4/4/2013.
      33.	   Treasury, response to SIGTARP data call, 4/10/2013.
      34.	   Treasury, response to SIGTARP data call, 4/19/2013.
      35.	   Treasury, response to SIGTARP data call, 4/19/2013.
      36.	   Treasury, response to SIGTARP data call, 4/19/2013.
      37.	   The White House, “President Obama Announces Help for Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/
             president-obama-announces-help-hardest-hit-housing-markets, accessed 4/1/2013.
      38.	   Treasury, response to SIGTARP data call, 4/4/2013.
      39.	   Treasury, response to SIGTARP data call, 4/4/2013.
      40.	   Treasury, response to SIGTARP data call, 4/4/2013.
      41.	   Treasury, response to SIGTARP data call, 4/19/2013.
      42.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
      43.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cpp/Pages/capitalpurchaseprogram.aspx, accessed 4/1/2013.
                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013               209


44.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
       programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 4/1/2013.
45.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
       Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
46.	   Treasury, response to SIGTARP data call, 4/12/2013.
47.	   Treasury, response to SIGTARP data call, 4/4/2013; Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
48.	   Treasury, response to SIGTARP data call, 4/4/2013; Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
49.	   Treasury, response to SIGTARP data call, 4/4/2013; Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
50.	   Treasury, Section 105(a) Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
       Monthly%20Report%20to%20Congress.pdf, accessed 4/10/2013; Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/
       financial-stability/reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
51.	   Treasury, Section 105(a) Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
       Monthly%20Report%20to%20Congress.pdf, accessed 4/10/2013; Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/
       financial-stability/reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013;
       Treasury, response to SIGTARP data call, 4/4/2013.
52.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
       Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013; Treasury, response to SIGTARP data call, 4/4/2013.
53.	   Treasury, response to SIGTARP data call, 4/4/2013.
54.	   Treasury, response to SIGTARP draft report, 10/8/2010.
55.	   Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
       investment-programs/cdci/Pages/Overview.aspx, accessed 4/1/2013.
56.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
       Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
57.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
       Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
58.	   Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
       4/1/2013.
59.	   Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
       9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 4/1/2013.
60.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
       Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
61.	   AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 4/1/2013; Treasury Press
       Release, “Treasury Department Statement on AIG’s Transaction Agreement,” 12/8/2010, www.treasury.gov/press-center/press-releases/Pages/
       tg996.aspx, accessed 4/1/2013.
62.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
       Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
63.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
       Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013; AIG Press Release, “AIG Repurchases Warrants from U.S. Treasury,”
       3/1/2013, www.sec.gov/Archives/edgar/data/5272/000119312513086875/d495224dex991.htm, accessed 4/11/2013.
64.	   Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
       04%2001%202013.pdf, accessed 4/2/2013.
65.	   Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
       04%2001%202013.pdf, accessed 4/2/2013.
66.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
       OFS%20AFR%2009_24.pdf, accessed 4/1/2013.
67.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
       Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
68.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
       Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
69.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
       Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
70.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
       OFS%20AFR%2009_24.pdf, accessed 4/1/2013.
71.	   Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treasury.gov/press-
       center/press-releases/Pages/hp1358.aspx, accessed 4/1/2013.
72.	   U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
       Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
       pdf, accessed 4/12013.
73.	   Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
       TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 4/1/2013.
74.	   Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
       TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 4/1/2013.
210             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      75.	    Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 4/1/2013.
      76.	    FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 4/1/2013.
      77.	    FRBNY, response to SIGTARP data call, 4/3/2013.
      78.	    FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
              4/1/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/TALF_
              recent_operations.html, accessed 4/1/2013; FRBNY, response to SIGTARP data call, 4/3/2013.
      79.	    FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 4/3/2013;
              FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/CMBS_recent_
              operations.html, accessed 4/1/2013; FRBNY, response to SIGTARP data call, 4/4/2013.
      80.	    Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 4/1/2013.
      81.	    Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
              Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
              4/1/2013.
      82.	    FRBNY, response to SIGTARP data call, 4/3/2013.
      83.	    Treasury Press Release, “Treasury Department Releases Details on Public Private Partnership Investment Program,” 3/23/2009, www.treasury.
              gov/press-center/press-releases/Pages/tg65.aspx, accessed 4/1/2013.
      84.	    Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended June 30, 2012,” www.treasury.gov/initiatives/
              financial-stability/reports/Documents/PPIP%20Report%20-%20Q2%202012.pdf, 7/19/2012, p. 4, accessed 4/1/2013.
      85.	    Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
              Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013; Treasury, response to SIGTARP data call, 4/4/2013.
      86.	    Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
              tg58.aspx, accessed 4/1/2013.
      87.	    Treasury Press Release, “Treasury Completes Wind Down of TARP Small Business Program, Realizes $8 Million Gain for Taxpayers,”1/25/2012,
              www.treasury.gov/press-center/press-releases/Pages/tg1398.aspx, accessed 4/1/2013.
      88.	    Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
              Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 4/1/2013.
      89.	    Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
              Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013; Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/
              financial-stability/reports/Documents/Daily%20TARP%20Update%20-%2004%2001%202013.pdf, accessed 4/2/2013.
      90.	    Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
              Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
      91.	    Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
              Dividends%20Interest%20Report.pdf, accessed 4/10/2013; Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/
              Documents/Daily%20TARP%20Update%20-%2004%2001%202013.pdf, accessed 4/1/2013.
      92.	    Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
              Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
      93.	    Treasury, Transactions Report, 1/4/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 4/3/2013.
      94.	    General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/1/2013.
      95.	    Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the Next 12-15 Months,” 12/19/2012, www.treasury.
              gov/press-center/press-releases/Pages/tg1810.aspx, accessed 4/1/2013; Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/
              financial-stability/reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013.
      96.	    Treasury, response to SIGTARP data call, 4/19/2013.
      97.	    Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
              Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013; Treasury, response to SIGTARP data call, 4/4/2013.
      98.	    Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
              Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013; Treasury, response to SIGTARP data call, 4/4/2013.
      99.	    Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
              Treasury,” 5/14/2012, http://media.ally.com/index.php?s=43&item=543, accessed 4/3/2013.
      100.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
              Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013; Treasury, response to SIGTARP data call, 4/4/2013.
      101.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
              tg1253.aspx, accessed 4/1/2013.
      102.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
              tg1253.aspx, accessed 4/1/2013.
      103.	   Treasury, Section 105(a) Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
              Monthly%20Report%20to%20Congress.pdf, accessed 4/10/2013.
      104.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
              Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013; Treasury, response to SIGTARP data call, 4/4/2013.
      105.	   Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.treasury.gov/initiatives/financial-
              stability/programs/Other%20Programs/aifp/Documents/supplier_support_program_3_18.pdf, accessed 4/1/2013.
      106.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
              Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013; Treasury, response to SIGTARP data call, 4/4/2013.
      107.	   Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
              Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/3/2013; Treasury, response to SIGTARP data call, 4/4/2013.
      108.	   Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
              President-on-the-mortgage-crisis/, accessed 4/1/2013.
                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013                 211


109.	 Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/press-
      releases/Pages/tg33.aspx, accessed 4/1/2013.
110.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
111.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program - MHA Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 4/1/2013.
112.	 Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/sites/default/files/cbofiles/ftpdocs/112xx/
      doc11227/03-17-tarp.pdf, accessed 4/1/2013.
113.	 Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      04%2001%202013.pdf, accessed 4/1/2013; Treasury, Transactions Report-Housing Programs, 3/27/2013, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2013.pdf, accessed 4/1/2013.
114.	 Treasury, “Home Affordable Modification Program: Overview,” undated, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 3/21/2013.
115.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 4/1/2013.
116.	 Treasury, response to SIGTARP data call, 4/19/2013; Fannie Mae, response to SIGTARP data call, 4/19/2013.
117.	 Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
      5/14/2009, www.treasury.gov/press-center/press-releases/Pages/tg131.aspx, accessed 4/1/2013.
118.	 Treasury, response to SIGTARP data call, 4/10/2013.
119.	 Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
120.	 Treasury, response to SIGTARP data call, 4/15/2013.
121.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
122.	 Treasury, response to SIGTARP data call, 4/19/2013.
123.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program - MHA Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 4/1/2013.
124.	 Treasury, response to SIGTARP data call, 4/19/2013.
125.	 Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
      alternatives.jsp, accessed 4/1/2013.
126.	 Treasury, response to SIGTARP data call, 4/15/2013.
127.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
128.	 Treasury, response to SIGTARP data call, 4/10/2013.
129.	 Treasury, response to SIGTARP data call, 4/19/2013.
130.	 Treasury, response to SIGTARP data call, 4/15/2013.
131.	 Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal
      Housing Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 4/1/2013; Treasury,
      “Supplemental Directive 10-10: Home Affordable Modification Program-Modifications of Loans Guaranteed by the Rural Housing Service,”
      9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 4/1/2013; Department of Veterans Affairs, “Revised VA
      Making Home Affordable Program, Circular 26-10-6,” 7/5/2012, www.benefits.va.gov/HOMELOANS/circulars/26_10_6_change1.pdf, accessed
      4/1/2013.
132.	 Treasury, response to SIGTARP data call, 4/15/2013.
133.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 4/1/2013.
134.	 Treasury, response to SIGTARP data call, 4/10/2013.
135.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 4/1/2013.
136.	 Treasury, response to SIGTARP data call, 4/4/2013.
137.	 Treasury, briefing to SIGTARP and other federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
      AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
      Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 3/19/2013.
138.	 Treasury, response to SIGTARP data call, 4/19/2013.
139.	 Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      04%2001%202013.pdf, accessed 4/9/2013.
140.	 Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      04%2001%202013.pdf, accessed 4/9/2013.
141.	 Treasury, response to SIGTARP data call, 4/4/2013.
142.	 Treasury, response to SIGTARP data call, 4/4/2013; Treasury, Transactions Report-Housing Programs, 3/27/2013, www.treasury.gov/initiatives/
      financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2013.pdf, accessed 4/9/2013.
143.	 Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      04%2001%202013.pdf, accessed 4/9/2013.
144.	 Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      04%2001%202013.pdf, accessed 4/9/2013; Treasury, response to SIGTARP data call, 4/10/2013.
145.	 SIGTARP, “Quarterly Report to Congress,” 10/26/2010, www.sigtarp.gov/Quarterly%20Reports/October2010_Quarterly_Report_to_Congress.
      pdf, accessed 4/3/2013; Treasury, response to SIGTARP data call, 4/4/2013.
146.	 Treasury, responses to SIGTARP data call, 4/4/2013, 4/10/2013, and 4/19/2013.
147.	 Treasury, Transactions Report-Housing Programs, 3/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2003.27.2013.pdf, accessed 4/9/2013.
212             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      148.	   Treasury, response to SIGTARP data call, 4/4/2013.
      149.	   Treasury, response to SIGTARP data call, 4/4/2013.
      150.	   Treasury, response to SIGTARP data call, 4/10/2013.
      151.	   Treasury, briefing to SIGTARP and other federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
              AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
              Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 3/19/2013.
      152.	   Treasury, response to SIGTARP data call, 4/10/2013.
      153.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
      154.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      155.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      156.	   Treasury, response to SIGTARP data call, 4/15/2013.
      157.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com//portal/programs/hamp.jsp, accessed 8/20/2010;
              Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, and 4/19/2013.
      158.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, and 4/19/2013.
      159.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, and 4/19/2013.
      160.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, and 4/19/2013.
      161.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, and 4/19/2013.
      162.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, and 4/19/2013.
      163.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, and 4/19/2013.
      164.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, and 4/19/2013.
      165.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, and 4/19/2013.
      166.	   Treasury, “Supplemental Directive 10-01: Home Affordable Modification Program – Program Update and Resolution of Active Trial
              Modifications,” 1/28/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1001.pdf, accessed 4/9/2013.
      167.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, and 4/19/2013.
      168.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, and 4/19/2013.
      169.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      170.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      171.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      172.	   Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 4/1/2013.
      173.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      174.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      175.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      176.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      177.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      178.	   Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
              Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 4/1/2013.
      179.	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
              Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 4/1/2013.
      180.	   Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 4/1/2013.
      181.	   Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 4/1/2013.
      182.	   Treasury, response to SIGTARP data call, 4/19/2013; Fannie Mae, response to SIGTARP data call, 4/19/2013.
      183.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      184.	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
              Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 4/1/2013.
      185.	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
              Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 4/1/2013.
      186.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      187.	   Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
              Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 4/1/2013.
      188.	   Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 4/1/2013.
                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013             213


189.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
190.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
191.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
192.	 Treasury, response to SIGTARP data call, 4/8/2013; Treasury, Transactions Report-Housing Programs, 3/27/2013, www.treasury.gov/initiatives/
      financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2013.pdf, accessed 4/9/2013.
193.	 Treasury, response to SIGTARP data call 4/19/2013; Fannie Mae, response to SIGTARP data call, 4/19/2013.
194.	 Treasury, response to SIGTARP data call 4/19/2013; Fannie Mae, response to SIGTARP data call, 4/19/2013.
195.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
      www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
      3/18/2013.
196.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
      www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
      3/18/2013.
197.	 Treasury, “Supplemental Directive 13-01: Making Home Affordable Program – Making Home Affordable Outreach and Borrower Intake
      Project,” 3/1/2013, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1301.pdf, accessed 3/18/2013; NeighborWorks, “Making
      Home Affordable Outreach and Intake Project Funding Announcement, Revised,” 3/7/2013, www.nw.org/network/foreclosure/documents/
      MHAOutreachandIntakeProjectFundingAnnouncementRevised3713.pdf, accessed 3/18/2013.
198.	 Treasury, “Supplemental Directive 13-01: Making Home Affordable Program – Making Home Affordable Outreach and Borrower Intake
      Project,” 3/1/2013, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1301.pdf, accessed 3/18/2013.
199.	 Treasury, briefing to SIGTARP staff, 1/23/2013.
200.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
      www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
      3/18/2013.
201.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
      www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
      3/18/2013.
202.	 NeighborWorks, “Making Home Affordable Outreach and Intake Project Eligible Applicant Briefing for NeighborWorks Organizations,”
      3/6/2013, www.nw.org/network/foreclosure/documents/MHAProjectNWOBriefingRevised3713.pdf, accessed 4/1/2013; Treasury, “Supplemental
      Directive 13-01: Making Home Affordable Program – Making Home Affordable Outreach and Borrower Intake Project,” 3/1/2013, www.
      hmpadmin.com/portal/programs/docs/hamp_servicer/sd1301.pdf, accessed 3/18/2013.
203.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
      www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
      3/18/2013.
204.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/19/2013.
205.	 Treasury, “Making Home Affordable Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 3/19/2013.
206.	 Treasury, “Making Home Affordable Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 3/19/2013; Treasury, “Supplemental Directive 12-02: Making Home Affordable
      Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/19/2013.
207.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
      Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 4/1/2013.
208.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 4/1/2013.
209.	 Treasury, response to SIGTARP data call, 4/8/2013.
210.	 Treasury, response to SIGTARP data call, 4/8/2013.
211.	 Treasury, response to SIGTARP data call, 11/2/2012.
212.	 Treasury, responses to SIGTARP data call, 4/10/2013 and 4/19/2013.
213.	 Treasury, response to SIGTARP data call, 4/19/2013.
214.	 Treasury, response to SIGTARP data call, 4/19/2013.
215.	 Treasury, response to SIGTARP data call, 4/19/2013.
216.	 Treasury, response to SIGTARP data call, 4/19/2013.
217.	 Treasury, response to SIGTARP data call, 4/19/2013.
218.	 Treasury, response to SIGTARP data call, 4/19/2013.
219.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
      Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 4/1/2013.
220.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 4/1/2013.
221.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 4/1/2013.
222.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 4/1/2013.
214            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      223.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 4/1/2013.
      224.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 4/1/2013.
      225.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 4/1/2013.
      226.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 4/1/2013.
      227.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 4/1/2013.
      228.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 4/1/2013.
      229.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      230.	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
            www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 4/1/2013.
      231.	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
            www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 4/1/2013.
      232.	 Treasury, response to SIGTARP data call, 4/10/2013.
      233.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 4/1/2013.
      234.	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/hamp_
            servicer/praoverviewnongse.pdf, accessed 4/1/2013.
      235.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
            Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 4/1/2013.
      236.	 Treasury, response to SIGTARP data call, 4/10/2013.
      237.	 Treasury, response to SIGTARP data call, 4/15/2013.
      238.	 Treasury, response to SIGTARP data call, 4/15/2013.
      239.	 Treasury, response to SIGTARP data call, 4/15/2013.
      240.	 Treasury, response to SIGTARP data call, 4/15/2013.
      241.	 Treasury, response to SIGTARP data call, 4/15/2013.
      242.	 Treasury, response to SIGTARP data call, 4/15/2013.
      243.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 4/1/2013.
      244.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      245.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 4/1/2013.
      246.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      247.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
            Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1201.pdf, accessed 4/1/2013.
      248.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
            Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1201.pdf, accessed 4/1/2013.
      249.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      250.	 Treasury, response to SIGTARP data call, 4/10/2013.
      251.	 Treasury Press Release, “Housing Program Enhancements Offer Additional Options for Struggling Homeowners,” 3/26/2010, www.treasury.gov/
            press-center/press-releases/Pages/tg614.aspx, accessed 4/1/2013.
      252.	 Treasury, response to SIGTARP data call, 4/19/2013.
      253.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 4/1/2013.
      254.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
      255.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/1/2013.
      256.	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1004.pdf, accessed 4/1/2013.
      257.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 4/1/2013.
      258.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 4/1/2013.
      259.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 4/1/2013.
      260.	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, www.makinghomeaffordable.
            gov/programs/Documents/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 4/1/2013.
                                                                                      QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013            215


261.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
262.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives – Short Sale and Deed-in-Lieu of Foreclosure
      Update,” 3/26/2010, www.hmpadmin.com/portal/programs/docs/hafa/sd0909r.pdf, accessed 4/1/2013.
263.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives – Short Sale and Deed-in-Lieu of Foreclosure
      Update,” 3/26/2010, www.hmpadmin.com/portal/programs/docs/hafa/sd0909r.pdf, accessed 4/1/2013.
264.	 Treasury, “HAMP Update — New Program Offers Borrowers Foreclosure Alternatives,” 11/30/2009, www.hmpadmin.com/portal/news/
      docs/2009/hampupdate113009.pdf, accessed 4/1/2013.
265.	 Treasury, response to SIGTARP data call, 4/10/2013.
266.	 Treasury, “Supplemental Directive 11-08: Home Affordable Foreclosure Alternatives Program — Policy Update,” 8/9/2011, www.hmpadmin.
      com/portal/programs/docs/hamp_servicer/sd1108.pdf, accessed 4/1/2013.
267.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
      com/portal/programs/docs/hafa/sd1018.pdf, accessed 4/1/2013.
268.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 4/1/2013.
269.	 Treasury, response to SIGTARP data call, 4/10/2013.
270.	 Treasury, response to SIGTARP data call, 4/15/2013.
271.	 Treasury, response to SIGTARP data call, 4/15/2013.
272.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 4/1/2013.
273.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 4/1/2013.
274.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/1/2013.
275.	 Treasury, response to SIGTARP data call, 4/19/2013.
276.	 Treasury, response to SIGTARP data call, 4/15/2013.
277.	 Treasury, response to SIGTARP data call, 4/15/2013.
278.	 Treasury, response to SIGTARP data call, 4/10/2013.
279.	 Treasury, response to SIGTARP data call, 4/15/2013.
280.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 4/1/2013.
281.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 4/1/2013.
282.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
      Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1201.pdf, accessed 4/1/2013.
283.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
      Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 4/1/2013.
284.	 Treasury, response to SIGTARP data call, 4/10/2013.
285.	 Treasury, response to SIGTARP data call, 4/10/2013.
286.	 Treasury, response to SIGTARP data call, 4/15/2013.
287.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 7/5/2012, www.benefits.va.gov/
      HOMELOANS/circulars/26_10_6.pdf, accessed 4/1/2013.
288.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 4/1/2013;
      Treasury, “Supplemental Directive 10-08: Making Home Affordable Program – Treasury/FHA Second Lien Program (FHA2LP) to Support
      FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1008.pdf,
      accessed 4/1/2013.
289.	 Treasury, response to SIGTARP data call, 4/10/2013.
290.	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support
      FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf,
      accessed 4/1/2013.
291.	 SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund Program,” 4/12/2012, www.sigtarp.gov/Audit%20Reports/SIGTARP_
      HHF_Audit.pdf, accessed 4/1/2013.
292.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
      6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 4/1/2013.
293.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
      6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 4/1/2013.
294.	 Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg618.aspx, accessed 4/1/2013.
295.	 National Council of State Housing Agencies, “Hardest Hit Foreclosure Initiative,” no date, www.ncsha.org/advocacy-issues/hardest-hit-
      foreclosure-initiative, accessed 4/1/2013.
296.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
      with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
      4/1/2013.
297.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure Prevention Programs to Help Homeowners Struggling
      With Unemployment,” 8/11/2010, http://portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176,
      accessed 4/1/2013.
216            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      298.	 Treasury, Transactions Report-Housing Programs, 12/27/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 4/9/2013.
      299.	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, pp. 76, 98, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_
            reports/Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 4/1/2013.
      300.	 SIGTARP analysis of HFA participation agreements and amendments; SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund
            Program,” 4/12/2012, www.sigtarp.gov/Audit%20Reports/SIGTARP_HHF_Audit.pdf, accessed 4/1/2013.
      301.	 Treasury, response to SIGTARP data call, 4/4/2013.
      302.	 Treasury, response to SIGTARP data call, 4/4/2013; Treasury, Transactions Report-Housing Programs, 3/27/2013, www.treasury.gov/initiatives/
            financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2013.pdf, accessed 4/9/2013.
      303.	 Treasury, response to SIGTARP data call, 4/10/2013; Hardest Hit Alabama, “Hardest Hit Alabama,” no date, www.hardesthitalabama.com/,
            accessed 4/1/2013; Arizona Department of Housing, “Save our Home AZ,” no date, www.azhousing.gov/, accessed 4/1/2013; CALHFA Mortgage
            Assistance Corporation, “Keep Your Home California,” no date, www.keepyourhomecalifornia.org/, accessed 4/1/2013; Florida Hardest-Hit,
            “Florida Hardest-Hit,” no date, www.flhardesthithelp.org/, accessed 4/1/2013; Georgia Department of Community Affairs, “Hardest Hit Fund,”
            no date, www.dca.state.ga.us/housing/homeownership/programs/hardesthitfund.asp, accessed 4/1/2013; Illinois Housing Development Authority,
            “Illinois Housing Development Authority,” no date, www.ihda.org/, accessed 4/1/2013; Indiana Foreclosure Prevention Network, “Indiana
            Foreclosure Prevention Network,” no date, www.877gethope.org/, accessed 4/1/2013; Kentucky Housing Corporation, “Kentucky Housing
            Corporation,” no date, www.kyhousing.org/, accessed 4/1/2013; Michigan State Housing Development Authority, “Helping Michigan’s Hardest
            Hit Homeowners,” no date, www.michigan.gov/mshda/0,1607,7-141--235359--,00.html, accessed 4/1/2013; Mississippi Home Corporation,
            “Mississippi Home Corporation,” no date, www.mshomecorp.com/firstpage.htm, accessed 4/1/2013; Nevada’s Hardest Hit Funds, “Nevada’s
            Hardest Hit Funds,” no date, www.nahac.org/, accessed 4/1/2013; State of New Jersey Housing and Mortgage Finance Agency, “State of New
            Jersey Housing and Mortgage Finance Agency,” no date, www.state.nj.us/dca/hmfa/, accessed 4/1/2013; NC Foreclosure Prevention Fund, “Help
            for the Hardest Hit Homeowners,” no date, www.ncforeclosureprevention.gov/, accessed 4/1/2013; Ohio.gov, “Ohio’s Foreclosure Prevention
            Effort,” no date, www.savethedream.ohio.gov/, accessed 4/1/2013; Oregon Homeownership Stabilization Initiative, “OHSI,” no date, www.
            oregonhomeownerhelp.org/, accessed 4/1/2013; Hardest Hit Fund-Rhode Island, “HHFRI,” no date, www.hhfri.org/, accessed 4/1/2013; SC
            Help, “South Carolina Homeownership and Employment Lending Program,” no date, www.scmortgagehelp.com/, accessed 4/1/2013; Tennessee
            Housing Development Agency, “THDA,” no date, www.thda.org/, accessed 4/1/2013; District of Columbia Housing Finance Agency, “District of
            Columbia Housing Finance Agency,” no date, www.dchfa.org/, accessed 4/1/2013.
      304.	 Treasury, response to SIGTARP data call, 4/4/2013.
      305.	 SIGTARP analysis of HFA quarterly performance reports; Treasury, response to SIGTARP data call, 4/4/2013.
      306.	 SIGTARP analysis of HFA quarterly performance reports; Treasury, response to SIGTARP data call, 4/4/2013.
      307.	 Treasury, response to SIGTARP data call, 1/11/2013.
      308.	 Treasury, briefing to SIGTARP and other federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
            AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
            Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 3/19/2013.
      309.	 Treasury, briefing to SIGTARP and other federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
            AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
            Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 3/19/2013.
      310.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010, www.makinghomeaffordable.gov/news/
            latest/Documents/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 4/1/2013.
      311.	 Treasury, response to SIGTARP data call, 4/19/2013.
      312.	 Treasury, response to SIGTARP data call, 4/19/2013.
      313.	 Treasury, response to SIGTARP data call, 4/10/2013.
      314.	 Treasury, response to SIGTARP data call, 4/12/2013.
      315.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 4/1/2013; HUD,
            response to SIGTARP draft, 1/10/2011.
      316.	 HUD, response to SIGTARP vetting draft, 1/19/2011.
      317.	 HUD, response to SIGTARP draft report, 1/10/2011.
      318.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
            letters/mortgagee/files/10-23ml.pdf, accessed 4/1/2013.
      319.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
            letters/mortgagee/files/10-23ml.pdf, accessed 4/1/2013; HUD, response to SIGTARP draft report, 3/31/2011.
      320.	 HUD, response to SIGTARP draft report, 1/12/2011; Treasury, response to SIGTARP data call, 4/10/2013.
      321.	 Treasury, response to SIGTARP data call, 1/11/2013; Treasury, briefing to SIGTARP and other federal agency staff, 3/8/2013.
      322.	 Treasury conference call, 3/19/2009.
      323.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
            programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
      324.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
            programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
      325.	 Treasury, Security Purchase Agreement Standard Terms, 4/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-
            programs/cpp/Documents/spa.pdf, accessed 4/1/2013.
      326.	 Treasury, “TARP Capital Purchase Program (Non-Public QFIs, excluding S Corps and Mutual Organizations),” 7/22/2012, www.treasury.
            gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/Term%20Sheet%20-%20Private%20C%20Corporations.pdf,
            accessed 4/1/2013.
      327.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      328.	 Treasury, response to SIGTARP data call, 4/4/2013.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013               217


329.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013. Treasury, response to SIGTARP data call, 4/4/2013.
330.	 Treasury, Section 105(a) Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20Monthly%20
      Report%20to%20Congress.pdf, accessed 4/10/2013; Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013; Treasury, response to
      SIGTARP data call, 4/4/2013.
331.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
332.	 Treasury, response to SIGTARP data call, 4/4/2013; Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
333.	 Treasury, response to SIGTARP data call, 4/4/2013; Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
334.	 Treasury, response to SIGTARP data call, 4/4/2013; Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
335.	 Treasury, response to SIGTARP data call, 4/4/2013.
336.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
337.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
338.	 Treasury, response to SIGTARP data call 4/10/2013; Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/March%202013%20Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
339.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
340.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
341.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
342.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 4/1/2013.
343.	 Treasury, response to SIGTARP data call, 4/4/2013; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
      Fact%20Sheet.pdf, accessed 4/1/2013.
344.	 Treasury, response to SIGTARP data call, 4/4/2013; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
      Fact%20Sheet.pdf, accessed 4/1/2013.
345.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 4/19/2013.
346.	 Treasury, “Frequently Asked Questions: Capital Purchase Program (CPP) – Related to Missed Dividend (or Interest) Payments and Director
      Nomination,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20
      FAQs.pdf, accessed 4/1/2013.
347.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 4/1/2013.
348.	 Treasury, responses to SIGTARP data call, 1/10/2011, 4/6/2011, 7/11/2011, 10/5/2011, 1/17/2012, 4/5/2012, 7/5/2012, 10/4/2012, 1/10/2013,
      4/4/2013.
349.	 Treasury, response to SIGTARP data call, 4/4/2013.
350.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 4/1/2013.
351.	 Treasury, response to SIGTARP data call, 4/4/2013.
352.	 Treasury, response to SIGTARP data call, 4/4/2013.
353.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 4/1/2013.
354.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 4/19/2013.
355.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 4/1/2013.
356.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 4/1/2013.
357.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 4/1/2013.
358.	 Treasury, response to SIGTARP data call, 4/4/2013.
359.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
360.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
361.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
218            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      362.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
            Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
      363.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
            Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
      364.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
            Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
      365.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      366.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013; Treasury, response to SIGTARP data call, 4/4/2013.
      367.	 Treasury conference call, 3/19/2010; Treasury, response to SIGTARP data call, 4/4/2013.
      368.	 Treasury conference call, 3/19/2010.
      369.	 Treasury, response to SIGTARP draft report, 1/14/2012.
      370.	 Treasury conference call, 3/19/2010.
      371.	 Treasury conference call, 3/19/2010.
      372.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      373.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      374.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      375.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      376.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      377.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      378.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      379.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      380.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      381.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      382.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      383.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      384.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      385.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      386.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      387.	 SNL Financial LLC data.
      388.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      389.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
            Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
      390.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
            Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
      391.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
            Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
      392.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2010, www.whitehouse.gov/the-press-office/
            remarks-president-small-business-initiatives-landover-md, accessed 4/1/2013.
      393.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      394.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      395.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
      396.	 Treasury, response to SIGTARP data call, 10/5/2011.
      397.	 Treasury, response to SIGTARP data call, 10/5/2011.
      398.	 Treasury, “Glossary,” no date, www.treasury.gov/initiatives/financial-stability/glossary/Pages/default.aspx, accessed 4/1/2013.
      399.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
            TARP%20Warrants%20Report%20Aug2011.pdf, accessed 4/1/2013.
                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013                219


400.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 4/1/2013.
401.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 4/1/2013.
402.	 Treasury, response to SIGTARP data call, 4/12/2013.
403.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 4/1/2013.
404.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
      TARP%20Warrants%20Report%20Aug2011.pdf, accessed 4/1/2013; Treasury, response to SIGTARP data call, 4/12/2013.
405.	 Treasury, response to SIGTARP data call, 4/12/2013.
406.	 Treasury, response to SIGTARP data call, 4/12/2013.
407.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 4/1/2013.
408.	 Treasury, response to SIGTARP data call, 4/12/2013.
409.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
      www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 4/1/2013.
410.	 Treasury, response to SIGTARP data call, 4/12/2013; Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
411.	 Treasury, response to SIGTARP data call, 4/1/2013.
412.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1365.aspx, accessed 4/1/2013.
413.	 Treasury conference call, 11/10/2011.
414.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1365.aspx, accessed 4/1/2013.
415.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2009, www.whitehouse.gov/the-press-office/
      remarks-president-small-business-initiatives-landover-md, accessed 4/1/2013.
416.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/
      cdci/Pages/faqs.aspx, accessed 4/1/2013; Treasury, Section 105(a) Report, 3/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-
      room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 4/2/2013; Treasury Press Release, “Treasury Announces
      Special Financial Stabilization Initiative Investments of $570 Million in Community Development Financial Institutions in Underserved Areas,”
      9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed 4/1/2013.
417.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
      2010%20105(a)%20report_final.pdf, accessed 4/2/2013.
418.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
      investment-programs/cdci/Pages/default.aspx, accessed 4/1/2013.
419.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
      Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
      Release%209-30-10.pdf, accessed 4/1/2013.
420.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
421.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
422.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
423.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
424.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
425.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
426.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
427.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 4/1/2013.
428.	 Treasury, “Application Guidelines for TARP Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cdci/Documents/Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 4/1/2013.
429.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities - Term Sheet,” no date, www.treasury.gov/
      initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
      4/1/2013; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities - Term Sheet,” no date,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
      4/1/2013.
430.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 4/1/2013.
431.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 4/1/2013.
432.	 Department of Treasury Budget in Brief FY 2010, no date, p. 72, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/
      FY2010BIB-Complete.pdf, accessed 4/1/2013.
220            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      433.	 Treasury, response to SIGTARP data call, 1/8/2010.
      434.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      435.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 4/1/2013.
      436.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 4/1/2013; Treasury, Daily TARP Update, 4/1/2013, www.treasury.
            gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%2004%2001%202013.pdf, accessed 4/2/2013.
      437.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 4/1/2013.
      438.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 4/1/2013; FRBNY, “Summary of Maiden Lane II LLC Waterfall
            Allocation,” 5/29/2012, http://newyorkfed.org/markets/maidenlane/xls/MLIItransactiondata.xls, accessed 4/1/2013; FRBNY, “Summary of
            Maiden Lane III LLC Waterfall Allocation,” 11/23/2012, http://newyorkfed.org/markets/maidenlane/xls/MLIIItransactiondata.xls, accessed
            4/1/2013.
      439.	 Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
            04%2001%202013.pdf, accessed 4/2/2013.
      440.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 4/1/2013; FRBNY, “Summary of Maiden Lane II LLC Waterfall
            Allocation,” 5/29/2012, http://newyorkfed.org/markets/maidenlane/xls/MLIItransactiondata.xls, accessed 4/1/2013; FRBNY, “Summary of
            Maiden Lane III LLC Waterfall Allocation,” 11/23/2012, http://newyorkfed.org/markets/maidenlane/xls/MLIIItransactiondata.xls, accessed
            4/1/2013.
      441.	 FRBNY, “CREDIT AGREEMENT dated as of September 22, 2008, between AMERICAN INTERNATIONAL GROUP, INC., as Borrower and
            FEDERAL RESERVE BANK OF NEW YORK, as Lender,” 9/22/2008, www.newyorkfed.org/aboutthefed/aig/pdf/original_credit_agreement.
            pdf, accessed 4/1/2013; AIG, 10-K, 2/26/2010, www.sec.gov/Archives/edgar/data/5272/000104746910001465/a2196553z10-k.htm, accessed
            4/1/2013.
      442.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_
            Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 4/1/2013.
      443.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
            Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 4/1/2013.
      444.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
            Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 4/1/2013.
      445.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 4/1/2013.
      446.	 Treasury, Section 105(a) Report, 12/5/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-
            105report.pdf, accessed 4/8/2013.
      447.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 4/1/2013.
      448.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013; Treasury, “Securities Exchange Agreement,” 4/17/2009, www.treasury.
            gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Documents/Series.E.Securities.Exchange.Agreement.pdf, accessed 4/1/2013;
            Treasury, “Securities Purchase Agreement,” 4/17/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/
            Documents/Series.F.Securities.Purchase.Agreement.pdf, accessed 4/1/2013.
      449.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 4/1/2013.
      450.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 4/1/2013.
      451.	 AIG Press Release, “AIG Announces Pricing of Sale of Ordinary Shares of AIA Group Limited,” 3/5/2012, http://phx.corporate-ir.net/External.Fi
            le?item=UGFyZW50SUQ9MTI5ODQ3fENoaWxkSUQ9LTF8VHlwZT0z&t=1, accessed 4/1/2013.
      452.	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 4/1/2013; AIG, 8-K 3/1/2011, www.sec.gov/Archives/edgar/
            data/5272/000095012311021398/y90008ae8vk.htm, accessed 4/1/2013.
      453.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 4/1/2013.
      454.	 Treasury, response to SIGTARP data call, 4/4/2013.
      455.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 4/1/2013; AIG, 8-K, 12/8/2010,
            www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/1/2013; AIG, 10-Q, 11/5/2010, www.sec.gov/
            Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 4/1/2013.
      456.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 4/1/2013.
      457.	 Treasury Press Release, “Treasury Receives Payment From Its Final Sale of AIG Common Stock, Bringing Positive Return on Overall AIG
            Commitment to $22.7 Billion,” 12/14/2012, www.treasury.gov/press-center/press-releases/Pages/tg1805.aspx, accessed 4/1/2013.
      458.	 Treasury Press Release, “Treasury Receives Payment From Its Final Sale of AIG Common Stock, Bringing Positive Return on Overall AIG
            Commitment to $22.7 Billion,” 12/14/2012, www.treasury.gov/press-center/press-releases/Pages/tg1805.aspx, accessed 4/1/2013.
      459.	 Treasury, Daily TARP Update, 4/2/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
            04%2001%202013.pdf, accessed 4/1/2013.
      460.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 4/1/2013.
      461.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      462.	 AIG, Stock Information, www.aig.com/Stock-Information_3171_438015.html, accessed 4/1/2013.
      463.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/1/2013.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013              221


464.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
      From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 4/1/2013.
465.	 FRBNY, “Maiden Lane II Bid List Offering (FRBNY),” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm?showMore=1, accessed
      4/1/2013; FRBNY, response to SIGTARP data call, 4/12/2012.
466.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
      From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 4/1/2013.
467.	 FRBNY, response to SIGTARP data call, 4/3/2013; Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 12/27/2012, www.
      federalreserve.gov/releases/h41/, accessed 4/1/2013.
468.	 FRBNY, “Maiden Lane III LLC Securities Offerings,” no date, www.newyorkfed.org/markets/sec_offerings_recent.html, accessed 4/1/2013;
      FRBNY, response to SIGTARP data call 4/3/2013; FRBNY, “New York Fed Sells Remainder of Maiden Lane III LLC Securities; Marks End of
      AIG-Related Assistance; Approximately $6.6 Billion Net Gain Generated for U.S. Public from the Portfolio,” 8/23/2012, www.newyorkfed.org/
      newsevents/news/markets/2012/an120823.html, accessed 4/1/2013.
469.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane III LLC Securities; Marks End of AIG-Related Assistance; Approximately $6.6 Billion
      Net Gain Generated for U.S. Public from the Portfolio,” 8/23/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120823.html,
      accessed 4/1/2013.
470.	 FRBNY, response to SIGTARP data call, 4/3/2013; Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 12/27/2012, www.
      federalreserve.gov/releases/h41/, accessed 4/1/2013.
471.	 FRBNY, response to SIGTARP data call, 4/3/2013; FRBNY, Transaction Data, 11/23/2012, http://newyorkfed.org/markets/maidenlane.
      html#periodicreleases3, accessed 4/1/2013.
472.	 FRBNY, response to SIGTARP data call, 4/3/2013; FRBNY, Transaction Data, 11/23/2012, http://newyorkfed.org/markets/maidenlane.
      html#periodicreleases3, accessed 4/1/2013.
473.	 Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
      Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 4/1/2013; Treasury, “Securities Purchase Agreement,” 1/15/2009, www.
      treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/Documents_Contracts_Agreements/BAC%20III%20Binder.pdf,
      accessed 4/1/2013.
474.	 Treasury, “Guidelines for Targeted Investment Program,” 1/2/2009, www.treasury.gov/press-center/press-releases/Pages/hp1338.aspx, accessed
      4/1/2013.
475.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
      December%20105(a)_final_1-11-10.pdf, accessed 4/1/2013.
476.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
477.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
478.	 Treasury, “Exchange Agreement,” 6/9/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/Citigroup%20Exchange%20Agreement.pdf, accessed 4/1/2013; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
      data/831001/000095012311004665/y89177b7e424b7.htm, accessed 4/1/2013.
479.	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 4/1/2013.
480.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 4/1/2013.
481.	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 4/1/2013.
482.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
      TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 4/1/2013.
483.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
      TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 4/1/2013.
484.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 4/1/2013.
485.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
486.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
      December%20105(a)_final_1-11-10.pdf, accessed 4/2/2013; Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of
      $894 Million, Providing an Additional Profit for Taxpayers on TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-
      releases/Pages/tg1841.aspx, accessed 4/1/2013.
487.	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 4/1/2013.
488.	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 4/1/2013.
489.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 4/2/2013.
490.	 Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
      Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
      3/18/2013. FRBNY Press Release, “Federal Reserve Board announces agreement with Treasury Department regarding credit protection for the
      Term Asset-Backed Securities Loan Facility (TALF),” 1/13/2013, www.federalreserve.gov/newsevents/press/monetary/20130115b.htm, accessed
      3/18/2013.
491.	 Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      04%2001%202013.pdf, accessed 4/2/2013.
492.	 FRBNY, response to SIGTARP data call, 4/3/2013.
222            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      493.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates; 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
            com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 4/1/2013; AllianceBernstein Press Release, “AllianceBernstein
            Liquidates Public-Private Investment Partnership at an 18.7% Internal Rate of Return for Treasury,” 10/9/2012, www.prnewswire.com/news-
            releases/alliancebernstein-liquidates-public-private-investment-partnership-at-an-187-internal-rate-of-return-for-treasury-173285451.html,
            accessed 4/1/2013; RLJ Western Press Release, “RLJ Western Asset Management Liquidates Public Private Investment Partnership At A 23.9%
            Internal Rate of Return for Treasury,” 11/20/2012, www.prnewswire.com/news-releases/rlj-western-asset-management-liquidates-public-private-
            investment-partnership-at-a-239-internal-rate-of-return-for-treasury-180138341.html, accessed 4/1/2013; BlackRock Press Release, “BlackRock
            Liquidates Public-Private Investment Partnership at a 23.5% Internal Rate of Return to Treasury,” 12/5/2012, www2.blackrock.com/content/
            groups/global/documents/literature/blk_ppip.pdf, accessed 4/1/2013.
      494.	 Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions,” no date, www.treasury.
            gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/S-PPIP_LOI_Term-Sheets.pdf, accessed
            4/2/2013.
      495.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      496.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      497.	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”
            11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 4/1/2013.
      498.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 4/1/2013.
      499.	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” March 2010, www.federalreserve.gov/monetarypolicy/clbs_
            lendingfacilities_201003.htm, accessed 4/1/2013.
      500.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      501.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2013.
      502.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 4/1/2013.
      503.	 FRBNY, response to SIGTARP data call, 4/3/2013.
      504.	 FRBNY, response to SIGTARP data call, 4/3/2013.
      505.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 4/1/2013.
      506.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2013.
      507.	 FRBNY, response to SIGTARP data call, 4/3/2013.
      508.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 4/1/2013.
      509.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 4/1/2013.
      510.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 4/1/2013.
      511.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2013.
      512.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 4/1/2013; Federal Reserve, Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,
            December 2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 4/1/2013.
      513.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2013.
      514.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2013.
      515.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2013.
      516.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2013.
      517.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      518.	 FRBNY, response to SIGTARP data call, 4/3/2013.
      519.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 4/1/2013;
            FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed
            4/1/2013.
      520.	 FRBNY, response to SIGTARP data call, 4/3/2013.
      521.	 FRBNY, response to SIGTARP data call, 4/3/2013.
      522.	 FRBNY, response to SIGTARP data call, 4/3/2013.
      523.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm,
            accessed 4/1/2013.
      524.	 FRBNY, response to SIGTARP data call, 4/3/2013.
      525.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013               223


526.	 Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
      Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
      3/18/2013.
527.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
      States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
      Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/talf/Documents/SPV-Sec-Agt.pdf,
      accessed 4/1/2013.
528.	 FRBNY, response to SIGTARP data call, 4/3/2013.
529.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 3/28/2013, www.federalreserve.gov/releases/h41/20130328/, accessed 4/8/2013;
      FRBNY, response to SIGTARP data call 4/3/2013.
530.	 FRBNY, response to SIGTARP data call, 4/3/2013.
531.	 Federal Reserve, response to SIGTARP draft report, 4/8/2010.
532.	 Treasury, “Public-Private Investment Program,” 3/23/2009, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.
      pdf, accessed 4/2/2013.
533.	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
      aspx, accessed 4/3/2013.
534.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
535.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 4/2/2013.
536.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 4/2/2013.
537.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/
      ppip/Pages/purpose-and-overview.aspx, accessed 4/2/2013.
538.	 PPIP fund managers’ monthly reports for March 2013 submitted to Treasury and SIGTARP, 4/15/2013.
539.	 PPIP fund managers’ monthly reports for March 2013 submitted to Treasury and SIGTARP, 4/15/2013.
540.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 4/2/2013.
541.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 4/2/2013; Treasury, “Amended and Restated
      Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/
      Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 4/2/2013.
542.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 4/2/2013.
543.	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/ppip/
      Pages/Program-Status.aspx, accessed 4/2/2013.
544.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treasury.
      gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 4/2/2013.
545.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
546.	 Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions,” no date, www.treasury.
      gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/S-PPIP_LOI_Term-Sheets.pdf, accessed
      4/2/2013.
547.	 Treasury, response to SIGTARP data call, 4/4/2013.
548.	 Treasury, response to SIGTARP data call, 4/4/2013.
549.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
550.	 Treasury, response to SIGTARP data call, 4/4/2013.
551.	 Treasury, response to SIGTARP data call, 4/4/2013.
552.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
553.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
554.	 Treasury, response to SIGTARP data call, 4/4/2013.
555.	 PPIP fund managers’ monthly reports for March 2013 submitted to Treasury and SIGTARP, 4/15/2013.
556.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
557.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
558.	 Treasury, response to SIGTARP data call, 4/4/2013.
559.	 BlackRock press release, “BlackRock Liquidates Public-Private Investment Partnership at a 23.5% Internal Rate of Return to Treasury,”
      12/5/2012, http://finance.yahoo.com/news/blackrock-liquidates-public-private-investment-194500728.html, accessed 4/2/2013.
560.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013; BlackRock press release, “BlackRock Liquidates Public-Private
      Investment Partnership at a 23.5% Internal Rate of Return to Treasury,” 12/5/2012, http://finance.yahoo.com/news/blackrock-liquidates-public-
      private-investment-194500728.html, accessed 4/2/2013.
224            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      561.	 Treasury, response to SIGTARP data call, 4/4/2013.
      562.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      563.	 Treasury, response to SIGTARP data call, 4/4/2013.
      564.	 AllianceBernstein L.P. Press Release, “AllianceBernstein Liquidates Public-Private Investment Partnership at an 18.7% Internal Rate of Return
            for Treasury,” 10/9/2012, www.alliancebernstein.com/abcom/Our_Firm/Investor_Media/news/releases.htm, accessed 4/2/2013.
      565.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      566.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      567.	 Treasury, response to SIGTARP data call, 4/10/2013.
      568.	 RLJ Western press release, “RLJ Western Asset Management Liquidates Public Private Investment Partnership At A 23.9% Internal Rate of
            Return for Treasury,” 11/20/2012, www.prnewswire.com/news-releases/rlj-western-asset-management-liquidates-public-private-investment-
            partnership-at-a-239-internal-rate-of-return-for-treasury-180138341.html#, accessed 4/2/2013.
      569.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      570.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
            Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
      571.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
            Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
      572.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates, 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
            com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 4/2/2013.
      573.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      574.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      575.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of Invesco Legacy
            Securities Master Fund, L.P., 10/3/2012, Authentication No. 9893096, File No. 4722688.
      576.	 Treasury, response to SIGTARP data call, 4/4/2013.
      577.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.pdf,
            accessed 4/2/2013.
      578.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 4/2/2013.
      579.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 4/2/2013.
      580.	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, www.gpo.gov/fdsys/pkg/CPRT-
            111JPRT51601/pdf/CPRT-111JPRT51601.pdf, accessed 4/2/2013.
      581.	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/tg58.aspx,
            accessed 4/2/2013; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
            recovery_act_faqs.pdf, accessed 4/2/2013.
      582.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
            www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20Purchase%20Agreement%20
            (Execution%20Version).pdf, accessed 4/2/2013; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued
            by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/
            Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf,
            accessed 4/2/2013.
      583.	 Treasury Press Release, “Treasury Announces Sale of Six SBA 7(a) Securities,” 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1203.aspx, accessed 4/2/2013; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
            Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20
            Purchase%20Agreement%20(Execution%20Version).pdf, accessed 4/2/2013; Treasury, “Master Purchase Agreement for SBA Pooled Certificates
            and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-
            programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20
            MPA%20(73485877_2).pdf, accessed 4/2/2013.
      584.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      585.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      586.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
      587.	 Treasury, Auto Industry, no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/pages/default.aspx,
            accessed 4/2/2013.
      588.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      589.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013               225


590.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 4/5/2013.
591.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
592.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
593.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013; Treasury, “Office of Financial Stability: Agency Financial Report
      - Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2010%20
      OFS%20AFR%20Nov%2015.pdf, accessed 4/2/2013.
594.	 Treasury, response to SIGTARP data call, 4/19/2013.
595.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013; Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.
      gov/initiatives/financial-stability/reports/Documents/March%202013%20Dividends%20Interest%20Report.pdf, accessed 4/10/2013; Treasury,
      response to SIGTARP data call, 4/19/2013.
596.	 Treasury Press Release, “Treasury Commences Plan to Sell General Motors Common Stock,” 1/18/2013, www.treasury.gov/press-center/press-
      releases/Pages/tg1826.aspx, accessed 4/2/2013; Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the
      Next 12-15 Months,” 12/19/2012, www.treasury.gov/press-center/press-releases/Pages/tg1810.aspx, accessed 4/2/2013; Treasury, Transactions
      Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-
      13_INVESTMENT.pdf, accessed 4/2/2013.
597.	 Treasury, “Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011,” 11/30/2011, www.
      treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 4/2/2013.
598.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
599.	 Treasury, “Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011,” 11/30/2011, www.
      treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, p. 76, accessed
      4/2/2013.
600.	 Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
      Pages/autoprogram.aspx, accessed 4/2/2012; Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/
      Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
601.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
602.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
603.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
604.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
605.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/2/2013.
606.	 Department of Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, 11/30/2011,
      www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed
      4/2/2013.
607.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2013.
608.	 General Motors Company, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 4/2/2013.
609.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/2/2013.
610.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/2/2013;
      Treasury Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings
      Total Taxpayer Proceeds from GM IPO to $13.5 Billion,” 12/2/2010, www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, accessed
      4/2/2013; GM Press Release, “General Motors Company Prices Public Offering of Common and Preferred Stock,” 11/17/2010, http://media.
      gm.com/content/media/be/de/opel/news.detail.html/content/Pages/news/be/de/2010/OPEL/1117_pricing_eu.html, accessed 4/2/2013.
611.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
      www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 4/2/2013.
612.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/2/2013.
613.	 Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the Next 12-15 Months,” 12/19/2012, www.treasury.
      gov/press-center/press-releases/Pages/tg1810.aspx, accessed 4/2/2013.
614.	 General Motors Company Form 8-K, 12/20/2012, www.sec.gov/Archives/edgar/data/1467858/000146785812000082/form8-kusttreasurystock.
      htm, accessed 4/2/2013; Treasury, Stockholders Agreement, 10/15/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
      automotive-programs/Documents/GM%20Corporate%20Docs.pdf, accessed 4/2/2013; Treasury, Second Amended and Restated Secured Credit
      Agreement, 8/12/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/Documents/General%20Motors%20
      Company%20Loan%20Documents%20%20(post-July%2010,%202009).pdf, accessed 4/2/2013.
615.	 GM Press Release, “GM to Buy Back Stock from U.S. Treasury Department,” 12/19/2012, http://media.gm.com/media/us/en/gm/news.detail.
      html/content/Pages/news/us/en/2012/Dec/1219_gm-ust-stock.html, accessed 4/2/2013.
616.	 Treasury Press Release, “Treasury Commences Plan to Sell General Motors Common Stock,” 1/18/2013, www.treasury.gov/press-center/press-
      releases/Pages/tg1826.aspx, accessed 4/2/2013.
226            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      617.	 Treasury, response to SIGTARP data call, 4/19/2013.
      618.	 Treasury, response to SIGTARP data call, 4/4/2013.
      619.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      620.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
            Dividends%20Interest%20Report.pdf.
      621.	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 4/2/2013.
      622.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 4/4/2013.
      623.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 4/4/2013.
      624.	 Ally Financial, 8-K, 5/22/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 4/2/2013; Treasury, Section
            105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
            Report_final.pdf, accessed 4/4/2013.
      625.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 4/2/2013.
      626.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 4/4/2013.
      627.	 Ally Financial, 8-K, 5/3/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 4/2/2013.
      628.	 Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
            center/press-releases/Pages/tg1014.aspx, accessed 4/2/2013.
      629.	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TruPs,” 3/1/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1081.aspx, accessed 4/2/2013.
      630.	 Ally Financial, 8-K, 12/30/2010, www.sec.gov/Archives/edgar/data/40729/000119312510291571/d8k.htm, accessed 4/2/2013; Ally Financial,
            Amended and Restated Governance Agreement, 5/21/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/dex102.htm,
            accessed 4/2/2013.
      631.	 Treasury Press Release, “Treasury Names Appointees to Ally Board of Directors,” 8/15/2012, www.treasury.gov/press-center/press-releases/Pages/
            tg1682.aspx, accessed 4/2/2013.
      632.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
            htm, accessed 4/2/2013.
      633.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 4/2/2013.
      634.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
            htm, accessed 4/2/2013.
      635.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
            htm, accessed 4/2/2013.
      636.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 4/2/2013.
      637.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, http://edgar.brand.edgar-online.com/EFX_dll/
            EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 4/2/2013; SEC, “Ally Financial, Inc.: Amendment
            No. 2 to Form S-1 Registration Statement,” 6/3/2011, http://edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID
            =7978010&SessionID=yWV1FqvBONn9GA7, accessed 4/2/2013; SEC, “Ally Financial, Inc.: Amendment No. 3 to Form S-1 Registration
            Statement,” 6/28/2011, www.sec.gov/Archives/edgar/data/40729/000119312511175943/ds1a.htm, accessed 4/2/2013; SEC, “Ally Financial,
            Inc.: Amendment No. 4 to Form S-1 Registration Statement,” 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/
            ds1a.htm, accessed 4/2/2013; SEC, “Ally Financial Inc.: Amendment No. 5 to Form S-1 Registration Statement,” 12/2/2011, www.sec.gov/
            Archives/edgar/data/40729/000119312511328749/d167661ds1a.htm, accessed 4/2/2013; SEC, “Ally Financial Inc.: Amendment No. 6 to
            Form S-1 Registration Statement,” 4/12/2012, www.sec.gov/Archives/edgar/data/40729/000119312512159940/d167661ds1a.htm, accessed
            4/2/2013; SEC, “Ally Financial, Inc.: Amendment No. 7 to Form S-1 Registration Statement,” 10/5/2012, www.sec.gov/Archives/edgar/
            data/40729/000119312512416511/d388008ds1a.htm, accessed 4/2/2013.
      638.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      639.	 Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
            Treasury,” 5/14/2012, http://media.ally.com/index.php?s=43&item=543, accessed 4/2/2013.
      640.	 Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
            Treasury,” 5/14/2012, http://media.ally.com/index.php?s=43&item=543, accessed 4/2/2013; Ally Financial, 10-Q, 8/3/2012, www.sec.gov/
            Archives/edgar/data/40729/000004072912000020/gjm2012063010q.htm, accessed 4/2/2013.
      641.	 In Re Residential Capital, LLC, Case No. 12-12020, U.S. Bankruptcy Court for the Southern District of New York.
      642.	 Ally Press Release, “Ally Financial Announces Agreement to Sell Remaining International Operations,” 11/21/2012, http://media.ally.com/2012-
            11-21-Ally-Financial-Announces-Agreement-to-Sell-Remaining-International-Operations, accessed 4/2/2013.
      643.	 Ally Financial Press Release, “Ally Financial Completes Sale of Majority of European and Latin American Operations,” 4/2/2013, http://media.
            ally.com/2013-04-02-Ally-Financial-Completes-Sale-of-Majority-of-European-and-Latin-American-Operations, accessed 4/10/2013.
      644.	 Ally Press Release, “Ally Financial Announces Agreement to Sell Canadian operations,” 10/23/2012, http://media.ally.com/2012-10-23-Ally-
            Financial-Announces-Agreement-to-Sell-Canadian-Operations, accessed 4/2/2013; Ally Press Release, “Ally Financial Announces Agreement
            to Sell Mexican Insurance Business,” 10/18/2012, http://media.ally.com/2012-10-18-Ally-Financial-Announces-Agreement-to-Sell-Mexican-
            Insurance-Business, accessed 4/2/2013.
      645.	 Ally Financial Press Release, “Ally Financial Completes Sale of Canadian Operations,” 2/1/2013, http://media.ally.com/2013-02-01-Ally-
                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 24, 2013                 227


      Financial-Completes-Sale-of-Canadian-Operations, accessed 4/2/2013.
646.	 Ally Financial Press Release, “Ally Bank Reaches Agreement to Sell Remaining Mortgage Servicing Rights,” 3/21/2013, http://media.ally.
      com/2013-03-21-Ally-Bank-Reaches-Agreement-to-Sell-Remaining-Mortgage-Servicing-Rights, accessed 4/10/2013.
647.	 Ally Financial Press Release, “Ally Bank Reaches Agreement to Sell Mortgage Servicing Rights,” 3/12/2013, http://media.ally.com/2013-03-12-
      Ally-Bank-Reaches-Agreement-to-Sell-Mortgage-Servicing-Rights, accessed 4/2/2013.
648.	 Ally Financial Press Release, “Ally Bank Reaches Agreement to Sell Remaining Mortgage Servicing Rights,” 3/21/2013, http://media.ally.
      com/2013-03-21-Ally-Bank-Reaches-Agreement-to-Sell-Remaining-Mortgage-Servicing-Rights, accessed 4/10/2013.
649.	 Ally Financial Press Release, “Ally Bank Reaches Agreement to Sell Mortgage Servicing Rights,” 3/12/2013, http://media.ally.com/2013-03-12-
      Ally-Bank-Reaches-Agreement-to-Sell-Mortgage-Servicing-Rights, accessed 4/2/2013.
650.	 FRB Press Release, untitled, 3/7/2013, www.federalreserve.gov/newsevents/press/bcreg/20130307a.htm, accessed 4/2/2013.
651.	 FRB Press Release, untitled, 3/7/2013, www.federalreserve.gov/newsevents/press/bcreg/20130307a.htm, accessed 4/2/2013.
652.	 FRB Press Release, untitled, 3/7/2013, www.federalreserve.gov/newsevents/press/bcreg/20130307a.htm, accessed 4/2/2013.
653.	 FRB, Comprehensive Capital Analysis and Review 2013: Assessment Framework and Results, 3/14/2013, www.federalreserve.gov/newsevents/
      press/bcreg/ccar-2013-results-20130314.pdf, accessed 4/2/2013.
654.	 FRB Press Release, untitled, 3/13/2012, www.federalreserve.gov/newsevents/press/bcreg/20120313a.htm, accessed 4/2/2013.
655.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
656.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 4/4/2013.
657.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 4/2/2013.
658.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
659.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
660.	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.
      gpo.gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 4/2/2013; Treasury, Treasury, Transactions Report, 3/28/2013,
      www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.
      pdf, accessed 4/2/2013.
661.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
662.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
      http://media.chrysler.com/newsrelease.do;jsessionid=4FB3EE642102E222D6CEAC20ADF7C090?&id=10922&mid=1, accessed 4/2/2013;
      Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 4/2/2013.
663.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 4/2/2013.
664.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 4/2/2013.
665.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
      tg1253.aspx, accessed 4/2/2013.
666.	 Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf.
667.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013; Treasury, Dividends and Interest Report, 4/10/2013, www.treasury.gov/
      initiatives/financial-stability/reports/Documents/March%202013%20Dividends%20Interest%20Report.pdf.
668.	 Amendment Number Four to Loan and Security Agreement dated as of January 2, 2009 between CGI Holding LLC and the United States
      Department of the Treasury, 7/23/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/Documents_
      Contracts_Agreements/Chrysler%20LSA%20as%20of%2005-26-10.pdf, accessed 4/2/2013; Treasury, Treasury, Transactions Report, 3/28/2013,
      www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20Report%20as%20of%203-28-13_INVESTMENT.
      pdf, accessed 4/2/2013.
669.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
670.	 TD Bank Press Release, “TD Bank Group to acquire Chrysler Financial,” 12/21/2010, https://mediaroom.tdbank.com/index.
      php?s=30379&item=94198, accessed 4/2/2013.
671.	 TD Auto Finance LLC, 8-K, 4/5/2011, www.sec.gov/Archives/edgar/data/1337471/000095012311032930/y90599e8vk.htm, accessed 4/2/2013;
      Banking Business Review, “TD Bank closes acquisition of Chrysler Financial,” 4/1/2010, http://retailbanking.banking-business-review.com/news/
      td-bank-closes-acquisition-of-chrysler-financial-040411, accessed 4/2/2013.
672.	 Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/
      tg64.aspx, accessed 4/2/2013.
673.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
      Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013; Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/
      initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20Report_final.pdf, accessed 4/4/2013.
674.	 Treasury, “Office of Financial Stability: Agency Financial Report - Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
228            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 4/2/2013.
      675.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      676.	 Treasury, Transactions Report, 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20Transactions%20
            Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 4/2/2013.
      677.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      678.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      679.	 Treasury, response to SIGTARP data call, 4/15/2013.
      680.	 Treasury, response to SIGTARP data call, 4/4/2013.
      681.	 Treasury, response to SIGTARP data call, 4/4/2013.
      682.	 Treasury, response to SIGTARP data call, 4/4/2013.
      683.	 Freddie Mac, response to SIGTARP data call, 4/4/2013; Fannie Mae, response to SIGTARP data call, 4/19/2013.
      684.	 Treasury, response to SIGTARP data call, 4/4/2013.
      685.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      686.	 Treasury, response to SIGTARP data call, 4/4/2013.
      687.	 Treasury, “Financial Agency Agreement for Capital Markets Disposition Services for a Portfolio of Assets,” 1/1/2013, www.treasury.gov/initiatives/
            financial-stability/procurement/faa/Financial_Agency_Agreements/TOFA13FAA0003_GMAlly.pdf, accessed 4/10/2013.
      688.	 Treasury, “Financial Agency Agreement for Capital Markets Disposition Services for a Portfolio of Assets,” 1/1/2013, www.treasury.gov/initiatives/
            financial-stability/procurement/faa/Financial_Agency_Agreements/TOFA13FAA0003_GMAlly.pdf, accessed 4/10/2013.
      689.	 Treasury, response to SIGTARP data call, 4/4/2013.
      690.	 Treasury, response to SIGTARP data call, 4/4/2013.
      691.	 Treasury, response to SIGTARP data call, 4/4/2013.
      692.	 Treasury, “Financial Agency Agreement for Capital Markets Disposition Services for a Portfolio of Assets,” 1/14/2013, www.treasury.gov/
            initiatives/financial-stability/procurement/faa/Financial_Agency_Agreements/Citi%20FAA%20web%20version.pdf.pdf, accessed 4/10/2013.
      693.	 “Financial Agency Agreement for Capital Markets Disposition Services for a Portfolio of Assets,” 1/14/2013, www.treasury.gov/initiatives/
            financial-stability/procurement/faa/Financial_Agency_Agreements/Citi%20FAA%20web%20version.pdf.pdf, accessed 4/10/2013.
      694.	 Treasury, response to SIGTARP data call, 4/4/2013.
      695.	 Treasury, response to SIGTARP data call, 4/4/2013.
      696.	 Treasury, response to SIGTARP data call, 4/4/2013.
      697.	 Treasury, “Financial Agency Agreement for Capital Markets Disposition Services for a Portfolio of Assets,” 1/14/2013, www.treasury.gov/
            initiatives/financial-stability/procurement/faa/Financial_Agency_Agreements/JPM%20FAA%20web%20version.pdf.pdf, accessed 4/10/2013.
      698.	 Treasury, “Financial Agency Agreement for Capital Markets Disposition Services for a Portfolio of Assets,” 1/14/2013, www.treasury.gov/
            initiatives/financial-stability/procurement/faa/Financial_Agency_Agreements/JPM%20FAA%20web%20version.pdf.pdf, accessed 4/10/2013.
      699.	 Treasury, response to SIGTARP data call, 4/4/2013.
      700.	 Treasury, response to SIGTARP data call, 4/4/2013.
                                                                                          GLOSSARY I APPENDIX A I APRIL 24, 2013     229




GLOSSARY
This appendix provides a glossary of terms that are used in the context of this report.

7(a) Loan Program: SBA loan program guaranteeing                   Credit Default Swap (“CDS”): A contract where the seller
a percentage of loans for small businesses that cannot             receives payments from the buyer in return for agreeing to
otherwise obtain conventional loans at reasonable terms.           pay the buyer when a particular credit event occurs, such
                                                                   as when the credit rating on a bond is downgraded or a
Accredited Investors: Individuals or institutions that
                                                                   loan goes into default. The buyer does not need to own the
by law are considered financially sophisticated enough
                                                                   asset covered by the contract, meaning the swap can serve
so that they can invest in ventures that are exempt from
                                                                   essentially as a bet against the underlying bond or loan.
investor protection laws. Under U.S. securities laws, these
include many financial companies, pension plans, wealthy           Cumulative Preferred Stock: Stock requiring a defined
individuals, and top executives or directors of the issuing        dividend payment. If the company does not pay the dividend
companies.                                                         on schedule, it still owes the missed dividend to the stock’s
                                                                   owner.
Asset-Backed Securities (“ABS”): Bonds backed by a
portfolio of consumer or corporate loans (e.g., credit card,       CUSIP number (“CUSIP”): Unique identifying number
auto, or small-business loans). Financial companies typically      assigned to all registered securities in the United States
issue ABS backed by existing loans in order to fund new loans      and Canada; the name originated with the Committee on
for their customers.                                               Uniform Securities Identification Procedures.
Collateral: Asset pledged by a borrower to a lender until a        Custodian Bank: Bank holding the collateral and managing
loan is repaid. Generally, if the borrower defaults on the loan,   accounts for FRBNY; for TALF the custodian is Bank of New
the lender gains ownership of the pledged asset and may sell       York Mellon.
it to satisfy the debt. In TALF, the ABS or CMBS purchased
                                                                   Debt: Investment in a business that is required to be paid
with the TALF loan is the collateral that is posted with
                                                                   back to the investor, usually with interest.
FRBNY.
                                                                   Deed-in-Lieu of Foreclosure: Instead of going through
Collateralized Debt Obligation (“CDO”): A security that
                                                                   foreclosure, the borrower voluntarily surrenders the deed
entitles the purchaser to some part of the cash flows from a
                                                                   to the home to the investor as satisfaction of the unpaid
portfolio of assets such as mortgage-backed securities, bonds,
                                                                   mortgage balance.
loans, or other CDOs.
                                                                   Deficiency Judgment: Court order authorizing a lender to
Commercial Mortgage-Backed Securities (“CMBS”):
                                                                   collect all or part of an unpaid and outstanding debt resulting
Bonds backed by one or more mortgages on commercial real
                                                                   from the borrower’s default on the mortgage note securing a
estate (e.g., office buildings, rental apartments, hotels).
                                                                   debt. A deficiency judgment is rendered after the foreclosed
Common Stock: Equity ownership entitling an individual to          or repossessed property is sold when the proceeds are
share in corporate earnings and voting rights.                     insufficient to repay the full mortgage debt.
Community Development Financial Institutions                       Deobligations: An agency’s cancellation or downward
(“CDFIs”): Financial institutions eligible for Treasury            adjustment of previously incurred obligations.
funding to serve urban and rural low-income communities
                                                                   Due Diligence: Appropriate level of attention or care a
through the CDFI Fund. CDFIs were created in 1994
                                                                   reasonable person should take before entering into an
by the Riegle Community Development and Regulatory
                                                                   agreement or a transaction with another party. In finance, it
Improvement Act. These entities must be certified by
                                                                   often refers to the process of conducting an audit or review of
Treasury; certification confirms that they target at least 60%
                                                                   the institution before initiating a transaction.
of their lending and other economic development activities to
areas underserved by traditional financial institutions.           Equity: Investment that represents an ownership interest in a
                                                                   business.
230           APPENDIX A I GLOSSARY I APRIL 24, 2013




      Equity Capital Facility: Commitment to invest equity                Limited Partnership: Partnership in which there is at least
      capital in a firm under certain future conditions. An equity        one partner whose liability is limited to the amount invested
      facility when drawn down is an investment that increases            (limited partner) and at least one partner whose liability
      the provider’s ownership stake in the company. The investor         extends beyond monetary investment (general partner).
      may be able to recover the amount invested by selling its
                                                                          Loan Servicers: Companies that perform administrative
      ownership stake to other investors at a later date.
                                                                          tasks on monthly mortgage payments until the loan is
      Excess Spread: Funds left over after required payments and          repaid. These tasks include billing, tracking, and collecting
      other contractual obligations have been met. In TALF it is          monthly payments; maintaining records of payments and
      the difference between the periodic amount of interest paid         balances; allocating and distributing payment collections to
      out by the collateral and the amount of interest charged by         investors in accordance with each mortgage loan’s governing
      FRBNY on the nonrecourse loan provided to the borrower to           documentation; following up on delinquencies; and initiating
      purchase the collateral.                                            foreclosures.
      Exercise Price: Preset price at which a warrant holder              Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio
      may purchase each share. For warrants in publicly traded            that mortgage lenders examine before approving a mortgage;
      institutions issued through CPP, this was based on the              calculated by dividing the outstanding amount of the loan
      average stock price during the 20 days before the date that         by the value of the collateral backing the loan. Loans with
      Treasury granted preliminary CPP participation approval.            high LTV ratios are generally seen as higher risk because the
                                                                          borrower has less of an equity stake in the property.
      Government-Sponsored Enterprises (“GSEs”): Private
      corporations created and chartered by the Government to             Mandatorily Convertible Preferred Stock (“MCP”): A type
      reduce borrowing costs and provide liquidity in the market,         of preferred share (ownership in a company that generally
      the liabilities of which are not officially considered direct       entitles the owner of the shares to collect dividend payments)
      taxpayer obligations. On September 7, 2008, the two largest         that can be converted to common stock under certain
      GSEs, the Federal National Mortgage Association (“Fannie            parameters at the discretion of the company — and must be
      Mae”) and the Federal Home Loan Mortgage Corporation                converted to common stock by a certain time.
      (“Freddie Mac”), were placed into Federal conservatorship.
                                                                          Nationally Recognized Statistical Rating Organization
      They are currently being financially supported by the
                                                                          (“NRSRO”): Credit rating agency registered with the
      Government.
                                                                          SEC. Credit rating agencies provide their opinion of the
      Haircut: Difference between the value of the collateral and         creditworthiness of companies and the financial obligations
      the value of the loan (the loan value is less than the collateral   issued by companies. The ratings distinguish between
      value).                                                             investment grade and non-investment grade equity and debt
                                                                          obligations.
      Illiquid Assets: Assets that cannot be quickly converted to
      cash.                                                               Net Present Value (“NPV”) Test: Compares the money
                                                                          generated by modifying the terms of the mortgage with the
      Investors: Owners of mortgage loans or bonds backed by
                                                                          amount an investor can reasonably expect to recover in a
      mortgage loans who receive interest and principal payments
                                                                          foreclosure sale.
      from monthly mortgage payments. Servicers manage the cash
      flow from borrowers’ monthly payments and distribute them           Non-Agency Residential Mortgage-Backed Securities
      to investors according to Pooling and Servicing Agreements          (“non-agency RMBS”): Financial instrument backed by
      (“PSAs”).                                                           a group of residential real estate mortgages (i.e., home
                                                                          mortgages for residences with up to four dwelling units) not
      Legacy Securities: Real estate-related securities originally
                                                                          guaranteed or owned by a Government-sponsored enterprise
      issued before 2009 that remained on the balance sheets
                                                                          (“GSE”) or a Government Agency.
      of financial institutions because of pricing difficulties that
      resulted from market disruption.                                    Non-Cumulative Preferred Stock: Preferred stock with
                                                                          a defined dividend, without the obligation to pay missed
                                                                          dividends.
                                                                                          GLOSSARY I APPENDIX A I APRIL 24, 2013      231




Non-Recourse Loan: Secured loan in which the borrower is           Servicing Advances: If borrowers’ payments are not made
relieved of the obligation to repay the loan upon surrendering     promptly and in full, servicers are contractually obligated to
the collateral.                                                    advance the required monthly payment amount in full to the
                                                                   investor. Once a borrower becomes current or the property is
Obligations: Definite commitments that create a legal
                                                                   sold or acquired through foreclosure, the servicer is repaid all
liability for the Government to pay funds.
                                                                   advanced funds.
Pool Assemblers: Firms authorized to create and market
                                                                   Short Sale: Sale of a home for less than the unpaid mortgage
pools of SBA-guaranteed loans.
                                                                   balance. A borrower sells the home and the investor accepts
Preferred Stock: Equity ownership that usually pays a fixed        the proceeds as full or partial satisfaction of the unpaid
dividend before distributions for common stock owners but          mortgage balance, thus avoiding the foreclosure process.
only after payments due to debt holders. It typically confers
                                                                   Skin in the Game: Equity stake in an investment; down
no voting rights. Preferred stock also has priority over
                                                                   payment; the amount an investor can lose.
common stock in the distribution of assets when a bankrupt
company is liquidated.                                             Special Purpose Vehicle (“SPV”): A legal entity, often off-
                                                                   balance-sheet, that holds transferred assets presumptively
Pro Rata: Refers to dividing something among a group of
                                                                   beyond the reach of the entities providing the assets, and that
participants according to the proportionate share that each
                                                                   is legally isolated from its sponsor or parent company.
participant holds as a part of the whole.
                                                                   Subchapter S Corporations (“S corporations”): Corporate
Qualified Institutional Buyers (“QIB”): Institutions that
                                                                   form that passes corporate income, losses, deductions, and
under U.S. securities law are permitted to buy securities that
                                                                   credit through to shareholders for Federal tax purposes.
are exempt from registration under investor protection laws
                                                                   Shareholders of S corporations report the flow-through of
and to resell those securities to other QIBs. Generally these
                                                                   income and losses on their personal tax returns and are taxed
institutions own and invest at least $100 million in securities,
                                                                   at their individual income tax rates.
or are registered broker-dealers that own or invest at least $10
million in securities.                                             Subordinated Debentures: Form of debt security that ranks
                                                                   below other loans or securities with regard to claims on assets
Revolving Credit Facility: Line of credit for which borrowers
                                                                   or earnings.
pay a commitment fee, allowing them to repeatedly draw
down funds up to a guaranteed maximum amount. The                  Systemically Significant Institutions: Term referring to any
amount of available credit decreases and increases as funds        financial institution whose failure would impose significant
are borrowed and then repaid.                                      losses on creditors and counterparties, call into question the
                                                                   financial strength of similar institutions, disrupt financial
Risk-Weighted Assets: Risk-based measure of total assets
                                                                   markets, raise borrowing costs for households and businesses,
held by a financial institution. Assets are assigned broad
                                                                   and reduce household wealth.
risk categories. The amount in each risk category is then
multiplied by a risk factor associated with that category. The     TALF Agent: Financial institution that is party to the TALF
sum of the resulting weighted values from each of the risk         Master Loan and Security Agreement and that occasionally
categories is the bank’s total risk-weighted assets.               acts as an agent for the borrower. TALF agents include
                                                                   primary and nonprimary broker-dealers.
SBA Pool Certificates: Ownership interest in a bond backed
by SBA-guaranteed loans.                                           Trial Modification: Under HAMP, a period of at least three
                                                                   months in which a borrower is given a chance to establish
Senior Preferred Stock: Shares that give the stockholder
                                                                   that he or she can make lower monthly mortgage payments
priority dividend and liquidation claims over junior preferred
                                                                   and qualify for a permanent modification.
and common stockholders.
                                                                   Trust Preferred Securities (“TRUPS”): Securities that have
Senior Subordinated Debentures: Debt instrument ranking
                                                                   both equity and debt characteristics, created by establishing a
below senior debt but above equity with regard to investors’
                                                                   trust and issuing debt to it.
claims on company assets or earnings.
232           APPENDIX A I GLOSSARY I APRIL 24, 2013




      Undercapitalized: Condition in which a financial institution      Sources:
                                                                        Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date, www.
      does not meet its regulator’s requirements for sufficient         fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
      capital to operate under a defined level of adverse conditions.   4/2/2013.
                                                                        Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral, www.frbservices.
      Underwater Mortgage: Mortgage loan on which a                     org/files/regulations/pdf/operating_circular_8.pdf, accessed 4/2/2013.

      homeowner owes more than the home is worth, typically as a        FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 4/2/2013.
                                                                        FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
      result of a decline in the home’s value. Underwater mortgages     card_securitization/glossary.html, accessed 4/2/2013.
      also are referred to as having negative equity                    FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
                                                                        rules/2000-4600.html, accessed 4/2/2013.
                                                                        FRBNY, “TALF FAQ’s,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html, accessed 4/2/2013.
                                                                        SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
                                                                        3/25/2010, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_Implementation_of_the_Home_
                                                                        Affordable_Modification_Program.pdf, accessed 4/2/2013.
                                                                        GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004, www.gao.gov/
                                                                        special.pubs/d06382sp.pdf, p. 7-3, accessed 4/2/2013.
                                                                        GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
                                                                        on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.
                                                                        pdf, accessed 4/2/2013; GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of
                                                                        Government Assistance Provided to AIG and Description of Recent Execution of Recapitalization
                                                                        Plan,” 1/20/2011, www.gao.gov/new.items/d1146.pdf, accessed 4/2/2013.
                                                                        IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/Businesses/Small-Businesses-&-Self-
                                                                        Employed/Abusive-Offshore-Tax-Avoidance-Schemes---Glossary-of-Offshore-Terms, accessed
                                                                        4/2/2013.
                                                                        Making Home Affordable base NPV model documentation v5.01, updated 10/1/2012. www.
                                                                        hmpadmin.com/portal/programs/docs/hamp_servicer/npvmodeldocumentationv501.pdf, pp. 23-24,
                                                                        accessed 4/2/2013.
                                                                        SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/idc/
                                                                        groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 4/2/2013.
                                                                        SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 4/2/2013.
                                                                        Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                        4/2/2013.
                                                                        Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” 3/16/2009, www.treasury.gov/press-
                                                                        center/press-releases/Pages/tg58.aspx, accessed 4/2/2013.
                                                                        Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
                                                                        Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/tg334.
                                                                        aspx, accessed 4/2/2013.
                                                                        Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
                                                                        Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
                                                                        sd1014.pdf, accessed 4/2/2013.
                                                                        Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.
                                                                        treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 4/2/2013.
                                                                        U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
                                                                        www.census.gov/hhes/www/rfs/glossary.html#l, accessed 4/2/2013.
                                                                        U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
                                                                        sfh/buying/glossary.cfm, accessed 4/2/2013.
                                                                                  ACRONYMS AND ABBREVIATIONS I APPENDIX B I APRIL 24, 2013          233




ACRONYMS AND ABBREVIATIONS

               2MP Second Lien Modification Program                              City Holding City Holding Company, Charleston, Virginia
               ABS asset-backed securities                                               CLTV Combined Loan-to-Value
            the Act Securities Act of 1933                                             CMBS commercial mortgage-backed securities
         AG GECC AG GECC PPIF Master Fund, L.P.                            Coastal Securities Coastal Securities, Inc.
               AGP Asset Guarantee Program                                        Community Community Financial Corporation, Staunton,
                                                                                    Financial Virginia
                AIA American International Insurance Co., Ltd.
                                                                                         COP Congressional Oversight Panel
           AIA SPV AIA Aurora LLC
                                                                                                Countrywide Financial Corporation and
               AIFP Automotive Industry Financing Program                        Countrywide
                                                                                                Countrywide Home Loans, Inc.
                AIG American International Group, Inc.
                                                                                         CPP Capital Purchase Program
          AIG Trust   AIG Credit Facility Trust
                                                                                                CUSIP numbers; from Committee on Uniform
                                                                                      CUSIPs
             ALICO American Life Insurance Company                                              Securities Identification Procedures
        ALICO SPV ALICO Holdings LLC                                                            Department of Education Office of Inspector
                                                                                      DE OIG
                                                                                                General
AllianceBernstein AllianceBernstein Legacy Securities Master Fund, L.P.
                                                                                                Dodd-Frank Wall Street Reform and Consumer
Ally, Ally Financial Ally Financial Inc.                                     Dodd-Frank Act
                                                                                                Protection Act
      Appalachian Appalachian Community Bank
                                                                                          DTI debt-to-income ratio
              ASSP Auto Supplier Support Program
                                                                                        EESA Emergency Economic Stabilization Act of 2008
          Avondale Avondale Investments, LLC
                                                                               Eligible assets securities eligible for purchase by PPIFs
             AWCP Auto Warranty Commitment Program
                                                                                 Fannie Mae Federal National Mortgage Association
 Bank of America Bank of America Corporation
                                                                                           FBI Federal Bureau of Investigation
        BlackRock BlackRock PPIF, L.P.
                                                                                         FDIC Federal Deposit Insurance Corporation
               BNC BNC National Bank
                                                                                                Federal Deposit Insurance Corporation Office of
                                                                                    FDIC OIG
               BOC Bank of Commonwealth                                                         Inspector General
               CAP Capital Assistance Program                               Federal Reserve Federal Reserve System
               CBO Congressional Budget Office                                            FHA Federal Housing Administration
              CDCI Community Development Capital Initiative                          FHA2LP Treasury/FHA Second-Lien Program
               CDFI Community Development Financial Institution                                 Federal Housing Finance Agency Office of
                                                                                    FHFA OIG
              CDOs collateralized debt obligations                                              Inspector General

               CDS Credit Default Swap                                                    Fiat Fiat North America LLC

               CEO chief executive officer                                  First Community
                                                                                            First Community Bank of Hammond, Louisiana
                                                                                      Bank
         Cerberus Cerberus Capital Management, L.P.
                                                                               First Security First Security Group, Inc., Chattanooga, Tennessee
              CFPB Consumer Financial Protection Bureau
                                                                                     FirstCity FirstCity Bank
              CGMI Citigroup Global Markets Inc.
                                                                                    FirstMerit FirstMerit Corporation, Akron, Ohio
          Chrysler Chrysler Holding LLC
                                                                                Florida Bank Florida Bank Group, Inc., Tampa, Florida
Chrysler Financial Chrysler Financial Services Americas LLC
                                                                                                Office of Inspector General-Board of Governors of
                      Council of the Inspectors General on Integrity and             FRB OIG
              CIGIE                                                                             the Federal Reserve System
                      Efficiency
                                                                                      FRBNY Federal Reserve Bank of New York
          Citigroup   Citigroup, Inc.
                                                                                Freddie Mac Federal Home Loan Mortgage Corporation
Citizens Republic Citizens Republic Bancorp, Inc., Flint, Michigan
234        APPENDIX B I ACRONYMS AND ABBREVIATIONS I APRIL 24, 2013




              Galleria Galleria USA, Inc.                                            NRSRO nationally recognized statistical rating organization
                 GAO Government Accountability Office                               Oaktree Oaktree PPIP Fund, L.P.
                  GM General Motors Company                                             OCC Office of the Comptroller of the Currency
               GMAC GMAC Inc.                                                           OFS Office of Financial Stability
         GM Financial General Motors Financial Company, Inc.                           OMB Office of Management and Budget
      God Please Help GPH Investments                                           Option ARM Option Adjustable Rate Mortgage
         Government U.S. Government                                                            Office of the Special Master for TARP Executive
                                                                                        OSM
                                                                                               Compensation
                 GSE Government-sponsored enterprise
                                                                                     Oxford Oxford Collection Agency, Inc.
            GulfSouth GulfSouth Private Bank
                                                                                          PII personally identifiable information
                HAFA Home Affordable Foreclosure Alternatives program
                                                                           Please Help Lord PHL Investments
               HAMP Home Affordable Modification Program
                                                                                        PPIF Public-Private Investment Fund
                  HAT Home Advocate Trustees
                                                                                        PPIP Public-Private Investment Program
                  HFA Housing Finance Agency
                                                                                        PRA Principal Reduction Alternative program
                 HHF Hardest Hit Fund
                                                                               PremierWest PremierWest Bancorp, Medford, Oregon
                HPDP Home Price Decline Protection program
                                                                                        PSA Pooling and Servicing Agreement
                 HUD Department of Housing and Urban Development
                                                                                         QIB Qualified Institutional Buyers
              Invesco Invesco Legacy Securities Master Fund, L.P.
                                                                                               Department of Agriculture’s Office of Rural
                  IPO initial public offering                                            RD
                                                                                               Development
                        Internal Revenue Service Criminal Investigation
               IRS-CI                                                                          Rural Development Home Affordable Modification
                        Division                                                  RD-HAMP
                                                                                               Program
             Jobs Act Jobs Act of 2010
                                                                                    ResCap Residential Capital, LLC
                 JPM J.P. Morgan Securities LLC
                                                                                               RLJ Western Asset Public/Private Master Fund,
                                                                               RLJ Western
               Lazard Lazard Frères & Co. LLC                                                  L.P.
        Legacy Home                                                                     RMA request for mortgage assistance
                     Legacy Home Loans and Real Estate
               Loans
                                                                                      RMBS residential mortgage-backed securities
               LIBOR London Interbank Offered Rate
                                                                                               Railroad Retirement Board Office of Inspector
                                                                                    RRB OIG
                Litton Litton Loan Servicing, LP                                               General
                  LTV   loan-to-value ratio                                  S corporations subchapter S corporations
                 M&T M&T Bank Corporation                                               SBA Small Business Administration
                        Marathon Legacy Securities Public-Private                      SBLF Small Business Lending Fund
            Marathon
                        Investment Partnership, L.P.
                                                                                        SEC Securities and Exchange Commission
                 MBS mortgage-backed securities
                                                                                   Servicers loan servicers
                 MCP mandatorily convertible preferred shares
                                                                          servicing advance receivables for residential mortgage servicing
                 MHA Making Home Affordable program                              receivables advances
                        Neighborhood Reinvestment Corporation and            Shay Financial Shay Financial Services, Inc.
      NeighborWorks
                        NeighborWorks America
                                                                                               Office of the Special Inspector General for the
                                                                                   SIGTARP
            Newmon                                                                             Troubled Asset Relief Program
                      Newmon Properties, LLC
           Properties
                                                                                               Special Inspector General for the Troubled Asset
                                                                               SIGTARP Act
           New Point New Point Financial Services, Inc.                                        Relief Program Act of 2009
         Non-Agency Non-Agency Residential Mortgage-Backed                              SNL SNL Financial, LLC
              RMBS Securities
                                                                                        SPA Servicer Participation Agreement
                 NPV net present value
                                                                                        SPV special purpose vehicle
                                                                         ACRONYMS AND ABBREVIATIONS I APPENDIX B I APRIL 24, 2013   235




            SSFI Systemically Significant Failing Institutions program
        Sterling Sterling Mutual LLC
           TALF Term Asset-Backed Securities Loan Facility
           TARP Troubled Asset Relief Program
           TCW The TCW Group, Inc.
             TIP Targeted Investment Program
           TLGP Temporary Liquidity Guarantee Program
            TPP trial period plan
       Treasury Department of the Treasury
  Treasury/FHA HAMP Loan Modification Option for FHA-insured
         HAMP Mortgages
       Treasury
                Secretary of the Treasury
      Secretary
         TRUPS trust preferred securities
           UAW United Auto Workers
          UCBH UCBH Holdings, Inc.
          UCSB Unlocking Credit for Small Businesses
          USPIS United States Postal Investigation Services
             UP Home Affordable Unemployment Program
             VA Department of Veterans Affairs
                   Wellington Management Legacy Securities PPIF
      Wellington
                   Master Fund, LP
     Wells Fargo   Wells Fargo & Company
Wilmington Trust Wilmington Trust Co.
236           APPENDIX C I REPORTING REQUIREMENTS I APRIL 24, 2013




      REPORTING REQUIREMENTS
      This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
      Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
      data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.


            EESA        EESA Reporting                                                                                                       SIGTARP
       #    Section     Requirement           Treasury Response to SIGTARP Data Call                                                         Report Section
       1    Section     A description of      Treasury’s authority to make new financial commitments under TARP ended on October 3,          Section 2: “TARP
            121(c)(A)   the categories of     2010                                                                                           Overview”
                        troubled assets       Below are program descriptions from Treasury’s www.treasury.gov/initiatives/financial-
                        purchased or                                                                                                         Appendix D:
                                              stability/Pages/default.aspx website, as of 6/30/2012:
                        otherwise procured                                                                                                   “Transaction
                        by the Treasury                                                                                                      Detail”
                        Secretary.


                                              CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize
                                              the financial system by providing capital to viable financial institutions of all sizes
                                              throughout the nation. With a strengthened capital base, financial institutions have an
                                              increased capacity to lend to U.S. businesses and consumers and to support the U.S.
                                              economy.

                                              AIG: In September of 2008, panic in the financial system was deep and widespread.
                                              Amidst these events, on Friday, September 12, American International Group (AIG)
                                              officials informed the Federal Reserve and Treasury that the company was facing
                                              potentially fatal liquidity problems. At the time, AIG was the largest provider of
                                              conventional insurance in the world, with approximately 75 million individual and corporate
                                              customers in over 130 countries.a

                                              AGP: Under the Asset Guarantee Program (AGP), Treasury acted to support the value of
                                              certain assets held by qualifying financial institutions, by agreeing to absorb unexpectedly
                                              large losses on certain assets. The program was designed for financial institutions whose
                                              failure could harm the financial system and was used in conjunction with other forms of
                                              exceptional assistance.

                                              TIP: Under the Targeted Investment Program (TIP), Treasury provided exceptional
                                              assistance on a case-by-case basis in order to stabilize institutions that were considered
                                              systemically significant to prevent broader disruption of financial markets. Treasury
                                              provided this assistance by purchasing preferred stock, and also received warrants to
                                              purchase common stock, in the institutions.

                                              TALF: This joint initiative with the Federal Reserve builds off, broadens and expands the
                                              resources available to support the consumer and business credit markets by providing
                                              the financing to private investors to help unfreeze and lower interest rates for auto,
                                              student loan, small business, credit card and other consumer and business credit. The
                                              U.S. Treasury originally committed $20 billion to provide credit protection for $200 billion
                                              of lending from the Federal Reserve. This commitment was later reduced to $4.3 billion
                                              after the program closed to new lending on June 30, 2010, with $43 billion in loans
                                              outstanding.

                                              PPIP: On March 23, 2009, the U.S. Department of the Treasury (“Treasury”), announced
                                              the Legacy Securities Public-Private Investment Program (“PPIP”) as a key component of
                                              President Obama’s Financial Stability Plan. The Financial Stability Plan outlines a broad
                                              framework to bring capital into the financial system and address the problem of legacy
                                              real estate assets.

                                              CDCI: As part of the Administration’s ongoing commitment to improving access to credit
                                              for small businesses, Treasury announced on February 3 final terms for the Community
                                              Development Capital Initiative (CDCI). This TARP program invested lower-cost capital in
                                              Community Development Financial Institutions (CDFIs) that lend to small businesses in the
                                              country’s hardest-hit communities.
                                                                                          REPORTING REQUIREMENTS I APPENDIX C I APRIL 24, 2013              237




    EESA        EESA Reporting                                                                                                          SIGTARP
#   Section     Requirement             Treasury Response to SIGTARP Data Call                                                          Report Section
                                        SBLF: Enacted into law as part of the Small Business Jobs Act of 2010 (the Jobs Act), the
                                        Small Business Lending Fund (SBLF) is a $30 billion fund that encourages lending to small
                                        businesses by providing capital to qualified community banks with assets of less than $10
                                        billion. Through the Small Business Lending Fund, Main Street banks and small businesses
                                        can work together to help create jobs and promote economic growth in local communities
                                        across the nation.

                                        UCSB: The Treasury Department will begin making direct purchases of securities backed
                                        by SBA loans to get the credit market moving again, and it will stand ready to purchase
                                        new securities to ensure that community banks and credit unions feel confident in
                                        extending new loans to local businesses.

                                        AIFP: The objective of the Automotive Industry Financing Program (AIFP) is to prevent a
                                        significant disruption of the American automotive industry, which would pose a systemic
                                        risk to financial market stability and have a negative effect on the economy of the United
                                        States.

                                        ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                        confidence they need to continue shipping parts, pay their employees and continue their
                                        operations.b

                                        AWCP: The Treasury Department announced an innovative new program to give
                                        consumers who are considering new car purchases the confidence that even while
                                        Chrysler and GM were restructuring in bankruptcy, their warrantees will be honored. This
                                        program is part of the Administration’s broader program to stabilize the auto industry and
                                        stand behind a restructuring effort that will result in stronger, more competitive and viable
                                        American car companies.b

                                        HAMP (a program under MHA): The Home Affordable Modification Program has a
                                        simple goal: reduce the amount homeowners owe per month to sustainable levels to
                                        stabilize communities. This program will bring together lenders, investors, servicers,
                                        borrowers and the Government, so that all stakeholders share in the cost of ensuring that
                                        responsible homeowners can afford their monthly mortgage payments -- helping to reach
                                        up to 3 to 4 million at-risk borrowers in all segments of the mortgage market, reducing
                                        foreclosures, and helping to avoid further downward pressures on overall home prices.

2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on October 3,           Appendix D:
    121(c)(B)   troubled assets         2010.                                                                                           “Transaction
                purchased in each                                                                                                       Detail”
                such category           Information on all transactions as well as additional information about these programs
                described under         and related purchases is available in the transaction reports and monthly 105(a) reports
                Section 121(c)(A).      posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/reports.aspx.
                                        Information regarding all transactions through the end of March 2013 is available at the
                                        aforementioned link in a transaction report dated 3/28/2013.

3   Section     An explanation          Treasury’s authority to make new financial commitments under TARP ended on October 3,           Section 2: “TARP
    121(c)(C)   of the reasons          2010.                                                                                           Overview”
                the Treasury
                Secretary deemed                                                                                                        Appendix C:
                it necessary to                                                                                                         “Reporting
                purchase each such                                                                                                      Requirements”
                troubled asset.                                                                                                         of prior SIGTARP
                                                                                                                                        Quarterly Reports
                                                                                                                                        to Congress

4   Section     A listing of each       See #2.                                                                                         See #2.
    121(c)(D)   financial institution
                from which such
                troubled assets
                were purchased.
238               APPENDIX C I REPORTING REQUIREMENTS I APRIL 24, 2013




              EESA               EESA Reporting                                                                                                                               SIGTARP
      #       Section            Requirement                    Treasury Response to SIGTARP Data Call                                                                        Report Section
      5        Section           A listing of                    There have been no new PPIP fund managers hired between December 31, 2012 and                                Section 2:
               121(c)(E)         and detailed                    March 31, 2013.                                                                                              ”Public-Private
                                 biographical                                                                                                                                 Investment
                                 information on each             On February 7, 2012, the Treasury executed a new Financial Agency Agreement with                             Program“
                                 person or entity                Greenhill & Co. LLC (Greenhill) to provide certain services relating to the management
                                 hired to manage                 and disposition of American International Group, Inc. (AIG) investments acquired                             Appendix C:
                                 such troubled                   pursuant to the Emergency Economic Stability Act of 2008 (EESA). Greenhill is a global                       “Reporting
                                 assets.                         financial services firm providing investment banking, advice on mergers, acquisitions,                       Requirements”
                                                                 restructurings, financings and capital raisings to corporations, partnerships, institutions                  of prior SIGTARP
                                                                 and governments.                                                                                             Quarterly Reports
                                                                                                                                                                              to Congress

      6        Section           A current estimate              The transaction reports capture detailed information about troubled asset purchases,                         Table C.1;
               121(c)(F)         of the total amount             price paid, and the amount of troubled assets currently on Treasury’s books. The latest                      Section 2:
                                 of troubled assets              transaction reports are available on Treasury’s website at www.treasury.gov/initiatives/                     “TARP Overview”
                                 purchased pursuant              financial-stability/reports/Pages/TARP-Investment-Program-Transaction-Reports.aspx.
                                 to any program                  Information regarding all transactions through the end of March 2013 is available at the                     Appendix D:
                                 established under               aforementioned link in a transaction report dated 3/28/2013.                                                 “Transaction
                                 Section 101, the                                                                                                                             Detail”
                                 amount of troubled              Treasury published its most recent valuation of TARP investments as of March 31, 2013,
                                 assets on the                   on 4/10/2013, in its March 2013 105(a) report that is available at the following link: www.
                                 books of Treasury,              treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-Congress.aspx
                                 the amount of
                                 troubled assets                 Information on the repayments of Treasury’s investments under the CPP and proceeds from
                                 sold, and the profit            the sale of warrants are available within Treasury’s press releases, transaction reports and
                                 and loss incurred               Section 105(a) Monthly Congressional Reports at the following links: www.treasury.gov/
                                 on each sale or                 initiatives/financial-stability/reports/Pages/TARP-Investment-Program-Transaction-Reports.
                                 disposition of each             aspx www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-
                                 such troubled                   Congress.aspx
                                 assets.

      7        Section           A listing of the                Treasury’s authority to make new financial commitments under TARP ended on October 3,                        Section 2:
               121(c)(G)         insurance contracts             2010. As such, Treasury cannot issue any new insurance contracts after this date.                            “TARP Overview”
                                 issued under
                                 Section 102.                                                                                                                                 Section 2:
                                                                                                                                                                              “Targeted
                                                                                                                                                                              Investment
                                                                                                                                                                              Program and
                                                                                                                                                                              Asset Guarantee
                                                                                                                                                                              Program”

      8        Section           A detailed statement            Treasury’s authority to make new financial commitments under TARP ended on October 3,                        Table C.1;
               121(f)            of all purchases,               2010.
                                 obligations,                                                                                                                                 Section 2:
                                 expenditures, and               Treasury provides information about TARP obligations, expenditures and revenues in                           “TARP Overview”
                                 revenues associated             separate transaction reports available on Treasury’s public website at www.treasury.gov/
                                 with any program                initiatives/financial-stability/reports/Pages/TARP-Investment-Program-Transaction-Reports.                   Section 4:
                                 established by the              aspx. Information regarding all transactions through the end of March 2013 is available at                   “TARP Operations
                                 Secretary of the                the aforementioned link in a transaction report dated 3/28/2013.                                             and Administration”
                                 Treasury under
                                 Sections 101 and                Information on obligations and expenditures is also available in the Daily TARP Update                       Appendix D:
                                 102.                            reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-                   “Transaction
                                                                 stability/reports/Pages/Daily-TARP-Reports.aspx, accessed 4/3/2013.                                          Detail””
      Notes:
      a
        Otherwise known as Systemically Significant Failing Institutions (“SSFI”).
      b
        Description is as of 3/31/2011.

      Sources: Program Descriptions: Treasury, “TARP Programs,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/Pages/default.aspx#, accessed 4/3/2013; ASSP: “Treasury Announces Auto
      Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 4/3/2013; AWCP: “Obama Administration’s New Warrantee Commitment Program,”
      no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 4/3/2013; TALF: Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF) Frequently Asked
      Questions,” no date, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 4/3/2013; SBLF: Small Business Lending Act, P.L. 111-240, 9/27/2010; MHA “Making
      Home Affordable Updated Detailed Description Update,” 11/23/2012, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Pages/default.aspx, accessed 4/3/2013.
                                                                                                                            REPORTING REQUIREMENTS I APPENDIX C I APRIL 24, 2013                                  239




TABLE C.1

 TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS                                                                                 ($ BILLIONS)
 (NUMBERS IN PARENTHESES REPRESENT REPAYMENTS AND REDUCTIONS IN EXPOSURE)

                                                                                                              Obligations
                                                                                                              After Dodd-                    Current
                                                                                                                    Frank                 Obligations
                                                                                                                    (As of                     (As of                                       On Treasury’s
                                                                                Total Funding                10/3/2010)                  3/31/2013)                      Expended                 Booksa

 Housing Support Programs                                                                 $70.6b                       $45.6                        $38.5                         $7.3                     $—


                                                                                           204.9
 Capital Purchase Program (“CPP”)                                                                                      204.9                        204.9                       204.9                      9.5
                                                                                         (195.4)c


 Community Development Capital Initiative (“CDCI”)                                             0.6                         0.6                        0.6d                          0.2                    0.5


                                                                                             69.8
 Systemically Significant Failing Institutions (“SSFI”)                                                                  69.8                        67.8f                        67.8                   13.5
                                                                                          (56.4)e

                                                                                             40.0
 Targeted Investment Program (“TIP”)                                                                                     40.0                         40.0                        40.0                     0.0
                                                                                           (40.0)

                                                                                           301.0
 Asset Guarantee Program (“AGP”)                                                                                           5.0                         5.0                          0.0                    0.0
                                                                                          (301.0)

                                                                                             71.1
 Term Asset-Backed Securities Loan Facility (“TALF”)                                                                       4.3                         0.1                          0.1                    0.0
                                                                                             (0.1)

                                                                                            29.8g
 Public-Private Investment Program (“PPIP”)                                                                              22.4                         19.6                        18.6                     0.7
                                                                                           (18.0)

                                                                                              0.4h
 Unlocking Credit for Small Businesses (“UCSB”)                                                                            0.4                         0.4                          0.4                    0.0
                                                                                             (0.4)

                                                                                             81.8j
 Automotive Industry Support Programs (“AIFP”)i                                                                          81.8                         79.7                        79.7                   37.8
                                                                                           (44.1)


 Total                                                                                   $868.9                      $474.8                      $456.6                      $419.0                    $61.9

 Notes: Numbers may not total due to rounding.
 a
   “On Treasury’s Books” calculated as the amount of TARP funds remaining outstanding, including losses and write-offs.
 b
     Program was initially announced as a $75 billion initiative funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including the $25 billion
      estimated to be spent by the GSE’s, the total program amount is $70.6 billion.
 c
   Includes $363.3 million in non-cash conversions from CPP to CDCI. Includes $2.2 billion for CPP banks that exited TARP through SBLF.
 d
    CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash
    was expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers.
 e
   The $56.4 billion in reduced exposure and repayments for SSFI includes the cancellation of the series G capital facility. Does not include AIG investment proceeds from the sale of AIG stock that Treasury
   received from the AIG credit facility trust in the January 2011 recapitalization.
 f
   Treasury deobligated $2 billion in equity facility for AIG that was never drawn down.
 g
      PPIP funding includes $7.4 billion of private sector equity capital. Includes $0.4 billion of initial obligations to The TCW Group, Inc., which has been repaid.
 h
   Treasury reduced commitment from $15 billion to an obligation of $400 million.
 i
      Includes amounts for AIFP, ASSP, and AWCP.
 j
      Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.

 Sources: Repayments data: Treasury, Transactions Report, 3/28/2013; Treasury, Daily TARP Update, 4/1/2013.
TRANSACTION DETAIL
TABLE D.1                                                                                                                                                                                                                                                                         240

CPP TRANSACTION DETAIL, AS OF 3/31/2013
                                                                                                                                 Capital                                           Final                                                           Current
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
12/23/2008   1st Constitution Bancorp, Cranbury, NJ                  Preferred Stock w/ Warrants                   $12,000,000   10/27/2010        $12,000,000              $—     11/18/2011      P             $326,576             $8.67                        $1,106,667
2/13/2009    1st Enterprise Bank, Los Angeles, CA2,49                Preferred Stock w/ Exercised Warrants          $4,400,000   9/1/2011            $4,400,000             $—     9/1/2011        R             $220,000            $16.65                        $1,128,156
12/11/2009   1st Enterprise Bank, Los Angeles, CA2,10a,49            Preferred Stock                                $6,000,000   9/1/2011            $6,000,000             $—     N/A                                 N/A
11/14/2008   1st FS Corporation, Hendersonville, NC                  Preferred Stock w/ Warrants                   $16,369,000                                                                                                                                     $1,229,949
1/23/2009    1st Source Corporation, South Bend, IN                  Preferred Stock w/ Warrants                 $111,000,000    12/29/2010       $111,000,000              $—     3/9/2011        R           $3,750,000            $23.70                       $10,730,000
3/13/2009    1st United Bancorp, Inc., Boca Raton, FL2               Preferred Stock w/ Exercised Warrants         $10,000,000   11/18/2009        $10,000,000              $—     11/18/2009      R             $500,000             $6.46                          $370,903
1/23/2009    AB&T Financial Corporation, Gastonia, NC                Preferred Stock w/ Warrants                    $3,500,000                                                                                                        $0.72                          $360,694
1/30/2009    Adbanc, Inc, Ogallala, NE2,49                           Preferred Stock w/ Exercised Warrants         $12,720,000   7/21/2011         $12,720,000              $—     7/21/2011       R             $636,000                                          $1,715,769
1/23/2009    Alarion Financial Services, Inc., Ocala, FL2            Preferred Stock w/ Exercised Warrants          $6,514,000                                                                                                                                       $998,057
2/6/2009     Alaska Pacific Bancshares, Inc., Juneau, AK161          Preferred Stock w/ Warrants                    $4,781,000   11/29/2012          $4,217,568             $—                                                       $10.52                          $913,405
6/26/2009    Alliance Bancshares, Inc., Dalton, GA2,230              Preferred Stock w/ Exercised Warrants          $2,986,000   3/28/2013           $2,831,437             $—     3/28/2013       P             $138,900                                            $611,060
12/19/2008   Alliance Financial Corporation, Syracuse, NY            Preferred Stock w/ Warrants                   $26,918,000   5/13/2009         $26,918,000              $—     6/17/2009       R             $900,000                                            $538,360
                                                                     Subordinated Debentures w/ Exercised
6/26/2009    Alliance Financial Services Inc., Saint Paul, MN8,195                                                 $12,000,000   2/7/2013            $8,912,495             $—     2/7/2013        P             $504,900            $22.15                          $388,742
                                                                     Warrants
                                                      2
4/24/2009    Allied First Bancorp, Inc., Oswego, IL                  Preferred Stock w/ Exercised Warrants          $3,652,000                                                                                                        $1.25                          $409,753
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




             Alpine Banks of Colorado,
3/27/2009                                                            Preferred Stock w/ Exercised Warrants         $70,000,000   9/12/2012         $56,430,297              $—     9/12/2012       P           $3,291,750                                         $13,407,114
             Glenwood Springs, CO2,128
1/30/2009    AMB Financial Corp., Munster, IN2,50                    Preferred Stock w/ Exercised Warrants          $3,674,000   9/22/2011           $3,674,000             $—     9/22/2011       R             $184,000             $6.45                          $529,576
3/6/2009     AmeriBank Holding Company, Collinsville, OK2,49         Preferred Stock w/ Exercised Warrants          $2,492,000   9/15/2011           $2,492,000             $—     9/15/2011       R             $125,000                                            $343,021
1/9/2009     American Express Company, New York, NY                  Preferred Stock w/ Warrants                $3,388,890,000   6/17/2009       $3,388,890,000             $—     7/29/2009       R        $340,000,000             $67.46                       $74,367,308
5/29/2009    American Premier Bancorp, Arcadia, CA2                  Preferred Stock w/ Exercised Warrants          $1,800,000   1/26/2011           $1,800,000             $—     1/26/2011       R              $90,000                                            $162,682
1/9/2009     American State Bancshares, Inc., Great Bend, KS2        Preferred Stock w/ Exercised Warrants          $6,000,000   11/2/2011           $6,000,000             $—     11/2/2011       R             $300,000                                            $920,142
11/21/2008   Ameris Bancorp, Moultrie, GA85                          Preferred Stock w/ Warrants                   $52,000,000   6/13/2012         $47,665,332              $—     8/22/2012       R           $2,670,000            $14.35                        $9,302,107
12/19/2008   AmeriServ Financial, Inc, Johnstown, PA50               Preferred Stock w/ Warrants                   $21,000,000   8/11/2011         $21,000,000              $—     11/2/2011       R             $825,000             $3.13                        $2,776,667
                                                                     Subordinated Debentures w/ Exercised
8/21/2009    AmFirst Financial Services, Inc., McCook, NE8,231                                                      $5,000,000   3/28/2013           $4,752,000             $—     3/28/2013       P             $259,875                                          $1,511,380
                                                                     Warrants
1/30/2009    Anchor BanCorp Wisconsin Inc., Madison, WI              Preferred Stock w/ Warrants                 $110,000,000                                                                                                         $0.67     7,399,103
                                                                                                                                 4/18/2012           $4,076,000      $4,076,000
1/30/2009    Annapolis Bancorp, Inc., Annapolis, MD                  Preferred Stock w/ Warrants                    $8,152,000                                                                                                       $13.65       299,706          $1,491,136
                                                                                                                                 3/6/2013            $4,076,000             $—
                                                                                                                                 4/6/2011         $262,500,000     $262,500,000
11/21/2008   Associated Banc-Corp, Green Bay, WI                     Preferred Stock w/ Warrants                 $525,000,000                                                      11/30/2011      A           $3,435,006            $15.19                       $68,104,167
                                                                                                                                 9/14/2011        $262,500,000              $—
                                                          2,10
12/29/2009   Atlantic Bancshares, Inc., Bluffton, SC                 Preferred Stock w/ Exercised Warrants          $2,000,000                                                                                                        $0.56                          $122,725
2/27/2009    Avenue Financial Holdings, Inc., Nashville, TN2,49      Preferred Stock w/ Exercised Warrants          $7,400,000   9/15/2011           $7,400,000             $—     9/15/2011       R             $370,000                                          $1,028,415
3/13/2009    BancIndependent, Inc., Sheffield, AL2,49                Preferred Stock w/ Exercised Warrants         $21,100,000   7/14/2011         $21,100,000              $—     7/14/2011       R           $1,055,000                                          $2,686,411
7/10/2009    Bancorp Financial, Inc., Oak Brook, IL2,10,49           Preferred Stock w/ Exercised Warrants         $13,669,000   8/18/2011         $13,669,000              $—     8/18/2011       R             $410,000                                          $1,516,737
12/19/2008   Bancorp Rhode Island, Inc., Providence, RI              Preferred Stock w/ Warrants                   $30,000,000   8/5/2009          $30,000,000              $—     9/30/2009       R           $1,400,000                                            $941,667
2/20/2009    BancPlus Corporation, Ridgeland, MS2,30                 Preferred Stock w/ Exercised Warrants         $48,000,000   9/29/2010         $48,000,000              $—     9/29/2010       R           $2,400,000                                          $4,207,399
4/3/2009     BancStar, Inc., Festus, MO2                             Preferred Stock w/ Exercised Warrants          $8,600,000                                                                                                                                     $1,812,307
12/19/2008   BancTrust Financial Group, Inc., Mobile, AL206          Preferred Stock w/ Warrants                   $50,000,000   2/15/2013         $50,000,000              $—     2/15/2013       R              $15,000            $25.01       730,994         $10,436,156
8/14/2009    Bank Financial Services, Inc., Eden Prairie, MN2,187    Preferred Stock w/ Exercised Warrants          $1,004,000   12/20/2012           $907,937              $—     12/20/2012      P              $23,500                                            $183,244
10/28/2008   Bank of America Corporation, Charlotte, NC1b            Preferred Stock w/ Warrants               $15,000,000,000   12/9/2009      $15,000,000,000             $—     3/3/2010                 $183,547,824                                        $835,416,667
                                                                                                                                                                                                   A                                 $12.18
1/9/2009     Bank of America Corporation, Charlotte, NC1a,1b         Preferred Stock w/ Warrants               $10,000,000,000   12/9/2009      $10,000,000,000             $—     3/3/2010                 $122,365,216                                        $458,333,333
1/16/2009    Bank of Commerce, Charlotte, NC2,162                    Preferred Stock w/ Exercised Warrants          $3,000,000   11/30/2012          $2,477,000             $—     11/30/2012      P             $100,100                                            $510,473
11/14/2008   Bank of Commerce Holdings, Redding, CA49                Preferred Stock w/ Warrants                   $17,000,000   9/27/2011         $17,000,000              $—     10/26/2011      R             $125,000             $3.00                        $2,439,028
3/13/2009    Bank of George, Las Vegas, NV2                          Preferred Stock w/ Exercised Warrants          $2,672,000                                                                                                                                       $279,991
12/5/2008    Bank of Marin Bancorp, Novato, CA                       Preferred Stock w/ Warrants                   $28,000,000   3/31/2009         $28,000,000              $—     11/18/2011      P           $1,703,984            $40.09                          $451,111
4/10/2009    Bank of Southern California, N.A.2,188                  Preferred Stock w/ Exercised Warrants          $2,211,000   12/20/2012          $2,017,453             $—     12/20/2012      P              $90,462
                                                                                                                                                                                                                                      $5.65                          $752,663
12/11/2009   Bank of Southern California, N.A.2,10a,188              Preferred Stock                                $2,032,000   12/20/2012          $1,832,697             $—     N/A                                 N/A
4/17/2009    Bank of the Carolinas Corporation, Mocksville, NC       Preferred Stock w/ Warrants                   $13,179,000                                                                                                        $0.61       475,204          $1,039,677
                                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)
                                                                                                                                    Capital                                           Final                                                           Current
Purchase                                                                                                                            Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                                Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
12/12/2008   Bank of the Ozarks, Inc., Little Rock, AR                  Preferred Stock w/ Warrants                   $75,000,000   11/4/2009         $75,000,000              $—     11/24/2009      R           $2,650,000            $44.35                        $3,354,167
             Bankers’ Bank of the West Bancorp, Inc.,
1/30/2009                                                               Preferred Stock w/ Exercised Warrants         $12,639,000                                                                                                                                     $2,909,236
             Denver, CO2
1/23/2009    BankFirst Capital Corporation, Macon, MS2,49               Preferred Stock w/ Exercised Warrants         $15,500,000   9/8/2011          $15,500,000              $—     9/8/2011        R             $775,000                                          $2,217,469
2/13/2009    BankGreenville, Greenville, SC2,147                        Preferred Stock w/ Exercised Warrants          $1,000,000   11/9/2012            $891,000              $—     11/9/2012       P              $46,412                                            $203,773
11/21/2008   Banner Corporation, Walla Walla, WA74                      Preferred Stock w/ Warrants                 $124,000,000    3/28/2012        $108,071,915              $—                                                       $31.83       243,998         $20,873,747
2/6/2009     Banner County Ban Corporation, Harrisburg, NE2,49          Preferred Stock w/ Exercised Warrants           $795,000    7/28/2011            $795,000              $—     7/28/2011       R              $40,000                                            $107,411
1/16/2009    Bar Harbor Bankshares, Bar Harbor, ME                      Preferred Stock w/ Warrants                   $18,751,000   2/24/2010         $18,751,000              $—     7/28/2010       R             $250,000            $36.55                        $1,036,514
11/14/2008   BB&T Corp., Winston-Salem, NC                              Preferred Stock w/ Warrants                $3,133,640,000   6/17/2009       $3,133,640,000             $—     7/22/2009       R          $67,010,402            $31.39                       $92,703,517
             BBCN Bancorp, Inc. (Center Financial Corporation),
12/12/2008                                                              Preferred Stock w/ Warrants                   $55,000,000   6/27/2012         $55,000,000              $—                                                                                     $9,739,583
             Los Angeles, CA66
                                                                                                                                                                                      8/8/2012        R           $2,189,317            $13.06       337,480
             BBCN Bancorp, Inc. (Nara Bancorp, Inc.),
11/21/2008                                                              Preferred Stock w/ Warrants                   $67,000,000   6/27/2012         $67,000,000              $—                                                                                    $12,060,000
             Los Angeles, CA66
4/3/2009     BCB Holding Company, Inc., Theodore, AL2                   Preferred Stock w/ Exercised Warrants          $1,706,000                                                                                                                                       $173,508
12/23/2008   BCSB Bancorp, Inc., Baltimore, MD                          Preferred Stock w/ Warrants                   $10,800,000   1/26/2011         $10,800,000              $—                                                       $17.25       183,465          $1,129,500
                                                                                                                                    7/6/2011            $1,500,000      $4,500,000
                                                                                                                                    10/19/2011          $1,500,000      $3,000,000
1/30/2009    Beach Business Bank, Manhattan Beach, CA2                  Preferred Stock w/ Exercised Warrants          $6,000,000   3/7/2012            $1,500,000      $1,500,000    6/27/2012       R             $300,000            $11.40                          $963,317
                                                                                                                                    6/6/2012            $1,200,000        $300,000
                                                                                                                                    6/27/2012            $300,000              $—
12/19/2008   Berkshire Hills Bancorp, Inc., Pittsfield, MA              Preferred Stock w/ Warrants                   $40,000,000   5/27/2009         $40,000,000              $—     6/24/2009       R           $1,040,000            $25.54                          $877,778
2/13/2009    Bern Bancshares, Inc., Bern, KS2,49                        Preferred Stock w/ Exercised Warrants           $985,000    9/1/2011             $985,000              $—     9/1/2011        R              $50,000             $8.35                          $137,063
             Birmingham Bloomfield Bancshares, Inc,
4/24/2009                                                               Preferred Stock w/ Exercised Warrants          $1,635,000   7/28/2011           $1,635,000             $—     7/28/2011       R              $82,000
             Birmingham, MI2,49
                                                                                                                                                                                                                                         $4.95                          $342,023
             Birmingham Bloomfield Bancshares, Inc,
12/18/2009                                                              Preferred Stock                                $1,744,000   7/28/2011           $1,744,000             $—     N/A                                 N/A
             Birmingham, MI2,10a,49,196
             Biscayne Bancshares, Inc.,                                 Subordinated Debentures
6/19/2009                                                                                                              $6,400,000   2/8/2013            $6,170,630             $—     2/8/2013        P             $204,507                                          $1,896,838
             Coconut Grove, FL8,10,196                                  w/ Exercised Warrants
3/13/2009    Blackhawk Bancorp, Inc., Beloit, WI2,136                   Preferred Stock w/ Exercised Warrants         $10,000,000   10/31/2012          $9,009,000             $—     10/31/2012      R             $470,250             $8.25                        $1,980,211
                                                                                                                                    6/27/2012           $2,250,000      $2,750,000
                                                   2
5/22/2009    Blackridge Financial, Inc., Fargo, ND                      Preferred Stock w/ Exercised Warrants          $5,000,000                                                     9/12/2012       R             $250,000                                            $877,326
                                                                                                                                    9/12/2012           $2,750,000             $—
                                                                2,134
3/6/2009     Blue Ridge Bancshares, Inc., Independence, MO              Preferred Stock w/ Exercised Warrants         $12,000,000   10/31/2012          $8,969,400             $—     10/31/2012      R             $541,793                                          $2,427,244
3/6/2009     Blue River Bancshares, Inc., Shelbyville, IN2,71           Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                        $0.02                          $529,105
12/5/2008    Blue Valley Ban Corp, Overland Park, KS                    Preferred Stock w/ Warrants                   $21,750,000                                                                                                        $8.00       111,083            $211,458
4/17/2009    BNB Financial Services Corporation, New York, NY2          Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                       $440,542
12/5/2008    BNC Bancorp, Thomasville, NC120                            Preferred Stock w/ Warrants                   $31,260,000   8/23/2012         $28,365,685              $—     9/19/2012       R             $939,920            $10.02                        $5,835,061
2/27/2009    BNC Financial Group, Inc., New Canaan, CT2,49              Preferred Stock w/ Exercised Warrants          $4,797,000   8/4/2011            $4,797,000             $—     8/4/2011        R             $240,000            $22.00                          $636,921
1/16/2009    BNCCORP, Inc., Bismarck, ND2                               Preferred Stock w/ Exercised Warrants         $20,093,000                                                                                                       $10.90                        $4,768,234
3/6/2009     BOH Holdings, Inc., Houston, TX2,49                        Preferred Stock w/ Exercised Warrants         $10,000,000   7/14/2011         $10,000,000              $—     7/14/2011       R             $500,000                                          $1,283,777
                                                                        Subordinated Debentures
5/15/2009    Boscobel Bancorp, Inc, Boscobel, WI8,216                                                                  $5,586,000   3/11/2013           $6,116,943             $—     3/11/2013       P             $361,890                                            $468,624
                                                                        w/ Exercised Warrants
                                                                                                                                    1/13/2010         $50,000,000     $104,000,000
11/21/2008   Boston Private Financial Holdings, Inc., Boston, MA        Preferred Stock w/ Warrants                 $154,000,000                                                      2/1/2011        A           $6,202,523             $9.88                       $11,022,222
                                                                                                                                    6/16/2010        $104,000,000              $—
                                                                                                                                    2/23/2011         $15,000,000       $8,864,000
12/23/2008   Bridge Capital Holdings, San Jose, CA                      Preferred Stock w/ Warrants                   $23,864,000                                                     4/20/2011       R           $1,395,000            $15.24                        $2,613,582
                                                                                                                                    3/16/2011           $8,864,000             $—
12/19/2008   Bridgeview Bancorp, Inc., Bridgeview, IL2                  Preferred Stock w/ Exercised Warrants         $38,000,000                                                                                                                                     $2,393,156
             Broadway Financial Corporation,
11/14/2008                                                              Preferred Stock                                $9,000,000
             Los Angeles, CA3a,72
                                                                                                                                                                                                                                         $0.83                          $810,417
                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




             Broadway Financial Corporation,
12/4/2009                                                               Preferred Stock                                $6,000,000
             Los Angeles, CA3,10a,72
                                                                        Subordinated Debentures
5/15/2009    Brogan Bankshares, Inc., Kaukauna, WI8                                                                    $2,400,000                                                                                                                                       $402,720
                                                                        w/ Exercised Warrants
                                                                 2,49
7/17/2009    Brotherhood Bancshares, Inc., Kansas City, KS              Preferred Stock w/ Exercised Warrants         $11,000,000   9/15/2011         $11,000,000              $—     9/15/2011       R             $550,000                                          $1,295,586
                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                     241
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)                                                                                                                                                                                                                                 242
                                                                                                                                   Capital                                           Final                                                           Current
Purchase                                                                                                                           Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                               Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
                                                                                                                                   5/23/2012           $6,000,000      $9,000,000
4/24/2009    Business Bancshares, Inc., Clayton, MO2                   Preferred Stock w/ Exercised Warrants         $15,000,000                                                                                                                                     $2,882,480
                                                                                                                                   1/9/2013            $2,500,000      $6,500,000
3/13/2009    Butler Point, Inc., Catlin, IL2                           Preferred Stock w/ Exercised Warrants           $607,000    11/2/2011            $607,000              $—     11/2/2011       R              $30,000                                             $87,124
                                                                                                                                   7/27/2011         $10,000,000      $10,000,000
1/9/2009     C&F Financial Corporation, West Point, VA                 Preferred Stock w/ Warrants                   $20,000,000                                                                                                       $40.95       167,504          $2,902,778
                                                                                                                                   4/11/2012         $10,000,000              $—
                                                           2,49
12/23/2008   Cache Valley Banking Company , Logan, UT                  Preferred Stock w/ Exercised Warrants          $4,767,000   7/14/2011           $4,767,000             $—     7/14/2011       R             $238,000
                                                                                                                                                                                                                                                                     $1,029,334
12/18/2009   Cache Valley Banking Company, Logan, UT2,10a,49           Preferred Stock                                $4,640,000   7/14/2011           $4,640,000             $—     N/A                                 N/A
                                                             33
1/9/2009     Cadence Financial Corporation, Starkville, MS             Preferred Stock w/ Warrants                   $44,000,000   3/4/2011          $38,000,000              $—     N/A                                 N/A                                         $3,984,063
2/27/2009    California Bank of Commerce, Lafayette, CA2,49            Preferred Stock w/ Exercised Warrants          $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $200,000                                            $555,900
1/23/2009    California Oaks State Bank, Thousand Oaks, CA2            Preferred Stock w/ Exercised Warrants          $3,300,000   12/8/2010           $3,300,000             $—     12/8/2010       R             $165,000                                            $337,219
1/23/2009    Calvert Financial Corporation, Ashland, MO2               Preferred Stock w/ Exercised Warrants          $1,037,000                                                                                                                                       $215,443
1/23/2009    CalWest Bancorp, Rancho Santa Margarita, CA2              Preferred Stock w/ Exercised Warrants          $4,656,000                                                                                                        $0.45                          $396,164
12/23/2008   Capital Bancorp, Inc., Rockville, MD2                     Preferred Stock w/ Exercised Warrants          $4,700,000   12/30/2010          $4,700,000             $—     12/30/2010      R             $235,000                                            $517,281
12/12/2008   Capital Bank Corporation, Raleigh, NC35                   Preferred Stock w/ Warrants                   $41,279,000   1/28/2011         $41,279,000              $—     N/A                                 N/A           $17.13       749,619          $3,973,104
4/10/2009    Capital Commerce Bancorp, Inc., Milwaukee, WI2            Preferred Stock w/ Exercised Warrants          $5,100,000                                                                                                                                       $304,973
11/14/2008   Capital One Financial Corporation, McLean, VA             Preferred Stock w/ Warrants                $3,555,199,000   6/17/2009       $3,555,199,000             $—     12/3/2009       A        $146,500,065             $54.95                     $105,174,638
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




12/23/2008   Capital Pacific Bancorp, Portland, OR2,148                Preferred Stock w/ Exercised Warrants          $4,000,000   11/9/2012           $3,715,906             $—     11/9/2012       P             $192,102                                            $845,369
                                                                       Subordinated Debentures
10/23/2009   Cardinal Bancorp II, Inc., Washington, MO8,50                                                            $6,251,000   9/8/2011            $6,251,000             $—     9/8/2011        R             $313,000                                            $983,480
                                                                       w/ Exercised Warrants
                                                             209
1/9/2009     Carolina Bank Holdings, Inc., Greensboro, NC              Preferred Stock w/ Warrants                   $16,000,000   2/20/2013         $14,811,984              $—                                                       $11.58       357,675          $3,329,805
2/6/2009     Carolina Trust Bank, Lincolnton, NC163                    Preferred Stock w/ Warrants                    $4,000,000   11/30/2012          $3,362,000             $—                                                        $3.10        86,957            $613,320
2/13/2009    Carrollton Bancorp, Baltimore, MD                         Preferred Stock w/ Warrants                    $9,201,000                                                                                                        $5.54       205,379            $922,656
1/16/2009    Carver Bancorp, Inc, New York, NY3,30                     Preferred Stock                               $18,980,000   8/27/2010         $18,980,000              $—     N/A                                 N/A            $4.60                        $1,531,581
11/21/2008   Cascade Financial Corporation, Everett, WA47              Preferred Stock w/ Warrants                   $38,970,000   6/30/2011         $16,250,000              $—     N/A                                 N/A                                         $1,428,900
12/5/2008    Cathay General Bancorp, Los Angeles, CA                   Preferred Stock w/ Warrants                 $258,000,000    3/20/2013        $129,000,000     $129,000,000                                                      $20.12     1,846,374         $54,735,417
2/27/2009    Catskill Hudson Bancorp, Inc, Rock Hill, NY2,49           Preferred Stock w/ Exercised Warrants          $3,000,000   7/21/2011           $3,000,000             $—     7/21/2011       R             $150,000
                                                                                                                                                                                                                                                                       $685,071
12/22/2009   Catskill Hudson Bancorp, Inc, Rock Hill, NY2,10a,49       Preferred Stock w/ Exercised Warrants          $3,500,000   7/21/2011           $3,500,000             $—     7/21/2011       R             $113,000
5/29/2009    CB Holding Corp., Aledo, IL2,63                           Preferred Stock w/ Exercised Warrants          $4,114,000                                                                                                                                       $271,580
2/20/2009    CBB Bancorp, Cartersville, GA2,164                        Preferred Stock w/ Exercised Warrants          $2,644,000   11/29/2012          $2,453,094             $—     11/29/2012                    $115,861
                                                                                                                                                                                                     P                                                                 $799,528
12/29/2009   CBB Bancorp, Cartersville, GA2,10a,164                    Preferred Stock                                $1,753,000   11/29/2012          $1,613,658             $—     N/A                                 N/A
                                               2,108
3/27/2009    CBS Banc-Corp., Russellville, AL                          Preferred Stock w/ Exercised Warrants         $24,300,000   7/27/2012         $21,776,396              $—     7/27/2012       P           $1,107,825                         523,076          $4,548,137
12/23/2008   Cecil Bancorp, Inc., Elkton, MD                           Preferred Stock w/ Warrants                   $11,560,000                                                                                                        $0.33       261,538            $516,989
2/6/2009     CedarStone Bank, Lebanon, TN2                             Preferred Stock w/ Exercised Warrants          $3,564,000                                                                                                                                       $781,736
1/9/2009     Center Bancorp, Inc., Union, NJ49                         Preferred Stock w/ Warrants                   $10,000,000   9/15/2011         $10,000,000              $—     12/7/2011       R             $245,000            $12.43                        $1,341,667
5/1/2009     CenterBank, Milford, OH2,138                              Preferred Stock w/ Exercised Warrants          $2,250,000   10/31/2012          $1,831,250             $—     10/31/2012      R              $84,057                                            $429,355
11/21/2008   Centerstate Banks of Florida Inc., Davenport, FL          Preferred Stock w/ Warrants                   $27,875,000   9/30/2009         $27,875,000              $—     10/28/2009      R             $212,000                                          $1,196,303
1/16/2009    Centra Financial Holdings, Inc., Morgantown, WV2          Preferred Stock w/ Exercised Warrants         $15,000,000   3/31/2009         $15,000,000              $—     4/15/2009       R             $750,000             $8.58                          $172,938
12/5/2008    Central Bancorp, Inc., Garland, TX50                      Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     10/19/2011      R           $2,525,000            $32.99                        $2,411,625
2/27/2009    Central Bancorp, Inc., Somerville, MA2                    Preferred Stock w/ Exercised Warrants         $22,500,000                                                                                                                                     $1,361,111
1/30/2009    Central Bancshares, Inc., Houston, TX2                    Preferred Stock w/ Exercised Warrants          $5,800,000   7/6/2011            $5,800,000             $—     7/6/2011        R             $290,000                                            $769,177
2/20/2009    Central Community Corporation, Temple, TX2,180            Preferred Stock w/ Exercised Warrants         $22,000,000   12/11/2012        $20,172,636              $—     12/11/2012      P           $1,058,726                                          $4,566,167
12/5/2008    Central Federal Corporation, Fairlawn, OH130              Preferred Stock w/ Warrants                    $7,225,000   9/26/2012           $3,000,000             $—     N/A                                 N/A                                           $612,118
12/23/2008   Central Jersey Bancorp, Oakhurst, NJ                      Preferred Stock w/ Warrants                   $11,300,000   11/24/2010        $11,300,000              $—     12/1/2010       R             $319,659             $1.50                        $1,084,486
                                                                                                                                   6/17/2011         $35,883,281      $99,116,719
1/9/2009     Central Pacific Financial Corp., Honolulu, HI37,46        Common Stock w/ Warrants                    $135,000,000                                                                                                        $15.70        79,288          $2,362,500
                                                                                                                                   3/29/2012         $36,039,222              $—
                                                                  50
1/30/2009    Central Valley Community Bancorp, Fresno, CA              Preferred Stock w/ Warrants                    $7,000,000   8/18/2011           $7,000,000             $—     9/28/2011       R             $185,017             $8.63                          $892,500
1/30/2009    Central Virginia Bankshares, Inc., Powhatan, VA           Preferred Stock w/ Warrants                   $11,385,000                                                                                                        $1.05       263,542            $450,656
12/18/2009   Centric Financial Corporation, Harrisburg, PA2,10,49      Preferred Stock w/ Exercised Warrants          $6,056,000   7/14/2011           $6,056,000             $—     7/14/2011       R             $182,000                                            $501,822
2/6/2009     Centrix Bank & Trust, Bedford, NH2,49                     Preferred Stock w/ Exercised Warrants          $7,500,000   7/28/2011           $7,500,000             $—     7/28/2011       R             $375,000            $24.50                        $1,012,791
1/9/2009     Centrue Financial Corporation, St. Louis, MO              Preferred Stock w/ Warrants                   $32,668,000                                                                                                                    508,320            $571,690
                                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)
                                                                                                                                  Capital                                           Final                                                           Current
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                              Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
             Century Financial Services Corporation,                  Subordinated Debentures
6/19/2009                                                                                                           $10,000,000   12/20/2012          $9,751,500             $—     12/20/2012      P             $496,589                                          $2,938,871
             Santa Fe, NM8,193                                        w/ Exercised Warrants
                                                                      Subordinated Debentures
5/29/2009    Chambers Bancshares, Inc., Danville, AR8                                                               $19,817,000                                                                                                                                     $5,754,675
                                                                      w/ Exercised Warrants
                                                          2
7/31/2009    Chicago Shore Corporation , Chicago, IL                  Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                                                     $1,351,146
12/31/2008   CIT Group Inc., New York, NY16                           Contingent Value Rights                    $2,330,000,000   2/8/2010                  $—               $—     N/A                                 N/A           $43.48                       $43,687,500
10/28/2008   Citigroup Inc., New York, NY11,23                        Common Stock w/ Warrants                  $25,000,000,000   **             $25,000,000,000             $—     1/25/2011       A          $54,621,849            $44.24                     $932,291,667
1/16/2009    Citizens & Northern Corporation, Wellsboro, PA           Preferred Stock w/ Warrants                   $26,440,000   8/4/2010          $26,440,000              $—     9/1/2010        R             $400,000            $19.50                        $2,049,100
12/23/2008   Citizens Bancorp, Nevada City, CA2,61                    Preferred Stock w/ Exercised Warrants         $10,400,000                                                                                                        $0.01                          $223,571
5/29/2009    Citizens Bancshares Co., Chillicothe, MO2,197            Preferred Stock w/ Exercised Warrants         $24,990,000   2/8/2013          $12,679,301              $—     2/8/2013        P             $645,047                                            $628,033
3/6/2009     Citizens Bancshares Corporation, Atlanta, GA3,30         Preferred Stock                                $7,462,000   8/13/2010           $7,462,000             $—     N/A                                 N/A            $5.34                          $535,813
3/20/2009    Citizens Bank & Trust Company, Covington, LA2            Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                       $346,983
             Citizens Commerce Bancshares, Inc.,
2/6/2009                                                              Preferred Stock w/ Exercised Warrants          $6,300,000                                                                                                                                       $180,259
             Versailles, KY2
12/23/2008   Citizens Community Bank, South Hill, VA2,49              Preferred Stock w/ Exercised Warrants          $3,000,000   7/28/2011           $3,000,000             $—     7/28/2011       R             $150,000                                            $424,646
                                                                                                                                  2/16/2011           $2,212,308      $6,566,692
12/19/2008   Citizens First Corporation, Bowling Green, KY            Preferred Stock w/ Warrants                    $8,779,000                                                                                                        $9.63       254,218          $1,602,241
                                                                                                                                  2/13/2013           $3,300,904      $3,265,788
                                                        214
12/12/2008   Citizens Republic Bancorp, Inc., Flint, MI               Preferred Stock w/ Warrants                 $300,000,000                                                                                                        $22.55     1,757,813         $13,875,000
12/12/2008   Citizens South Banking Corporation, Gastonia, NC50       Preferred Stock w/ Warrants                   $20,500,000   9/22/2011         $20,500,000              $—     11/9/2011       R             $225,157             $5.64                        $2,847,222
             City National Bancshares Corporation,
4/10/2009                                                             Preferred Stock                                $9,439,000                                                                                                                                       $281,859
             Newark, NJ2,3
                                                                                                                                  12/30/2009       $200,000,000     $200,000,000
11/21/2008   City National Corporation, Beverly Hills, CA             Preferred Stock w/ Warrants                 $400,000,000                                                      4/7/2010        R          $18,500,000            $58.91                       $23,916,667
                                                                                                                                  3/3/2010         $200,000,000              $—
                                                              2,165
3/27/2009    Clover Community Bankshares, Inc., Clover, SC            Preferred Stock w/ Exercised Warrants          $3,000,000   11/29/2012          $2,593,700             $—     11/29/2012      P             $114,022                                            $610,864
             Coastal Banking Company, Inc.,
12/5/2008                                                             Preferred Stock w/ Warrants                    $9,950,000   3/11/2013           $9,408,213             $—                                                        $6.50       205,579          $1,434,038
             Fernandina Beach, FL198,217
             CoastalSouth Bancshares, Inc.,
8/28/2009                                                             Preferred Stock w/ Exercised Warrants         $16,015,000   3/11/2013         $12,606,191              $—     3/11/2013       P             $415,848                                          $1,235,449
             Hilton Head Island, SC2,10,218
12/19/2008   CoBiz Financial Inc., Denver, CO50                       Preferred Stock w/ Warrants                   $64,450,000   9/8/2011          $64,450,000              $—     11/18/2011      P             $143,677             $8.08                        $8,763,410
1/9/2009     Codorus Valley Bancorp, Inc., York, PA49                 Preferred Stock w/ Warrants                   $16,500,000   8/18/2011         $16,500,000              $—     9/28/2011       R             $526,604            $16.68                        $2,151,875
2/13/2009    ColoEast Bankshares, Inc., Lamar, CO2                    Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                                                     $1,229,278
3/27/2009    Colonial American Bank, West Conshohocken, PA2           Preferred Stock w/ Exercised Warrants           $574,000    10/26/2011           $574,000              $—     10/26/2011      R              $29,000                                             $65,143
1/9/2009     Colony Bankcorp, Inc., Fitzgerald, GA199                 Preferred Stock w/ Warrants                   $28,000,000   2/7/2013          $21,680,089              $—                                                        $5.45       500,000          $3,990,000
11/21/2008   Columbia Banking System, Inc., Tacoma, WA                Preferred Stock w/ Warrants                   $76,898,000   8/11/2010         $76,898,000              $—     9/1/2010        R           $3,301,647            $21.98                        $6,621,772
2/27/2009    Columbine Capital Corp., Buena Vista, CO2,49             Preferred Stock w/ Exercised Warrants          $2,260,000   9/22/2011           $2,260,000             $—     9/22/2011       R             $113,000                                            $316,479
11/14/2008   Comerica Inc., Dallas, TX                                Preferred Stock w/ Warrants                $2,250,000,000   3/17/2010       $2,250,000,000             $—     5/6/2010        A        $181,102,043             $35.95                     $150,937,500
1/9/2009     Commerce National Bank, Newport Beach, CA                Preferred Stock w/ Warrants                    $5,000,000   10/7/2009           $5,000,000             $—                                                       $10.62        87,209             $36,111
                                                                      Subordinated Debentures
5/22/2009    Commonwealth Bancshares, Inc., Louisville, KY8,110                                                     $20,400,000   7/27/2012         $15,147,000              $—     7/27/2012       P             $898,722                                          $5,529,295
                                                                      w/ Exercised Warrants
1/23/2009    Commonwealth Business Bank, Los Angeles, CA2             Preferred Stock w/ Exercised Warrants          $7,701,000                                                                                                       $15.65                          $655,198
1/16/2009    Community 1st Bank, Roseville, CA2                       Preferred Stock w/ Exercised Warrants          $2,550,000   12/19/2012          $2,550,000             $—     12/19/2012      R             $128,000                                            $221,660
3/6/2009     Community Bancshares of Kansas, Inc., Goff, KS2          Preferred Stock w/ Exercised Warrants           $500,000    7/18/2012            $500,000              $—     7/18/2012       R              $25,000                                             $91,742
             Community Bancshares of Mississippi, Inc.,
9/11/2009                                                             Preferred Stock w/ Exercised Warrants         $52,000,000   9/29/2010         $52,000,000              $—     9/29/2010       R           $2,600,000                                          $2,975,700
             Brandon, MS2,30
             Community Bancshares of Mississippi, Inc.2,101,166
2/6/2009                                                              Preferred Stock w/ Exercised Warrants          $1,050,000   11/30/2012           $977,750              $—     11/30/2012      P              $25,000                                            $217,551
             (Community Holding Company of Florida, Inc.)
7/24/2009    Community Bancshares, Inc., Kingman, AZ2,10              Preferred Stock w/ Exercised Warrants          $3,872,000                                                                                                                                       $726,042
1/16/2009    Community Bank of the Bay, Oakland, CA3,30               Preferred Stock                                $1,747,000   9/29/2010           $1,747,000             $—     N/A                                 N/A                                            $76,189
             Community Bank Shares of Indiana, Inc.,
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




5/29/2009                                                             Preferred Stock w/ Warrants                   $19,468,000   9/15/2011         $19,468,000              $—     10/19/2011      R           $1,100,870            $16.20                        $2,233,412
             New Albany, IN49
             Community Bankers Trust Corporation,
12/19/2008                                                            Preferred Stock w/ Warrants                   $17,680,000                                                                                                        $3.29       780,000          $3,765,458
             Glen Allen, VA
             Community Business Bank,
2/27/2009                                                             Preferred Stock w/ Exercised Warrants          $3,976,000   11/30/2012          $3,692,560             $—     11/30/2012      P             $167,035             $7.70                          $814,455
             West Sacramento, CA2,167
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   243
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)                                                                                                                                                                                                                               244
                                                                                                                                 Capital                                           Final                                                           Current
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
                                                               194
12/19/2008   Community Financial Corporation, Staunton, VA           Preferred Stock w/ Warrants                   $12,643,000   1/9/2013          $12,643,000              $—                                                       $39.79       351,194          $2,563,720
5/15/2009    Community Financial Shares, Inc., Glen Ellyn, IL2,158   Preferred Stock w/ Exercised Warrants          $6,970,000   12/21/2012          $3,136,500             $—     12/21/2012      P             $157,050             $1.28                          $947,194
3/20/2009    Community First Bancshares Inc., Union City, TN2,49     Preferred Stock w/ Exercised Warrants         $20,000,000   8/18/2011         $20,000,000              $—     8/18/2011       R           $1,000,000                                          $2,628,111
4/3/2009     Community First Bancshares, Inc., Harrison, AR2         Preferred Stock w/ Exercised Warrants         $12,725,000                                                                                                                                     $2,681,495
2/27/2009    Community First Inc., Columbia, TN2                     Preferred Stock w/ Exercised Warrants         $17,806,000                                                                                                                                     $1,908,453
             Community Investors Bancorp, Inc.,
12/23/2008                                                           Preferred Stock w/ Exercised Warrants          $2,600,000   12/20/2012          $2,445,000             $—     12/20/2012      P             $105,000                                            $565,616
             Bucyrus, OH2,189
1/30/2009    Community Partners Bancorp, Middletown, NJ49            Preferred Stock w/ Warrants                    $9,000,000   8/11/2011           $9,000,000             $—     10/26/2011      R             $460,000             $6.73                        $1,138,750
             Community Pride Bank Corporation,                       Subordinated Debentures
11/13/2009                                                                                                          $4,400,000                                                                                                                                       $448,253
             Ham Lake, MN8,10                                        w/ Exercised Warrants
             Community Trust Financial Corporation,
1/9/2009                                                             Preferred Stock w/ Exercised Warrants         $24,000,000   7/6/2011          $24,000,000              $—     7/6/2011        R           $1,200,000                                          $3,259,100
             Ruston, LA2,49
12/19/2008   Community West Bancshares, Goleta, CA181                Preferred Stock w/ Warrants                   $15,600,000   12/11/2012        $11,181,456              $—                                                        $4.75       521,158          $2,461,333
1/9/2009     Congaree Bancshares, Inc., Cayce, SC2,140               Preferred Stock w/ Exercised Warrants          $3,285,000   10/31/2012          $2,685,979             $—     10/31/2012      R             $106,364             $4.00                          $691,286
             Corning Savings and Loan Association,
2/13/2009                                                            Preferred Stock w/ Exercised Warrants           $638,000    11/30/2012           $523,680              $—     11/30/2012      P               $3,960                                            $132,065
             Corning, AR2,168
1/30/2009    Country Bank Shares, Inc., Milford, NE2,169             Preferred Stock w/ Exercised Warrants          $7,525,000   11/29/2012          $6,838,126             $—     11/29/2012      P             $372,240                                          $1,570,840
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




6/5/2009     Covenant Financial Corporation, Clarksdale, MS2         Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                                     $1,015,364
2/20/2009    Crazy Woman Creek Bancorp, Inc., Buffalo, WY2           Preferred Stock w/ Exercised Warrants          $3,100,000                                                                                                       $10.75                          $673,453
             Crescent Financial Bancshares, Inc.
1/9/2009                                                             Preferred Stock w/ Warrants                   $24,900,000                                                                                                        $3.94                        $5,163,841
             (Crescent Financial Corporation), Cary, NC65
1/23/2009    Crosstown Holding Company, Blaine, MN2                  Preferred Stock w/ Exercised Warrants         $10,650,000                                                                                                                                     $2,357,354
3/27/2009    CSRA Bank Corp., Wrens, GA2                             Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                       $180,940
             Customers Bancorp, Inc. (Berkshire Bancorp, Inc.),
6/12/2009                                                            Preferred Stock w/ Exercised Warrants          $2,892,000   12/28/2011          $2,892,000             $—     12/28/2011      R             $145,000                                            $407,478
             Phoenixville, PA2,60
                                                                                                                                 8/26/2009         $97,500,000      $32,500,000
12/5/2008    CVB Financial Corp, Ontario, CA                         Preferred Stock w/ Warrants                 $130,000,000                                                      10/28/2009      R           $1,307,000            $11.27                        $4,739,583
                                                                                                                                 9/2/2009          $32,500,000              $—
2/27/2009    D.L. Evans Bancorp, Burley, ID2,49                      Preferred Stock w/ Exercised Warrants         $19,891,000   9/27/2011         $19,891,000              $—     9/27/2011       R             $995,000                                          $2,800,592

                                                            8,49     Subordinated Debentures
5/15/2009    Deerfield Financial Corporation, Deerfield, WI                                                         $2,639,000   9/8/2011            $2,639,000             $—     9/8/2011        R             $132,000                                            $512,339
                                                                     w/ Exercised Warrants
12/4/2009    Delmar Bancorp, Delmar, MD2, 200                        Preferred Stock w/ Exercised Warrants          $9,000,000   2/7/2013            $5,453,900             $—     2/7/2013        P             $311,944                                            $832,488
2/13/2009    DeSoto County Bank, Horn Lake, MS2                      Preferred Stock w/ Exercised Warrants          $1,173,000
                                                                                                                                                                                                                                                                     $492,029
12/29/2009   DeSoto County Bank, Horn Lake, MS2,10a                  Preferred Stock                                $1,508,000
                                                                     Subordinated Debentures
5/22/2009    Diamond Bancorp, Inc., Washington, MO8,111                                                            $20,445,000   7/27/2012         $14,780,662              $—     7/27/2012       P             $779,576                                          $5,541,380
                                                                     w/ Exercised Warrants
             Dickinson Financial Corporation II,
1/16/2009                                                            Preferred Stock w/ Exercised Warrants       $146,053,000    2/8/2013          $79,903,245              $—     2/8/2013        P           $4,925,417                                          $2,631,197
             Kansas City, MO2,201
3/13/2009    Discover Financial Services , Riverwoods, IL            Preferred Stock w/ Warrants                $1,224,558,000   4/21/2010       $1,224,558,000             $—     7/7/2010        R        $172,000,000             $44.84                       $67,690,844
1/30/2009    DNB Financial Corporation, Downingtown, PA49            Preferred Stock w/ Warrants                   $11,750,000   8/4/2011          $11,750,000              $—     9/21/2011       R             $458,000            $16.80                        $1,475,278
                                                                     Subordinated Debentures
6/19/2009    Duke Financial Group, Inc., Minneapolis, MN8                                                          $12,000,000                                                                                                                                     $3,831,273
                                                                     w/ Exercised Warrants
                                                                                                                                 12/23/2009        $15,000,000      $23,235,000
12/5/2008    Eagle Bancorp, Inc., Bethesda, MD49                     Preferred Stock w/ Warrants                   $38,235,000                                                     11/18/2011      P           $2,794,422            $21.89                        $3,817,732
                                                                                                                                 7/14/2011         $23,235,000              $—
12/5/2008    East West Bancorp, Pasadena, CA                         Preferred Stock w/ Warrants                 $306,546,000    12/29/2010       $306,546,000              $—     1/26/2011       R          $14,500,000            $25.67                       $31,676,420
             Eastern Virginia Bankshares, Inc.,
1/9/2009                                                             Preferred Stock w/ Warrants                   $24,000,000                                                                                                        $5.66       373,832          $2,220,000
             Tappahannock, VA
1/16/2009    ECB Bancorp, Inc., Engelhard, NC                        Preferred Stock w/ Warrants                   $17,949,000                                                                                                       $14.43       144,984          $3,662,095
12/23/2008   Emclaire Financial Corp., Emlenton, PA49                Preferred Stock w/ Warrants                    $7,500,000   8/18/2011           $7,500,000             $—     12/7/2011       R              $51,113            $24.00                          $994,792
12/5/2008    Encore Bancshares Inc., Houston, TX50                   Preferred Stock w/ Warrants                   $34,000,000   9/27/2011         $34,000,000              $—     11/18/2011      P             $637,071                                          $4,778,889
12/19/2008   Enterprise Financial Services Corp., St. Louis, MO      Preferred Stock w/ Warrants                   $35,000,000   11/7/2012         $35,000,000              $—     1/9/2013        R           $1,006,100            $14.34       324,074          $6,795,833
             Enterprise Financial Services Group, Inc.,
6/12/2009                                                            Preferred Stock w/ Exercised Warrants          $4,000,000   8/25/2011           $4,000,000             $—     8/25/2011       R             $200,000                                            $480,206
             Allison Park, PA2,49
1/30/2009    Equity Bancshares, Inc., Wichita, KS2,49,145            Preferred Stock w/ Exercised Warrants          $8,750,000                                                                                                                                     $1,206,873
             Equity Bancshares, Inc. (First Community                                                                            8/11/2011           $8,750,000             $—     8/11/2011       R             $438,000
5/15/2009                                                            Preferred Stock w/ Exercised Warrants         $14,800,000                                                                                                                                     $3,172,528
             Bancshares, Inc), Wichita, KS2,145
                                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)
                                                                                                                                    Capital                                           Final                                                           Current
Purchase                                                                                                                            Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                                Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
                                               2,103
12/19/2008   Exchange Bank, Santa Rosa, CA                              Preferred Stock w/ Exercised Warrants         $43,000,000   7/27/2012         $37,259,393              $—     7/27/2012       P           $2,054,215                                          $7,980,919
                                                                        Subordinated Debentures w/ Exercised
5/22/2009    F & C Bancorp, Inc., Holden, MO8,156                                                                      $2,993,000   11/13/2012          $2,840,903             $—     11/13/2012      P             $148,500                                            $872,778
                                                                        Warrants
1/30/2009    F & M Bancshares, Inc., Trezevant, TN2,202                 Preferred Stock w/ Exercised Warrants          $4,609,000   2/7/2013            $4,300,543             $—     2/7/2013        P             $222,008
                                                                                                                                                                                                                                                                      $1,584,421
11/6/2009    F & M Bancshares, Inc., Trezevant, TN2,10a,202             Preferred Stock                                $3,535,000   2/7/2013            $3,298,420             $—     N/A                                 N/A
2/6/2009     F & M Financial Corporation, Salisbury, NC2,126            Preferred Stock w/ Exercised Warrants         $17,000,000   9/12/2012         $15,988,500              $—     9/12/2012       P             $775,274                                          $3,355,971
2/13/2009    F&M Financial Corporation, Clarksville, TN2,127            Preferred Stock w/ Exercised Warrants         $17,243,000   9/12/2012         $13,443,074              $—     9/12/2012       P             $742,441            $12.10                        $3,388,249
1/9/2009     F.N.B. Corporation, Hermitage, PA                          Preferred Stock w/ Warrants                 $100,000,000    9/9/2009         $100,000,000              $—     11/18/2011      P             $690,100                         819,640          $3,333,333
             F.N.B. Corporation (Parkvale Financial Corporation),
12/23/2008                                                              Preferred Stock w/ Warrants                   $31,762,000   1/3/2012          $31,762,000              $—                                                                                     $4,808,414
             Monroeville, PA67
             Farmers & Merchants Bancshares, Inc.,
3/6/2009                                                                Preferred Stock w/ Exercised Warrants         $11,000,000                                                                                                                                     $1,913,405
             Houston, TX2
             Farmers & Merchants Financial Corporation,
3/20/2009                                                               Preferred Stock w/ Exercised Warrants           $442,000                                                                                                                                         $93,979
             Argonia, KS2
1/23/2009    Farmers Bank , Windsor, VA2                                Preferred Stock w/ Exercised Warrants          $8,752,000   1/9/2013            $3,063,000      $5,689,000                                                      $18.80                        $1,921,916
1/9/2009     Farmers Capital Bank Corporation, Frankfort, KY87          Preferred Stock w/ Warrants                   $30,000,000   6/13/2012         $21,863,750              $—     7/18/2012       R              $75,000                                          $5,166,600
                                                                        Subordinated Debentures
6/19/2009    Farmers Enterprises, Inc., Great Bend, KS8,157                                                           $12,000,000   11/13/2012        $11,439,252              $—     11/13/2012      P             $590,323                                          $3,423,094
                                                                        w/ Exercised Warrants
3/20/2009    Farmers State Bankshares, Inc., Holton, KS2, 50            Preferred Stock w/ Exercised Warrants           $700,000    7/21/2011            $700,000              $—     7/21/2011       R              $40,000                                             $90,174

                                                       8,10,38          Subordinated Debentures
12/29/2009   FBHC Holding Company, Boulder, CO                                                                         $3,035,000   3/9/2011             $650,000              $—     N/A                                 N/A                                           $154,592
                                                                        w/ Exercised Warrants
6/26/2009    FC Holdings, Inc., Houston, TX2,210                        Preferred Stock w/ Exercised Warrants         $21,042,000   2/20/2013         $18,685,927              $—     2/20/2013       P             $994,613                                            $156,090
12/19/2008   FCB Bancorp, Inc., Louisville, KY2,50                      Preferred Stock w/ Exercised Warrants          $9,294,000   9/22/2011           $9,294,000             $—     9/22/2011       R             $465,000                                          $1,397,234
12/19/2008   FFW Corporation, Wabash, IN2,170                           Preferred Stock w/ Exercised Warrants          $7,289,000   11/30/2012          $6,515,426             $—     11/30/2012      P             $358,558                                          $1,567,852
                                                                        Subordinated Debentures
5/29/2009    Fidelity Bancorp, Inc, Baton Rouge, LA8                                                                   $3,942,000   3/27/2013           $3,942,000             $—     3/27/2013       R             $197,000            $23.95                        $1,265,924
                                                                        w/ Exercised Warrants
11/13/2009   Fidelity Federal Bancorp, Evansville, IN2,10               Preferred Stock w/ Exercised Warrants          $6,657,000
12/19/2008   Fidelity Financial Corporation, Wichita, KS2,104           Preferred Stock w/ Exercised Warrants         $36,282,000   7/27/2012         $32,013,328              $—     7/27/2012       P           $1,725,103                                          $7,228,349
12/19/2008   Fidelity Southern Corporation, Atlanta, GA92               Preferred Stock w/ Warrants                   $48,200,000   6/27/2012         $42,757,786              $—                                                       $11.50     2,462,439          $8,528,883
12/31/2008   Fifth Third Bancorp, Cincinnati, OH                        Preferred Stock w/ Warrants                $3,408,000,000   2/2/2011        $3,408,000,000             $—     3/16/2011       R        $280,025,936             $16.31                     $355,946,667
                                                                                                                                    2/23/2011         $12,505,000      $25,010,000
12/23/2008   Financial Institutions, Inc., Warsaw, NY                   Preferred Stock w/ Warrants                   $37,515,000                                                     5/11/2011       R           $2,079,963            $19.96                        $4,192,649
                                                                                                                                    3/30/2011         $25,010,000              $—
2/13/2009    Financial Security Corporation, Basin, WY2,50              Preferred Stock w/ Exercised Warrants          $5,000,000   7/21/2011           $5,000,000             $—     7/21/2011       R             $250,000                                            $664,597
                                                                        Subordinated Debentures
7/31/2009    Financial Services of Winger, Inc., Winger, MN8,10,49                                                     $3,742,000   9/1/2011            $3,742,000             $—     9/1/2011        R             $112,000                                            $633,322
                                                                        w/ Exercised Warrants
             First Advantage Bancshares Inc.,
5/22/2009                                                               Preferred Stock w/ Exercised Warrants          $1,177,000   12/11/2012          $1,046,621             $—     12/11/2012      P              $53,755                                            $227,945
             Coon Rapids, MN2,182
6/26/2009    First Alliance Bancshares, Inc., Cordova, TN2,190          Preferred Stock w/ Exercised Warrants          $3,422,000   12/20/2012          $2,370,742             $—     12/20/2012      P              $94,702                                            $538,231

             First American Bank Corporation,                           Subordinated Debentures                                     12/21/2011        $15,000,000      $35,000,000
7/24/2009                                                                                                             $50,000,000                                                     12/11/2012      R           $2,500,000                                         $13,058,531
             Elk Grove Village, IL8                                     w/ Exercised Warrants                                       12/11/2012        $35,000,000              $—
                                                                 3,30
3/13/2009    First American International Corp., Brooklyn, NY           Preferred Stock                               $17,000,000   8/13/2010         $17,000,000              $—     N/A                                 N/A           $13.49                        $1,204,167
1/9/2009     First Bancorp, Troy, NC50                                  Preferred Stock w/ Warrants                   $65,000,000   9/1/2011          $65,000,000              $—     11/18/2011      P             $924,462            $18.01       616,308          $8,594,444
1/16/2009    First BanCorp, San Juan, PR28                              Common Stock w/ Warrants                    $424,174,000                                                                                                        $13.50       389,484         $32,999,386
                                                                                                                                    1/18/2012           $3,675,000      $3,675,000
2/20/2009    First BancTrust Corporation, Paris, IL2,4,7                Preferred Stock w/ Exercised Warrants          $7,350,000                                                     10/24/2012      R             $368,000            $29.00                        $1,332,517
                                                                                                                                    10/24/2012          $3,675,000             $—
2/6/2009     First Bank of Charleston, Inc., Charleston, WV2,50         Preferred Stock w/ Exercised Warrants          $3,345,000   7/21/2011           $3,345,000             $—     7/21/2011       R             $167,000                                            $448,105
1/16/2009    First Bankers Trustshares, Inc., Quincy, IL2,50            Preferred Stock w/ Exercised Warrants         $10,000,000   9/8/2011          $10,000,000              $—     9/8/2011        R             $500,000             $4.57                        $1,441,222
12/31/2008   First Banks, Inc., Clayton, MO2                            Preferred Stock w/ Exercised Warrants       $295,400,000                                                                                                                                      $6,037,238
3/6/2009     First Busey Corporation, Urbana, IL50                      Preferred Stock w/ Warrants                 $100,000,000    8/25/2011        $100,000,000              $—     11/18/2011      P              $63,677                                         $12,347,222
                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




             First California Financial Group, Inc,
12/19/2008                                                              Preferred Stock w/ Warrants                   $25,000,000   7/14/2011         $25,000,000              $—     8/24/2011       R             $599,042             $8.52                        $3,211,806
             Westlake Village, CA50
4/3/2009     First Capital Bancorp, Inc., Glen Allen, VA90              Preferred Stock w/ Warrants                   $10,958,000   6/13/2012           $9,931,327             $—     2/6/2013        R             $266,042             $3.22       250,947          $1,759,344
2/13/2009    First Choice Bank, Cerritos, CA2, 30                       Preferred Stock w/ Exercised Warrants          $2,200,000   9/24/2010           $2,200,000             $—     9/24/2010       R             $110,000
                                                                                                                                                                                                                                                                        $300,643
12/22/2009   First Choice Bank, Cerritos, CA2,10a,30                    Preferred Stock                                $2,836,000   9/24/2010           $2,836,000             $—     N/A                                 N/A
                                                                                                                                                                                                                                                                                     245




                                                                                                                                                                                                                                                            Continued on next page
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)                                                                                                                                                                                                                                      246
                                                                                                                                        Capital                                           Final                                                           Current
Purchase                                                                                                                                Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                                    Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
                                                        94
1/23/2009    First Citizens Banc Corp, Sandusky, OH                         Preferred Stock w/ Warrants                   $23,184,000   6/27/2012         $20,689,633              $—     9/5/2012        R             $563,174             $9.63       469,312          $3,992,877
3/20/2009    First Colebrook Bancorp, Inc., Colebrook, NH2,49               Preferred Stock w/ Exercised Warrants          $4,500,000   9/22/2011           $4,500,000             $—     9/22/2011       R             $225,000                                            $614,488
11/21/2008   First Community Bancshares Inc., Bluefield, VA                 Preferred Stock w/ Warrants                   $41,500,000   7/8/2009          $41,500,000              $—     11/18/2011      P              $30,600            $15.85                        $1,308,403
             First Community Bank Corporation of America,
12/23/2008                                                                  Preferred Stock w/ Warrants                   $10,685,000   5/31/2011           $7,754,267             $—     N/A                                 N/A                                           $744,982
             Pinellas Park, FL39
11/21/2008   First Community Corporation, Lexington, SC122                  Preferred Stock w/ Warrants                   $11,350,000   8/23/2012         $10,987,794              $—     11/1/2012       R             $297,500             $8.96                        $2,140,686
             First Community Financial Partners, Inc.,
12/11/2009                                                                  Preferred Stock w/ Exercised Warrants         $22,000,000   9/12/2012         $14,211,450              $—     7/27/2012       P             $720,374                                          $3,320,656
             Joliet, IL2,113,129
12/5/2008    First Defiance Financial Corp., Defiance, OH89                 Preferred Stock w/ Warrants                   $37,000,000   6/13/2012         $35,084,144              $—                                                       $23.32       550,595          $6,546,862

                                                                    8,30    Subordinated Debentures
9/11/2009    First Eagle Bancshares, Inc., Hanover Park, IL                                                                $7,500,000   9/17/2010           $7,500,000             $—     9/17/2010       R             $375,000                                            $639,738
                                                                            w/ Exercised Warrants
2/6/2009     First Express of Nebraska, Inc., Gering, NE2                   Preferred Stock w/ Exercised Warrants          $5,000,000   2/15/2012           $5,000,000             $—     2/15/2012       R             $250,000                                            $824,313
             First Federal Bancshares of Arkansas, Inc.,
3/6/2009                                                                    Preferred Stock w/ Warrants                   $16,500,000   5/3/2011            $6,000,000             $—     N/A                                 N/A           $10.00                          $570,625
             Harrison, AR42
12/23/2008   First Financial Bancorp, Cincinnati, OH                        Preferred Stock w/ Warrants                   $80,000,000   2/24/2010         $80,000,000              $—     6/2/2010        A           $2,966,288            $16.05                        $4,677,778
                                                                            Subordinated Debentures
6/12/2009    First Financial Bancshares, Inc., Lawrence, KS8,10,49                                                         $3,756,000   9/22/2011           $3,756,000             $—     9/22/2011       R             $113,000                                            $694,280
                                                                            w/ Exercised Warrants
                                                              75
12/5/2008    First Financial Holdings Inc., Charleston, SC                  Preferred Stock w/ Warrants                   $65,000,000   3/28/2012         $55,926,478              $—                                                       $20.96       241,696         $10,815,494
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




             First Financial Service Corporation,
1/9/2009                                                                    Preferred Stock w/ Warrants                   $20,000,000                                                                                                        $3.30       215,983          $1,600,000
             Elizabethtown, KY
12/22/2009   First Freedom Bancshares, Inc., Lebanon, TN2,10,149            Preferred Stock w/ Exercised Warrants          $8,700,000   11/9/2012           $7,945,493             $—     11/9/2012       P             $256,119                                          $1,320,735
             First Gothenburg Bancshares, Inc.,
2/27/2009                                                                   Preferred Stock w/ Exercised Warrants          $7,570,000   10/31/2012          $6,822,136             $—     10/31/2012      R             $362,119                                          $1,517,766
             Gothenburg, NE2,135
                                                                     2,49
8/28/2009    First Guaranty Bancshares, Inc., Hammond, LA                   Preferred Stock w/ Exercised Warrants         $20,699,000   9/22/2011         $20,699,000              $—     9/22/2011       R           $1,030,000                                          $2,330,477
11/14/2008   First Horizon National Corporation, Memphis, TN                Preferred Stock w/ Warrants                 $866,540,000    12/22/2010       $866,540,000              $—     3/9/2011        R          $79,700,000            $10.68                       $91,227,406
8/28/2009    First Independence Corporation, Detroit, MI2,3,191             Preferred Stock                                $3,223,000   12/20/2012          $2,286,675             $—     N/A                                 N/A                                           $533,582
3/13/2009    First Intercontinental Bank, Doraville, GA2                    Preferred Stock w/ Exercised Warrants          $6,398,000                                                                                                                                       $757,454
12/12/2008   First Litchfield Financial Corporation, Litchfield, CT         Preferred Stock w/ Warrants                   $10,000,000   4/7/2010          $10,000,000              $—     4/7/2010        R           $1,488,046                                            $659,722
2/27/2009    First M&F Corporation, Kosciusko, MS30                         Preferred Stock w/ Warrants                   $30,000,000   9/29/2010         $30,000,000              $—                                                       $14.15       513,113          $2,383,333
1/16/2009    First Manitowoc Bancorp, Inc., Manitowoc, WI2                  Preferred Stock w/ Exercised Warrants         $12,000,000   5/27/2009         $12,000,000              $—     5/27/2009       R             $600,000            $15.50                          $237,983
2/13/2009    First Menasha Bancshares, Inc., Neenah, WI2,49                 Preferred Stock w/ Exercised Warrants          $4,797,000   9/15/2011           $4,797,000             $—     9/15/2011       R             $240,000                                            $676,865
                                                                            Preferred Stock w/ Warrants                   $69,600,000   9/22/2011         $69,600,000              $—                                                                                    $12,167,111
                                                         27,49,50
2/20/2009    First Merchants Corporation, Muncie, IN                                                                                                                                      11/18/2011      P             $367,500            $15.47
                                                                            Trust Preferred Securities                    $46,400,000   9/22/2011         $46,400,000              $—                                                                                     $2,848,444
12/5/2008    First Midwest Bancorp, Inc., Itasca, IL                        Preferred Stock w/ Warrants                 $193,000,000    11/23/2011       $193,000,000              $—     12/21/2011      R             $900,000            $13.28                       $28,628,333
3/13/2009    First National Corporation, Strasburg, VA2,123                 Preferred Stock w/ Exercised Warrants         $13,900,000   8/23/2012         $12,082,749              $—     8/23/2012       P             $624,675                                          $2,621,903
             First NBC Bank Holding Company,
3/20/2009                                                                   Preferred Stock w/ Exercised Warrants         $17,836,000   8/4/2011          $17,836,000              $—     8/4/2011        R             $892,000                                          $2,305,990
             New Orleans, LA2,49
11/21/2008   First Niagara Financial Group, Lockport, NY                    Preferred Stock w/ Warrants                 $184,011,000    5/27/2009        $184,011,000              $—     6/24/2009       R           $2,700,000             $8.86                        $4,753,618
3/13/2009    First Northern Community Bancorp, Dixon, CA49                  Preferred Stock w/ Warrants                   $17,390,000   9/15/2011         $17,390,000              $—     11/16/2011      R             $375,000             $5.80                        $2,178,580
11/21/2008   First PacTrust Bancorp, Inc., Chula Vista, CA                  Preferred Stock w/ Warrants                   $19,300,000   12/15/2010        $19,300,000              $—     1/5/2011        R           $1,003,227            $11.40     3,670,822          $1,994,333
3/13/2009    First Place Financial Corp., Warren, OH146                     Preferred Stock w/ Warrants                   $72,927,000                                                                                                        $0.00                        $7,009,095
2/20/2009    First Priority Financial Corp., Malvern, PA2,203               Preferred Stock w/ Exercised Warrants          $4,579,000   2/8/2013            $4,002,371             $—     2/8/2013        P             $224,717
                                                                                                                                                                                                                                                                          $1,711,259
12/18/2009   First Priority Financial Corp., Malvern, PA2,10a,203           Preferred Stock                                $4,596,000   2/8/2013            $4,009,723             $—     N/A                                 N/A
3/6/2009     First Reliance Bancshares, Inc., Florence, SC2,219             Preferred Stock w/ Exercised Warrants         $15,349,000   3/11/2013         $10,327,021              $—     3/11/2013       P             $624,632             $2.00                        $2,042,406
1/30/2009    First Resource Bank, Exton, PA2,50                             Preferred Stock w/ Exercised Warrants          $2,600,000   9/15/2011           $2,600,000             $—     9/15/2011       R             $130,000
                                                                                                                                                                                                                                                                            $584,794
12/11/2009   First Resource Bank, Exton, PA2,10a,49                         Preferred Stock                                $2,417,000   9/15/2011           $2,417,000             $—     N/A                                 N/A
1/9/2009     First Security Group, Inc., Chattanooga, TN215                 Preferred Stock w/ Warrants                   $33,000,000                                                                                                        $1.95       823,627          $1,402,500
12/23/2008   First Sound Bank, Seattle, WA178                               Preferred Stock w/ Warrants                    $7,400,000   2/20/2013           $3,700,000             $—     N/A                                 N/A            $0.15       114,080            $330,944

                                                                            Subordinated Debentures                                     9/28/2011         $13,125,000      $36,875,000
                                                         8
7/17/2009    First South Bancorp, Inc., Lexington, TN                                                                     $50,000,000                                                     11/28/2012      R           $2,500,000                                         $12,932,451
                                                                            w/ Exercised Warrants                                       11/28/2012        $36,875,000              $—
1/30/2009    First Southern Bancorp, Inc., Boca Raton, FL2                  Preferred Stock w/ Exercised Warrants         $10,900,000   6/16/2010         $10,900,000              $—     6/16/2010       R             $545,000                                            $818,468
             First Southwest Bancorporation, Inc.,
3/6/2009                                                                    Preferred Stock w/ Exercised Warrants          $5,500,000   3/27/2013           $4,900,609             $—     3/27/2013       P             $251,837                                            $207,327
             Alamosa, CO2,226
                                                                                                                                                                                                                                                                Continued on next page
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)
                                                                                                                                        Capital                                           Final                                                           Current
Purchase                                                                                                                                Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                                    Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
                                                                    2
2/27/2009    First State Bank of Mobeetie, Mobeetie, TX                     Preferred Stock w/ Exercised Warrants           $731,000    4/14/2010            $731,000              $—     4/14/2010       R              $37,000                                             $45,087
3/6/2009     First Texas BHC, Inc., Fort Worth, TX2,49                      Preferred Stock w/ Exercised Warrants         $13,533,000   9/15/2011         $13,533,000              $—     9/15/2011       R             $677,000                                          $1,862,389
                                                                            Subordinated Debentures
6/5/2009     First Trust Corporation, New Orleans, LA8,211                                                                $17,969,000   2/20/2013         $13,612,558              $—     2/20/2013       P             $644,726                                          $1,046,896
                                                                            w/ Exercised Warrants
                                            2
1/23/2009    First ULB Corp., Oakland, CA                                   Preferred Stock w/ Exercised Warrants          $4,900,000   4/22/2009           $4,900,000             $—     4/22/2009       R             $245,000                                             $66,021
1/30/2009    First United Corporation, Oakland, MD                          Preferred Stock w/ Warrants                   $30,000,000                                                                                                        $8.29       326,323          $2,312,500
6/12/2009    First Vernon Bancshares, Inc., Vernon, AL2,10,30               Preferred Stock w/ Exercised Warrants          $6,000,000   9/29/2010           $6,000,000             $—     9/29/2010       R             $245,000                                            $417,770
2/6/2009     First Western Financial, Inc., Denver, CO2,105                 Preferred Stock w/ Exercised Warrants          $8,559,000                                                     7/27/2012       P             $351,052
                                                                                                                                        7/27/2012           $6,138,000      $3,881,000                                                                                    $3,546,040
12/11/2009   First Western Financial, Inc., Denver, CO2,10a,114             Preferred Stock                               $11,881,000                                                     N/A                                 N/A
1/30/2009    Firstbank Corporation, Alma, MI97                              Preferred Stock w/ Warrants                   $33,000,000   6/27/2012         $30,587,530              $—     7/18/2012       R           $1,946,670            $13.86                        $5,651,360
1/9/2009     FirstMerit Corporation, Akron, OH                              Preferred Stock w/ Warrants                 $125,000,000    4/22/2009        $125,000,000              $—     5/27/2009       R           $5,025,000            $16.54                        $1,788,194
1/30/2009    Flagstar Bancorp, Inc., Troy, MI228                            Preferred Stock w/ Warrants                 $266,657,000    3/27/2013        $240,627,277              $—                                                       $13.93       645,138         $37,220,872
7/24/2009    Florida Bank Group, Inc., Tampa, FL2,207                       Preferred Stock w/ Exercised Warrants         $20,471,000                                                                                                                                     $1,180,793
2/20/2009    Florida Business BancGroup, Inc., Tampa, FL2,49                Preferred Stock w/ Exercised Warrants          $9,495,000   9/22/2011           $9,495,000             $—     9/22/2011       R             $475,000                                          $1,339,751
12/19/2008   Flushing Financial Corporation, Lake Success, NY               Preferred Stock w/ Warrants                   $70,000,000   10/28/2009        $70,000,000              $—     12/30/2009      R             $900,000            $16.94                        $3,004,167
2/27/2009    FNB Bancorp, South San Francisco, CA2,50                       Preferred Stock w/ Exercised Warrants         $12,000,000   9/15/2011         $12,000,000              $—     9/15/2011       R             $600,000            $20.00                        $1,667,700
2/13/2009    FNB United Corp., Asheboro, NC58                               Common Stock w/ Warrants                      $51,500,000                                                                                                        $9.76        22,071          $2,589,305
5/15/2009    Foresight Financial Group, Inc., Rockford, IL2                 Preferred Stock w/ Exercised Warrants         $15,000,000   12/11/2012        $15,000,000              $—     12/11/2012      R             $750,000            $15.00                        $2,920,292
5/22/2009    Fort Lee Federal Savings Bank, Fort Lee, NJ2,82                Preferred Stock w/ Exercised Warrants          $1,300,000                                                                                                                                        $87,185
4/3/2009     Fortune Financial Corporation , Arnold, MO2,50                 Preferred Stock w/ Exercised Warrants          $3,100,000   9/15/2011           $3,100,000             $—     9/15/2011       R             $155,000                                            $413,928
12/5/2008    FPB Bancorp, Inc., Port St. Lucie, FL55                        Preferred Stock w/ Warrants                    $5,800,000                                                                                                        $0.02       183,158            $273,889
                                                                                                                                        12/16/2009          $1,000,000      $2,240,000
1/23/2009    FPB Financial Corp., Hammond, LA2                              Preferred Stock w/ Exercised Warrants          $3,240,000                                                     6/16/2010       R             $162,000                                            $221,722
                                                                                                                                        6/16/2010           $2,240,000             $—
                                                            2,150
5/22/2009    Franklin Bancorp, Inc., Washington, MO                         Preferred Stock w/ Exercised Warrants          $5,097,000   11/13/2012          $3,191,614             $—     11/13/2012      P             $195,018                                            $965,344
                                                                            Subordinated Debentures
5/8/2009     Freeport Bancshares, Inc., Freeport, IL8                                                                      $3,000,000                                                                                                                                       $948,768
                                                                            w/ Exercised Warrants

                                                        8                   Subordinated Debentures
6/26/2009    Fremont Bancorporation, Fremont, CA                                                                          $35,000,000   7/25/2012         $35,000,000              $—     7/25/2012       R           $1,750,000                                          $9,046,066
                                                                            w/ Exercised Warrants
1/23/2009    Fresno First Bank, Fresno, CA2                                 Preferred Stock w/ Exercised Warrants          $1,968,000   11/1/2012           $1,968,000             $—     11/1/2012       R              $98,000                                            $371,100

                                                                            Subordinated Debentures                                     11/24/2009          $1,600,000      $1,400,000
                                                    8
4/24/2009    Frontier Bancshares, Inc., Austin, TX                                                                         $3,000,000                                                     10/6/2010       R             $150,000                                            $258,192
                                                                            w/ Exercised Warrants                                       10/6/2010           $1,400,000             $—
12/23/2008   Fulton Financial Corporation, Lancaster, PA                    Preferred Stock w/ Warrants                 $376,500,000    7/14/2010        $376,500,000              $—     9/8/2010        R          $10,800,000            $11.70                       $29,335,625
5/8/2009     Gateway Bancshares, Inc., Ringgold, GA2,80                     Preferred Stock w/ Exercised Warrants          $6,000,000   4/13/2012           $6,000,000             $—     4/13/2012       R             $300,000                                            $960,795
2/6/2009     Georgia Commerce Bancshares, Inc., Atlanta, GA2                Preferred Stock w/ Exercised Warrants          $8,700,000   2/16/2011           $8,700,000             $—     2/16/2011       R             $435,000                                            $961,471
5/1/2009     Georgia Primary Bank, Atlanta, GA2                             Preferred Stock w/ Exercised Warrants          $4,500,000                                                                                                                                             $—
             Germantown Capital Corporation, Inc.,
3/6/2009                                                                    Preferred Stock w/ Exercised Warrants          $4,967,000   10/31/2012          $4,495,616             $—     10/31/2012      R             $214,595                                            $988,890
             Germantown, TN2,137
6/26/2009    Gold Canyon Bank, Gold Canyon, AZ2,10                          Preferred Stock w/ Exercised Warrants          $1,607,000                                                                                                                                        $53,860
1/30/2009    Goldwater Bank, N.A., Scottsdale, AZ2                          Preferred Stock w/ Exercised Warrants          $2,568,000                                                                                                                                       $145,750
4/24/2009    Grand Capital Corporation, Tulsa, OK2,49                       Preferred Stock w/ Exercised Warrants          $4,000,000   9/8/2011            $4,000,000             $—     9/8/2011        R             $200,000                                            $517,145

                                                                        8   Subordinated Debentures
9/25/2009    Grand Financial Corporation, Hattiesburg, MS                                                                  $2,443,320                                                                                                                                       $694,625
                                                                            w/ Exercised Warrants
5/29/2009    Grand Mountain Bancshares, Inc., Granby, CO2                   Preferred Stock w/ Exercised Warrants          $3,076,000                                                                                                                                             $—
1/9/2009     GrandSouth Bancorporation, Greenville, SC2,50                  Preferred Stock w/ Exercised Warrants          $9,000,000   9/8/2011            $9,000,000             $—     9/8/2011        R             $450,000
                                                                                                                                                                                                                                             $4.85                        $1,856,917
12/11/2009   GrandSouth Bancorporation, Greenville, SC2,10a,49              Preferred Stock                                $6,319,000   9/8/2011            $6,319,000             $—     N/A                                 N/A
                                                                            Subordinated Debentures w/ Exercised
7/17/2009    Great River Holding Company, Baxter, MN8                                                                      $8,400,000                                                                                                                                       $759,575
                                                                            Warrants
12/5/2008    Great Southern Bancorp, Springfield, MO50                      Preferred Stock w/ Warrants                   $58,000,000   8/18/2011         $58,000,000              $—     9/21/2011       R           $6,436,364            $24.39                        $7,838,056
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




12/23/2008   Green Bankshares, Inc., Greeneville, TN59                                                                    $72,278,000   9/7/2011          $68,700,000              $—     N/A                                 N/A                                         $5,942,858
                                                                                                                                        11/14/2012           $800,000       $1,600,000
2/27/2009    Green Circle Investments, Inc., Clive, IA2                     Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                       $506,284
                                                                                                                                        1/23/2013            $800,000         $800,000
2/27/2009    Green City Bancshares, Inc., Green City, MO2                   Preferred Stock w/ Exercised Warrants           $651,000    7/14/2010            $651,000              $—     7/14/2010       R              $33,000                                             $49,037
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         247
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)                                                                                                                                                                                                                            248
                                                                                                                              Capital                                           Final                                                           Current
Purchase                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                          Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
                                                           2
1/30/2009    Greer Bancshares Incorporated, Greer, SC             Preferred Stock w/ Exercised Warrants          $9,993,000                                                                                                        $4.50                          $975,831
2/13/2009    Gregg Bancshares, Inc., Ozark, MO2,115               Preferred Stock w/ Exercised Warrants           $825,000                                                                                                                                         $45,190
2/20/2009    Guaranty Bancorp, Inc., Woodsville, NH2,50           Preferred Stock w/ Exercised Warrants          $6,920,000   9/15/2011           $6,920,000             $—     9/15/2011       R             $346,000                                            $969,040
9/25/2009    Guaranty Capital Corporation, Belzoni, MS3,8,30      Subordinated Debentures                       $14,000,000   7/30/2010         $14,000,000              $—     N/A                                 N/A                                           $913,299
1/30/2009    Guaranty Federal Bancshares, Inc., Springfield, MO   Preferred Stock w/ Warrants                   $17,000,000   6/13/2012           $5,000,000     $12,000,000                                                       $9.54       459,459          $3,267,361
9/25/2009    GulfSouth Private Bank, Destin, FL10,21,132          Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                       $757,380
6/26/2009    Gulfstream Bancshares, Inc., Stuart, FL2,50          Preferred Stock w/ Exercised Warrants          $7,500,000   8/18/2011           $7,500,000             $—     8/18/2011       R             $375,000                                            $876,542
2/20/2009    Hamilton State Bancshares, Hoschton, GA2             Preferred Stock w/ Exercised Warrants          $7,000,000   4/13/2011           $7,000,000             $—     4/13/2011       R             $350,000                                            $819,166
12/31/2008   Hampton Roads Bankshares, Inc., Norfolk, VA31        Common Stock w/ Warrants                      $80,347,000                                                                                                        $1.31        53,034          $2,510,844
7/17/2009    Harbor Bankshares Corporation, Baltimore, MD2,3      Preferred Stock                                $6,800,000                                                                                                                                       $282,744
             Hartford Financial Services Group, Inc.,
6/26/2009                                                         Preferred Stock w/ Warrants                $3,400,000,000   3/31/2010       $3,400,000,000             $—     9/21/2010       A        $706,264,560             $25.80                     $129,861,111
             Hartford, CT
3/13/2009    Haviland Bancshares, Inc., Haviland, KS2             Preferred Stock w/ Exercised Warrants           $425,000    12/29/2010           $425,000              $—     12/29/2010      R              $21,000                                             $41,524
12/19/2008   Hawthorne Bancshares, Inc., Lee’s Summit, MO         Preferred Stock w/ Warrants                   $30,255,000   5/9/2012          $12,000,000      $18,255,000                                                      $11.52       276,090          $5,826,317
3/6/2009     HCSB Financial Corporation, Loris, SC                Preferred Stock w/ Warrants                   $12,895,000                                                                                                        $0.27        91,714          $1,090,702
9/11/2009    Heartland Bancshares, Inc., Franklin, IN2,10,100     Preferred Stock w/ Exercised Warrants          $7,000,000   7/17/2012           $7,000,000             $—     7/17/2012                     $248,000            $20.21                        $1,073,471
                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




12/19/2008   Heartland Financial USA, Inc., Dubuque, IA50         Preferred Stock w/ Warrants                   $81,698,000   9/15/2011         $81,698,000              $—     9/28/2011       R           $1,800,000            $25.27                       $11,188,087
                                                                                                                              3/16/2011           $2,606,000      $7,497,000
9/25/2009    Heritage Bankshares, Inc., Norfolk, VA2,10,50        Preferred Stock w/ Exercised Warrants         $10,103,000                                                     8/11/2011       R             $303,000            $13.25                          $947,284
                                                                                                                              8/11/2011           $7,497,000             $—
11/21/2008   Heritage Commerce Corp., San Jose, CA                Preferred Stock w/ Warrants                   $40,000,000   3/7/2012          $40,000,000              $—                                                        $6.73       462,963          $6,761,267
11/21/2008   Heritage Financial Corporation, Olympia, WA          Preferred Stock w/ Warrants                   $24,000,000   12/22/2010        $24,000,000              $—     8/17/2011       R             $450,000            $14.50                        $2,503,333
3/20/2009    Heritage Oaks Bancorp, Paso Robles, CA               Preferred Stock w/ Warrants                   $21,000,000                                                                                                        $5.70       611,650          $4,223,002
11/21/2008   HF Financial Corp., Sioux Falls, SD                  Preferred Stock w/ Warrants                   $25,000,000   6/3/2009          $25,000,000              $—     6/30/2009       R             $650,000            $19.00                          $666,667
             Highlands Bancorp, Inc. (Highlands State Bank),
5/8/2009                                                          Preferred Stock w/ Exercised Warrants          $3,091,000   9/22/2011           $3,091,000             $—     9/22/2011                     $155,000
             Vernon, NJ2,13 ,49
                                                                                                                                                                                                R                                  $5.50                          $606,927
             Highlands Bancorp, Inc. (Highlands State Bank),
12/22/2009                                                        Preferred Stock                                $2,359,000   9/22/2011           $2,359,000             $—     N/A                                 N/A
             Vernon, NJ2,10a,13,49
             Highlands Independent Bancshares, Inc.,
3/6/2009                                                          Preferred Stock w/ Exercised Warrants          $6,700,000                                                                                                                                       $617,712
             Sebring, FL2
1/30/2009    Hilltop Community Bancorp, Inc., Summit, NJ2         Preferred Stock w/ Exercised Warrants          $4,000,000   4/21/2010           $4,000,000             $—     4/21/2010       R             $200,000             $6.33                          $267,050
12/23/2008   HMN Financial, Inc., Rochester, MN204                Preferred Stock w/ Warrants                   $26,000,000   2/8/2013          $18,571,410              $—                                                        $5.85       833,333          $2,462,778
1/16/2009    Home Bancshares, Inc., Conway, AR                    Preferred Stock w/ Warrants                   $50,000,000   7/6/2011          $50,000,000              $—     7/27/2011       R           $1,300,000            $37.67                        $6,180,556
2/20/2009    Hometown Bancorp of Alabama, Inc., Oneonta, AL2      Preferred Stock w/ Exercised Warrants          $3,250,000                                                                                                                                       $706,220
2/13/2009    Hometown Bancshares, Inc., Corbin, KY2,171           Preferred Stock w/ Exercised Warrants          $1,900,000   11/30/2012          $1,766,510             $—     11/30/2012      P              $70,095                                            $393,196
             HomeTown Bankshares Corporation, Roanoke,
9/18/2009                                                         Preferred Stock w/ Exercised Warrants         $10,000,000   10/31/2012          $9,093,150             $—     10/31/2012      R             $315,462             $6.00                        $1,702,400
             VA2,10,144
12/12/2008   HopFed Bancorp, Hopkinsville, KY                     Preferred Stock w/ Warrants                   $18,400,000   12/19/2012        $18,400,000              $—     1/16/2013       R             $256,257            $10.74       253,666          $3,697,889
                                                                                                                              11/10/2010          $6,250,000     $18,750,000
12/19/2008   Horizon Bancorp, Michigan City, IN50                 Preferred Stock w/ Warrants                   $25,000,000                                                     11/18/2011      P           $1,750,551            $20.21     3,106,771          $3,106,771
                                                                                                                              8/25/2011         $18,750,000              $—
2/27/2009    Howard Bancorp, Inc., Ellicott City, MD2,49          Preferred Stock w/ Exercised Warrants          $5,983,000   9/22/2011           $5,983,000             $—     9/22/2011       R             $299,000             $6.82                          $837,793
11/13/2009   HPK Financial Corporation, Chicago, IL2,10a          Preferred Stock w/ Exercised Warrants          $5,000,000   12/11/2012          $5,000,000             $—     12/11/2012      R             $144,000
                                                                                                                                                                                                                                                                $1,596,555
5/1/2009     HPK Financial Corporation, Chicago, IL2              Preferred Stock w/ Exercised Warrants          $4,000,000   12/11/2012          $4,000,000             $—     12/11/2012      R             $200,000
11/14/2008   Huntington Bancshares, Columbus, OH                  Preferred Stock w/ Warrants                $1,398,071,000   12/22/2010      $1,398,071,000             $—     1/19/2011       R          $49,100,000             $7.37                     $147,185,809
2/6/2009     Hyperion Bank, Philadelphia, PA2,192                 Preferred Stock w/ Exercised Warrants          $1,552,000   12/20/2012           $983,800              $—     12/20/2012      P              $25,700                                            $327,666
9/18/2009    IA Bancorp, Inc., Iselin, NJ2,10                     Preferred Stock w/ Exercised Warrants          $5,976,000                                                                                                                                       $916,227
5/15/2009    IBC Bancorp, Inc., Chicago, IL3,8,30                 Subordinated Debentures                        $4,205,000   9/10/2010           $4,205,000             $—     N/A                                 N/A                                           $427,216
12/5/2008    Iberiabank Corporation, Lafayette, LA                Preferred Stock w/ Warrants                   $90,000,000   3/31/2009         $90,000,000              $—     5/20/2009       R           $1,200,000            $50.02                        $1,450,000
3/27/2009    IBT Bancorp, Inc., Irving, TX2                       Preferred Stock w/ Exercised Warrants          $2,295,000                                                                                                                                       $485,805
3/13/2009    IBW Financial Corporation , Washington, DC2,3a,30    Preferred Stock                                $6,000,000   9/3/2010            $6,000,000             $—     N/A                                 N/A            $9.00                          $453,067
3/6/2009     ICB Financial, Ontario, CA2                          Preferred Stock w/ Exercised Warrants          $6,000,000   11/1/2012           $6,000,000             $—                     R             $300,000             $0.02                        $1,194,458
1/16/2009    Idaho Bancorp, Boise, ID2                            Preferred Stock w/ Exercised Warrants          $6,900,000                                                                                                        $0.07                          $124,306
                                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)
                                                                                                                                   Capital                                           Final                                                           Current
Purchase                                                                                                                           Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                             Investment Description                    Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
                                                         2,49
5/22/2009    Illinois State Bancorp, Inc., Chicago, IL               Preferred Stock w/ Exercised Warrants            $6,272,000   9/22/2011           $6,272,000             $—     9/22/2011       R             $314,000
                                                                                                                                                                                                                                                                     $1,158,113
12/29/2009   Illinois State Bancorp, Inc., Chicago, IL2,10a,49       Preferred Stock w/ Exercised Warrants            $4,000,000   9/22/2011           $4,000,000             $—     9/22/2011       R              $92,000
                                                          2
1/9/2009     Independence Bank, East Greenwich, RI                   Preferred Stock w/ Exercised Warrants            $1,065,000                                                                                                                                       $237,882
1/9/2009     Independent Bank Corp., Rockland, MA                    Preferred Stock w/ Warrants                     $78,158,000   4/22/2009         $78,158,000              $—     5/27/2009       R           $2,200,000            $32.59                        $1,118,094
                                                                     Mandatorily Convertible Preferred Stock
12/12/2008   Independent Bank Corporation, Ionia, MI22                                                               $74,426,000                                                                                                        $8.46       346,154          $2,430,000
                                                                     w/ Warrants
                                            2
4/24/2009    Indiana Bank Corp., Dana, IN                            Preferred Stock w/ Exercised Warrants            $1,312,000                                                                                                                                       $165,139
12/12/2008   Indiana Community Bancorp, Columbus, IN                 Preferred Stock w/ Warrants                     $21,500,000   9/12/2012         $21,500,000              $—     9/12/2012       R           $1,800,000            $13.75                        $4,031,250
2/27/2009    Integra Bank Corporation, Evansville, IN14,57           Preferred Stock w/ Warrants                     $83,586,000                                                                                                                  7,418,876          $1,950,340
12/19/2008   Intermountain Community Bancorp, Sandpoint, ID          Preferred Stock w/ Warrants                     $27,000,000                                                                                                       $12.81        65,323          $5,913,634
                                                                                                                                   7/11/2011         $40,000,000     $176,000,000
12/23/2008   International Bancshares Corporation, Laredo, TX        Preferred Stock w/ Warrants                   $216,000,000    11/1/2012         $45,000,000     $131,000,000                                                      $20.80     1,326,238         $41,520,139
                                                                                                                                   11/28/2012       $131,000,000              $—
12/23/2008   Intervest Bancshares Corporation, New York, NY          Preferred Stock w/ Warrants                     $25,000,000                                                                                                        $5.88       691,882          $1,118,056
             Investors Financial Corporation of Pettis County,       Subordinated Debentures
5/8/2009                                                                                                              $4,000,000                                                                                                                                       $174,325
             Inc., Sedalia, MO8,133                                  w/ Exercised Warrants
10/28/2008   JPMorgan Chase & Co., New York, NY                      Preferred Stock w/ Warrants                 $25,000,000,000   6/17/2009      $25,000,000,000             $—     12/10/2009      A        $936,063,469             $47.46                     $795,138,889
1/30/2009    Katahdin Bankshares Corp., Houlton, ME2,49              Preferred Stock w/ Exercised Warrants           $10,449,000   8/18/2011         $10,449,000              $—     8/18/2011       R             $522,000            $11.25                        $1,452,047
11/14/2008   KeyCorp, Cleveland, OH                                  Preferred Stock w/ Warrants                  $2,500,000,000   3/30/2011       $2,500,000,000             $—     4/20/2011       R          $70,000,000             $9.96                     $297,222,222
3/20/2009    Kirksville Bancorp, Inc., Kirksville, MO2               Preferred Stock w/ Exercised Warrants             $470,000                                                                                                                                        $100,145
8/21/2009    KS Bancorp, Inc., Smithfield, NC2,172                   Preferred Stock w/ Exercised Warrants            $4,000,000   11/30/2012          $3,283,000             $—     11/30/2012      P             $140,400             $5.38                          $713,937
2/20/2009    Lafayette Bancorp, Inc., Oxford, MS2,30                 Preferred Stock w/ Exercised Warrants            $1,998,000   9/29/2010           $1,998,000             $—     9/29/2010       R             $100,000
                                                                                                                                                                                                                                                                       $267,134
12/29/2009   Lafayette Bancorp, Inc., Oxford, MS2,10a,30             Preferred Stock                                  $2,453,000   9/29/2010           $2,453,000             $—     N/A                                 N/A
                                                                                                                                   8/4/2010          $20,000,000      $39,000,000
2/6/2009     Lakeland Bancorp, Inc., Oak Ridge, NJ                   Preferred Stock w/ Warrants                     $59,000,000   3/16/2011         $20,000,000      $19,000,000    2/29/2012       R           $2,800,000             $9.85                        $6,460,833
                                                                                                                                   2/8/2012          $19,000,000              $—
2/27/2009    Lakeland Financial Corporation, Warsaw, IN              Preferred Stock w/ Warrants                     $56,044,000   6/9/2010          $56,044,000              $—     11/18/2011      P             $877,557            $26.69                        $3,596,156
12/18/2009   Layton Park Financial Group, Milwaukee, WI2,173         Preferred Stock w/ Exercised Warrants            $3,000,000   11/29/2012          $2,345,930             $—     11/29/2012      P             $104,375                                            $481,858
1/9/2009     LCNB Corp., Lebanon, OH                                 Preferred Stock w/ Warrants                     $13,400,000   10/21/2009        $13,400,000              $—     11/18/2011      P             $602,557            $16.67                          $524,833
12/23/2008   Leader Bancorp, Inc., Arlington, MA2                    Preferred Stock w/ Exercised Warrants            $5,830,000   11/24/2010          $5,830,000             $—     11/24/2010      R             $292,000                                            $609,961
1/30/2009    Legacy Bancorp, Inc., Milwaukee, WI3,53                 Preferred Stock                                  $5,498,000                                                                                                                                       $355,079
1/23/2009    Liberty Bancshares, Inc., Jonesboro, AR2,50             Preferred Stock w/ Exercised Warrants           $57,500,000   7/21/2011         $57,500,000              $—     7/21/2011       R           $2,875,000                                          $7,816,966
2/13/2009    Liberty Bancshares, Inc., Springfield, MO2,50           Preferred Stock w/ Exercised Warrants           $21,900,000   8/18/2011         $21,900,000              $—     8/18/2011       R           $1,095,000                                          $3,000,452
12/4/2009    Liberty Bancshares, Inc., Fort Worth, TX2,10            Preferred Stock w/ Exercised Warrants            $6,500,000                                                                                                                                     $1,095,496
2/6/2009     Liberty Financial Services, Inc., New Orleans, LA3,30   Preferred Stock                                  $5,645,000   9/24/2010           $5,645,000             $—     N/A                                 N/A                                           $461,009
2/20/2009    Liberty Shares, Inc., Hinesville, GA2                   Preferred Stock w/ Exercised Warrants           $17,280,000                                                                                                                                     $1,399,560
7/10/2009    Lincoln National Corporation, Radnor, PA                Preferred Stock w/ Warrants                   $950,000,000    6/30/2010        $950,000,000              $—     9/16/2010       A        $213,671,319             $32.61                       $46,180,555
12/12/2008   LNB Bancorp Inc., Lorain, OH88                          Preferred Stock w/ Warrants                     $25,223,000   6/13/2012         $21,594,229              $—     7/18/2012       R             $860,326             $8.31                        $4,438,492
2/6/2009     Lone Star Bank, Houston, TX2                            Preferred Stock w/ Exercised Warrants            $3,072,000                                                                                                                                             $—
12/12/2008   LSB Corporation, North Andover, MA                      Preferred Stock w/ Warrants                     $15,000,000   11/18/2009        $15,000,000              $—     12/16/2009      R             $560,000                         407,542            $700,000
6/26/2009    M&F Bancorp, Inc., Durham, NC2,3,10,30                  Preferred Stock                                 $11,735,000   8/20/2010         $11,735,000              $—     N/A                                 N/A                                           $674,763
                                                                                                                                   5/18/2011        $370,000,000     $230,000,000
12/23/2008   M&T Bank Corporation, Buffalo, NY119                    Preferred Stock w/ Warrants                   $600,000,000                                                      12/17/2012      P          $31,838,761           $103.16    86,553,400         $86,553,400
                                                                                                                                   8/17/2012        $230,000,000              $—
             M&T Bank Corporation, (Provident Bancshares
11/14/2008                                                           Preferred Stock w/ Warrants                   $151,500,000    8/17/2012        $151,500,000              $—     3/19/2013                  $19,047,077                                         $28,553,037
             Corp.), Baltimore, MD119,225
             M&T Bank Corporation (Wilmington Trust
12/12/2008                                                           Preferred Stock w/ Warrants                   $330,000,000    5/13/2011        $330,000,000              $—                                                                     95,383         $39,920,833
             Corporation), Wilmington, DE43
                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




4/24/2009    Mackinac Financial Corporation, Manistique, MI121       Preferred Stock w/ Warrants                     $11,000,000   8/23/2012         $10,380,905              $—     12/19/2012      R           $1,300,000             $9.21                        $1,840,923
3/13/2009    Madison Financial Corporation, Richmond, KY2            Preferred Stock w/ Exercised Warrants            $3,370,000                                                                                                                                       $169,422
                                                                                                                                   11/24/2009          $3,455,000     $10,340,000
12/23/2008   Magna Bank, Memphis, TN2,49                             Preferred Stock w/ Exercised Warrants           $13,795,000   6/8/2011            $3,455,000      $6,885,000    8/18/2011       R             $690,000                                          $1,661,468
                                                                                                                                   8/18/2011           $6,885,000             $—
                                                                                                                                                                                                                                                                                    249




                                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)                                                                                                                                                                                                                                         250
                                                                                                                                           Capital                                           Final                                                           Current
Purchase                                                                                                                                   Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                                     Investment Description                    Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
                                                      2,73
12/29/2009   Mainline Bancorp, Inc., Ebensburg, PA                           Preferred Stock w/ Exercised Warrants            $4,500,000   3/9/2012            $4,500,000             $—     3/9/2012        R             $225,000            $69.50                          $538,188
1/16/2009    MainSource Financial Group, Inc., Greensburg, IN78              Preferred Stock w/ Warrants                     $57,000,000   3/28/2012         $52,277,171              $—                                                       $14.04       571,906          $9,159,773
12/5/2008    Manhattan Bancorp, El Segundo, CA                               Preferred Stock w/ Warrants                      $1,700,000   9/16/2009           $1,700,000             $—     10/14/2009      R              $63,364             $4.25                           $66,347

                                                             8,183           Subordinated Debentures w/ Exercised
6/19/2009    Manhattan Bancshares, Inc., Manhattan, IL                                                                        $2,639,000   12/11/2012          $2,560,541             $—     12/11/2012      P             $131,021                                            $770,044
                                                                             Warrants
3/6/2009     Marine Bank & Trust Company, Vero Beach, FL2                    Preferred Stock w/ Exercised Warrants            $3,000,000                                                                                                                                       $235,713
2/20/2009    Market Bancorporation, Inc., New Market, MN2                    Preferred Stock w/ Exercised Warrants            $2,060,000                                                                                                                                       $138,778

                                                                     8,109   Subordinated Debentures
5/15/2009    Market Street Bancshares, Inc., Mt. Vernon, IL                                                                  $20,300,000   7/27/2012         $18,069,213              $—     7/27/2012       P             $824,731                                          $5,535,303
                                                                             w/ Exercised Warrants
12/19/2008   Marquette National Corporation, Chicago, IL2,102                Preferred Stock w/ Exercised Warrants           $35,500,000   7/27/2012         $25,313,186              $—     7/27/2012       P           $1,450,171           $146.45                        $7,072,587
11/14/2008   Marshall & Ilsley Corporation, Milwaukee, WI44                  Preferred Stock w/ Warrants                  $1,715,000,000   7/5/2011        $1,715,000,000             $—     7/5/2011        R           $3,250,000                                       $226,522,917
3/27/2009    Maryland Financial Bank, Towson, MD2                            Preferred Stock w/ Exercised Warrants            $1,700,000                                                                                                                                       $267,141
12/5/2008    MB Financial Inc., Chicago, IL                                  Preferred Stock w/ Warrants                   $196,000,000    3/14/2012        $196,000,000              $—     5/2/2012        R           $1,518,072            $24.17                       $32,095,000
11/20/2009   McLeod Bancshares, Inc., Shorewood, MN2,50                      Preferred Stock w/ Exercised Warrants            $6,000,000   8/18/2011           $6,000,000             $—     8/18/2011       R             $300,000                                            $570,433
2/27/2009    Medallion Bank, Salt Lake City, UT2,49                          Preferred Stock w/ Exercised Warrants           $11,800,000   7/21/2011         $11,800,000              $—     7/21/2011       R             $590,000                                          $2,317,675
12/22/2009   Medallion Bank, Salt Lake City, UT2,10a,49                      Preferred Stock w/ Exercised Warrants            $9,698,000   7/21/2011           $9,698,000             $—     7/21/2011       R              $55,000
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                                           4/4/2012          $10,500,000      $10,500,000
5/15/2009    Mercantile Bank Corporation, Grand Rapids, MI                   Preferred Stock w/ Warrants                     $21,000,000                                                     7/3/2012        R           $7,465,100            $16.50     3,166,021          $3,166,021
                                                                                                                                           6/6/2012          $10,500,000              $—
2/6/2009     Mercantile Capital Corp., Boston, MA2,49                        Preferred Stock w/ Exercised Warrants            $3,500,000   8/4/2011            $3,500,000             $—     8/4/2011        R             $175,000                                            $475,815
             Merchants and Manufacturers Bank Corporation,
6/19/2009                                                                    Preferred Stock w/ Exercised Warrants            $3,510,000   9/8/2011            $3,510,000             $—     9/8/2011        R             $176,000                                            $424,668
             Joliet, IL2,49
             Merchants and Planters Bancshares, Inc.,
3/6/2009                                                                     Preferred Stock w/ Exercised Warrants            $1,881,000   9/7/2011            $1,881,000             $—     9/7/2011        R              $94,000                                            $256,560
             Toone, TN2,62
2/13/2009    Meridian Bank, Devon, PA2                                       Preferred Stock w/ Exercised Warrants            $6,200,000                                                                                                                                     $2,360,038
12/11/2009   Meridian Bank, Devon, PA2,10a                                   Preferred Stock                                  $6,335,000
1/30/2009    Metro City Bank, Doraville, GA2,141                             Preferred Stock w/ Exercised Warrants            $7,700,000   10/31/2012          $6,861,462             $—     10/31/2012      R             $369,948                                          $1,574,888
1/16/2009    MetroCorp Bancshares, Inc., Houston, TX95                       Preferred Stock w/ Warrants                     $45,000,000   6/27/2012         $43,490,360              $—                                                       $10.09       771,429          $7,828,900
6/26/2009    Metropolitan Bank Group, Inc., Chicago, IL2,41                  Preferred Stock w/ Exercised Warrants           $74,706,000                                                                                                                                       $332,256
             Metropolitan Bank Group, Inc. (NC Bancorp, Inc.),
6/26/2009                                                                    Preferred Stock w/ Exercised Warrants            $7,186,000                                                                                                                                     $3,454,185
             Chicago, IL2,41
4/10/2009    Metropolitan Capital Bancorp, Inc., Chicago, IL2                Preferred Stock w/ Exercised Warrants            $2,040,000                                                                                                                                       $807,654
11/20/2009   Metropolitan Capital Bancorp, Inc., Chicago, IL2,10a            Preferred Stock                                  $2,348,000
12/19/2008   Mid Penn Bancorp, Inc., Millersburg, PA                         Preferred Stock w/ Warrants                     $10,000,000   12/28/2012        $10,000,000              $—     1/23/2013       R              $58,479            $11.24        73,099          $2,012,500
1/30/2009    Middleburg Financial Corporation, Middleburg, VA                Preferred Stock w/ Warrants                     $22,000,000   12/23/2009        $22,000,000              $—     11/18/2011      P             $301,001                                            $986,944
1/23/2009    Midland States Bancorp, Inc., Effingham, IL2                    Preferred Stock w/ Exercised Warrants           $10,189,000   12/23/2009        $10,189,000              $—     12/23/2009      R             $509,000                                            $508,989
1/9/2009     MidSouth Bancorp, Inc., Lafayette, LA49                         Preferred Stock w/ Warrants                     $20,000,000   8/25/2011         $20,000,000              $—     11/18/2011      P             $206,557                                          $2,627,778
2/27/2009    Midtown Bank & Trust Company, Atlanta, GA2                      Preferred Stock w/ Exercised Warrants            $5,222,000                                                                                                                                       $275,105
                                                                             Mandatorily Convertible Preferred Stock
12/5/2008    Midwest Banc Holdings, Inc., Melrose Park, IL14,20                                                              $89,388,000                                                                                                                  4,282,020            $824,289
                                                                             w/ Warrants
2/13/2009    Midwest Regional Bancorp, Inc., Festus, MO2                     Preferred Stock w/ Exercised Warrants             $700,000    11/10/2009           $700,000              $—     11/10/2009      R              $35,000                                             $28,294
2/6/2009     MidWestOne Financial Group, Inc., Iowa City, IA                 Preferred Stock w/ Warrants                     $16,000,000   7/6/2011          $16,000,000              $—     7/27/2011       R           $1,000,000            $23.81                        $1,933,333
             Mid-Wisconsin Financial Services, Inc.,
2/20/2009                                                                    Preferred Stock w/ Exercised Warrants           $10,000,000                                                                                                        $5.50                        $1,082,431
             Medford, WI2
4/3/2009     Millennium Bancorp, Inc., Edwards, CO2,84                       Preferred Stock w/ Exercised Warrants            $7,260,000   8/14/2012           $2,904,000             $—     8/14/2012                           $—                                          $1,392,562
1/9/2009     Mission Community Bancorp, San Luis Obispo, CA3                 Preferred Stock                                  $5,116,000   12/28/2011          $5,116,000             $—     N/A                                 N/A            $4.00                          $759,584
12/23/2008   Mission Valley Bancorp, Sun Valley, CA3,30                      Preferred Stock                                  $5,500,000   8/20/2010           $5,500,000             $—     N/A                                 N/A                                           $456,042
12/19/2008   Monadnock Bancorp, Inc., Peterborough, NH2                      Preferred Stock w/ Exercised Warrants            $1,834,000   12/28/2012          $1,834,000             $—     12/28/2012      R              $92,000             $5.25                          $413,349
2/6/2009     Monarch Community Bancorp, Inc., Coldwater, MI                  Preferred Stock w/ Warrants                      $6,785,000                                                                                                        $1.12       260,962            $262,919
12/19/2008   Monarch Financial Holdings, Inc., Chesapeake, VA                Preferred Stock w/ Warrants                     $14,700,000   12/23/2009        $14,700,000              $—     2/10/2010       R             $260,000            $10.61                          $743,167
3/13/2009    Moneytree Corporation, Lenoir City, TN2,50                      Preferred Stock w/ Exercised Warrants            $9,516,000   9/15/2011           $9,516,000             $—     9/15/2011       R             $476,000                                          $1,299,481
1/30/2009    Monument Bank, Bethesda, MD2,49                                 Preferred Stock w/ Exercised Warrants            $4,734,000   8/11/2011           $4,734,000             $—     8/11/2011       R             $237,000                                            $652,959
10/28/2008   Morgan Stanley, New York, NY                                    Preferred Stock w/ Warrants                 $10,000,000,000   6/17/2009      $10,000,000,000             $—     8/12/2009       R        $950,000,000             $21.98                     $318,055,555
                                                                                                                                                                                                                                                                   Continued on next page
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)
                                                                                                                                Capital                                           Final                                                           Current
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
                                                     2
1/16/2009    Morrill Bancshares, Inc., Merriam, KS                  Preferred Stock w/ Exercised Warrants         $13,000,000   7/20/2011         $13,000,000              $—     7/20/2011       R             $650,000                                          $1,779,122
                                                                                                                                4/25/2012           $1,100,000      $5,116,000
1/23/2009    Moscow Bancshares, Inc., Moscow, TN2                   Preferred Stock w/ Exercised Warrants          $6,216,000                                                     12/5/2012       R             $311,000                                          $1,276,377
                                                                                                                                12/5/2012           $5,116,000             $—
9/25/2009    Mountain Valley Bancshares, Inc., Cleveland, GA2       Preferred Stock w/ Exercised Warrants          $3,300,000                                                                                                                                       $609,492
3/27/2009    MS Financial, Inc., Kingwood, TX2                      Preferred Stock w/ Exercised Warrants          $7,723,000   10/19/2011          $7,723,000             $—     10/19/2011      R             $386,000                                          $1,097,290
12/23/2008   MutualFirst Financial, Inc., Muncie, IN50              Preferred Stock w/ Warrants                   $32,382,000   8/25/2011         $32,382,000              $—     9/28/2011       R             $900,194            $14.35                        $4,326,595
3/27/2009    Naples Bancorp, Inc., Naples, FL2,99                   Preferred Stock w/ Exercised Warrants          $4,000,000   7/12/2012            $600,000              $—     N/A                                 N/A                                           $356,067
2/27/2009    National Bancshares, Inc., Bettendorf, IA2,212         Preferred Stock w/ Exercised Warrants         $24,664,000   2/20/2013         $18,318,148              $—     2/20/2013       P             $845,448                                          $2,307,492
12/12/2008   National Penn Bancshares, Inc., Boyertown, PA          Preferred Stock w/ Warrants                 $150,000,000    3/16/2011        $150,000,000              $—     4/13/2011       R           $1,000,000            $10.69                       $16,958,333
                                                                    Subordinated Debentures
12/11/2009   Nationwide Bankshares, Inc., West Point, NE8                                                          $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000                                            $176,190
                                                                    w/ Exercised Warrants
12/19/2008   NCAL Bancorp, Los Angeles, CA2                         Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                        $1.40                        $1,311,028
                                                                    Subordinated Debentures w/ Exercised
6/19/2009    NEMO Bancshares Inc., Madison, MO8                                                                    $2,330,000                                                                                                                                       $714,866
                                                                    Warrants
             New Hampshire Thrift Bancshares, Inc., Newport,
1/16/2009                                                           Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     2/15/2012       R             $737,100            $13.20                        $1,304,167
             NH49
             New York Private Bank & Trust Corporation,
1/9/2009                                                            Preferred Stock w/ Exercised Warrants       $267,274,000                                                                                                                                     $59,722,486
             New York, NY2
12/12/2008   NewBridge Bancorp, Greensboro, NC                      Preferred Stock w/ Warrants                   $52,372,000                                                                                                        $5.89     2,567,255         $10,932,655
12/23/2008   Nicolet Bankshares, Inc., Green Bay, WI2,49            Preferred Stock w/ Exercised Warrants         $14,964,000   9/1/2011          $14,964,000              $—     9/1/2011        R             $748,000                                          $2,192,843
1/9/2009     North Central Bancshares, Inc., Fort Dodge, IA         Preferred Stock w/ Warrants                   $10,200,000   12/14/2011        $10,200,000              $—     1/11/2012       R             $600,000            $30.84                        $1,494,583
12/12/2008   Northeast Bancorp, Lewiston, ME                        Preferred Stock w/ Warrants                    $4,227,000   11/28/2012          $4,227,000             $—     12/28/2012      R              $95,000             $9.44                          $837,181
5/15/2009    Northern State Bank, Closter, NJ2                      Preferred Stock w/ Exercised Warrants          $1,341,000   3/28/2012           $1,341,000             $—     3/28/2012       R              $67,000                                            $349,782
12/18/2009   Northern State Bank, Closter, NJ2,10a                  Preferred Stock                                $1,230,000   3/28/2012           $1,230,000             $—     N/A                                 N/A
             Northern States Financial Corporation,
2/20/2009                                                           Preferred Stock w/ Warrants                   $17,211,000                                                                                                        $0.77       584,084            $418,323
             Waukegan, IL
11/14/2008   Northern Trust Corporation, Chicago, IL                Preferred Stock w/ Warrants                $1,576,000,000   6/17/2009       $1,576,000,000             $—     8/26/2009       R          $87,000,000            $54.56                       $46,623,333
1/30/2009    Northway Financial, Inc., Berlin, NH2,49               Preferred Stock w/ Exercised Warrants         $10,000,000   9/15/2011         $10,000,000              $—     9/15/2011       R             $500,000            $15.85                        $1,430,625
2/13/2009    Northwest Bancorporation, Inc., Spokane, WA2,220       Preferred Stock w/ Exercised Warrants         $10,500,000   3/11/2013         $10,728,783              $—     3/11/2013       P             $587,635                                            $575,430
2/13/2009    Northwest Commercial Bank, Lakewood, WA2               Preferred Stock w/ Exercised Warrants          $1,992,000   1/9/2013            $1,992,000             $—     1/9/2013        R             $100,000                                            $288,393
1/30/2009    Oak Ridge Financial Services, Inc., Oak Ridge, NC139   Preferred Stock w/ Warrants                    $7,700,000   10/31/2012          $7,024,595             $—     2/6/2013        R             $122,888             $4.23       163,830          $1,444,854
12/5/2008    Oak Valley Bancorp, Oakdale, CA50                      Preferred Stock w/ Warrants                   $13,500,000   8/11/2011         $13,500,000              $—     9/28/2011       R             $560,000             $8.14                        $1,811,250
1/16/2009    OceanFirst Financial Corp., Toms River, NJ             Preferred Stock w/ Warrants                   $38,263,000   12/30/2009        $38,263,000              $—     2/3/2010        R             $430,797            $14.42                        $1,828,122
1/30/2009    Ojai Community Bank, Ojai, CA2                         Preferred Stock w/ Exercised Warrants          $2,080,000                                                                                                        $6.25                          $401,483
12/5/2008    Old Line Bancshares, Inc., Bowie, MD                   Preferred Stock w/ Warrants                    $7,000,000   7/15/2009           $7,000,000             $—     9/2/2009        R             $225,000            $12.42                          $213,889
12/12/2008   Old National Bancorp, Evansville, IN                   Preferred Stock w/ Warrants                 $100,000,000    3/31/2009        $100,000,000              $—     5/8/2009        R           $1,200,000            $13.75                        $1,513,889
                                                                                                                                3/11/2013         $24,438,021       $2,972,000
1/16/2009    Old Second Bancorp, Inc., Aurora, IL224,227            Preferred Stock w/ Warrants                   $73,000,000                                                                                                        $3.18       815,339          $5,769,028
                                                                                                                                3/27/2013           $1,109,298             $—
                                                     2
4/17/2009    Omega Capital Corp., Lakewood, CO                      Preferred Stock w/ Exercised Warrants          $2,816,000                                                                                                                                        $50,311
5/8/2009     One Georgia Bank, Atlanta, GA2,56                      Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                                             $—

                                                         8,10       Subordinated Debentures
6/5/2009     OneFinancial Corporation, Little Rock, AR                                                            $17,300,000                                                                                                                                     $3,782,991
                                                                    w/ Exercised Warrants
12/19/2008   OneUnited Bank, Boston, MA2,3                          Preferred Stock                               $12,063,000                                                                                                                                        $93,823
4/24/2009    Oregon Bancorp, Inc., Salem, OR2                       Preferred Stock w/ Exercised Warrants          $3,216,000                                                                                                       $12.00                          $667,563
                                                                    Subordinated Debentures
5/1/2009     OSB Financial Services, Inc., Orange, TX8                                                             $6,100,000   10/5/2011           $6,100,000             $—     10/5/2011       R             $305,000                                          $1,257,315
                                                                    w/ Exercised Warrants
                                                             29
11/21/2008   Pacific Capital Bancorp, Santa Barbara, CA             Common Stock w/ Warrants                    $195,045,000    11/30/2012       $165,983,272              $—     11/30/2012      R             $393,121                                          $2,107,397
12/19/2008   Pacific City Financial Corporation, Los Angeles, CA2   Preferred Stock w/ Exercised Warrants         $16,200,000                                                                                                                                       $358,065
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




             Pacific Coast Bankers’ Bancshares,
12/23/2008                                                          Preferred Stock w/ Exercised Warrants         $11,600,000   7/28/2011         $11,600,000              $—     7/28/2011       R             $580,000                                          $1,641,964
             San Francisco, CA2,50
             Pacific Coast National Bancorp,
1/16/2009                                                           Preferred Stock w/ Exercised Warrants          $4,120,000   2/11/2010                 $—               $—     N/A                                 N/A            $0.01                           $18,088
             San Clemente, CA2,19
                                                         2
12/23/2008   Pacific Commerce Bank, Los Angeles, CA                 Preferred Stock w/ Exercised Warrants          $4,060,000                                                                                                        $5.00                          $387,223
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 251
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)                                                                                                                                                                                                                               252
                                                                                                                                 Capital                                           Final                                                           Current
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                            Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
                                                          208
12/12/2008   Pacific International Bancorp, Seattle, WA             Preferred Stock w/ Warrants                     $6,500,000   2/15/2013           $6,500,000             $—                                                       $13.06                        $1,437,754
3/6/2009     Park Bancorporation, Inc., Madison, WI2,106            Preferred Stock w/ Exercised Warrants          $23,200,000   7/27/2012         $16,772,382              $—     7/27/2012       P             $896,039                                          $4,351,643
12/23/2008   Park National Corporation, Newark, OH                  Preferred Stock w/ Warrants                  $100,000,000    4/25/2012        $100,000,000              $—     5/2/2012        R           $2,842,400            $69.79                       $16,694,444
1/30/2009    Parke Bancorp, Inc., Sewell, NJ174                     Preferred Stock w/ Warrants                    $16,288,000   11/29/2012        $11,595,735              $—                                                        $7.14       399,006          $3,119,532
             Pascack Bancorp, Inc. (Pascack Community
2/6/2009                                                            Preferred Stock w/ Exercised Warrants           $3,756,000   10/19/2011          $3,756,000             $—     10/19/2011      R             $188,000                                            $553,313
             Bank), Westwood, NJ2,13
12/19/2008   Patapsco Bancorp, Inc., Dundalk, MD2                   Preferred Stock w/ Exercised Warrants           $6,000,000                                                                                                        $2.25                          $377,867
9/11/2009    Pathfinder Bancorp, Inc., Oswego, NY49                 Preferred Stock w/ Warrants                     $6,771,000   9/1/2011            $6,771,000             $—     2/1/2012        R             $537,633            $12.95                          $667,696
3/27/2009    Pathway Bancorp, Cairo, NE2                            Preferred Stock w/ Exercised Warrants           $3,727,000                                                                                                                                        $77,852
12/19/2008   Patriot Bancshares, Inc., Houston, TX2                 Preferred Stock w/ Exercised Warrants          $26,038,000                                                                                                                                     $2,704,136
                                                                                                                                 3/7/2012             $250,000       $3,440,000
4/17/2009    Patterson Bancshares, Inc, Patterson, LA2              Preferred Stock w/ Exercised Warrants           $3,690,000   8/22/2012            $250,000       $3,190,000                                                                                      $768,894
                                                                                                                                 12/5/2012            $250,000       $2,940,000
                                                                                                                                 1/6/2010            $7,172,000     $21,513,000
             Peapack-Gladstone Financial Corporation,
1/9/2009                                                            Preferred Stock w/ Warrants                    $28,685,000   3/2/2011            $7,172,000     $14,341,000    4/4/2012        R             $110,000            $14.91                        $3,280,740
             Gladstone, NJ
                                                                                                                                 1/11/2012         $14,341,000              $—
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




1/30/2009    Peninsula Bank Holding Co., Palo Alto, CA              Preferred Stock w/ Warrants                     $6,000,000                                                                                                                     81,670          $1,233,943
4/17/2009    Penn Liberty Financial Corp., Wayne, PA2,49            Preferred Stock w/ Exercised Warrants           $9,960,000   9/1/2011            $9,960,000             $—     9/1/2011        R             $498,000                                          $1,287,689
2/13/2009    Peoples Bancorp, Lynden, WA2,62                        Preferred Stock w/ Exercised Warrants          $18,000,000   8/3/2011          $18,000,000              $—     8/3/2011        R             $900,000                                          $2,425,250
                                                                                                                                 2/2/2011          $21,000,000      $18,000,000
1/30/2009    Peoples Bancorp Inc., Marietta, OH                     Preferred Stock w/ Warrants                    $39,000,000                                                     2/15/2012       R           $1,200,724            $22.39                        $4,725,833
                                                                                                                                 12/28/2011        $18,000,000              $—
             Peoples Bancorp of North Carolina, Inc.,
12/23/2008                                                          Preferred Stock w/ Warrants                    $25,054,000   6/27/2012         $23,033,635              $—     8/8/2012        R             $425,000            $11.17                        $4,419,331
             Newton, NC93
4/24/2009    Peoples Bancorporation, Inc., Easley, SC2,83           Preferred Stock w/ Exercised Warrants          $12,660,000   4/24/2012         $12,660,000              $—     4/24/2012       R             $633,000                                          $2,069,910
3/20/2009    Peoples Bancshares of TN, Inc, Madisonville, TN2,142   Preferred Stock w/ Exercised Warrants           $3,900,000   10/31/2012          $2,919,500             $—     10/31/2012      R             $122,225                                            $768,149
3/6/2009     PeoplesSouth Bancshares, Inc., Colquitt, GA2           Preferred Stock w/ Exercised Warrants          $12,325,000                                                                                                                                     $2,647,578
9/11/2009    PFSB Bancorporation, Inc., Pigeon Falls, WI2,10,50     Preferred Stock w/ Exercised Warrants           $1,500,000   8/25/2011           $1,500,000             $—     8/25/2011       R              $71,000                                            $159,163
2/6/2009     PGB Holdings, Inc., Chicago, IL3,30                    Preferred Stock                                 $3,000,000   8/13/2010           $3,000,000             $—     N/A                                 N/A                                           $227,917
1/23/2009    Pierce County Bancorp, Tacoma, WA2,51                  Preferred Stock w/ Exercised Warrants           $6,800,000                                                                                                                                       $207,948
             Pinnacle Bank Holding Company, Inc.,
3/6/2009                                                            Preferred Stock w/ Exercised Warrants           $4,389,000                                                                                                                    267,455            $284,999
             Orange City, FL2,116
                                                                                                                                 12/28/2011        $23,750,000      $71,250,000
12/12/2008   Pinnacle Financial Partners, Inc., Nashville, TN       Preferred Stock w/ Warrants                    $95,000,000                                                     7/18/2012       R             $755,000            $23.36                       $16,163,194
                                                                                                                                 6/20/2012         $71,250,000              $—
12/19/2008   Plains Capital Corporation, Dallas, TX2,49             Preferred Stock w/ Exercised Warrants          $87,631,000   9/27/2011         $87,631,000              $—     9/27/2011       R           $4,382,000                                         $13,239,940
                                                                    Subordinated Debentures w/ Exercised
7/17/2009    Plato Holdings Inc., Saint Paul, MN8,10                                                                $2,500,000                                                                                                                                       $534,286
                                                                    Warrants
1/30/2009    Plumas Bancorp, Quincy, CA                             Preferred Stock w/ Warrants                    $11,949,000                                                                                                        $5.24       237,712            $622,344
12/5/2008    Popular, Inc., San Juan, PR12                          Trust Preferred Securities w/ Warrants       $935,000,000                                                                                                        $27.60     2,093,284       $183,234,028
11/21/2008   Porter Bancorp Inc., Louisville, KY                    Preferred Stock w/ Warrants                    $35,000,000                                                                                                        $0.90       330,561          $4,783,333
4/3/2009     Prairie Star Bancshares, Inc., Olathe, KS2             Preferred Stock w/ Exercised Warrants           $2,800,000                                                                                                                                       $132,253
5/8/2009     Premier Bancorp, Inc., Wilmette, IL3,8,30              Subordinated Debentures                         $6,784,000   8/13/2010           $6,784,000             $—     N/A                                 N/A                                           $660,215
             Premier Bank Holding Company, Tallahassee,
3/20/2009                                                           Preferred Stock w/ Exercised Warrants           $9,500,000                                                                                                                                       $467,413
             FL2,14
10/2/2009    Premier Financial Bancorp, Inc., Huntington, WV112     Preferred Stock w/ Warrants                    $22,252,000   7/27/2012         $19,849,222              $—                                                       $11.79       628,588          $3,203,018
                                                                    Subordinated Debentures
5/22/2009    Premier Financial Corp, Dubuque, IA8                                                                   $6,349,000                                                                                                                                       $522,263
                                                                    w/ Exercised Warrants
2/20/2009    Premier Service Bank, Riverside, CA2                   Preferred Stock w/ Exercised Warrants           $4,000,000                                                                                                        $2.04                           $54,500
2/13/2009    PremierWest Bancorp, Medford, OR186                    Preferred Stock w/ Warrants                    $41,400,000                                                                                                        $1.99       109,039          $1,046,500
11/20/2009   Presidio Bank, San Francisco, CA2,10,184               Preferred Stock w/ Exercised Warrants          $10,800,000   12/11/2012          $9,058,369             $—     12/11/2012      P             $278,381             $8.07                        $1,740,944
1/23/2009    Princeton National Bancorp, Inc., Princeton, IL159     Preferred Stock w/ Warrants                    $25,083,000                                                                                                        $0.02       155,025          $2,271,405
2/27/2009    Private Bancorporation, Inc., Minneapolis, MN2         Preferred Stock w/ Exercised Warrants           $4,960,000
                                                                                                                                                                                                                                                                     $498,860
12/29/2009   Private Bancorporation, Inc., Minneapolis, MN2,10a     Preferred Stock                                 $3,262,000
                                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)
                                                                                                                               Capital                                           Final                                                           Current
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                           Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
                                                5
1/30/2009    PrivateBancorp, Inc., Chicago, IL                     Preferred Stock w/ Warrants                 $243,815,000    10/24/2012       $243,815,000              $—     11/14/2012      R           $1,225,000            $18.89                       $45,512,133
10/2/2009    Providence Bank, Rocky Mount, NC2,10,49               Preferred Stock w/ Exercised Warrants          $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $175,000                                            $421,312
             Provident Community Bancshares, Inc.,
3/13/2009                                                          Preferred Stock w/ Warrants                    $9,266,000                                                                                                        $0.36       178,880            $543,091
             Rock Hill, SC
                                                    2,30
2/27/2009    PSB Financial Corporation, Many, LA                   Preferred Stock w/ Exercised Warrants          $9,270,000   9/29/2010           $9,270,000             $—     9/29/2010       R             $464,000                                            $802,802
1/16/2009    Puget Sound Bank, Bellevue, WA2,49                    Preferred Stock w/ Exercised Warrants          $4,500,000   8/11/2011           $4,500,000             $—     8/11/2011       R             $225,000            $12.50                          $630,157
1/16/2009    Pulaski Financial Corp, Creve Coeur, MO96             Preferred Stock w/ Warrants                   $32,538,000   6/27/2012         $28,460,338              $—     8/8/2012        R           $1,100,000            $10.57                        $5,635,509
2/13/2009    QCR Holdings, Inc., Moline, IL49                      Preferred Stock w/ Warrants                   $38,237,000   9/15/2011         $38,237,000              $—     11/16/2011      R           $1,100,000            $16.50                        $4,949,567
10/30/2009   Randolph Bank & Trust Company, Asheboro, NC2          Preferred Stock w/ Exercised Warrants          $6,229,000                                                                                                                                       $608,163
6/19/2009    RCB Financial Corporation, Rome, GA2,10               Preferred Stock w/ Exercised Warrants          $8,900,000                                                                                                                                       $893,934
1/16/2009    Redwood Capital Bancorp, Eureka, CA2,49               Preferred Stock w/ Exercised Warrants          $3,800,000   7/21/2011           $3,800,000             $—     7/21/2011       R             $190,000             $7.85                          $520,626
1/9/2009     Redwood Financial Inc., Redwood Falls, MN2,49         Preferred Stock w/ Exercised Warrants          $2,995,000   8/18/2011           $2,995,000             $—     8/18/2011       R             $150,000            $15.53                          $425,811
3/6/2009     Regent Bancorp, Inc., Davie, FL2                      Preferred Stock w/ Exercised Warrants          $9,982,000                                                                                                                                       $784,282
2/27/2009    Regent Capital Corporation, Nowata, OK2,49            Preferred Stock w/ Exercised Warrants          $2,655,000   7/21/2011           $2,655,000             $—     7/21/2011       R             $133,000                                            $347,328
10/23/2009   Regents Bancshares, Inc., Vancouver, WA2,10,69        Preferred Stock w/ Exercised Warrants         $12,700,000   1/27/2012         $12,700,000              $—     1/27/2012       R             $381,000                                          $1,513,339
2/13/2009    Regional Bankshares, Inc., Hartsville, SC2,151        Preferred Stock w/ Exercised Warrants          $1,500,000   11/9/2012           $1,373,625             $—     11/9/2012       P              $74,250                                            $305,660
11/14/2008   Regions Financial Corporation, Birmingham, AL         Preferred Stock w/ Warrants                $3,500,000,000   4/4/2012        $3,500,000,000             $—     5/2/2012        R          $45,000,000             $8.19                     $593,055,556
2/13/2009    Reliance Bancshares, Inc., Frontenac, MO2             Preferred Stock w/ Exercised Warrants         $40,000,000                                                                                                        $0.90                        $3,827,111
             Ridgestone Financial Services, Inc.,
2/27/2009                                                          Preferred Stock w/ Exercised Warrants         $10,900,000   2/20/2013           $8,876,677             $—     2/20/2013       P             $476,207                                            $277,224
             Brookfield, WI2,213
1/9/2009     Rising Sun Bancorp, Rising Sun, MD2                   Preferred Stock w/ Exercised Warrants          $5,983,000                                                                                                                                       $195,637
                                                                   Subordinated Debentures
6/12/2009    River Valley Bancorporation, Inc., Wausau, WI8                                                      $15,000,000   6/6/2012          $10,500,000       $4,500,000                                                      $21.50                        $4,065,775
                                                                   w/ Exercised Warrants
                                                                   Subordinated Debentures
5/15/2009    Riverside Bancshares, Inc., Little Rock, AR8                                                         $1,100,000                                                                                                                                       $299,943
                                                                   w/ Exercised Warrants
                                                           2
1/30/2009    Rogers Bancshares, Inc., Little Rock, AR              Preferred Stock w/ Exercised Warrants         $25,000,000                                                                                                                                       $738,021
             Royal Bancshares of Pennsylvania, Inc.,
2/20/2009                                                          Preferred Stock w/ Warrants                   $30,407,000                                                                                                        $1.50     1,104,370            $358,971
             Narberth, PA
1/16/2009    S&T Bancorp, Indiana, PA                              Preferred Stock w/ Warrants                 $108,676,000    12/7/2011        $108,676,000              $—                                                       $18.54       517,012         $15,712,738
12/23/2008   Saigon National Bank, Westminster, CA2                Preferred Stock w/ Exercised Warrants          $1,549,000                                                                                                        $0.23                                $—
3/13/2009    Salisbury Bancorp, Inc., Lakeville, CT49              Preferred Stock w/ Warrants                    $8,816,000   8/25/2011           $8,816,000             $—     11/2/2011       R             $205,000            $25.61                        $1,079,960
                                                                                                                               7/21/2010         $41,547,000      $41,547,000
12/5/2008    Sandy Spring Bancorp, Inc., Olney, MD                 Preferred Stock w/ Warrants                   $83,094,000                                                     2/23/2011       R           $4,450,000            $20.10                        $7,593,868
                                                                                                                               12/15/2010        $41,547,000              $—
2/13/2009    Santa Clara Valley Bank, N.A., Santa Paula, CA2,221   Preferred Stock w/ Exercised Warrants          $2,900,000   3/11/2013           $2,440,029             $—     3/11/2013       P              $98,251             $5.94                          $158,928
12/19/2008   Santa Lucia Bancorp, Atascadero, CA64                 Preferred Stock w/ Warrants                    $4,000,000   10/21/2011          $2,800,000             $—     N/A                                 N/A            $0.34                          $331,111
3/27/2009    SBT Bancorp, Inc., Simsbury, CT2,49                   Preferred Stock w/ Exercised Warrants          $4,000,000   8/11/2011           $4,000,000             $—     8/11/2011       R             $200,000                                            $517,145
1/16/2009    SCBT Financial Corporation, Columbia, SC              Preferred Stock w/ Warrants                   $64,779,000   5/20/2009         $64,779,000              $—     6/24/2009       R           $1,400,000            $50.40                        $1,115,639
             Seacoast Banking Corporation of Florida,
12/19/2008                                                         Preferred Stock w/ Warrants                   $50,000,000   3/28/2012         $40,404,700              $—     5/30/2012       R              $55,000             $2.09                        $8,585,770
             Stuart, FL77
12/23/2008   Seacoast Commerce Bank, Chula Vista, CA2,49           Preferred Stock w/ Exercised Warrants          $1,800,000   9/1/2011            $1,800,000             $—     9/1/2011        R              $90,000             $4.75                          $263,780
             Security Bancshares of Pulaski County, Inc.,
2/13/2009                                                          Preferred Stock w/ Exercised Warrants          $2,152,000   12/11/2012          $1,475,592             $—     12/11/2012      P              $93,245                                            $449,073
             Waynesville, MO2,185
1/9/2009     Security Business Bancorp, San Diego, CA2,49          Preferred Stock w/ Exercised Warrants          $5,803,000   7/14/2011           $5,803,000             $—     7/14/2011       R             $290,000                                            $795,018
1/9/2009     Security California Bancorp, Riverside, CA2,49        Preferred Stock w/ Exercised Warrants          $6,815,000   9/15/2011           $6,815,000             $—     9/15/2011       R             $341,000             $9.11                          $996,698
6/26/2009    Security Capital Corporation, Batesville, MS2,10,30   Preferred Stock w/ Exercised Warrants         $17,388,000   9/29/2010         $17,388,000              $—     9/29/2010       R             $522,000                                          $1,153,111
12/19/2008   Security Federal Corporation, Aiken, SC30             Preferred Stock w/ Warrants                   $18,000,000   9/29/2010         $18,000,000              $—                                                       $10.75       137,966          $1,600,000
2/20/2009    Security State Bancshares, Inc., Charleston, MO2,49   Preferred Stock w/ Exercised Warrants         $12,500,000   9/22/2011         $12,500,000              $—     9/22/2011       R             $625,000                                          $1,763,680
             Security State Bank Holding-Company,                  Subordinated Debentures w/ Exercised
5/1/2009                                                                                                         $10,750,000                                                                                                                                     $1,414,005
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




             Jamestown, ND8                                        Warrants
11/21/2008   Severn Bancorp, Inc., Annapolis, MD                   Preferred Stock w/ Warrants                   $23,393,000                                                                                                        $5.30       556,976          $3,781,869
1/9/2009     Shore Bancshares, Inc., Easton, MD                    Preferred Stock w/ Warrants                   $25,000,000   4/15/2009         $25,000,000              $—     11/16/2011      R              $25,000             $6.79       172,970            $333,333
                                                                   Subordinated Debentures w/ Exercised
6/26/2009    Signature Bancshares, Inc., Dallas, TX8                                                              $1,700,000   12/15/2010          $1,700,000             $—     12/15/2010      R              $85,000                                            $209,588
                                                                   Warrants
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                253
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)                                                                                                                                                                                                                                   254
                                                                                                                                     Capital                                           Final                                                           Current
Purchase                                                                                                                             Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                                Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
12/12/2008   Signature Bank, New York, NY                               Preferred Stock w/ Warrants                  $120,000,000    3/31/2009        $120,000,000              $—     3/10/2010       A          $11,150,940            $78.76                        $1,816,667
1/16/2009    Somerset Hills Bancorp, Bernardsville, NJ                  Preferred Stock w/ Warrants                     $7,414,000   5/20/2009           $7,414,000             $—     6/24/2009       R             $275,000            $11.63                          $127,686
2/20/2009    Sonoma Valley Bancorp, Sonoma, CA2,25                      Preferred Stock w/ Exercised Warrants           $8,653,000                                                                                                                                       $347,164
1/9/2009     Sound Banking Company, Morehead City, NC2,152              Preferred Stock w/ Exercised Warrants           $3,070,000   11/13/2012          $2,804,089             $—     11/13/2012      P             $147,918             $5.70                          $643,399
12/5/2008    South Financial Group, Inc., Greenville, SC26              Preferred Stock w/ Warrants                  $347,000,000    9/30/2010        $130,179,219              $—     9/30/2010       R             $400,000                                         $16,386,111
7/17/2009    SouthCrest Financial Group, Inc., Fayetteville, GA2,222    Preferred Stock w/ Exercised Warrants          $12,900,000   3/11/2013         $11,587,256              $—     3/11/2013       P             $588,264             $5.35                          $933,494
1/16/2009    Southern Bancorp, Inc., Arkadelphia, AR3,30                Preferred Stock                                $11,000,000   8/6/2010          $11,000,000              $—     N/A                                 N/A                                           $855,556
             Southern Community Financial Corp.,
12/5/2008                                                               Preferred Stock w/ Warrants                    $42,750,000   10/1/2012         $42,750,000              $—     N/A                                 N/A                                         $8,338,046
             Winston-Salem, NC131
2/27/2009    Southern First Bancshares, Inc., Greenville, SC98          Preferred Stock w/ Warrants                    $17,299,000   6/27/2012         $15,403,722              $—     7/25/2012       R           $1,100,000            $10.45                        $2,897,640
             Southern Heritage Bancshares, Inc.,
5/15/2009                                                               Preferred Stock w/ Exercised Warrants           $4,862,000   9/8/2011            $4,862,000             $—     9/8/2011        R             $243,000                                            $613,111
             Cleveland, TN2,50
1/23/2009    Southern Illinois Bancorp, Inc., Carmi, IL2,49             Preferred Stock w/ Exercised Warrants           $5,000,000   8/25/2011           $5,000,000             $—     8/25/2011       R             $250,000                                            $705,472
12/5/2008    Southern Missouri Bancorp, Inc., Poplar Bluff, MO49        Preferred Stock w/ Warrants                     $9,550,000   7/21/2011           $9,550,000             $—                                                       $26.25       114,326          $1,254,764
6/12/2009    SouthFirst Bancshares, Inc., Sylacauga, AL2                Preferred Stock w/ Exercised Warrants           $2,760,000                                                                                                        $1.50                          $364,796
12/5/2008    Southwest Bancorp, Inc., Stillwater, OK                    Preferred Stock w/ Warrants                    $70,000,000   8/8/2012          $70,000,000              $—                                                       $12.56       703,753         $12,960,373
                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




3/13/2009    Sovereign Bancshares, Inc., Dallas, TX2,49                 Preferred Stock w/ Exercised Warrants          $18,215,000   9/22/2011         $18,215,000              $—     9/22/2011       R             $911,000                                          $2,506,669
3/27/2009    Spirit BankCorp, Inc., Bristow, OK2                        Preferred Stock w/ Exercised Warrants          $30,000,000                                                                                                                                     $2,261,750
3/13/2009    St. Johns Bancshares, Inc., St. Louis, MO2                 Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                                       $641,283
4/24/2009    Standard Bancshares, Inc., Hickory Hills, IL2,158          Preferred Stock w/ Exercised Warrants          $60,000,000   2/22/2013         $60,000,000              $—     2/22/2013       R           $3,000,000                                         $12,757,163
                                                                                                                                     8/12/2009         $12,500,000      $37,500,000
1/16/2009    State Bankshares, Inc., Fargo, ND2                         Preferred Stock w/ Exercised Warrants          $50,000,000                                                     6/29/2011       R           $2,500,000                                          $5,508,472
                                                                                                                                     6/29/2011         $37,500,000              $—
2/13/2009    State Capital Corporation, Greenwood, MS2,30               Preferred Stock w/ Exercised Warrants          $15,000,000   9/29/2010         $15,000,000              $—     9/29/2010       R             $750,000                                          $1,330,709
10/28/2008   State Street Corporation, Boston, MA                       Preferred Stock w/ Warrants                 $2,000,000,000   6/17/2009       $2,000,000,000             $—     7/8/2009        R          $60,000,000            $59.09                       $63,611,111
                                                                        Subordinated Debentures w/ Exercised
6/26/2009    Stearns Financial Services, Inc., St. Cloud, MN8                                                          $24,900,000   1/18/2012         $24,900,000              $—     1/18/2012       R           $1,245,000                                          $5,350,442
                                                                        Warrants

                                                              8,10,50   Subordinated Debentures w/ Exercised
9/25/2009    Steele Street Bank Corporation, Denver, CO                                                                $11,019,000   9/1/2011          $11,019,000              $—     9/1/2011        R             $331,000                                          $1,728,673
                                                                        Warrants
                                                                                                                                     4/13/2011           $7,500,000     $22,500,000
12/19/2008   StellarOne Corporation, Charlottesville, VA                Preferred Stock w/ Warrants                    $30,000,000                                                                                                       $16.15       302,623          $4,271,875
                                                                                                                                     12/28/2011        $22,500,000              $—
12/23/2008   Sterling Bancorp, New York, NY                             Preferred Stock w/ Warrants                    $42,000,000   4/27/2011         $42,000,000              $—     5/18/2011       R             $945,775            $10.16                        $4,923,333
12/12/2008   Sterling Bancshares, Inc., Houston, TX                     Preferred Stock w/ Warrants                  $125,198,000    5/5/2009         $125,198,000              $—     6/9/2010        A           $2,857,915                                          $2,486,571
12/5/2008    Sterling Financial Corporation, Spokane, WA24,118          Common Stock w/ Warrants                     $303,000,000    8/14/2012        $113,338,081              $—     9/19/2012       R             $825,000            $21.69                        $6,733,333
             Stewardship Financial Corporation,
1/30/2009                                                               Preferred Stock w/ Warrants                    $10,000,000   9/1/2011          $10,000,000              $—     10/26/2011      R             $107,398             $5.46                        $1,293,055
             Midland Park, NJ49
                                                                                                                                     1/14/2011           $4,000,000     $11,568,000
2/6/2009     Stockmens Financial Corporation, Rapid City, SD2           Preferred Stock w/ Exercised Warrants          $15,568,000                                                     3/16/2011       R             $778,000                                          $1,755,554
                                                                                                                                     3/16/2011         $11,568,000              $—
1/23/2009    Stonebridge Financial Corp., West Chester, PA2,229         Preferred Stock w/ Exercised Warrants          $10,973,000   3/27/2013           $1,879,145             $—     3/27/2013       P             $139,063                                            $634,609
                                                                        Subordinated Debentures w/ Exercised
6/19/2009    Suburban Illinois Bancorp, Inc., Elmhurst, IL8                                                            $15,000,000                                                                                                                                     $2,083,520
                                                                        Warrants
12/19/2008   Summit State Bank, Santa Rosa, CA49                        Preferred Stock w/ Warrants                     $8,500,000   8/4/2011            $8,500,000             $—     9/14/2011       R             $315,000             $8.25                        $1,115,625
1/9/2009     Sun Bancorp, Inc., Vineland, NJ                            Preferred Stock w/ Warrants                    $89,310,000   4/8/2009          $89,310,000              $—     5/27/2009       R           $2,100,000             $3.41                        $1,103,971
11/14/2008   SunTrust Banks, Inc., Atlanta, GA                          Preferred Stock w/ Warrants                 $3,500,000,000   3/30/2011       $3,500,000,000             $—     9/22/2011       A          $14,069,763
                                                                                                                                                                                                                                         $28.81                     $567,986,111
12/31/2008   SunTrust Banks, Inc., Atlanta, GA                          Preferred Stock w/ Warrants                 $1,350,000,000   3/30/2011       $1,350,000,000             $—     9/22/2011       A          $15,996,899
12/5/2008    Superior Bancorp Inc., Birmingham, AL17,54                 Trust Preferred Securities w/ Warrants         $69,000,000                                                                                                                  1,923,792          $4,983,333
1/9/2009     Surrey Bancorp, Mount Airy, NC2                            Preferred Stock w/ Exercised Warrants           $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000             $8.00                          $214,972
                                                                                                                                     4/21/2010        $200,000,000     $100,000,000
12/12/2008   Susquehanna Bancshares, Inc, Lititz, PA                    Preferred Stock w/ Warrants                  $300,000,000                                                      1/19/2011       R           $5,269,179            $12.43                       $23,722,222
                                                                                                                                     12/22/2010       $100,000,000              $—
4/10/2009    SV Financial, Inc., Sterling, IL2                          Preferred Stock w/ Exercised Warrants           $4,000,000   8/31/2011           $4,000,000             $—     8/31/2011       R             $200,000                                            $521,383
12/12/2008   SVB Financial Group, Santa Clara, CA                       Preferred Stock w/ Warrants                  $235,000,000    12/23/2009       $235,000,000              $—     6/16/2010       R           $6,820,000            $70.94                       $12,109,028
                                                                        Subordinated Debentures
5/8/2009     Sword Financial Corporation , Horicon, WI8,49                                                             $13,644,000   9/15/2011         $13,644,000              $—     9/15/2011       R             $682,000                                          $2,693,234
                                                                        w/ Exercised Warrants
                                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)
                                                                                                                                   Capital                                           Final                                                           Current
Purchase                                                                                                                           Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                               Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
12/19/2008   Synovus Financial Corp., Columbus, GA                     Preferred Stock w/ Warrants                 $967,870,000                                                                                                         $2.77    15,510,737       $201,101,878
1/16/2009    Syringa Bancorp, Boise, ID2                               Preferred Stock w/ Exercised Warrants          $8,000,000                                                                                                        $0.02                          $253,122
11/21/2008   Taylor Capital Group, Rosemont, IL86                      Preferred Stock w/ Warrants                 $104,823,000    6/13/2012         $92,254,460              $—     7/18/2012       R           $9,839,273            $15.99                       $18,751,438
                                                                       Subordinated Debentures
8/28/2009    TCB Corporation, Greenwood, SC8,10,50                                                                    $9,720,000   9/8/2011            $9,720,000             $—     9/8/2011        R             $292,000                                          $1,599,381
                                                                       w/ Exercised Warrants
             TCB Holding Company, Texas Community Bank,
1/16/2009                                                              Preferred Stock w/ Exercised Warrants         $11,730,000                                                                                                                                       $690,832
             The Woodlands, TX2
11/14/2008   TCF Financial Corporation, Wayzata, MN                    Preferred Stock w/ Warrants                 $361,172,000    4/22/2009        $361,172,000              $—     12/15/2009      A           $9,449,981            $14.96                        $7,925,719
12/23/2008   TCNB Financial Corp., Dayton, OH2                         Preferred Stock w/ Exercised Warrants          $2,000,000   8/3/2011            $2,000,000             $—     8/3/2011        R             $100,000                                            $284,611
12/19/2008   Tennessee Commerce Bancorp, Inc., Franklin, TN70          Preferred Stock w/ Warrants                   $30,000,000                                                                                                                    461,538          $3,233,333
             Tennessee Valley Financial Holdings, Inc.,
12/23/2008                                                             Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                       $146,242
             Oak Ridge, TN2
1/16/2009    Texas Capital Bancshares, Inc., Dallas, TX                Preferred Stock w/ Warrants                   $75,000,000   5/13/2009         $75,000,000              $—     3/11/2010       A           $6,559,066            $40.45                        $1,218,750
1/9/2009     Texas National Bancorporation, Jacksonville, TX2          Preferred Stock w/ Exercised Warrants          $3,981,000   5/19/2010           $3,981,000             $—     5/19/2010       R             $199,000                                            $295,308
8/7/2009     The ANB Corporation, Terrell, TX2,49                      Preferred Stock w/ Exercised Warrants         $20,000,000   8/25/2011         $20,000,000              $—     8/25/2011       R           $1,000,000                                          $2,234,500
12/12/2008   The Bancorp, Inc., Wilmington, DE                         Preferred Stock w/ Warrants                   $45,220,000   3/10/2010         $45,220,000              $—     9/8/2010        R           $4,753,985            $13.85                        $2,813,689
2/6/2009     The Bank of Currituck, Moyock, NC2,34                     Preferred Stock w/ Exercised Warrants          $4,021,000   12/3/2010           $1,742,850             $—     N/A                                 N/A                                           $169,834

             The Bank of Kentucky Financial Corporation,                                                                           12/22/2010        $17,000,000      $17,000,000
2/13/2009                                                              Preferred Stock w/ Warrants                   $34,000,000                                                                                                       $27.43       274,784          $3,940,694
             Crestview Hills, KY                                                                                                   11/23/2011        $17,000,000              $—
             The Bank of New York Mellon Corporation,
10/28/2008                                                             Preferred Stock w/ Warrants                $3,000,000,000   6/17/2009       $3,000,000,000             $—     8/5/2009        R        $136,000,000             $27.99                       $95,416,667
             New York, NY
1/16/2009    The Baraboo Bancorporation, Baraboo, WI2,179              Preferred Stock w/ Exercised Warrants         $20,749,000   12/11/2012        $13,399,227              $—     12/11/2012      P             $858,478             $1.80                        $3,766,127
             The Connecticut Bank and Trust Company,
12/19/2008                                                             Preferred Stock w/ Warrants                    $5,448,000   4/19/2012           $5,448,000             $—     4/19/2012       R             $792,783            $25.54                          $662,083
             Hartford, CT81
12/19/2008   The Elmira Savings Bank, FSB, Elmira, NY49                Preferred Stock w/ Warrants                    $9,090,000   8/25/2011           $9,090,000             $—                                                       $25.35       116,538          $1,219,575
                                                                                                                                   8/24/2011         $12,500,000      $12,500,000
1/9/2009     The First Bancorp, Inc., Damariscotta, ME                 Preferred Stock w/ Warrants                   $25,000,000                                                                                                       $18.01       225,904          $4,217,708
                                                                                                                                   3/27/2013           $2,500,000     $10,000,000
                                                                  30
2/6/2009     The First Bancshares, Inc., Hattiesburg, MS               Preferred Stock w/ Warrants                    $5,000,000   9/29/2010           $5,000,000             $—                                                                     54,705            $411,806
2/6/2009     The Freeport State Bank, Harper, KS2                      Preferred Stock w/ Exercised Warrants           $301,000    12/19/2012           $301,000              $—     12/19/2012      R              $15,000                                             $63,459
10/28/2008   The Goldman Sachs Group, Inc., New York, NY               Preferred Stock w/ Warrants               $10,000,000,000   6/17/2009      $10,000,000,000             $—     7/22/2009       R      $1,100,000,000            $147.15                     $318,055,555
5/22/2009    The Landrum Company, Columbia, MO2,49                     Preferred Stock w/ Exercised Warrants         $15,000,000   8/18/2011         $15,000,000              $—     8/18/2011       R             $750,000                                          $1,830,292
12/23/2008   The Little Bank, Incorporated, Kinston, NC2,143           Preferred Stock w/ Exercised Warrants          $7,500,000   10/31/2012          $7,285,410             $—     10/31/2012      R             $371,250                                          $1,575,992
             The PNC Financial Services Group Inc.,
12/31/2008                                                             Preferred Stock w/ Warrants                $7,579,200,000   2/10/2010       $7,579,200,000             $—     4/29/2010       A        $320,277,984             $66.50                     $421,066,667
             Pittsburgh, PA
2/20/2009    The Private Bank of California, Los Angeles, CA2,49       Preferred Stock w/ Exercised Warrants          $5,450,000   9/1/2011            $5,450,000             $—     9/1/2011        R             $273,000                                            $751,752
1/9/2009     The Queensborough Company, Louisville, GA2,223            Preferred Stock w/ Exercised Warrants         $12,000,000   3/11/2013         $11,605,572              $—     3/11/2013       P             $576,774                                            $882,900

                                                        8,10,49        Subordinated Debentures
9/4/2009     The State Bank of Bartley, Bartley, NE                                                                   $1,697,000   9/22/2011           $1,697,000             $—     9/22/2011       R              $51,000                                            $282,299
                                                                       w/ Exercised Warrants
12/11/2009   The Victory Bancorp, Inc., Limerick, PA2,10a,49           Preferred Stock w/ Exercised Warrants          $1,505,000   9/22/2011           $1,505,000             $—     9/22/2011       R              $34,000
             The Victory Bancorp, Inc. (The Victory Bank),                                                                                                                                                                                                             $215,183
2/27/2009                                                              Preferred Stock w/ Exercised Warrants           $541,000    9/22/2011            $541,000              $—     9/22/2011       R              $27,000
             Limerick, PA2,13,49
             Three Shores Bancorporation, Inc. (Seaside
1/23/2009                                                              Preferred Stock w/ Exercised Warrants          $5,677,000   11/9/2012           $4,992,788             $—     11/9/2012       P             $282,285                                          $1,174,058
             National Bank & Trust), Orlando, FL2,13,153
12/5/2008    TIB Financial Corp, Naples, FL32                          Preferred Stock w/ Warrants                   $37,000,000   9/30/2010         $12,119,637              $—     9/30/2010       R              $40,000            $17.13                        $1,284,722
12/19/2008   Tidelands Bancshares, Inc, Mount Pleasant, SC             Preferred Stock w/ Warrants                   $14,448,000                                                                                                                    571,821          $1,195,973
4/17/2009    Tifton Banking Company, Tifton, GA2,52                    Preferred Stock w/ Exercised Warrants          $3,800,000                                                                                                                                       $223,208
12/23/2008   Timberland Bancorp, Inc., Hoquiam, WA154                  Preferred Stock w/ Warrants                   $16,641,000   11/13/2012        $14,209,334              $—                                                        $8.21                        $3,346,629
4/3/2009     Titonka Bancshares, Inc, Titonka, IA2                     Preferred Stock w/ Exercised Warrants          $2,117,000   4/4/2012            $2,117,000             $—     4/4/2012        R             $106,000                                            $346,491
2/6/2009     Todd Bancshares, Inc., Hopkinsville, KY2                  Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                       $877,450
                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




12/12/2008   TowneBank, Portsmouth, VA50                               Preferred Stock w/ Warrants                   $76,458,000   9/22/2011         $76,458,000              $—                                                       $14.97       554,330         $10,619,167
                                                                                                                                   2/15/2011            $500,000              $—
1/16/2009    Treaty Oak Bancorp, Inc., Austin, TX2,36                  Warrants                                       $3,268,000                                                                                                        $0.25     3,098,341            $192,415
                                                                                                                                   12/21/2012           $150,000              $—
                                                 2,49
3/27/2009    Triad Bancorp, Inc., Frontenac, MO                        Preferred Stock w/ Exercised Warrants          $3,700,000   9/22/2011           $3,700,000             $—     9/22/2011       R             $185,000                                            $501,325
                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    255
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)                                                                                                                                                                                                                                 256
                                                                                                                                   Capital                                           Final                                                           Current
Purchase                                                                                                                           Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Stock Price as   Outstanding   Dividend/Interest
Date         Institution                                               Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     of 3/28/2013       Warrants     Paid to Treasury
                                                              2,49
12/19/2008   Tri-County Financial Corporation, Waldorf, MD             Preferred Stock w/ Exercised Warrants         $15,540,000   9/22/2011         $15,540,000              $—     9/22/2011       R             $777,000                                          $2,336,116
3/27/2009    Trinity Capital Corporation , Los Alamos, NM2,107         Preferred Stock w/ Exercised Warrants         $35,539,000   7/27/2012         $26,396,503              $—     7/27/2012       P           $1,655,787                                          $6,592,186
4/3/2009     Tri-State Bank of Memphis, Memphis, TN2,3,30              Preferred Stock                                $2,795,000   8/13/2010           $2,795,000             $—     N/A                                 N/A                                           $190,215
2/27/2009    TriState Capital Holdings, Inc., Pittsburgh, PA2          Preferred Stock w/ Exercised Warrants         $23,000,000   9/26/2012         $23,000,000              $—     9/26/2012       R           $1,150,000                                          $4,492,402
4/3/2009     TriSummit Bank, Kingsport, TN2,175                        Preferred Stock w/ Exercised Warrants          $2,765,000   11/29/2012          $2,053,013             $—     11/29/2012                    $124,666
                                                                                                                                                                                                     P                                                               $1,172,766
12/22/2009   TriSummit Bank, Kingsport, TN2,10a,175                    Preferred Stock                                $4,237,000   11/29/2012          $3,145,973             $—     N/A                                 N/A
11/21/2008   Trustmark Corporation, Jackson, MS                        Preferred Stock w/ Warrants                 $215,000,000    12/9/2009        $215,000,000              $—     12/30/2009      R          $10,000,000            $25.01                       $11,287,500
5/29/2009    Two Rivers Financial Group, Burlington, IA2,49            Preferred Stock w/ Exercised Warrants         $12,000,000   9/1/2011          $12,000,000              $—     9/1/2011        R             $600,000            $16.50                        $1,475,133
11/14/2008   U.S. Bancorp, Minneapolis, MN                             Preferred Stock w/ Warrants                $6,599,000,000   6/17/2009       $6,599,000,000             $—     7/15/2009       R        $139,000,000             $33.93                     $195,220,417
8/7/2009     U.S. Century Bank, Miami, FL2                             Preferred Stock w/ Exercised Warrants         $50,236,000                                                                                                                                       $745,312
1/30/2009    UBT Bancshares, Inc., Marysville, KS2,49                  Preferred Stock w/ Exercised Warrants          $8,950,000   8/11/2011           $8,950,000             $—     8/11/2011       R             $450,000                                          $1,234,912
11/14/2008   UCBH Holdings, Inc., San Francisco, CA14                  Preferred Stock w/ Warrants                 $298,737,000                                                                                                                   7,847,732          $7,509,920
11/14/2008   Umpqua Holdings Corp., Portland, OR                       Preferred Stock w/ Warrants                 $214,181,000    2/17/2010        $214,181,000              $—     3/31/2010       R           $4,500,000            $13.26                       $13,475,555
5/1/2009     Union Bank & Trust Company, Oxford, NC2,50                Preferred Stock w/ Exercised Warrants          $3,194,000   9/22/2011           $3,194,000             $—     9/22/2011                     $160,000
                                                                                                                                                                                                     R                                                                 $680,292
12/18/2009   Union Bank & Trust Company, Oxford, NC2,10a,49            Preferred Stock                                $2,997,000   9/22/2011           $2,997,000             $—     N/A                                 N/A
                                                                2,10
12/29/2009   Union Financial Corporation, Albuquerque, NM              Preferred Stock w/ Exercised Warrants          $2,179,000   7/25/2012            $600,000       $1,579,000                                                                                      $342,402
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




             Union First Market Bankshares Corporation
2/6/2009                                                               Preferred Stock                               $33,900,000   12/7/2011         $35,595,000              $—     N/A                                 N/A                                         $5,239,859
             (First Market Bank, FSB), Bowling Green, VA18
                                                                                                                                                                                                                                       $19.56
             Union First Market Bankshares Corporation (Union
12/19/2008                                                             Preferred Stock w/ Warrants                   $59,000,000   11/18/2009        $59,000,000              $—     12/23/2009      R             $450,000                                          $2,695,972
             Bankshares Corporation), Bowling Green, VA18
2/20/2009    United American Bank, San Mateo, CA2                      Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                                             $—
1/16/2009    United Bancorp, Inc., Tecumseh, MI91                      Preferred Stock w/ Warrants                   $20,600,000   6/13/2012         $16,750,221              $—     7/18/2012       R              $38,000             $7.30                        $3,527,704
             United Bancorporation of Alabama, Inc.,
12/23/2008                                                             Preferred Stock w/ Warrants                   $10,300,000   9/3/2010          $10,300,000              $—                                                                    108,264            $872,639
             Atmore, AL30

                                                         8             Subordinated Debentures
5/22/2009    United Bank Corporation, Barnesville, GA                                                                $14,400,000   7/3/2012          $14,400,000              $—     7/3/2012        R             $720,000                                          $3,762,079
                                                                       w/ Exercised Warrants
12/5/2008    United Community Banks, Inc., Blairsville, GA232          Preferred Stock w/ Warrants                 $180,000,000    3/28/2013        $171,517,500              $—                                                       $11.34       219,908         $38,843,350

             United Financial Banking Companies, Inc.,                                                                             12/15/2010          $3,000,000      $2,658,000
1/16/2009                                                              Preferred Stock w/ Exercised Warrants          $5,658,000                                                     9/15/2011       R             $283,000            $17.02                          $708,964
             Vienna, VA2,49                                                                                                        9/15/2011           $2,658,000             $—
12/5/2008    Unity Bancorp, Inc., Clinton, NJ                          Preferred Stock w/ Warrants                   $20,649,000                                                                                                        $6.51                        $4,330,555
5/22/2009    Universal Bancorp, Bloomfield, IN2                        Preferred Stock w/ Exercised Warrants          $9,900,000                                                                                                                                     $2,012,821
6/19/2009    University Financial Corp, Inc., St. Paul, MN3,8,30       Subordinated Debentures                       $11,926,000   7/30/2010         $11,926,000              $—     N/A                                 N/A                                         $1,022,886
2/6/2009     US Metro Bank, Garden Grove, CA2                          Preferred Stock w/ Exercised Warrants          $2,861,000                                                                                                        $4.50                          $432,678
12/23/2008   Uwharrie Capital Corp, Albemarle, NC2                     Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                        $3.15                        $2,258,722
1/30/2009    Valley Commerce Bancorp, Visalia, CA2                     Preferred Stock w/ Exercised Warrants          $7,700,000   3/21/2012           $7,700,000             $—     3/21/2012       R             $385,000            $11.10                        $1,318,401
1/9/2009     Valley Community Bank, Pleasanton, CA2                    Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                        $1.20                          $629,476
                                                                                                                                   11/14/2012          $1,600,000     $14,419,000                                                                                    $3,363,032
12/12/2008   Valley Financial Corporation, Roanoke, VA                 Preferred Stock w/ Warrants                   $16,019,000                                                                                                                    344,742
                                                                                                                                   2/20/2013           $1,600,000     $12,819,000                                                                                      $124,775
             Valley Financial Group, Ltd., 1st State Bank,
12/18/2009                                                             Preferred Stock w/ Exercised Warrants          $1,300,000   9/22/2011           $1,300,000             $—     9/22/2011       R              $65,000                         488,847         $12,979,167
             Saginaw, MI2,49
                                                                                                                                   6/3/2009          $75,000,000     $225,000,000
11/14/2008   Valley National Bancorp, Wayne, NJ                        Preferred Stock w/ Warrants                 $300,000,000    9/23/2009        $125,000,000     $100,000,000    5/18/2010       A           $5,421,615            $10.24
                                                                                                                                   12/23/2009       $100,000,000              $—
12/5/2008    Valley National Bancorp (State Bancorp, Inc.)68           Preferred Stock w/ Warrants                   $36,842,000   12/14/2011        $36,842,000              $—                                                                                     $5,572,353
             Veritex Holdings, Inc.
6/26/2009                                                              Preferred Stock w/ Exercised Warrants          $3,000,000   8/25/2011           $3,000,000             $—     8/25/2011       R             $150,000                                            $353,796
             (Fidelity Resources Company), Dallas, TX2,40,49
             Village Bank and Trust Financial Corp,
5/1/2009                                                               Preferred Stock w/ Warrants                   $14,738,000                                                                                                        $2.17       499,029          $1,318,232
             Midlothian, VA
12/12/2008   Virginia Commerce Bancorp, Arlington, VA                  Preferred Stock w/ Warrants                   $71,000,000   12/11/2012        $71,000,000              $—                                                       $14.05     2,696,203         $14,190,139
6/12/2009    Virginia Company Bank, Newport News, VA2,10               Preferred Stock w/ Exercised Warrants          $4,700,000                                                                                                                                       $786,987
4/24/2009    Vision Bank - Texas, Richardson, TX2                      Preferred Stock w/ Exercised Warrants          $1,500,000   12/28/2012           $787,500         $712,500                                                                                      $306,191
12/19/2008   VIST Financial Corp., Wyomissing, PA117                   Preferred Stock w/ Warrants                   $25,000,000   8/1/2012          $25,000,000              $—     8/1/2012        R           $1,189,813            $42.28                        $4,520,833
                                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTION DETAIL, AS OF 3/31/2013 (CONTINUED)
                                                                                                                                          Capital                                                       Final                                                                     Current
Purchase                                                                                                                                  Repayment         Capital Repayment           Remaining       Disposition                   Final Disposition    Stock Price as     Outstanding       Dividend/Interest
Date             Institution                                             Investment Description                   Investment Amount       Date                 Amount (Loss)6       Capital Amount      Date               Note15            Proceeds      of 3/28/2013         Warrants         Paid to Treasury
                                                              2,50
1/30/2009        W.T.B. Financial Corporation, Spokane, WA               Preferred Stock w/ Exercised Warrants          $110,000,000      9/15/2011               $110,000,000                    $—    9/15/2011             R             $5,500,000                                               $15,736,874
                                                                                                                                          4/4/2012                   $3,000,000          $9,000,000
12/11/2009       Wachusett Financial Services, Inc., Clinton, MA2,10     Preferred Stock w/ Exercised Warrants           $12,000,000                                                                                                                                                                   $1,905,458
                                                                                                                                          1/30/2013                  $4,000,000          $5,000,000
12/19/2008       Wainwright Bank & Trust Company, Boston, MA             Preferred Stock w/ Warrants                     $22,000,000      11/24/2009                $22,000,000                   $—    12/16/2009            R               $568,700                                                 $1,023,611
1/16/2009        Washington Banking Company, Oak Harbor, WA              Preferred Stock w/ Warrants                     $26,380,000      1/12/2011                 $26,380,000                   $—    3/2/2011              R             $1,625,000              $13.94                             $2,623,344
11/14/2008       Washington Federal, Inc., Seattle, WA                   Preferred Stock w/ Warrants                    $200,000,000      5/27/2009               $200,000,000                    $—    3/9/2010              A            $15,388,874              $17.50                             $5,361,111
10/30/2009       WashingtonFirst Bankshares, Inc., Reston, VA2,10a,49    Preferred Stock                                   $6,842,000     8/4/2011                   $6,842,000                   $—    N/A                                         N/A
                 WashingtonFirst Bankshares, Inc.                                                                                                                                                                                                                                                      $1,510,318
1/30/2009                                                                Preferred Stock w/ Exercised Warrants             $6,633,000     8/4/2011                   $6,633,000                   $—    8/4/2011              R               $332,000
                 (WashingtonFirst Bank), Reston, VA2,13,49
6/26/2009        Waukesha Bankshares, Inc., Waukesha, WI2,10,205         Preferred Stock w/ Exercised Warrants             $5,625,000     2/7/2013                   $5,161,674                   $—    2/7/2013              P               $165,839                                                 $1,071,380
                                                                                                                                          3/3/2010                $100,000,000        $300,000,000
11/21/2008       Webster Financial Corporation, Waterbury, CT            Preferred Stock w/ Warrants                    $400,000,000      10/13/2010              $100,000,000        $200,000,000      6/2/2011              A            $20,388,842              $24.26                           $36,944,444
                                                                                                                                          12/29/2010              $200,000,000                    $—
10/28/2008       Wells Fargo & Company, San Francisco, CA                Preferred Stock w/ Warrants                 $25,000,000,000      12/23/2009           $25,000,000,000                    $—    5/20/2010             A          $840,374,892               $36.99                        $1,440,972,222
12/5/2008        WesBanco, Inc., Wheeling, WV176                         Preferred Stock w/ Warrants                     $75,000,000      9/9/2009                  $75,000,000                   $—                                                                                                   $2,854,167
                 WesBanco, Inc. (Fidelity Bancorp, Inc.),                                                                                                                                               12/23/2009            R               $950,000              $23.95         100,448
12/12/2008                                                               Preferred Stock w/ Warrants                       $7,000,000     11/30/2012                 $7,000,000                   $—                                                                                                   $1,388,333
                 Wheeling, WV
12/31/2008       West Bancorporation, Inc., West Des Moines, IA          Preferred Stock w/ Warrants                     $36,000,000      6/29/2011                 $36,000,000                   $—    8/31/2011             R               $700,000              $11.10                             $4,495,000
                                                                                                                                          9/2/2009                  $41,863,000         $41,863,000
2/13/2009        Westamerica Bancorporation, San Rafael, CA              Preferred Stock w/ Warrants                     $83,726,000                                                                    11/18/2011            P               $878,256              $45.33         246,698             $2,755,981
                                                                                                                                          11/18/2009                $41,863,000                   $—
11/21/2008       Western Alliance Bancorporation, Las Vegas, NV49        Preferred Stock w/ Warrants                    $140,000,000      9/27/2011               $140,000,000                    $—    11/18/2011            P               $415,000              $13.84                           $19,950,000
                 Western Community Bancshares, Inc.,
12/23/2008                                                               Preferred Stock w/ Exercised Warrants             $7,290,000                                                                                                                                                                    $554,083
                 Palm Desert, CA2
                                                                 2,155
12/23/2008       Western Illinois Bancshares Inc., Monmouth, IL          Preferred Stock w/ Exercised Warrants             $6,855,000     11/9/2012                  $6,398,944                   $—    11/9/2012                             $335,417
                 Western Illinois Bancshares Inc.,                                                                                                                                                                            P                                                                        $2,102,189
12/29/2009                                                               Preferred Stock                                   $4,567,000     11/9/2012                  $4,217,361                   $—    N/A                                         N/A
                 Monmouth, IL2,10a,155
5/15/2009        Western Reserve Bancorp, Inc, Medina, OH2,177           Preferred Stock w/ Exercised Warrants             $4,700,000     11/30/2012                 $4,700,000                   $—    11/30/2012            R               $235,000              $28.00                               $907,198
2/20/2009        White River Bancshares Company, Fayetteville, AR2       Preferred Stock w/ Exercised Warrants           $16,800,000                                                                                                                                                                   $1,589,583
12/19/2008       Whitney Holding Corporation, New Orleans, LA45          Preferred Stock w/ Warrants                    $300,000,000      6/3/2011                $300,000,000                    $—    6/3/2011              R             $6,900,000                                               $36,833,333
12/12/2008       Wilshire Bancorp, Inc., Los Angeles, CA76               Preferred Stock w/ Warrants                     $62,158,000      3/28/2012                 $57,766,994                   $—    6/20/2012             R               $760,000               $6.78                           $10,282,176
12/19/2008       Wintrust Financial Corporation, Lake Forest, IL         Preferred Stock w/ Warrants                    $250,000,000      12/22/2010              $250,000,000                    $—    2/8/2011              A            $25,600,564              $37.04                           $25,104,167
5/15/2009        Worthington Financial Holdings, Inc., Huntsville, AL2   Preferred Stock w/ Exercised Warrants             $2,720,000                                                                                                                                                                    $370,600
1/23/2009        WSFS Financial Corporation79                            Preferred Stock w/ Warrants                     $52,625,000      3/28/2012                 $47,435,299                   $—    9/12/2012             R             $1,800,000              $48.64                             $8,405,558
1/16/2009        Yadkin Valley Financial Corporation, Elkin, NC124       Preferred Stock w/ Warrants                     $36,000,000      9/12/2012                 $31,843,080                   $—                                                                               273,534
                                                                                                                                                                                                                                                                     $4.01                             $8,820,923
7/24/2009        Yadkin Valley Financial Corporation, Elkin, NC125       Preferred Stock w/ Warrants                     $13,312,000      9/12/2012                 $11,643,740                   $—                                                                               385,990
4/24/2009        York Traditions Bank , York, PA2,50                     Preferred Stock w/ Exercised Warrants             $4,871,000     7/14/2011                  $4,871,000                   $—    7/14/2011             R               $244,000                                                   $590,022
                 Zions Bancorporation, Salt Lake City, UT                                                                                 3/28/2012               $700,000,000        $700,000,000
11/14/2008                                                               Preferred Stock w/ Warrants                  $1,400,000,000                                                                    12/5/2012             P             $7,666,419              $24.99                          $253,361,111
                 Zions Bancorporation, Salt Lake City, UT                                                                                 9/26/2012               $700,000,000                    $—
                                                                                                                                                Total
                                                                                                                                              Capital
                                                                         Total Purchase Amount *                  $204,943,827,320                          $195,379,574,787
                                                                                                                                           Repayment
                                                                                                                                            Amount**
                                                                                                                                      Total Losses***        ($3,392,039,672)
                                                                                                         Total Treasury CPP Investment Outstanding             $6,172,212,861                     Total Warrant Proceeds****          $7,834,245,834
Notes: Numbers may not total due to rounding. Data as of 3/31/2013. Numeric notes were taken verbatim from Treasury’s 3/28/2013 Transactions Report. All amounts and totals reflect cumulative receipts from inception through 3/31/2013.

* Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.
** Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup Common
   Stock Disposition” on following pages) and (ii) the amount of $355,724,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).
*** Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale, but excludes investment amounts for institutions that have pending receivership or
                                                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




     bankruptcy proceedings.
**** Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a). Beginning with the Transactions Report for the period ending April 20, 2012, disposition amounts for warrant sales by
      Treasury in a registered public offering (“A”) are displayed after underwriting fees (net) as oppose to before underwriting fees and selling expenses (gross).

Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Dividends and Interest Report, 4/10/2013.
                                                                                                                                                                                                                                                                                                                      257
                                                                                                                                                                                                                                                                                                                                258
1a
  	This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on
      1/1/2009, and this transaction under the CPP was funded on 1/9/2009.											
1b
   	The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total net disposition proceeds from CPP warrants on 3/3/2010 was $305,913,040, consisting of $183,547,824 and
      $122,365,216. Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.											
2
 	Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.								
3
 	To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.							
3a
  	Treasury cancelled the warrants received from this institution due to its designation as a CDFI.											
4
 	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.											
5
 	   Redemption pursuant to a qualified equity offering.											
6
 	This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.											
7
 	The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.											
8
  	Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.									
9
 	In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.							
10
   	This institution participated in the expansion of CPP for small banks.											
10a
    	This institution received an additional investment through the expansion of CPP for small banks.											
11
   	Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in
      Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to
      purchase shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.					
12
   	On 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this
      transaction. 	
13
   	This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.	
14
   	As of the date of this report, this institution is in bankruptcy proceedings. 											
15
   	For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution in a negotiated sale pursuant to the terms of the related securities purchase agreement, “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered
      public offering of the warrants issued by the financial institution, and “P” represents the proceeds to Treasury, before placement expenses, from a sale by Treasury in a private auction principally involving qualified institutional buyers.					
16
   	On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of
      common shares to holders of CVRs were not met.
17
   	On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.				
18
   	On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended
      dividend rate equivalent to those of Treasury’s original investment.											
19
   	On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.							
20
   	On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and
      unpaid dividends. Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.										
21
                                                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




   	On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial
      institutions.											
22
   	On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued
      and unpaid dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.									
23
   	Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see
      note 11). On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on 6/30/2010 (or on completion of
      the sale). Completion of the sale under this authority occurred on 5/26/2010. On 5/26/2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending
      on 6/30/2010 (or on completion of the sale). Completion of the sale under this authority occurred on 6/30/2010. On 7/23/2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from
      time to time during the period ending on 9/30/2010 (or on completion of the sale). Completion of the sale under this authority occurred on 9/30/2010. On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
      parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale), which plan was terminated on 12/6/2010. All such sales were generally made at the market price. On 12/6/2010, Treasury commenced an underwritten
      public offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from all such sales during
      those periods.								
24
   	On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on
      4/29/2010. Since Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock. 	
25
   	On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.				
26
   	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the preferred stock and $400,000 for the warrants, pursuant to the terms of the agreement between
      Treasury and TD entered into on 5/18/2010.											
27
   	On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.						
28
   	On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and
      unpaid dividends. On 10/7/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends on
      the MCP at the time of the conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.											
29
   	On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial
      investment amount of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of
      common stock of Pacific Capital. Pacific Capital has agreed to have Treasury observers attend board of directors meetings.											
30
   	This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below. 		
30a
    	At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.			
31
   	On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on
      8/12/2010. Since Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock. 					
32
   	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the preferred stock and $40,000 for the warrants, pursuant to the terms of the agreement
      between Treasury and NAFH entered into on 9/24/2010.											
33
   	On 3/4/2011, Treasury completed the sale to Community Bancorp LLC (“CBC”) of all preferred stock and warrants issued by Cadence Financial Corporation (“Cadence”) to Treasury for an aggregate purchase price of $39,014,062.50, pursuant to the terms of the agreement between Treasury and CBC
      entered into on 10/29/2010.											
34
   	On 12/3/2010, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury and
      Currituck entered into on 11/5/2010.											
35
   	Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the
      closing of the sale also occurred on 1/28/2011.											
36
   	On 2/15/2011, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by Treaty Oak Bancorp (“Treaty Oak”) to Treasury for (i) a cash payment of $500,000, (ii) the right to receive up to $150,000 in principal payments on a note
      payable by Carlile Bancshares, Inc. in favor of Treaty Oak, and (iii) a newly issued warrant to purchase 3,098,341 shares of Treaty Oak common stock, pursuant to the terms of the agreement between Treasury and Treaty Oak entered into on 2/15/2011.				
37
   	On 2/18/2011, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.		
38
   	On 3/9/2011, Treasury completed the sale of all subordinated debentures (including the subordinated debentures received upon the exercise of warrants) issued by FBHC Holding Company (“FBHC”) to Treasury for an aggregate purchase price of $650,000, pursuant to the terms of the agreement between
      Treasury and FBHC entered into on 3/9/2011.											
39
   	On 5/31/2011, Treasury completed the sale of all preferred stock and warrants issued by First Community Bank Corporation of America (FCBCA) for an aggregate purchase price of (i) $7.20 million plus (ii) 72% of the remaining cash assets after giving effect to the payment of defined acquisition expenses,
      debts, liabilities and distributions to other classes of security holders, pursuant to the terms of the agreement between Treasury and FCBCA entered into on 3/11/2011.								
40
   	As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of an
      agreement among Treasury, the acquired company and the acquiror entered into on 3/23/2011.											
41
   	As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of
      preferred stock in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered
      into on 3/30/2011. Exercised warrants were also exchanged at the time of the agreement.											
42
   	On 5/3/2011, Treasury completed the sale of all First Federal Bancshares of Arkansas, Inc. preferred stock and warrants held by Treasury to Bear State Financial Holdings, LLC (“Bear State”) for an aggregate purchase price of $6,000,000.00, pursuant to the terms of the agreement between Treasury and
      Bear State entered into on 5/3/2011.											
43
   	On 5/13/2011, Treasury completed the sale of all Wilmington Trust Corporation preferred stock held by Treasury to M&T Bank Corporation (“M&T”) for an aggregate purchase price of $330,000,000.00 plus accrued dividends and exchanged its Wilmington Trust Corporation warrant for an equivalent warrant
      issued by M&T Bank Corporation, pursuant to the terms of the agreement between Treasury and M&T entered into on 5/13/2011.											
44
   	On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-
      held M&I Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 5/16/2011.									
45
   	On 6/3/2011, Treasury completed the sale of all Whitney Holding Corporation preferred stock and the related warrant held by Treasury to Hancock Holding Company (“HHC”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($300,000,000) plus accrued and unpaid dividends
     thereon and (ii) $6,900,000 for the warrant, pursuant to the terms of the agreement between Treasury and HHC entered into on 6/3/2011.										
46
  	On 6/22/2011, Treasury completed the sale of 2,850,000 shares of common stock at $12.590625 per share (which represents the $12.75 public offering price less underwriting discounts) for net proceeds of $35,883,281.25 pursuant to an underwriting agreement executed on 6/17/2011. On
     4/4/2012, Treasury completed the sale of all of Treasury’s remaining 2,770,117 shares of Central Pacific Financial Corp. common stock at $13.01 per share (which represents the $13.15 public offering price less underwriting discounts) for net proceeds of $36,039,222.17, pursuant to an underwriting
     agreement executed on 3/29/2012.											
47
  	On 6/30/2011, Treasury completed the sale of all Cascade Financial Corporation preferred stock held by Treasury and the related warrant to Opus Acquisition, Inc. (“Opus”) for an aggregate purchase price of $16,250,000.00, pursuant to the terms of the agreement between Treasury and Opus entered into
     on 6/28/2011.											
49
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.						
50
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 - part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund. 			
51
  	On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.				
52
  	On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.							
53
  	On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.				
54
  	On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.						
55
  	On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.				
56
  	On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.							
57
  	On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.		
58
  	On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB United
     entered into on 8/12/2011.											
59
  	On 9/7/2011, Treasury completed the sale of all Green Bankshares, Inc. preferred stock held by Treasury and the related Warrant to North American Financial Holdings, Inc. (“NAFH”) for an aggregate purchase price of $68,700,000.00, pursuant to the terms of the agreement between Treasury and NAFH
     entered into on 9/6/2011.											
60
  	As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously
     unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.										
61
  	On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.			
62
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.					
63
  	On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.			
64
  	On 10/21/2011, Treasury completed the sale of all Santa Lucia Bancorp preferred stock and warrants held by Treasury to CCI One Acquisition Corporation (“CCI”) for an aggregate purchase price of $2,800,000.00, pursuant to the terms of the agreement between Treasury and CCI entered into on
     10/20/2011.											
65
  	As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement
     among Treasury, CFC and CFB entered into on 11/15/2011.											
66
  	As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among
     Treasury, Center Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.											
67
  	On 1/3/2012, Treasury completed (i) the sale to F.N.B. Corporation (“F.N.B.”) of all of the preferred stock that had been issued to Treasury by Parkvale Financial Corporation (“Parkvale”) for a purchase price of $31,762,000 plus accrued dividends and (ii) the exchange of the Parkvale warrant held by
     Treasury for a like F.N.B. warrant, pursuant to the terms of the agreement between Treasury and F.N.B. entered into on 12/29/2011 in connection with the merger of Parkvale and F.N.B. effective 1/1/2012.						
68
  	As a result of the acquisition of State Bancorp, Inc. (the acquired company) by Valley National Bancorp (the acquiror), the warrant issued by the acquired company on 12/5/2008 was exchanged for a like security of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company
     and the acquiror entered into on 1/1/2012.											
69
  	On 1/27/2012, pursuant to the terms of the merger of Regents Bancshares, Inc. (“Regents”) with Grandpoint Capital, Inc., Treasury received $13,214,858.00 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock (including that received from the
     exercise of warrants) that had been issued to Treasury by Regents.											
70
  	On 1/27/2012, Tennessee Commerce Bank, Franklin, TN, the banking subsidiary of Tennessee Commerce Bancorp, Inc., was closed by the Tennessee Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.			
71
  	On 2/10/2012, SCB Bank, Shelbyville, Indiana, the banking subsidiary of Blue River Bancshares, Inc., was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.				
72
  	On 2/10/2012, Treasury entered into an agreement with Broadway Financial Corporation to exchange Treasury’s $15,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by Broadway Financial Corporation of certain conditions, including the satisfactory completion of a
     capital plan.											
73
  	On 3/9/2012, Treasury completed the sale of all Mainline Bancorp, Inc. preferred stock and exercised warrants held by Treasury to 9th Street Holdings, Inc., a subsidiary of S&T Bancorp, Inc., for an aggregate purchase price of $4,725,000 plus accrued and unpaid dividends, pursuant to the terms of an
     agreement among Treasury, 9th Street Holdings, Inc., and S&T Bancorp, Inc. entered into on 3/8/2012.											
74
  	On 4/3/2012, Treasury completed the sale of 124,000 shares of Banner Corporation preferred stock at $884.82 per share (less underwriting discounts) for net proceeds of $108,071,914.80 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.	
75
  	On 4/3/2012, Treasury completed the sale of 65,000 shares of First Financial Holdings, Inc. preferred stock at $873.51 per share (less underwriting discounts) for net proceeds of $55,926,477.75 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.	
76
  	On 4/3/2012, Treasury completed the sale of 62,158 shares of Wilshire Bancorp, Inc. preferred stock at $943.51 per share (less underwriting discounts) for net proceeds of $57,766,994.16 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.	
77
  	On 4/3/2012, Treasury completed the sale of 2,000 shares of Seacoast Banking Corporation of Florida preferred stock at $20,510.00 per share (less underwriting discounts) for net proceeds of $40,404,700.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on
     3/28/2012.											
78
  	On 4/3/2012, Treasury completed the sale of 57,000 shares of MainSource Financial Group, Inc. preferred stock at $931.11 per share (less underwriting discounts) for net proceeds of $52,277,170.95 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.	
79
  	On 4/3/2012, Treasury completed the sale of 52,625 shares of WSFS Financial Corporation preferred stock at $915.11 per share (less underwriting discounts) for net proceeds of $47,435,298.79 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.	
80
  	On 4/13/2012, Treasury completed the sale of all Gateway Bancshares, Inc. preferred stock held by Treasury to First Volunteer Corporation (“First Volunteer”) for an aggregate purchase price of $6,300,000.00 plus accrued and unpaid dividends, pursuant to the terms of the agreement between Treasury
     and First Volunteer entered into on 4/13/2012.											
81
  	On 4/20/2012, Treasury completed the sale of all The Connecticut Bank and Trust Company preferred stock held by Treasury to Berkshire Bank for an aggregate purchase price of $6,289,966.33 consisting of (a) (i) $5,448,000.00 for the preferred stock plus (ii) all accrued and unpaid dividends and (b)
     $792,783.00 for the Warrant, pursuant to the terms of the agreement by and among Treasury, The Connecticut Bank and Trust Company, and Berkshire Bank entered into on 4/19/2012.							
82
  	On 4/20/2012, Fort Lee Federal Savings Bank, FSB, Fort Lee, New Jersey, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.						
83
  	On 4/24/2012, Treasury completed the sale of all Peoples Bancorporation, Inc. (“Peoples”) preferred stock held by Treasury to SCBT Financial Corporation (“SCBT”) for an aggregate purchase price of $13,293,000 plus accrued and unpaid dividends, pursuant to the terms of the agreement by and among
     Treasury, Peoples, and SCBT entered into on 4/24/2012.											
84
  	On 8/14/2012, Treasury completed the sale of all Millennium Bancorp, Inc. (Millennium) Preferred Stock held by Treasury to CIC Bancshares, Inc. (CIC) for an aggregate purchase price of (i) $2.904 million plus (ii) accrued and unpaid dividends on the Preferred Stock as of the closing date, pursuant to an
     agreement by and amount Treasury, CIC, and Millennium entered into on 4/20/2012.											
85
  	On 6/19/2012, Treasury completed the sale of 52,000 shares of Ameris Bancorp preferred stock at $930.60 per share (less underwriting discounts) for net proceeds of $47,665,332.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.	
86
  	On 6/19/2012, Treasury completed the sale of 104,823 shares of Taylor Capital Group preferred stock at $893.50 per share (less underwriting discounts) for net proceeds of $92,254,460.24 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.	
87
  	On 6/19/2012, Treasury completed the sale of 30,000 shares of Farmers Capital Bank Corporation preferred stock at $869.17 per share (less underwriting discounts) for net proceeds of $21,594,228.79 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
88
  	On 6/19/2012, Treasury completed the sale of 25,223 shares of LNB Bancorp Inc. preferred stock at $739.89 per share (less underwriting discounts) for net proceeds of $21,863,749.50 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.	
89
  	On 6/19/2012, Treasury completed the sale of 37,000 shares of First Defiance Financial Corp. preferred stock at $962.66 per share (less underwriting discounts) for net proceeds of $35,084,143.70 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.	
90
  	On 6/19/2012, Treasury completed the sale of 10,958 shares of First Capital Bancorp, Inc. preferred stock at $920.11 per share (less underwriting discounts) for net proceeds of $9,931,326.90 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.	
91
  	On 6/19/2012, Treasury completed the sale of 20,600 shares of United Bancorp, Inc. preferred stock at $825.50 per share (less underwriting discounts) for net proceeds of $16,750,220.50 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.	
92
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 48,200 shares of Fidelity Southern Corporation preferred stock at $900.60 per share (less underwriting discounts) for net proceeds of $42,757,786.20 plus accrued and unpaid dividends.			
93
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 25,054 shares of Peoples Bancorp of North Carolina, Inc. preferred stock at $933.36 per share (less underwriting discounts) for net proceeds of $23,033,635.42 plus accrued and unpaid dividends.		
94
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 23,184 shares of First Citizens Banc Corp preferred stock at $906.00 per share (less underwriting discounts) for net proceeds of $20,689,633.44 plus accrued and unpaid dividends.			
95
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 45,000 shares of MetroCorp Bancshares, Inc. preferred stock at $981.17 per share (less underwriting discounts) for net proceeds of $43,490,360.25 plus accrued and unpaid dividends.			
96
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 32,538 shares of Pulaski Financial Corp preferred stock at $888.00 per share (less underwriting discounts) for net proceeds of $28,460,337.84 plus accrued and unpaid dividends.			
97
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 33,000 shares of Firstbank Corporation preferred stock at $941.01 per share (less underwriting discounts) for net proceeds of $30,587,530.05 plus accrued and unpaid dividends.			
98
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 17,299 shares of Southern First Bancshares, Inc. preferred stock at $904.00 per share (less underwriting discounts) for net proceeds of $15,403,721.56 plus accrued and unpaid dividends.			
99
  	On 7/12/2012, Treasury completed the sale of all Naples Bancorp, Inc. (“Naples Bancorp”) preferred stock held by Treasury to Naples Bancorp for an aggregate purchase price of $600,000.00, pursuant to the terms of the agreement between Treasury and Naples Bancorp entered into on 7/12/2012.	
100
   	On 7/17/2012, Treasury completed the sale of all Heartland Bancshares, Inc. (“Heartland”) preferred stock held by Treasury to Horizon Bancorp for an aggregate purchase price of $7,248,000 plus accrued and unpaid dividends, pursuant to the terms of the agreement by and among Treasury, Heartland,
     and Horizon Bancorp entered into on 7/17/2012.											
101
   	As a result of the acquisition of Community Holding Company of Florida, Inc. (the acquired company) by Community Bancshares of Mississippi, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 2/6/2009 were exchanged for a like amount of securities of the
     acquiror, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 7/19/2012.										
102
   	On 8/10/2012, Treasury completed the sale of 35,500 shares of Marquette National Corporation preferred stock at $720.25 per share (less a placement agent fee) for net proceeds of $25,313,186.25 and 1,775 shares of Marquette National Corporation preferred stock received upon the exercise of
     warrants at $825.25 per share (less a placement agent fee) for net proceeds of $1,450,170.56, pursuant to a placement agency agreement executed on 7/23/2012.									
103
   	On 8/13/2012, Treasury completed the sale of 43,000 shares of Exchange Bank preferred stock at $875.25 per share (less a placement agent fee) for net proceeds of $37,259,392.50 and 2,150 shares of Exchange Bank preferred stock received upon the exercise of warrants at $965.10 per share (less
     a placement agent fee) for net proceeds of $2,054,215.35, pursuant to a placement agency agreement executed on 7/23/2012.											
                                                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




104
   	On 8/9/2012, Treasury completed the sale of 36,282 shares of Fidelity Financial Corporation preferred stock at $891.26 per share (less a placement agent fee) for net proceeds of $32,013,328.37 and 1,814 shares of Fidelity Financial Corporation preferred stock received upon the exercise of warrants at
     $960.60 per share (less a placement agent fee) for net proceeds of $1,725,103.12, pursuant to a placement agency agreement executed on 7/23/2012.									
105
   	On 8/9/2012, Treasury completed the sale of 428 shares of First Western Financial, Inc. preferred stock received upon the exercise of warrants at $828.50 per share (less a placement agent fee) for net proceeds of $351,052.02, pursuant to a placement agency agreement executed on 7/23/2012.	
106
   	On 8/10/2012, Treasury completed the sale of 23,200 shares of Park Bancorporation, Inc. preferred stock at $730.25 per share (less a placement agent fee) for net proceeds of $16,772,382.00 and 1,160 shares of Park Bancorporation, Inc. preferred stock received upon the exercise of warrants at
     $780.25 per share (less a placement agent fee) for net proceeds of $896,039.10, pursuant to a placement agency agreement executed on 7/23/2012.									
107
   	On 8/10/2012, Treasury completed the sale of 35,539 shares of Trinity Capital Corporation preferred stock at $750.25 per share (less a placement agent fee) for net proceeds of $26,396,503.40 and 1,777 shares of Trinity Capital Corporation preferred stock received upon the exercise of warrants at
     $941.20 per share (less a placement agent fee) for net proceeds of $1,655,787.28, pursuant to a placement agency agreement executed on 7/23/2012.									
                                                                                                                                                                                                                                                                                                                       259
                                                                                                                                                                                                                                                                                                                        260
108
   	On 8/10/2012, Treasury completed the sale of 24,300 shares of CBS Banc-Corp. preferred stock at $905.20 per share (less a placement agent fee) for net proceeds of $21,776,396.40 and 1,215 shares of CBS Banc-Corp. preferred stock received upon the exercise of warrants at $921.00 per share
     (less a placement agent fee) for net proceeds of $1,107,824.85, pursuant to a placement agency agreement executed on 7/23/2012.										
109
   	On 8/9/2012, Treasury completed the sale of its Market Street Bancshares, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $18,069,212.70 and its Market Street Bancshares, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee)
     for net proceeds of $824,730.64, pursuant to a placement agency agreement executed on 7/23/2012.											
110
   	On 8/9/2012, Treasury completed the sale of its Commonwealth Bancshares, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $15,147,000.00 and its Commonwealth Bancshares, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent
     fee) for net proceeds of $898,722.00, pursuant to a placement agency agreement executed on 7/23/2012.											
111
   	On 8/9/2012, Treasury completed the sale of its Diamond Bancorp, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $14,780,661.64 and its Diamond Bancorp, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net proceeds
     of $779,576.49, pursuant to a placement agency agreement executed on 7/23/2012.											
112
   	On 8/10/2012, Treasury completed the sale of 22,252 shares of Premier Financial Bancorp, Inc. preferred stock at $901.03 per share (less a placement agent fee) for net proceeds of $19,849,222.36, pursuant to a placement agency agreement executed on 7/23/2012.		
113
   	On 8/10/2012, Treasury completed the sale of 1,100 shares of First Community Financial Partners, Inc. preferred stock received upon the exercise of warrants at $661.50 per share (less a placement agent fee) for net proceeds of $720,373.50, pursuant to a placement agency agreement executed on
     7/23/2012.											
114
   	On 8/9/2012, Treasury completed the sale of 8,000 shares of First Western Financial, Inc. preferred stock at $775.00 per share (less a placement agent fee) for net proceeds of $6,138,000.00, pursuant to a placement agency agreement executed on 7/23/2012.			
115
   	On 7/13/2012, Glasgow Savings Bank, Glasgow, MO, the banking subsidiary of Gregg Bancshares, Inc. , was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.					
116
   	On 7/27/2012, Treasury entered into an agreement with Pinnacle Bank Holding Company, Inc. (“Pinnacle”) pursuant to which Treasury agreed to sell its CPP preferred stock back to Pinnacle at a discount subject to the satisfaction of the conditions specified in the agreement.		
117
   	On 8/1/2012, Treasury completed the sale of all VIST Financial Corp. (“VIST”) preferred stock and the related warrant held by Treasury to Tompkins Financial Corporation (“Tompkins”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($25,000,000) plus accrued and unpaid
     dividends thereon and (ii) $1,189,813 for the warrant, pursuant to the terms of the agreement by and among Treasury, VIST, and Tompkins entered into on 8/1/2012.									
118
   	On 8/20/2012, Treasury completed the sale of 5,738,637 split adjusted shares of Sterling Financial Corporation common stock at $20.00 per share (less underwriting discounts) for net proceeds of $113,338,080.75, pursuant to an underwriting agreement executed on 8/14/2012.		
119
   	On 8/21/2012, Treasury completed the sale of 230,000 shares of M&T Bank Corporation Series A Preferred Shares and 151,500 shares of M&T Bank Corporation Series C Preferred Shares at $1,000.00 per share plus accrued dividends for proceeds of $381,500,000.00 plus accrued dividends,
     pursuant to an underwriting agreement executed on 8/17/2012.											
120
   	On 8/29/2012, Treasury completed the sale of 31,260 shares of BNC Bancorp preferred stock at $921.23 per share (less underwriting discounts) for net proceeds of $28,365,685.05 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.		
121
   	On 8/29/2012, Treasury completed the sale of 11,000 shares of Mackinac Financial Corporation preferred stock at $958.09 per share (less underwriting discounts) for net proceeds of $10,380,905.15 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.	
122
   	On 8/29/2012 Treasury completed the sale of 11,350 shares of First Community Corporation preferred stock at $982.83 per share (less underwriting discounts) for net proceeds of $10,987,793.69 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.	
123
   	On 8/29/2012, Treasury completed the sale of 13,900 shares of First National Corporation preferred stock at $882.50 per share (less underwriting discounts) for net proceeds of $12,082,748.75 plus accrued dividends and 695 shares of First National Corporation preferred stock (held as a result of
     warrant exercise) at $912.50 per share (less underwriting discounts) for net proceeds of $624,674.69 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.							
124
   	On 9/18/2012, Treasury completed the sale of 36,000 shares of Yadkin Valley Financial Corporation Series T preferred stock at $884.82 per share (less underwriting discounts) for net proceeds of $31,843,080.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on
     9/12/2012.											
125
   	On 9/18/2012, Treasury completed the sale of 13,312 shares of Yadkin Valley Financial Corporation Series T-ACB preferred stock at $880.00 per share (less underwriting discounts) for net proceeds of $11,643,740.16 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed
     on 9/12/2012.											
126
   	On 9/20/2012, Treasury completed the sale of 17,000 shares of F&M Financial Corporation (NC) preferred stock at $950.00 per share (less a placement agent fee) for net proceeds of $15,988,500.00 and 850 shares of F&M Financial Corporation (NC) preferred stock received upon the exercise of
     warrants at $921.30 per share (less a placement agent fee) for net proceeds of $775,273.95, pursuant to a placement agency agreement executed on 9/12/2012.							
127
   	On 9/21/2012, Treasury completed the sale of 17,243 shares of F&M Financial Corporation (TN) preferred stock at $787.50 per share (less a placement agent fee) for net proceeds of $13,443,073.87 and 862 shares of F&M Financial Corporation (TN) preferred stock received upon the exercise of
     warrants at $870.00 per share (less a placement agent fee) for net proceeds of $742,440.60, pursuant to a placement agency agreement executed on 9/12/2012.									
128
                                                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




   	On 9/20/2012, Treasury completed the sale of 70,000 shares of Alpine Banks of Colorado preferred stock at $814.29 per share (less a placement agent fee) for net proceeds of $56,430,297.00 and 3,500 shares of Alpine Banks of Colorado preferred stock received upon the exercise of warrants at
     $950.00 per share (less a placement agent fee) for net proceeds of $3,291,750.00, pursuant to a placement agency agreement executed on 9/12/2012.								
129
   	On 9/21/2012, Treasury completed the sale of 22,000 shares of First Community Financial Partners, Inc. preferred stock at $652.50 per share (less a placement agent fee) for net proceeds of $14,211,450.00, pursuant to a placement agency agreement executed on 9/12/2012	
130
   	On 9/26/2012, Treasury completed the sale of all Central Federal Corporation preferred stock and the related warrant held by UST for an aggregate purchase price of $3,000,000, pursuant to the terms of the agreement entered into on 9/12/2012.				
131
   	On 10/1/2012, Treasury completed the sale of all Southern Community Financial Corp. preferred stock and the related warrant held by UST for an aggregate purchase price of $42,750,000, plus accrued and unpaid dividends, pursuant to the terms of the agreement entered into on 10/1/2012.	
132
   	On 10/19/2012, GulfSouth Private Bank, Destin, Florida, was closed by the Florida Office of Financial Regulation, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.							
133
   	On 10/19/2012, Excel Bank, Sedalia, Missouri, the banking subsidiary of Investors Financial Corporation of Pettis County, Inc., was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.				
134
   	On 10/31/2012, Treasury completed the sale of 12,000 shares of Blue Ridge Bancshares, Inc. preferred stock at $755.00 per share (less a placement agent fee) for net proceeds of $8,969,400.00 and 600 shares of Blue Ridge Bancshares, Inc. preferred stock received upon the exercise of warrants at
     $912.11 per share (less a placement agent fee) for net proceeds of $541,793.34, pursuant to a placement agency agreement executed on 10/22/2012.									
135
   	On 10/31/2012, Treasury completed the sale of 7,570 shares of First Gothenburg Bancshares, Inc. preferred stock at $910.31 per share (less a placement agent fee) for net proceeds of $6,822,136.23 and 379 shares of First Gothenburg Bancshares, Inc. preferred stock received upon the exercise of
     warrants at $965.11 per share (less a placement agent fee) for net proceeds of $362,118.92, pursuant to a placement agency agreement executed on 10/22/2012.									
136
   	On 10/31/2012, Treasury completed the sale of 10,000 shares of Blackhawk Bancorp Inc. preferred stock at $910.00 per share (less a placement agent fee) for net proceeds of $9,009,000.00 and 500 shares of Blackhawk Bancorp Inc. preferred stock received upon the exercise of warrants at $950.00
     per share (less a placement agent fee) for net proceeds of $470,250.00, pursuant to a placement agency agreement executed on 10/22/2012.									
137
   	On 10/31/2012, Treasury completed the sale of 4,967 shares of Germantown Capital Corporation, Inc. preferred stock at $910.13 per share (less a placement agent fee) for net proceeds of $4,495,615.71 and 248 shares of Germantown Capital Corporation, Inc. preferred stock received upon the
     exercise of warrants at $966.11 per share (less a placement agent fee) for net proceeds of $214,595.28, pursuant to a placement agency agreement executed on 10/22/2012.								
138
   	On 10/31/2012, Treasury completed the sale of 2,250 shares of CenterBank preferred stock at $825.00 per share (less a placement agent fee) for net proceeds of $1,831,250.00 and 113 shares of CenterBank preferred stock received upon the exercise of warrants at $965.11 per share (less a
     placement agent fee) for net proceeds of $84,057.43, pursuant to a placement agency agreement executed on 10/22/2012.											
139
   	On 10/31/2012, Treasury completed the sale of 7,700 shares of Oak Ridge Financial Services, Inc. preferred stock at $921.50 per share (less a placement agent fee) for net proceeds of $7,024,594.50, pursuant to a placement agency agreement executed on 10/22/2012.		
140
   	On 10/31/2012, Treasury completed the sale of 3,285 shares of Congaree Bancshares Inc. preferred stock at $825.26 per share (less a placement agent fee) for net proceeds of $2,685,979.10 and 164 shares of Congaree Bancshares Inc. preferred stock received upon the exercise of warrants at
     $801.00 per share (less a placement agent fee) for net proceeds of $106,364.00, pursuant to a placement agency agreement executed on 10/22/2012.									
141
   	On 10/31/2012, Treasury completed the sale of 7,700 shares of Metro City Bank preferred stock at $900.10 per share (less a placement agent fee) for net proceeds of $6,861,462.30 and 385 shares of Metro City Bank preferred stock received upon the exercise of warrants at $970.61 per share (less a
     placement agent fee) for net proceeds of $369,948.00, pursuant to a placement agency agreement executed on 10/22/2012.											
142
   	On 10/31/2012, Treasury completed the sale of 3,900 shares of Peoples Bancshares of TN, Inc. preferred stock at $755.00 per share (less a placement agent fee) for net proceeds of $2,919,500.00 and 195 shares of Peoples Bancshares of TN, Inc. preferred stock received upon the exercise of
     warrants at $755.00 per share (less a placement agent fee) for net proceeds of $122,225.00, pursuant to a placement agency agreement executed on 10/22/2012.
143
   	On 10/31/2012, Treasury completed the sale of 7,500 shares of The Little Bank, Incorporated preferred stock at $981.20 per share (less a placement agent fee) for net proceeds of $7,285,410.00 and 375 shares of The Little Bank, Incorporated preferred stock received upon the exercise of warrants at
     $1,000.00 per share (less a placement agent fee) for net proceeds of $371,250.00, pursuant to a placement agency agreement executed on 10/22/2012.									
144
   	On 10/31/2012, Treasury completed the sale of 10,000 shares of HomeTown Bankshares Corporation preferred stock at $918.50 per share (less a placement agent fee) for net proceeds of $9,093,150.00 and 374 shares of HomeTown Bankshares Corporation preferred stock received upon the exercise
     of warrants at $852.00 per share (less a placement agent fee) for net proceeds of $315,461.52, pursuant to a placement agency agreement executed on 10/22/2012.								
145
   	On 10/25/2012, pursuant to the terms of the merger of First Community Bancshares, Inc. (“First Community”) and Equity Bancshares, Inc. (“Equity”), Treasury received a like amount of preferred stock and exercised warrants from Equity in exchange for Treasury’s original investment in First Community, plus
     accrued and unpaid dividends, pursuant to a placement agency agreement executed on 10/23/2012. 											
146
   	On 10/29/2012, First Place Financial Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the District of Delaware. 										
147
   	On 11/9/2012, Treasury completed the sale of 1,000 shares of BankGreenville Financial Corp. preferred stock at $900.00 per share (less a placement agent fee) for net proceeds of $891,000.00 and 50 shares of BankGreenville Financial Corp. preferred stock received upon the exercise of warrants at
     $937.61 per share (less a placement agent fee) for net proceeds of $46,411.70, pursuant to a placement agency agreement executed on 11/1/2012.									
148
   	On 11/9/2012, Treasury completed the sale of 4,000 shares of Capital Pacific Bancorp preferred stock at $938.36 per share (less a placement agent fee) for net proceeds of $3,715,905.60 and 200 shares of Capital Pacific Bancorp preferred stock received upon the exercise of warrants at $970.21 per
     share (less a placement agent fee) for net proceeds of $192,101.58, pursuant to a placement agency agreement executed on 11/1/2012.										
149
   	On 11/9/2012, Treasury completed the sale of 8,700 shares of First Freedom Bancshares, Inc. preferred stock at $922.50 per share (less a placement agent fee) for net proceeds of $7,945,492.50 and 261 shares of First Freedom Bancshares, Inc. preferred stock received upon the exercise of warrants
     at $991.21 per share (less a placement agent fee) for net proceeds of $256,118.75, pursuant to a placement agency agreement executed on 11/1/2012.									
150
   	On 11/13/2012, Treasury completed the sale of 5,097 shares of Franklin Bancorp, Inc. preferred stock at $632.50 per share (less a placement agent fee) for net proceeds of $3,191,613.98 and 255 shares of Franklin Bancorp, Inc. preferred stock received upon the exercise of warrants at $772.50 per
     share (less a placement agent fee) for net proceeds of $195,017.63, pursuant to a placement agency agreement executed on 11/1/2012.										
151
   	On 11/9/2012, Treasury completed the sale of 1,500 shares of Regional Bankshares Inc. preferred stock at $925.00 per share (less a placement agent fee) for net proceeds of $1,373,625.00 and 75 shares of Regional Bankshares Inc. preferred stock received upon the exercise of warrants at $1,000 per
     share (less a placement agent fee) for net proceeds of $74,250.00, pursuant to a placement agency agreement executed on 11/1/2012.										
152
   	On 11/13/2012, Treasury completed the sale of 3,070 shares of Sound Banking Co. preferred stock at $922.61 per share (less a placement agent fee) for net proceeds of $2,804,088.57 and 154 shares of Sound Banking Co. preferred stock received upon the exercise of warrants at $970.21 per share
     (less a placement agent fee) for net proceeds of $147,918.22, pursuant to a placement agency agreement executed on 11/1/2012.											
153
   	On 11/9/2012, Treasury completed the sale of 5,677 shares of Three Shores Bancorporation, Inc. preferred stock at $888.36 per share (less a placement agent fee) for net proceeds of $4,992,787.52 and 284 shares of Three Shores Bancorporation, Inc. preferred stock received upon the exercise of
     warrants at $1,004.00 per share (less a placement agent fee) for net proceeds of $282,284.64, pursuant to a placement agency agreement executed on 11/1/2012.									
154
   	On 11/13/2012, Treasury completed the sale of 16,641 shares of Timberland Bancorp, Inc. preferred stock at $862.50 per share (less a placement agent fee) for net proceeds of $14,209,333.88, pursuant to a placement agency agreement executed on 11/1/2012.			
155
   	On 11/9/2012, Treasury completed the sale of 6,855 shares of Western Illinois Bancshares, Inc. Series A preferred stock at $942.90 per share (less a placement agent fee) for net proceeds of $6,398,943.71; 4,567 shares of Western Illinois Bancshares, Inc. Series C preferred stock at $932.77 per
     share (less a placement agent fee) for net proceeds of $4,217,360.98; and 343 shares of Western Illinois Bancshares, Inc. preferred stock received upon the exercise of warrants at $987.77 per share (less a placement agent fee) for net proceeds of $335,417.06, pursuant to a placement agency
     agreement executed on 11/1/2012.											
156
   	On 11/13/2012, Treasury completed the sale of its F&C Bancorp. Inc. subordinated debentures (less a placement agent fee) for net proceeds of $2,840,902.62 and its F&C Bancorp. Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net proceeds of
     $148,500.00, pursuant to a placement agency agreement executed on 11/1/2012.											
157
   	On 11/13/2012, Treasury completed the sale of its Farmers Enterprises, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $11,439,252.00 and its Farmers Enterprises, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net
     proceeds of $590,323.14, pursuant to a placement agency agreement executed on 11/1/2012.											
158
   	On 11/5/2012, Treasury entered into (i) an exchange agreement with Standard Bancshares, Inc. pursuant to which Treasury agreed to exchange its preferred stock for common stock and (ii) securities purchase agreements with W Capital Partners II, L.P., Trident SBI Holdings, LLC, PEPI Capital, LP, LCB
     Investment, LLC, Cohesive Capital Partners, L.P., and Athena Select Private Investment Fund LLC, pursuant to which Treasury agreed to sell such common stock to such parties.								
159
   	On 11/2/2012, Citizens First National Bank, Princeton, IL, the banking subsidiary of Princeton National Bancorp, was closed by the Office of the Comptroller of the Currency, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.				
160
   	On 11/13/2012, Treasury entered into an agreement with Community Financial Shares, Inc. (“CFS”) pursuant to which Treasury agreed to sell its CPP preferred stock back to CFS at a discount subject to the satisfaction of the conditions specified in the agreement.			
161
   	On 11/29/2012, Treasury completed the sale of 4,781 shares of Alaska Pacific Bancshares, Inc. preferred stock at $892.61 per share (less a placement agent fee) for net proceeds of $4,217,568.41, pursuant to a placement agency agreement executed on 11/19/2012.		
162
   	On 11/30/2012, Treasury completed the sale of 3,000 shares of Bank of Commerce preferred stock at $834.00 per share (less a placement agent fee) for net proceeds of $2,477,000.00 and 150 shares of Bank of Commerce preferred stock received upon the exercise of warrants at $834.00 per share
     (less a placement agent fee) for net proceeds of $100,100.00, pursuant to a placement agency agreement executed on 11/19/2012.										
163
   	On 11/30/2012, Treasury completed the sale of 4,000 shares of Carolina Trust Bank preferred stock at $853.00 per share (less a placement agent fee) for net proceeds of $3,362,000.00, pursuant to a placement agency agreement executed on 11/19/2012.			
164
   	On 11/29/2012, Treasury completed the sale of 2,644 shares of CBB Bancorp Series A preferred stock at $934.10 per share (less a placement agent fee) for net proceeds of $2,453,093; 1,753 shares of CBB Bancorp Series C preferred stock at $930.02 per share (less a placement agent fee) for net
     proceeds of $1,613,658.39; and 132 shares of CBB Bancorp Series B preferred stock received upon the exercise of warrants at $1,004.00 per share (less a placement agent fee) for net proceeds of $115,861.33, pursuant to a placement agency agreement executed on 11/19/2012.		
165
   	On 11/29/2012, Treasury completed the sale of 3,000 shares of Clover Community Bankshares, Inc. preferred stock at $872.90 per share (less a placement agent fee) for net proceeds of $2,593,700.00 and 150 shares of Clover Community Bankshares, Inc. preferred stock received upon the exercise of
     warrants at $926.81 per share (less a placement agent fee) for net proceeds of $114,021.50, pursuant to a placement agency agreement executed on 11/19/2012.									
166
   	On 11/30/2012, Treasury completed the sale of 105 shares of Community Bancshares of Mississippi, Inc. preferred stock at $9,550.00 per share (less a placement agent fee) for net proceeds of $977,750.00 and 5 shares of Community Bancshares of Mississippi, Inc. preferred stock received upon the
     exercise of warrants at $10,000.00 per share (less a placement agent fee) for net proceeds of $25,000.00, pursuant to a placement agency agreement executed on 11/19/2012.								
167
   	On 11/30/2012, Treasury completed the sale of 3,976 shares of Community Business Bank preferred stock at $935.00 per share (less a placement agent fee) for net proceeds of $3,692,560.00 and 199 shares of Community Business Bank preferred stock received upon the exercise of warrants at
     $965.00 per share (less a placement agent fee) for net proceeds of $167,035.00, pursuant to a placement agency agreement executed on 11/19/2012.									
168
   	On 11/30/2012, Treasury completed the sale of 638 shares of Corning Savings and Loan Association preferred stock at $860.00 per share (less a placement agent fee) for net proceeds of $523,680.00 and 32 shares of Corning Savings and Loan Association preferred stock received upon the exercise of
     warrants at $905.00 per share (less a placement agent fee) for net proceeds of $3,960.00, pursuant to a placement agency agreement executed on 11/19/2012.									
169
   	On 11/29/2012, Treasury completed the sale of 7,525 shares of Country Bank Shares, Inc. preferred stock at $917.90 per share (less a placement agent fee) for net proceeds of $6,838,125.53 and 376 shares of Country Bank Shares, Inc. preferred stock received upon the exercise of warrants at
     $1,000.00 per share (less a placement agent fee) for net proceeds of $372,240.00, pursuant to a placement agency agreement executed on 11/19/2012.									
170
   	On 11/30/2012, Treasury completed the sale of 7,289 shares of FFW Corporation preferred stock at $902.90 per share (less a placement agent fee) for net proceeds of $6,515,425.72 and 364 shares of FFW Corporation preferred stock received upon the exercise of warrants at $995.00 per share (less
     a placement agent fee) for net proceeds of $358,558.20, pursuant to a placement agency agreement executed on 11/19/2012.											
171
   	On 11/30/2012, Treasury completed the sale of 1,900 shares of Hometown Bancshares, Inc. preferred stock at $942.90 per share (less a placement agent fee) for net proceeds of $1,766,510.00 and 95 shares of Hometown Bancshares, Inc. preferred stock received upon the exercise of warrants at
     $1,001.00 per share (less a placement agent fee) for net proceeds of $70,095.00, pursuant to a placement agency agreement executed on 11/19/2012.									
172
   	On 11/30/2012, Treasury completed the sale of 4,000 shares of KS Bancorp, Inc. preferred stock at $827.00 per share (less a placement agent fee) for net proceeds of $3,283,000 and 200 shares of KS Bancorp, Inc. preferred stock received upon the exercise of warrants at $827.00 per share (less a
     placement agent fee) for net proceeds of $140,400.00, pursuant to a placement agency agreement executed on 11/19/2012.											
173
   	On 11/29/2012, Treasury completed the sale of 3,000 shares of Layton Park Financial Group, Inc. preferred stock at $790.31 per share (less a placement agent fee) for net proceeds of $2,345,930.00 and 150 shares of Layton Park Financial Group, Inc. preferred stock received upon the exercise of
     warrants at $862.50 per share (less a placement agent fee) for net proceeds of $104,375.00, pursuant to a placement agency agreement executed on 11/19/2012.									
174
   	On 11/29/2012, Treasury completed the sale of 16,288 shares of Parke Bancorp, Inc. preferred stock at $719.11 per share (less a placement agent fee) for net proceeds of $11,595,735.04, pursuant to a placement agency agreement executed on 11/19/2012.			
175
   	On 11/29/2012, Treasury completed the sale of 2,765 shares of TriSummit Bank Series B preferred stock at $750.00 per share (less a placement agent fee) for net proceeds of $2,053,012.50; 4,237 shares of TriSummit Bank Series D preferred stock at $750.00 per share (less a placement agent fee)
     for net proceeds of $3,145,972.50; and 138 shares of TriSummit Bank Series C preferred stock received upon the exercise of warrants at $912.50 per share (less a placement agent fee) for net proceeds of $124,665.75, pursuant to a placement agency agreement executed on 11/19/2012.	
176
   	In connection with the merger of Fidelity Bancorp, Inc. (“Fidelity”) and WesBanco, Inc. (“WesBanco”) effective 01/01/2012, Treasury (i) sold to WesBanco all of the preferred stock that had been issued by Fidelity to Treasury for a purchase price of $7,000,000 plus accrued dividends and (ii) exchanged the
     Fidelity warrant held by Treasury for a like WesBanco warrant, pursuant to the terms of an agreement among Treasury and WesBanco entered into on 11/28/2012.									
177
   	On 11/30/12, Western Reserve Bancorp, Inc. was acquired by an affiliate of Westfield Bancorp, Inc. Pursuant to the terms of the merger, each outstanding share of Series A and Series B preferred stock issued to Treasury was redeemed for the respective principal amount together with accrued and unpaid
     dividends thereon. 											
178
   	On 11/30/12, Treasury entered into an agreement with First Sound Bank (“First Sound”) pursuant to which Treasury agreed to sell its CPP preferred stock and warrant back to First Sound at a discount subject to the satisfaction of the conditions specified in the agreement.		
179
   	On 12/11/2012, Treasury completed the sale of 20,749 shares of The Baraboo Bancorporation, Inc. preferred stock at $652.30 per share (less a placement agent fee) for net proceeds of $13,399,226.97 and 1,037 shares of The Baraboo Bancorporation, Inc. preferred stock received upon the exercise
     of warrants at $836.21 per share (less a placement agent fee) for net proceeds of $858,478.27, pursuant to a placement agency agreement executed on 12/3/2012.									
180
   	On 12/11/2012, Treasury completed the sale of 22,000 shares of Central Community Corporation preferred stock at $926.20 per share (less a placement agent fee) for net proceeds of $20,172,636.00 and 1,100 shares of Central Community Corporation preferred stock received upon the exercise of
     warrants at $972.20 per share (less a placement agent fee) for net proceeds of $1,058,725.80, pursuant to a placement agency agreement executed on 12/3/2012.									
181
   	On 12/11/2012, Treasury completed the sale of 15,600 shares of Community West Bancshares, Inc. preferred stock at $724.00 per share (less a placement agent fee) for net proceeds of $11,181,456.00, pursuant to a placement agency agreement executed on 12/3/2012.		
182
   	On 12/11/2012, Treasury completed the sale of 1,177 shares of First Advantage Bancshares, Inc. preferred stock at $898.21 per share (less a placement agent fee) for net proceeds of $1,046,621.24 and 59 shares of First Advantage Bancshares, Inc. preferred stock received upon the exercise of
     warrants at $920.31 per share (less a placement agent fee) for net proceeds of $53,755.31, pursuant to a placement agency agreement executed on 12/3/2012.									
183
   	On 12/11/2012, Treasury completed the sale of its Manhattan Bancshares, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $2,560,540.68 and its Manhattan Bancshares, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for
     net proceeds of $131,021.07, pursuant to a placement agency agreement executed on 12/3/2012.											
184
   	On 12/11/2012, Treasury completed the sale of 10,800 shares of Presidio Bank preferred stock at $847.21 per share (less a placement agent fee) for net proceeds of $9,058,369.32 and 325 shares of Presidio Bank preferred stock received upon the exercise of warrants at $865.21 per share (less a
     placement agent fee) for net proceeds of $278,381.32, pursuant to a placement agency agreement executed on 12/3/2012.											
185
   	On 12/11/2012, Treasury completed the sale of 2,152 shares of Security Bancshares of Pulaski County, Inc. preferred stock at $692.61 per share (less a placement agent fee) for net proceeds of $1,475,591.75 and 108 shares of Security Bancshares of Pulaski County, Inc. preferred stock received upon
     the exercise of warrants at $872.10 per share (less a placement agent fee) for net proceeds of $93,244.93, pursuant to a placement agency agreement executed on 12/3/2012.								
186
   	On 12/11/12, Treasury entered into a securities purchase agreement with PremierWest Bancorp (PremierWest) and Starbuck Bancshares, Inc. (Starbuck) pursuant to which Treasury agreed to sell its CPP preferred and warrant in PremierWest to Starbuck subject to certain conditions.		
187
   	On 12/20/2012, Treasury completed the sale of 1,004 shares of Bank Financial Services, Inc. preferred stock at $929.22 per share (less a placement agent fee) for net proceeds of $907,936.88 and 50 shares of Bank Financial Services, Inc. preferred stock received upon the exercise of warrants at
     $970.00 per share (less a placement agent fee) for net proceeds of $23,500.00, pursuant to a placement agency agreement executed on 12/11/2012.									
188
   	On 12/20/2012, Treasury completed the sale of 2,211 shares of Bank of Southern California, N.A. Series A preferred stock at $920.00 per share (less a placement agent fee) for net proceeds of $2,017,453.33; 2,032 shares of Bank of Southern California, N.A. Series C preferred stock at $910.12
     per share (less a placement agent fee) for net proceeds of $1,832,697.18; and 111 shares of Bank of Southern California, N.A. preferred stock received upon the exercise of warrants at $965.12 per share (less a placement agent fee) for net proceeds of $90,461.65, pursuant to a placement agency
     agreement executed on 12/11/2012.											
189
   	On 12/20/2012, Treasury completed the sale of 2,600 shares of Community Investors Bancorp, Inc. preferred stock at $950.00 per share (less a placement agent fee) for net proceeds of $2,445,000.00 and 130 shares of Community Investors Bancorp, Inc. preferred stock received upon the exercise of
     warrants at $1,000.00 per share (less a placement agent fee) for net proceeds of $105,000.00, pursuant to a placement agency agreement executed on 12/11/2012.								
190
   	On 12/20/2012, Treasury completed the sale of 3,422 shares of First Alliance Bancshares, Inc. preferred stock at $700.10 per share (less a placement agent fee) for net proceeds of $2,370,742.20 and 171 shares of First Alliance Bancshares, Inc. preferred stock received upon the exercise of warrants
     at $700.01 per share (less a placement agent fee) for net proceeds of $94,701.71, pursuant to a placement agency agreement executed on 12/11/2012.									
191
   	On 12/20/2012, Treasury completed the sale of 3,223 shares of First Independence Corporation preferred stock at $725.00 per share (less a placement agent fee) for net proceeds of $2,286,675.00, pursuant to a placement agency agreement executed on 12/11/2012.		
192
   	On 12/20/2012, Treasury completed the sale of 1,552 shares of Hyperion Bank preferred stock at $650.00 per share (less a placement agent fee) for net proceeds of $983,800.00 and 78 shares of Hyperion Bank preferred stock received upon the exercise of warrants at $650.00 per share (less a
     placement agent fee) for net proceeds of $25,700.00, pursuant to a placement agency agreement executed on 12/11/2012.											
193
   	On 12/20/2012, Treasury completed the sale of its Century Financial Services Corporation subordinated debentures (less a placement agent fee) for net proceeds of $9,751,500.00 and its Century Financial Services Corporation subordinated debentures received upon the exercise of warrants (less a
     placement agent fee) for net proceeds of $496,588.95, pursuant to a placement agency agreement executed on 12/11/2012.											
194
   	In connection with the merger of Community Financial Corporation (“Community Financial”) and City Holding Company (“City Holding”) effective 1/09/13, Treasury (i) sold to City Holding all of the preferred stock that had been issued by Community Financial tTreasury for a purchase price of $12,643,000 plus
     accrued dividends and (ii) exchanged the Community Financial warrant held by Treasury for a like City Holding warrant, pursuant to the terms of an agreement among Treasury and City Holding entered into on 1/09/13.						
195
   	On 2/7/2013, Treasury completed the sale of its Alliance Financial Services, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $8,912,494.80 and its Alliance Financial Services, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee)
     for net proceeds of $504,900.00, pursuant to a placement agency agreement executed on 12/11/2012.											
196
   	On 2/8/2013, Treasury completed the sale of its Biscayne Bancshares, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $6,170,630.40 and its Biscayne Bancshares, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net
     proceeds of $204,506.72, pursuant to a placement agency agreement executed on 1/29/2013.											
197
   	On 2/8/2013, Treasury completed the sale of 24,990 shares of Citizens Bancshares Co. preferred stock at $512.50 per share (less a placement agent fee) for net proceeds of $12,679,301.25 and 1,250 shares of Citizens Bancshares Co. preferred stock received upon the exercise of warrants at
     $521.25 per share (less a placement agent fee) for net proceeds of $645,046.87, pursuant to a placement agency agreement executed on 1/29/2013.									
198
   	On 1/29/2013, Treasury executed a placement agency agreement pursuant to which Treasury agreed to sell 9,950 shares of Coastal Banking Company, Inc. preferred stock at $815.00 per share (less a placement agent fee) for net proceeds of $8,028,157.50. On 2/6/2013, the placement agent notified
     Coastal Banking Company, Inc. that, pursuant to the placement agency agreement, it was terminating the transaction and, therefore, Treasury did not receive any proceeds or pay any fees in connection with the transaction.					
199
   	On 2/7/2013, Treasury completed the sale of 28,000 shares of Colony Bankcorp, Inc. preferred stock at $782.11 per share (less a placement agent fee) for net proceeds of $21,680,089.20, pursuant to a placement agency agreement executed on 1/29/2013.			
200
   	On 2/7/2013, Treasury completed the sale of 9,000 shares of Delmar Bancorp preferred stock at $612.11 per share (less a placement agent fee) for net proceeds of $5,453,900.10 and 450 shares of Delmar Bancorp preferred stock received upon the exercise of warrants at $700.21 per share (less a
     placement agent fee) for net proceeds of $311,943.55, pursuant to a placement agency agreement executed on 1/29/2013.											
201
   	On 2/8/2013, Treasury completed the sale of 146,053 shares of Dickinson Financial Corporation II preferred stock at $552.61 per share (less a placement agent fee) for net proceeds of $79,903,244.85 and 7,303 shares of Dickinson Financial Corporation II preferred stock received upon the exercise of
     warrants at $681.25 per share (less a placement agent fee) for net proceeds of $4,925,417.06, pursuant to a placement agency agreement executed on 1/29/2013.							
202
   	On 2/7/2013, Treasury completed the sale of 4,609 shares of F & M Bancshares, Inc. Series A preferred stock at $942.50 per share (less a placement agent fee) for net proceeds of $4,300,542.67; 3,535 shares of F & M Bancshares, Inc. Series C preferred stock at $942.50 per share (less a placement
     agent fee) for net proceeds of $3,298,420.12; and 230 shares of F & M Bancshares, Inc. Series B preferred stock received upon the exercise of warrants at $975.00 per share (less a placement agent fee) for net proceeds of $222,007.50, pursuant to a placement agency agreement executed on
     1/29/2013.											
                                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




203
   	On 2/8/2013, Treasury completed the sale of 4,579 shares of First Priority Financial Corp. Series A preferred stock at $882.90 per share (less a placement agent fee) for net proceeds of $4,002,371.11; 4,596 shares of First Priority Financial Corp. Series C preferred stock at $881.25 per share (less
     a placement agent fee) for net proceeds of $4,009,722.75; and 229 shares of First Priority Financial Corp. Series B preferred stock received upon the exercise of warrants at $991.21 per share (less a placement agent fee) for net proceeds of $224,717.22, pursuant to a placement agency agreement
     executed on 1/29/2013.											
204
   	On 2/8/2013, Treasury completed the sale of 26,000 shares of HMN Financial, Inc. preferred stock at $721.50 per share (less a placement agent fee) for net proceeds of $18,571,410.00, pursuant to a placement agency agreement executed on 1/29/2013.			
205
   	On 2/7/2013, Treasury completed the sale of 5,625 shares of Waukesha Bankshares, Inc. preferred stock at $926.90 per share (less a placement agent fee) for net proceeds of $5,161,674.37 and 169 shares of Waukesha Bankshares, Inc. preferred stock received upon the exercise of warrants at
     $991.21 per share (less a placement agent fee) for net proceeds of $165,839.35, pursuant to a placement agency agreement executed on 1/29/2013.									
206
   	On 2/15/2013, Treasury sold its CPP preferred stock and warrant issued by BancTrust Financial Group, Inc. (“BancTrust”) pursuant to an agreement with BancTrust and Trustmark Corporation (“Trustmark”) entered into on 02/11/2013.					
                                                                                                                                                                                                                                                                                                                         261
                                                                                                                                                                                                                                                                                                                                   262
207
   	On 2/12/13, Treasury entered into an agreement with Florida Bank Group, Inc. (“FBG”) pursuant to which Treasury agreed to sell its CPP preferred stock back to FBG at a discount subject to the satisfaction of the conditions specified in the agreement.				
208
   	On 2/15/2013, pursuant to the terms of the merger of Pacific International Bancorp, Inc. (“Pacific International”) with BBCN Bancorp, Inc. (“BBCN”), Treasury received $7,474,619.97 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock that had
     been issued to Treasury by Pacific International. Treasury exchanged its Pacific International warrant for an equivalent warrant issued by BBCN.										
209
   	On 2/20/2013, Treasury completed the sale of 16,000 shares of Carolina Bank Holdings, Inc. preferred stock at $935.10 per share (less a placement agent fee) for net proceeds of $14,811,984.00, pursuant to a placement agency agreement executed on 2/6/2013.			
210
   	On 2/20/2013, Treasury completed the sale of 21,042 shares of FC Holdings, Inc. preferred stock at $897.00 per share (less a placement agent fee) for net proceeds of $18,685,927.26 and 1,052 shares of FC Holdings, Inc. preferred stock received upon the exercise of warrants at $955.00 per share
     (less a placement agent fee) for net proceeds of $994,613.40, pursuant to a placement agency agreement executed on 2/6/2013.											
211
   	On 2/20/2013, Treasury completed the sale of its First Trust Corporation subordinated debentures (less a placement agent fee) for net proceeds of $13,612,557.91 and its First Trust Corporation subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net proceeds
     of $644,726.19, pursuant to a placement agency agreement executed on 12/11/2012.											
212
   	On 2/20/2013, Treasury completed the sale of 24,664 shares of National Bancshares, Inc. preferred stock at $750.21 per share (less a placement agent fee) for net proceeds of $18,318,147.65 and 1,233 shares of National Bancshares, Inc. preferred stock received upon the exercise of warrants at
     $692.61 per share (less a placement agent fee) for net proceeds of $845,448.25, pursuant to a placement agency agreement executed on 2/6/2013.									
213
   	On 2/20/2013, Treasury completed the sale of 10,900 shares of Ridgestone Financial Services, Inc. preferred stock at $822.60 per share (less a placement agent fee) for net proceeds of $8,876,676.60 and 545 shares of Ridgestone Financial Services, Inc. preferred stock received upon the exercise of
     warrants at $882.60 per share (less a placement agent fee) for net proceeds of $476,206.83, pursuant to a placement agency agreement executed on 2/6/2013.									
214
   	On 2/21/13, Treasury entered into a securities purchase agreement with FirstMerit Corporation (FirstMerit) and Citizens Republic Bancorp, Inc. (Citizens Republic) pursuant to which Treasury agreed, subject to certain conditions, to (i) sell its CPP preferred in Citizens Republic to FirstMerit and (ii) exchange its
     existing warrant in Citizens Republic for a warrant issued by FirstMerit. 											
215
   	On 2/25/2013, Treasury entered into an agreement with First Security Group, Inc. to exchange Treasury’s CPP warrant and $33,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by First Security Group, Inc. of certain conditions, including the satisfactory completion of
     a capital plan.											
216
   	On 3/11/2013, Treasury completed the sale of its Boscobel Bancorp, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $6,116,943.16 and its Boscobel Bancorp, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net
     proceeds of $361,890.34, pursuant to a placement agency agreement executed on 2/25/2013.											
217
   	On 3/11/2013, Treasury completed the sale of 9,950 shares of Coastal Banking Company, Inc. preferred stock at $955.10 per share (less a placement agent fee) for net proceeds of $9,408,212.55, pursuant to a placement agency agreement executed on 2/25/2013.		
218
   	On 3/11/2013, Treasury completed the sale of 16,015 shares of CoastalSouth Bancshares, Inc. preferred stock at $795.10 per share (less a placement agent fee) for net proceeds of $12,606,191.23 and 480 shares of CoastalSouth Bancshares, Inc. preferred stock received upon the exercise of
     warrants at $875.10 per share (less a placement agent fee) for net proceeds of $415,847.52, pursuant to a placement agency agreement executed on 2/25/2013.									
219
   	On 3/11/2013, Treasury completed the sale of 15,349 shares of First Reliance Bancshares, Inc. preferred stock at $679.61 per share (less a placement agent fee) for net proceeds of $10,327,020.55 and 767 shares of First Reliance Bancshares, Inc. preferred stock received upon the exercise of
     warrants at $822.61 per share (less a placement agent fee) for net proceeds of $624,632.45, pursuant to a placement agency agreement executed on 2/25/2013.									
220
   	On 3/11/2013, Treasury completed the sale of 10,500 shares of Northwest Bancorporation, Inc. preferred stock at $1,032.11 per share (less a placement agent fee) for net proceeds of $10,728,783.45 and 525 shares of Northwest Bancorporation, Inc. preferred stock received upon the exercise of
     warrants at $1,130.61 per share (less a placement agent fee) for net proceeds of $587,634.55, pursuant to a placement agency agreement executed on 2/25/2013.									
221
   	On 3/11/2013, Treasury completed the sale of 2,900 shares of Santa Clara Valley Bank, N.A. preferred stock at $850.01 per share (less a placement agent fee) for net proceeds of $2,440,029.00 and 145 shares of Santa Clara Valley Bank, N.A. preferred stock received upon the exercise of warrants at
     $850.01 per share (less a placement agent fee) for net proceeds of $98,251.45, pursuant to a placement agency agreement executed on 2/25/2013.									
222
   	On 3/11/2013, Treasury completed the sale of 12,900 shares of SouthCrest Financial Group, Inc. preferred stock at $907.31 per share (less a placement agent fee) for net proceeds of $11,587,256.01 and 645 shares of SouthCrest Financial Group, Inc. preferred stock received upon the exercise of
     warrants at $921.25 per share (less a placement agent fee) for net proceeds of $588,264.19, pursuant to a placement agency agreement executed on 2/25/2013.									
223
   	On 3/11/2013, Treasury completed the sale of 12,000 shares of The Queensborough Company preferred stock at $976.90 per share (less a placement agent fee) for net proceeds of $11,605,572.00 and 600 shares of The Queensborough Company preferred stock received upon the exercise of warrants
     at $971.00 per share (less a placement agent fee) for net proceeds of $576,774.00, pursuant to a placement agency agreement executed on 2/25/2013.									
224
   	On 3/11/2013, Treasury completed the sale of 70,028 shares of Old Second Bancorp, Inc. preferred stock at $352.50 per share (less a placement agent fee) for net proceeds of $24,438,021.30, pursuant to a placement agency agreement executed on 2/25/2013.			
225
                                                                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




   	On 3/19/2013, Treasury exercised its warrant on a cashless basis and received (i) 186,589 shares of common stock and (ii) $71.62 in cash in lieu of fractional shares. Treasury sold such shares of common stock on 3/19/2013.					
226
   	On 3/27/2013, Treasury completed the sale of 5,500 shares of First Southwest Bancorporation, Inc. preferred stock at $900.02 per share (less a placement agent fee) for net proceeds of $4,900,608.90 and 275 shares of First Southwest Bancorporation, Inc. preferred stock received upon the exercise of
     warrants at $925.02 per share (less a placement agent fee) for net proceeds of $251,836.69, pursuant to a placement agency agreement executed on 3/11/2013.									
227
   	On 3/27/2013, Treasury completed the sale of 2,972 shares of Old Second Bancorp, Inc. preferred stock at $377.02 per share (less a placement agent fee) for net proceeds of $1,109,298.41, pursuant to a placement agency agreement executed on 3/11/2013.			
228
   	On 3/27/2013, Treasury completed the sale of 266,657 shares of Flagstar Bancorp, Inc. preferred stock at $911.50 per share (less a placement agent fee) for net proceeds of $240,627,276.94, pursuant to a placement agency agreement executed on 3/11/2013.			
229
   	On 3/27/2013, Treasury completed the sale of 10,973 shares of Stonebridge Financial Corp. preferred stock at $173.53 per share (less a placement agent fee) for net proceeds of $1,879,144.69 and 549 shares of Stonebridge Financial Corp. preferred stock received upon the exercise of warrants at
     $298.84 per share (less a placement agent fee) for net proceeds of $139,063.16, pursuant to a placement agency agreement executed on 3/11/2013.									
230
   	On 3/28/2013, Treasury completed the sale of 2,986 shares of Alliance Bancshares, Inc. preferred stock at $956.61 per share (less a placement agent fee) for net proceeds of $2,831,437.46 and 149 shares of Alliance Bancshares, Inc. preferred stock received upon the exercise of warrants at
     $1,100.00 per share (less a placement agent fee) for net proceeds of $138,900.00, pursuant to a placement agency agreement executed on 3/11/2013.									
231
   	On 3/28/2013, Treasury completed the sale of its AmFirst Financial Services, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $4,752,000.00 and its AmFirst Financial Services, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee)
     for net proceeds of $259,875.00, pursuant to a placement agency agreement executed on 3/11/2013.											
232
   	On 3/28/2013, Treasury completed the sale of 180,000 shares of United Commercial Banks, Inc. preferred stock at $962.50 per share (less a placement agent fee) for net proceeds of $171,517,500.00, pursuant to a placement agency agreement executed on 3/11/2013.		

Sources: Treasury, Transactions Report, 3/28/2013; Dividends and Interest Report, 4/10/2013; Treasury, response SIGTARP data call, 4/10/2013; Bloomberg, LP, accessed 4/10/2013.								




TABLE D.2
 CPP - CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 3/31/2013
      Note   Date                                             Pricing Mechanism6                        Number of Shares                                    Proceeds7
       1     4/26/2010 - 5/26/2010                                            $4.12                          1,500,000,000                            $6,182,493,158
       2     5/26/2010 - 6/30/2010                                            $3.90                          1,108,971,857                            $4,322,726,825
       3     7/23/2010 - 9/30/2010                                            $3.91                          1,500,000,000                            $5,863,489,587
       4     10/19/2010 - 12/6/2010                                           $4.26                          1,165,928,228                            $4,967,921,811
       5     12/6/2010                                                        $4.35                          2,417,407,607                           $10,515,723,090
                                                                                                           Total Proceeds:                         $31,852,354,471
 Notes: Numbers may not total due to rounding. Data as of 3/31/2013. Numbered notes taken verbatim from 3/28/2013 Transactions Report.

 1	
     4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
    On
    parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
    Completion of the sale under this authority occurred on 5/26/2010.
 2	
    On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
     parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
     Completion of the sale under this authority occurred on 6/30/2010.
 3
  	On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
     parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale).
     Completion of the sale under this authority occured on 9/30/2010.
 4	
     On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
     parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale), which
     plan was terminated on 12/6/2010.
 5	
     On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
     fulfillment of certain closing conditions.
 6	
     The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding period.
 7	
     Amount represents the gross proceeds to Treasury.

 Source: Treasury, Transactions Report, 3/28/2013.
TABLE D.3
CDCI PROGRAM TRANSACTION DETAIL, AS OF 3/31/2013
                                                           Seller                                                                  Purchase Details                                                               Disposition Details

                                                                                                                     Amount from                                                    Pricing                                      Remaining     Dividend/Interest
 Note   Purchase Date   Name of Institution                                                Investment Description            CPP     Additional Investment   Investment Amount   Mechanism          Date       Amount    Investment Amount      Paid to Treasury
        9/24/2010       Alternatives Federal Credit Union, Ithaca, NY                      Subordinated Debentures           $—                       $—            $2,234,000          Par                                                         $106,859.67
        9/17/2010       American Bancorp of Illinois, Inc., Oak Brook, IL                  Subordinated Debentures           $—                       $—            $5,457,000          Par                                                         $407,880.43
        9/24/2010       Atlantic City Federal Credit Union, Lander, WY                     Subordinated Debentures           $—                       $—            $2,500,000          Par    9/26/20126   $2,500,000                  $—          $100,277.77
        9/24/2010       Bainbridge Bancshares, Inc., Bainbridge, GA                        Preferred Stock                   $—                       $—            $3,372,000          Par                                                         $161,294.00
        9/29/2010       Bancorp of Okolona, Inc., Okolona, MS                              Subordinated Debentures           $—                       $—            $3,297,000          Par    3/13/20136   $3,297,000                  $—          $250,974.96
 1, 2   9/29/2010       BancPlus Corporation, Ridgeland, MS                                Preferred Stock           $50,400,000              $30,514,000          $80,914,000          Par                                                       $3,847,910.22
        9/29/2010       BankAsiana, Palisades Park, NJ                                     Preferred Stock                   $—                       $—            $5,250,000          Par                                                         $249,666.67
        9/29/2010       Bethex Federal Credit Union, Bronx, NY                             Subordinated Debentures           $—                       $—             $502,000           Par                                                          $23,872.89
        9/29/2010       Border Federal Credit Union, Del Rio, TX                           Subordinated Debentures           $—                       $—            $3,260,000          Par                                                         $155,031.11
        9/24/2010       Brewery Credit Union, Milwaukee, WI                                Subordinated Debentures           $—                       $—            $1,096,000          Par    10/3/20126   $1,096,000                  $—           $44,388.00
        9/30/2010       Brooklyn Cooperative Federal Credit Union, Brooklyn, NY            Subordinated Debentures           $—                       $—             $300,000           Par                                                          $14,250.00
        9/24/2010       Buffalo Cooperative Federal Credit Union, Buffalo, NY              Subordinated Debentures           $—                       $—             $145,000           Par                                                           $6,935.83
        9/24/2010       Butte Federal Credit Union, Biggs, CA                              Subordinated Debentures           $—                       $—            $1,000,000          Par                                                          $47,833.33
        9/29/2010       Carter Federal Credit Union, Springhill, LA                        Subordinated Debentures           $—                       $—            $6,300,000          Par                                                         $298,350.00
 1, 3   8/27/2010       Carver Bancorp, Inc, New York, NY                                  Common Stock              $18,980,000                      $—           $18,980,000          Par     2/6/20136   $2,500,000            $3,800,000        $446,507.39
        9/17/2010       CFBanc Corporation, Washington, DC                                 Preferred Stock                   $—                       $—            $5,781,000          Par                                                         $278,772.67
  1     8/13/2010                                                                          Preferred Stock            $7,462,000                      $—                   $—           Par
                        Citizens Bancshares Corporation, Atlanta, GA                                                                                                                                                                                $585,094.22
  2a    9/17/2010                                                                          Preferred Stock                   $—                $4,379,000          $11,841,000          Par
  1     9/29/2010       Community Bancshares of Mississippi, Inc., Brandon, MS             Preferred Stock           $54,600,000                      $—           $54,600,000          Par                                                       $2,596,533.33
 1, 2   9/29/2010       Community Bank of the Bay, Oakland, CA                             Preferred Stock            $1,747,000               $2,313,000           $4,060,000          Par                                                         $172,775.56
        9/24/2010       Community First Guam Federal Credit Union, Hagatna, GU             Subordinated Debentures           $—                       $—            $2,650,000          Par                                                         $126,758.33
        9/29/2010       Community Plus Federal Credit Union, Rantoul, IL                   Subordinated Debentures           $—                       $—             $450,000           Par                                                          $21,400.00
        9/24/2010       Cooperative Center Federal Credit Union, Berkeley, CA              Subordinated Debentures           $—                       $—            $2,799,000          Par                                                         $133,885.50
        9/29/2010       D.C. Federal Credit Union, Washington, DC                          Subordinated Debentures           $—                       $—            $1,522,000          Par                                                          $72,379.56
        9/29/2010       East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT   Subordinated Debentures           $—                       $—               $7,000           Par                                                             $332.89
        9/29/2010       Episcopal Community Federal Credit Union, Los Angeles, CA          Subordinated Debentures           $—                       $—             $100,000           Par                                                           $4,755.56
        9/24/2010       Fairfax County Federal Credit Union, Fairfax, VA                   Subordinated Debentures           $—                       $—            $8,044,000          Par                                                         $384,771.33
        9/29/2010       Faith Based Federal Credit Union, Oceanside, CA                    Subordinated Debentures           $—                       $—              $30,000           Par                                                           $1,426.67
        9/29/2010       Fidelis Federal Credit Union, New York, NY                         Subordinated Debentures           $—                       $—              $14,000           Par                                                             $665.78
  1     8/13/2010       First American International Corp., Brooklyn, NY                   Preferred Stock           $17,000,000                      $—           $17,000,000          Par                                                         $171,888.89
  1     9/24/2010       First Choice Bank, Cerritos, CA                                    Preferred Stock            $5,146,000                      $—            $5,146,000          Par                                                         $246,150.33
  1     9/17/2010       First Eagle Bancshares, Inc., Hanover Park, IL                     Subordinated Debentures    $7,875,000                      $—            $7,875,000          Par                                                         $588,612.50
        9/29/2010       First Legacy Community Credit Union, Charlotte, NC                 Subordinated Debentures          $—-                       $—            $1,000,000          Par                                                          $47,555.56
  1     9/29/2010       First M&F Corporation, Kosciusko, MS                               Preferred Stock           $30,000,000                      $—           $30,000,000          Par                                                       $1,426,666.67
  1     9/29/2010       First Vernon Bancshares, Inc., Vernon, AL                          Preferred Stock            $6,245,000                      $—            $6,245,000          Par                                                          $15,959.44
        9/29/2010       Freedom First Federal Credit Union, Roanoke, VA                    Subordinated Debentures           $—                       $—            $9,278,000          Par                                                         $441,220.44
        9/24/2010       Gateway Community Federal Credit Union, Missoula, MT               Subordinated Debentures           $—                       $—            $1,657,000          Par   10/17/20126   $1,657,000                  $—           $68,397.27
        9/17/2010       Genesee Co-op Federal Credit Union, Rochester, NY                  Subordinated Debentures           $—                       $—             $300,000           Par                                                          $14,466.67
  5     9/29/2010       Greater Kinston Credit Union, Kinston, NC                          Subordinated Debentures           $—                       $—             $350,000           Par    4/10/20125    $350,000                   $—           $10,714.44
  1     7/30/2010       Guaranty Capital Corporation, Belzoni, MS                          Subordinated Debentures   $14,000,000                      $—           $14,000,000          Par                                                       $1,103,083.33
        9/29/2010       Hill District Federal Credit Union, Pittsburgh, PA                 Subordinated Debentures           $—                       $—             $100,000           Par                                                           $4,755.56
        9/17/2010       Hope Federal Credit Union, Jackson, MS                             Subordinated Debentures           $—                       $—            $4,520,000          Par                                                         $217,964.44
 1, 2   9/10/2010       IBC Bancorp, Inc., Chicago, IL                                     Subordinated Debentures    $4,205,000               $3,881,000           $8,086,000          Par                                                         $609,257.64
  1     9/3/2010        IBW Financial Corporation, Washington, DC                          Preferred Stock            $6,000,000                      $—            $6,000,000          Par                                                         $294,000.00
                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




        9/29/2010       Independent Employers Group Federal Credit Union, Hilo, HI         Subordinated Debentures           $—                       $—             $698,000           Par                                                          $33,193.78
        9/3/2010        Kilmichael Bancorp, Inc., Kilmichael, MS                           Subordinated Debentures           $—                       $—            $3,154,000          Par                                                         $239,546.30
  1     9/29/2010       Lafayette Bancorp, Inc., Oxford, MS                                Preferred Stock            $4,551,000                      $—            $4,551,000          Par                                                         $216,425.33
        9/24/2010       Liberty County Teachers Federal Credit Union, Liberty, TX          Subordinated Debentures           $—                       $—             $435,000           Par                                                          $20,807.50
                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                    263
CDCI PROGRAM TRANSACTION DETAIL, AS OF 3/31/2013                                                                    (CONTINUED)                                                                                                                                                                                  264
                                                                 Seller                                                                                Purchase Details                                                                                     Disposition Details
                                                                                                                                        Amount from                                                              Pricing                                                    Remaining       Dividend/Interest
 Note    Purchase Date       Name of Institution                                                         Investment Description                 CPP       Additional Investment      Investment Amount        Mechanism               Date              Amount      Investment Amount        Paid to Treasury
 1, 2    9/24/2010           Liberty Financial Services, Inc., New Orleans, LA                           Preferred Stock                  $5,645,000                 $5,689,000              $11,334,000               Par                                                                       $542,143.00
         9/24/2010           Lower East Side People’s Federal Credit Union, New York, NY                 Subordinated Debentures                  $—                          $—                $898,000               Par                                                                         $42,954.33
  1      8/20/2010           M&F Bancorp, Inc., Durham, NC                                               Preferred Stock                 $11,735,000                          $—             $11,735,000               Par                                                                       $583,490.28
  1      8/20/2010                                                                                       Preferred Stock                  $5,500,000                          $—                      $—               Par
                             Mission Valley Bancorp, Sun Valley, CA                                                                                                                                                                                                                              $504,794.22
  2a     9/24/2010                                                                                       Preferred Stock                          $—                 $4,836,000              $10,336,000               Par
         9/24/2010           Neighborhood Trust Federal Credit Union, New York, NY                       Subordinated Debentures                  $—                          $—                $283,000               Par                                                                         $13,536.83
         9/29/2010           North Side Community Federal Credit Union, Chicago, IL                      Subordinated Debentures                  $—                          $—                $325,000               Par                                                                         $15,455.56
         9/24/2010           Northeast Community Federal Credit Union, San Francisco, CA                 Subordinated Debentures                  $—                          $—                $350,000               Par                                                                         $16,741.67
         9/29/2010           Opportunities Credit Union, Burlington, VT                                  Subordinated Debentures                  $—                          $—              $1,091,000               Par                                                                         $51,883.11
  1      8/13/2010           PGB Holdings, Inc., Chicago, IL                                             Preferred Stock                  $3,000,000                          $—              $3,000,000               Par                                                                         $30,333.33
         9/24/2010           Phenix Pride Federal Credit Union                                           Subordinated Debentures                  $—                          $—                $153,000               Par                                                                          $7,318.50
 1, 4    8/13/2010           Premier Bancorp, Inc., Wilmette, IL                                         Subordinated Debentures          $6,784,000                          $—              $6,784,000               Par     1/29/20134              $79,900                       $—                   $—-
         9/24/2010           Prince Kuhio Federal Credit Union, Honolulu, HI                             Subordinated Debentures                  $—                          $—                $273,000               Par                                                                         $13,058.50
  1      9/29/2010           PSB Financial Corporation, Many, LA                                         Preferred Stock                  $9,734,000                          $—              $9,734,000               Par    12/28/20126           $9,734,000                       $—          $437,489.22
         9/24/2010           Pyramid Federal Credit Union, Tucson, AZ                                    Subordinated Debentures                  $—                          $—              $2,500,000               Par                                                                       $119,583.33
                                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




         9/29/2010           Renaissance Community Development Credit Union, Somerset, NJ                Subordinated Debentures                  $—                          $—                 $31,000               Par                                                                          $1,474.22
         9/24/2010           Santa Cruz Community Credit Union, Santa Cruz, CA                           Subordinated Debentures                  $—                          $—              $2,828,000               Par                                                                       $135,272.67
  1      9/29/2010           Security Capital Corporation, Batesville, MS                                Preferred Stock                 $17,910,000                          $—               17910000                Par                                                                       $851,720.00
 1, 2    9/29/2010           Security Federal Corporation, Aiken, SC                                     Preferred Stock                 $18,000,000                 $4,000,000              $22,000,000               Par                                                                     $1,046,222.22
         9/29/2010           Shreveport Federal Credit Union, Shreveport, LA                             Subordinated Debentures                  $—                          $—              $2,646,000               Par                                                                       $125,832.00
 1, 2    8/6/2010            Southern Bancorp, Inc., Arkadelphia, AR                                     Preferred Stock                 $11,000,000                $22,800,000              $33,800,000               Par                                                                     $1,706,900.00
         9/29/2010           Southern Chautauqua Federal Credit Union, Lakewood, NY                      Subordinated Debentures                  $—                          $—              $1,709,000               Par                                                                         $81,271.64
         9/29/2010           Southside Credit Union, San Antonio, TX                                     Subordinated Debentures                  $—                          $—              $1,100,000               Par                                                                         $52,311.11
  1      9/29/2010           State Capital Corporation, Greenwood, MS                                    Preferred Stock                 $15,750,000                          $—             $15,750,000               Par                                                                       $749,000.00
 1, 2    9/29/2010           The First Bancshares, Inc., Hattiesburg, MS                                 Preferred Stock                  $5,000,000                $12,123,000              $17,123,000               Par                                                                       $814,293.78
         9/29/2010           The Magnolia State Corporation, Bay Springs, MS                             Subordinated Debentures                  $—                          $—              $7,922,000               Par                                                                       $583,939.42
                             Thurston Union of Low-Income People (TULIP) Cooperative Credit Union,
         9/24/2010                                                                                       Subordinated Debentures                  $—                          $—                 $75,000               Par                                                                          $3,587.50
                             Olympia, WA
         9/24/2010           Tongass Federal Credit Union, Ketchikan, AK                                 Subordinated Debentures                  $—                          $—              $1,600,000               Par                                                                         $76,533.33
  1      8/13/2010           Tri-State Bank of Memphis, Memphis, TN                                      Preferred Stock                  $2,795,000                          $—              $2,795,000               Par                                                                       $140,060.56
         9/24/2010           Tulane-Loyola Federal Credit Union, New Orleans, LA                         Subordinated Debentures                  $—                          $—                $424,000               Par                                                                         $20,281.33
         9/24/2010           Union Baptist Church Federal Credit Union, Fort Wayne, IN                   Subordinated Debentures                  $—                          $—                 $10,000               Par                                                                            $478.33
         9/29/2010           Union Settlement Federal Credit Union, New York, NY                         Subordinated Debentures                  $—                          $—                $295,000               Par                                                                         $14,028.89
  1      9/3/2010            United Bancorporation of Alabama, Inc., Atmore, AL                          Preferred Stock                 $10,300,000                          $—             $10,300,000               Par                                                                       $504,700.00
                             UNITEHERE Federal Credit Union, (Workers United Federal Credit Union),
         9/29/2010                                                                                       Subordinated Debentures                  $—                          $—                 $57,000               Par     3/20/20136              $57,000                       $—             $2,821.50
                             New York, NY
 1, 2    7/30/2010           University Financial Corp, Inc., St. Paul, MN                               Subordinated Debentures         $11,926,000                $10,189,000              $22,115,000               Par    11/28/20126          $22,115,000                       $—        $1,595,842.97
         9/24/2010           UNO Federal Credit Union, New Orleans, LA                                   Subordinated Debentures                  $—                          $—                $743,000               Par                                                                         $35,540.17
         9/29/2010           Vigo County Federal Credit Union, Terre Haute, IN                           Subordinated Debentures                  $—                          $—              $1,229,000               Par                                                                         $58,445.78
         9/24/2010           Virginia Community Capital, Inc., Christiansburg, VA                        Subordinated Debentures                  $—                          $—              $1,915,000               Par                                                                         $91,600.83
                                                                                                                                                        Total Purchase Amount             $570,073,000                       Total Capital Repayment Amount               $43,385,900
                                                                                                                                            TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                                                     $526,687,100
Notes: Numbers may not total due to rounding. Data as of 3/31/2013. Numbered notes are taken verbatim from Treasury’s 3/28/2013 Transactions Report.

1	
  This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2	
  Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a	
  Treasury made an additional investment in this institution after the time it entered the CDCI program.
3	
  On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 6/29/2011. Accrued and previously unpaid dividends
  were paid on the date of the exchange.
4	
  On 3/23/2012, Premier Bank, Wilmette, IL, the banking subsidiary of Premier Bancorp, Inc., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver. On 1/29/2013, UST received $79,900
  representing the total amount of distributions paid to creditors as a result of the liquidation of Premier Bancorp, Inc.
5	
  Repayment pursuant to Section 5.2 of the CDCI Securities Purchase Agreement.
6	
  Repayment pursuant to Section 6.10 of the CDCI Securities Purchase Agreement.

Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Dividends and Interest Report, 4/10/2013.
TABLE D.4
 AIFP TRANSACTION DETAIL, AS OF 3/31/2013
                                                                                                                                      Treasury Investment After Exchange/
                                         Initial Investment                                  Exchange/Transfer/Other Details          Transfer/Other                                                                  Payment or Disposition1
                                                                                                                                                                                                                                                 Remaining
                                                                                                                                                                                                                                Remaining       Investment      Dividend/
                          Transaction                                                                                                                                       Amount/                                    Amount/ Investment         Amount/ Interest Paid to
               Date       Type        Seller      Description           Amount Note Date         Type                  Amount Note Obligor          Note Description        Equity %       Date          Type          Proceeds Description       Equity %      Treasurya
                                                  Preferred                                     Exchange for
                                                  Stock w/                                      convertible                                               Convertible
               12/29/2008 Purchase    GMAC                       $5,000,000,000      12/30/2009                 $5,000,000,000                      21,
                                                  Exercised                                     preferred                             GMAC (Ally)          Preferred $5,937,500,000
                                                  Warrants                                      stock                                               22
                                                                                                                                                              Stock
                                                                                              Partial
                                                  Convertible
                                                                                              conversion
                                                  Preferred
                                                                                              of preferred
               5/21/2009 Purchase     GMAC        Stock w/       $7,500,000,000 22 12/30/2009                   $3,000,000,000
                                                                                              stock for
                                                  Exercised
                                                                                              common
                                                  Warrants
                                                                                              stock
                                                                                                                                                     3,
GMAC (Ally),                                                                                                                                                Common
                                                                                               Partial                                GMAC (Ally)   26,                       73.8%                                                                        $3,271,690,632
Detroit, MI                                       Convertible                                                                                                 Stock
                                                                                               conversion                                           32
                                                  Preferred
                                                                                22,            of preferred
               12/30/2009 Purchase    GMAC        Stock w/       $1,250,000,000     12/30/2010                  $5,500,000,000   26
                                                                                26             stock for
                                                  Exercised
                                                                                               common
                                                  Warrants
                                                                                               stock
                                                                                                 Exchange
                                                  Trust
                                                                                                 for amended
                                                  Preferred                                                                                                    Trust
                                                                                                 and restated
               12/30/2009 Purchase    GMAC        Securities     $2,540,000,000      3/1/2011                   $2,670,000,000   27   GMAC (Ally)    27    Preferred $2,670,000,000    3/2/2011   Disposition28   $2,667,000,000         N/A          $—
                                                                                                 Trust
                                                  w/ Exercised                                                                                             Securities
                                                                                                 Preferred
                                                  Warrants
                                                                                                 Securities
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                               265
AIFP TRANSACTION DETAIL, AS OF 3/31/2013                                                 (CONTINUED)                                                                                                                                                                                      266
                                                                                                                                            Treasury Investment After Exchange/
                                        Initial Investment                                       Exchange/Transfer/Other Details            Transfer/Other                                                                    Payment or Disposition1
                                                                                                                                                                                                                                                            Remaining
                                                                                                                                                                                                                                        Remaining          Investment      Dividend/
                         Transaction                                                                                                                                              Amount/                                      Amount/ Investment            Amount/ Interest Paid to
              Date       Type        Seller        Description             Amount Note Date           Type                    Amount Note Obligor         Note Description        Equity %         Date          Type          Proceeds Description          Equity %      Treasurya
                                                                                                      Exchange
                                     General
                                                   Debt                                               for equity
              12/29/2008 Purchase    Motors                          $884,024,131    2    5/29/2009                     $884,024,131    3
                                                   Obligation                                         interest in
                                     Corporation
                                                                                                      GMAC
                                                                                                      Exchange
                                                   Debt
                                     General                                                          for preferred
                                                   Obligation
              12/31/2008 Purchase    Motors                        $13,400,000,000        7/10/2009   and common      $13,400,000,000   7
                                                   w/ Additional
                                     Corporation                                                      stock in New
                                                   Note
                                                                                                      GM
                                                                                                      Exchange
                                                   Debt
                                     General                                                          for preferred                         General       10,
                                                   Obligation                                                                                                     Preferred
              4/22/2009 Purchase     Motors                         $2,000,000,000   4    7/10/2009   and common       $2,000,000,000   7   Motors        11,               $2,100,000,000 12/15/2010      Repayment      $2,139,406,778          N/A             $—
                                                   w/ Additional                                                                                                     Stock
                                     Corporation                                                      stock in New                          Company       24
                                                   Note
                                                                                                      GM
                                                                                                                                                                                                                Partial                     Common
                                                                                                                                                                                             11/18/2010                 $11,743,303,903                        36.9%
                                                                                                      Exchange                                                                                            Disposition25                       Stock
                                                   Debt
                                     General                                                          for preferred                         General       10,
                                                   Obligation                                                                                                     Common                                        Partial                     Common
              5/20/2009 Purchase     Motors                         $4,000,000,000   5    7/10/2009   and common       $4,000,000,000   7   Motors        11,                       60.8% 11/26/2010                      $1,761,495,577                      32.04%
                                                   w/ Additional                                                                                                    Stock                                 Disposition25                       Stock
                                     Corporation                                                      stock in New                          Company       25
                                                   Note
                                                                                                      GM                                                                                                        Partial                     Common
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                                                                                             12/21/2012                   $5,500,000,000                      21.97%
                                                                                                                                                                                                          Disposition33                       Stock
                                                                                                                                                                                                               Partial                           Debt
                                                                                                                                                                                              7/10/2009                    $360,624,198                $6,711,864,407
                                                                                                                                                                                                           Repayment                        Obligation
                                                                                                                                                                                                               Partial                           Debt
                                                                                                      Exchange                                                                               12/18/2009                   $1,000,000,000               $5,711,864,407
                                                   Debt                                                                                     General                                                        Repayment                        Obligation
                                     General                                                          for preferred
                                                   Obligation                                                                               Motors        11,         Debt
              5/27/2009 Purchase     Motors                          $360,624,198    6    7/10/2009   and common        $360,624,198    7                                   $7,072,488,605                     Partial                           Debt
                                                   w/ Additional                                                                            Holdings      12     Obligation                1/21/2010                        $35,084,421                $5,676,779,986
                                     Corporation                                                      stock in New                                                                                         Repayment                        Obligation
General                                            Note                                                                                     LLC
                                                                                                      GM
Motorsb,c,                                                                                                                                                                                                     Partial                           Debt                   $756,714,508
Detroit, MI                                                                                                                                                                                   3/31/2010                   $1,000,000,000               $4,676,779,986
                                                                                                                                                                                                           Repayment                        Obligation
                                                                                                                                                                                              4/20/2010    Repayment      $4,676,779,986          N/A             $—
                                                                                                      Exchange
                                                   Debt
                                     General                                                          for preferred
                                                   Obligation
              6/3/2009   Purchase    Motors                        $30,100,000,000   8    7/10/2009   and common      $22,041,706,310   9
                                                   w/ Additional
                                     Corporation                                                      stock in New
                                                   Note
                                                                                                      GM
                                                                                                      Transfer of
                                                                                          7/10/2009   debt to New      $7,072,488,605   9
                                                                                                      GM
                                                                                                                                            Motors
                                                                                                      Debt left at                                                    Debt                                     Partial                           Debt
                                                                                          7/10/2009                     $985,805,085    9   Liquidation    29                 $985,805,085 3/31/2011                        $50,000,000                  $935,805,085
                                                                                                      Old GM                                                     Obligation                                Repayment                        Obligation
                                                                                                                                            Company
                                                                                                                                                                                                               Partial                           Debt
                                                                                                                                                                                               4/5/2011                     $45,000,000                  $890,805,085
                                                                                                                                                                                                           Repayment                        Obligation
                                                                                                                                                                                                               Partial                           Debt
                                                                                                                                                                                               5/3/2011                     $15,887,795                  $874,917,290
                                                                                                                                                                                                           Repayment                        Obligation
                                                                                                                                                                                                               Partial                           Debt
                                                                                                                                                                                             12/16/2011                        $144,444                  $874,772,846
                                                                                                                                                                                                           Repayment                        Obligation
                                                                                                                                                                                                               Partial                           Debt
                                                                                                                                                                                             12/23/2011                     $18,890,294                  $855,882,552
                                                                                                                                                                                                           Repayment                        Obligation
                                                                                                                                                                                                               Partial                           Debt
                                                                                                                                                                                              1/11/2012                      $6,713,489                  $849,169,063
                                                                                                                                                                                                           Repayment                        Obligation
                                                                                                                                                                                                               Partial                           Debt
                                                                                                                                                                                             10/23/2012                        $435,097                  $848,733,966
                                                                                                                                                                                                           Repayment                        Obligation
                                                                                                                                                                                                                                                                 Continued on next page
AIFP TRANSACTION DETAIL, AS OF 3/31/2013                                               (CONTINUED)
                                                                                                                                            Treasury Investment After Exchange/
                                       Initial Investment                                      Exchange/Transfer/Other Details              Transfer/Other                                                                       Payment or Disposition1
                                                                                                                                                                                                                                                                Remaining
                                                                                                                                                                                                                                           Remaining           Investment      Dividend/
                        Transaction                                                                                                                                               Amount/                                         Amount/ Investment             Amount/ Interest Paid to
             Date       Type        Seller         Description            Amount Note Date          Type                    Amount Note Obligor           Note Description        Equity %         Date             Type          Proceeds Description           Equity %      Treasurya
                                                   Debt                                                                                                                                                                                               Debt
                                    Chrysler       Obligation                                                                                                                                                    Partial                         Obligation
             1/16/2009 Purchase                                    $1,500,000,000 13                                                                                                          3/17/2009                         $3,499,055                  $1,496,500,945
                                    FinCo          w/ Additional                                                                                                                                             Repayment                        w/ Additional
                                                   Note                                                                                                                                                                                               Note
                                                                                                                                                                                                                                                      Debt
                                                                                                                                                                                                                 Partial                         Obligation
                                                                                                                                                                                              4/17/2009                        $31,810,122                  $1,464,690,823
                                                                                                                                                                                                             Repayment                        w/ Additional
                                                                                                                                                                                                                                                      Note
Chrysler                                                                                                                                                                                                                                              Debt
FinCo,                                                                                                                                                                                                           Partial                         Obligation
                                                                                                                                                                                              5/18/2009                        $51,136,084                  $1,413,554,739      $7,405,894
Farmington                                                                                                                                                                                                   Repayment                        w/ Additional
Hills, MI                                                                                                                                                                                                                                             Note
                                                                                                                                                                                                                                                      Debt
                                                                                                                                                                                                                 Partial                         Obligation
                                                                                                                                                                                              6/17/2009                        $44,357,710                  $1,369,197,029
                                                                                                                                                                                                             Repayment                        w/ Additional
                                                                                                                                                                                                                                                      Note
                                                                                                                                                                                                                                                Additional
                                                                                                                                                                                              7/14/2009      Repayment       $1,369,197,029                           $—
                                                                                                                                                                                                                                                     Note
                                                                                                                                                                                              7/14/2009     Repayment*         $15,000,000            N/A             $—
                                                   Debt                                                                                                               Debt
                                                                                                    Transfer of
                                    Chrysler       Obligation                                                                               Chrysler             obligation
             1/2/2009   Purchase                                   $4,000,000,000       6/10/2009   debt to New       $500,000,000     19                  20               $3,500,000,000 5/14/2010                         $1,900,000,000           N/A             $—
                                    Holding        w/ Additional                                                                            Holding           w/ additional
                                                                                                    Chrysler                                                                                                 Termination
                                                   Note                                                                                                               note
                                                                                                                                                                                                          and settlement
                                                   Debt                                                                                                                                                       payment20
                                    Chrysler       Obligation
             4/29/2009 Purchase                                              $— 14
                                    Holding        w/ Additional
                                                   Note
                                                   Debt
                                    Chrysler       Obligation
             4/29/2009 Purchase                                     $280,130,642 15                                                                                                           7/10/2009      Repayment        $280,130,642            N/A             $—
                                    Holding        w/ Additional
                                                   Note
                                                   Debt                                             Completion
                                                                                                                                            Old Carco              Right to                                    Proceeds                           Right to
                                                   Obligation                                       of
             5/1/2009   Purchase    Old Chrysler                   $1,888,153,580 16 4/30/2010                      ($1,888,153,580)   23   Liquidation    23       recover           N/A 5/10/2010         from sale of       $30,544,528         recover            N/A
                                                   w/ Additional                                    bankruptcy
                                                                                                                                            Trust                 proceeds                                     collateral                        proceeds
                                                   Note                                             proceeding;
                                                                                                    transfer of
                                                   Debt                                             collateral                                                                                                 Proceeds                           Right to
                                                   Obligation                                       security to
             5/20/2009 Purchase     Old Chrysler                             $— 17                                                                                                             9/9/2010     from sale of        $9,666,784         recover            N/A
                                                   w/ Additional                                    liquidation                                                                                                collateral                        proceeds
                                                   Note                                             trust
                                                                                                                                                                                                               Proceeds                           Right to
Chrysler,                                                                                                                                                                                    12/29/2010     from sale of        $7,844,409         recover            N/A
Auburn                                                                                                                                                                                                         collateral                        proceeds                    $1,171,263,942
Hills, MI
                                                                                                                                                                                                               Proceeds                           Right to
                                                                                                                                                                                              4/30/2012     from sale of        $9,302,185         recover            N/A
                                                                                                                                                                                                               collateral                        proceeds
                                                   Debt                                                                                                               Debt
                                                   Obligation                                                                                                    obligation
                                                                                                    Issuance of                             Chrysler
                                    New            w/ Additional                                                                                          19, w/ additional                                 Repayment -
             5/27/2009 Purchase                                    $6,642,000,000 18 6/10/2009      equity in New               $—          Group                           $7,142,000,000 5/24/2011                         $5,076,460,000
                                    Chrysler       Note, Zero                                                                                             31 note & zero                                       Principal
                                                                                                    Chrysler                                LLC
                                                   Coupon                                                                                                          coupon
                                                   Note, Equity                                                                                                       note
                                                                                                                                                                                                             Termination
                                                                                                                                                                                              5/24/2011      of undrawn      $2,065,540,000           N/A             $—
                                                                                                                                                                                                                facility31
                                                                                                                                                                                                            Repayment*
                                                                                                                                                                                              5/24/2011      - Additional     $288,000,000
                                                                                                                                                                                                                    Note
                                                                                                                                                                                                          Repayment*
                                                                                                                                                                                              5/24/2011 - Zero Coupon         $100,000,000
                                                                                                                                                                                                                 Note
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                                                                                                                                            Chrysler
                                                                                                                                                                  Common
                                                                                                                                            Group          30                        6.6% 7/21/2011          Disposition      $560,000,000            N/A             $—
                                                                                                                                                                    equity
                                                                                                                                            LLC
                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               267
AIFP TRANSACTION DETAIL, AS OF 3/31/2013                                                         (CONTINUED)                                                                                                                                                                                                         268
                                                                                                                                                          Treasury Investment After Exchange/
                                              Initial Investment                                             Exchange/Transfer/Other Details              Transfer/Other                                                                           Payment or Disposition1
                                                                                                                                                                                                                                                                                     Remaining
                                                                                                                                                                                                                                                             Remaining              Investment      Dividend/
                           Transaction                                                                                                                                                             Amount/                                          Amount/ Investment                Amount/ Interest Paid to
             Date          Type        Seller           Description                Amount Note Date               Type                   Amount Note Obligor           Note Description            Equity %          Date            Type           Proceeds Description              Equity %      Treasurya
                                                                                                                                                                                                                                        Additional Proceeds*                  $403,000,000
                     Total Initial Investment Amount                   $81,344,932,551                                                                                                                                                        Total Payments                $40,394,714,530
                                                                                                                                                                                                                          Total Treasury Investment Amount                  $35,396,524,442
Notes: Numbers may not total due to rounding. Data as of 3/31/2013. Numbered notes were taken verbatim from Treasury’s 3/28/2013 Transaction Report.

GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.

1	
   Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2	
   Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3	
   Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009.
   (See transactions market by orange line in the table above and footnote 22.)
4	
   This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5	
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6	
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM. On 7/10/2009, the principal amount was included in the $7.07 billion
                                                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




   of debt assumed by the new GM, as explained in footnote 10.
7	
   On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8	
   Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of
   funds had been disbursed by Treasury.
9	
   On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation
   under the terms of a separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10	
   In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11	
   Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General
   Motors Company” on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12	
   Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13	
   The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14	
   This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15	
   The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16	
   This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP
   Loan”). As of 6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17	
   This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP
   Loan had terminated.
18	
   This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up
   to $6.642 billion. The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New
   Chrysler. When the sale to new Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19	
   Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20	
   Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a
   settlement payment of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21	
   Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22	
   Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23	
   On 4/30/2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were
   transferred to a liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24	
   On 10/27/2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s
   common stock. The repurchase was completed on 12/15/2010.
25	
   On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903.
   On 11/26/2010, the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the
   underwriting agreement total $13,504,799,480.
26	
   On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27	
   On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and
   restatement, Treasury received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28	
   On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does
   not include the accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29	
   On 3/31/2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan,
   were transferred to liquidation trusts. On 12/15/2011, Old GM was dissolved, as required by the Plan of Liquidation. Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30	
   In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership
   automatically increased from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On 5/24/2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a
   fully diluted basis). On 7/21/2011, Fiat, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.
31	
   On 5/24/2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
32	
   On 11/1/2011, Treasury received a $201,345.42 pro-rata tax distribution on its common stock from Ally Financial, Inc. pursuant to the terms of the Sixth Amended and Restated Limited Liability Company Operating Agreement of GMAC LLC dated 5/22/2009.
33	
   On 12/21/2012, Treasury sold 200,000,000 shares of common stock at $27.50 per share pursuant to a letter agreement. Following settlement, the net proceeds to Treasury were $5,500,000,000.

a	
     For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b	
     According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c	
     This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Dividends and Interest Report, 4/10/2013.
TABLE D.5
ASSP TRANSACTION DETAIL, AS OF 3/31/2013
                       Seller                                                                                                                                 Adjustment Details                                                            Repayment4
                                                                                                                                                                                           Adjusted                                                Remaining
                                                             Transaction     Investment                                       Pricing         Adjustment            Adjustment           Investment                                               Investment                                    Dividend/Interest
Note       Date        Institution Name                      Type            Description           Investment Amount       Mechanism                Date               Amount               Amount       Date                     Type            Description                    Amount          Paid to Treasury
                                                                                                                                                                                                                                 Partial   Debt Obligation w/
                                                                                                                                    N/A                                                                  11/20/2009                                                         $140,000,000
                                                                                                                                                                                                                             repayment        Additional Note

                       GM Supplier Receivables LLC                           Debt Obligation w/                                                7/8/20093      ($1,000,000,000)      $2,500,000,000                               Partial   Debt Obligation w/
1          4/9/2009                                          Purchase                                 $3,500,000,000                                                                                     2/11/2010                                                          $100,000,000              $9,087,808
                       Wilmington, DE                                        Additional Note                                                                                                                                 repayment        Additional Note
                                                                                                                                                                                                         3/4/2010         Repayment5          Additional Note                $50,000,000
                                                                                                                                                                                      $290,000,000       4/5/2010             Payment6                  None                 $56,541,893

                       Chrysler Receivables SPV LLC                          Debt Obligation w/       $1,500,000,000                N/A        7/8/20093        ($500,000,000)      $1,000,000,000       3/9/2010         Repayment5          Additional Note               $123,076,735
2          4/9/2009                                          Purchase                                                                                                                                                                                                                                 $5,787,176
                       Wilmington, DE                                        Additional Note                                                                                          $123,076,735       4/7/2010             Payment7                  None                 $44,533,054
Initial Total          $5,000,000,000                                                                                                      Adjusted Total       $413,076,735                                                               Total Repayments             $413,076,735
                                                                                                                  Total Proceeds from Additional Notes          $101,074,947
Notes: Numbers may not total due to rounding. Data as of 3/31/2013. Numbered notes were taken verbatim from Treasury’s 3/28/2013 Transactions Report.
1	
   The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
   made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2	
   The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
   of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3	
   Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4	
   Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5	
   All outstanding principal drawn under the credit agreement was repaid.
6	
   Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all
   of which have been repaid.
7	
   Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
   which have been repaid.

Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Dividends and Interest Report, 4/10/2013.




TABLE D.6
TIP TRANSACTION DETAIL, AS OF 3/31/2013
                                                                                                                                                                           Treasury Investment
                                                                                                                                                                           Remaining After Capital
                        Seller                                                                                                      Capital Repayment Details              Repayment                                         Final Disposition                     Market and Warrant Data

                                                                                                                                               Capital      Capital        Remaining      Remaining             Final          Final                       Final                                       Dividends/
                        Institution       Transaction                                                Investment        Pricing              Repayment       Repayment        Capital         Capital      Disposition          Disposition           Disposition   Stock          Outstanding     Interest Paid to
 Note    Date           Name              Type            Investment Description                        Amount      Mechanism                  Amount       Date2            Amount       Description          Date3           Description            Proceeds     Price       Warrant Shares            Treasury
                                                          Trust Preferred Securities w/
    1    12/31/2008     Citigroup Inc.    Purchase                                              $20,000,000,000               Par     $20,000,000,000       12/23/2009             $—         Warrants     1/25/2011     A     Warrants           $190,386,428     $44.24                        $1,568,888,889
                                                          Warrants
                        Bank of America
         1/16/2009                        Purchase        Preferred Stock w/ Warrants           $20,000,000,000               Par     $20,000,000,000       12/9/2009              $—         Warrants      3/3/2010     A     Warrants          $1,236,804,513    $12.18                        $1,435,555,556
                        Corporation
                                                                                                                          Total
                                                          Total Investment                     $40,000,000,000          Capital     $40,000,000,000
                                                                                                                     Repayment
                                                                                          Total Treasury TIP Investment Amount                      $—                                                                                            Total Warrant Proceeds      $1,427,190,941
Notes: Numbers may not total due to rounding. Data as of 3/31/2013. Numbered notes were taken verbatim from Treasury’s 3/28/2013 Transactions Report.
1	
   Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2	
   Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3	
   For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.

Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Dividends and Interest Report, 4/10/2013; Bloomberg LP, accessed 4/8/2013.
                                                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                                     269
TABLE D.7                                                                                                                                                                                                                                                                                                                270
AGP TRANSACTION DETAIL, AS OF 3/31/2013
                        Initial Investment                                                                   Premium                            Exchange/Transfer/Other Details                                           Payment or Disposition                                    Market and Warrant Data
                                                                                                                                                                                                                                            Remaining            Remaining Outstanding                     Dividends/
                       Institution     Transaction                                                                                                                                                           Payment                Payment   Premium             Premium Warrant             Stock     Interest Paid
Note     Date          Name            Type            Description Guarantee Limit Description                   Amount             Date            Type     Description          Amount            Date        Type                 Amount Description            Amount Shares              Price       to Treasury
                                                                                                                                           Exchange                                                    Partial
                                                                                                                                                                Trust                                                                 Trust
                                                                                                                                            preferred                                            cancellation
                                                                                                                                                          Preferred                                                               Preferred
                                                                                                                              6/9/2009 stock for trust                $4,034,000,000 12/23/2009      for early ($1,800,000,000)              $2,234,000,000                                  $44.24 $642,832,268
                                                                                                                                                       Securities w/                                                              Securities
                                                                                                                                            preferred                                             termination
                       Citigroup                                                          Preferred                                                       Warrants                                                              w/ Warrants
1, 2, 3,                                               Master                                                                              securities                                           of guarantee
         1/16/2009     Inc., New       Guarantee                      $5,000,000,000      Stock w/       $4,034,000,000
4, 5                                                   Agreement                                                                                 Exchange                                     9/30/2010     Disposition     $2,246,000,000       Warrants                $—
                       York, NY                                                           Warrants                                                                   Trust
                                                                                                                                           trust preferred
                                                                                                                                                               Preferred
                                                                                                                             9/29/2010       securities for                $2,246,000,000                      Warrant
                                                                                                                                                            Securities w/                     1/25/2011                          $67,197,045         None                $—
                                                                                                                                           trust preferred                                                     Auction
                                                                                                                                                               Warrants
                                                                                                                                                securities
                                                       Termination
3        12/23/2009 Citigroup Inc.     Termination                    ($5,000,000,000)
                                                       Agreement
                                                                                                                                                     Trust
                                                                                                                                                preferred          Trust
6                                                                                                                          12/28/2012           securities     Preferred    $800,000,000
                                                                                                                                            received from      Securities
                                                                                                                                                 the FDIC
                                                                                                                                               Exchange
                                                                                                                                                     Trust
                                                                                                                                               preferred Subordinated
7, 8                                                                                                                          2/4/2013                                      $894,000,000       2/8/2013     Disposition $894,000,000.00              None                $—
                                                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                                            securities for       Note
                                                                                                                                            subordinated
                                                                                                                                                      note
                                                       Total          $­—                                                                                                                               Total Proceeds $3,207,197,045
Notes: Numbers may not total due to rounding. Data as of 3/31/2013. Numbered notes were taken verbatim from Treasury’s 3/28/2013 Transactions Report.
1	
   In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2	
   Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3	
   On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion
   of the AGP Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the
   FDIC’s Temporary Liquidity Guarantee Program.
4	
   On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange,
   Citigroup Inc. paid the outstanding accrued and unpaid dividends.
5	
   On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.
6	
   12/28/2012, as contemplated by the Termination Agreement and the Letter Agreement dated 12/23/2009, between Treasury and the Federal Deposit Insurance Corporation (FDIC), Treasury received from the FDIC, Citigroup Inc. trust preferred securities in aggregate liquidation preference equal to $800
   million and approximately $183 million in dividend and interest payments from those securities.
7	
   On 2/4/2013, Treasury exchanged $800 million in Citigroup Capital XXXII Trust Preferred Securities (TRuPS) for $894 million in Citigroup subordinated notes pursuant to an agreement between Citigroup and the Treasury executed on 2/4/2013. Accrued interest on the TRuPS was received at the time of the
   exchange.
8	
   On 2/8/2013, Treasury completed the sale of its Citigroup subordinated notes for $894 million plus accrued interest, pursuant to an underwriting agreement executed on 2/8/2012.

Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Dividends and Interest Report, 4/10/2013; Bloomberg LP, accessed 4/8/2013.




TABLE D.8
TALF TRANSACTION DETAIL, AS OF 3/31/2013
                         Seller                                                                                                                                 Adjusted Investment                                                     Repayment
                                                       Transaction                                                     Investment     Pricing                                                       Final Investment
Note     Date            Institution                   Type             Investment Description                            Amount      Mechanism         Date                          Amount                 Amount       Date                              Amount
                                                                                                                                                        7/19/2010            $4,300,000,000                               2/6/2013                  $100,000,000
1,2,3,
         3/3/2009        TALF LLC, Wilmington, DE      Purchase         Debt Obligation w/ Additional Note       $20,000,000,000      N/A               6/28/2012            $1,400,000,000            $100,000,000       2/6/2013                  $212,829,610
4,5
                                                                                                                                                        1/15/2013              $100,000,000                               3/6/2013                    $97,594,053
                                                                                                                                                                                                                                Total
                                                                                                                                                                    Total Investment Amount          $100,000,000          Repayment               $410,423,663
                                                                                                                                                                                                                              Amount
Notes: Numbers may not total due to rounding. Data as of 3/31/2013. Numbered notes were taken verbatim from Treasury’s 3/28/2013 Transactions Report.
1	
   The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan amount. The loan will be incrementally funded.
2	
   On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan amount to $4,300,000,000.
3	
   On 6/28/2012, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously amended 7/19/2010, which reduced Treasury’s maximum loan amount to $1,400,000,000.
4	
   On 1/15/2013, Treasury, the FRBNY and TALF LLC entered into an amendment that stated that, due to the fact that the accumulated fees collected through TALF exceed the total principal amount of TALF loans outstanding, Treasury’s commitment of TARP
   funds to provide credit protection is no longer necessary.
5	
   Repayment amounts do not include accrued interest proceeds received on 2/6/2013, which are reflected on the Dividends & Interest Report.

Sources: Treasury, Transactions Report, 3/28/2013.
TABLE D.9
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 3/31/2013
                    Seller               Purchase Details                                                       Exchange/Transfer Details
                    Name of              Transaction     Investment                  Investment Pricing                                                    Transaction                                                                      Pricing                   Outstanding Warrant   Dividends/Interest
Note    Date        Institution          Type            Description                    Amount Mechanism        Date                                       Type                Investment Description                        Amount      Mechanism Stock Price                     Shares     Paid to Treasury
                                                         Preferred Stock
                                                                                                                                                                               Preferred Stock w/
  1     11/25/2008 AIG, New York, NY     Purchase        w/ Warrants            $40,000,000,000 Par             4/17/2009                                  Exchange                                                  $40,000,000,000            Par          $38.82                    —                  $—
                                                                                                                                                                               Warrants (Series E)
                                                         (Series D)
                                                         Preferred Stock                                        See table below for exchange/
 2, 3   4/17/2009   AIG, New York, NY    Purchase        w/ Warrants            $29,835,000,000 Par             transfer details in connection with the                                                                                                      $38.82                    —        $641,275,676
                                                         (Series F)                                             recapitalization conducted on 1/14/2011.
                                                         Initial Total         $69,835,000,000
                                                                                                                                                           Final Disposition
                                                                                                                                                                                                     Transaction                            Pricing
                                                                                                                                                           Date                Investment            Type                  Proceeds      Mechanism
                                                                                                                                                                               Warrants
                                                                                                                                                           3/1/2013                                  Repurchase         $25,150,923             N/A
                                                                                                                                                                               (Series D)
                                                                                                                                                                               Warrants
                                                                                                                                                           3/1/2013                                  Repurchase              $5,768             N/A
                                                                                                                                                                               (Series F)
                                                                                                                                                                                                             Total      $25,156,691
                                      Recapitalization                                           Treasury Holdings Post-Recapitalization                                                                                                 Final Disposition
                                                                                                                                                                                                                                                                        Remaining Recap
                    Investment           Transaction                     Pricing                                                                           Amount /                                  Transaction                                         Pricing      Investment Amount,
Note    Date        Description          Type                            Mechanism               Investment Description                                    Shares              Date                  Type                                 Proceeds8   Mechanism       Shares, or Equity %
                                         Exchange                        Par                     Preferred Stock (Series G)                                $2,000,000,000      5/27/2011             Cancellation                               $—             N/A                  $-—10
                                                                                                                                                                               2/14/2011             Payment                           $185,726,192             Par
                                                                                                                                                                               3/8/2011              Payment                      $5,511,067,614                Par
                                                                                                                                                                               3/15/2011             Payment                            $55,833,333             Par
                                                                                                                                                                               8/17/2011             Payment                            $97,008,351             Par
                                                                                                                                                                               8/18/2011             Payment                      $2,153,520,000                Par
                                                                                                 AIA Preferred Units                                       $16,916,603,568                                                                                                           $—
                                                                                                                                                                               9/2/2011              Payment                            $55,885,302             Par
                                         Exchange                        N/A                                                                                                   11/1/2011             Payment                           $971,506,765             Par
                    Preferred Stock
4,7,8   1/14/2011                                                                                                                                                              3/8/2012              Payment                      $5,576,121,382                Par
                    (Series F)
                                                                                                                                                                               3/15/2012             Payment                      $1,521,632,096                Par
                                                                                                                                                                               3/22/2012             Payment                      $1,493,250,339                Par
                                                                                                                                                                               2/14/2011             Payment                      $2,009,932,072                Par
                                                                                                 ALICO Junior Preferred Interests                          $3,375,328,432      3/8/2011              Payment                      $1,383,888,037                Par                  $—
                                                                                                                                                                               3/15/2012             Payment                            $44,941,843             Par


                                                                                                                                                                                                     Partial                                                              1,455,037,9629
                                         Exchange                                                                                                          $167,623,733        5/24/2011                                          $5,800,000,000               N/A
                                                                                                                                                                                                     Disposition
                                                                                                                                                                                                                                                                                     77%


                                                                                                                                                                                                     Partial                                                             1,248,141,41011
                                                                                                                                                                               3/8/2012                                           $6,000,000,008               N/A
                                                                                                                                                                                                     Disposition
                                                                                                                                                                                                                                                                                     70%

                    Preferred Stock                                                                                                                                                                  Partial                                                             1,084,206,98412
  5     1/14/2011                        Exchange                        N/A                                                                               $924,546,133        5/6/2012                                           $4,999,999,993               N/A
                    (Series E)                                                                                                                                                                       Disposition                                                                     63%

                                                                                                                                                                                                     Partial                                                             1,059,616,82112
                                                                                                                                                                               5/7/2012                                                $749,999,972            N/A
                                                                                                                                                                                                     Disposition                                                                     61%

                                                                                                                                                                                                     Partial                                                               895,682,39513
                                                                                                 Common Stock                                                                  8/3/2012                                           $4,999,999,993               N/A
                                                                                                                                                                                                     Disposition                                                                     55%

                                                                                                                                                                                                     Partial                                                               871,092,23113
                                                                                                                                                                               8/6/2012                                                $750,000,002            N/A
                                                                                                                                                                                                     Disposition                                                                     53%

                                                                                                                                                                                                     Partial                                                               317,246,07814
                                                                                                                                                                               9/10/2012                                         $17,999,999,973               N/A
                                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                    Common Stock                                                                                                                                                                     Disposition
  6     1/14/2011                        Transfer                                                                                                          $562,868,096                                                                                                              22%
                    (non-TARP)
                                                                                                                                                                                                     Partial                                                               234,169,15614
                                                                                                                                                                               9/11/2012                                          $2,699,999,965               N/A
                                                                                                                                                                                                     Disposition                                                                     16%

                                                                                                                                                                                                     Final                                                                 234,169,15615
                                                                                                                                                                               12/14/2012                                         $7,610,497,570               N/A
                                                                                                                                                                                                     Disposition                                                                      0%
                                                                                                                                                                                                                                                                                                                 271




                                                                                                                                                                               Total                                            $72,670,810,802
Notes: Numbers may not total due to rounding. Data as of 3/31/2013. Numbered notes were taken verbatim from the Treasury’s 3/28/2013 Transactions Report, and Treasury’s 4/10/2013 Dividends and Interest Report.
1	
   On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an additional obligation to
                                                                                                                                                                                                                                                                                                                            272
   Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2 	
   The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3 	
   This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 5/27/2011.
4 	
   On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred
   interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to
   $2,000,000,000.
5	
   On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6	
   On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization
   transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7	
   The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8	
   Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9	
   On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for total proceeds of $5,800,000,000, pursuant to an underwriting agreement executed on 5/24/2011.
10	
   On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.
11	
   On 3/13/2012, Treasury completed the sale of 206,896,552 shares of common stock at $29.00 per share for total proceeds of $6,000,000,008, pursuant to an underwriting agreement executed on 3/8/2012.
12	
   On 5/10/2012, Treasury completed the sale of 188,524,589 shares of common stock at $30.50 per share for total proceeds of $5,749,999,965, pursuant to an underwriting agreement executed on 5/6/2012.
13	
   On 8/8/2012, Treasury completed the sale of 188,524,590 shares of common stock at $30.50 per share for total proceeds of $5,749,999,995, pursuant to an underwriting agreement executed on 8/3/2012.
14	
   On 9/14/2012, Treasury completed the sale of 636,923,075 shares of common stock at $32.50 per share for total proceeds of $20,699,999,938, pursuant to an underwriting agreement executed on 9/10/2012.
15	
   On 12/14/2012, Treasury completed the sale of 234,169,156 shares of common stock at $32.50 per share for total proceeds of $7,610,497,570, pursuant to an underwriting agreement executed on 12/10/2012.

Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Dividends and Interest Report, 4/10/2013; Bloomberg LP, accessed 4/8/2013.




TABLE D.10
UCSB TRANSACTION DETAIL, AS OF 3/31/2013
                                                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




Purchase Details1                                                                                                                              Settlement Details                                                    Final Disposition
                                                                                                                                                                                                                                           Life-to-date
Purchase                                                     Institution                              Purchase           Pricing     TBA or    Settlement           Investment       TBA or      Senior Security                              Principal      Current Face           Disposition          Interest Paid to
Date          Investment Description                         Name                 CUSIP           Face Amount3        Mechanism       PMF3     Date                   Amount2,3       PMF3            Proceeds4       Trade Date           Received1,7          Amount6,7            Amount5,6                  Treasury
3/19/2010     Floating Rate SBA 7a security due 2025         Coastal Securities   83164KYN7          $4,070,000            107.75       —      3/24/2010            $4,377,249         —                   $2,184     6/21/2011               $902,633         $3,151,186           $3,457,746                 $169,441
3/19/2010     Floating Rate SBA 7a security due 2022         Coastal Securities   83165ADC5          $7,617,617               109       —      3/24/2010            $8,279,156         —                   $4,130    10/19/2011             $1,685,710         $5,891,602           $6,462,972                 $449,518
3/19/2010     Floating Rate SBA 7a security due 2022         Coastal Securities   83165ADE1          $8,030,000          108.875        —      3/24/2010            $8,716,265         —                   $4,348     6/21/2011             $2,022,652         $5,964,013           $6,555,383                 $371,355
4/8/2010      Floating Rate SBA 7a security due 2034         Coastal Securities   83165AD84         $23,500,000          110.502        —      5/28/2010           $26,041,643         —                 $12,983        6/7/2011            $1,149,633       $22,350,367          $25,039,989                $1,089,741
4/8/2010      Floating Rate SBA 7a security due 2016         Coastal Securities   83164KZH9          $8,900,014             107.5       —      4/30/2010            $9,598,523         —                   $4,783       6/7/2011            $2,357,796         $6,542,218           $7,045,774                 $414,561
5/11/2010     Floating Rate SBA 7a security due 2020         Coastal Securities   83165AEE0         $10,751,382          106.806        —      6/30/2010           $11,511,052         —                   $5,741       6/7/2011              $932,112         $9,819,270         $10,550,917                  $348,599
5/11/2010     Floating Rate SBA 7a security due 2035         Coastal Securities   83164K2Q5         $12,898,996            109.42       —      6/30/2010           $14,151,229         —                   $7,057       6/7/2011              $328,604       $12,570,392          $13,886,504                  $479,508
5/11/2010     Floating Rate SBA 7a security due 2033         Coastal Securities   83165AED2          $8,744,333          110.798        —      6/30/2010            $9,717,173         —                   $4,844       6/7/2011              $261,145         $8,483,188           $9,482,247                 $368,608
5/25/2010     Floating Rate SBA 7a security due 2029         Coastal Securities   83164K3B7          $8,417,817          110.125        —      7/30/2010            $9,294,363         —                   $4,635       6/7/2011              $246,658         $8,171,159           $8,985,818                 $287,624
5/25/2010     Floating Rate SBA 7a security due 2033         Coastal Securities   83165AEK6         $17,119,972          109.553        —      7/30/2010           $18,801,712         —                   $9,377     9/20/2011             $2,089,260       $15,030,712          $16,658,561                  $657,863
6/17/2010     Floating Rate SBA 7a security due 2020         Coastal Securities   83165AEQ3         $34,441,059          110.785        —      8/30/2010           $38,273,995         —                 $19,077      6/21/2011             $1,784,934       $32,656,125          $36,072,056                $1,286,450
6/17/2010     Floating Rate SBA 7a security due 2034         Coastal Securities   83165AEP5         $28,209,085          112.028        —      8/30/2010           $31,693,810         —                 $15,801      9/20/2011             $2,278,652       $25,930,433          $29,142,474                $1,254,222
7/14/2010     Floating Rate SBA 7a security due 2020         Coastal Securities   83164K3Y7          $6,004,156          106.625        —      9/30/2010            $6,416,804         —                   $3,200     6/21/2011               $348,107         $5,656,049           $6,051,772                 $146,030
7/14/2010     Floating Rate SBA 7a security due 2025         Shay Financial       83164K4J9          $6,860,835          108.505        —      9/30/2010            $7,462,726         —                   $3,722    10/19/2011               $339,960         $6,520,875           $7,105,304                 $255,370
7/14/2010     Floating Rate SBA 7a security due 2034         Shay Financial       83165AE42         $13,183,361            111.86       —      9/30/2010           $14,789,302         —                   $7,373     6/21/2011               $478,520       $12,704,841          $14,182,379                  $423,725
7/29/2010     Floating Rate SBA 7a security due 2017         Coastal Securities   83164K4E0          $2,598,386          108.438        —      9/30/2010            $2,826,678         —                   $1,408     1/24/2012               $694,979         $1,903,407           $2,052,702                 $140,130
7/29/2010     Floating Rate SBA 7a security due 2034         Shay Financial       83164K4M2          $9,719,455            106.75       —      10/29/2010          $10,394,984         —                   $5,187     6/21/2011               $188,009         $9,531,446         $10,223,264                  $181,124
8/17/2010     Floating Rate SBA 7a security due 2020         Shay Financial       83165AEZ3          $8,279,048          110.198        —      9/30/2010            $9,150,989         —                   $4,561     9/20/2011             $1,853,831         $6,425,217           $7,078,089                 $335,082
8/17/2010     Floating Rate SBA 7a security due 2019         Coastal Securities   83165AFB5          $5,000,000          110.088        —      10/29/2010           $5,520,652         —                   $2,752    10/19/2011               $419,457         $4,580,543           $5,029,356                 $213,319
8/17/2010     Floating Rate SBA 7a security due 2020         Coastal Securities   83165AE91         $10,000,000          110.821        —      10/29/2010          $11,115,031         —                   $5,541    10/19/2011               $969,461         $9,030,539           $9,994,806                 $433,852
8/31/2010     Floating Rate SBA 7a security due 2020         Shay Financial       83165AEW0          $9,272,482          110.515        —      9/29/2010           $10,277,319         —                   $5,123     9/20/2011               $868,636         $8,403,846           $9,230,008                 $386,326
8/31/2010     Floating Rate SBA 7a security due 2024         Shay Financial       83165AFA7         $10,350,000          112.476        —      10/29/2010          $11,672,766         —                   $5,820    10/19/2011               $250,445       $10,099,555          $11,314,651                  $425,545
8/31/2010     Floating Rate SBA 7a security due 2020         Coastal Securities   83164K5H2          $6,900,000          105.875        —      11/30/2010           $7,319,688         —                   $3,652     1/24/2012               $663,200         $6,236,800           $6,556,341                 $209,956
9/14/2010     Floating Rate SBA 7a security due 2020         Shay Financial       83165AFC3          $8,902,230          111.584        —      10/29/2010           $9,962,039         —                   $4,966     1/24/2012             $1,398,549         $7,503,681           $8,269,277                 $447,356
9/14/2010     Floating Rate SBA 7a security due 2021         Shay Financial       83165AFK5          $8,050,000          110.759        —      11/30/2010           $8,940,780         —                   $4,458     1/24/2012               $996,133         $7,053,867           $7,703,610                 $354,302
9/14/2010     Floating Rate SBA 7a security due 2029         Coastal Securities   83164K5F6          $5,750,000             106.5       —      11/30/2010           $6,134,172         —                   $3,061     1/24/2012               $276,276         $5,473,724           $5,764,858                 $156,481
9/14/2010     Floating Rate SBA 7a security due 2026         Coastal Securities   83164K5L3          $5,741,753             110.5       —      11/30/2010           $6,361,173          —                  $3,172     1/24/2012             $1,433,872         $4,307,881           $4,693,918                 $239,527
9/28/2010     Floating Rate SBA 7a security due 2035         Coastal Securities   83164K5M1          $3,450,000          110.875        —      11/30/2010           $3,834,428          —                  $1,912    10/19/2011                $82,832         $3,367,168           $3,698,411                 $111,165
9/28/2010     Floating Rate SBA 7a security due 2034         Coastal Securities   83165AFT6         $11,482,421          113.838        —      12/30/2010          $13,109,070         —                   $6,535     1/24/2012               $889,646       $10,592,775          $11,818,944                  $512,131
9/28/2010     Floating Rate SBA 7a security due 2034         Shay Financial       83165AFM1         $13,402,491             113.9       —      11/30/2010          $15,308,612         —                   $7,632    10/19/2011               $438,754       $12,963,737          $14,433,039                  $516,624
                                                                                                                                                                                                                                                                                                  Continued on next page
UCSB TRANSACTION DETAIL, AS OF 3/31/2013                                                          (CONTINUED)
Purchase Details1                                                                                                                                 Settlement Details                                                     Final Disposition
                                                                                                                                                                                                                                               Life-to-date
Purchase                                                      Institution                               Purchase           Pricing     TBA or     Settlement           Investment       TBA or      Senior Security                               Principal      Current Face            Disposition          Interest Paid to
Date          Investment Description                          Name                 CUSIP            Face Amount3        Mechanism       PMF3      Date                   Amount2,3       PMF3            Proceeds4        Trade Date           Received1,7          Amount6,7             Amount5,6                  Treasury
9/28/2010     Floating Rate SBA 7a security due 2035          Shay Financial       83165AFQ2          $14,950,000          114.006        —       12/30/2010          $17,092,069          —                  $8,521      1/24/2012               $387,839        $14,562,161          $16,383,544                   $681,819
                                                                                                                                                                                           Total
                                                                                                                                                                                          Senior
                                                              Total Purchase Face Amount           $332,596,893                   Total Investment Amount*         $368,145,452                           $183,555                                Total Disposition Proceeds        $334,924,711                $13,347,352
                                                                                                                                                                                        Security
                                                                                                                                                                                       Proceeds
Notes: Numbers affected by rounding. Data as of 3/31/2013. Numbered notes were taken verbatim from Treasury’s 3/28/2013 Transactions Report.

*Subject to adjustment

1	
  The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2	
  Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
3	
  If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is
  listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable
  month’s factor (on or about the 11th business day of each month).
4	
  In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the
  product of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the
  Master Purchase Agreement.
5	
  Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
6	
  If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the
  11th business day of each month).
7	
  The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

Sources: Treasury, Transactions Report, 3/28/2013, Treasury, Dividends and Interest Report, 4/10/2013.
                                                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                                                 273
TABLE D.11                                                                                                                                                                                                                                                                                                274
PPIP TRANSACTION DETAIL, AS OF 3/31/2013
                                                                                                                                                                      Final
                                                                                                                                                                Investment                                 Investment After Capital
                                                     Seller                                                 Adjusted Investment3   Final Commitment Amount7        Amount9    Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                              Interest/
                                                                                                                                                                                                                                                                                          Distributions
                                                     Transaction Investment          Investment   Pricing                                                                 Repayment           Repayment                                                                                         Paid to
Note Date        Institution     City          State Type        Description            Amount Mechanism      Date         Amount Date              Amount         Amount      Date              Amount         Amount Description        Date        Description           Proceeds          Treasury
                 UST/TCW                                         Debt
                                                                                                                                                                                                                        Debt Obligation
2,4,             Senior Mortgage                                 Obligation w/
     9/30/2009                    Wilmington    DE   Purchase                    $2,222,222,222       Par 1/4/2010   $200,000,000 1/4/2010     $200,000,000   $200,000,000 1/11/2010         $34,000,000   $166,000,000 w/ Contingent
5                Securities Fund,                                Contingent
                                                                                                                                                                                                                        Proceeds
                 L.P.                                            Proceeds
                                                                                                                                                                                                                                          1/29/2010 Distribution            $502,302
                                                                                                                                                                                                                          Contingent
                                                                                                                                                                              1/12/2010     $166,000,000             $—                               Final
                                                                                                                                                                                                                          Proceeds        2/24/2010                              $1,223
                                                                                                                                                                                                                                                      Distribution                           $342,176
                 UST/TCW
1,4,             Senior Mortgage                                 Membership
     9/30/2009                    Wilmington    DE   Purchase                    $1,111,111,111       Par 1/4/2010   $156,250,000 1/4/2010     $156,250,000   $156,250,000                                                                1/29/2010 Distribution        $20,091,872
5                Securities Fund,                                Interest                                                                                                                                                 Membership
                 L.P.                                                                                                                                                         1/15/2010     $156,250,000             $—
                                                                                                                                                                                                                          Interest
                                                                                                                                                                                                                                                      Final
                                                                                                                                                                                                                                          2/24/2010                             $48,922
                                                                                                                                                                                                                                                      Distribution
                                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013
PPIP TRANSACTION DETAIL, AS OF 3/31/2013                                                (CONTINUED)
                                                                                                                                                                        Final
                                                                                                                                                                  Investment                                   Investment After Capital
                                                      Seller                                                 Adjusted Investment3   Final Commitment Amount7         Amount9     Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                                 Interest/
                                                                                                                                                                                                                                                                                             Distributions
                                                      Transaction Investment          Investment   Pricing                                                                  Repayment            Repayment                                                                                         Paid to
Note Date         Institution      City         State Type        Description            Amount Mechanism      Date         Amount Date               Amount         Amount      Date               Amount          Amount Description       Date        Description           Proceeds          Treasury
                  Invesco Legacy
                  Securities                                      Membership                                                                                                                                                 Membership
1,6   9/30/2009                    Wilmington    DE   Purchase                    $1,111,111,111       Par 3/22/2010 $1,244,437,500 7/16/2010    $856,000,000   $580,960,000 2/18/2010           $2,444,347   $578,515,653
                  Master Fund,                                    Interest                                                                                                                                                   Interest10
                  L.P.
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 4/15/2010       $3,533,199   $574,982,454
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 9/15/2010      $30,011,187   $544,971,267
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                11/15/2010      $66,463,982   $478,507,285
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                12/14/2010      $15,844,536   $462,662,749
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 1/14/2011      $13,677,726   $448,985,023
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 2/14/2011      $48,523,845   $400,461,178
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 3/14/2011      $68,765,544   $331,695,634
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 4/14/2011      $77,704,254   $253,991,380
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 5/20/2011      $28,883,733   $225,107,647
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 6/14/2011       $9,129,709   $215,977,938
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 7/15/2011      $31,061,747   $184,916,192
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 8/12/2011      $10,381,214   $174,534,977
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                10/17/2011       $6,230,731   $168,304,246
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                                                                             $99,764,742
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                12/14/2011       $1,183,959   $167,120,288
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 1/17/2012       $1,096,185   $166,024,103
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 2/14/2012       $1,601,688   $164,422,415
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 3/14/2012       $3,035,546   $161,386,870
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                             3/29/2012 Distribution5       $56,390,209
                                                                                                                                                                                                                           Membership        8/9/2012    Distribution5       $1,056,751
                                                                                                                                                                                 3/29/2012     $161,386,870             $—
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                                         Final
                                                                                                                                                                                                                                             9/28/2012                             $18,772
                                                                                                                                                                                                                                                         Distribution5
                  Invesco Legacy                                  Debt
                                                                                                                                                                                                                           Debt Obligation
2,6,              Securities                                      Obligation w/
     9/30/2009                     Wilmington    DE   Purchase                    $2,222,222,222       Par 3/22/2010 $2,488,875,000 9/26/2011   $1,161,920,000 $1,161,920,000 2/18/2010          $4,888,718 $1,157,031,282 w/ Contingent
8                 Master Fund,                                    Contingent
                                                                                                                                                                                                                           Proceeds
                  L.P.                                            Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 4/15/2010       $7,066,434 $1,149,964,848 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 9/15/2010      $60,022,674 $1,089,942,174 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                11/15/2010     $132,928,628   $957,013,546 w/ Contingent
                                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                12/14/2010      $31,689,230   $925,324,316 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 1/14/2010      $27,355,590   $897,968,726 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                                                                                             275




                                                                                                                                                                                                                                                                                    Continued on next page
PPIP TRANSACTION DETAIL, AS OF 3/31/2013                                               (CONTINUED)

                                                                                                                                                                                                                                                                                                             276
                                                                                                                                                                       Final
                                                                                                                                                                 Investment                                   Investment After Capital
                                                     Seller                                                 Adjusted Investment3   Final Commitment Amount7         Amount9     Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                                 Interest/
                                                                                                                                                                                                                                                                                             Distributions
                                                     Transaction Investment          Investment   Pricing                                                                  Repayment            Repayment                                                                                          Paid to
Note Date         Institution     City         State Type        Description            Amount Mechanism      Date         Amount Date               Amount         Amount      Date               Amount          Amount Description       Date        Description           Proceeds           Treasury
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                2/14/2011      $92,300,138   $805,668,588 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                3/14/2011     $128,027,536   $677,641,052 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                4/14/2011     $155,409,286   $522,231,766 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                5/20/2011      $75,085,485   $447,146,281 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                6/14/2011      $18,259,513   $428,886,768 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                7/15/2011      $62,979,809   $365,906,960 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                8/12/2011      $20,762,532   $345,144,428 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                               10/17/2011      $37,384,574   $307,759,854 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                               12/14/2011       $7,103,787   $300,656,067 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                1/17/2012       $6,577,144   $294,078,924 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                2/14/2012       $9,610,173   $284,468,750 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                                            3/29/2012 Distribution5         $3,434,460
                                                                                                                                                                                                                            Contingent      8/9/2012    Distribution5             $40,556
                                                                                                                                                                                3/14/2012     $284,468,750             $—
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                                                      Final
                                                                                                                                                                                                                                            9/28/2012                               $469
                                                                                                                                                                                                                                                      Distribution5
                  Wellington
                                                                 Debt
                  Management                                                                                                                                                                                              Debt Obligation
                                                                 Obligation w/
2,6   10/1/2009   Legacy          Wilmington    DE   Purchase                    $2,222,222,222       Par 3/22/2010 $2,524,075,000 7/16/2010   $2,298,974,000 $2,298,974,000 6/26/2012        $125,000,000 $2,173,974,000 w/ Contingent
                                                                 Contingent
                  Securities PPIF                                                                                                                                                                                         Proceeds
                                                                 Proceeds
                  Master Fund, LP
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                9/17/2012     $305,000,000 $1,868,974,000 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                12/6/2012     $800,000,000 $1,068,974,000 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                               12/21/2012     $630,000,000   $438,974,000 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                1/15/2013      $97,494,310   $341,479,690 w/ Contingent
                                                                                                                                                                                                                          Proceeds                                                          $229,105,784
                                                                                                                                                                                                                            Contingent
                                                                                                                                                                                1/24/2013     $341,479,690             $—
                                                                                                                                                                                                                            Proceeds
                  Wellington
                  Management
                                                                 Membership                                                                                                                                                 Membership
1,6   10/1/2009   Legacy          Wilmington    DE   Purchase                    $1,111,111,111       Par 3/22/2010 $1,262,037,500 7/16/2010   $1,149,487,000 $1,149,487,000 7/16/2012         $62,499,688 $1,086,987,313
                                                                 Interest                                                                                                                                                   Interest10
                  Securities PPIF
                  Master Fund, LP
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                9/17/2012     $152,499,238   $934,488,075
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                1/15/2013     $254,581,112   $679,906,963
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                2/13/2013     $436,447,818   $243,459,145
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                3/13/2013     $243,459,145             $—                   3/13/2013 Distribution5      $479,509,240
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                                                                   Continued on next page
PPIP TRANSACTION DETAIL, AS OF 3/31/2013                                                 (CONTINUED)
                                                                                                                                                                         Final
                                                                                                                                                                   Investment                                  Investment After Capital
                                                       Seller                                                 Adjusted Investment3   Final Commitment Amount7         Amount9    Capital Repayment Details           Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                                   Interest/
                                                                                                                                                                                                                                                                                               Distributions
                                                       Transaction Investment          Investment   Pricing                                                                  Repayment           Repayment                                                                                           Paid to
Note Date         Institution      City          State Type        Description            Amount Mechanism      Date         Amount Date               Amount         Amount      Date              Amount          Amount Description       Date         Description           Proceeds           Treasury
                  AllianceBernstein
                                                                   Debt
                  Legacy                                                                                                                                                                                                   Debt Obligation
2,6,                                                               Obligation w/
     10/2/2009    Securities        Wilmington    DE   Purchase                    $2,222,222,222       Par 3/22/2010 $2,488,875,000 7/16/2010   $2,300,847,000 $2,128,000,000 5/16/2011        $30,244,575 $2,097,755,425 w/ Contingent
12                                                                 Contingent
                  Master Fund,                                                                                                                                                                                             Proceeds
                                                                   Proceeds
                  L.P.
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 6/14/2011          $88,087 $2,097,667,339 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  5/3/2012      $80,000,000 $2,017,667,339 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 5/14/2012      $30,000,000 $1,987,667,339 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 5/23/2012     $500,000,000 $1,487,667,339 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 6/14/2012      $44,200,000 $1,443,467,339 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 6/25/2012     $120,000,000 $1,323,467,339 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 7/16/2012      $17,500,000 $1,305,967,339 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 7/27/2012     $450,000,000   $855,967,339 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 8/14/2012     $272,500,000   $583,467,339 w/ Contingent
                                                                                                                                                                                                                                                                                              $252,394,561
                                                                                                                                                                                                                           Proceeds

                                                                                                                                                                                                                           Contingent        10/3/2012 Distribution5,11     $12,012,957
                                                                                                                                                                                 8/22/2012     $583,467,339             $—
                                                                                                                                                                                                                           Proceeds          12/21/2012 Distribution5,11            $16,967
                  AllianceBernstein
                  Legacy
                                                                   Membership                                                                                                                                                Membership
1,6   10/2/2009   Securities        Wilmington    DE   Purchase                    $1,111,111,111       Par 3/22/2010 $1,244,437,500 7/16/2010   $1,150,423,500 $1,064,141,738 1/15/2010            $44,043 $1,064,097,694
                                                                   Interest                                                                                                                                                  Interest10
                  Master Fund,
                  L.P.
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 2/14/2011         $712,284 $1,063,385,410
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 3/14/2011       $6,716,327 $1,056,669,083
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 4/14/2011       $7,118,388 $1,049,550,694
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 5/14/2012      $39,999,800 $1,009,550,894
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 6/14/2012     $287,098,565   $722,452,330
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 7/16/2012      $68,749,656   $653,702,674
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 8/14/2012     $361,248,194   $292,454,480
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                             8/30/2012 Distribution5,11     $75,278,664
                                                                                                                                                                                                                                             9/12/2012 Distribution5,11     $79,071,633
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 8/30/2012     $292,454,480             $—                   9/19/2012 Distribution5,11    $106,300,357
                                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                             10/1/2012 Distribution5,11     $25,909,972
                                                                                                                                                                                                                                             12/21/2012 Distribution5,11        $678,683
                                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                                               277
PPIP TRANSACTION DETAIL, AS OF 3/31/2013                                                 (CONTINUED)                                                                                                                                                                                                          278
                                                                                                                                                                         Final
                                                                                                                                                                   Investment                                  Investment After Capital
                                                       Seller                                                 Adjusted Investment3   Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                         Distribution or Disposition
                                                                                                                                                                                                                                                                                                  Interest/
                                                                                                                                                                                                                                                                                              Distributions
                                                       Transaction Investment          Investment   Pricing                                                                  Repayment            Repayment                                                                                         Paid to
Note Date         Institution       City         State Type        Description            Amount Mechanism      Date         Amount Date               Amount         Amount      Date               Amount         Amount Description        Date         Description           Proceeds         Treasury
                                                                   Debt
                                                                                                                                                                                                                            Debt Obligation
                  Blackrock PPIF,                                  Obligation w/
2,6   10/2/2009                     Wilmington    DE   Purchase                    $2,222,222,222       Par 3/22/2010 $2,488,875,000 7/16/2010   $1,389,960,000 $1,053,000,000 7/31/2012        $175,000,000   $878,000,000 w/ Contingent
                  L.P.                                             Contingent
                                                                                                                                                                                                                            Proceeds
                                                                   Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                  8/14/2012       $5,539,055   $872,460,945 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                  8/31/2012      $16,000,000   $856,460,945 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                  9/17/2012       $1,667,352   $854,793,592 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                  9/28/2012      $35,000,000   $819,793,592 w/ Contingent
                                                                                                                                                                                                                            Proceeds                                                          $72,435,724
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                 10/15/2012      $25,334,218   $794,459,374 w/ Contingent
                                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                                                                                                                            Proceeds

                                                                                                                                                                                                                              Contingent      11/5/2012 Distribution5,11       $8,289,431
                                                                                                                                                                                 10/18/2012     $794,459,374             $—
                                                                                                                                                                                                                              Proceeds        12/5/2012 Distribution5,11       $1,433,088
                  Blackrock PPIF,                                  Membership                                                                                                                                                 Membership
1,6   10/2/2009                     Wilmington    DE   Purchase                    $1,111,111,111       Par 3/22/2010 $1,244,437,500 7/16/2010    $694,980,000   $528,184,800 8/14/2012          $90,269,076   $437,915,724
                  L.P.                                             Interest                                                                                                                                                   Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                  9/17/2012       $8,833,632   $429,082,092
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                 10/15/2012      $10,055,653   $419,026,439
                                                                                                                                                                                                                              Interest10

                                                                                                                                                                                                                              Membership      11/5/2012 Distribution5,11    $297,511,708
                                                                                                                                                                                  11/5/2012     $419,026,439             $—
                                                                                                                                                                                                                              Interest10      12/5/2012 Distribution5,11     $57,378,964
                                                                                                                                                                                                                                                                                     Continued on next page
PPIP TRANSACTION DETAIL, AS OF 3/31/2013                                                    (CONTINUED)
                                                                                                                                                                            Final
                                                                                                                                                                      Investment                                   Investment After Capital
                                                         Seller                                                  Adjusted Investment3   Final Commitment Amount7         Amount9     Capital Repayment Details           Repayment                         Distribution or Disposition
                                                                                                                                                                                                                                                                                                      Interest/
                                                                                                                                                                                                                                                                                                  Distributions
                                                         Transaction Investment           Investment   Pricing                                                                  Repayment            Repayment                                                                                          Paid to
Note Date           Institution       City         State Type        Description             Amount Mechanism      Date         Amount Date               Amount         Amount      Date               Amount          Amount Description        Date         Description           Proceeds         Treasury
                                                                      Debt
                 AG GECC PPIF                                                                                                                                                                                                  Debt Obligation
                                                                      Obligation w/
2,6   10/30/2009 Master Fund,         Wilmington    DE   Purchase                     $2,222,222,222       Par 3/22/2010 $2,542,675,000 7/16/2010   $2,486,550,000 $2,234,798,340 2/14/2012        $174,200,000 $2,060,598,340 w/ Contingent
                                                                      Contingent
                 L.P.                                                                                                                                                                                                          Proceeds
                                                                      Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                     3/14/2012     $198,925,000 $1,861,673,340 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                     5/14/2012     $150,000,000 $1,711,673,340 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                     7/16/2012      $37,500,000 $1,674,173,340 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                     8/14/2012     $136,800,000 $1,537,373,340 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                     9/17/2012     $250,000,000 $1,287,373,340 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                    10/15/2012     $481,350,000   $806,023,340 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                    11/15/2012     $274,590,324   $531,433,016 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                    12/14/2012     $147,534,295   $383,898,721 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                     1/15/2013     $182,823,491   $201,075,230 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                Debt Obligation                                                 $283,008,099
                                                                                                                                                                                     2/14/2013     $201,075,230             $­— w/ Contingent
                                                                                                                                                                                                                                Proceeds
                 AG GECC PPIF
                                                                      Membership                                                                                                                                                  Membership
1,6   10/30/2009 Master Fund,             Wilmington DE Purchase                      $1,111,111,111       Par 3/22/2010 $1,271,337,500 7/16/2010   $1,243,275,000 $1,117,399,170 2/14/2012         $87,099,565 $1,030,299,606
                                                                      Interest                                                                                                                                                    Interest10
                 L.P.                                              
                                                                                                                                                                                                                                  Membership
                                                                                                                                                                                     3/14/2012      $99,462,003   $930,837,603
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                  Membership
                                                                                                                                                                                     5/14/2012      $74,999,625   $855,837,978
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                  Membership
                                                                                                                                                                                     7/16/2012      $18,749,906   $837,088,072
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                  Membership
                                                                                                                                                                                     8/14/2012      $68,399,658   $768,688,414
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                  Membership
                                                                                                                                                                                     9/17/2012     $124,999,375   $643,689,039
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                  Membership
                                                                                                                                                                                    10/15/2012     $240,673,797   $403,015,242
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                  Membership
                                                                                                                                                                                    11/15/2012      $45,764,825   $357,250,417
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                  Membership
                                                                                                                                                                                    12/14/2012      $24,588,926   $332,661,491
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                  Membership
                                                                                                                                                                                     1/15/2013      $30,470,429   $302,191,061
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                  Membership
                                                                                                                                                                                     2/14/2013     $295,328,636      $6,862,425
                                                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                                  2/21/2013 Distribution5,11    $184,431,858
                                                                                                                                                                                                                                  Membership
                                                                                                                                                                                     2/21/2013       $6,862,425             $—                    2/27/2013 Distribution5,11     $20,999,895
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                                  3/14/2013 Distribution5,11    $156,174,219
                                                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                                                  279
PPIP TRANSACTION DETAIL, AS OF 3/31/2013                                                (CONTINUED)                                                                                                                                                                                                           280
                                                                                                                                                                        Final
                                                                                                                                                                  Investment                                   Investment After Capital
                                                      Seller                                                 Adjusted Investment3   Final Commitment Amount7         Amount9     Capital Repayment Details           Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                                  Interest/
                                                                                                                                                                                                                                                                                              Distributions
                                                      Transaction Investment          Investment   Pricing                                                                  Repayment            Repayment                                                                                          Paid to
Note Date         Institution      City         State Type        Description            Amount Mechanism      Date         Amount Date               Amount         Amount      Date               Amount          Amount Description       Date         Description           Proceeds          Treasury
                  RLJ Western                                     Debt
                                                                                                                                                                                                                           Debt Obligation
                  Asset Public/                                   Obligation w/
2,6   11/4/2009                    Wilmington    DE   Purchase                    $2,222,222,222       Par 3/22/2010 $2,488,875,000 7/16/2010   $1,241,156,516 $1,241,000,000 5/13/2011         $13,531,530 $1,227,468,470 w/ Contingent
                  Private Master                                  Contingent
                                                                                                                                                                                                                           Proceeds
                  Fund, L.P.                                      Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 7/31/2012     $618,750,000   $608,718,470 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  8/9/2012     $151,006,173   $457,712,297 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 8/14/2012      $11,008,652   $446,703,645 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 8/23/2012     $160,493,230   $286,210,415 w/ Contingent
                                                                                                                                                                                                                           Proceeds

                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 8/29/2012     $103,706,836   $182,503,579 w/ Contingent
                                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                                                                                                                           Proceeds

                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 9/17/2012      $20,637,410   $161,866,170 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                             10/19/2012 Distribution5,11      $6,789,287 $161,505,775
                                                                                                                                                                                                                             Contingent
                                                                                                                                                                                 9/21/2012     $161,866,170             $—                   11/2/2012 Distribution5,11       $3,718,769
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                                             12/21/2012 Distribution5,11            $13,750
                  RLJ Western
                  Asset Public/                                   Membership                                                                                                                                                 Membership
1,6   11/4/2009                    Wilmington    DE   Purchase                    $1,111,111,111       Par 3/22/2010 $1,244,437,500 7/16/2010    $620,578,258   $620,578,258 3/14/2011           $1,202,957   $619,375,301
                  Private Master                                  Interest                                                                                                                                                   Interest10
                  Fund, L.P.
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 4/14/2011       $3,521,835   $615,853,465
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 8/14/2012     $104,959,251   $510,894,215
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 9/17/2012      $72,640,245   $438,253,970
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 9/28/2012     $180,999,095   $257,254,875
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                10/15/2012     $134,999,325   $122,255,550
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                             10/19/2012 Distribution5,11   $147,464,888
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                10/19/2012     $122,255,550             $—                   11/2/2012 Distribution5,11    $148,749,256
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                             12/21/2012 Distribution5,11        $549,997
                                                                                                                                                                                                                                                                                     Continued on next page
PPIP TRANSACTION DETAIL, AS OF 3/31/2013                                                (CONTINUED)
                                                                                                                                                                       Final
                                                                                                                                                                 Investment                                  Investment After Capital
                                                      Seller                                                 Adjusted Investment3   Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                         Distribution or Disposition
                                                                                                                                                                                                                                                                                                Interest/
                                                                                                                                                                                                                                                                                            Distributions
                                                      Transaction Investment          Investment   Pricing                                                                 Repayment            Repayment                                                                                         Paid to
Note Date         Institution      City         State Type        Description            Amount Mechanism      Date         Amount Date              Amount         Amount      Date               Amount         Amount Description        Date         Description           Proceeds         Treasury
                 Marathon Legacy
                                                                  Debt
                 Securities                                                                                                                                                                                               Debt Obligation
                                                                  Obligation w/
2,6   11/25/2009 Public-Private    Wilmington    DE   Purchase                    $2,222,222,222       Par 3/22/2010 $2,488,875,000 7/16/2010   $949,100,000   $949,000,000 9/17/2012         $149,000,000   $800,000,000 w/ Contingent
                                                                  Contingent
                 Investment                                                                                                                                                                                               Proceeds
                                                                  Proceeds
                 Partnership, L.P.
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                               11/15/2012     $119,575,516   $680,424,484 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                               11/20/2012     $195,000,000   $485,424,484 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                               12/14/2012      $47,755,767   $437,668,717 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                1/15/2013      $62,456,214   $375,212,503 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                            Contingent
                                                                                                                                                                                1/24/2013     $375,212,503             $—
                                                                                                                                                                                                                            Proceeds                                                        $77,458,631
                 Marathon Legacy
                 Securities
                                                                  Membership                                                                                                                                                Membership
1,6   11/25/2009 Public-Private    Wilmington    DE   Purchase                    $1,111,111,111       Par 3/22/2010 $1,244,437,500 7/16/2010   $474,550,000   $474,550,000 9/17/2012          $74,499,628   $400,050,373
                                                                  Interest                                                                                                                                                  Interest10
                 Investment
                 Partnership, L.P.
                                                                                                                                                                                                                            Membership
                                                                                                                                                                               11/15/2012      $59,787,459   $340,262,914
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                               12/14/2012      $40,459,092   $299,803,821
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                1/15/2013      $10,409,317   $289,394,504
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                1/30/2013     $219,998,900    $69,395,604
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                2/25/2013      $39,026,406    $30,369,198
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                3/25/2013      $30,369,198             $—                   3/25/2013 Distribution5,11    $164,629,827
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                            281
PPIP TRANSACTION DETAIL, AS OF 3/31/2013                                                          (CONTINUED)                                                                                                                                                                                                                                              282
                                                                                                                                                                                                        Final
                                                                                                                                                                                                  Investment                                           Investment After Capital
                                                          Seller                                                               Adjusted Investment3         Final Commitment Amount7                 Amount9      Capital Repayment Details                  Repayment                          Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                              Interest/
                                                                                                                                                                                                                                                                                                                                          Distributions
                                                          Transaction Investment               Investment   Pricing                                                                                          Repayment               Repayment                                                                                                  Paid to
Note Date           Institution        City         State Type        Description                 Amount Mechanism               Date            Amount Date                       Amount             Amount      Date                  Amount              Amount Description        Date           Description            Proceeds          Treasury
                                                                        Debt
                                                                                                                                                                                                                                                               Debt Obligation
                    Oaktree PPIP                                        Obligation w/
2,6   12/18/2009                       Wilmington    DE   Purchase                        $2,222,222,222              Par 3/22/2010 $2,488,875,000 7/16/2010              $2,321,568,200 $1,111,000,000 7/15/2011                   $79,000,000 $1,032,000,000 w/ Contingent
                    Fund, L.P.                                          Contingent
                                                                                                                                                                                                                                                               Proceeds
                                                                        Proceeds
                                                                                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                                                                                 3/14/2012          $78,775,901       $953,224,099 w/ Contingent
                                                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                                                                                 9/17/2012          $44,224,144       $908,999,956 w/ Contingent
                                                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                                                                                10/15/2012          $64,994,269       $844,005,687 w/ Contingent
                                                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                                                                                11/15/2012         $223,080,187       $620,925,500 w/ Contingent
                                                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                                                                                12/14/2012         $111,080,608       $509,844,892 w/ Contingent
                                                                                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                                                                                                                                          $53,076,269
                                                                                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                                                                                 1/15/2013          $89,099,906       $420,744,985 w/ Contingent
                                                                                                                                                                                                                                                                   Proceeds
                    Oaktree PPIP                                        Membership                                                                                                                                                                                    Membership
1,6   12/18/2009                       Wilmington    DE   Purchase                        $1,111,111,111              Par 3/22/2010 $1,244,437,500 7/16/2010              $1,160,784,100       $555,904,633 7/15/2011               $39,499,803       $516,404,830
                    Fund, L.P.                                          Interest                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                                                                      Membership
                                                                                                                                                                                                                 3/14/2012          $39,387,753       $477,017,077
                                                                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                                                                      Membership
                                                                                                                                                                                                                 9/17/2012          $22,111,961       $454,905,116
                                                                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                                                                      Membership
                                                                                                                                                                                                                10/15/2012          $32,496,972       $422,408,144
                                                                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                                                                      Membership
                                                                                                                                                                                                                11/15/2012         $111,539,536       $310,868,608
                                                                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                                                                      Membership
                                                                                                                                                                                                                12/14/2012          $55,540,026       $255,328,581
                                                                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                                                                      Membership
                                                                                                                                                                                                                 1/15/2013          $14,849,910       $240,478,671
                                                                                                                                                                                                                                                                      Interest10
                                           Initial Investment Amount                    $30,000,000,000                        Final Investment Amount                 $21,856,403,574          Total Capital Repayment $17,963,924,282                                               Total Proceeds5               $2,058,498,949
Notes: Numbers may not total due to rounding. Data as of 3/31/2013. Numbered notes were taken verbatim from Treasury’s 3/28/2013 Transactions Report.
1	
   The equity amount may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2	
   The loan may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3	
   Adjusted to show Treasury’s maximum obligations to a fund.
4	
   On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5	
   Distributions after capital repayments will be considered profit and are paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in proportion to their membership interests. These figures exclude pro-rata distributions to Treasury of gross investment proceeds (reported on
   the Dividends and Interest Report), which may be made from time to time in accordance with the terms of the fund’s Limited Partnership Agreement.
6	
   Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for
   the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7	
   Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
8	
   On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.
9	
   Cumulative capital drawn at end of the Investment Period.
10	
   The Amount is adjusted to reflect pro-rata equity distributions that have been deemed to be capital repayments to Treasury.
11	
   Distribution represents a gain on funded capital and is subject to revision pending any additional fundings of the outstanding commitment.
12	
   On 8/23/2012, AllianceBernstein agreed to de-obligate its unused debt commitment. The Final Investment Amount represents the cumulative capital drawn as of the de-obligation.

Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Dividends and Interest Report, 4/10/2013.
TABLE D.12
HAMP TRANSACTION DETAIL, AS OF 3/31/2013
            Servicer Modifying Borrowers’ Loans                                                                     Adjustment Details                                                                                                           TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                                     Lenders/                               Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                Borrower’s       Investors        Servicers               Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount          Adjusted Cap Reason for Adjustment                                     Incentives      Incentives       Incentives              Payments
                                                                                                                     6/12/2009       $284,590,000        $660,590,000 Updated portfolio data from servicer
                                                                                                                     9/30/2009       $121,910,000        $782,500,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                    12/30/2009       $131,340,000        $913,840,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                     3/26/2010      ($355,530,000)       $558,310,000 Updated portfolio data from servicer
                                                                                                                     7/14/2010       $128,690,000        $687,000,000 Updated portfolio data from servicer
                                                                                                                     9/30/2010            $4,000,000     $691,000,000 Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                     9/30/2010           $59,807,784     $750,807,784 Updated portfolio data from servicer
                                                                                                                    11/16/2010            ($700,000)     $750,107,784 Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010           $64,400,000     $814,507,784 Updated portfolio data from servicer
                                                                                                                      1/6/2011                 ($639)    $814,507,145 Updated portfolio data from servicer
                                                                                                                     1/13/2011           ($2,300,000)    $812,207,145 Transfer of cap due to servicing transfer
                                                                                                                     2/16/2011             $100,000      $812,307,145 Transfer of cap due to servicing transfer
                                                                                                                     3/16/2011            $3,600,000     $815,907,145 Transfer of cap due to servicing transfer
                                                                                                                     3/30/2011                 ($735)    $815,906,410 Updated due to quarterly assessment and reallocation
                                                                                                                     4/13/2011            ($100,000)     $815,806,410 Transfer of cap due to servicing transfer
                                                                                                                     5/13/2011             $400,000      $816,206,410 Transfer of cap due to servicing transfer
                                                                                                                     6/16/2011            ($100,000)     $816,106,410 Transfer of cap due to servicing transfer
                                                                                                                     6/29/2011               ($6,805)    $816,099,605 Updated due to quarterly assessment and reallocation

                                                        Financial                                                    8/16/2011            ($100,000)     $815,999,605 Transfer of cap due to servicing transfer
            Select Portfolio Servicing,                 Instrument for
4/13/2009                                 Purchase                              $376,000,000     N/A                 9/15/2011            ($200,000)     $815,799,605 Transfer of cap due to servicing transfer                 $53,469,413   $105,219,506      $81,013,208           $239,702,127
            Salt Lake City, UT                          Home Loan
                                                        Modifications                                               10/14/2011            ($100,000)     $815,699,605 Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011            ($100,000)     $815,599,605 Transfer of cap due to servicing transfer
                                                                                                                     1/13/2012             $200,000      $815,799,605 Transfer of cap due to servicing transfer
                                                                                                                     3/15/2012           $24,800,000     $840,599,605 Transfer of cap due to servicing transfer
                                                                                                                     4/16/2012            $1,900,000     $842,499,605 Transfer of cap due to servicing transfer
                                                                                                                     5/16/2012               $80,000     $842,579,605 Transfer of cap due to servicing transfer
                                                                                                                     6/14/2012            $8,710,000     $851,289,605 Transfer of cap due to servicing transfer
                                                                                                                     6/28/2012               ($5,176)    $851,284,429 Updated due to quarterly assessment and reallocation
                                                                                                                     7/16/2012            $2,430,000     $853,714,429 Transfer of cap due to servicing transfer
                                                                                                                     8/16/2012            $2,310,000     $856,024,429 Transfer of cap due to servicing transfer
                                                                                                                     9/27/2012              ($13,961)    $856,010,468 Updated due to quarterly assessment and reallocation
                                                                                                                    10/16/2012       $126,940,000        $982,950,468 Transfer of cap due to servicing transfer
                                                                                                                    11/15/2012            $9,990,000     $992,940,468 Transfer of cap due to servicing transfer
                                                                                                                    12/14/2012           $10,650,000    $1,003,590,468 Transfer of cap due to servicing transfer
                                                                                                                    12/27/2012               ($2,663)   $1,003,587,805 Updated due to quarterly assessment and reallocation
                                                                                                                     1/16/2013           $18,650,000    $1,022,237,805 Transfer of cap due to servicing transfer
                                                                                                                     2/14/2013           $10,290,000    $1,032,527,805 Transfer of cap due to servicing transfer
                                                                                                                     3/14/2013            $4,320,000    $1,036,847,805 Transfer of cap due to servicing transfer
                                                                                                                     3/25/2013              ($10,116)   $1,036,837,689 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                        283
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                              (CONTINUED)                                                                                                                                                                                                           284
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                                    TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                              Lenders/                               Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                         Borrower’s       Investors        Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount          Adjusted Cap Reason for Adjustment                                              Incentives      Incentives       Incentives              Payments
                                                                                                                6/12/2009      ($991,580,000)      $1,079,420,000 Updated portfolio data from servicer
                                                                                                                9/30/2009     $1,010,180,000       $2,089,600,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009      ($105,410,000)      $1,984,190,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010      ($199,300,000)      $1,784,890,000 Updated portfolio data from servicer & 2MP initial cap
                                                                                                                4/19/2010            ($230,000)    $1,784,660,000 Transfer of cap to Service One, Inc. due to servicing transfer
                                                                                                                                                                      Transfer of cap to Specialized Loan Servicing, LLC due to
                                                                                                                5/14/2010           ($3,000,000)   $1,781,660,000
                                                                                                                                                                      servicing transfer
                                                                                                                6/16/2010       ($12,280,000)      $1,769,380,000 Transfer of cap to multiple servicers due to servicing transfer
                                                                                                                7/14/2010      ($757,680,000)      $1,011,700,000 Updated portfolio data from servicer
                                                                                                                7/16/2010           ($7,110,000)   $1,004,590,000 Transfer of cap to multiple servicers due to servicing transfer
                                                                                                                8/13/2010           ($6,300,000)     $998,290,000 Transfer of cap to multiple servicers due to servicing transfer
                                                                                                                9/15/2010           ($8,300,000)     $989,990,000 Transfer of cap to multiple servicers due to servicing transfer
                                                                                                                9/30/2010           $32,400,000    $1,022,390,000 Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                9/30/2010       $101,287,484       $1,123,677,484 Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                               10/15/2010           ($1,400,000)   $1,122,277,484 Transfer of cap due to servicing transfer
                                                                                                               11/16/2010           ($3,200,000)   $1,119,077,484 Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011                 ($981)   $1,119,076,503 Updated portfolio data from servicer
                                                                                                                1/13/2011       ($10,500,000)      $1,108,576,503 Transfer of cap due to servicing transfer
                                                                                                                2/16/2011           ($4,600,000)   $1,103,976,503 Transfer of cap due to servicing transfer
                                                                                                                3/16/2011       ($30,500,000)      $1,073,476,503 Transfer of cap due to servicing transfer
                                                                                                                3/30/2011               ($1,031)   $1,073,475,472 Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011             $100,000     $1,073,575,472 Transfer of cap due to servicing transfer
                                                                                                                5/13/2011           ($7,200,000)   $1,066,375,472 Transfer of cap due to servicing transfer
                                                                                                                6/16/2011            ($400,000)    $1,065,975,472 Transfer of cap due to servicing transfer
                                                   Financial
            CitiMortgage, Inc.,                    Instrument for                                               6/29/2011               ($9,131)   $1,065,966,341 Updated due to quarterly assessment and reallocation
4/13/2009                            Purchase                            $2,071,000,000     N/A                                                                                                                                     $54,230,973   $175,963,500      $94,190,297           $324,384,769
            O’Fallon, MO                           Home Loan
                                                   Modifications                                                7/14/2011       ($14,500,000)      $1,051,466,341 Transfer of cap due to servicing transfer
                                                                                                                8/16/2011           ($1,600,000)   $1,049,866,341 Transfer of cap due to servicing transfer
                                                                                                                9/15/2011             $700,000     $1,050,566,341 Transfer of cap due to servicing transfer
                                                                                                               10/14/2011           $15,200,000    $1,065,766,341 Transfer of cap due to servicing transfer
                                                                                                               11/16/2011           ($2,900,000)   $1,062,866,341 Transfer of cap due to servicing transfer
                                                                                                               12/15/2011           ($5,000,000)   $1,057,866,341 Transfer of cap due to servicing transfer
                                                                                                                1/13/2012            ($900,000)    $1,056,966,341 Transfer of cap due to servicing transfer
                                                                                                                2/16/2012           ($1,100,000)   $1,055,866,341 Transfer of cap due to servicing transfer
                                                                                                                3/15/2012           ($1,700,000)   $1,054,166,341 Transfer of cap due to servicing transfer
                                                                                                                4/16/2012            ($600,000)    $1,053,566,341 Transfer of cap due to servicing transfer
                                                                                                                5/16/2012            ($340,000)    $1,053,226,341 Transfer of cap due to servicing transfer
                                                                                                                6/14/2012           ($2,880,000)   $1,050,346,341 Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($5,498)   $1,050,340,843 Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012      ($298,960,000)        $751,380,843 Transfer of cap due to servicing transfer
                                                                                                                7/27/2012       $263,550,000       $1,014,930,843 Transfer of cap due to servicing transfer
                                                                                                                8/16/2012               $30,000    $1,014,960,843 Transfer of cap due to servicing transfer
                                                                                                                9/27/2012              ($12,722)   $1,014,948,121 Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012           ($4,020,000)   $1,010,928,121 Transfer of cap due to servicing transfer
                                                                                                               11/15/2012           ($1,460,000)   $1,009,468,121 Transfer of cap due to servicing transfer
                                                                                                               12/14/2012           ($6,000,000)   $1,003,468,121 Transfer of cap due to servicing transfer
                                                                                                               12/27/2012               ($1,916)   $1,003,466,205 Updated due to quarterly assessment and reallocation
                                                                                                                2/14/2013           ($8,450,000)     $995,016,205 Transfer of cap due to servicing transfer
                                                                                                                3/14/2013           ($1,890,000)     $993,126,205 Transfer of cap due to servicing transfer
                                                                                                                3/25/2013               ($6,606)     $993,119,599 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                               TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                         Lenders/                               Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                    Borrower’s       Investors        Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount          Adjusted Cap Reason for Adjustment                                         Incentives      Incentives       Incentives              Payments
                                                                                                                6/17/2009      ($462,990,000)      $2,410,010,000 Updated portfolio data from servicer
                                                                                                                9/30/2009           $65,070,000    $2,475,080,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009     $1,213,310,000       $3,688,390,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                2/17/2010     $2,050,236,344       $5,738,626,344 Transfer of cap (from Wachovia) due to merger
                                                                                                                3/12/2010               $54,767    $5,738,681,110 Transfer of cap (from Wachovia) due to merger
                                                                                                                3/19/2010       $668,108,890       $6,406,790,000 Initial 2MP cap
                                                                                                                3/26/2010       $683,130,000       $7,089,920,000 Updated portfolio data from servicer
                                                                                                                7/14/2010    ($2,038,220,000)      $5,051,700,000 Updated portfolio data from servicer
                                                                                                                9/30/2010      ($287,348,828)      $4,764,351,172 Updated portfolio data from servicer
                                                                                                                                                                     Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                9/30/2010       $344,000,000       $5,108,351,172
                                                                                                                                                                     RD-HAMP
                                                                                                                12/3/2010            $8,413,225    $5,116,764,397 Transfer of cap (from Wachovia) due to merger
                                                                                                               12/15/2010           $22,200,000    $5,138,964,397 Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($6,312)   $5,138,958,085 Updated portfolio data from servicer
                                                                                                                1/13/2011            ($100,000)    $5,138,858,085 Transfer of cap due to servicing transfer
                                                                                                                3/16/2011            ($100,000)    $5,138,758,085 Transfer of cap due to servicing transfer
                                                                                                                3/30/2011               ($7,171)   $5,138,750,914 Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011           ($9,800,000)   $5,128,950,914 Transfer of cap due to servicing transfer
                                                                                                                5/13/2011             $100,000     $5,129,050,914 Transfer of cap due to servicing transfer
                                                                                                                6/16/2011            ($600,000)    $5,128,450,914 Transfer of cap due to servicing transfer
                                                                                                                6/29/2011              ($63,856)   $5,128,387,058 Updated due to quarterly assessment and reallocation
                                                   Financial                                                    7/14/2011           ($2,300,000)   $5,126,087,058 Transfer of cap due to servicing transfer
            Wells Fargo Bank, NA,                  Instrument for
4/13/2009                            Purchase                            $2,873,000,000     N/A                                                                                                                               $153,142,593   $361,864,413     $239,675,171           $754,682,177
            Des Moines, IA                         Home Loan                                                    8/16/2011           ($1,100,000)   $5,124,987,058 Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                                9/15/2011            $1,400,000    $5,126,387,058 Transfer of cap due to servicing transfer
                                                                                                               10/14/2011             $200,000     $5,126,587,058 Transfer of cap due to servicing transfer
                                                                                                               11/16/2011            ($200,000)    $5,126,387,058 Transfer of cap due to servicing transfer
                                                                                                               12/15/2011            ($200,000)    $5,126,187,058 Transfer of cap due to servicing transfer
                                                                                                                1/13/2012            ($300,000)    $5,125,887,058 Transfer of cap due to servicing transfer
                                                                                                                2/16/2012            ($200,000)    $5,125,687,058 Transfer of cap due to servicing transfer
                                                                                                                3/15/2012           ($1,000,000)   $5,124,687,058 Transfer of cap due to servicing transfer
                                                                                                                4/16/2012            ($800,000)    $5,123,887,058 Transfer of cap due to servicing transfer
                                                                                                                5/16/2012            ($610,000)    $5,123,277,058 Transfer of cap due to servicing transfer
                                                                                                                6/14/2012           ($2,040,000)   $5,121,237,058 Transfer of cap due to servicing transfer
                                                                                                                6/28/2012              ($39,923)   $5,121,197,135 Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012            ($120,000)    $5,121,077,135 Transfer of cap due to servicing transfer
                                                                                                                9/27/2012            ($104,111)    $5,120,973,024 Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012           ($1,590,000)   $5,119,383,024 Transfer of cap due to servicing transfer
                                                                                                               11/15/2012           ($2,910,000)   $5,116,473,024 Transfer of cap due to servicing transfer
                                                                                                               12/14/2012           ($1,150,000)   $5,115,323,024 Transfer of cap due to servicing transfer
                                                                                                               12/27/2012              ($16,392)   $5,115,306,632 Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013           ($3,350,000)   $5,111,956,632 Transfer of cap due to servicing transfer
                                                                                                                2/14/2013            ($820,000)    $5,111,136,632 Transfer of cap due to servicing transfer
                                                                                                                3/14/2013            ($270,000)    $5,110,866,632 Transfer of cap due to servicing transfer
                                                                                                                3/25/2013              ($58,709)   $5,110,807,923 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                                       285
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                              (CONTINUED)                                                                                                                                                                                                      286
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                               TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                         Lenders/                               Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                    Borrower’s       Investors        Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount          Adjusted Cap Reason for Adjustment                                         Incentives      Incentives       Incentives              Payments
                                                                                                                6/12/2009       $384,650,000       $1,017,650,000 Updated portfolio data from servicer
                                                                                                                9/30/2009     $2,537,240,000       $3,554,890,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009    ($1,679,520,000)      $1,875,370,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010       $190,180,000       $2,065,550,000 Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap from Wilshire Credit Corporation due to
                                                                                                                5/14/2010            $1,880,000    $2,067,430,000
                                                                                                                                                                     servicing transfer
                                                                                                                7/14/2010      ($881,530,000)      $1,185,900,000 Updated portfolio data from servicer
                                                                                                                8/13/2010           ($3,700,000)   $1,182,200,000 Transfer of cap due to servicing transfer
                                                                                                                                                                     Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                9/30/2010       $119,200,000       $1,301,400,000
                                                                                                                                                                     2MP cap
                                                                                                                9/30/2010       $216,998,139       $1,518,398,139 Updated portfolio data from servicer
                                                                                                               12/15/2010            ($500,000)    $1,517,898,139 Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($1,734)   $1,517,896,405 Updated portfolio data from servicer
                                                                                                                3/16/2011            ($100,000)    $1,517,796,405 Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                3/30/2011               ($2,024)   $1,517,794,381 Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011            ($800,000)    $1,516,994,381 Transfer of cap due to servicing transfer
                                                                                                                5/13/2011       ($17,900,000)      $1,499,094,381 Transfer of cap due to servicing transfer
                                                                                                                6/29/2011              ($18,457)   $1,499,075,924 Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2011            ($200,000)    $1,498,875,924 Transfer of cap due to servicing transfer
                                                   Financial
            GMAC Mortgage, Inc.,                   Instrument for                                               8/16/2011            $3,400,000    $1,502,275,924 Transfer of cap due to servicing transfer
4/13/2009                            Purchase                              $633,000,000     N/A                                                                                                                                $45,973,243   $112,356,452      $76,644,383           $234,974,078
            Ft. Washington, PA                     Home Loan
                                                                                                                9/15/2011             $200,000     $1,502,475,924 Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                               10/14/2011            ($800,000)    $1,501,675,924 Transfer of cap due to servicing transfer
                                                                                                               11/16/2011            ($200,000)    $1,501,475,924 Transfer of cap due to servicing transfer
                                                                                                               12/15/2011            $2,600,000    $1,504,075,924 Transfer of cap due to servicing transfer
                                                                                                                1/13/2012           ($1,600,000)   $1,502,475,924 Transfer of cap due to servicing transfer
                                                                                                                3/15/2012            ($400,000)    $1,502,075,924 Transfer of cap due to servicing transfer
                                                                                                                4/16/2012            ($100,000)    $1,501,975,924 Transfer of cap due to servicing transfer
                                                                                                                5/16/2012            ($800,000)    $1,501,175,924 Transfer of cap due to servicing transfer
                                                                                                                6/14/2012            ($990,000)    $1,500,185,924 Transfer of cap due to servicing transfer
                                                                                                                6/28/2012              ($12,463)   $1,500,173,461 Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012               $10,000    $1,500,183,461 Transfer of cap due to servicing transfer
                                                                                                                9/27/2012              ($33,210)   $1,500,150,251 Updated due to quarterly assessment and reallocation
                                                                                                               11/15/2012           ($1,200,000)   $1,498,950,251 Transfer of cap due to servicing transfer
                                                                                                               12/14/2012               $40,000    $1,498,990,251 Transfer of cap due to servicing transfer
                                                                                                               12/27/2012               ($5,432)   $1,498,984,819 Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013               $60,000    $1,499,044,819 Transfer of cap due to servicing transfer
                                                                                                                2/14/2013              ($30,000)   $1,499,014,819 Transfer of cap due to servicing transfer
                                                                                                                3/14/2013              ($80,000)   $1,498,934,819 Transfer of cap due to servicing transfer
                                                                                                                3/25/2013              ($19,838)   $1,498,914,981 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                              Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                               TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                         Lenders/                                Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                     Borrower’s      Investors        Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount          Adjusted Cap Reason for Adjustment                                          Incentives     Incentives       Incentives               Payments
                                                                                                                  6/17/2009       $225,040,000        $632,040,000 Updated portfolio data from servicer
                                                                                                                  9/30/2009       $254,380,000        $886,420,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009       $355,710,000       $1,242,130,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010       ($57,720,000)      $1,184,410,000 Updated portfolio data from servicer
                                                                                                                                                                       Transfer of cap to Ocwen Financial Corporation, Inc. due
                                                                                                                  6/16/2010      ($156,050,000)      $1,028,360,000
                                                                                                                                                                       to servicing transfer
                                                                                                                  7/14/2010      ($513,660,000)       $514,700,000 Updated portfolio data from servicer
                                                                                                                  7/16/2010       ($22,980,000)       $491,720,000 Transfer of cap due to multiple servicing transfers
                                                                                                                  9/15/2010            $1,800,000     $493,520,000 Transfer of cap due to servicing transfer
                                                                                                                  9/30/2010            $9,800,000     $503,320,000 Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                  9/30/2010       $116,222,668        $619,542,668 Updated portfolio data from servicer
                                                                                                                 10/15/2010             $100,000      $619,642,668 Transfer of cap due to servicing transfer
                                                                                                                 12/15/2010            $8,900,000     $628,542,668 Updated portfolio data from servicer
                                                                                                                   1/6/2011                 ($556)    $628,542,112 Updated portfolio data from servicer
                                                                                                                  1/13/2011            $2,300,000     $630,842,112 Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011             $700,000      $631,542,112 Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011                 ($654)    $631,541,458 Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011            $2,100,000     $633,641,458 Transfer of cap due to servicing transfer
                                                     Financial                                                    6/29/2011               ($6,144)    $633,635,314 Updated due to quarterly assessment and reallocation
            Saxon Mortgage Services,                 Instrument for
4/13/2009                              Purchase                              $407,000,000     N/A                                                                                                                                 $19,655,075   $41,738,413      $39,413,598            $100,807,086
            Inc., Irving, TX                         Home Loan                                                    7/14/2011             $200,000      $633,835,314 Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                  8/16/2011            ($100,000)     $633,735,314 Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011            ($700,000)     $633,035,314 Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011           $17,500,000     $650,535,314 Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012            ($100,000)     $650,435,314 Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012             $100,000      $650,535,314 Transfer of cap due to servicing transfer
                                                                                                                  4/16/2012       ($17,500,000)       $633,035,314 Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012            ($760,000)     $632,275,314 Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012      ($354,290,000)       $277,985,314 Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012               ($1,831)    $277,983,483 Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2012       ($10,120,000)       $267,863,483 Transfer of cap due to servicing transfer
                                                                                                                  8/16/2012              ($10,000)    $267,853,483 Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012               ($4,701)    $267,848,782 Updated due to quarterly assessment and reallocation
                                                                                                                 10/16/2012           ($9,220,000)    $258,628,782 Transfer of cap due to servicing transfer
                                                                                                                 11/15/2012              ($30,000)    $258,598,782 Transfer of cap due to servicing transfer
                                                                                                                 12/14/2012               $60,000     $258,658,782 Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012                 ($788)    $258,657,994 Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2013            ($610,000)     $258,047,994 Transfer of cap due to servicing transfer
                                                                                                                  3/25/2013               ($2,979)    $258,045,015 Updated due to quarterly assessment and reallocation
                                                     Financial
            Chase Home Finance,                      Instrument for
4/13/2009                              Purchase                            $3,552,000,000     N/A          2      7/31/2009    ($3,552,000,000)                   $0 Termination of SPA                                                   $0             $0                 $0                      $0
            LLC, Iselin, NJ                          Home Loan
                                                     Modifications
                                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                          287
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                              (CONTINUED)                                                                                                                                                                                                    288
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                             TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                       Lenders/                               Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                  Borrower’s       Investors        Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount         Adjusted Cap Reason for Adjustment                                        Incentives      Incentives       Incentives              Payments
                                                                                                                6/12/2009      ($105,620,000)      $553,380,000 Updated portfolio data from servicer
                                                                                                                9/30/2009       $102,580,000       $655,960,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009       $277,640,000       $933,600,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010           $46,860,000    $980,460,000 Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from Saxon Mortgage Services, Inc. due
                                                                                                                6/16/2010       $156,050,000      $1,136,510,000
                                                                                                                                                                    to servicing transfer
                                                                                                                7/14/2010      ($191,610,000)      $944,900,000 Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from Saxon Mortgage Services, Inc. due
                                                                                                                7/16/2010           $23,710,000    $968,610,000
                                                                                                                                                                    to servicing transfer
                                                                                                                9/15/2010             $100,000     $968,710,000 Initial FHA-HAMP cap
                                                                                                                9/30/2010            $3,742,740    $972,452,740 Updated portfolio data from servicer
                                                                                                               10/15/2010       $170,800,000      $1,143,252,740 Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011              ($1,020)   $1,143,251,720 Updated portfolio data from servicer
                                                                                                                2/16/2011             $900,000    $1,144,151,720 Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                3/30/2011              ($1,114)   $1,144,150,606 Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011             ($10,044)   $1,144,140,562 Updated due to quarterly assessment and reallocation
                                                   Financial                                                   10/14/2011            ($100,000)   $1,144,040,562 Transfer of cap due to servicing transfer
            Ocwen Financial
                                                   Instrument for
4/16/2009   Corporation, Inc.,       Purchase                              $659,000,000     N/A                 1/13/2012       $194,800,000      $1,338,840,562 Transfer of cap due to servicing transfer                   $76,102,319   $208,351,505     $136,371,142           $420,824,966
                                                   Home Loan
            West Palm Beach, FL
                                                   Modifications                                                2/16/2012             $400,000    $1,339,240,562 Transfer of cap due to servicing transfer
                                                                                                                3/15/2012             $100,000    $1,339,340,562 Transfer of cap due to servicing transfer
                                                                                                                5/16/2012       $123,530,000      $1,462,870,562 Transfer of cap due to servicing transfer
                                                                                                                6/14/2012       $354,290,000      $1,817,160,562 Transfer of cap due to servicing transfer
                                                                                                                6/28/2012              ($6,308)   $1,817,154,254 Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012           $10,080,000   $1,827,234,254 Transfer of cap due to servicing transfer
                                                                                                                8/16/2012            $8,390,000   $1,835,624,254 Transfer of cap due to servicing transfer
                                                                                                                9/27/2012             ($10,733)   $1,835,613,521 Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012           $14,560,000   $1,850,173,521 Transfer of cap due to servicing transfer
                                                                                                               11/15/2012           $13,240,000   $1,863,413,521 Transfer of cap due to servicing transfer
                                                                                                               12/14/2012            $2,080,000   $1,865,493,521 Transfer of cap due to servicing transfer
                                                                                                               12/27/2012              ($1,015)   $1,865,492,506 Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013             $410,000    $1,865,902,506 Transfer of cap due to servicing transfer
                                                                                                                2/14/2013             $960,000    $1,866,862,506 Transfer of cap due to servicing transfer
                                                                                                                3/14/2013           $83,880,000   $1,950,742,506 Transfer of cap due to servicing transfer
                                                                                                                3/25/2013              ($1,877)   $1,950,740,629 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                            Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                                TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                          Lenders/                               Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                      Borrower’s      Investors        Servicers               Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount         Adjusted Cap Reason for Adjustment                                            Incentives     Incentives       Incentives              Payments
                                                                                                                 6/12/2009            $5,540,000     $804,440,000 Updated portfolio data from servicer
                                                                                                                 9/30/2009       $162,680,000        $967,120,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009       $665,510,000      $1,632,630,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 1/26/2010       $800,390,000      $2,433,020,000 Initial 2MP cap
                                                                                                                 3/26/2010      ($829,370,000)     $1,603,650,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($366,750,000)     $1,236,900,000 Updated portfolio data from servicer
                                                                                                                 9/30/2010           $95,300,000   $1,332,200,000 Initial FHA-HAMP cap, initial FHA-2LP cap, and initial RD-HAMP
                                                                                                                 9/30/2010       $222,941,084      $1,555,141,084 Updated portfolio data from servicer
4/17/2009                                           Financial
as amended   Bank of America, N.A.,                 Instrument for                                                1/6/2011              ($2,199)   $1,555,138,885 Updated portfolio data from servicer
                                      Purchase                              $798,900,000     N/A         13                                                                                                                        $4,267,062   $17,852,012       $9,159,439            $31,278,513
on           Simi Valley, CA                        Home Loan
1/26/2010                                           Modifications                                                3/30/2011              ($2,548)   $1,555,136,337 Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011             ($23,337)   $1,555,113,000 Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2011            ($300,000)   $1,554,813,000 Transfer of cap due to servicing transfer
                                                                                                                10/14/2011      ($120,700,000)     $1,434,113,000 Transfer of cap due to servicing transfer
                                                                                                                11/16/2011            ($900,000)   $1,433,213,000 Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012            ($200,000)   $1,433,013,000 Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012             ($17,893)   $1,432,995,107 Updated due to quarterly assessment and reallocation
                                                                                                                                                                      Update of cap due to termination of SPA and merger with
                                                                                                                 8/10/2012    ($1,401,716,594)        $31,278,513
                                                                                                                                                                      BAC Home Loans, LP
                                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                         289
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                               (CONTINUED)                                                                                                                                                                                                           290
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                                    TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                              Lenders/                               Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                         Borrower’s       Investors        Servicers               Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount          Adjusted Cap Reason for Adjustment                                              Incentives      Incentives       Incentives              Payments
                                                                                                                 6/12/2009     $3,318,840,000       $5,182,840,000 Updated portfolio data from servicer
                                                                                                                 9/30/2009      ($717,420,000)      $4,465,420,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009     $2,290,780,000       $6,756,200,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 1/26/2010       $450,100,000       $7,206,300,000 Initial 2MP cap
                                                                                                                 3/26/2010       $905,010,000       $8,111,310,000 Updated portfolio data from servicer
                                                                                                                                                                       Transfer of cap from Wilshire Credit Corporation due to
                                                                                                                 4/19/2010           $10,280,000    $8,121,590,000
                                                                                                                                                                       servicing transfer
                                                                                                                                                                       Transfer of cap from Wilshire Credit Corporation due to
                                                                                                                 6/16/2010       $286,510,000       $8,408,100,000
                                                                                                                                                                       servicing transfer
                                                                                                                 7/14/2010    ($1,787,300,000)      $6,620,800,000 Updated portfolio data from servicer
                                                                                                                 9/30/2010       $105,500,000       $6,726,300,000 Initial FHA-HAMP cap, initial FHA-2LP cap, and initial RD-HAMP
                                                                                                                 9/30/2010      ($614,527,362)      $6,111,772,638 Updated portfolio data from servicer
                                                                                                                12/15/2010       $236,000,000       $6,347,772,638 Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($8,012)   $6,347,764,626 Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                 2/16/2011            $1,800,000    $6,349,564,626 Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011             $100,000     $6,349,664,626 Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011               ($9,190)   $6,349,655,436 Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011             $200,000     $6,349,855,436 Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011             $300,000     $6,350,155,436 Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011           ($1,000,000)   $6,349,155,436 Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011              ($82,347)   $6,349,073,089 Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011            ($200,000)    $6,348,873,089 Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011           ($3,400,000)   $6,345,473,089 Transfer of cap due to servicing transfer
4/17/2009    Bank of America, N.A.                  Financial
as amended   (BAC Home Loans                        Instrument for                                               9/15/2011           ($1,400,000)   $6,344,073,089 Transfer of cap due to servicing transfer
                                      Purchase                            $1,864,000,000     N/A                                                                                                                                    $222,293,647   $442,296,956     $288,542,071           $953,132,674
on           Servicing, LP),                        Home Loan
1/26/2010    Simi Valley, CA                        Modifications                                               10/14/2011       $120,600,000       $6,464,673,089 Transfer of cap due to servicing transfer
                                                                                                                                                                       Transfer of cap from Home Loan Services, Inc. and
                                                                                                                10/19/2011       $317,956,289       $6,782,629,378
                                                                                                                                                                       Wilshire Credit Corporation due to merger.
                                                                                                                11/16/2011             $800,000     $6,783,429,378 Transfer of cap due to servicing transfer
                                                                                                                12/15/2011       ($17,600,000)      $6,765,829,378 Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012           ($2,100,000)   $6,763,729,378 Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012       ($23,900,000)      $6,739,829,378 Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012       ($63,800,000)      $6,676,029,378 Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012               $20,000    $6,676,049,378 Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012           ($8,860,000)   $6,667,189,378 Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012              ($58,550)   $6,667,130,828 Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012           ($6,840,000)   $6,660,290,828 Transfer of cap due to servicing transfer
                                                                                                                 8/10/2012     $1,401,716,594       $8,062,007,423 Transfer of cap (from Bank of America, N.A.) due to merger
                                                                                                                 8/16/2012           ($4,780,000)   $8,057,227,423 Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012            ($205,946)    $8,057,021,476 Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012      ($153,220,000)      $7,903,801,476 Transfer of cap due to servicing transfer
                                                                                                                11/15/2012       ($27,300,000)      $7,876,501,476 Transfer of cap due to servicing transfer
                                                                                                                12/14/2012       ($50,350,000)      $7,826,151,476 Transfer of cap due to servicing transfer
                                                                                                                12/27/2012              ($33,515)   $7,826,117,961 Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013       ($27,000,000)      $7,799,117,961 Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013       ($41,830,000)      $7,757,287,961 Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013           ($5,900,000)   $7,751,387,961 Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013            ($122,604)    $7,751,265,357 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                 (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                          TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                   Lenders/                                Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                 Borrower’s    Investors         Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                        Incentives   Incentives        Incentives              Payments
                                                                                                                   6/12/2009       $128,300,000       $447,300,000 Updated portfolio data from servicer
                                                                                                                   9/30/2009           $46,730,000    $494,030,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                  12/30/2009       $145,820,000       $639,850,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010       ($17,440,000)      $622,410,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($73,010,000)      $549,400,000 Updated portfolio data from servicer
                                                                                                                   9/30/2010            $6,700,000    $556,100,000 Initial FHA-2LP cap

                                                      Financial                                                    9/30/2010       ($77,126,410)      $478,973,590 Updated portfolio data from servicer
            Home Loan Services, Inc.,                 Instrument for
4/20/2009                               Purchase                              $319,000,000     N/A         13     12/15/2010      ($314,900,000)      $164,073,590 Updated portfolio data from servicer                          $169,858    $2,440,768       $3,698,607              $6,309,233
            Pittsburgh, PA                            Home Loan
                                                      Modifications                                                 1/6/2011                 ($233)   $164,073,357 Updated portfolio data from servicer
                                                                                                                   2/16/2011           ($1,900,000)   $162,173,357 Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011            ($400,000)    $161,773,357 Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011                 ($278)   $161,773,079 Updated due to quarterly assessment and reallocation
                                                                                                                   5/13/2011            ($400,000)    $161,373,079 Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011               ($2,625)   $161,370,454 Updated due to quarterly assessment and reallocation
                                                                                                                  10/19/2011      ($155,061,221)        $6,309,233 Termination of SPA
                                                                                                                   6/12/2009           $87,130,000    $453,130,000 Updated portfolio data from servicer
                                                                                                                   9/30/2009      ($249,670,000)      $203,460,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                  12/30/2009       $119,700,000       $323,160,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010           $52,270,000    $375,430,000 Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap to Countrywide Home Loans due to
                                                                                                                   4/19/2010       ($10,280,000)      $365,150,000
                                                                                                                                                                      servicing transfer
                                                                                                                                                                      Transfer of cap to GMAC Mortgage, Inc. due to servicing
                                                                                                                   5/14/2010           ($1,880,000)   $363,270,000
                                                                                                                                                                      transfer

                                                      Financial                                                                                                       Transfer of cap to Countrywide Home Loans due to
            Wilshire Credit                                                                                        6/16/2010      ($286,510,000)       $76,760,000
                                                      Instrument for                                                                                                  servicing transfer
4/20/2009   Corporation,                Purchase                              $366,000,000     N/A         13                                                                                                                          $0     $490,394        $1,167,000              $1,657,394
                                                      Home Loan
            Beaverton, OR                                                                                          7/14/2010           $19,540,000     $96,300,000 Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                                      Transfer of cap to Green Tree Servicing LLC due to
                                                                                                                   7/16/2010            ($210,000)     $96,090,000
                                                                                                                                                                      servicing transfer
                                                                                                                   8/13/2010            ($100,000)     $95,990,000 Transfer of cap due to servicing transfer
                                                                                                                   9/30/2010           $68,565,782    $164,555,782 Updated portfolio data from servicer
                                                                                                                    1/6/2011                 ($247)   $164,555,535 Updated portfolio data from servicer
                                                                                                                   3/30/2011                 ($294)   $164,555,241 Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011               ($2,779)   $164,552,462 Updated due to quarterly assessment and reallocation
                                                                                                                  10/19/2011      ($162,895,068)        $1,657,394 Termination of SPA
                                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                     291
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                 (CONTINUED)                                                                                                                                                                                                 292
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                          TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                    Lenders/                               Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                Borrower’s      Investors        Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount       Adjusted Cap Reason for Adjustment                                        Incentives     Incentives       Incentives              Payments
                                                                                                                   6/17/2009       ($64,990,000)      $91,010,000 Updated portfolio data from servicer
                                                                                                                   9/30/2009       $130,780,000      $221,790,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                  12/30/2009      ($116,750,000)     $105,040,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010           $13,080,000   $118,120,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($24,220,000)      $93,900,000 Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap from Wilshire Credit Corporation due to
                                                                                                                   7/16/2010             $210,000     $94,110,000
                                                                                                                                                                     servicing transfer
                                                                                                                   8/13/2010            $2,200,000    $96,310,000 Transfer of cap due to servicing transfer
                                                                                                                   9/10/2010           $34,600,000   $130,910,000 Initial 2MP cap
                                                                                                                   9/30/2010            $5,600,000   $136,510,000 Initial FHA-2LP cap and FHA-HAMP
                                                                                                                   9/30/2010           $10,185,090   $146,695,090 Updated portfolio data from servicer
                                                                                                                  10/15/2010             $400,000    $147,095,090 Transfer of cap due to servicing transfer
                                                                                                                    1/6/2011                ($213)   $147,094,877 Updated portfolio data from servicer
                                                                                                                   3/30/2011                ($250)   $147,094,627 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                   5/13/2011            $1,200,000   $148,294,627 Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011             $100,000    $148,394,627 Transfer of cap due to servicing transfer
                                                      Financial                                                    6/29/2011              ($2,302)   $148,392,325 Updated due to quarterly assessment and reallocation
            Green Tree Servicing LLC,                 Instrument for
4/24/2009                               Purchase                              $156,000,000     N/A                                                                                                                             $1,785,302   $10,413,409       $4,231,291            $16,430,001
            Saint Paul, MN                            Home Loan                                                    7/14/2011            $1,900,000   $150,292,325 Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                   9/15/2011             $200,000    $150,492,325 Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011             $200,000    $150,692,325 Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011             $400,000    $151,092,325 Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012             $900,000    $151,992,325 Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012             $100,000    $152,092,325 Transfer of cap due to servicing transfer
                                                                                                                   5/16/2012            $3,260,000   $155,352,325 Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012             $920,000    $156,272,325 Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012              ($1,622)   $156,270,703 Updated due to quarterly assessment and reallocation
                                                                                                                   7/16/2012             $110,000    $156,380,703 Transfer of cap due to servicing transfer
                                                                                                                   8/16/2012            $5,120,000   $161,500,703 Transfer of cap due to servicing transfer
                                                                                                                   9/27/2012              ($4,509)   $161,496,194 Updated due to quarterly assessment and reallocation
                                                                                                                  10/16/2012            $8,810,000   $170,306,194 Transfer of cap due to servicing transfer
                                                                                                                  11/15/2012            $2,910,000   $173,216,194 Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012                ($802)   $173,215,392 Updated due to quarterly assessment and reallocation
                                                                                                                   2/14/2013           $10,210,000   $183,425,392 Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013              ($3,023)   $183,422,369 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                            Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                       TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                 Lenders/                               Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                             Borrower’s      Investors        Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount       Adjusted Cap Reason for Adjustment                                     Incentives     Incentives       Incentives              Payments
                                                                                                                6/17/2009       ($63,980,000)     $131,020,000 Updated portfolio data from servicer
                                                                                                                9/30/2009           $90,990,000   $222,010,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009           $57,980,000   $279,990,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010           $74,520,000   $354,510,000 Updated portfolio data from servicer
                                                                                                                7/14/2010       ($75,610,000)     $278,900,000 Updated portfolio data from servicer
                                                                                                                8/13/2010            $1,100,000   $280,000,000 Transfer of cap due to servicing transfer
                                                                                                                9/30/2010            $3,763,685   $283,763,685 Updated portfolio data from servicer
                                                                                                               12/15/2010             $300,000    $284,063,685 Updated portfolio data from servicer
                                                                                                                 1/6/2011                ($325)   $284,063,360 Updated portfolio data from servicer
                                                                                                                1/13/2011            $2,400,000   $286,463,360 Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                ($384)   $286,462,976 Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($3,592)   $286,459,384 Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2011            $1,800,000   $288,259,384 Transfer of cap due to servicing transfer
                                                                                                                9/15/2011             $100,000    $288,359,384 Transfer of cap due to servicing transfer

                                                   Financial                                                   11/16/2011            $1,000,000   $289,359,384 Transfer of cap due to servicing transfer
            Carrington Mortgage
                                                   Instrument for
4/27/2009   Services, LLC,           Purchase                              $195,000,000     N/A                 2/16/2012            $1,100,000   $290,459,384 Transfer of cap due to servicing transfer                 $7,006,775   $19,699,823      $14,250,076            $40,956,674
                                                   Home Loan
            Santa Ana, CA
                                                   Modifications                                                4/16/2012             $100,000    $290,559,384 Transfer of cap due to servicing transfer
                                                                                                                5/16/2012             $850,000    $291,409,384 Transfer of cap due to servicing transfer
                                                                                                                6/14/2012            $2,240,000   $293,649,384 Transfer of cap due to servicing transfer
                                                                                                                6/28/2012              ($2,520)   $293,646,864 Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012            $1,690,000   $295,336,864 Transfer of cap due to servicing transfer
                                                                                                                8/16/2012             ($30,000)   $295,306,864 Transfer of cap due to servicing transfer
                                                                                                                9/27/2012              ($6,632)   $295,300,232 Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012            $2,880,000   $298,180,232 Transfer of cap due to servicing transfer
                                                                                                               11/15/2012            $1,500,000   $299,680,232 Transfer of cap due to servicing transfer
                                                                                                               12/14/2012            $2,040,000   $301,720,232 Transfer of cap due to servicing transfer
                                                                                                               12/27/2012              ($1,103)   $301,719,129 Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013             ($10,000)   $301,709,129 Transfer of cap due to servicing transfer
                                                                                                                2/14/2013            $4,960,000   $306,669,129 Transfer of cap due to servicing transfer
                                                                                                                3/14/2013             ($30,000)   $306,639,129 Transfer of cap due to servicing transfer
                                                                                                                3/25/2013              ($4,179)   $306,634,950 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                               293
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                             (CONTINUED)                                                                                                                                                                                                294
           Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                         TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                   Lenders/                               Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                               Borrower’s      Investors        Servicers               Incentive
Date       Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                      Incentives     Incentives       Incentives              Payments
                                                                                                               6/17/2009      ($338,450,000)      $459,550,000 Updated portfolio data from servicer
                                                                                                               9/30/2009       ($11,860,000)      $447,690,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009           $21,330,000    $469,020,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010            $9,150,000    $478,170,000 Updated portfolio data from servicer
                                                                                                               7/14/2010       ($76,870,000)      $401,300,000 Updated portfolio data from servicer
                                                                                                                9/1/2010             $400,000     $401,700,000 Initial FHA-HAMP cap
                                                                                                               9/30/2010           ($8,454,269)   $393,245,731 Updated portfolio data from servicer
                                                                                                                1/6/2011                 ($342)   $393,245,389 Updated portfolio data from servicer
                                                                                                               3/30/2011                 ($374)   $393,245,015 Updated due to quarterly assessment and reallocation

                                                  Financial                                                    5/13/2011           $18,000,000    $411,245,015 Transfer of cap due to servicing transfer
           Aurora Loan Services,                  Instrument for
5/1/2009                            Purchase                              $798,000,000     N/A                 6/29/2011               ($3,273)   $411,241,742 Updated due to quarterly assessment and reallocation      $15,997,418   $41,236,850      $28,629,251            $85,863,519
           LLC, Littleton, CO                     Home Loan
                                                  Modifications                                               10/14/2011            ($200,000)    $411,041,742 Transfer of cap due to servicing transfer
                                                                                                               3/15/2012             $100,000     $411,141,742 Transfer of cap due to servicing transfer
                                                                                                               4/16/2012            ($500,000)    $410,641,742 Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                               6/28/2012               ($1,768)   $410,639,974 Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012              ($90,000)   $410,549,974 Transfer of cap due to servicing transfer
                                                                                                               8/16/2012      ($134,230,000)      $276,319,974 Transfer of cap due to servicing transfer
                                                                                                               8/23/2012      ($166,976,849)      $109,343,125 Transfer of cap due to servicing transfer
                                                                                                               9/27/2012                    $1    $109,343,126 Updated due to quarterly assessment and reallocation
                                                                                                              11/15/2012            ($230,000)    $109,113,126 Transfer of cap due to servicing transfer
                                                                                                               3/25/2013                    $1    $109,113,125 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                                TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                          Lenders/                               Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                      Borrower’s      Investors        Servicers               Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                             Incentives     Incentives       Incentives              Payments
                                                                                                                  6/12/2009           $16,140,000    $117,140,000 Updated portfolio data from servicer
                                                                                                                  9/30/2009       $134,560,000       $251,700,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009           $80,250,000    $331,950,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010           $67,250,000    $399,200,000 Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($85,900,000)      $313,300,000 Updated portfolio data from servicer
                                                                                                                  8/13/2010             $100,000     $313,400,000 Transfer of cap due to servicing transfer
                                                                                                                                                                     Initial FHA-HAMP cap, initial FHA-2LP cap, initial RD-HAMP,
                                                                                                                  9/30/2010            $2,900,000    $316,300,000
                                                                                                                                                                     and initial 2MP cap
                                                                                                                  9/30/2010           $33,801,486    $350,101,486 Updated portfolio data from servicer
                                                                                                                 11/16/2010             $700,000     $350,801,486 Transfer of cap due to servicing transfer
                                                                                                                 12/15/2010            $1,700,000    $352,501,486 Updated portfolio data from servicer
                                                                                                                   1/6/2011                 ($363)   $352,501,123 Updated portfolio data from servicer
                                                                                                                  2/16/2011             $900,000     $353,401,123 Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011           $29,800,000    $383,201,123 Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011                 ($428)   $383,200,695 Updated due to quarterly assessment and reallocation
                                                     Financial                                                    5/26/2011           $20,077,503    $403,278,198 Transfer of cap due to servicing transfer
            Nationstar Mortgage LLC,                 Instrument for
5/28/2009                              Purchase                              $101,000,000     N/A                                                                                                                                  $26,435,322   $49,858,780      $37,428,873           $113,722,975
            Lewisville, TX                           Home Loan                                                    6/29/2011               ($4,248)   $403,273,950 Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                 11/16/2011             $100,000     $403,373,950 Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012            ($100,000)    $403,273,950 Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012               $90,000    $403,363,950 Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012           ($2,380,000)   $400,983,950 Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012               ($2,957)   $400,980,993 Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2012           ($2,580,000)   $398,400,993 Transfer of cap due to servicing transfer
                                                                                                                  8/16/2012       $131,450,000       $529,850,993 Transfer of cap due to servicing transfer
                                                                                                                  8/23/2012       $166,976,849       $696,827,842 Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012              ($12,806)   $696,815,036 Updated due to quarterly assessment and reallocation
                                                                                                                 11/15/2012             $160,000     $696,975,036 Transfer of cap due to servicing transfer
                                                                                                                 12/14/2012               $50,000    $697,025,036 Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012               ($1,882)   $697,023,154 Updated due to quarterly assessment and reallocation
                                                                                                                  2/14/2013              ($10,000)   $697,013,154 Transfer of cap due to servicing transfer
                                                                                                                  3/14/2013            ($280,000)    $696,733,154 Transfer of cap due to servicing transfer
                                                                                                                  3/25/2013               ($6,437)   $696,726,717 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                          295
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                (CONTINUED)                                                                                                                                                                                                296
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                  Lenders/                                Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                Borrower’s    Investors         Servicers               Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                       Incentives   Incentives        Incentives              Payments
                                                                                                                  9/30/2009           ($1,860,000)    $17,540,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009           $27,920,000     $45,460,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010           ($1,390,000)    $44,070,000 Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($13,870,000)       $30,200,000 Updated portfolio data from servicer
                                                                                                                                                                     Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                  9/30/2010             $400,000      $30,600,000
                                                                                                                                                                     2MP cap
                                                                                                                  9/30/2010             $586,954      $31,186,954 Updated portfolio data from servicer
                                                                                                                   1/6/2011                  ($34)    $31,186,920 Updated portfolio data from servicer
                                                                                                                  3/30/2011                  ($37)    $31,186,883 Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011             $100,000      $31,286,883 Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011                 ($329)    $31,286,554 Updated due to quarterly assessment and reallocation
                                                     Financial                                                    9/15/2011           ($1,900,000)    $29,386,554 Transfer of cap due to servicing transfer
            Residential Credit                       Instrument for
6/12/2009                              Purchase                               $19,400,000     N/A                                                                                                                             $1,126,220   $3,052,856       $2,001,805              $6,180,881
            Solutions, Fort Worth,TX                 Home Loan                                                   11/16/2011            $2,800,000     $32,186,554 Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                  5/16/2012             $420,000      $32,606,554 Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                  6/14/2012            $8,060,000     $40,666,554 Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012                 ($313)    $40,666,241 Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2012            $2,160,000     $42,826,241 Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012                 ($911)    $42,825,330 Updated due to quarterly assessment and reallocation
                                                                                                                 10/16/2012            $5,690,000     $48,515,330 Transfer of cap due to servicing transfer
                                                                                                                 11/15/2012               $20,000     $48,535,330 Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012                 ($178)    $48,535,152 Updated due to quarterly assessment and reallocation
                                                                                                                  2/14/2013            $3,190,000     $51,725,152 Transfer of cap due to servicing transfer
                                                                                                                  3/14/2013            ($260,000)     $51,465,152 Transfer of cap due to servicing transfer
                                                                                                                  3/25/2013                 ($713)    $51,464,439 Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2009           $13,070,000     $29,590,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009       $145,510,000       $175,100,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010      ($116,950,000)       $58,150,000 Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($23,350,000)       $34,800,000 Updated portfolio data from servicer
                                                                                                                  9/30/2010            $7,846,346     $42,646,346 Updated portfolio data from servicer
                                                     Financial
            CCO Mortgage,                            Instrument for                                                1/6/2011                  ($46)    $42,646,300 Updated portfolio data from servicer
6/17/2009                              Purchase                               $16,520,000     N/A                                                                                                                             $1,554,834   $3,833,835       $2,919,274              $8,307,943
            Glen Allen, VA                           Home Loan                                                    3/30/2011                  ($55)    $42,646,245 Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  6/29/2011                 ($452)    $42,645,793 Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                 ($309)    $42,645,484 Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                 ($807)    $42,644,677 Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                 ($131)    $42,644,546 Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                 ($475)    $42,644,071 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                     TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                               Lenders/                                Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                             Borrower’s    Investors        Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                    Incentives   Incentives       Incentives               Payments
                                                                                                                  9/30/2009       ($11,300,000)      $45,700,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009       ($42,210,000)       $3,490,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010           $65,640,000    $69,130,000 Updated portfolio data from servicer
                                                                                                                   4/9/2010       ($14,470,000)      $54,660,000 Updated portfolio data from servicer
                                                                                                                  7/14/2010           ($8,860,000)   $45,800,000 Updated portfolio data from servicer
                                                                                                                  9/30/2010           ($4,459,154)   $41,340,846 Updated portfolio data from servicer
                                                     Financial
            RG Mortgage Corporation,                 Instrument for                                              12/15/2010           ($4,300,000)   $37,040,846 Updated portfolio data from servicer
6/17/2009                              Purchase                               $57,000,000     N/A                                                                                                                           $164,853    $227,582          $401,334                $793,769
            San Juan, PR                             Home Loan                                                     1/6/2011                  ($51)   $37,040,795 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                  3/30/2011                  ($65)   $37,040,730 Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                 ($616)   $37,040,114 Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                 ($462)   $37,039,652 Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012               ($1,270)   $37,038,382 Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                 ($214)   $37,038,168 Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                 ($812)   $37,037,356 Updated due to quarterly assessment and reallocation

                                                     Financial                                                   12/30/2009            $2,020,000     $2,790,000 Updated portfolio data from servicer & HAFA initial cap
            First Federal
                                                     Instrument for
6/19/2009   Savings and Loan,          Purchase                                  $770,000     N/A                 3/26/2010           $11,370,000    $14,160,000 Updated portfolio data from servicer                             $0           $0                 $0                      $0
                                                     Home Loan
            Port Angeles, WA
                                                     Modifications                                                5/26/2010       ($14,160,000)                $0 Termination of SPA
                                                                                                                  9/30/2009             $330,000        $870,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009           $16,490,000    $17,360,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010       ($14,260,000)       $3,100,000 Updated portfolio data from servicer
                                                                                                                  7/14/2010           ($1,800,000)    $1,300,000 Updated portfolio data from servicer
                                                                                                                  7/30/2010            $1,500,000     $2,800,000 Updated portfolio data from servicer
                                                     Financial
            Wescom Central Credit                    Instrument for                                               9/30/2010            $1,551,668     $4,351,668 Updated portfolio data from servicer
6/19/2009                              Purchase                                  $540,000     N/A         9,12                                                                                                              $171,189    $557,402          $294,225               $1,022,816
            Union, Anaheim, CA                       Home Loan                                                     1/6/2011                   ($2)    $4,351,666 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                  3/30/2011                   ($2)    $4,351,664 Updated due to quarterly assessment and reallocation
                                                                                                                  5/13/2011           ($1,800,000)    $2,551,664 Transfer of cap due to servicing transfer
                                                                                                                   6/3/2011           ($1,872,787)      $678,877 Termination of SPA
                                                                                                                  6/14/2012             $990,000      $1,668,877 Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012             $372,177      $2,041,054 Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2009              ($10,000)       $20,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009             $590,000        $610,000 Updated portfolio data from servicer & HAFA initial cap
                                                     Financial
            Citizens First Wholesale                                                                              3/26/2010            ($580,000)        $30,000 Updated portfolio data from servicer
                                                     Instrument for
6/26/2009   Mortgage Company,          Purchase                                    $30,000    N/A                                                                                                                                 $0           $0                 $0                      $0
                                                     Home Loan                                                    7/14/2010               $70,000       $100,000 Updated portfolio data from servicer
            The Villages, FL
                                                     Modifications
                                                                                                                  9/30/2010               $45,056       $145,056 Updated portfolio data from servicer
                                                                                                                  2/17/2011            ($145,056)              $0 Termination of SPA
                                                                                                                 12/30/2009            $2,180,000     $2,250,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010            ($720,000)     $1,530,000 Updated portfolio data from servicer
                                                                                                                  7/14/2010            ($430,000)     $1,100,000 Updated portfolio data from servicer
                                                                                                                  9/30/2010               $60,445     $1,160,445 Updated portfolio data from servicer

                                                     Financial                                                     1/6/2011                    $1     $1,160,444 Updated portfolio data from servicer
            Technology Credit Union,                 Instrument for
6/26/2009                              Purchase                                    $70,000    N/A                 3/30/2011                    $1     $1,160,443 Updated due to quarterly assessment and reallocation        $38,250    $139,665           $59,617                $237,532
            San Jose, CA                             Home Loan
                                                     Modifications                                                6/29/2011                  ($12)    $1,160,431 Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                   ($9)    $1,160,422 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                                                                                                                  9/27/2012                  ($23)    $1,160,399 Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                   ($4)    $1,160,395 Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                  ($13)    $1,160,382 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                297
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                               (CONTINUED)                                                                                                                                                                                                  298
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                    Lenders/                                Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                  Borrower’s    Investors         Servicers               Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount          Adjusted Cap Reason for Adjustment                                       Incentives   Incentives        Incentives              Payments
                                                                                                                 9/30/2009       $315,170,000        $610,150,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009           $90,280,000     $700,430,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010       ($18,690,000)       $681,740,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($272,640,000)       $409,100,000 Updated portfolio data from servicer
                                                                                                                                                                      Initial FHA-HAMP cap, Initial FHA-2LP cap, and initial
                                                                                                                 9/30/2010           $80,600,000     $489,700,000
                                                                                                                                                                      2MP cap
                                                                                                                 9/30/2010           $71,230,004     $560,930,004 Updated portfolio data from servicer
                                                                                                                  1/6/2011                 ($828)    $560,929,176 Updated portfolio data from servicer
                                                                                                                 2/16/2011             $200,000      $561,129,176 Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011            ($100,000)     $561,029,176 Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011                 ($981)    $561,028,195 Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011           ($2,300,000)    $558,728,195 Transfer of cap due to servicing transfer
                                                    Financial
            National City Bank,                     Instrument for                                               5/13/2011            ($200,000)     $558,528,195 Transfer of cap due to servicing transfer
6/26/2009                             Purchase                              $294,980,000     N/A                                                                                                                               $2,026,152   $6,755,791       $3,989,686            $12,771,628
            Miamisburg, OH                          Home Loan
                                                    Modifications                                                6/16/2011            ($200,000)     $558,328,195 Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                 6/29/2011               ($9,197)    $558,318,998 Updated due to quarterly assessment and reallocation
                                                                                                                10/14/2011             $300,000      $558,618,998 Transfer of cap due to servicing transfer
                                                                                                                11/16/2011            ($300,000)     $558,318,998 Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012             $200,000      $558,518,998 Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012            ($100,000)     $558,418,998 Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012             $200,000      $558,618,998 Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012              ($10,000)    $558,608,998 Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012               ($6,771)    $558,602,227 Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012              ($18,467)    $558,583,760 Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012               ($3,105)    $558,580,655 Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013              ($11,713)    $558,568,942 Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2009       $723,880,000       $1,357,890,000 Updated portfolio data from servicer & HPDP initial cap
                                                    Financial
            Wachovia Mortgage, FSB,                 Instrument for                                              12/30/2009       $692,640,000       $2,050,530,000 Updated portfolio data from servicer & HAFA initial cap
7/1/2009                              Purchase                              $634,010,000     N/A          3                                                                                                                           $0      $76,890          $162,000               $238,890
            Des Moines, IA                          Home Loan                                                    2/17/2010    ($2,050,236,344)            $293,656 Transfer of cap (to Wells Fargo Bank) due to merger
                                                    Modifications
                                                                                                                 3/12/2010              ($54,767)         $238,890 Transfer of cap (to Wells Fargo Bank) due to merger
                                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                               (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                       TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                 Lenders/                               Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                             Borrower’s      Investors        Servicers               Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount       Adjusted Cap Reason for Adjustment                                     Incentives     Incentives       Incentives              Payments
                                                                                                                 9/30/2009           $23,850,000    $68,110,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009           $43,590,000   $111,700,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010           $34,540,000   $146,240,000 Updated portfolio data from servicer
                                                                                                                  5/7/2010            $1,010,000   $147,250,000 Initial 2MP cap
                                                                                                                 7/14/2010       ($34,250,000)     $113,000,000 Updated portfolio data from servicer
                                                                                                                 9/30/2010             $600,000    $113,600,000 Initial FHA-2LP cap
                                                                                                                 9/30/2010       ($15,252,303)      $98,347,697 Updated portfolio data from servicer
                                                                                                                  1/6/2011                 ($70)    $98,347,627 Updated portfolio data from servicer
                                                                                                                 3/30/2011                 ($86)    $98,347,541 Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011             $400,000     $98,747,541 Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011             $100,000     $98,847,541 Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011                ($771)    $98,846,770 Updated due to quarterly assessment and reallocation
                                                                                                                 9/15/2011             $600,000     $99,446,770 Transfer of cap due to servicing transfer
                                                                                                                10/14/2011       ($18,900,000)      $80,546,770 Transfer of cap due to servicing transfer

                                                    Financial                                                    1/13/2012             $900,000     $81,446,770 Transfer of cap due to servicing transfer
            Bayview Loan Servicing,                 Instrument for
7/1/2009                              Purchase                               $44,260,000     N/A                 2/16/2012            $2,400,000    $83,846,770 Transfer of cap due to servicing transfer                 $5,830,479   $10,382,831       $8,844,249            $25,057,559
            LLC, Coral Gables, FL                   Home Loan
                                                    Modifications                                                3/15/2012            ($100,000)    $83,746,770 Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012             $200,000     $83,946,770 Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012              $30,000     $83,976,770 Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012            $1,810,000    $85,786,770 Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012                ($508)    $85,786,262 Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012            $2,660,000    $88,446,262 Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012              ($1,249)    $88,445,013 Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012             $160,000     $88,605,013 Transfer of cap due to servicing transfer
                                                                                                                11/15/2012            $6,970,000    $95,575,013 Transfer of cap due to servicing transfer
                                                                                                                12/14/2012           $13,590,000   $109,165,013 Transfer of cap due to servicing transfer
                                                                                                                12/27/2012                ($298)   $109,164,715 Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013              $90,000    $109,254,715 Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013            $3,250,000   $112,504,715 Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013             $830,000    $113,334,715 Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013              ($1,023)   $113,333,692 Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2009             $150,000        $250,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009             $130,000        $380,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010              $50,000        $430,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010             ($30,000)       $400,000 Updated portfolio data from servicer
                                                    Financial
            Lake National Bank,                     Instrument for                                               9/30/2010              $35,167        $435,167 Updated portfolio data from servicer
7/10/2009                             Purchase                                  $100,000     N/A         12                                                                                                                  $3,000         $3,651           $4,000                 $10,651
            Mentor, OH                              Home Loan                                                     1/6/2011                   $1        $435,166 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                 3/30/2011                   $1        $435,165 Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011                  ($6)       $435,159 Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                  ($4)       $435,155 Updated due to quarterly assessment and reallocation
                                                                                                                 8/23/2012            ($424,504)        $10,651 Termination of SPA
                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                299
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                (CONTINUED)                                                                                                                                                                                                    300
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                            TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                     Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                   Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                          Incentives   Incentives        Incentives               Payments
                                                                                                                  9/30/2009              ($10,000)      $860,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009             $250,000      $1,110,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010              ($10,000)    $1,100,000 Updated portfolio data from servicer
                                                                                                                  7/14/2010            ($400,000)       $700,000 Updated portfolio data from servicer
                                                     Financial
            IBM Southeast Employees’                                                                              9/30/2010             $170,334        $870,334 Updated portfolio data from servicer
                                                     Instrument for
7/10/2009   Federal Credit Union,      Purchase                                  $870,000     N/A         12                                                                                                                        $9,000      $23,589           $16,000                  $48,589
                                                     Home Loan                                                     1/6/2011                    $1       $870,333 Updated portfolio data from servicer
            Delray Beach, FL
                                                     Modifications
                                                                                                                  3/30/2011                    $1       $870,332 Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                  ($12)      $870,320 Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                   ($9)      $870,311 Updated due to quarterly assessment and reallocation
                                                                                                                  9/14/2012            ($821,722)        $48,589 Termination of SPA
                                                                                                                  9/30/2009           $18,530,000    $42,010,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009           $24,510,000    $66,520,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010           $18,360,000    $84,880,000 Updated portfolio data from servicer

                                                     Financial                                                    7/14/2010       ($22,580,000)      $62,300,000 Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




            MorEquity, Inc.,                         Instrument for
7/17/2009                              Purchase                               $23,480,000     N/A         11      9/30/2010           ($8,194,261)   $54,105,739 Updated portfolio data from servicer                             $345,841    $2,305,003       $1,977,321               $4,628,165
            Evansville, IN                           Home Loan
                                                     Modifications                                                 1/6/2011                  ($37)   $54,105,702 Updated portfolio data from servicer
                                                                                                                  3/16/2011       ($29,400,000)      $24,705,702 Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011                  ($34)   $24,705,668 Updated due to quarterly assessment and reallocation
                                                                                                                  5/26/2011       ($20,077,503)       $4,628,165 Termination of SPA (remaining cap equals distribution amount)
                                                                                                                  9/30/2009       ($36,240,000)      $18,230,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009           $19,280,000    $37,510,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010            $2,470,000    $39,980,000 Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($17,180,000)      $22,800,000 Updated portfolio data from servicer
                                                                                                                  9/30/2010           $35,500,000    $58,300,000 Initial FHA-2LP cap and initial 2MP cap
                                                                                                                  9/30/2010           $23,076,191    $81,376,191 Updated portfolio data from servicer

                                                     Financial                                                     1/6/2011                 ($123)   $81,376,068 Updated portfolio data from servicer
            PNC Bank, National
                                                     Instrument for
7/17/2009   Association,               Purchase                               $54,470,000     N/A                 3/30/2011                 ($147)   $81,375,921 Updated due to quarterly assessment and reallocation              $72,167     $533,079          $345,750                $950,996
                                                     Home Loan
            Pittsburgh, PA
                                                     Modifications                                                5/13/2011            ($100,000)    $81,275,921 Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011               ($1,382)   $81,274,539 Updated due to quarterly assessment and reallocation
                                                                                                                 10/14/2011            ($300,000)    $80,974,539 Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012               ($1,003)   $80,973,536 Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012               ($2,745)   $80,970,791 Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                 ($460)   $80,970,331 Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013               ($1,740)   $80,968,591 Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2009              ($90,000)       $80,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009               $50,000       $130,000 Updated portfolio data from servicer & HAFA initial cap
                                                     Financial
            Farmers State Bank,                      Instrument for                                               3/26/2010             $100,000        $230,000 Updated portfolio data from servicer
7/17/2009                              Purchase                                  $170,000     N/A                                                                                                                                       $0           $0                  $0                      $0
            West Salem, OH                           Home Loan                                                    7/14/2010            ($130,000)       $100,000 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                  9/30/2010               $45,056       $145,056 Updated portfolio data from servicer
                                                                                                                  5/20/2011            ($145,056)              $0 Termination of SPA
                                                                                                                                                                                                                                                                              Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                 (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                            TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                      Lenders/                               Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                 Borrower’s       Investors        Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount          Adjusted Cap Reason for Adjustment                                      Incentives      Incentives       Incentives              Payments
                                                                                                                   9/30/2009             $890,000         $2,300,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                  12/30/2009            $1,260,000        $3,560,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010              ($20,000)       $3,540,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010            ($240,000)        $3,300,000 Updated portfolio data from servicer
                                                                                                                   9/30/2010             $471,446         $3,771,446 Updated portfolio data from servicer

                                                      Financial                                                     1/6/2011                   ($3)       $3,771,443 Updated portfolio data from servicer
            ShoreBank,                                Instrument for
7/17/2009                               Purchase                                 $1,410,000    N/A                 3/30/2011                   ($4)       $3,771,439 Updated due to quarterly assessment and reallocation         $49,915       $153,906          $143,165               $346,986
            Chicago, IL                               Home Loan
                                                      Modifications                                                4/13/2011           ($1,100,000)       $2,671,439 Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011                  ($38)       $2,671,401 Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012                  ($29)       $2,671,372 Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                  ($79)       $2,671,293 Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                  ($13)       $2,671,280 Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($50)       $2,671,230 Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2009       ($53,670,000)      $1,218,820,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                  12/30/2009       $250,450,000       $1,469,270,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010       $124,820,000       $1,594,090,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($289,990,000)      $1,304,100,000 Updated portfolio data from servicer
                                                                                                                   9/30/2010            $1,690,508    $1,305,790,508 Updated portfolio data from servicer
                                                                                                                  10/15/2010             $300,000     $1,306,090,508 Transfer of cap due to servicing transfer
                                                                                                                  11/16/2010            ($100,000)    $1,305,990,508 Transfer of cap due to servicing transfer
                                                                                                                    1/6/2011               ($1,173)   $1,305,989,335 Updated portfolio data from servicer
                                                                                                                   2/16/2011            ($500,000)    $1,305,489,335 Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011               ($1,400)   $1,305,487,935 Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011            $3,100,000    $1,308,587,935 Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011              ($12,883)   $1,308,575,052 Updated due to quarterly assessment and reallocation
                                                                                                                   9/15/2011           ($1,000,000)   $1,307,575,052 Transfer of cap due to servicing transfer
            Homeward Residential,                     Financial
            Inc. (American Home                       Instrument for                                              10/14/2011            ($100,000)    $1,307,475,052 Transfer of cap due to servicing transfer
7/22/2009                               Purchase                            $1,272,490,000     N/A                                                                                                                             $51,738,130   $133,594,150      $94,813,422           $280,145,701
            Mortgage Servicing, Inc),                 Home Loan                                                   11/16/2011           ($1,100,000)   $1,306,375,052 Transfer of cap due to servicing transfer
            Coppell, TX                               Modifications
                                                                                                                   5/16/2012              ($10,000)   $1,306,365,052 Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012               ($8,378)   $1,306,356,674 Updated due to quarterly assessment and reallocation
                                                                                                                   7/16/2012            ($470,000)    $1,305,886,674 Transfer of cap due to servicing transfer
                                                                                                                   8/16/2012              ($80,000)   $1,305,806,674 Transfer of cap due to servicing transfer
                                                                                                                   9/27/2012              ($22,494)   $1,305,784,180 Updated due to quarterly assessment and reallocation
                                                                                                                  10/16/2012            ($260,000)    $1,305,524,180 Transfer of cap due to servicing transfer
                                                                                                                  11/15/2012              ($30,000)   $1,305,494,180 Transfer of cap due to servicing transfer
                                                                                                                  12/14/2012              ($50,000)   $1,305,444,180 Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012               ($3,676)   $1,305,440,504 Updated due to quarterly assessment and reallocation
                                                                                                                   1/16/2013              ($80,000)   $1,305,360,504 Transfer of cap due to servicing transfer
                                                                                                                   2/14/2013               $20,000    $1,305,380,504 Transfer of cap due to servicing transfer
                                                                                                                   3/14/2013       ($84,160,000)      $1,221,220,504 Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013              ($12,821)   $1,221,207,683 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                       301
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                              (CONTINUED)                                                                                                                                                                                             302
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                      TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                                Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                             Borrower’s    Investors         Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                    Incentives   Incentives        Incentives              Payments
                                                                                                                9/30/2009            $1,780,000     $5,990,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009            $2,840,000     $8,830,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010            $2,800,000    $11,630,000 Updated portfolio data from servicer
                                                                                                                7/14/2010           ($5,730,000)    $5,900,000 Updated portfolio data from servicer
                                                                                                                9/30/2010            $2,658,280     $8,558,280 Updated portfolio data from servicer
                                                   Financial
            Mortgage Center, LLC,                  Instrument for                                                1/6/2011                  ($12)    $8,558,268 Updated portfolio data from servicer
7/22/2009                            Purchase                                 $4,210,000    N/A                                                                                                                           $110,722     $198,673          $230,428               $539,822
            Southfield, MI                         Home Loan                                                    3/30/2011                  ($14)    $8,558,254 Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                6/29/2011                 ($129)    $8,558,125 Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                  ($94)    $8,558,031 Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                 ($256)    $8,557,775 Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                  ($43)    $8,557,732 Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                 ($162)    $8,557,570 Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2009            ($490,000)       $370,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009            $6,750,000     $7,120,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                3/26/2010           ($6,340,000)      $780,000 Updated portfolio data from servicer
                                                                                                                7/14/2010            ($180,000)       $600,000 Updated portfolio data from servicer
                                                   Financial
            Mission Federal Credit                 Instrument for                                               9/30/2010             $125,278        $725,278 Updated portfolio data from servicer
7/22/2009                            Purchase                                  $860,000     N/A                                                                                                                            $47,922     $130,912           $86,672               $265,505
            Union, San Diego, CA                   Home Loan                                                    3/30/2011                    $1       $725,277 Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                6/29/2011                   ($4)      $725,273 Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                    $1       $725,272 Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                    $1       $725,271 Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013               $47,663       $772,934 Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2009           ($1,530,000)    $4,930,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009             $680,000      $5,610,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010            $2,460,000     $8,070,000 Updated portfolio data from servicer
                                                                                                                7/14/2010           ($2,470,000)    $5,600,000 Updated portfolio data from servicer
                                                                                                                9/30/2010            $2,523,114     $8,123,114 Updated portfolio data from servicer
                                                   Financial
            First Bank,                            Instrument for                                                1/6/2011                   ($2)    $8,123,112 Updated portfolio data from servicer
7/29/2009                            Purchase                                 $6,460,000    N/A                                                                                                                           $683,871    $1,561,100       $1,202,698              $3,447,668
            St. Louis, MO                          Home Loan                                                    3/30/2011                   ($2)    $8,123,110 Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                6/29/2011                  ($15)    $8,123,095 Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                   ($3)    $8,123,092 Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                   ($5)    $8,123,087 Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                    $1     $8,123,086 Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                   ($5)    $8,123,081 Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2009              ($60,000)    $1,030,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009            $1,260,000     $2,290,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010            $2,070,000     $4,360,000 Updated portfolio data from servicer
                                                                                                                7/14/2010           ($3,960,000)      $400,000 Updated portfolio data from servicer
                                                                                                                9/30/2010             $180,222        $580,222 Updated portfolio data from servicer
                                                   Financial
            Purdue Employees                                                                                     1/6/2011                    $1       $580,221 Updated portfolio data from servicer
                                                   Instrument for
7/29/2009   Federal Credit Union,    Purchase                                 $1,090,000    N/A                                                                                                                             $1,000       $1,325            $2,000                  $4,325
                                                   Home Loan                                                    3/30/2011                    $1       $580,220 Updated due to quarterly assessment and reallocation
            West Lafayette, IN
                                                   Modifications
                                                                                                                6/29/2011                   ($8)      $580,212 Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                   ($6)      $580,206 Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                  ($17)      $580,189 Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($3)      $580,186 Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                  ($11)      $580,175 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                               (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                                    TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                              Lenders/                                Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                         Borrower’s       Investors        Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount          Adjusted Cap Reason for Adjustment                                              Incentives      Incentives       Incentives               Payments
                                                                                                                 9/30/2009       ($37,700,000)         $47,320,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009           $26,160,000       $73,480,000 Updated portfolio data from servicer & HAFA initial cap
                                                    Financial
            Wachovia Bank, N.A.,                    Instrument for                                               3/26/2010            $9,820,000       $83,300,000 Updated portfolio data from servicer
7/29/2009                             Purchase                               $85,020,000     N/A                                                                                                                                             $0              $0                 $0                      $0
            Charlotte, NC                           Home Loan                                                    7/14/2010       ($46,200,000)         $37,100,000 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                 9/30/2010       ($28,686,775)          $8,413,225 Updated portfolio data from servicer
                                                                                                                 12/3/2010           ($8,413,225)                 $0 Termination of SPA
                                                                                                                 9/30/2009       ($14,850,000)      $2,684,870,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009     $1,178,180,000       $3,863,050,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010     $1,006,580,000       $4,869,630,000 Updated portfolio data from servicer & 2MP initial cap
                                                                                                                 7/14/2010    ($1,934,230,000)      $2,935,400,000 Updated portfolio data from servicer
                                                                                                                 9/30/2010           $72,400,000    $3,007,800,000 Initial FHA-HAMP cap, Initial FHA-2LP cap, and initial RD-HAMP
                                                                                                                 9/30/2010       $215,625,536       $3,223,425,536 Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($3,636)   $3,223,421,900 Updated portfolio data from servicer
                                                                                                                 3/16/2011            ($100,000)    $3,223,321,900 Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011               ($3,999)   $3,223,317,901 Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011            ($200,000)    $3,223,117,901 Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011       $122,700,000       $3,345,817,901 Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011              ($34,606)   $3,345,783,295 Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011             $600,000     $3,346,383,295 Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011            ($400,000)    $3,345,983,295 Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011            ($100,000)    $3,345,883,295 Transfer of cap due to servicing transfer
                                                                                                                10/14/2011             $200,000     $3,346,083,295 Transfer of cap due to servicing transfer
                                                    Financial
            J.P. Morgan Chase Bank,                 Instrument for                                              10/19/2011       $519,211,309       $3,865,294,604 Transfer of cap due to servicing transfer
7/31/2009                             Purchase                            $2,699,720,000     N/A                                                                                                                                    $215,198,635   $461,105,563     $309,669,088            $985,973,286
            NA, Lewisville, TX                      Home Loan                                                   11/16/2011           ($2,800,000)   $3,862,494,604 Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 1/13/2012            ($100,000)    $3,862,394,604 Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012            ($100,000)    $3,862,294,604 Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012      ($126,080,000)      $3,736,214,604 Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012           ($1,620,000)   $3,734,594,604 Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012              ($16,192)   $3,734,578,412 Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012           ($2,300,000)   $3,732,278,412 Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012              ($20,000)   $3,732,258,412 Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012              ($37,341)   $3,732,221,071 Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012           ($1,130,000)   $3,731,091,071 Transfer of cap due to servicing transfer
                                                                                                                11/15/2012           ($3,770,000)   $3,727,321,071 Transfer of cap due to servicing transfer
                                                                                                                12/14/2012            ($180,000)    $3,727,141,071 Transfer of cap due to servicing transfer
                                                                                                                12/27/2012               ($4,535)   $3,727,136,536 Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013              ($60,000)   $3,727,076,536 Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013            ($520,000)    $3,726,556,536 Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013              ($90,000)   $3,726,466,536 Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013              ($14,310)   $3,726,452,226 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                              303
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                (CONTINUED)                                                                                                                                                                                                 304
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                          TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                    Lenders/                               Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                Borrower’s      Investors        Servicers               Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount          Adjusted Cap Reason for Adjustment                                     Incentives     Incentives       Incentives              Payments
                                                                                                                  9/30/2009              ($10,000)    $707,370,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009       $502,430,000       $1,209,800,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010      ($134,560,000)      $1,075,240,000 Updated portfolio data from servicer & 2MP initial cap
                                                                                                                  7/14/2010      ($392,140,000)       $683,100,000 Updated portfolio data from servicer
                                                                                                                  7/16/2010            ($630,000)     $682,470,000 Transfer of cap to Saxon Mortgage Services, Inc.
                                                                                                                  9/30/2010           $13,100,000     $695,570,000 Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                  9/30/2010           ($8,006,457)    $687,563,543 Updated portfolio data from servicer

                                                     Financial                                                   10/15/2010            ($100,000)     $687,463,543 Transfer of cap due to servicing transfer
            EMC Mortgage
                                                     Instrument for
7/31/2009   Corporation,               Purchase                              $707,380,000     N/A         14     12/15/2010           ($4,400,000)    $683,063,543 Updated portfolio data from servicer                       $7,569,459   $11,592,937      $16,279,383            $35,441,779
                                                     Home Loan
            Lewisville, TX
                                                     Modifications                                                 1/6/2011                 ($802)    $683,062,741 Updated portfolio data from servicer
                                                                                                                  2/16/2011            ($900,000)     $682,162,741 Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011           ($4,000,000)    $678,162,741 Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011                 ($925)    $678,161,816 Updated due to quarterly assessment and reallocation
                                                                                                                  5/13/2011      ($122,900,000)       $555,261,816 Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                  6/29/2011               ($8,728)    $555,253,088 Updated due to quarterly assessment and reallocation
                                                                                                                  7/14/2011            ($600,000)     $554,653,088 Transfer of cap due to servicing transfer
                                                                                                                 10/19/2011      ($519,211,309)         $35,441,779 Termination of SPA
                                                                                                                  9/30/2009             $180,000           $600,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009            ($350,000)          $250,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010               $20,000          $270,000 Updated portfolio data from servicer
                                                                                                                  7/14/2010              ($70,000)         $200,000 Updated portfolio data from servicer
                                                     Financial
            Lake City Bank,                          Instrument for                                               9/30/2010               $90,111          $290,111 Updated portfolio data from servicer
8/5/2009                               Purchase                                  $420,000     N/A                                                                                                                                $5,244         $5,301          $14,635                 $25,179
            Warsaw, IN                               Home Loan                                                    6/29/2011                   ($3)         $290,108 Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  6/28/2012                   ($2)         $290,106 Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                   ($7)         $290,099 Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                    $1          $290,098 Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                   ($4)         $290,094 Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2009             $290,000           $430,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                 12/30/2009             $210,000           $640,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010             $170,000           $810,000 Updated portfolio data from servicer
                                                                                                                  7/14/2010              ($10,000)         $800,000 Updated portfolio data from servicer
                                                     Financial
            Oakland Municipal Credit                 Instrument for                                               9/30/2010              ($74,722)         $725,278 Updated portfolio data from servicer
8/5/2009                               Purchase                                  $140,000     N/A         12                                                                                                                         $0         $3,568           $6,500                 $10,068
            Union, Oakland, CA                       Home Loan                                                     1/6/2011                    $1          $725,277 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                  3/30/2011                    $1          $725,276 Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011            ($200,000)          $525,276 Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011                   ($7)         $525,269 Updated due to quarterly assessment and reallocation
                                                                                                                  7/22/2011            ($515,201)           $10,068 Termination of SPA
                                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                 (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                           TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                     Lenders/                               Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                 Borrower’s      Investors        Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount          Adjusted Cap Reason for Adjustment                                      Incentives     Incentives       Incentives              Payments
                                                                                                                   9/30/2009      ($121,190,000)       $552,810,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                  12/30/2009       ($36,290,000)       $516,520,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010       $199,320,000        $715,840,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($189,040,000)       $526,800,000 Updated portfolio data from servicer
                                                                                                                   9/30/2010           $38,626,728     $565,426,728 Updated portfolio data from servicer
                                                                                                                  10/15/2010      ($170,800,000)       $394,626,728 Transfer of cap due to servicing transfer
                                                                                                                  12/15/2010       ($22,200,000)       $372,426,728 Updated portfolio data from servicer

                                                      Financial                                                     1/6/2011                 ($549)    $372,426,179 Updated portfolio data from servicer
            HomEq Servicing, North                    Instrument for
8/5/2009                                Purchase                              $674,000,000     N/A                 2/16/2011            ($900,000)     $371,526,179 Transfer of cap due to servicing transfer                          $0     $3,036,319       $5,272,500              $8,308,819
            Highlands, CA                             Home Loan
                                                      Modifications                                                3/30/2011                 ($653)    $371,525,526 Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011               ($6,168)    $371,519,358 Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012               ($4,634)    $371,514,724 Updated due to quarterly assessment and reallocation
                                                                                                                   8/16/2012            ($430,000)     $371,084,724 Transfer of cap due to servicing transfer
                                                                                                                   9/27/2012              ($12,728)    $371,071,996 Updated due to quarterly assessment and reallocation
                                                                                                                  12/14/2012              ($20,000)    $371,051,996 Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012               ($2,148)    $371,049,848 Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013               ($8,137)    $371,041,711 Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2009       $313,050,000       $1,087,950,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                  12/30/2009       $275,370,000       $1,363,320,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010       $278,910,000       $1,642,230,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($474,730,000)      $1,167,500,000 Updated portfolio data from servicer
                                                                                                                   8/13/2010            ($700,000)    $1,166,800,000 Transfer of cap to due to servicing transfer
                                                                                                                   9/15/2010           ($1,000,000)   $1,165,800,000 Transfer of cap to due to servicing transfer
                                                                                                                   9/30/2010      ($115,017,236)      $1,050,782,764 Updated portfolio data from servicer
                                                                                                                  10/15/2010            ($800,000)    $1,049,982,764 Transfer of cap due to servicing transfer
                                                                                                                  12/15/2010             $800,000     $1,050,782,764 Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($1,286)   $1,050,781,478 Updated portfolio data from servicer
                                                                                                                   3/16/2011            $8,800,000    $1,059,581,478 Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011               ($1,470)   $1,059,580,008 Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011           ($3,300,000)   $1,056,280,008 Transfer of cap due to servicing transfer
                                                      Financial
            Litton Loan Servicing LP,                 Instrument for                                               5/13/2011            ($300,000)    $1,055,980,008 Transfer of cap due to servicing transfer
8/12/2009                               Purchase                              $774,900,000     N/A                                                                                                                             $13,441,220   $35,353,126      $27,530,414            $76,324,760
            Houston, TX                               Home Loan                                                    6/16/2011            ($700,000)    $1,055,280,008 Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                   6/29/2011              ($13,097)   $1,055,266,911 Updated due to quarterly assessment and reallocation
                                                                                                                   7/14/2011            ($200,000)    $1,055,066,911 Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011           ($2,900,000)   $1,052,166,911 Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011            ($300,000)    $1,051,866,911 Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011            ($500,000)    $1,051,366,911 Transfer of cap due to servicing transfer
                                                                                                                  12/15/2011           ($2,600,000)   $1,048,766,911 Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012      ($194,800,000)       $853,966,911 Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012            ($400,000)     $853,566,911 Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012               ($9,728)    $853,557,183 Updated due to quarterly assessment and reallocation
                                                                                                                   8/16/2012           ($7,990,000)    $845,567,183 Transfer of cap due to servicing transfer
                                                                                                                   9/27/2012              ($26,467)    $845,540,716 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                                                                                                                  12/27/2012               ($4,466)    $845,536,250 Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013              ($16,922)    $845,519,328 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                                      305
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                               (CONTINUED)                                                                                                                                                                                                       306
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                                TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                         Lenders/                                Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                       Borrower’s    Investors         Servicers               Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                              Incentives   Incentives        Incentives              Payments
                                                                                                                 9/30/2009           ($1,200,000)    $5,010,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009           $30,800,000    $35,810,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010           $23,200,000    $59,010,000 Updated portfolio data from servicer
                                                                                                                 6/16/2010            $2,710,000    $61,720,000 Transfer of cap from CitiMortgage, Inc. due to servicing transfer
                                                                                                                 7/14/2010       ($18,020,000)      $43,700,000 Updated portfolio data from servicer
                                                                                                                 7/16/2010            $6,680,000    $50,380,000 Transfer of cap from CitiMortgage, Inc. due to servicing transfer
                                                                                                                 8/13/2010            $2,600,000    $52,980,000 Transfer of cap to due to servicing transfer
                                                                                                                 9/15/2010            ($100,000)    $52,880,000 Transfer of cap to due to servicing transfer
                                                                                                                 9/30/2010             $200,000     $53,080,000 Initial FHA-HAMP cap and 2MP initial cap
                                                                                                                 9/30/2010           ($1,423,197)   $51,656,803 Updated portfolio data from servicer
                                                                                                                11/16/2010            $1,400,000    $53,056,803 Transfer of cap due to servicing transfer
                                                                                                                12/15/2010            ($100,000)    $52,956,803 Updated portfolio data from servicer
                                                                                                                  1/6/2011                  ($72)   $52,956,731 Updated portfolio data from servicer
                                                                                                                 1/13/2011            $4,100,000    $57,056,731 Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                 2/16/2011            ($100,000)    $56,956,731 Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011            $4,000,000    $60,956,731 Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011                  ($94)   $60,956,637 Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011            ($100,000)    $60,856,637 Transfer of cap due to servicing transfer

                                                    Financial                                                    5/13/2011            $5,800,000    $66,656,637 Transfer of cap due to servicing transfer
            PennyMac Loan Services,                 Instrument for
8/12/2009                             Purchase                                 $6,210,000    N/A                 6/16/2011             $600,000     $67,256,637 Transfer of cap due to servicing transfer                           $4,610,902   $8,453,358       $5,552,587            $18,616,846
            LLC, Calasbasa, CA                      Home Loan
                                                    Modifications                                                6/29/2011                 ($812)   $67,255,825 Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011            $2,500,000    $69,755,825 Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011            $2,800,000    $72,555,825 Transfer of cap due to servicing transfer
                                                                                                                10/14/2011             $300,000     $72,855,825 Transfer of cap due to servicing transfer
                                                                                                                11/16/2011             $900,000     $73,755,825 Transfer of cap due to servicing transfer
                                                                                                                12/15/2011             $800,000     $74,555,825 Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012             $200,000     $74,755,825 Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012            $1,900,000    $76,655,825 Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012             $200,000     $76,855,825 Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012            $1,340,000    $78,195,825 Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012                 ($340)   $78,195,485 Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012            $2,930,000    $81,125,485 Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012             $890,000     $82,015,485 Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012                 ($974)   $82,014,511 Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012            $1,800,000    $83,814,511 Transfer of cap due to servicing transfer
                                                                                                                12/14/2012            $3,860,000    $87,674,511 Transfer of cap due to servicing transfer
                                                                                                                12/27/2012                 ($154)   $87,674,357 Updated due to quarterly assessment and reallocation
                                                                                                                 2/14/2013            $2,980,000    $90,654,357 Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013                 ($506)   $90,653,851 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                               TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                         Lenders/                               Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                       Borrower’s    Investors        Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                              Incentives   Incentives       Incentives              Payments
                                                                                                                9/30/2009       ($25,510,000)       $4,220,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009             $520,000      $4,740,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010            $4,330,000     $9,070,000 Updated portfolio data from servicer
                                                                                                                4/19/2010             $230,000      $9,300,000 Transfer of cap from CitiMortgage, Inc. due to servicing transfer
                                                                                                                5/19/2010             $850,000     $10,150,000 Initial 2MP cap
                                                                                                                7/14/2010            ($850,000)     $9,300,000 Updated portfolio data from servicer
                                                                                                                9/15/2010             $100,000      $9,400,000 Transfer of cap to due to servicing transfer
                                                                                                                9/30/2010             $100,000      $9,500,000 Initial FHA-HAMP cap
                                                                                                                9/30/2010           $16,755,064    $26,255,064 Updated portfolio data from servicer
                                                                                                               10/15/2010             $100,000     $26,355,064 Transfer of cap due to servicing transfer
                                                                                                               12/15/2010             $100,000     $26,455,064 Updated portfolio data from servicer
                                                                                                                 1/6/2011                  ($40)   $26,455,024 Updated portfolio data from servicer
                                                                                                                1/13/2011             $300,000     $26,755,024 Transfer of cap due to servicing transfer
                                                                                                                2/16/2011             $100,000     $26,855,024 Transfer of cap due to servicing transfer
                                                                                                                3/16/2011            $2,200,000    $29,055,024 Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                  ($52)   $29,054,972 Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011            $1,500,000    $30,554,972 Transfer of cap due to servicing transfer
                                                                                                                5/13/2011            $1,000,000    $31,554,972 Transfer of cap due to servicing transfer
                                                                                                                6/16/2011             $100,000     $31,654,972 Transfer of cap due to servicing transfer
                                                                                                                6/29/2011                 ($534)   $31,654,438 Updated due to quarterly assessment and reallocation
                                                   Financial
            Servis One, Inc.,                      Instrument for                                               8/16/2011             $700,000     $32,354,438 Transfer of cap due to servicing transfer
8/12/2009                            Purchase                               $29,730,000     N/A                                                                                                                                     $360,136    $739,317          $461,192              $1,560,645
            Titusville, PA                         Home Loan                                                    9/15/2011            ($600,000)    $31,754,438 Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                               10/14/2011            $4,000,000    $35,754,438 Transfer of cap due to servicing transfer
                                                                                                               11/16/2011             $600,000     $36,354,438 Transfer of cap due to servicing transfer
                                                                                                               12/15/2011             $200,000     $36,554,438 Transfer of cap due to servicing transfer
                                                                                                                1/13/2012             $100,000     $36,654,438 Transfer of cap due to servicing transfer
                                                                                                                2/16/2012            $1,300,000    $37,954,438 Transfer of cap due to servicing transfer
                                                                                                                3/15/2012            $1,100,000    $39,054,438 Transfer of cap due to servicing transfer
                                                                                                                4/16/2012             $800,000     $39,854,438 Transfer of cap due to servicing transfer
                                                                                                                5/16/2012           ($1,080,000)   $38,774,438 Transfer of cap due to servicing transfer
                                                                                                                6/14/2012            $1,560,000    $40,334,438 Transfer of cap due to servicing transfer
                                                                                                                6/28/2012                 ($465)   $40,333,973 Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012               $70,000    $40,403,973 Transfer of cap due to servicing transfer
                                                                                                                9/27/2012               ($1,272)   $40,402,701 Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012            $2,100,000    $42,502,701 Transfer of cap due to servicing transfer
                                                                                                               11/15/2012            $1,340,000    $43,842,701 Transfer of cap due to servicing transfer
                                                                                                               12/14/2012            $1,160,000    $45,002,701 Transfer of cap due to servicing transfer
                                                                                                               12/27/2012                 ($239)   $45,002,462 Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013             $210,000     $45,212,462 Transfer of cap due to servicing transfer
                                                                                                                2/14/2013            $1,790,000    $47,002,462 Transfer of cap due to servicing transfer
                                                                                                                3/14/2013            $1,920,000    $48,922,462 Transfer of cap due to servicing transfer
                                                                                                                3/25/2013                 ($960)   $48,921,502 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                       307
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                               (CONTINUED)                                                                                                                                                                                                    308
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                            TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                      Lenders/                                Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                 Borrower’s       Investors        Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount          Adjusted Cap Reason for Adjustment                                      Incentives      Incentives       Incentives               Payments
                                                                                                                 10/2/2009       $145,800,000        $814,240,000 HPDP initial cap
                                                                                                                12/30/2009     $1,355,930,000       $2,170,170,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010       $121,180,000       $2,291,350,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($408,850,000)      $1,882,500,000 Updated portfolio data from servicer
                                                                                                                 9/30/2010            $5,500,000    $1,888,000,000 2MP initial cap

                                                    Financial                                                    9/30/2010       ($51,741,163)      $1,836,258,837 Updated portfolio data from servicer
            OneWest Bank,                           Instrument for
8/28/2009                             Purchase                              $668,440,000     N/A                  1/6/2011               ($2,282)   $1,836,256,555 Updated portfolio data from servicer                      $45,875,613   $140,764,072      $69,044,817            $255,684,502
            Pasadena, CA                            Home Loan
                                                    Modifications                                                3/30/2011               ($2,674)   $1,836,253,881 Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011              ($24,616)   $1,836,229,265 Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012              ($15,481)   $1,836,213,784 Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012              ($40,606)   $1,836,173,178 Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012               ($6,688)   $1,836,166,490 Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013              ($24,811)   $1,836,141,679 Updated due to quarterly assessment and reallocation
                                                                                                                 10/2/2009               $70,000          $370,000 HPDP initial cap
                                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                12/30/2009            $2,680,000        $3,050,000 Updated portfolio data from servicer & HAFA initial cap
                                                    Financial
            Stanford Federal Credit                 Instrument for                                               3/26/2010             $350,000         $3,400,000 Updated portfolio data from servicer
8/28/2009                             Purchase                                  $300,000     N/A                                                                                                                                     $0              $0                 $0                      $0
            Union, Palo Alto, CA                    Home Loan                                                    7/14/2010           ($1,900,000)       $1,500,000 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                 9/30/2010           ($1,209,889)         $290,111 Updated portfolio data from servicer
                                                                                                                 3/23/2010            ($290,111)                 $0 Termination of SPA
                                                                                                                 10/2/2009             $130,000           $700,000 HPDP initial cap
                                                                                                                12/30/2009            ($310,000)          $390,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010            $2,110,000        $2,500,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010            $8,300,000       $10,800,000 Updated portfolio data from servicer
                                                                                                                 9/30/2010            $5,301,172       $16,101,172 Updated portfolio data from servicer
                                                                                                                  1/6/2011                  ($22)      $16,101,150 Updated portfolio data from servicer
            RoundPoint Mortgage                     Financial
            Servicing Corporation,                  Instrument for                                               3/16/2011            ($400,000)       $15,701,150 Transfer of cap due to servicing transfer
8/28/2009                             Purchase                                  $570,000     N/A                                                                                                                               $120,024       $327,605          $245,398                $693,027
            Charlotte, NC                           Home Loan                                                    3/30/2011                  ($25)      $15,701,125 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 6/29/2011                 ($232)      $15,700,893 Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                 ($174)      $15,700,719 Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                 ($479)      $15,700,240 Updated due to quarterly assessment and reallocation
                                                                                                                11/15/2012            ($350,000)       $15,350,240 Transfer of cap due to servicing transfer
                                                                                                                12/27/2012                  ($82)      $15,350,158 Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                 ($308)      $15,349,850 Updated due to quarterly assessment and reallocation
                                                                                                                 10/2/2009             $130,000           $690,000 HPDP initial cap
                                                                                                                12/30/2009            $1,040,000        $1,730,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010           ($1,680,000)          $50,000 Updated portfolio data from servicer
                                                                                                                 5/12/2010            $1,260,000        $1,310,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010           ($1,110,000)         $200,000 Updated portfolio data from servicer
                                                    Financial
            Horicon Bank,                           Instrument for                                               9/30/2010             $100,000           $300,000 Initial RD-HAMP
9/2/2009                              Purchase                                  $560,000     N/A                                                                                                                                 $5,265        $14,063           $10,170                  $29,498
            Horicon, WI                             Home Loan                                                    9/30/2010               ($9,889)         $290,111 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                 6/29/2011                   ($3)         $290,108 Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                   ($2)         $290,106 Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                   ($7)         $290,099 Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                    $1          $290,098 Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                   ($4)         $290,094 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                  (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                     TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                               Lenders/                               Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                             Borrower’s    Investors        Servicers               Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                    Incentives   Incentives       Incentives              Payments
                                                                                                                    10/2/2009            $1,310,000     $7,310,000 HPDP initial cap
                                                                                                                   12/30/2009           ($3,390,000)    $3,920,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                    3/26/2010             $410,000      $4,330,000 Updated portfolio data from servicer
                                                                                                                    7/14/2010            ($730,000)     $3,600,000 Updated portfolio data from servicer
                                                                                                                    9/15/2010            $4,700,000     $8,300,000 Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010             $117,764      $8,417,764 Updated portfolio data from servicer
                                                                                                                   11/16/2010             $800,000      $9,217,764 Transfer of cap due to servicing transfer
                                                                                                                   12/15/2010            $2,700,000    $11,917,764 Updated portfolio data from servicer
                                                                                                                     1/6/2011                  ($17)   $11,917,747 Updated portfolio data from servicer
                                                                                                                    1/13/2011             $700,000     $12,617,747 Transfer of cap due to servicing transfer
                                                                                                                    2/16/2011            $1,800,000    $14,417,747 Transfer of cap due to servicing transfer

9/2/2009                                               Financial                                                    3/30/2011                  ($19)   $14,417,728 Updated due to quarterly assessment and reallocation
             Vantium Capital, Inc.dba
as amended                                             Instrument for
             Acqura Loan Services,       Purchase                                 $6,000,000    N/A         10      4/13/2011             $300,000     $14,717,728 Transfer of cap due to servicing transfer                  $231,557    $478,996          $378,189              $1,088,743
on                                                     Home Loan
             Plano, TX
8/27/2010                                              Modifications                                                6/29/2011                 ($189)   $14,717,539 Updated due to quarterly assessment and reallocation
                                                                                                                    8/16/2011             $300,000     $15,017,539 Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011             $100,000     $15,117,539 Transfer of cap due to servicing transfer
                                                                                                                   10/14/2011             $100,000     $15,217,539 Transfer of cap due to servicing transfer
                                                                                                                    6/28/2012                 ($147)   $15,217,392 Updated due to quarterly assessment and reallocation
                                                                                                                    7/16/2012              ($10,000)   $15,207,392 Transfer of cap due to servicing transfer
                                                                                                                    9/27/2012                 ($413)   $15,206,979 Updated due to quarterly assessment and reallocation
                                                                                                                   11/15/2012              ($40,000)   $15,166,979 Transfer of cap due to servicing transfer
                                                                                                                   12/27/2012                  ($71)   $15,166,908 Updated due to quarterly assessment and reallocation
                                                                                                                    2/14/2013            ($770,000)    $14,396,908 Transfer of cap due to servicing transfer
                                                                                                                    3/14/2013              ($20,000)   $14,376,908 Transfer of cap due to servicing transfer
                                                                                                                    3/25/2013                 ($256)   $14,376,652 Updated due to quarterly assessment and reallocation
                                                                                                                    10/2/2009             $280,000      $1,530,000 HPDP initial cap
                                                                                                                   12/30/2009            ($750,000)       $780,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                    3/26/2010             $120,000        $900,000 Updated portfolio data from servicer
                                                                                                                    7/14/2010            ($300,000)       $600,000 Updated portfolio data from servicer
                                                                                                                    9/30/2010             $270,334        $870,334 Updated portfolio data from servicer
                                                       Financial
             Central Florida Educators                                                                               1/6/2011                    $1       $870,333 Updated portfolio data from servicer
                                                       Instrument for
9/9/2009     Federal Credit Union,       Purchase                                 $1,250,000    N/A                                                                                                                            $75,492    $134,413          $171,352               $381,257
                                                       Home Loan                                                    3/30/2011                    $1       $870,332 Updated due to quarterly assessment and reallocation
             Lake May, FL
                                                       Modifications
                                                                                                                    6/29/2011                   ($5)      $870,327 Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012               $21,717       $892,044 Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012             $190,077      $1,082,121 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012               $35,966     $1,118,087 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013               $59,464     $1,177,551 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                 309
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                               (CONTINUED)                                                                                                                                                                                               310
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                  Lenders/                               Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                              Borrower’s      Investors        Servicers               Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                     Incentives     Incentives       Incentives              Payments
                                                                                                                 10/2/2009           $24,920,000    $139,140,000 HPDP initial cap
                                                                                                                12/30/2009           $49,410,000    $188,550,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010           $41,830,000    $230,380,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($85,780,000)      $144,600,000 Updated portfolio data from servicer
                                                                                                                 9/30/2010           $36,574,444    $181,174,444 Updated portfolio data from servicer
                                                    Financial
            U.S. Bank National                                                                                    1/6/2011                 ($160)   $181,174,284 Updated portfolio data from servicer
                                                    Instrument for
9/9/2009    Association,              Purchase                              $114,220,000     N/A                                                                                                                           $9,082,340   $23,145,045      $17,750,456            $49,977,841
                                                    Home Loan                                                    3/30/2011                 ($172)   $181,174,112 Updated due to quarterly assessment and reallocation
            Owensboro, KY
                                                    Modifications
                                                                                                                 6/29/2011               ($1,431)   $181,172,681 Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                 ($746)   $181,171,935 Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012               ($1,926)   $181,170,009 Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                 ($308)   $181,169,701 Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013               ($1,135)   $181,168,566 Updated due to quarterly assessment and reallocation
                                                                                                                 10/2/2009             $950,000       $5,300,000 HPDP initial cap
                                                                                                                12/30/2009            $5,700,000     $11,000,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                 3/26/2010             $740,000      $11,740,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010           ($1,440,000)    $10,300,000 Updated portfolio data from servicer
                                                                                                                 9/30/2010           ($6,673,610)     $3,626,390 Updated portfolio data from servicer
                                                    Financial
            CUC Mortgage                                                                                          1/6/2011                   ($5)     $3,626,385 Updated portfolio data from servicer
                                                    Instrument for
9/9/2009    Corporation,              Purchase                                 $4,350,000    N/A                                                                                                                             $44,638      $113,035           $85,770               $243,443
                                                    Home Loan                                                    3/30/2011                   ($6)     $3,626,379 Updated due to quarterly assessment and reallocation
            Albany, NY
                                                    Modifications
                                                                                                                 6/29/2011                  ($52)     $3,626,327 Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                  ($38)     $3,626,289 Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                 ($107)     $3,626,182 Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                  ($18)     $3,626,164 Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                  ($69)     $3,626,095 Updated due to quarterly assessment and reallocation
                                                                                                                 10/2/2009             $460,000       $2,530,000 HPDP initial cap
                                                                                                                12/30/2009            $2,730,000      $5,260,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010           $13,280,000     $18,540,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($13,540,000)        $5,000,000 Updated portfolio data from servicer
                                                                                                                 9/30/2010            $1,817,613      $6,817,613 Updated portfolio data from servicer
                                                    Financial
            ORNL Federal Credit                     Instrument for                                                1/6/2011                  ($10)     $6,817,603 Updated portfolio data from servicer
9/11/2009                             Purchase                                 $2,070,000    N/A                                                                                                                              $8,951       $18,765           $24,451                 $52,168
            Union, Oak Ridge, TN                    Home Loan                                                    3/30/2011                  ($12)     $6,817,591 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 6/29/2011                 ($115)     $6,817,476 Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                  ($86)     $6,817,390 Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                 ($236)     $6,817,154 Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                  ($40)     $6,817,114 Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                 ($149)     $6,816,965 Updated due to quarterly assessment and reallocation
                                                                                                                 10/2/2009               $60,000        $310,000 HPDP initial cap
                                                                                                                12/30/2009              ($80,000)       $230,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010             $280,000         $510,000 Updated portfolio data from servicer

                                                    Financial                                                    7/14/2010            ($410,000)        $100,000 Updated portfolio data from servicer
            Allstate Mortgage Loans
                                                    Instrument for
9/11/2009   & Investments, Inc.,      Purchase                                  $250,000     N/A                 9/30/2010               $45,056        $145,056 Updated portfolio data from servicer                         $5,036         $8,782           $8,036                 $21,854
                                                    Home Loan
            Ocala, FL
                                                    Modifications                                                6/29/2011                    $1        $145,055 Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                    $1        $145,054 Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                   ($2)       $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                    $1        $145,051 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                 (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                     TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                               Lenders/                                Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                             Borrower’s    Investors        Servicers                Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                    Incentives   Incentives       Incentives               Payments
                                                                                                                   10/2/2009               $70,000       $350,000 HPDP initial cap
                                                                                                                  12/30/2009             $620,000        $970,000 Updated portfolio data from servicer & HAFA initial cap

                                                      Financial                                                    3/26/2010             $100,000      $1,070,000 Updated portfolio data from servicer
            Metropolitan National                     Instrument for
9/11/2009                               Purchase                                  $280,000     N/A                 7/14/2010            ($670,000)       $400,000 Updated portfolio data from servicer                             $0           $0                 $0                      $0
            Bank, Little Rock, AR                     Home Loan
                                                      Modifications                                                9/30/2010               $35,167       $435,167 Updated portfolio data from servicer
                                                                                                                    1/6/2011                    $1       $435,166 Updated portfolio data from servicer
                                                                                                                   1/26/2011            ($435,166)              $0 Termination of SPA
                                                                                                                   10/2/2009            $6,010,000    $33,520,000 HPDP initial cap
                                                                                                                  12/30/2009       ($19,750,000)      $13,770,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010           ($4,780,000)    $8,990,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010           ($2,390,000)    $6,600,000 Updated portfolio data from servicer
                                                                                                                   9/30/2010            $2,973,670     $9,573,670 Updated portfolio data from servicer
                                                                                                                    1/6/2011                   ($3)    $9,573,667 Updated portfolio data from servicer
                                                      Financial
            Franklin Credit                                                                                        2/16/2011           ($1,800,000)    $7,773,667 Transfer of cap due to servicing transfer
                                                      Instrument for
9/11/2009   Management Corporation,     Purchase                               $27,510,000     N/A                                                                                                                           $283,204    $588,017          $671,094               $1,542,314
                                                      Home Loan                                                    3/30/2011                   ($6)    $7,773,661 Updated due to quarterly assessment and reallocation
            Jersey City, NJ
                                                      Modifications
                                                                                                                   6/29/2011                  ($61)    $7,773,600 Updated due to quarterly assessment and reallocation
                                                                                                                  10/14/2011            ($100,000)     $7,673,600 Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012                  ($58)    $7,673,542 Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                 ($164)    $7,673,378 Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                  ($29)    $7,673,349 Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                 ($110)    $7,673,239 Updated due to quarterly assessment and reallocation
                                                                                                                   10/2/2009               $90,000       $500,000 HPDP initial cap
                                                                                                                  12/30/2009            $1,460,000     $1,960,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010             $160,000      $2,120,000 Updated portfolio data from servicer

                                                      Financial                                                    7/14/2010            ($120,000)     $2,000,000 Updated portfolio data from servicer
            Bay Federal Credit Union,                 Instrument for
9/16/2009                               Purchase                                  $410,000     N/A                 9/30/2010           ($1,419,778)      $580,222 Updated portfolio data from servicer                             $0           $0                 $0                      $0
            Capitola, CA                              Home Loan
                                                      Modifications                                                 1/6/2011                    $1       $580,221 Updated portfolio data from servicer
                                                                                                                   3/30/2011                    $1       $580,220 Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011                   ($8)      $580,212 Updated due to quarterly assessment and reallocation
                                                                                                                   1/25/2012            ($580,212)              $0 Termination of SPA
                                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                 311
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                 (CONTINUED)                                                                                                                                                                                            312
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                     TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                               Lenders/                               Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                             Borrower’s    Investors        Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                    Incentives   Incentives       Incentives              Payments
                                                                                                                   10/2/2009             $960,000      $5,350,000 HPDP initial cap
                                                                                                                  12/30/2009           ($3,090,000)    $2,260,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010             $230,000      $2,490,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010            $5,310,000     $7,800,000 Updated portfolio data from servicer
                                                                                                                   9/30/2010             $323,114      $8,123,114 Updated portfolio data from servicer
                                                                                                                    1/6/2011                  ($12)    $8,123,102 Updated portfolio data from servicer
                                                                                                                   3/16/2011             $600,000      $8,723,102 Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011                  ($16)    $8,723,086 Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011             $200,000      $8,923,086 Transfer of cap due to servicing transfer
                                                                                                                   5/13/2011             $100,000      $9,023,086 Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011                 ($153)    $9,022,933 Updated due to quarterly assessment and reallocation

                                                      Financial                                                    9/15/2011             $100,000      $9,122,933 Transfer of cap due to servicing transfer
            AMS Servicing, LLC,                       Instrument for
9/23/2009                               Purchase                                 $4,390,000    N/A                11/16/2011             $100,000      $9,222,933 Transfer of cap due to servicing transfer                    $2,833     $51,425           $36,600                 $90,858
            Buffalo, NY                               Home Loan
                                                      Modifications                                                4/16/2012            $1,100,000    $10,322,933 Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                   6/14/2012             $650,000     $10,972,933 Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012                 ($136)   $10,972,797 Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                 ($347)   $10,972,450 Updated due to quarterly assessment and reallocation
                                                                                                                  10/16/2012             $250,000     $11,222,450 Transfer of cap due to servicing transfer
                                                                                                                  11/15/2012               $30,000    $11,252,450 Transfer of cap due to servicing transfer
                                                                                                                  12/14/2012              ($10,000)   $11,242,450 Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012                  ($59)   $11,242,391 Updated due to quarterly assessment and reallocation
                                                                                                                   1/16/2013               $20,000    $11,262,391 Transfer of cap due to servicing transfer
                                                                                                                   2/14/2013             $290,000     $11,552,391 Transfer of cap due to servicing transfer
                                                                                                                   3/14/2013               $10,000    $11,562,391 Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013                 ($220)   $11,562,171 Updated due to quarterly assessment and reallocation
                                                                                                                   10/2/2009               $90,000       $480,000 HPDP initial cap
                                                                                                                  12/30/2009             $940,000      $1,420,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010            ($980,000)       $440,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010            ($140,000)       $300,000 Updated portfolio data from servicer
                                                                                                                   9/30/2010            $1,150,556     $1,450,556 Updated portfolio data from servicer
                                                      Financial
            Schools Financial Credit                  Instrument for                                                1/6/2011                   ($2)    $1,450,554 Updated portfolio data from servicer
9/23/2009                               Purchase                                  $390,000     N/A                                                                                                                            $17,500     $46,958           $31,500                 $95,958
            Union, Sacramento, CA                     Home Loan                                                    3/30/2011                   ($2)    $1,450,552 Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   6/29/2011                  ($22)    $1,450,530 Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012                  ($16)    $1,450,514 Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                  ($44)    $1,450,470 Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                   ($7)    $1,450,463 Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($28)    $1,450,435 Updated due to quarterly assessment and reallocation
                                                                                                                   10/2/2009               $60,000       $290,000 HPDP initial cap
                                                                                                                  12/30/2009              ($10,000)      $280,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010             $130,000        $410,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010            ($110,000)       $300,000 Updated portfolio data from servicer
                                                      Financial
            Glass City Federal Credit                 Instrument for                                               9/30/2010               ($9,889)      $290,111 Updated portfolio data from servicer
9/23/2009                               Purchase                                  $230,000     N/A                                                                                                                             $4,000       $2,428           $6,000                 $12,428
            Union, Maumee, OH                         Home Loan                                                    6/29/2011                   ($3)      $290,108 Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   6/28/2012                   ($2)      $290,106 Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                   ($7)      $290,099 Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                    $1       $290,098 Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                   ($4)      $290,094 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                  (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                     TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                               Lenders/                                Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                             Borrower’s    Investors        Servicers                Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                    Incentives   Incentives       Incentives               Payments
                                                                                                                    10/2/2009               $10,000        $40,000 HPDP initial cap
                                                                                                                   12/30/2009             $120,000        $160,000 Updated portfolio data from servicer & HAFA initial cap
                                                       Financial
             Central Jersey Federal                                                                                 3/26/2010               $10,000       $170,000 Updated portfolio data from servicer
                                                       Instrument for
9/23/2009    Credit Union,               Purchase                                     30,000    N/A                                                                                                                                 $0           $0                 $0                      $0
                                                       Home Loan                                                    7/14/2010              ($70,000)      $100,000 Updated portfolio data from servicer
             Woodbridge, NJ
                                                       Modifications
                                                                                                                    9/30/2010               $45,056       $145,056 Updated portfolio data from servicer
                                                                                                                   10/29/2010            ($145,056)              $0 Termination of SPA
                                                                                                                    10/2/2009               $60,000       $300,000 HPDP initial cap
                                                                                                                   12/30/2009             $350,000        $650,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                    3/26/2010            $1,360,000     $2,010,000 Updated portfolio data from servicer
                                                                                                                    7/14/2010           ($1,810,000)      $200,000 Updated portfolio data from servicer

                                                       Financial                                                    9/30/2010             $235,167        $435,167 Updated portfolio data from servicer
             Yadkin Valley Bank,                       Instrument for
9/23/2009                                Purchase                                  $240,000     N/A                  1/6/2011                    $1       $435,166 Updated portfolio data from servicer                        $19,829     $22,332           $39,429                  $81,589
             Elkin, NC                                 Home Loan
                                                       Modifications                                                6/29/2011                   ($4)      $435,162 Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012                   ($3)      $435,159 Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                   ($7)      $435,152 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                    $1       $435,151 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                   ($5)      $435,146 Updated due to quarterly assessment and reallocation
                                                                                                                    10/2/2009             $100,000        $540,000 HPDP initial cap
                                                                                                                   12/30/2009               $20,000       $560,000 Updated portfolio data from servicer & HAFA initial cap

                                                       Financial                                                    3/26/2010            ($290,000)       $270,000 Updated portfolio data from servicer
                                                       Instrument for
9/25/2009    SEFCU, Albany, NY           Purchase                                  $440,000     N/A                 7/14/2010              ($70,000)      $200,000 Updated portfolio data from servicer                             $0           $0                 $0                      $0
                                                       Home Loan
                                                       Modifications                                                9/30/2010              ($54,944)      $145,056 Updated portfolio data from servicer
                                                                                                                    6/29/2011                    $1       $145,055 Updated due to quarterly assessment and reallocation
                                                                                                                    4/11/2012            ($145,055)              $0 Termination of SPA
                                                                                                                   12/30/2009            $1,030,000     $1,600,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                    3/26/2010            ($880,000)       $720,000 Updated portfolio data from servicer
                                                                                                                    7/14/2010            ($320,000)       $400,000 Updated portfolio data from servicer
                                                                                                                    9/30/2010             $180,222        $580,222 Updated portfolio data from servicer

                                                       Financial                                                     1/6/2011                    $1       $580,221 Updated portfolio data from servicer
             Great Lakes Credit Union,                 Instrument for
10/14/2009                               Purchase                                  $570,000     N/A                 3/30/2011                    $1       $580,220 Updated due to quarterly assessment and reallocation         $6,917     $13,781           $10,100                  $30,797
             North Chicago, IL                         Home Loan
                                                       Modifications                                                6/29/2011                   ($8)      $580,212 Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012                   ($6)      $580,206 Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                  ($17)      $580,189 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                   ($3)      $580,186 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                  ($11)      $580,175 Updated due to quarterly assessment and reallocation
                                                                                                                   12/30/2009           ($2,900,000)    $1,960,000 Updated portfolio data from servicer & HAFA initial cap

                                                       Financial                                                    3/26/2010           ($1,600,000)      $360,000 Updated portfolio data from servicer
             Mortgage Clearing                         Instrument for
10/14/2009                               Purchase                                 $4,860,000    N/A                 7/14/2010            ($260,000)       $100,000 Updated portfolio data from servicer                             $0           $0                 $0                      $0
             Corporation, Tulsa, OK                    Home Loan
                                                       Modifications                                                9/30/2010               $45,056       $145,056 Updated portfolio data from servicer
                                                                                                                     3/9/2011            ($145,056)              $0 Termination of SPA
                                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                  313
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                 (CONTINUED)                                                                                                                                                                                             314
             Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                     TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                               Lenders/                                Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                           Borrower’s      Investors        Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                  Incentives     Incentives       Incentives               Payments
                                                                                                                   1/22/2010               $20,000        $430,000 Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010             $400,000         $830,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010            ($430,000)        $400,000 Updated portfolio data from servicer
                                                                                                                   9/30/2010             $180,222         $580,222 Updated portfolio data from servicer

                                                      Financial                                                     1/6/2011                    $1        $580,221 Updated portfolio data from servicer
             United Bank Mortgage
                                                      Instrument for
10/21/2009   Corporation,               Purchase                                  $410,000     N/A                 3/30/2011                    $1        $580,220 Updated due to quarterly assessment and reallocation     $30,047       $60,820           $54,235                $145,102
                                                      Home Loan
             Grand Rapids, MI
                                                      Modifications                                                6/29/2011                   ($5)       $580,215 Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012                   ($4)       $580,211 Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                  ($11)       $580,200 Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                   ($2)       $580,198 Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                   ($7)       $580,191 Updated due to quarterly assessment and reallocation
                                                                                                                   1/22/2010            $4,370,000     $98,030,000 Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010           $23,880,000    $121,910,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($16,610,000)      $105,300,000 Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                   9/30/2010            $1,751,033    $107,051,033 Updated portfolio data from servicer
                                                                                                                    1/6/2011                  ($77)   $107,050,956 Updated portfolio data from servicer
                                                                                                                   3/16/2011           ($9,900,000)    $97,150,956 Transfer of cap due to servicing transfer
                                                      Financial
             Bank United,                             Instrument for                                               3/30/2011                  ($88)    $97,150,868 Updated due to quarterly assessment and reallocation
10/23/2009                              Purchase                               $93,660,000     N/A                                                                                                                        $6,058,843   $15,517,592       $9,742,182             $31,318,617
             Miami Lakes, FL                          Home Loan                                                    6/29/2011                 ($773)    $97,150,095 Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   3/15/2012           ($1,400,000)    $95,750,095 Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012                 ($277)    $95,749,818 Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                 ($549)    $95,749,269 Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                  ($65)    $95,749,204 Updated due to quarterly assessment and reallocation
                                                                                                                   2/14/2013           ($2,670,000)    $93,079,204 Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013                 ($142)    $93,079,062 Updated due to quarterly assessment and reallocation
                                                                                                                   1/22/2010               $40,000        $800,000 Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010            ($760,000)         $40,000 Updated portfolio data from servicer
                                                                                                                   5/12/2010            $2,630,000      $2,670,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010            ($770,000)      $1,900,000 Updated portfolio data from servicer
                                                                                                                   9/30/2010             $565,945       $2,465,945 Updated portfolio data from servicer
                                                      Financial
             IC Federal Credit Union,                 Instrument for                                                1/6/2011                   ($4)     $2,465,941 Updated portfolio data from servicer
10/23/2009                              Purchase                                  $760,000     N/A                                                                                                                          $14,417       $30,724           $26,000                  $71,140
             Fitchburg, MA                            Home Loan                                                    3/30/2011                   ($4)     $2,465,937 Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   6/29/2011                  ($40)     $2,465,897 Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012                  ($29)     $2,465,868 Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                  ($80)     $2,465,788 Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                  ($14)     $2,465,774 Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($52)     $2,465,722 Updated due to quarterly assessment and reallocation
                                                      Financial
             Harleysville National
                                                      Instrument for
10/28/2009   Bank & Trust Company,      Purchase                                 $1,070,000    N/A                 4/21/2010           ($1,070,000)              $0 Termination of SPA                                           $0             $0                 $0                      $0
                                                      Home Loan
             Harleysville, PA
                                                      Modifications
                                                      Financial
             Members Mortgage                         Instrument for
10/28/2009                              Purchase                                  $510,000     N/A                 4/21/2010            ($510,000)               $0 Termination of SPA                                           $0             $0                 $0                      $0
             Company, Inc, Woburn, MA                 Home Loan
                                                      Modifications
                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                  (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                  TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                            Lenders/                               Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                          Borrower’s    Investors        Servicers               Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives              Payments
                                                                                                                    1/22/2010               $10,000        $80,000 Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010               $10,000        $90,000 Updated portfolio data from servicer

                                                       Financial                                                    7/14/2010               $10,000       $100,000 Updated portfolio data from servicer
             DuPage Credit Union,                      Instrument for
10/30/2009                               Purchase                                    $70,000    N/A                 9/30/2010               $45,056       $145,056 Updated portfolio data from servicer                      $5,028     $24,274           $10,328                 $39,630
             Naperville, IL                            Home Loan
                                                       Modifications                                                6/29/2011                    $1       $145,055 Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                    $1       $145,054 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                    $1       $145,053 Updated due to quarterly assessment and reallocation
                                                                                                                    1/22/2010               $40,000       $740,000 Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010               $50,000       $790,000 Updated portfolio data from servicer
                                                                                                                    7/14/2010            $1,310,000     $2,100,000 Updated portfolio data from servicer
                                                                                                                    9/30/2010               $75,834     $2,175,834 Updated portfolio data from servicer

                                                       Financial                                                     1/6/2011                   ($3)    $2,175,831 Updated portfolio data from servicer
             Los Alamos National Bank,                 Instrument for
11/6/2009                                Purchase                                  $700,000     N/A                 3/30/2011                   ($4)    $2,175,827 Updated due to quarterly assessment and reallocation     $12,638     $24,748           $27,751                 $65,137
             Los Alamos, NM                            Home Loan
                                                       Modifications                                                6/29/2011                  ($35)    $2,175,792 Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012                  ($26)    $2,175,766 Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                  ($70)    $2,175,696 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                  ($12)    $2,175,684 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                  ($45)    $2,175,639 Updated due to quarterly assessment and reallocation
                                                                                                                    1/22/2010             $890,000     $19,850,000 Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010            $3,840,000    $23,690,000 Updated portfolio data from servicer
                                                                                                                    7/14/2010           ($2,890,000)   $20,800,000 Updated portfolio data from servicer
                                                                                                                    9/30/2010            $9,661,676    $30,461,676 Updated portfolio data from servicer
                                                                                                                     1/6/2011                  ($46)   $30,461,630 Updated portfolio data from servicer
                                                                                                                    1/13/2011            $1,600,000    $32,061,630 Transfer of cap due to servicing transfer
                                                                                                                    2/16/2011            $1,400,000    $33,461,630 Transfer of cap due to servicing transfer
                                                                                                                    3/30/2011                  ($58)   $33,461,572 Updated due to quarterly assessment and reallocation
                                                                                                                    4/13/2011             $100,000     $33,561,572 Transfer of cap due to servicing transfer
                                                                                                                    5/13/2011             $100,000     $33,661,572 Transfer of cap due to servicing transfer

                                                       Financial                                                    6/16/2011             $800,000     $34,461,572 Transfer of cap due to servicing transfer
             Quantum Servicing                         Instrument for
11/18/2009                               Purchase                               $18,960,000     N/A                 6/29/2011                 ($559)   $34,461,013 Updated due to quarterly assessment and reallocation    $134,393    $335,508          $183,984               $653,885
             Corporation, Tampa, FL                    Home Loan
                                                       Modifications                                                7/14/2011             $300,000     $34,761,013 Transfer of cap due to servicing transfer
                                                                                                                    8/16/2011             $200,000     $34,961,013 Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011             $100,000     $35,061,013 Transfer of cap due to servicing transfer
                                                                                                                    1/13/2012             $100,000     $35,161,013 Transfer of cap due to servicing transfer
                                                                                                                    6/14/2012             $330,000     $35,491,013 Transfer of cap due to servicing transfer
                                                                                                                    6/28/2012                 ($428)   $35,490,585 Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012               ($1,184)   $35,489,401 Updated due to quarterly assessment and reallocation
                                                                                                                   10/16/2012           ($1,910,000)   $33,579,401 Transfer of cap due to servicing transfer
                                                                                                                   11/15/2012            ($980,000)    $32,599,401 Transfer of cap due to servicing transfer
                                                                                                                   12/27/2012                 ($187)   $32,599,214 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                 ($707)   $32,598,507 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                              315
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                  (CONTINUED)                                                                                                                                                                                          316
             Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                  TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                            Lenders/                                Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                          Borrower’s    Investors        Servicers                Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives               Payments
                                                                                                                    1/22/2010               $80,000     $1,750,000 Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010             $330,000      $2,080,000 Updated portfolio data from servicer
                                                                                                                    7/14/2010           ($1,080,000)    $1,000,000 Updated portfolio data from servicer
                                                                                                                    9/30/2010             $160,445      $1,160,445 Updated portfolio data from servicer

                                                       Financial                                                     1/6/2011                    $1     $1,160,444 Updated portfolio data from servicer
             Hillsdale County National                 Instrument for
11/18/2009                               Purchase                                 $1,670,000    N/A                 3/30/2011                   ($2)    $1,160,442 Updated due to quarterly assessment and reallocation     $25,420     $31,065           $49,400                $105,885
             Bank, Hillsdale, MI                       Home Loan
                                                       Modifications                                                6/29/2011                  ($16)    $1,160,426 Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012                  ($12)    $1,160,414 Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                  ($33)    $1,160,381 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                   ($6)    $1,160,375 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                  ($21)    $1,160,354 Updated due to quarterly assessment and reallocation
                                                                                                                    3/26/2010              ($10,000)       $10,000 Updated portfolio data from servicer
                                                                                                                    7/14/2010               $90,000       $100,000 Updated portfolio data from servicer

                                                       Financial                                                    9/30/2010               $45,056       $145,056 Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




             QLending, Inc., Coral                     Instrument for
11/18/2009                               Purchase                                    $20,000    N/A                 6/29/2011                    $1       $145,055 Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Gables, FL                                Home Loan
                                                       Modifications                                                6/28/2012                    $1       $145,054 Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                   ($2)      $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                    $1       $145,051 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                         TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                   Lenders/                                Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                 Borrower’s    Investors        Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                        Incentives   Incentives       Incentives               Payments
                                                                                                                 1/22/2010             $950,000     $21,310,000 Updated HPDP cap & HAFA initial cap
                                                                                                                 3/26/2010       ($17,880,000)       $3,430,000 Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                                 6/16/2010            $1,030,000     $4,460,000
                                                                                                                                                                   transfer
                                                                                                                 7/14/2010           ($1,160,000)    $3,300,000 Updated portfolio data from servicer
                                                                                                                 8/13/2010             $800,000      $4,100,000 Transfer of cap due to servicing transfer
                                                                                                                 9/30/2010             $200,000      $4,300,000 Initial FHA-HAMP cap and initial RD-HAMP
                                                                                                                 9/30/2010            $1,357,168     $5,657,168 Updated portfolio data from servicer
                                                                                                                  1/6/2011                    $1     $5,657,167 Updated portfolio data from servicer
                                                                                                                 3/16/2011            $5,700,000    $11,357,167 Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011                   ($6)   $11,357,161 Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011            $7,300,000    $18,657,161 Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011             $300,000     $18,957,161 Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011             $900,000     $19,857,161 Transfer of cap due to servicing transfer
                                                    Financial                                                    6/29/2011                 ($154)   $19,857,007 Updated due to quarterly assessment and reallocation
             Marix Servicing, LLC,                  Instrument for
11/25/2009                            Purchase                               $20,360,000     N/A                                                                                                                               $352,196    $970,197          $839,633               $2,162,025
             Phoenix, AZ                            Home Loan                                                    7/14/2011             $100,000     $19,957,007 Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 8/16/2011             $300,000     $20,257,007 Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012           ($1,500,000)   $18,757,007 Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012           ($2,100,000)   $16,657,007 Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012           ($1,300,000)   $15,357,007 Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012           ($8,350,000)    $7,007,007 Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012                  ($38)    $7,006,969 Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2012              ($90,000)    $6,916,969 Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012                 ($103)    $6,916,866 Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012           ($1,020,000)    $5,896,866 Transfer of cap due to servicing transfer
                                                                                                                11/15/2012             $170,000      $6,066,866 Transfer of cap due to servicing transfer
                                                                                                                12/27/2012                  ($15)    $6,066,851 Updated due to quarterly assessment and reallocation
                                                                                                                 2/14/2013            ($100,000)     $5,966,851 Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013            ($490,000)     $5,476,851 Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013                  ($61)    $5,476,790 Updated due to quarterly assessment and reallocation
                                                    Financial
             Home Financing Center,                 Instrument for
11/25/2009                            Purchase                                  $230,000     N/A                 4/21/2010            ($230,000)              $0 Termination of SPA                                                  $0           $0                 $0                      $0
             Inc, Coral Gables FL                   Home Loan
                                                    Modifications
                                                                                                                 1/22/2010               $50,000     $1,330,000 Updated HPDP cap & HAFA initial cap
                                                                                                                 3/26/2010            $1,020,000     $2,350,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010            ($950,000)     $1,400,000 Updated portfolio data from servicer

                                                    Financial                                                    9/30/2010               $50,556     $1,450,556 Updated portfolio data from servicer
             First Keystone Bank,                   Instrument for
11/25/2009                            Purchase                                 $1,280,000    N/A         12       1/6/2011                   ($2)    $1,450,554 Updated portfolio data from servicer                             $2,776       $3,423           $8,718                  $14,917
             Media, PA                              Home Loan
                                                    Modifications                                                3/30/2011                   ($2)    $1,450,552 Updated due to quarterly assessment and reallocation
                                                                                                                 6/16/2011            ($100,000)     $1,350,552 Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011                  ($21)    $1,350,531 Updated due to quarterly assessment and reallocation
                                                                                                                 7/22/2011           ($1,335,614)       $14,917 Termination of SPA
                                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                   317
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                   (CONTINUED)                                                                                                                                                                                          318
            Servicer Modifying Borrowers’ Loans                                                                     Adjustment Details                                                                                                  TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                            Lenders/                                Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                          Borrower’s    Investors        Servicers                Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives               Payments
                                                                                                                     1/22/2010               $10,000       $390,000 Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010             $520,000        $910,000 Updated portfolio data from servicer
                                                                                                                     7/14/2010            ($810,000)       $100,000 Updated portfolio data from servicer
                                                        Financial
            Community Bank & Trust                                                                                   9/30/2010               $45,056       $145,056 Updated portfolio data from servicer
                                                        Instrument for
12/4/2009   Company,                      Purchase                                  $380,000     N/A                                                                                                                              $0           $0                 $0                      $0
                                                        Home Loan                                                    6/29/2011                    $1       $145,055 Updated due to quarterly assessment and reallocation
            Clarks Summit, PA
                                                        Modifications
                                                                                                                     6/28/2012                    $1       $145,054 Updated due to quarterly assessment and reallocation
                                                                                                                     9/27/2012                   ($2)      $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                     3/25/2013                    $1       $145,051 Updated due to quarterly assessment and reallocation
                                                                                                                     1/22/2010             $440,000      $9,870,000 Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010           $14,480,000    $24,350,000 Updated portfolio data from servicer
                                                                                                                     5/26/2010       ($24,200,000)         $150,000 Updated portfolio data from servicer
                                                                                                                     7/14/2010             $150,000        $300,000 Updated portfolio data from servicer
                                                        Financial
            Idaho Housing and Finance                   Instrument for                                               9/30/2010               ($9,889)      $290,111 Updated portfolio data from servicer
12/4/2009                                 Purchase                                 $9,430,000    N/A                                                                                                                         $15,489     $18,868           $26,539                  $60,896
            Association, Boise, ID                      Home Loan                                                    6/29/2011                   ($3)      $290,108 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                        Modifications
                                                                                                                     6/28/2012                   ($2)      $290,106 Updated due to quarterly assessment and reallocation
                                                                                                                     9/27/2012                   ($6)      $290,100 Updated due to quarterly assessment and reallocation
                                                                                                                    12/27/2012                    $1       $290,099 Updated due to quarterly assessment and reallocation
                                                                                                                     3/25/2013                   ($3)      $290,096 Updated due to quarterly assessment and reallocation
                                                                                                                     1/22/2010               $10,000       $370,000 Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010             $850,000      $1,220,000 Updated portfolio data from servicer

                                                        Financial                                                    7/14/2010            ($120,000)     $1,100,000 Updated portfolio data from servicer
            Spirit of Alaska Federal
                                                        Instrument for
12/9/2009   Credit Union,                 Purchase                                  $360,000     N/A                 9/30/2010             $100,000      $1,200,000 Initial FHA-HAMP cap                                          $0           $0                 $0                      $0
                                                        Home Loan
            Fairbanks, AK
                                                        Modifications                                                9/30/2010             $105,500      $1,305,500 Updated portfolio data from servicer
                                                                                                                      1/6/2011                   ($2)    $1,305,498 Updated portfolio data from servicer
                                                                                                                     2/17/2011           ($1,305,498)             $0 Termination of SPA
                                                                                                                     1/22/2010               $70,000     $1,660,000 Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010            ($290,000)     $1,370,000 Updated portfolio data from servicer
                                                                                                                     7/14/2010            ($570,000)       $800,000 Updated portfolio data from servicer
                                                        Financial
            American Eagle Federal                                                                                   9/30/2010               $70,334       $870,334 Updated portfolio data from servicer
                                                        Instrument for
12/9/2009   Credit Union,                 Purchase                                 $1,590,000    N/A                                                                                                                              $0           $0                 $0                      $0
                                                        Home Loan                                                     1/6/2011                    $1       $870,333 Updated portfolio data from servicer
            East Hartford, CT
                                                        Modifications
                                                                                                                     3/30/2011                    $1       $870,332 Updated due to quarterly assessment and reallocation
                                                                                                                     6/29/2011                  ($13)      $870,319 Updated due to quarterly assessment and reallocation
                                                                                                                     1/25/2012            ($870,319)              $0 Termination of SPA
                                                                                                                     1/22/2010               $90,000     $1,970,000 Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010            $1,110,000     $3,080,000 Updated portfolio data from servicer
                                                                                                                     7/14/2010           ($1,180,000)    $1,900,000 Updated portfolio data from servicer
                                                                                                                     9/30/2010             $275,834      $2,175,834 Updated portfolio data from servicer

                                                        Financial                                                     1/6/2011                   ($2)    $2,175,832 Updated portfolio data from servicer
            Silver State Schools Credit                 Instrument for
12/9/2009                                 Purchase                                 $1,880,000    N/A                 3/30/2011                   ($3)    $2,175,829 Updated due to quarterly assessment and reallocation     $40,356    $174,377           $69,189                $283,922
            Union, Las Vegas, NV                        Home Loan
                                                        Modifications                                                6/29/2011                  ($26)    $2,175,803 Updated due to quarterly assessment and reallocation
                                                                                                                     6/28/2012                  ($21)    $2,175,782 Updated due to quarterly assessment and reallocation
                                                                                                                     9/27/2012                  ($57)    $2,175,725 Updated due to quarterly assessment and reallocation
                                                                                                                    12/27/2012                  ($10)    $2,175,715 Updated due to quarterly assessment and reallocation
                                                                                                                     3/25/2013                  ($37)    $2,175,678 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                  TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                            Lenders/                                Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                          Borrower’s    Investors        Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives               Payments
                                                                                                                 1/22/2010             $140,000      $3,080,000 Updated HPDP cap & HAFA initial cap
                                                                                                                 3/26/2010            $6,300,000     $9,380,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010           ($1,980,000)    $7,400,000 Updated portfolio data from servicer
                                                                                                                 9/30/2010           ($6,384,611)    $1,015,389 Updated portfolio data from servicer

                                                    Financial                                                     1/6/2011                    $1     $1,015,388 Updated portfolio data from servicer
             Fidelity Homestead
                                                    Instrument for
12/9/2009    Savings Bank,            Purchase                                 $2,940,000    N/A                 3/30/2011                   ($2)    $1,015,386 Updated due to quarterly assessment and reallocation          $0           $0           $2,000                   $2,000
                                                    Home Loan
             New Orleans, LA
                                                    Modifications                                                6/29/2011                  ($16)    $1,015,370 Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                  ($12)    $1,015,358 Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                  ($32)    $1,015,326 Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                   ($5)    $1,015,321 Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                  ($21)    $1,015,300 Updated due to quarterly assessment and reallocation
                                                                                                                 1/22/2010               $10,000       $240,000 Updated HPDP cap & HAFA initial cap

                                                    Financial                                                    3/26/2010             $440,000        $680,000 Updated portfolio data from servicer
             Bay Gulf Credit Union,                 Instrument for
12/9/2009                             Purchase                                  $230,000     N/A                 7/14/2010              ($80,000)      $600,000 Updated portfolio data from servicer                          $0           $0                 $0                      $0
             Tampa, FL                              Home Loan
                                                    Modifications                                                9/30/2010              ($19,778)      $580,222 Updated portfolio data from servicer
                                                                                                                10/15/2010            ($580,222)             $0 Termination of SPA
                                                                                                                 1/22/2010             $290,000      $6,450,000 Updated HPDP cap & HAFA initial cap
                                                                                                                 3/26/2010               $40,000     $6,490,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010           ($2,890,000)    $3,600,000 Updated portfolio data from servicer
                                                                                                                 9/30/2010             $606,612      $4,206,612 Updated portfolio data from servicer

                                                    Financial                                                     1/6/2011                   ($4)    $4,206,608 Updated portfolio data from servicer
             The Golden 1 Credit
                                                    Instrument for
12/9/2009    Union, Sacramento, CA    Purchase                                 $6,160,000    N/A                 3/30/2011                   ($4)    $4,206,604 Updated due to quarterly assessment and reallocation    $191,940    $703,516          $417,450               $1,312,906
                                                    Home Loan
                                                    Modifications                                                6/29/2011                  ($35)    $4,206,569 Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                   ($9)    $4,206,560 Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                  ($14)    $4,206,546 Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                   ($2)    $4,206,544 Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                   ($8)    $4,206,536 Updated due to quarterly assessment and reallocation
                                                                                                                 1/22/2010             $100,000      $2,350,000 Updated HPDP cap & HAFA initial cap
                                                                                                                 3/26/2010            ($740,000)     $1,610,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010            ($710,000)       $900,000 Updated portfolio data from servicer
                                                                                                                 9/30/2010             $550,556      $1,450,556 Updated portfolio data from servicer
                                                    Financial
             Sterling Savings Bank,                 Instrument for                                                1/6/2011                    $1     $1,450,555 Updated portfolio data from servicer
12/9/2009                             Purchase                                 $2,250,000    N/A                                                                                                                        $116,725    $264,442          $224,940                $606,107
             Spokane, WA                            Home Loan                                                    3/30/2011                    $1     $1,450,554 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 6/29/2011                  ($11)    $1,450,543 Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012               $30,907     $1,481,450 Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012               $58,688     $1,540,138 Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013             $235,175      $1,775,313 Updated due to quarterly assessment and reallocation
                                                                                                                 1/22/2010               $20,000       $330,000 Updated HPDP cap & HAFA initial cap
                                                                                                                 3/26/2010             $820,000      $1,150,000 Updated portfolio data from servicer
                                                                                                                 7/14/2010            ($350,000)       $800,000 Updated portfolio data from servicer

                                                    Financial                                                    9/30/2010               $70,334       $870,334 Updated portfolio data from servicer
             HomeStar Bank &
                                                    Instrument for
12/11/2009   Financial Services,      Purchase                                  $310,000     N/A         12       1/6/2011                    $1       $870,333 Updated portfolio data from servicer                      $1,917       $5,573           $5,833                  $13,323
                                                    Home Loan
             Manteno, IL
                                                    Modifications                                                3/30/2011                    $1       $870,332 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                                                                                                                 6/29/2011                  ($13)      $870,319 Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                  ($10)      $870,309 Updated due to quarterly assessment and reallocation
                                                                                                                  7/6/2012            ($856,986)        $13,323 Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            319
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                 (CONTINUED)                                                                                                                                                                                          320
             Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                  TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                            Lenders/                                Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                          Borrower’s    Investors        Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives               Payments

                                                      Financial                                                    1/22/2010               $20,000       $390,000 Updated HPDP cap & HAFA initial cap
             Glenview State Bank,                     Instrument for
12/11/2009                              Purchase                                  $370,000     N/A                 3/26/2010            $1,250,000     $1,640,000 Updated portfolio data from servicer                          $0           $0                 $0                      $0
             Glenview, IL                             Home Loan
                                                      Modifications                                                5/26/2010           ($1,640,000)             $0 Termination of SPA
                                                                                                                   1/22/2010               $30,000       $630,000 Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010             $400,000      $1,030,000 Updated portfolio data from servicer
                                                      Financial
             Verity Credit Union,                     Instrument for                                               7/14/2010            ($330,000)       $700,000 Updated portfolio data from servicer
12/11/2009                              Purchase                                  $600,000     N/A                                                                                                                              $0           $0                 $0                      $0
             Seatle, WA                               Home Loan                                                    9/30/2010               $25,278       $725,278 Updated portfolio data from servicer
                                                      Modifications
                                                                                                                    1/6/2011                    $1       $725,277 Updated portfolio data from servicer
                                                                                                                   2/17/2011            ($725,277)              $0 Termination of SPA
                                                                                                                   1/22/2010               $30,000       $660,000 Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010             $800,000      $1,460,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010            ($360,000)     $1,100,000 Updated portfolio data from servicer
                                                                                                                   9/30/2010               $60,445     $1,160,445 Updated portfolio data from servicer

                                                      Financial                                                     1/6/2011                   ($2)    $1,160,443 Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




             Hartford Savings Bank,                   Instrument for
12/11/2009                              Purchase                                  $630,000     N/A                 3/30/2011                   ($2)    $1,160,441 Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Hartford, WI                             Home Loan
                                                      Modifications                                                6/29/2011                  ($18)    $1,160,423 Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012                  ($14)    $1,160,409 Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                  ($37)    $1,160,372 Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                   ($6)    $1,160,366 Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($24)    $1,160,342 Updated due to quarterly assessment and reallocation
                                                      Financial                                                    4/21/2010            ($150,000)              $0 Termination of SPA
             The Bryn Mawr Trust Co.,
                                                      Instrument for
12/11/2009   Bryn Mawr, PA              Purchase                                  $150,000     N/A          9                                                                                                               $8,137     $10,637            $8,436                  $27,209
                                                      Home Loan                                                    6/16/2011             $100,000        $100,000 Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                   1/22/2010               $30,000       $650,000 Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010            ($580,000)        $70,000 Updated portfolio data from servicer
                                                                                                                   7/14/2010            $1,430,000     $1,500,000 Updated portfolio data from servicer
                                                                                                                   9/30/2010               $95,612     $1,595,612 Updated portfolio data from servicer

                                                      Financial                                                     1/6/2011                   ($2)    $1,595,610 Updated portfolio data from servicer
             Citizens First National                  Instrument for
12/16/2009                              Purchase                                  $620,000     N/A                 3/30/2011                   ($3)    $1,595,607 Updated due to quarterly assessment and reallocation     $15,333     $44,256           $33,317                  $92,906
             Bank, Spring Valley, IL                  Home Loan
                                                      Modifications                                                6/29/2011                  ($24)    $1,595,583 Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012                  ($16)    $1,595,567 Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                  ($45)    $1,595,522 Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                   ($8)    $1,595,514 Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($30)    $1,595,484 Updated due to quarterly assessment and reallocation
                                                                                                                   1/22/2010               $10,000       $180,000 Updated HPDP cap & HAFA initial cap

                                                      Financial                                                    3/26/2010               $30,000       $210,000 Updated portfolio data from servicer
             Golden Plains Credit                     Instrument for
12/16/2009                              Purchase                                  $170,000     N/A                 7/14/2010              ($10,000)      $200,000 Updated portfolio data from servicer                          $0           $0                 $0                      $0
             Union, Garden City, KS                   Home Loan
                                                      Modifications                                                9/30/2010               $90,111       $290,111 Updated portfolio data from servicer
                                                                                                                   2/17/2011            ($290,111)              $0 Termination of SPA
                                                      Financial                                                    1/22/2010             $160,000      $3,620,000 Updated HPDP cap & HAFA initial cap
             First Federal Savings
                                                      Instrument for
12/16/2009   and Loan Association of    Purchase                                 $3,460,000    N/A                                                                                                                              $0           $0                 $0                      $0
                                                      Home Loan                                                    4/21/2010           ($3,620,000)             $0 Termination of SPA
             Lakewood, Lakewood, OH
                                                      Modifications
                                                                                                                   1/22/2010               $20,000       $460,000 Updated HPDP cap & HAFA initial cap
                                                      Financial
             Sound Community Bank,                    Instrument for                                               3/26/2010            $1,430,000     $1,890,000 Updated portfolio data from servicer
12/16/2009                              Purchase                                  $440,000     N/A                                                                                                                              $0           $0                 $0                      $0
             Seatle, WA                               Home Loan                                                    7/14/2010            ($390,000)     $1,500,000 Updated portfolio data from servicer
                                                      Modifications
                                                                                                                    9/8/2010           ($1,500,000)             $0 Termination of SPA
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                  (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                  TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                            Lenders/                                Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                          Borrower’s    Investors        Servicers                Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives               Payments
                                                                                                                    1/22/2010               $30,000       $730,000 Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010            $1,740,000     $2,470,000 Updated portfolio data from servicer
                                                                                                                    7/14/2010           ($1,870,000)      $600,000 Updated portfolio data from servicer

                                                       Financial                                                    9/30/2010             $850,556      $1,450,556 Updated portfolio data from servicer
             Horizon Bank, NA,                         Instrument for
12/16/2009                               Purchase                                  $700,000     N/A                  1/6/2011                   ($2)    $1,450,554 Updated portfolio data from servicer                          $0           $0                 $0                      $0
             Michigan City, IN                         Home Loan
                                                       Modifications                                                3/30/2011                   ($2)    $1,450,552 Updated due to quarterly assessment and reallocation
                                                                                                                    6/29/2011                  ($23)    $1,450,529 Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012                  ($17)    $1,450,512 Updated due to quarterly assessment and reallocation
                                                                                                                    9/21/2012           ($1,450,512)             $0 Termination of SPA
                                                                                                                    1/22/2010               $40,000       $800,000 Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010             $140,000        $940,000 Updated portfolio data from servicer
                                                                                                                    7/14/2010            ($140,000)       $800,000 Updated portfolio data from servicer

                                                       Financial                                                    9/30/2010               $70,334       $870,334 Updated portfolio data from servicer
             Park View Federal Savings                 Instrument for
12/16/2009                               Purchase                                  $760,000     N/A         12       1/6/2011                    $1       $870,333 Updated portfolio data from servicer                     $11,000     $23,937           $19,000                  $53,937
             Bank, Solon, OH                           Home Loan
                                                       Modifications                                                3/30/2011                    $1       $870,332 Updated due to quarterly assessment and reallocation
                                                                                                                    6/29/2011                  ($12)      $870,320 Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012                  ($10)      $870,310 Updated due to quarterly assessment and reallocation
                                                                                                                    9/14/2012            ($816,373)        $53,937 Termination of SPA
                                                                                                                    1/22/2010             $200,000      $4,430,000 Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010           ($1,470,000)    $2,960,000 Updated portfolio data from servicer
                                                                                                                    7/14/2010           ($1,560,000)    $1,400,000 Updated portfolio data from servicer
                                                       Financial
                                                       Instrument for                                               9/30/2010            $5,852,780     $7,252,780 Updated portfolio data from servicer
12/23/2009   Iberiabank, Sarasota, FL    Purchase                                 $4,230,000    N/A         12                                                                                                                   $0     $10,502           $15,000                  $25,502
                                                       Home Loan                                                     1/6/2011                  ($11)    $7,252,769 Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    3/30/2011                  ($13)    $7,252,756 Updated due to quarterly assessment and reallocation
                                                                                                                    4/13/2011            ($300,000)     $6,952,756 Transfer of cap due to servicing transfer
                                                                                                                     6/3/2011           ($6,927,254)       $25,502 Termination of SPA
                                                                                                                    1/22/2010               $20,000       $360,000 Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010            ($320,000)        $40,000 Updated portfolio data from servicer
                                                                                                                    7/14/2010             $760,000        $800,000 Updated portfolio data from servicer
                                                       Financial
             Grafton Suburban Credit                   Instrument for                                               9/30/2010              ($74,722)      $725,278 Updated portfolio data from servicer
12/23/2009                               Purchase                                  $340,000     N/A                                                                                                                              $0           $0                 $0                      $0
             Union, North Grafton, MA                  Home Loan                                                     1/6/2011                    $1       $725,277 Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    3/30/2011                    $1       $725,276 Updated due to quarterly assessment and reallocation
                                                                                                                    6/29/2011                  ($11)      $725,265 Updated due to quarterly assessment and reallocation
                                                                                                                    1/25/2012            ($725,265)              $0 Termination of SPA
                                                                                                                    3/26/2010               $90,000       $150,000 Updated portfolio data from servicer
                                                       Financial
             Eaton National Bank &                     Instrument for                                               7/14/2010               $50,000       $200,000 Updated portfolio data from servicer
12/23/2009                               Purchase                                    $60,000    N/A                                                                                                                              $0           $0                 $0                      $0
             Trust Company, Eaton, OH                  Home Loan                                                    9/30/2010              ($54,944)      $145,056 Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    5/20/2011            ($145,056)              $0 Termination of SPA
                                                                                                                    3/26/2010              ($20,000)       $90,000 Updated portfolio data from servicer
                                                       Financial
             Tempe Schools Credit                      Instrument for                                               7/14/2010               $10,000       $100,000 Updated portfolio data from servicer
12/23/2009                               Purchase                                  $110,000     N/A                                                                                                                              $0           $0                 $0                      $0
             Union, Tempe, AZ                          Home Loan                                                    9/30/2010               $45,056       $145,056 Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    12/8/2010            ($145,056)              $0 Termination of SPA
                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                               321
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                  (CONTINUED)                                                                                                                                                                                        322
            Servicer Modifying Borrowers’ Loans                                                                    Adjustment Details                                                                                                TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                          Lenders/                                Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                        Borrower’s    Investors        Servicers                Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount      Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives               Payments
                                                                                                                    3/26/2010            $480,000       $740,000 Updated portfolio data from servicer
                                                                                                                    7/14/2010           ($140,000)      $600,000 Updated portfolio data from servicer
                                                                                                                    9/30/2010            ($19,778)      $580,222 Updated portfolio data from servicer
                                                       Financial
            Fresno County Federal                      Instrument for                                                1/6/2011                  $1       $580,221 Updated portfolio data from servicer
1/13/2010                                Purchase                                  $260,000     N/A         12                                                                                                             $3,833     $13,204            $7,917                  $24,954
            Credit Union, Fresno, CA                   Home Loan                                                    3/30/2011                  $1       $580,220 Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                    6/29/2011                 ($8)      $580,212 Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012                 ($6)      $580,206 Updated due to quarterly assessment and reallocation
                                                                                                                     7/6/2012           ($555,252)       $24,954 Termination of SPA
                                                                                                                    3/26/2010            $610,000       $850,000 Updated portfolio data from servicer

                                                       Financial                                                    7/14/2010             $50,000       $900,000 Updated portfolio data from servicer
            Roebling Bank,                             Instrument for
1/13/2010                                Purchase                                  $240,000     N/A                 9/30/2010            ($29,666)      $870,334 Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Roebling, NJ                               Home Loan
                                                       Modifications                                                 1/6/2011                  $1       $870,333 Updated portfolio data from servicer
                                                                                                                    3/23/2011           ($870,333)            $0 Termination of SPA
                                                                                                                    3/26/2010            $150,000       $290,000 Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                       Financial
            First National Bank of                     Instrument for                                               7/14/2010             $10,000       $300,000 Updated portfolio data from servicer
1/13/2010                                Purchase                                  $140,000     N/A                                                                                                                            $0           $0                 $0                      $0
            Grant Park, Grant Park, IL                 Home Loan                                                    9/30/2010             ($9,889)      $290,111 Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    1/26/2011           ($290,111)            $0 Termination of SPA
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                           TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                    Lenders/                                Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                  Borrower’s    Investors         Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                         Incentives   Incentives        Incentives              Payments
                                                                                                                3/26/2010       ($51,240,000)       $12,910,000 Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                                5/14/2010            $3,000,000     $15,910,000
                                                                                                                                                                   transfer
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                                6/16/2010            $4,860,000     $20,770,000
                                                                                                                                                                   transfer
                                                                                                                7/14/2010            $3,630,000     $24,400,000 Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                                7/16/2010             $330,000      $24,730,000
                                                                                                                                                                   transfer
                                                                                                                8/13/2010             $700,000      $25,430,000 Transfer of cap due to servicing transfer
                                                                                                                9/15/2010             $200,000      $25,630,000 Transfer of cap due to servicing transfer
                                                                                                                9/30/2010           ($1,695,826)    $23,934,174 Updated portfolio data from servicer
                                                                                                               11/16/2010             $200,000      $24,134,174 Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011                  ($32)    $24,134,142 Updated portfolio data from servicer
                                                                                                                1/13/2011            $1,500,000     $25,634,142 Transfer of cap due to servicing transfer
                                                                                                                3/16/2011            $7,100,000     $32,734,142 Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                  ($36)    $32,734,106 Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011            $1,000,000     $33,734,106 Transfer of cap due to servicing transfer
                                                                                                                5/13/2011             $100,000      $33,834,106 Transfer of cap due to servicing transfer
                                                                                                                6/16/2011             $300,000      $34,134,106 Transfer of cap due to servicing transfer
                                                                                                                6/29/2011                 ($332)    $34,133,774 Updated due to quarterly assessment and reallocation

                                                   Financial                                                    8/16/2011             $100,000      $34,233,774 Transfer of cap due to servicing transfer
            Specialized Loan
                                                   Instrument for                                               9/15/2011             $300,000      $34,533,774 Transfer of cap due to servicing transfer
1/13/2010   Servicing, LLC,          Purchase                               $64,150,000     N/A                                                                                                                               $2,363,000   $5,554,555       $4,635,541            $12,553,097
                                                   Home Loan
            Highlands Ranch, CO
                                                   Modifications                                               10/14/2011             $300,000      $34,833,774 Transfer of cap due to servicing transfer
                                                                                                               12/15/2011           ($1,700,000)    $33,133,774 Transfer of cap due to servicing transfer
                                                                                                                1/13/2012            $1,600,000     $34,733,774 Transfer of cap due to servicing transfer
                                                                                                                2/16/2012             $100,000      $34,833,774 Transfer of cap due to servicing transfer
                                                                                                                3/15/2012             $100,000      $34,933,774 Transfer of cap due to servicing transfer
                                                                                                                4/16/2012           $77,600,000    $112,533,774 Transfer of cap due to servicing transfer
                                                                                                                5/16/2012               $40,000    $112,573,774 Transfer of cap due to servicing transfer
                                                                                                                6/14/2012            ($350,000)    $112,223,774 Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($1,058)   $112,222,716 Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012            $4,430,000    $116,652,716 Transfer of cap due to servicing transfer
                                                                                                                8/16/2012           ($1,280,000)   $115,372,716 Transfer of cap due to servicing transfer
                                                                                                                9/27/2012               ($3,061)   $115,369,655 Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012            $5,600,000    $120,969,655 Transfer of cap due to servicing transfer
                                                                                                               11/15/2012             $880,000     $121,849,655 Transfer of cap due to servicing transfer
                                                                                                               12/14/2012           $24,180,000    $146,029,655 Transfer of cap due to servicing transfer
                                                                                                               12/27/2012                 ($663)   $146,028,992 Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013            $2,410,000    $148,438,992 Transfer of cap due to servicing transfer
                                                                                                                2/14/2013            $6,650,000    $155,088,992 Transfer of cap due to servicing transfer
                                                                                                                3/14/2013           ($1,450,000)   $153,638,992 Transfer of cap due to servicing transfer
                                                                                                                3/25/2013               ($2,584)   $153,636,408 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                   323
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                   (CONTINUED)                                                                                                                                                                                          324
            Servicer Modifying Borrowers’ Loans                                                                     Adjustment Details                                                                                                  TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                            Lenders/                                Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                          Borrower’s    Investors        Servicers                Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives               Payments
                                                                                                                     3/26/2010            $8,680,000     $9,450,000 Updated portfolio data from servicer
                                                                                                                     7/14/2010           ($8,750,000)      $700,000 Updated portfolio data from servicer
                                                                                                                     9/30/2010             $170,334        $870,334 Updated portfolio data from servicer
                                                                                                                      1/6/2011                    $1       $870,333 Updated portfolio data from servicer
                                                        Financial
            Greater Nevada Mortgage                     Instrument for                                               3/30/2011                    $1       $870,332 Updated due to quarterly assessment and reallocation
1/13/2010                                 Purchase                                  $770,000     N/A                                                                                                                         $49,601    $117,083           $84,224                $250,907
            Services, Carson City, NV                   Home Loan                                                    6/29/2011                   ($8)      $870,324 Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                     6/28/2012                   ($4)      $870,320 Updated due to quarterly assessment and reallocation
                                                                                                                     9/27/2012                  ($10)      $870,310 Updated due to quarterly assessment and reallocation
                                                                                                                    12/27/2012                   ($2)      $870,308 Updated due to quarterly assessment and reallocation
                                                                                                                     3/25/2013                   ($7)      $870,301 Updated due to quarterly assessment and reallocation
                                                        Financial                                                    3/26/2010           $12,190,000    $15,240,000 Updated portfolio data from servicer
            Digital Federal Credit
                                                        Instrument for
1/15/2010   Union, Marlborough, MA        Purchase                                 $3,050,000    N/A                                                                                                                              $0           $0                 $0                      $0
                                                        Home Loan                                                    5/14/2010       ($15,240,000)                $0 Termination of SPA
            10416
                                                        Modifications
                                                                                                                     3/26/2010            ($730,000)       $230,000 Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                     7/14/2010             $370,000        $600,000 Updated portfolio data from servicer
                                                                                                                     9/30/2010             $200,000        $800,000 Initial FHA-HAMP cap and initial 2MP cap
                                                                                                                     9/30/2010            ($364,833)       $435,167 Updated portfolio data from servicer
                                                                                                                    11/16/2010             $100,000        $535,167 Transfer of cap due to servicing transfer
                                                        Financial
            iServe Residential Lending,                 Instrument for                                                1/6/2011                    $1       $535,166 Updated portfolio data from servicer
1/29/2010                                 Purchase                                  $960,000     N/A                                                                                                                              $0           $0                 $0                      $0
            LLC , San Diego, CA                         Home Loan                                                    3/30/2011                    $1       $535,165 Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                     6/29/2011                   ($7)      $535,158 Updated due to quarterly assessment and reallocation
                                                                                                                     6/28/2012                   ($6)      $535,152 Updated due to quarterly assessment and reallocation
                                                                                                                     9/27/2012                  ($15)      $535,137 Updated due to quarterly assessment and reallocation
                                                                                                                    12/27/2012                   ($3)      $535,134 Updated due to quarterly assessment and reallocation
                                                                                                                     3/25/2013                  ($10)      $535,124 Updated due to quarterly assessment and reallocation
                                                                                                                     3/26/2010             $160,000        $700,000 Updated portfolio data from servicer
                                                                                                                     9/30/2010               $25,278       $725,278 Updated portfolio data from servicer
                                                                                                                      1/6/2011                    $1       $725,277 Updated portfolio data from servicer

                                                        Financial                                                    3/30/2011                    $1       $725,276 Updated due to quarterly assessment and reallocation
                                                        Instrument for
1/29/2010   United Bank, Griffin, GA      Purchase                                  $540,000     N/A                 6/29/2011                  ($11)      $725,265 Updated due to quarterly assessment and reallocation      $2,000       $1,605           $5,600                   $9,205
                                                        Home Loan
                                                        Modifications                                                6/28/2012                   ($8)      $725,257 Updated due to quarterly assessment and reallocation
                                                                                                                     9/27/2012                  ($22)      $725,235 Updated due to quarterly assessment and reallocation
                                                                                                                    12/27/2012                   ($4)      $725,231 Updated due to quarterly assessment and reallocation
                                                                                                                     3/25/2013                  ($14)      $725,217 Updated due to quarterly assessment and reallocation
                                                        Financial                                                    7/14/2010            $4,440,000     $5,500,000 Updated portfolio data from servicer
            Urban Trust Bank,                           Instrument for
3/3/2010                                  Purchase                                 $1,060,000    N/A                                                                                                                              $0           $0                 $0                      $0
            Lake May, FL                                Home Loan
                                                        Modifications                                                9/24/2010           ($5,500,000)             $0 Termination of SPA

                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                  (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                    Adjustment Details                                                                                                  TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                            Lenders/                                Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                          Borrower’s    Investors        Servicers                Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives               Payments
                                                                                                                    5/26/2010             $120,000     $28,160,000 Initial 2MP cap
                                                                                                                    7/14/2010       ($12,660,000)      $15,500,000 Updated portfolio data from servicer
                                                                                                                    9/30/2010             $100,000     $15,600,000 Initial FHA-HAMP cap
                                                                                                                    9/30/2010           ($3,125,218)   $12,474,782 Updated portfolio data from servicer
                                                                                                                   11/16/2010             $800,000     $13,274,782 Transfer of cap due to servicing transfer
                                                       Financial
            iServe Servicing, Inc.,                    Instrument for                                                1/6/2011                  ($20)   $13,274,762 Updated portfolio data from servicer
3/5/2010                                 Purchase                               $28,040,000     N/A                                                                                                                              $0           $0                 $0                      $0
            Irving, TX                                 Home Loan                                                    3/30/2011                  ($24)   $13,274,738 Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                    6/29/2011                 ($221)   $13,274,517 Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012                 ($169)   $13,274,348 Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                 ($465)   $13,273,883 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                  ($78)   $13,273,805 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                 ($297)   $13,273,508 Updated due to quarterly assessment and reallocation
                                                                                                                    7/14/2010       ($44,880,000)      $15,900,000 Updated portfolio data from servicer
                                                                                                                    9/30/2010            $1,071,505    $16,971,505 Updated portfolio data from servicer
                                                                                                                     1/6/2011                  ($23)   $16,971,482 Updated portfolio data from servicer

                                                       Financial                                                    3/30/2011                  ($26)   $16,971,456 Updated due to quarterly assessment and reallocation
            Navy Federal Credit Union,                 Instrument for
3/10/2010                                Purchase                               $60,780,000     N/A                 6/29/2011                 ($238)   $16,971,218 Updated due to quarterly assessment and reallocation    $385,631    $881,016          $744,867               $2,011,515
            Vienna, VA                                 Home Loan
                                                       Modifications                                                6/28/2012                 ($145)   $16,971,073 Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                 ($374)   $16,970,699 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                  ($58)   $16,970,641 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                 ($199)   $16,970,442 Updated due to quarterly assessment and reallocation
                                                                                                                    7/14/2010             $400,000        $700,000 Updated portfolio data from servicer
                                                                                                                    9/30/2010               $25,278       $725,278 Updated portfolio data from servicer
                                                                                                                     1/6/2011                    $1       $725,277 Updated portfolio data from servicer

                                                       Financial                                                    3/30/2011                    $1       $725,276 Updated due to quarterly assessment and reallocation
            VIST Financial Corp,                       Instrument for
3/10/2010                                Purchase                                  $300,000     N/A                 6/29/2011                  ($11)      $725,265 Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Wyomissing, PA                             Home Loan
                                                       Modifications                                                6/28/2012                   ($8)      $725,257 Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                  ($22)      $725,235 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                   ($4)      $725,231 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                  ($14)      $725,217 Updated due to quarterly assessment and reallocation
                                                                                                                    7/14/2010             $300,000        $600,000 Updated portfolio data from servicer
                                                                                                                    9/30/2010              ($19,778)      $580,222 Updated portfolio data from servicer
                                                       Financial
            Midwest Bank and Trust                     Instrument for                                                1/6/2011                    $1       $580,221 Updated portfolio data from servicer
4/14/2010                                Purchase                                  $300,000     N/A                                                                                                                              $0           $0                 $0                      $0
            Co., Elmwood Park, IL                      Home Loan                                                    3/30/2011                    $1       $580,220 Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                    6/29/2011                   ($8)      $580,212 Updated due to quarterly assessment and reallocation
                                                                                                                    7/14/2011            ($580,212)              $0 Termination of SPA
                                                                                                                    7/14/2010            ($150,000)     $6,400,000 Updated portfolio data from servicer
                                                                                                                    9/15/2010            $1,600,000     $8,000,000 Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010           ($4,352,173)    $3,647,827 Updated portfolio data from servicer
                                                                                                                     1/6/2011                   ($5)    $3,647,822 Updated portfolio data from servicer

                                                       Financial                                                    3/30/2011                   ($6)    $3,647,816 Updated due to quarterly assessment and reallocation
            Wealthbridge Mortgage                      Instrument for
4/14/2010                                Purchase                                 $6,550,000    N/A                 4/13/2011           ($3,000,000)      $647,816 Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
            Corp, Beaverton, OR                        Home Loan
                                                       Modifications                                                6/29/2011                   ($9)      $647,807 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                                                                                                                    6/28/2012                   ($7)      $647,800 Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                  ($19)      $647,781 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                   ($3)      $647,778 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                  ($12)      $647,766 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               325
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                               (CONTINUED)                                                                                                                                                                                                 326
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                         TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                   Lenders/                                Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                                 Borrower’s    Investors        Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                        Incentives   Incentives       Incentives               Payments
                                                                                                                 5/26/2010               $30,000        $40,000 Updated FHA-HAMP cap
                                                                                                                 9/30/2010             $250,111        $290,111 Updated portfolio data from servicer

                                                    Financial                                                    6/29/2011               $59,889       $350,000 Updated due to quarterly assessment and reallocation
            Aurora Financial Group,                 Instrument for
5/21/2010                             Purchase                                    $10,000    N/A         4, 8    6/28/2012                   ($2)      $349,998 Updated due to quarterly assessment and reallocation            $24,689           $0          $27,844                  $52,533
            Inc., Marlton, NJ                       Home Loan
                                                    Modifications                                                9/27/2012                   ($5)      $349,993 Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                    $1       $349,992 Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                   ($3)      $349,989 Updated due to quarterly assessment and reallocation
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                                 6/16/2010            $3,680,000     $3,680,000
                                                                                                                                                                   transfer
                                                                                                                 8/13/2010            $3,300,000     $6,980,000 Transfer of cap due to servicing transfer
                                                                                                                 9/30/2010            $3,043,831    $10,023,831 Updated portfolio data from servicer
                                                                                                                10/15/2010            $1,400,000    $11,423,831 Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011                  ($17)   $11,423,814 Updated portfolio data from servicer
                                                                                                                 3/16/2011            $2,100,000    $13,523,814 Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                 3/30/2011                  ($24)   $13,523,790 Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011            $2,900,000    $16,423,790 Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011            ($200,000)    $16,223,790 Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011                 ($273)   $16,223,517 Updated due to quarterly assessment and reallocation
                                                    Financial                                                   10/14/2011             $100,000     $16,323,517 Transfer of cap due to servicing transfer
            Selene Finance LP,                      Instrument for
6/16/2010                             Purchase                                         $0    N/A          9                                                                                                                     $48,022    $126,882           $67,484                $242,387
            Houston, TX                             Home Loan                                                   11/16/2011            $1,100,000    $17,423,517 Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 4/16/2012             $200,000     $17,623,517 Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012               $10,000    $17,633,517 Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012            ($300,000)    $17,333,517 Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012                 ($218)   $17,333,299 Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012               $40,000    $17,373,299 Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012             $480,000     $17,853,299 Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012                 ($600)   $17,852,699 Updated due to quarterly assessment and reallocation
                                                                                                                11/15/2012               $70,000    $17,922,699 Transfer of cap due to servicing transfer
                                                                                                                12/27/2012                 ($102)   $17,922,597 Updated due to quarterly assessment and reallocation
                                                                                                                 3/14/2013               $90,000    $18,012,597 Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013                 ($384)   $18,012,213 Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010            $1,585,945     $2,465,945 Updated portfolio data from servicer
                                                                                                                  1/6/2011                   ($4)    $2,465,941 Updated portfolio data from servicer
                                                    Financial
            Suburban Mortgage                                                                                    3/30/2011                   ($4)    $2,465,937 Updated due to quarterly assessment and reallocation
                                                    Instrument for
8/4/2010    Company of New Mexico,    Purchase                                  $880,000     N/A                                                                                                                                     $0           $0                 $0                      $0
                                                    Home Loan                                                    6/29/2011                  ($40)    $2,465,897 Updated due to quarterly assessment and reallocation
            Albuquerque, NM
                                                    Modifications
                                                                                                                 6/28/2012                  ($30)    $2,465,867 Updated due to quarterly assessment and reallocation
                                                                                                                 8/10/2012           ($2,465,867)             $0 Termination of SPA
                                                                                                                 9/30/2010            $1,040,667     $1,740,667 Updated portfolio data from servicer

                                                    Financial                                                     1/6/2011                   ($2)    $1,740,665 Updated portfolio data from servicer
            Bramble Savings Bank,                   Instrument for
8/20/2010                             Purchase                                  $700,000     N/A                 3/30/2011                   ($3)    $1,740,662 Updated due to quarterly assessment and reallocation                 $0           $0                 $0                      $0
            Cincinnati, OH                          Home Loan
                                                    Modifications                                                6/29/2011                  ($28)    $1,740,634 Updated due to quarterly assessment and reallocation
                                                                                                                 8/10/2011           ($1,740,634)             $0 Termination of SPA
                                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                   (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                     Adjustment Details                                                                                                TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                          Lenders/                                Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                        Borrower’s    Investors        Servicers                Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount      Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives               Payments
                                                                                                                     9/30/2010           $2,181,334    $3,481,334 Updated portfolio data from servicer
                                                                                                                      1/6/2011                 ($5)    $3,481,329 Updated portfolio data from servicer
                                                                                                                     3/30/2011                 ($6)    $3,481,323 Updated due to quarterly assessment and reallocation
                                                        Financial
            Pathfinder Bank,                            Instrument for                                               6/29/2011                ($58)    $3,481,265 Updated due to quarterly assessment and reallocation
8/25/2010                                 Purchase                                 $1,300,000    N/A                                                                                                                        $2,750       $4,850           $7,033                  $14,634
            Oswego, NY                                  Home Loan                                                    6/28/2012                ($43)    $3,481,222 Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                     9/27/2012               ($119)    $3,481,103 Updated due to quarterly assessment and reallocation
                                                                                                                    12/27/2012                ($20)    $3,481,083 Updated due to quarterly assessment and reallocation
                                                                                                                     3/25/2013                ($76)    $3,481,007 Updated due to quarterly assessment and reallocation
                                                                                                                     9/30/2010           $7,014,337   $11,314,337 Updated portfolio data from servicer
                                                                                                                      1/6/2011                ($17)   $11,314,320 Updated portfolio data from servicer
                                                                                                                     3/30/2011                ($20)   $11,314,300 Updated due to quarterly assessment and reallocation
                                                        Financial
            First Financial Bank, N.A.,                 Instrument for                                               6/29/2011               ($192)   $11,314,108 Updated due to quarterly assessment and reallocation
8/27/2010                                 Purchase                                 $4,300,000    N/A                                                                                                                            $0           $0                 $0                      $0
            Terre Haute, ID                             Home Loan                                                    6/28/2012               ($144)   $11,313,964 Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                     9/27/2012               ($396)   $11,313,568 Updated due to quarterly assessment and reallocation
                                                                                                                    12/27/2012                ($67)   $11,313,501 Updated due to quarterly assessment and reallocation
                                                                                                                     3/25/2013               ($253)   $11,313,248 Updated due to quarterly assessment and reallocation
                                                                                                                     9/30/2010             $45,056       $145,056 Updated portfolio data from servicer
                                                                                                                      1/6/2011             $34,944       $180,000 Updated portfolio data from servicer
                                                        Financial
            RBC Bank (USA),                             Instrument for                                               3/30/2011             $40,000       $220,000 Updated due to quarterly assessment and reallocation
9/1/2010                                  Purchase                                  $100,000     N/A         4, 8                                                                                                               $0           $0                 $0                      $0
            Raleigh, NC                                 Home Loan                                                    6/29/2011             $50,000       $270,000 Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                     3/15/2012           ($200,000)       $70,000 Transfer of cap due to servicing transfer
                                                                                                                     6/14/2012            ($10,000)       $60,000 Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010           $5,168,169    $8,268,169 Updated portfolio data from servicer
                                                                                                                      1/6/2011                ($12)    $8,268,157 Updated portfolio data from servicer
                                                                                                                     3/30/2011                ($15)    $8,268,142 Updated due to quarterly assessment and reallocation
                                                                                                                     4/13/2011            $400,000     $8,668,142 Transfer of cap due to servicing transfer
                                                                                                                     6/29/2011               ($143)    $8,667,999 Updated due to quarterly assessment and reallocation
                                                                                                                     9/15/2011            $700,000     $9,367,999 Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011            $100,000     $9,467,999 Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011            $200,000     $9,667,999 Transfer of cap due to servicing transfer
                                                                                                                    12/15/2011           $1,700,000   $11,367,999 Transfer of cap due to servicing transfer
                                                                                                                     4/16/2012           $1,600,000   $12,967,999 Transfer of cap due to servicing transfer
                                                        Financial
            Fay Servicing, LLC,                         Instrument for                                               5/16/2012             $40,000    $13,007,999 Transfer of cap due to servicing transfer
9/3/2010                                  Purchase                                 $3,100,000    N/A                                                                                                                      $435,854    $890,849          $449,378               $1,776,081
            Chicago, IL                                 Home Loan                                                    6/14/2012           ($210,000)   $12,797,999 Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                     6/28/2012               ($105)   $12,797,894 Updated due to quarterly assessment and reallocation
                                                                                                                     7/16/2012             $50,000    $12,847,894 Transfer of cap due to servicing transfer
                                                                                                                     8/16/2012             $90,000    $12,937,894 Transfer of cap due to servicing transfer
                                                                                                                     9/27/2012               ($294)   $12,937,600 Updated due to quarterly assessment and reallocation
                                                                                                                    10/16/2012           $1,810,000   $14,747,600 Transfer of cap due to servicing transfer
                                                                                                                    12/27/2012                ($61)   $14,747,539 Updated due to quarterly assessment and reallocation
                                                                                                                     1/16/2013             $30,000    $14,777,539 Transfer of cap due to servicing transfer
                                                                                                                     2/14/2013           ($590,000)   $14,187,539 Updated due to quarterly assessment and reallocation
                                                                                                                     3/14/2013            ($80,000)   $14,107,539 Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                                                                                                                     3/25/2013               ($214)   $14,107,325 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              327
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                  (CONTINUED)                                                                                                                                                                                           328
            Servicer Modifying Borrowers’ Loans                                                                    Adjustment Details                                                                                                   TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                            Lenders/                                 Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                 Incentives   Incentives        Incentives               Payments
                                                                                                                    9/15/2010            $1,000,000     $1,000,000 Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010             $450,556      $1,450,556 Updated portfolio data from servicer
                                                                                                                     1/6/2011                   ($2)    $1,450,554 Updated portfolio data from servicer
                                                                                                                    2/16/2011            $3,000,000     $4,450,554 Transfer of cap due to servicing transfer
                                                                                                                    3/16/2011           $10,200,000    $14,650,554 Transfer of cap due to servicing transfer
                                                                                                                    3/30/2011                  ($24)   $14,650,530 Updated due to quarterly assessment and reallocation
                                                                                                                    6/29/2011                 ($227)   $14,650,303 Updated due to quarterly assessment and reallocation

                                                       Financial                                                    7/14/2011           $12,000,000    $26,650,303 Transfer of cap due to servicing transfer
            Vericrest Financial, Inc.,                 Instrument for
9/15/2010                                Purchase                                         $0    N/A          9     12/15/2011            $4,100,000    $30,750,303 Transfer of cap due to servicing transfer               $556,820    $1,556,406       $1,411,433               $3,524,659
            Oklahoma City, OK                          Home Loan
                                                       Modifications                                                1/13/2012             $900,000     $31,650,303 Transfer of cap due to servicing transfer
                                                                                                                    4/16/2012             $300,000     $31,950,303 Transfer of cap due to servicing transfer
                                                                                                                    6/28/2012                 ($266)   $31,950,037 Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                 ($689)   $31,949,348 Updated due to quarterly assessment and reallocation
                                                                                                                   11/15/2012             $720,000     $32,669,348 Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                   12/27/2012                 ($114)   $32,669,234 Updated due to quarterly assessment and reallocation
                                                                                                                    1/16/2013            $8,020,000    $40,689,234 Transfer of cap due to servicing transfer
                                                                                                                    3/25/2013                 ($591)   $40,688,643 Updated due to quarterly assessment and reallocation
                                                                                                                    9/30/2010             $180,222        $580,222 Updated portfolio data from servicer
                                                                                                                     1/6/2011                    $1       $580,221 Updated portfolio data from servicer
                                                                                                                    3/30/2011                    $1       $580,220 Updated due to quarterly assessment and reallocation
                                                       Financial
            Midwest Community Bank,                    Instrument for                                               6/29/2011                   ($8)      $580,212 Updated due to quarterly assessment and reallocation
9/15/2010                                Purchase                                  $400,000     N/A                                                                                                                          $1,000       $1,818            $2,000                   $4,818
            Freeport, IL                               Home Loan                                                    6/28/2012                   ($6)      $580,206 Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                    9/27/2012                  ($17)      $580,189 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                   ($3)      $580,186 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                  ($11)      $580,175 Updated due to quarterly assessment and reallocation
                                                       Financial                                                    9/30/2010               $45,056       $145,056 Updated portfolio data from servicer
            American Finance House
                                                       Instrument for
9/24/2010   LARIBA, Pasadena, CA         Purchase                                  $100,000     N/A                                                                                                                              $0           $0                  $0                      $0
                                                       Home Loan                                                     2/2/2011            ($145,056)              $0 Termination of SPA
            1000704
                                                       Modifications

                                                       Financial                                                    9/30/2010             $856,056      $2,756,056 Updated portfolio data from servicer
                                                       Instrument for
9/24/2010   Centrue Bank, Ottawa, CA     Purchase                                 $1,900,000    N/A                  1/6/2011                   ($4)    $2,756,052 Updated portfolio data from servicer                          $0           $0                  $0                      $0
                                                       Home Loan
                                                       Modifications                                                 3/9/2011           ($2,756,052)             $0 Termination of SPA
                                                       Financial                                                    9/30/2010               $45,056       $145,056 Updated portfolio data from servicer
            AgFirst Farm Credit Bank,
                                                       Instrument for
9/30/2010   Columbia, SC                 Purchase                                  $100,000     N/A                                                                                                                              $0           $0                  $0                      $0
                                                       Home Loan                                                    3/23/2011            ($145,056)              $0 Termination of SPA
                                                       Modifications
                                                                                                                    9/30/2010               $45,056       $145,056 Updated portfolio data from servicer

            Amarillo National Bank,                    Financial                                                    6/29/2011                    $1       $145,055 Updated due to quarterly assessment and reallocation
            Amarillo, TX                               Instrument for
9/30/2010                                Purchase                                  $100,000     N/A         4, 8    6/28/2012                    $1       $145,054 Updated due to quarterly assessment and reallocation          $0           $0                  $0                      $0
            1000478                                    Home Loan
            1000478                                    Modifications                                                9/27/2012                   ($2)      $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                    $1       $145,051 Updated due to quarterly assessment and reallocation
                                                                                                                    9/30/2010               $45,056       $145,056 Updated portfolio data from servicer
            American Financial                                                                                      6/29/2011                    $1       $145,055 Updated due to quarterly assessment and reallocation
                                                       Financial
            Resources Inc.,
                                                       Instrument for
9/30/2010   Parsippany, NJ               Purchase                                  $100,000     N/A         4, 8    6/28/2012                    $1       $145,054 Updated due to quarterly assessment and reallocation          $0           $0                  $0                      $0
                                                       Home Loan
            1001726
                                                       Modifications                                                9/27/2012                   ($2)      $145,052 Updated due to quarterly assessment and reallocation
            1001726
                                                                                                                    3/25/2013                    $1       $145,051 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                   (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                        Adjustment Details                                                                                                  TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                               Lenders/                                Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing               Adjustment     Cap Adjustment                                                                          Borrower’s    Investors        Servicers                Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note            Date            Amount        Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives               Payments
                                                                                                                        9/30/2010             $765,945      $2,465,945 Updated portfolio data from servicer
                                                                                                                         1/6/2011                   ($3)    $2,465,942 Updated portfolio data from servicer
                                                                                                                        3/30/2011                   ($4)    $2,465,938 Updated due to quarterly assessment and reallocation
                                                        Financial
            Banco Popular de Puerto                     Instrument for                                                  6/29/2011                  ($36)    $2,465,902 Updated due to quarterly assessment and reallocation
9/30/2010                                 Purchase                                 $1,700,000    N/A         4, 5, 8                                                                                                                 $0           $0                 $0                      $0
            Rico, San Juan, PR                          Home Loan                                                       6/28/2012                  ($30)    $2,465,872 Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                        9/27/2012                  ($83)    $2,465,789 Updated due to quarterly assessment and reallocation
                                                                                                                       12/27/2012                  ($14)    $2,465,775 Updated due to quarterly assessment and reallocation
                                                                                                                        3/25/2013                  ($53)    $2,465,722 Updated due to quarterly assessment and reallocation
                                                                                                                        9/30/2010               $45,056       $145,056 Updated portfolio data from servicer

                                                        Financial                                                       6/29/2011                    $1       $145,055 Updated due to quarterly assessment and reallocation
            Capital International
                                                        Instrument for
9/30/2010   Financial, Inc.,              Purchase                                  $100,000     N/A          4, 8      6/28/2012                    $1       $145,054 Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
                                                        Home Loan
            Coral Gables, FL
                                                        Modifications                                                   9/27/2012                   ($2)      $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                        3/25/2013                    $1       $145,051 Updated due to quarterly assessment and reallocation

                                                        Financial                                                       9/30/2010             $360,445      $1,160,445 Updated portfolio data from servicer
            Citizens Community Bank,                    Instrument for
9/24/2010                                 Purchase                                  $800,000     N/A                     1/6/2011                   ($2)    $1,160,443 Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Freeburg, IL                                Home Loan
                                                        Modifications                                                   3/23/2011           ($1,160,443)            $0 Termination of SPA
                                                                                                                        9/30/2010             $901,112      $2,901,112 Updated portfolio data from servicer
                                                                                                                         1/6/2011                   ($4)    $2,901,108 Updated portfolio data from servicer
                                                        Financial
            Community Credit Union of                   Instrument for                                                  3/30/2011                   ($5)    $2,901,103 Updated due to quarterly assessment and reallocation
9/30/2010                                 Purchase                                 $2,000,000    N/A         6, 12                                                                                                               $3,000       $4,632           $5,000                  $12,632
            Florida, Rockledge, FL                      Home Loan                                                       6/29/2011                  ($48)    $2,901,055 Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                        6/28/2012                  ($36)    $2,901,019 Updated due to quarterly assessment and reallocation
                                                                                                                        9/14/2012           ($2,888,387)       $12,632 Termination of SPA
                                                                                                                        9/30/2010               $45,056       $145,056 Updated portfolio data from servicer

                                                        Financial                                                       6/29/2011                    $1       $145,055 Updated due to quarterly assessment and reallocation
            CU Mortgage Services, Inc.,                 Instrument for
9/30/2010                                 Purchase                                  $100,000     N/A          4, 8      6/28/2012                    $1       $145,054 Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            New Brighton, MN                            Home Loan
                                                        Modifications                                                   9/27/2012                   ($2)      $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                        3/25/2013                    $1       $145,051 Updated due to quarterly assessment and reallocation
                                                                                                                        9/30/2010               $45,056       $145,056 Updated portfolio data from servicer

                                                        Financial                                                       6/29/2011                    $1       $145,055 Updated due to quarterly assessment and reallocation
            First Federal Bank of                       Instrument for
9/30/2010                                 Purchase                                  $100,000     N/A          4, 8      6/28/2012                    $1       $145,054 Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Florida, Lake City, FL                      Home Loan
                                                        Modifications                                                   9/27/2012                   ($2)      $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                        3/25/2013                    $1       $145,051 Updated due to quarterly assessment and reallocation
                                                                                                                        9/30/2010               $45,056       $145,056 Updated portfolio data from servicer

                                                        Financial                                                       6/29/2011                    $1       $145,055 Updated due to quarterly assessment and reallocation
            First Mortgage Corporation,                 Instrument for
9/30/2010                                 Purchase                                  $100,000     N/A          4, 8      6/28/2012                    $1       $145,054 Updated due to quarterly assessment and reallocation      $1,000           $0           $1,000                   $2,000
            Diamond Bar, CA                             Home Loan
                                                        Modifications                                                   9/27/2012                   ($2)      $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                        3/25/2013                    $1       $145,051 Updated due to quarterly assessment and reallocation

                                                        Financial                                                       9/30/2010             $180,222        $580,222 Updated portfolio data from servicer
            First Safety Bank,                          Instrument for
9/30/2010                                 Purchase                                  $400,000     N/A                     1/6/2011                    $1       $580,221 Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Cincinnati, OH                              Home Loan
                                                        Modifications                                                   3/23/2011            ($580,221)             $0 Termination of SPA
                                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013
                                                                                                                                                                                                                                                                                                   329
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                  (CONTINUED)                                                                                                                                                                                        330
            Servicer Modifying Borrowers’ Loans                                                                    Adjustment Details                                                                                                TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                          Lenders/                                Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                        Borrower’s    Investors        Servicers                Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount      Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives               Payments
                                                                                                                    9/30/2010            $360,445     $1,160,445 Updated portfolio data from servicer
                                                                                                                     1/6/2011                 ($2)    $1,160,443 Updated portfolio data from servicer
                                                                                                                    3/30/2011                 ($2)    $1,160,441 Updated due to quarterly assessment and reallocation
                                                       Financial
            Flagstar Capital Markets                   Instrument for                                               6/29/2011                ($18)    $1,160,423 Updated due to quarterly assessment and reallocation
9/30/2010                                Purchase                                  $800,000     N/A         7, 8                                                                                                               $0           $0                 $0                      $0
            Corporation, Troy, MI                      Home Loan                                                    6/28/2012                ($14)    $1,160,409 Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                    9/27/2012                ($37)    $1,160,372 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                 ($6)    $1,160,366 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                ($24)    $1,160,342 Updated due to quarterly assessment and reallocation
                                                                                                                    9/30/2010            $765,945     $2,465,945 Updated portfolio data from servicer
                                                                                                                     1/6/2011                 ($4)    $2,465,941 Updated portfolio data from servicer
                                                                                                                    3/30/2011                 ($4)    $2,465,937 Updated due to quarterly assessment and reallocation
                                                       Financial
            Franklin Savings,                          Instrument for                                               6/29/2011                ($40)    $2,465,897 Updated due to quarterly assessment and reallocation
9/30/2010                                Purchase                                 $1,700,000    N/A          4                                                                                                             $1,750       $3,740           $4,000                   $9,490
            Cincinnati, OH                             Home Loan                                                    6/28/2012                ($30)    $2,465,867 Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                    9/27/2012                ($83)    $2,465,784 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                   12/27/2012                ($14)    $2,465,770 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                ($53)    $2,465,717 Updated due to quarterly assessment and reallocation
                                                                                                                    9/30/2010             $45,056       $145,056 Updated portfolio data from servicer

                                                       Financial                                                    6/29/2011                  $1       $145,055 Updated due to quarterly assessment and reallocation
            Gateway Mortgage Group,                    Instrument for
9/30/2010                                Purchase                                  $100,000     N/A         4, 8    6/28/2012                  $1       $145,054 Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            LLC, Tulsa, OK                             Home Loan
                                                       Modifications                                                9/27/2012                 ($2)      $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                  $1       $145,051 Updated due to quarterly assessment and reallocation
                                                       Financial                                                    9/30/2010             $45,056       $145,056 Updated portfolio data from servicer
            GFA Federal Credit Union,
                                                       Instrument for
9/30/2010   Gardner, MA                  Purchase                                  $100,000     N/A                                                                                                                            $0           $0                 $0                      $0
                                                       Home Loan                                                    3/23/2011           ($145,056)            $0 Termination of SPA
                                                       Modifications
                                                                                                                    9/30/2010             $45,056       $145,056 Updated portfolio data from servicer

                                                       Financial                                                    6/29/2011                  $1       $145,055 Updated due to quarterly assessment and reallocation
            Guaranty Bank,                             Instrument for
9/30/2010                                Purchase                                  $100,000     N/A         4, 8    6/28/2012                  $1       $145,054 Updated due to quarterly assessment and reallocation        $917           $0           $1,000                   $1,917
            Saint Paul, MN                             Home Loan
                                                       Modifications                                                9/27/2012                 ($2)      $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                  $1       $145,051 Updated due to quarterly assessment and reallocation
                                                                                                                    9/30/2010            $135,167       $435,167 Updated portfolio data from servicer
                                                                                                                     1/6/2011                  $1       $435,166 Updated portfolio data from servicer
                                                                                                                    3/30/2011                  $1       $435,165 Updated due to quarterly assessment and reallocation
                                                       Financial
            James B. Nutter &                                                                                       6/29/2011                 ($6)      $435,159 Updated due to quarterly assessment and reallocation
                                                       Instrument for
9/24/2010   Company,                     Purchase                                  $300,000     N/A         4, 8                                                                                                           $5,337           $0           $5,782                  $11,119
                                                       Home Loan                                                    6/28/2012                 ($4)      $435,155 Updated due to quarterly assessment and reallocation
            Kansas City, MO
                                                       Modifications
                                                                                                                    9/27/2012                ($12)      $435,143 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                 ($2)      $435,141 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                 ($8)      $435,133 Updated due to quarterly assessment and reallocation
                                                                                                                    9/30/2010            $450,556     $1,450,556 Updated portfolio data from servicer
                                                                                                                     1/6/2011                 ($2)    $1,450,554 Updated portfolio data from servicer
                                                                                                                    3/30/2011                 ($2)    $1,450,552 Updated due to quarterly assessment and reallocation
                                                       Financial
            Liberty Bank and Trust Co,                 Instrument for                                               6/29/2011                ($23)    $1,450,529 Updated due to quarterly assessment and reallocation
9/30/2010                                Purchase                                 $1,000,000    N/A                                                                                                                            $0           $0                 $0                      $0
            New Orleans, LA                            Home Loan                                                    6/28/2012                ($17)    $1,450,512 Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                    9/27/2012                ($48)    $1,450,464 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                 ($8)    $1,450,456 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                ($30)    $1,450,426 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                  TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                            Lenders/                                Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                          Borrower’s    Investors        Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount       Adjusted Cap Reason for Adjustment                                  Incentives   Incentives       Incentives               Payments
                                                                                                                  9/30/2010             $315,389      $1,015,389 Updated portfolio data from servicer
                                                                                                                   1/6/2011                   $1      $1,015,388 Updated portfolio data from servicer
                                                                                                                  3/30/2011                   $1      $1,015,387 Updated due to quarterly assessment and reallocation
                                                     Financial
                                                     Instrument for                                               6/29/2011                 ($11)     $1,015,376 Updated due to quarterly assessment and reallocation
9/30/2010   M&T Bank, Buffalo, NY      Purchase                                  $700,000     N/A         4, 8                                                                                                            $37,897           $0          $41,461                  $79,358
                                                     Home Loan                                                    6/28/2012                 ($11)     $1,015,365 Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  9/27/2012                 ($30)     $1,015,335 Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                  ($5)     $1,015,330 Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                 ($20)     $1,015,310 Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010             $630,778      $2,030,778 Updated portfolio data from servicer
                                                                                                                   1/6/2011                  ($3)     $2,030,775 Updated portfolio data from servicer
                                                                                                                  3/30/2011                  ($3)     $2,030,772 Updated due to quarterly assessment and reallocation
                                                     Financial
            Magna Bank,                              Instrument for                                               6/29/2011                 ($33)     $2,030,739 Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                 $1,400,000    N/A          5                                                                                                                   $0           $0                 $0                      $0
            Germantown, TN                           Home Loan                                                    6/28/2012                 ($25)     $2,030,714 Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  9/27/2012                 ($68)     $2,030,646 Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                 ($11)     $2,030,635 Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                 ($44)     $2,030,591 Updated due to quarterly assessment and reallocation

                                                     Financial                                                    9/30/2010             $225,278        $725,278 Updated portfolio data from servicer
            Mainstreet Credit Union,                 Instrument for
9/30/2010                              Purchase                                  $500,000     N/A                  1/6/2011                   $1        $725,277 Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Lexena, KS                               Home Loan
                                                     Modifications                                                 3/9/2011            ($725,277)              $0 Termination of SPA
                                                                                                                  9/30/2010              $45,056        $145,056 Updated portfolio data from servicer

                                                     Financial                                                    6/29/2011                   $1        $145,055 Updated due to quarterly assessment and reallocation
            Marsh Associates, Inc.,                  Instrument for
9/30/2010                              Purchase                                  $100,000     N/A         4, 8    6/28/2012                   $1        $145,054 Updated due to quarterly assessment and reallocation      $5,561           $0           $5,973                  $11,534
            Charlotte, NC                            Home Loan
                                                     Modifications                                                9/27/2012                   $1        $145,053 Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                   $1        $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010           $49,915,806    $93,415,806 Updated portfolio data from servicer
                                                                                                                   1/6/2011                ($125)    $93,415,681 Updated portfolio data from servicer
                                                                                                                  3/30/2011                ($139)    $93,415,542 Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011              ($1,223)    $93,414,319 Updated due to quarterly assessment and reallocation
                                                     Financial
            Midland Mortgage                                                                                      6/28/2012                ($797)    $93,413,522 Updated due to quarterly assessment and reallocation
                                                     Instrument for
9/30/2010   Company,                   Purchase                               $43,500,000     N/A         4, 5                                                                                                          $3,041,800   $605,355        $3,755,548               $7,402,702
                                                     Home Loan                                                    7/16/2012       $294,540,000      $387,953,522 Transfer of cap due to servicing transfer
            Oklahoma City, OK
                                                     Modifications
                                                                                                                  7/27/2012      ($263,550,000)     $124,403,522 Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012              ($3,170)   $124,400,352 Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                ($507)   $124,399,845 Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013              ($1,729)   $124,398,116 Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010              $45,056        $145,056 Updated portfolio data from servicer

            Mid America Mortgage,                    Financial                                                    6/29/2011                   $1        $145,055 Updated due to quarterly assessment and reallocation
            Inc. (Schmidt Mortgage                   Instrument for
9/30/2010                              Purchase                                  $100,000     N/A         4, 8    6/28/2012                   $1        $145,054 Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Company), Rocky                          Home Loan
            River, OH                                Modifications                                                9/27/2012                  ($2)       $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                   $1        $145,051 Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010              $45,056        $145,056 Updated portfolio data from servicer

                                                     Financial                                                    6/29/2011                   $1        $145,055 Updated due to quarterly assessment and reallocation
            Stockman Bank of                         Instrument for
9/30/2010                              Purchase                                  $100,000     N/A         4, 8    6/28/2012                   $1        $145,054 Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Montana, Miles City, MT                  Home Loan
                                                     Modifications                                                9/27/2012                  ($2)       $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                                                                                                                  3/25/2013                   $1        $145,051 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             331
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                 (CONTINUED)                                                                                                                                                                                          332
             Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                  TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                            Lenders/                                Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                          Borrower’s    Investors        Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount        Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives               Payments

                                                      Financial                                                    9/30/2010             $270,334        $870,334 Updated portfolio data from servicer
             University First Federal
                                                      Instrument for
9/30/2010    Credit Union,              Purchase                                  $600,000     N/A                  1/6/2011                    $1       $870,333 Updated portfolio data from servicer                          $0           $0                 $0                      $0
                                                      Home Loan
             Salt Lake City, UT
                                                      Modifications                                                2/17/2011            ($870,333)              $0 Termination of SPA
                                                                                                                   9/30/2010               $45,056       $145,056 Updated portfolio data from servicer

                                                      Financial                                                    6/29/2011                    $1       $145,055 Updated due to quarterly assessment and reallocation
             Weststar Mortgage, Inc.,                 Instrument for
9/30/2010                               Purchase                                  $100,000     N/A         4, 8    6/28/2012                    $1       $145,054 Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Woodbridge, VA                           Home Loan
                                                      Modifications                                                9/27/2012                   ($2)      $145,052 Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                    $1       $145,051 Termination of SPA
                                                                                                                  12/15/2010            $5,000,000     $5,000,000 Updated portfolio data from servicer
                                                                                                                    1/6/2011                   ($7)    $4,999,993 Updated portfolio data from servicer
                                                                                                                   2/16/2011             $500,000      $5,499,993 Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011             $100,000      $5,599,993 Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011                   ($9)    $5,599,984 Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011                  ($85)    $5,599,899 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                  11/16/2011           ($2,500,000)    $3,099,899 Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012             $200,000      $3,299,899 Transfer of cap due to servicing transfer
                                                      Financial
             Statebridge Company,                     Instrument for                                               6/28/2012                  ($40)    $3,299,859 Updated due to quarterly assessment and reallocation
12/15/2010                              Purchase                                         $0    N/A          9                                                                                                               $9,536     $39,132            $9,643                  $58,310
             LLC, Denver, CO                          Home Loan                                                    9/27/2012                 ($100)    $3,299,759 Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                  10/16/2012             $170,000      $3,469,759 Transfer of cap due to servicing transfer
                                                                                                                  11/15/2012              ($30,000)    $3,439,759 Transfer of cap due to servicing transfer
                                                                                                                  12/14/2012              ($80,000)    $3,359,759 Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012                  ($17)    $3,359,742 Updated due to quarterly assessment and reallocation
                                                                                                                   1/16/2013               $50,000     $3,409,742 Transfer of cap due to servicing transfer
                                                                                                                   2/14/2013            $1,240,000     $4,649,742 Transfer of cap due to servicing transfer
                                                                                                                   3/14/2013               $90,000     $4,739,742 Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013                  ($90)    $4,739,652 Updated due to quarterly assessment and reallocation
                                                                                                                  12/15/2010            $4,300,000     $4,300,000 Updated portfolio data from servicer
                                                                                                                    1/6/2011                   ($4)    $4,299,996 Updated portfolio data from servicer

                                                      Financial                                                    6/29/2011                   ($5)    $4,299,991 Updated due to quarterly assessment and reallocation
             Scotiabank de Puerto                     Instrument for
12/15/2010                              Purchase                                         $0    N/A          9      6/28/2012                  ($23)    $4,299,968 Updated due to quarterly assessment and reallocation    $366,285    $501,617          $417,009               $1,284,911
             Rico, San Juan, PR                       Home Loan
                                                      Modifications                                                9/27/2012                  ($63)    $4,299,905 Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                  ($11)    $4,299,894 Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($41)    $4,299,853 Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011             $200,000        $200,000 Transfer of cap due to servicing transfer
                                                                                                                   5/13/2011             $100,000        $300,000 Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011             $300,000        $600,000 Transfer of cap due to servicing transfer

                                                      Financial                                                    6/29/2011                   ($9)      $599,991 Updated due to quarterly assessment and reallocation
             New York Community
                                                      Instrument for
4/13/2011    Bank (AmTrust Bank),       Purchase                                         $0    N/A          9      8/16/2011             $200,000        $799,991 Transfer of cap due to servicing transfer                $12,344     $31,779           $21,004                  $65,127
                                                      Home Loan
             Cleveland, OH
                                                      Modifications                                                6/28/2012                   ($7)      $799,984 Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                  ($19)      $799,965 Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                   ($3)      $799,962 Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($12)      $799,950 Updated due to quarterly assessment and reallocation
                                                      Financial
             SunTrust Mortgage, Inc.,                 Instrument for
4/13/2011                               Purchase                                         $0    N/A          9      4/13/2011             $100,000        $100,000 Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
             Richmond, VA                             Home Loan
                                                      Modifications
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                  (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                    Adjustment Details                                                                                                TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                          Lenders/                                Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                        Borrower’s    Investors        Servicers                Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount      Adjusted Cap Reason for Adjustment                                 Incentives   Incentives       Incentives               Payments
                                                                                                                    4/13/2011           $1,000,000    $1,000,000 Transfer of cap due to servicing transfer
                                                                                                                    6/29/2011            $233,268     $1,233,268 Updated due to quarterly assessment and reallocation

                                                       Financial                                                   11/16/2011            $100,000     $1,333,268 Transfer of cap due to servicing transfer
            Urban Partnership Bank,                    Instrument for
4/13/2011                                Purchase                                         $0    N/A          9      6/28/2012                 ($3)    $1,333,265 Updated due to quarterly assessment and reallocation    $114,688    $236,050          $124,245                $474,983
            Chicago, IL                                Home Loan
                                                       Modifications                                                9/27/2012                ($10)    $1,333,255 Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                 ($2)    $1,333,253 Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                 ($7)    $1,333,246 Updated due to quarterly assessment and reallocation
                                                                                                                    4/13/2011            $200,000       $200,000 Transfer of cap due to servicing transfer
                                                       Financial
            Western Federal Credit                     Instrument for                                               6/29/2011             $17,687       $217,687 Updated due to quarterly assessment and reallocation
4/13/2011                                Purchase                                         $0    N/A          9                                                                                                            $13,417     $36,224           $16,917                  $66,557
            Union, Hawthorne, CA                       Home Loan                                                    9/27/2012                  $1       $217,686 Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                    3/25/2013                  $1       $217,685 Updated due to quarterly assessment and reallocation
                                                                                                                    5/13/2011            $500,000       $500,000 Transfer of cap due to servicing transfer
                                                                                                                    6/16/2011            $100,000       $600,000 Transfer of cap due to servicing transfer
                                                                                                                    6/29/2011                 ($9)      $599,991 Updated due to quarterly assessment and reallocation
                                                                                                                    7/14/2011            $200,000       $799,991 Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011            $100,000       $899,991 Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011           $2,500,000    $3,399,991 Transfer of cap due to servicing transfer
                                                                                                                    5/16/2012           $1,510,000    $4,909,991 Transfer of cap due to servicing transfer
                                                                                                                    6/14/2012            $450,000     $5,359,991 Transfer of cap due to servicing transfer
                                                                                                                    6/28/2012                ($66)    $5,359,925 Updated due to quarterly assessment and reallocation
                                                       Financial
            FCI Lender Services, Inc.,                 Instrument for                                               7/16/2012            $250,000     $5,609,925 Transfer of cap due to servicing transfer
5/13/2011                                Purchase                                         $0    N/A          9                                                                                                            $18,874     $36,755           $21,416                  $77,045
            Anaheim Hills, CA                          Home Loan                                                    8/16/2012             $90,000     $5,699,925 Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                    9/27/2012               ($191)    $5,699,734 Updated due to quarterly assessment and reallocation
                                                                                                                   10/16/2012            $140,000     $5,839,734 Transfer of cap due to servicing transfer
                                                                                                                   11/15/2012             $70,000     $5,909,734 Transfer of cap due to servicing transfer
                                                                                                                   12/14/2012             $40,000     $5,949,734 Transfer of cap due to servicing transfer
                                                                                                                   12/27/2012                ($34)    $5,949,700 Updated due to quarterly assessment and reallocation
                                                                                                                    1/16/2013             $40,000     $5,989,700 Transfer of cap due to servicing transfer
                                                                                                                    2/14/2013             $50,000     $6,039,700 Transfer of cap due to servicing transfer
                                                                                                                    3/14/2013            $360,000     $6,399,700 Transfer of cap due to servicing transfer
                                                                                                                    3/25/2013               ($135)    $6,399,565 Updated due to quarterly assessment and reallocation
                                                                                                                    7/14/2011            $200,000       $200,000 Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011            $900,000     $1,100,000 Transfer of cap due to servicing transfer
                                                                                                                    1/13/2012            $100,000     $1,200,000 Transfer of cap due to servicing transfer
                                                                                                                    6/28/2012                 ($9)    $1,199,991 Updated due to quarterly assessment and reallocation
                                                                                                                    8/16/2012             $20,000     $1,219,991 Transfer of cap due to servicing transfer
                                                       Financial
            Gregory Funding, LLC,                      Instrument for                                               9/27/2012                ($26)    $1,219,965 Updated due to quarterly assessment and reallocation
7/14/2011                                Purchase                                         $0    N/A          9                                                                                                            $36,743     $76,611           $40,791                $154,145
            Beaverton, OR                              Home Loan                                                   10/16/2012             $50,000     $1,269,965 Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                   12/14/2012             $10,000     $1,279,965 Transfer of cap due to servicing transfer
                                                                                                                   12/27/2012                 ($5)    $1,279,960 Updated due to quarterly assessment and reallocation
                                                                                                                    1/16/2013            $130,000     $1,409,960 Transfer of cap due to servicing transfer
                                                                                                                    2/14/2013            $120,000     $1,529,960 Transfer of cap due to servicing transfer
                                                                                                                    3/25/2013                ($20)    $1,529,940 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                                                       Financial
            Bangor Savings Bank,                       Instrument for
9/15/2011                                Purchase                                         $0    N/A          9      9/15/2011            $100,000       $100,000 Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
            Bangor, ME                                 Home Loan
                                                       Modifications
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             333
HAMP TRANSACTION DETAIL, AS OF 3/31/2013                                                   (CONTINUED)                                                                                                                                                                                            334
             Servicer Modifying Borrowers’ Loans                                                                    Adjustment Details                                                                                                          TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                                   Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment     Cap Adjustment                                                                            Borrower’s         Investors         Servicers           Incentive
Date         Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date            Amount      Adjusted Cap Reason for Adjustment                                     Incentives        Incentives        Incentives          Payments
                                                                                                                     9/15/2011           $1,300,000    $1,300,000 Transfer of cap due to servicing transfer
                                                                                                                     6/28/2012                ($15)    $1,299,985 Updated due to quarterly assessment and reallocation
                                                        Financial
             PHH Mortgage                                                                                            9/27/2012                ($42)    $1,299,943 Updated due to quarterly assessment and reallocation
                                                        Instrument for
9/15/2011    Corporation,                 Purchase                                         $0    N/A          9                                                                                                                     $0                $0                  $0                $0
                                                        Home Loan                                                   10/16/2012            $140,000     $1,439,943 Transfer of cap due to servicing transfer
             Mt. Laurel, NJ
                                                        Modifications
                                                                                                                    12/27/2012                 ($8)    $1,439,935 Updated due to quarterly assessment and reallocation
                                                                                                                     3/25/2013                ($30)    $1,439,905 Updated due to quarterly assessment and reallocation
                                                                                                                    12/15/2011            $200,000       $200,000 Transfer of cap due to servicing transfer
                                                                                                                     4/16/2012            $600,000       $800,000 Transfer of cap due to servicing transfer
                                                                                                                     6/28/2012                 ($3)      $799,997 Updated due to quarterly assessment and reallocation
                                                                                                                     8/16/2012            $110,000       $909,997 Transfer of cap due to servicing transfer
                                                                                                                     9/27/2012                ($13)      $909,984 Updated due to quarterly assessment and reallocation
                                                        Financial
             Rushmore Loan                                                                                          10/16/2012           $1,270,000    $2,179,984 Transfer of cap due to servicing transfer
                                                        Instrument for
12/15/2011   Management Services          Purchase                                         $0    N/A          9                                                                                                                 $63,633         $194,636           $85,722           $343,991
                                                        Home Loan                                                   11/15/2012            $230,000     $2,409,984 Transfer of cap due to servicing transfer
             LLC, Irvine, CA
                                                        Modifications
                                                                                                                    12/27/2012                 ($5)    $2,409,979 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




                                                                                                                     1/16/2013            $990,000     $3,399,979 Transfer of cap due to servicing transfer
                                                                                                                     2/14/2013            $600,000     $3,999,979 Transfer of cap due to servicing transfer
                                                                                                                     3/14/2013           $1,980,000    $5,979,979 Transfer of cap due to servicing transfer
                                                                                                                     3/25/2013                ($77)    $5,979,902 Updated due to quarterly assessment and reallocation
                                                        Financial
             Sun West Mortgage
                                                        Instrument for
1/13/2012    Company, Inc,                Purchase                                         $0    N/A          9      1/13/2012            $100,000       $100,000 Transfer of cap due to servicing transfer                         $0                $0                  $0                $0
                                                        Home Loan
             Cerritos, CA
                                                        Modifications
                                                        Financial
             PrimeWest Mortgage                         Instrument for
3/15/2012                                 Purchase                                         $0    N/A          9      3/15/2012            $100,000       $100,000 Transfer of cap due to servicing transfer                         $0                $0                  $0                $0
             Corporation, Lubbock, TX                   Home Loan
                                                        Modifications
                                                                                                                     6/14/2012            $940,000       $940,000 Transfer of cap due to servicing transfer
                                                                                                                     6/28/2012            $205,242     $1,145,242 Updated due to quarterly assessment and reallocation
                                                                                                                     9/27/2012                 ($3)    $1,145,239 Updated due to quarterly assessment and reallocation
                                                        Financial
             Resurgent Capital                                                                                      12/27/2012                  $1     $1,145,238 Updated due to quarterly assessment and reallocation
                                                        Instrument for
6/14/2012    Solutions, LP,               Purchase                                         $0    N/A          9                                                                                                                 $62,303         $131,032           $79,736           $273,071
                                                        Home Loan                                                    1/16/2013             $10,000     $1,155,238 Transfer of cap due to servicing transfer
             Greenville, SC
                                                        Modifications
                                                                                                                     2/14/2013           $8,690,000    $9,845,238 Transfer of cap due to servicing transfer
                                                                                                                     3/14/2013           $1,390,000   $11,235,238 Transfer of cap due to servicing transfer
                                                                                                                     3/25/2013               ($219)   $11,235,019 Updated due to quarterly assessment and reallocation
                                                                                                                    11/15/2012             $30,000        $30,000 Transfer of cap due to servicing transfer
                                                        Financial
             Kondaur Capital                            Instrument for                                              12/14/2012             $70,000       $100,000 Transfer of cap due to servicing transfer
11/15/2012                                Purchase                                         $0    N/A          9                                                                                                                     $0                $0                  $0                $0
             Corporation, Orange, CA                    Home Loan                                                    1/16/2013            ($10,000)       $90,000 Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                     2/14/2013            ($10,000)       $80,000 Transfer of cap due to servicing transfer
                                                        Financial
             Quicken Loans Inc,                         Instrument for
12/14/2012                                Purchase                                         $0    N/A          9     12/14/2012             $10,000        $10,000 Transfer of cap due to servicing transfer                         $0                $0                  $0                $0
             Detroit, MI                                Home Loan
                                                        Modifications
                                                        Financial                                                    2/14/2013            $510,000       $510,000 Transfer of cap due to servicing transfer
             Home Servicing, LLC,                       Instrument for
2/14/2013                                 Purchase                                         $0    N/A          9                                                                                                                     $0                $0                  $0                $0
             Baton Rouge, LA                            Home Loan                                                    3/25/2013                 ($9)      $509,991 Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                        Financial                                                    3/14/2013            $130,000       $130,000 Transfer of cap due to servicing transfer
             21st Mortgage                              Instrument for
3/14/2013                                 Purchase                                         $0    N/A          9                                                                                                                     $0                $0                  $0                $0
             Corporation, Knoxville, TN                 Home Loan
                                                                                                                     3/25/2013                  $1       $129,999 Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                     Total Initial Cap      $23,831,570,000              Total Cap Adjustments    $6,039,454,004                                                                  Totals $1,056,176,274   $2,468,634,512    $1,649,051,212     $5,173,861,998
                                                                                                                      Total Cap $29,871,024,004
Notes: Numbers may be affected by rounding. Data as of 3/31/2013. Numbered notes are taken verbatim from Treasury’s 3/27/2013 Transactions Report-Housing Programs.
1
 	The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the
    program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
 	On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3
 	Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
4
 	Initial cap amount includes FHA-HAMP.
5
 	Initial cap amount includes RD-HAMP.
6
 	Initial cap amount includes 2MP.
7
 	Initial cap amount includes FHA-2LP.
8
 	Initial cap does not include HAMP.
9
 	This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
  	The amendment reflects a change in the legal name of the institution.
11
  	MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 02/01/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such
    agreement.  
12
  	The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.  
13
  	Bank of America, N.A., Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, LP. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior to such merger.
14
  	In April 2011, EMC Mortgage, an indirect subsidiary of JP Morgan Chase & Co, transferred the servicing of all loans to JP Morgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.

As used in this table:
“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program

Source: Treasury, Transactions Report-Housing Programs, 3/27/2013.




                 TABLE D.13
                  HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 3/31/2013
                                           Seller
                                                                                                                          Transaction                                                    Initial Investment           Additional Investment                                       Pricing
                  Note      Trade Date     Name of Institution                                                            Type              Investment Description                                  Amount                          Amount               Investment Amount1       Mechanism
                            6/23/2010                                                                                                       Financial Instrument for HHF Program             $102,800,000                                  —                                      N/A
                  2         9/23/2010      Nevada Affordable Housing Assistance Corporation, Reno, NV                     Purchase          Financial Instrument for HHF Program                         —                      $34,056,581                     $194,026,240      N/A
                  3         9/29/2010                                                                                                       Financial Instrument for HHF Program                         —                      $57,169,659                                       N/A
                            6/23/2010                                                                                                       Financial Instrument for HHF Program             $699,600,000                                  —                                      N/A
                  2         9/23/2010      CalHFA Mortgage Assistance Corporation, Sacramento, CA                         Purchase          Financial Instrument for HHF Program                         —                     $476,257,070                   $1,975,334,096      N/A
                  3         9/29/2010                                                                                                       Financial Instrument for HHF Program                         —                     $799,477,026                                       N/A
                            6/23/2010                                                                                                       Financial Instrument for HHF Program             $418,000,000                                  —                                      N/A
                  2         9/23/2010      Florida Housing Finance Corporation, Tallahassee, FL                           Purchase          Financial Instrument for HHF Program                         —                     $238,864,755                   $1,057,839,136      N/A
                  3         9/29/2010                                                                                                       Financial Instrument for HHF Program                         —                     $400,974,381                                       N/A
                            6/23/2010                                                                                                       Financial Instrument for HHF Program             $125,100,000                                  —                                      N/A
                                           Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ         Purchase                                                                                                                              $267,766,006
                  3         9/29/2010                                                                                                       Financial Instrument for HHF Program                         —                     $142,666,006                                       N/A
                            6/23/2010                                                                                                       Financial Instrument for HHF Program             $154,500,000                                  —                                      N/A
                  2         9/23/2010      Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI       Purchase          Financial Instrument for HHF Program                         —                     $128,461,559                     $498,605,738      N/A
                  3         9/29/2010                                                                                                       Financial Instrument for HHF Program                         —                     $215,644,179                                       N/A
                            8/3/2010                                                                                                        Financial Instrument for HHF Program             $159,000,000                                  —                                      N/A
                  2         9/23/2010      North Carolina Housing Finance Agency, Raleigh, NC                             Purchase          Financial Instrument for HHF Program                         —                     $120,874,221                     $482,781,786      N/A
                  3         9/29/2010                                                                                                       Financial Instrument for HHF Program                         —                     $202,907,565                                       N/A
                            8/3/2010                                                                                                        Financial Instrument for HHF Program             $172,000,000                                  —                                      N/A
                  2         9/23/2010      Ohio Homeowner Assistance LLC, Columbus, OH                                    Purchase          Financial Instrument for HHF Program                         —                     $148,728,864                     $570,395,099      N/A
                  3         9/29/2010                                                                                                       Financial Instrument for HHF Program                         —                     $249,666,235                                       N/A
                            8/3/2010                                                                                                        Financial Instrument for HHF Program              $88,000,000                                  —                                      N/A
                  2         9/23/2010      Oregon Affordable Housing Assistance Corporation, Salem, OR                    Purchase          Financial Instrument for HHF Program                         —                      $49,294,215                     $220,042,786      N/A
                  3         9/29/2010                                                                                                       Financial Instrument for HHF Program                         —                      $82,748,571                                       N/A
                            8/3/2010                                                                                                        Financial Instrument for HHF Program              $43,000,000                                  —                                      N/A
                  2         9/23/2010      Rhode Island Housing and Mortgage Finance Corporation, Providence, RI          Purchase          Financial Instrument for HHF Program                         —                      $13,570,770                       $79,351,573     N/A
                                                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I APRIL 24, 2013




                  3         9/29/2010                                                                                                       Financial Instrument for HHF Program                         —                      $22,780,803                                       N/A
                            8/3/2010                                                                                                        Financial Instrument for HHF Program             $138,000,000                                  —                                      N/A
                  2         9/23/2010      SC Housing Corp, Columbia, SC                                                  Purchase          Financial Instrument for HHF Program                         —                      $58,772,347                     $295,431,547      N/A
                  3         9/29/2010                                                                                                       Financial Instrument for HHF Program                         —                      $98,659,200                                       N/A
                                                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                                                                  335
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 3/31/2013                                                                                                  (CONTINUED)                                                                                                    336
                         Seller
                                                                                                            Transaction                                                      Initial Investment             Additional Investment                                      Pricing
Note     Trade Date      Name of Institution                                                                Type              Investment Description                                    Amount                            Amount               Investment Amount1      Mechanism
         9/23/2010                                                                                                            Financial Instrument for HHF Program                $60,672,471                                     —                                    N/A
                         Alabama Housing Finance Authority, Montgomery, AL                                  Purchase                                                                                                                                   $162,521,345
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                            —                      $101,848,874                                      N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program                $55,588,050                                     —                                    N/A
                         Kentucky Housing Corporation, Frankfort, KY                                        Purchase                                                                                                                                   $148,901,875
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                            —                       $93,313,825                                      N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program                $38,036,950                                     —                                    N/A
                         Mississippi Home Corporation, Jackson, MS                                          Purchase                                                                                                                                   $101,888,323
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                            —                       $63,851,373                                      N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program               $126,650,987                                     —                                    N/A
                         GHFA Affordable Housing, Inc., Atlanta, GA                                         Purchase                                                                                                                                   $339,255,819
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                            —                      $212,604,832                                      N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program                $82,762,859                                     —                                    N/A
                         Indiana Housing and Community Development Authority, Indianapolis, IN              Purchase                                                                                                                                   $221,694,139
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                            —                      $138,931,280                                      N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program               $166,352,726                                     —                                    N/A
                         Illinois Housing Development Authority, Chicago, IL                                Purchase                                                                                                                                   $445,603,557
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                            —                      $279,250,831                                      N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program               $112,200,637                                     —                                    N/A
                         New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                        Purchase                                                                                                                                   $300,548,144
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                            —                      $188,347,507                                      N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program                  $7,726,678                                    —                                    N/A
                         District of Columbia Housing Finance Agency, Washington, DC                        Purchase                                                                                                                                     $20,697,198
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I APRIL 24, 2013




3        9/29/2010                                                                                                            Financial Instrument for HHF Program                            —                       $12,970,520                                      N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program                $81,128,260                                     —                                    N/A
                         Tennessee Housing Development Agency, Nashville, TN                                Purchase                                                                                                                                   $217,315,593
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                            —                      $136,187,333                                      N/A
                                                                                                                                                                                                          Total Investment Amount                   $7,600,000,000
Notes: Numbers may be affected by rounding. Data as of 3/31/2013. Numbered notes are taken verbatim from Treasury’s 3/27/2013 Transactions Report-Housing Programs.
1
 	The purchase will be incrementally funded up to the investment amount.
2
 	On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
 	On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 3/27/2013.




TABLE D.14
FHA SHORT REFINANCE PROGRAM, AS OF 3/31/2013
                                                                                                                                                            Initial Investment             Investment
Note      Trade Date      Seller Name                       Transaction Type      Investment Description                                                               Amount             Adjustments         Investment Amount        Pricing Mechanism
1         9/3/2010                                                                Facility Purchase Agreement, dated as of September 3, 2010,                 $8,117,000,000                          —           $1,025,000,000       N/A
                          Citigroup, Inc., New York, NY     Purchase
2         3/4/2013                                                                between the U.S. Department of the Treasury and Citibank, N.A                              —       ($7,092,000,000)                                  N/A
                                                                                                                                                                            Total Investment Amount              $1,025,000,000
Notes: Numbers may be affected by rounding. Data as of 3/31/2013. Numbered notes are taken verbatim from Treasury’s 3/27/2013 Transactions Report-Housing Programs.
1
 	On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-
   year letter of credit (the “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the mortgages refinanced under the FHA Short Refinance program during the eligibility period. After that time, the amount of the L/C
   will be capped at the then-current level. Under the terms of the L/C Facility Agreement, Treasury could incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.
2
 	On March 4, 2013, the U.S. Department of the Treasury and Citibank, N.A. entered into Amendment No. 1 to the L/C Facility Agreement, which reduced the maximum amount of the L/C from $8 billion to $1 billion; extends by two years the
   period of time Treasury has to increase the L/C to cover new loans that are entered into the program; and modified the fee structure paid to Citibank, N.A. Based on this new fee structure and the lower L/C, Treasury expects that the fees
   incurred for the availability and usage of the L/C will not exceed $25 million.

Source: Treasury, Transactions Report-Housing Programs, 3/27/2013.
                                                            DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I APRIL 24, 2013                                           337




DEBT AGREEMENTS, EQUITY AGREEMENTS, AND
DIVIDEND/INTEREST PAYMENTS
TABLE E.1
 DEBT AGREEMENTS, AS OF 3/31/2013
 TARP                              Date of               Cost                Description of                                                           Interest/                     Term of
 Program        Company            Agreement             Assigned            Investment                 Investment Information                        Dividends                     Agreement
                                                                                                        Each QFI may issue senior
                                                                             Senior                     securities with an aggregate                  7.7% for first 5
                                                                             Subordinated               principal amount of 1%–3% of its              years; 13.8%                  30 years
                                                                             Securities                 risk-weighted assets, but not to              thereafter
 CPP –          Originally                                                                              exceed $25 billion.
                                   1/14/2009a            $0.5 billion
 S-Corps        52 QFIs                                                      Senior                     Treasury will receive warrants
                                                                             Subordinated               to purchase an amount equal
                                                                             Security Warrants          to 5% of the senior securities                13.8%                         30 years
                                                                             that are exercised         purchased on the date of
                                                                             immediately                investment.
                                                                                                        Each QCU may issue CDCI
                                                                                                        Senior Securities with an
 CDCI –                                                                      Subordinated               aggregate principal amount equal
                                                                                                                                           2% for first 8 years,                    CDCI – Credit
 Credit         All                                                          Debt for Credit            to not more than 3.5% of its total
                                                                                                                                           9% thereafter                            Unions
 Unions                                                                      Unions                     assets and not more than 50%
                                                                                                        of the capital and surplus of the
                                                                                                        QCU.
                                                                                                        Each QFI may issue CDCI Senior
                                                                                                        Securities with an aggregate
                                                                                                        principal amount equal to not
                                                                                                        more than 5% of (i), if the QFI is a
                                                                                                        Certified Entity the risk-weighted
                                                                                                        assets of the QFI, or (ii), if the            3.1% for first 8
 CDCI –                                                                      Subordinated                                                                                           CDCI –
                                                                                                        QFI is not a Certified Entity, the            years, 13.8%
 S-Corps                                                                     Debt for S-Corps                                                                                       S-Corps
                                                                                                        sum of the RWAs of each of the                thereafter
                                                                                                        Certified Entities, in each case
                                                                                                        less the aggregate capital or,
                                                                                                        as the case may be, principal
                                                                                                        amount of any outstanding TARP
                                                                                                        assistance of the QFI.
                                                                                                                                                                                    The debt
                                                                                                                                                                                    obligation for
                                                                                                                                                                                    each fund
                                                                             Debt Obligation
                                                                                                        Each of the loans will be funded                                            matures at
                                   9/30/2009                                 with Contingent
 PPIP           All                                      $20 billion                                    incrementally, upon demand by                 LIBOR + 1%                    the earlier
                                   and later                                 Interest
                                                                                                        the fund manager.                                                           of the
                                                                             Promissory Note
                                                                                                                                                                                    dissolution of
                                                                                                                                                                                    the fund or
                                                                                                                                                                                    10 years.
 Notes: Numbers may be affected due to rounding.
 a
   Announcement date of CPP S-Corporation Term Sheet.

 Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
 12/31/2008; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community
 Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury’s “TARP Community Development Capital
 Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation
 Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions,” 7/8/2009.
338              APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APRIL 24, 2013




      TABLE E.2
       EQUITY AGREEMENTS, AS OF 3/31/2013
       TARP                           Date of           Cost           Description                                                            Term of
       Program       Company          Agreement         Assigned       of Investment    Investment Information            Dividends           Agreement
                                                                       Senior           1–3% of risk-weighted assets,     5% for first
                                                                       Preferred        not to exceed $25 billion for     5 years, 9%         Perpetual
                                                                       Equity           each QFI                          thereafter
       CPP –         Originally       10/14/2008a       $200.1
       Public        286 QFIs         and later         billion        Common
                                                                       Stock            15% of senior preferred
                                                                                                                          —                   Up to 10 years
                                                                       Purchase         amount
                                                                       Warrants
                                                                                        1–3% of risk-weighted assets,     5% for first
                                                                       Preferred
                                                                                        not to exceed $25 billion for     5 years, 9%         Perpetual
                                                                       Equity
                                                                                        each QFI                          thereafter

       CPP –         Originally       11/17/2008b                      Preferred
                                                        $4 billion     Stock
       Private       369 QFIs         and later
                                                                       Purchase
                                                                                        5% of preferred amount            9%                  Perpetual
                                                                       Warrants that
                                                                       are exercised
                                                                       immediately
                                                                       Preferred
                                                                                        5% of risk-weighted assets        2% for first
                                                        $780.2         Equity for
       CDCI          All                                                                for banks and bank holding        eight years, 9%     Perpetual
                                                        million        banks & thrift
                                                                                        companies.                        thereafter
                                                                       institutions
                                                                       Non-
                                                                       Cumulative       $41.6 billion aggregate
                                                                                                                          10%                 Perpetual
                                                                       Preferred        liquidation preference
                                                                       Equity
                                                                                        2% of issued and outstanding
                                                                                        common stock on investment
                     American                                                           date of 11/25/08; the warrant
                                                        $41.6                           was originally for 53,798,766
       SSFI          International    4/17/2009
                                                        billionc       Common           shares and had a $2.50
                     Group, Inc.
                                                                       Stock            exercise price, but after the
                                                                                                                          —                   Up to 10 years
                                                                       Purchase         6/30/09 split, it was for
                                                                       Warrants         2,689,938.30 shares and had
                                                                                        an exercise price of $50. In
                                                                                        March 2013, Treasury sold the
                                                                                        warrants back to AIG for $25.2
                                                                                        million.
                                                                                        Up to $29.8 billion aggregate
                                                                       Non-
                                                                                        liquidation preference. As                            Perpetual (life of
                                                                       Cumulative
                                                                                        of 9/30/09, the aggregate         10%                 the facility is 5
                                                                       Preferred
                     American                                                           liquidation preference was $3.2                       years)
                                                        $29.8          Equity
       SSFI          International    4/17/2009                                         billion.
                                                        billiond
                     Group, Inc.                                       Common
                                                                                        150 common stock warrants
                                                                       Stock
                                                                                        outstanding; $0.0002 exercise     —                   Up to 10 years
                                                                       Purchase
                                                                                        price
                                                                       Warrants
                                                                                                                                         Continued on next page
                                        DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I APRIL 24, 2013            339




EQUITY AGREEMENTS, AS OF 3/31/2013             (CONTINUED)

TARP                       Date of         Cost             Description                                                         Term of
Program   Company          Agreement       Assigned         of Investment   Investment Information             Dividends        Agreement
                                                                            Exchanged preferred Series F
                                                                            shares for $16.9 billion of AIA
                                                                            Preferred Units, $3.4 billion
                                                                            in ALICO Junior Preferred
                                                                            Interests, and 167.6 million
                                                            AIA Preferred
                                                                            shares of Common stock at
                                                            units, ALICO
                                                                            an exercise price of $43.53.
                                                            Junior
                                           $29.8                            Following the repayments to
                                                            Preferred                                          —                Up to 10 years
                                           billione                         Treasury on March 8, 2012,
                                                            Interests,
                                                                            for $6 billion, March 15, 2012,
                                                            Common
                                                                            for $1.5 billion, March 22,
                                                            Stock
                                                                            2012, for $1.5 billion, and
                                                                            May 6, 2012, for $5.8 billion,
                                                                            AIG retired the remainder of
                                                                            Treasury’s preferred equity
                                                                            interests in the AIA SPV.
          American
SSFI      International    1/14/2011                                        Exchanged preferred Series
          Group, Inc.                                                       D shares for 924.5 million
                                                                            shares of common stock at
                                                                            an exercise price of $45. On
                                                                            August 3, 2012, Treasury sold
                                                                            approximately 188.5 million
                                                                            shares of AIG’s common stock
                                                                            for $5.8 billion in proceeds. On
                                                            Common          September 10, 2012, Treasury
                                           $41.6 billionf                                                      —                Perpetual
                                                            Stock           sold approximately 636.9
                                                                            million shares of AIG’s common
                                                                            stock for approximately
                                                                            $20.7 billion in proceeds.
                                                                            On December 14, 2012,
                                                                            Treasury sold approximately
                                                                            234.2 million shares of AIG’s
                                                                            common stock for $7.6 billion
                                                                            in proceeds.
                                                                                                                                8 years with the
                                                            Membership      Each membership interest will
                           9/30/2009                                                                                            possibility of
PPIP      All                              $10 billion      interest in a   be funded upon demand from         —
                           and later                                                                                            extension for 2
                                                            partnership     the fund manager.
                                                                                                                                additional years
                                                            Mandatorily                                                         Converts to
                                                            Convertible                                                         common equity
                                                                            $5 billion                         9%
                                                            Preferred                                                           interest after 7
                                                            Stock                                                               years
          Ally Financial
AIFP      Inc. (formerly   12/29/2008      $5 billion       Preferred
          GMAC)                                             Stock                                                               Converts to
                                                            Purchase                                                            common equity
                                                                            5% of original preferred amount    9%
                                                            Warrants that                                                       interest after 7
                                                            are exercised                                                       years
                                                            immediately
                                                                                                                           Continued on next page
340          APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APRIL 24, 2013




      EQUITY AGREEMENTS, AS OF 3/31/2013                (CONTINUED)

      TARP                        Date of           Cost           Description                                                           Term of
      Program    Company          Agreement         Assigned       of Investment      Investment Information            Dividends        Agreement
                                                                   Mandatorily                                                           Converts to
                                                                   Convertible                                                           common equity
                                                                                      $4.5 billion                      9%
                                                                   Preferred                                                             interest after 7
                                                                   Stockg                                                                years
                                                                   Preferred
                 Ally Financial
                                                                   Stock                                                                 Converts to
      AIFP       Inc. (formerly   5/21/2009         $7.5 billion
                                                                   Purchase                                                              common equity
                 GMAC)                                                                5% of original preferred amount   9%
                                                                   Warrants that                                                         interest after 7
                                                                   are exercised                                                         years
                                                                   immediately
                                                                   Common
                                                                                      $3 billion                        —                Perpetual
                                                                   Equity Interesth
                                                                                      This equity interest was
                                                                                      obtained by exchanging a
                 Ally Financial
                                                                   Common             prior debt obligation with
      AIFP       Inc. (formerly   5/29/2009         $0.9 billion                                                        —                Perpetual
                                                                   Equity Interest    General Motors. See “Debt
                 GMAC)
                                                                                      Agreements” table for more
                                                                                      information.
                                                                   Trust Preferred
                                                                                      $2.5 billion                      8%
                                                                   Securities
                 Ally Financial                                    Trust Preferred                                                       Redeemable upon
      AIFP       Inc. (formerly   12/30/2009        $2.5 billion   purchase                                                              the repayment of
                 GMAC)                                             warrants that      5% of trust preferred amount      —                the debenture
                                                                   are exercised
                                                                   immediately
                                                                   Mandatorily
                                                                   Convertible
                                                                                      $1.3 billion                      9%
                                                                   Preferred
                                                                   Stock                                                                 Converts to
                 Ally Financial
                                                                   Preferred                                                             common equity
      AIFP       Inc. (formerly   12/30/2009        $1.3 billion
                                                                   Stock                                                                 interest after 7
                 GMAC)
                                                                   Purchase                                                              years
                                                                                      5% of preferred amount            —
                                                                   Warrants that
                                                                   are exercised
                                                                   immediately

                 Ally Financial
                                                                   Common
      AIFP       Inc. (formerly   12/30/2009        $5.5 billion                      $5.5 billion                      —                Perpetual
                                                                   Equity Interesth
                 GMAC)

                                                                                                                                    Continued on next page
                                                              DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I APRIL 24, 2013                                                    341




 EQUITY AGREEMENTS, AS OF 3/31/2013                                     (CONTINUED)
 Notes: Numbers may be affected due to rounding.
 a
   Announcement date of CPP Public Term Sheet.
 b
   Announcement date of CPP Private Term Sheet.
 c
   AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
 d
   The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
 e
   On 1/14/2011, (A) Treasury exchanged $27.84 billion of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including
   amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2 billion
   of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to $2
   billion. The Series G equity capital facility was subsequently terminated without drawdown.
 f
   On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative
   Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
 g
   On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
 h
   On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased
   from 56% to 74% due to this conversion.

 Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program
 Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of
 November 25, 2008, between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock and Warrant,
 Summary of Senior Preferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,”
 1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation
 and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing
 Program, Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury,
 “TARP Community Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community
 Development Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter
 S Corporation Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010; Ally
 Financial Inc. (GOM), 8−K, 12/30/2010; Treasury, Transactions Report, 9/28/2012; Treasury, “Master Transaction Agreement for American International Group. INC, ALICO Holdings LLC, AIA Aurora LLC,
 Federal Reserve Bank of New York, United States Treasury, and AIG Credit Facility Trust,” 12/8/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indictive Terms and
 Conditions,” 7/8/2009; Treasury, Transactions Report, 3/28/2013.




TABLE E.3
 DIVIDENDS, INTEREST, DISTRIBUTIONS, AND OTHER INCOME PAYMENTS, AS OF 3/31/2013
                                                  Dividends                             Interest                    Distributionsa                    Other Incomeb                                    Total
CPPc                                   $11,770,286,673                         $116,929,565                                       $—              $14,684,245,834                    $26,571,462,072
CDCI                                           18,620,791                            8,762,399                                      —                                   —                     27,383,190
SSFI  d
                                              641,275,676                                       —                                   —                   609,367,995                      1,250,643,671
TIP                                        3,004,444,444                                        —                                   —                 1,427,190,941                      4,431,635,385
AGP                                           642,832,268                                       —                                   —                 3,483,197,045                      4,126,029,313
PPIP                                                         —                   319,164,963                         909,926,799                      2,058,498,949                      3,287,590,711
UCSB                                                         —                     13,347,352                                       —                     29,201,848                          42,549,200
AIFPe                                      3,541,738,301                      1,665,336,675                                         —                   530,000,000                      5,737,074,976
ASSP                                                         —                     31,949,931                                       —                     84,000,000                        115,949,931
Total                                $19,619,198,153                       $2,155,490,885                        $909,926,799                   $22,905,702,612                    $45,590,318,449
Notes: Numbers may not total due to rounding.
a
  Distributions are gross income from PPIF trading activity and do not include return of equity capital to Treasury.
b
   Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending
   Initiative/SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with capital gains and warrant proceeds in PPIP as PPIFs are liquidated.
c
  Includes $13 million fee received as part of the Popular exchange.
d
  Pursuant to the recapitalization plan on 1/14/2011, AIG had an additional obligation to Treasury of $641,275,676 to reflect the cumulative unpaid interest which further converted into AIG common stock.
   Other income from SSFI includes $165 million in fees and approximately $292.1 million representing return on securities held in the AIA and ALICO SPVs.
e
  Includes AWCP.

Sources: Treasury, Transactions Report, 3/28/2013; Treasury, Section 105(a) Report, 4/10/2013; Treasury, Dividends and Interest Report, 4/10/2013; Treasury, response to SIGTARP data call,
4/11/2013.
                                                                                                                                                                                                                                                                                                            342
HAMP MODIFICATION STATISTICS
TABLE F.1

 ANNUAL AND CUMULATIVE HAMP TIER 1 MODIFICATION ACTIVITY, AS OF MARCH 31, 2013
                        Trial Modifications Started                          Trial Modifications Cancelled              Trial Modifications Active     Trial Modifications Converted to Permanent           Permanent Modifications Cancelled                  Permanent Modifications Active

                                                       Annual As                                       As Percent                       As Percent                                       As Percent                                       As Percent                                       As Percent
                                                      Percent of                                          of Trials                        of Trials                                        of Trials                                        of Trials                                        of Trials
                                                      Total Trials                                        Started                          Started                                          Started                                          Started                                          Started
                         Annual      Cumulative          Started          Annual      Cumulative       Cumulative          Annual       Cumulative          Annual      Cumulative       Cumulative          Annual      Cumulative       Cumulative          Annual      Cumulative       Cumulative

 TARP      2009        392,129          392,129              40%          23,720           23,720               6%        344,776              88%          23,633          23,633                6%            131              131           0.03%          23,502           23,502                  6%

           2010        275,989          668,118              28%         302,610         326,330              49%          74,893              11%        243,262          266,895              40%          29,248           29,379               4%        214,014          237,516              36%

           2011        170,075          838,193              17%          16,798         343,128              41%          42,916                5%       185,254          452,149              54%          59,739           89,118             11%         125,515          363,031              43%

           2012        114,227          952,420              12%           6,062         349,190              37%          36,336                4%       114,745          566,894              60%          60,358         149,476              16%          54,388          417,419              44%

           2013          22,253         974,673               2%           1,312         350,502              36%          32,636                3%         24,641         591,535              61%          13,624         163,100              17%          11,016          428,435              44%

            Total      974,673                                           350,502                                                                          591,535                                           163,100                                          428,435

 GSE       2009        510,491          510,491              50%          24,731           24,731               5%        442,455              87%          43,305          43,305                8%            342              342           0.07%          42,963           42,963                  8%

           2010        287,839          798,330              28%         383,448         408,179              51%          77,396              10%        269,450          312,755              39%          28,299           28,641               4%        241,151          284,114              36%

           2011        138,072          936,402              13%          10,654         418,833              45%          36,391                4%       168,423          481,178              51%          52,729           81,370               9%        115,694          399,808              43%
                                                                                                                                                                                                                                                                                                            APPENDIX F I HAMP MODIFICATION STATISTICS I APRIL 24, 2013




           2012          81,478       1,017,880               8%           4,814         423,647              42%          25,775                3%         87,280         568,458              56%          54,500         135,870              13%          32,780          432,588              42%

           2013          12,741       1,030,621               1%             470         424,117              41%          23,240                2%         14,806         583,264              57%          13,550         149,420              14%           1,256          433,844              42%

            Total     1,030,621                                          424,117                                                                          583,264                                           149,420                                          433,844

 Total     2009        902,620          902,620              45%          48,451           48,451               5%        787,231              87%          66,938          66,938                7%            473              473           0.05%          66,465           66,465                  7%

           2010        563,828        1,466,448              28%         686,058         734,509              50%         152,289              10%        512,712          579,650              40%          57,547           58,020               4%        455,165          521,630              36%

           2011        308,147        1,774,595              15%          27,452         761,961              43%          79,307                4%       353,677          933,327              53%         112,468         170,488              10%         241,209          762,839              43%

           2012        195,705        1,970,300              10%          10,876         772,837              39%          62,111                3%       202,025        1,135,352              58%         114,858         285,346              14%          87,168          850,007              43%

           2013          34,994       2,005,294               2%           1,782         774,619              39%          55,876                3%         39,447       1,174,799              59%          27,174         312,520              16%          12,272          862,279              43%

           Total     2,005,294                                          774,619                                                                         1,174,799                                          312,520                                          862,279

 Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2012; and March 31, 2013.

 Sources: Treasury, responses to SIGTARP data calls, 4/19/2013, 2/28/2013, 1/22/2013, 1/20/2012, and 1/21/2011; Fannie Mae, response to SIGTARP data call, 4/19/2013; SIGTARP, Quarterly Report to Congress, 1/30/2013; SIGTARP Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to
 Congress, 1/26/2011; SIGTARP Quarterly Report to Congress, 1/30/2010.
                                                      CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978 | APPENDIX G I APRIL 24, 2013               343




CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL
ACT OF 1978
This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978 (P.L. 95-
452), as amended, 5 U.S.C. APP.

Section    Statute (Inspector General Act of 1978)                 SIGTARP Action                              Report Reference

Section    “Description of significant problems, abuses, and       List problems, abuses, and deficiencies     Section 1: “The Office of the SIGTARP”
5(a)(1)    deficiencies...”                                        from SIGTARP audits and investigations.     Section 4: “SIGTARP Recommendations”
           “Description of recommendations for corrective                                                      Section 1: “The Office of the SIGTARP”
Section                                                            List recommendations from SIGTARP
           action…with respect to significant problems,
5(a)(2)                                                            audits and investigations.                  Section 4: “SIGTARP Recommendations”
           abuses, or deficiencies...”
           “Identification of each significant recommendation      List all instances of incomplete
Section
           described in previous semiannual reports on which       corrective action from previous             Section 4: “SIGTARP Recommendations”
5(a)(3)
           corrective action has not been completed...”            semiannual reports.
           “A summary of matters referred to prosecutive
Section                                                            List status of SIGTARP investigations
           authorities and the prosecutions and convictions                                                    Section 1: “The Office of the SIGTARP”
5(a)(4)                                                            referred to prosecutive authorities.
           which have resulted...”
           “A summary of each report made to the [Treasury
Section    Secretary] under section 6(b)(2)...” (instances         List TARP oversight reports by Treasury,    Appendix I: “Key Oversight Reports and
5(a)(5)    where information requested was refused or not          GAO, and SIGTARP.                           Testimony”
           provided).
           “A listing, subdivided according to subject matter,
Section    of each audit report issued...” showing dollar value
                                                                   List SIGTARP audits.                        Section 1: “The Office of the SIGTARP”
5(a)(6)    of questioned costs and recommendations that
           funds be put to better use.
Section    “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                               Section 1: “The Office of the SIGTARP”
5(a)(7)    report...”                                              SIGTARP audits.
           “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   Section 1: “The Office of the SIGTARP”
Section
           reports and the total dollar value of questioned        value of questioned costs from SIGTARP
5(a)(8)                                                                                                        Section 4: “SIGTARP Recommendations”
           costs...”                                               audits.
                                                                                                               As detailed in Section 1: “The Office of the
           “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   SIGTARP,” SIGTARP has made important
Section
           reports and the dollar value of recommendations         value of funds put to better use by         findings in its audit reports. However, to date
5(a)(9)
           that funds be put to better use by management...”       management from SIGTARP audits.             SIGTARP’s audits have not included funds put
                                                                                                               to better use findings.
           “A summary of each audit report issued before
           the commencement of the reporting period for
                                                                   Provide a synopsis of significant
           which no management decision has been made by                                                       Section 1: “The Office of the SIGTARP”
Section                                                            SIGTARP audit reports in which
           the end of reporting period, an explanation of the
5(a)(10)                                                           recommendations by SIGTARP are still        Section 4: “SIGTARP Recommendations”
           reasons such management decision has not been
                                                                   open.
           made, and a statement concerning the desired
           timetable for achieving a management decision...”
                                                                   Explain audit reports in which              Section 1: “The Office of the SIGTARP”
Section    “A description and explanation of the reasons for
                                                                   significant revisions have been made to
5(a)(11)   any significant revised management decision...”                                                     Section 4: “SIGTARP Recommendations”
                                                                   management decisions.
           “Information concerning any significant                                                             Section 1: “The Office of the SIGTARP”
Section                                                            Provide information where management
           management decision with which the Inspector
5(a)(12)                                                           disagreed with a SIGTARP audit finding.     Section 4: “SIGTARP Recommendations”
           General is in disagreement...”
344        APPENDIX H I PUBLIC ANNOUNCEMENTS OF AUDITS I APRIL 24, 2013




 PUBLIC ANNOUNCEMENTS OF AUDITS
 This appendix provides an announcement of new and                        GAO3
 ongoing public audits by the agencies listed below, as of                Ongoing Audits
 March 31, 2013. See Appendix I: “Key Oversight Reports                   •	 Status of CPP and financial health of ongoing institutions
 and Testimony” for a listing of published reports. Italic                   will be released in May.
 style indicates narrative taken verbatim from the agencies’              •	 For July, the CPP exit strategy and auction process.
 responses to SIGTARP’s data call.                                        •	 For September, the AIFP.
 •	 U.S. Department of Treasury Office of Inspector General
     (“Treasury OIG”)                                                     FDIC OIG4
 •	 Federal Reserve Board Office of Inspector General                     Ongoing Audits
     (“Federal Reserve OIG”)                                              •	 None
 •	 Government Accountability Office (“GAO”)
 •	 Federal Deposit Insurance Corporation Office of Inspector             Endnotes
                                                                          1
                                                                            Treasury OIG, response to SIGTARP data call, 4/3/2013.
     General (“FDIC OIG”)                                                 2
                                                                            Federal Reserve OIG, response to SIGTARP data call, 4/5/2013.
                                                                          3
                                                                            GAO, response to SIGTARP data call, 4/2/2013.
 Treasury OIG1                                                              FDIC OIG, response to SIGTARP data call, 3/28/2013.
                                                                          4



 Ongoing Audits
 •	 None

 Federal Reserve OIG2
 Ongoing Audits
 •	 None
                                                                                       KEY OVERSIGHT REPORTS AND TESTIMONY I APPENDIX I I APRIL 24, 2013   345




KEY OVERSIGHT REPORTS AND TESTIMONY
This list reflects TARP-related reports and testimony published in the quarter ended March 31, 2013.
See previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.

U.S. DEPARTMENT OF THE TREASURY (TREASURY)
ROLES AND MISSION

The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. Government’s finances effectively;
promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury
advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial
institutions.

OVERSIGHT REPORTS

Treasury, Transactions Report, 12/28/2012 – 3/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/TARP-Investment-Program-
Transaction-Reports.aspx, accessed 4/3/2013. (released weekly)

Treasury, Daily TARP Update, 1/2/2013 – 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/Daily-TARP-Reports.aspx,
accessed 4/3/2013.

Treasury, TARP Monthly 105(a) Report, 1/10/2013 – 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-
Congress.aspx, accessed 4/17/2013.

Treasury, Dividends and Interest Report, 1/10/2013 – 4/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/Dividends-and-
Interest-Reports.aspx, accessed 4/17/2013. (released monthly)

Treasury, Making Home Affordable Program Report, 1/11/2013 – 4/5/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/Making-
Home-Affordable-Program-Performance-Report.aspx, accessed 4/18/2013. (released monthly)

Treasury, HAMP Activity by Metropolitan Statistical Area, 1/11/2013 – 4/5/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/
HAMP-Report.aspx, accessed 4/18/2013. (released monthly)


GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
ROLES AND MISSION

GAO is tasked with performing ongoing oversight of TARP’s performance, including:

•	   evaluating the characteristics of asset purchases and the disposition of assets acquired
•	   assessing TARP’s efficiency in using the funds
•	   evaluating compliance with applicable laws and regulations
•	   assessing the efficiency of contracting procedures
•	   auditing TARP’s annual financial statements and internal controls
•	   submitting reports to Congress at least every 60 days.


OVERSIGHT REPORTS

GAO, “Troubled Asset Relief Program: Status of GAO Recommendations to Treasury.” GAO-13-324R, March 8, 2013, www.gao.gov/
assets/660/652900.pdf, accessed 4/3/2013.

GAO, “Troubled Asset Relief Program: Treasury Sees Some Returns as It Exits Programs and Continues to Fund Mortgage Programs.” GAO-13-192,
January 7, 2013, www.gao.gov/assets/660/651179.pdf, accessed 4/3/2013.
346           APPENDIX I I KEY OVERSIGHT REPORTS AND TESTIMONY I APRIL 24, 2013




      SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
      ROLES AND MISSION

      Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
      the purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).
      SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
      coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.

      OVERSIGHT REPORTS

      SIGTARP, “Treasury Continues Approving Excessive Pay for Top Executives at Bailed-Out Companies,” 1/28/2013, www.sigtarp.gov/Audit%20
      Reports/2013_SIGTARP_Bailout_Pay_Report.pdf, accessed 4/3/2013.

      SIGTARP, “Taxpayers Continue to Own 74% of GMAC From the TARP Bailout,” 1/30/2013, www.sigtarp.gov/Audit%20Reports/Taxpayers_GMAC.pdf,
      accessed 4/3/2013.

      SIGTARP, “Quarterly Report to Congress,” 1/30/2013,www.sigtarp.gov/Quarterly%20Reports/January_30_2013_Report_to_Congress.pdf,
      accessed 4/3/2013.

      RECORDED TESTIMONY
      SIGTARP, Written Testimony of the Honorable Christy Romero, Special Inspector General for the Troubled Asset Relief Program (SIGTARP), Submitted
      to the U.S. Senate Committeee on Banking, Housing, and Urban Affairs, 2/14/2013, www.sigtarp.gov/Testimony/SIGTARP_Senate_Banking_
      Committee_Testimony_Feb_14_2013.pdf, accessed 4/3/2013.
      SIGTARP, Statement of the Honorable Christy Romero, Special Inspector General for the Troubled Asset Relief Program (SIGTARP), Before the U.S.
      House Committeee on Oversight and Government Reform Subcommittee on Economic Growth, Job Creation, and Regulatory Affairs, 2/26/2013,
      www.sigtarp.gov/Testimony/SIGTARP_House_Oversight_Committee_Testimony_Feb_26_2013.pdf, accessed 4/3/2013.
      Notes: Italic style indicates verbatim narrative taken from source documents.

      Sources: Treasury, www.treasury.gov, accessed 4/3/2013; GAO, www.gao.gov, accessed 4/3/2013; OMB, www.whitehouse.gov/omb, accessed 4/3/2013; SIGTARP, www.sigtarp.gov, accessed
      4/3/2013; GAO, response to SIGTARP data call, 4/2/2013.
                                                                                    CORRESPONDENCE I APPENDIX J I APRIL 24, 2013   347




CORRESPONDENCE
This appendix provides a copy of the following correspondence:

CORRESPONDENCE
Date           From             To              Regarding
4/1/2013       SIGTARP          Treasury        Recommendations Regarding the Home Affordable Modification Program ("HAMP")
348   APPENDIX J I CORRESPONDENCE I APRIL 24, 2013
CORRESPONDENCE I APPENDIX J I APRIL 24, 2013   349
350           APPENDIX K I PEER REVIEW RESULTS I APRIL 24, 2013




      PEER REVIEW RESULTS
      Peer Review of SIGTARP’s Audit Division                          Peer Review of SIGTARP’s Investigations Division
      In September 2012, SIGTARP’s Audit Division passed               In August 2012, SIGTARP’s Investigations Division passed
      its mandated external peer review with the highest rating        its mandated external peer review with the highest rating
      possible, a peer review rating of pass. Government Auditing      possible, a peer review rating of compliance with the quality
      Standards requires Federal Offices of Inspector General          standards established by CIGIE and the applicable Attorney
      that perform audits or attestations in accordance with           General guidelines.
      generally accepted government auditing standards to have an          The Department of Education Office of Inspector
      appropriate system of quality control and to undergo external    General (“DE OIG”) conducted a comprehensive peer review
      peer reviews at least once every three years. The SIGTARP        of the SIGTARP Investigations Division’s system of internal
      Audit Division began operating in early 2009, and this was its   safeguards and management procedures.
      first peer review.                                                   On August 29, 2012, the DE OIG’s report concluded that
          The Railroad Retirement Board Office of Inspector            SIGTARP’s system of internal safeguards and management
      General (“RRB OIG”) conducted a comprehensive peer               procedures for its investigative functions in effect for the
      review of the SIGTARP Audit Division’s system of quality         period ending May 2012 was in compliance with the quality
      control in accordance with Government Auditing Standards         standards established by CIGIE and the applicable Attorney
      and guidelines established by the Council of the Inspectors      General guidelines. These safeguards and procedures provide
      General on Integrity and Efficiency (“CIGIE”). On                reasonable assurance of conforming with professional
      September 4, 2012, the RRB OIG issued its System Review          standards in the planning, execution, and reporting of
      Report on the operations of SIGTARP’s Audit Division. The        SIGTARP’s investigations.
      report noted that “the system of quality control for SIGTARP         The report is available on SIGTARP’s website at
      in effect for the year ended March 31, 2012, has been            www.SIGTARP.gov, under “Audit and Other Reports.”
      suitably designed and complied with to provide SIGTARP
      with reasonable assurance of performing and reporting in
      conformity with applicable professional standards in all
      material respects.”
          The report is available on SIGTARP’s website at
      www.SIGTARP.gov, under “Audit and Other Reports.”
ORGANIZATIONAL CHART

                                                                                                                                 Special Inspector General
                                                                                                                                     Christy Romero

                                                                                                                                                                                                 EEO Program
                                                                                                                                                                                                   Manager
                                                                                                                                                                                                Raymond Campbell
                                                                                                                                       Deputy Special
                                                                                                                                     Inspector General
                                                                                                                                         Peggy Ellen
                                                                         Senior Policy Advisor                                                                               Chief of Staff
                                                                              Brian Sano                                                                                          Vacant


                          Deputy SIG –                 Deputy SIG –                          Deputy SIG –                              Deputy SIG –                             Deputy                     Deputy SIG –
                         Investigations                 Reporting                             Legal and                                 Audit and                            Chief of Staff                 Operations
                         Scott Rebein                   Mia Levine                          External Affairs                           Evaluations
                                                                                                                                                                             Charles Jones                   Cathy Alix
                                                                                           Roderick Fillinger                              Vacant


 Chief Investigative         ADSIG                     Managing Editor        Director of                 Director of                    Assistant              Director of Policy     ADSIG − Support       ADSIG − HR     ADSIG − CIO      ADSIG − CFO
      Counsel                                                                                                                           Deputy SIG –
                                                                            Communications             Legislative Affairs                                     and Administration         Services
                            Vacant                    Maryann Haggerty                                                                                                                                        Sally Ruble   Sangeeta Saraf   Deborah Mathis
       Vacant                                                                 Troy Gravitt             Joseph Cwiklinski                 Audit and                 Judith Grady         Lynn Perkoski
                                                                                                                                        Evaluations

                          Investigative                                                                                             Bruce Gimbel (Acting)
Investigative Counsel
                           Operations




                            HQ Operations



                               Hotline
                                                                                                                   Director                Director              Director
                                                                                                                Leslye Burgess           Craig Meklir           Eric Mader
                         Computer Forensics


                                                                                                            Auditors & Analysts       Auditors & Analysts   Auditors & Analysts




       Note: SIGTARP Organizational chart as of 4/24/2013
                                                                                                                                                                                                                                                              ORGANIZATIONAL CHART I APPENDIX L I APRIL 24, 2013
                                                                                                                                                                                                                                                              351
